<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
            Prepared Statement of the 1854 Treaty Authority
    The 1854 Treaty Authority (Authority) is a Tribal organization 
funded by a Public Law 93-638 contract with the Bureau of Indian 
Affairs (BIA) under its Trust-Natural Resources Management-Rights 
Protection Implementation (RPI) budget.
  --The Authority supports funding of the BIA Rights Protection 
        Implementation Program at the approved fiscal year 2017 level 
        and a proportionate share for the Authority. We believe that 
        the funding (as well as any increase in funding) should be 
        allocated in the same proportions as it has historically been 
        distributed.
  --The Authority supports the full finding of contract support for its 
        Public Law 93-638, Self-Determination contract.
  --The Authority supports maintaining funding for the EPA Great Lakes 
        Restoration budget at least at its current level.
    The Authority is a Tribal organization responsible for protecting, 
preserving, and regulating the Treaty-reserved hunting, fishing and 
gathering rights in the territory ceded to the United States by the 
Chippewa in the Treaty of September 30, 1854, 10 Stat. 1109. The Bois 
Forte Band and the Grand Portage Band created the authority following 
Federal court affirmation of the rights in 1988. As part of a court-
approved agreement with the State of Minnesota, the Bands have 
obligations to preserve the natural resources in the 5 million acre 
ceded territory and to regulate the activities of Band members through 
a conservation code, enforcement officers, and a court. The Authority 
has been involved with a variety of inter-agency efforts to study the 
effect of invasive species, climate change, and other activities that 
impact treaty resources.
    Although it has significant responsibilities in a geographic area 
the size of Massachusetts, the Authority has only 17 full-time 
employees. With those limited resources, the Authority has been able to 
collaborate with State, Tribal and Federal agencies to become a 
prominent presence in the conservation of resources critical to the 
subsistence hunting, fishing and gathering activities of the Chippewa. 
The challenges facing all natural resource management agencies mean 
that we need to continue cooperative research and restoration at the 
present level or risk setbacks that have a negative impact on future 
generations.
    The successes of the Authority are overshadowed by the challenges 
facing the trust resources that are at the heart of the Treaty rights. 
For reasons unknown, the Minnesota moose population has declined 
significantly in just a few years and both terrestrial and aquatic 
invasive species and climate change threaten the Treaty fishing and 
wild rice production areas across the ceded territory. In addition, 
human activities continue to deplete or displace wildlife populations.
    The Authority urges the subcommittee and the Congress to 
acknowledge that the resources we seek to protect are trust resources, 
reserved in treaties that the United States has a legal obligation to 
protect and preserve.

    [This statement was submitted by Millard J. Myers, Executive 
Director.]
                                 ______
                                 
          Prepared Statement of the Academy of American Poets
    The National Endowment for the Arts and the National Endowment for 
the Humanities have, over the past fifty years, fostered an educated, 
broadly informed, and creative America at every level, from sponsoring 
national awards to seeding grants that support local programs in 
schools, communities, military bases, hospitals, museums, and beyond, 
throughout the country. Federal funding for the arts and humanities 
underwrites scores of other nonprofit poetry organizations and 
publishers, arts education programs, libraries, archives, as well as 
the work of individual poets. Without this Federal funding, many of our 
wide-reaching and impactful efforts will likely be jeopardized.
    Poetry matters. The arts and humanities encourage reflection, 
empathy, and imagination--all qualities necessary to our individual and 
collective success. American poetry and literature do more than 
preserve the unique stories of our citizens; they shape our civic 
identity.
    Poets have few opportunities for support. NEA fellowships are 
critical to sustaining the art form. We invite you to hear from two 
recipients of NEA fellowships in poetry:
Nickole Brown, NEA Fellowship in Poetry, 2009, North Carolina Resident:
    I was raised on the literary equivalent of grease and plastic--of 
cheap grocery-store novels and tabloid magazines, of overcrowded and 
sometimes violent public schools, of a working-class Kentucky that had 
a lot more faith in the ability of a hammer to earn a living than a 
pen. With the exception of the family King James, we didn't even keep 
books in the house, and I was the first in my family to get through 
high school, much less go on to pursue graduate studies in something as 
unheard of as creative writing. Matter of fact, my grandmother--who had 
more than her hand in raising me--never learned to read and write, and 
it was her story that I set out to get on the page when I applied for 
an NEA Literature Fellowship back in 2008. That book, a biography in 
poems called Fanny Says, was completed because of that grant and was 
later published by BOA Editions in 2015.
    But it wasn't merely my second book that came out of that gift, no. 
What resulted was the life I have now, and have no doubt--I would never 
be where I am without that chance given to me during a time in which I 
needed it most.
    You see, at first, I can't imagine my request was much different 
than anyone else's--I needed time to write, desperately needed time to 
write, just a little time, pure and simple. This was true, but what I 
received--freedom, validation, recognition, confidence--amounted to 
much more than a mere sabbatical. What resulted was nothing short of a 
complete life change: in addition to having a spell to work on my 
poems, I also gained enough courage to move away from 10 years in a 
highly rewarding but demanding job in independent publishing. This was 
a terrifying and bittersweet change, but I realized that it was time 
for me to grow, and more importantly, to take myself absolutely serious 
as a writer.
    Although the amount granted to me at the time might not seem like a 
lot of money to some, I was able to sustain myself on it for 3 years, 
and unexpectedly, the boost had a cumulative effect, bringing more 
teaching and reading engagements than I could have ever have acquired 
on my own. Since then, I've managed to find a way to sustain myself, 
working mostly full-time as a writer, and there's absolutely no way I 
would have been able to do that if not for the generosity shared with 
me all those years ago.
    When I first was granted that fellowship, I received a lot of notes 
from friends and family, but the one I truly remember came from the 
fiction writer Mary Ann Taylor-Hall. Like the rest, she wrote to 
congratulate me, but specifically, she said my life had finally `busted 
out of the dark.' I don't think I could have possibly understood what 
she meant at the time, but looking back, I get it--the NEA forced me 
out into the light, to a place where I had to see myself as legitimate, 
a voice lifting up among the chorus of so many voices who had received 
the NEA's assistance before me. That honor meant the world to me, and 
my world was changed.
Maggie Smith, NEA Fellowship, 2011, Ohio Resident
    I received a fellowship in poetry from the National Endowment for 
the Arts in 2011. I am not being hyperbolic when I say it changed my 
life. At the time I was working fulltime as an editor, squeezing all of 
my parenting and writing time in at night. My daughter was only 2 years 
old at the time and had been in fulltime daycare since she was twelve 
weeks old, when my (largely unpaid) maternity leave ended. Let's be 
clear: $25,000 is not a lot of money to the Federal government. But 
it's a great deal of money to a poet and young mother with student loan 
debt and sizeable family health expenses. That NEA fellowship gave me 
the financial cushion and the courage to leave my day job and to start 
my own freelance business. The flexibility of freelance work meant that 
I could devote more time to poetry. I went on my first writing 
residency at ?the Virginia Center for the Creative Arts?, which would 
have been impossible given my limited vacation time at work, and thanks 
to that uninterrupted time, finally finished my second book, The Well 
Speaks of Its Own Poison. Working from home also allowed me to reduce 
my daughter's daycare to part-time hours so that we could be together 
more. Funding from the NEA was a godsend, both professionally and 
personally. Perhaps most importantly, the grant reminded me--when I was 
splitting my time between parenting and working in a cubicle--that I 
was a poet. I haven't forgotten that since. I thank the NEA for that.?
    The Academy of American Poets is the Nation's largest membership-
based nonprofit organization fostering an appreciation for contemporary 
poetry and supporting American poets. The organization reaches more 
than 20 million Americans in all 50 States with its free programs: 
Poets.org, National Poetry Month, the popular Poem-a-Day series, and 
resources for K-12 educators.
    Thank you for your time.

    [This statement was submitted by Jennifer Benka, Executive 
Director.]
                                 ______
                                 
 Prepared Statement of the All Pueblo Council of Governors, New Mexico
Requests:
    1.  Continued support and funding for the Land-into-Trust Program 
at Interior.
    2.  Sustainable funding for the National Forest Service and 
Interior forestry programs.
    3.  Maintain the $1 million set-aside for NAGPRA-related law 
enforcement going forward.
    4.  Provide dedicated funding for Bears Ears National Monument.
    5.  Increase funding for broadband development to bridge the 
digital divide in Indian Country.
    6.  Increase funding to address negative health outcomes associated 
with inadequate housing.
    7.  Support vocational and S.T.E.M. programs in Tribal schools for 
increased student success.

    Introduction. Thank you Chairman Murkowski, Ranking Member Udall, 
and Members of the subcommittee for the opportunity to testify on the 
critically important topic of Federal funding for American Indian and 
Alaska Native programs in the Department of the Interior. The All 
Pueblo Council of Governors thanks you for your dedicated efforts to 
advance Indian Country priorities in the United States Senate.
    My name is Paul Torres and I am the Chairman of the All Pueblo 
Council of Governors (APCG), which is comprised of the Tribal leaders 
(Governors) of all 19 of the New Mexico Pueblos as well as the Pueblo 
of Ysleta del Sur in El Paso, Texas. Formed in 1598, the APCG is the 
oldest consortium of Tribal leaders in the United States. Collectively, 
the leadership of the APCG is respectful of the historic relationship 
between the Pueblos and the Federal Government. This relationship is 
political in nature, reflecting the government-to-government 
relationship between and among our governments. The Federal budget for 
Indian programs is an important aspect of that relationship and is 
reflective of the Federal Government's trust responsibility to Indian 
nations and Indian peoples. As such, Federal Indian laws and associated 
budgets are deeply rooted in the Constitution and represent an enduring 
promise of friendship and support to the First Americans.\1\ In the 
spirit of cooperation, based on respect and full consideration of the 
sovereign status of Tribes, we offer the following budget 
recommendations for fiscal year 2018.
---------------------------------------------------------------------------
    \1\ Suggestions that these laws are somehow not constitutional are 
made without a deep understanding of this area of law. It has been long 
settled that Federal Indian laws are constitutional; to our knowledge 
no Federal Indian law has ever been struck down as unconstitutional. 
See Morton v. Mancari, 417 U.S. 535, 555 (1974) (upholding an 
employment preference for Indians in the Bureau of Indian Affairs (BIA) 
in the face of an equal protection challenge, on the basis that the 
preference was political in nature and could be ``tied rationally to 
the fulfillment of Congress' unique obligation toward the Indians'').
---------------------------------------------------------------------------
                   i. land base and natural resources
    The sandstone mesas, verdant hills, brush covered flatlands, and 
steep mountains of the southwestern United States form the landscape in 
which we exercise our Tribal sovereignty and cultural identities as 
Pueblo People. We are not just people residing on this beautiful land; 
we are a People of this land. We carry it in the very essence of our 
being. Our connection is etched deep into our collective history and 
memories. Wise stewardship of land, minerals, water, and other 
resources is, therefore, key to our cultural survival and socioeconomic 
well-being as sovereign Tribal nations.
    Continuation of the Land-into-Trust Program. As sovereign Tribal 
governments, the exercise of our self-determination is strengthened by 
the ability of the Federal Government to take land into trust on behalf 
of Tribes. Trust lands enable us to provide a homeland for our people 
as well as a base from which to offer essential governmental services, 
such as housing, education, healthcare, and economic development 
opportunities. Trust lands also facilitate the expression of our 
identity as Pueblo people by protecting the natural and cultural 
resources that form the bedrock of our traditional practices and 
ceremonies. We urge Congress to provide continued support and funding 
for the land-into-trust program at the Department of the Interior.
    Funding for the National Forest Service and Interior Forestry 
Programs. The APCG also encourages support for policy and legislation 
that provide funding for effective and sustainable natural resource 
management practices, particularly in regards to the Interior's 
forestry programs. The trees and shrubs of our southwestern national 
forests play critical roles in regional economic development, disaster 
mitigation efforts, recreation, and ecological habitats for many local 
wildlife and plant species. Cuts in Federal funding for forestry 
management threaten the delivery of services in each of these areas. 
Our historic attachment to the southwest landscape and geography 
including the national forests forms the core of our traditional belief 
systems and cultural worldview. We respectfully request National Forest 
Service funding at least at the fiscal year 2016 enacted level to 
maintain the effective management of our national forests and their 
diverse resources.
              ii. protection for tribal cultural patrimony
    Dedicated NAGPRA Enforcement Funds--Thank you for this Committee's 
Support! The APCG would like to take this opportunity to thank the 
subcommittee and all of Congress for including a one million dollar 
appropriation in the 2017 Omnibus to strengthen the implementation of 
the Native American Graves Protection and Repatriation Act (NAGPRA). 
Dedicated funding for expanded Bureau of Indian Affairs law enforcement 
activities related to NAGPRA advances stronger Federal protections for 
cultural patrimony put in place under the PROTECT Patrimony Resolution, 
adopted by both the House and Senate in the last Congress (H. Con. Res. 
122 Dec. 2016). We thank you for your support and encourage continued 
funding in this important area going forward.
    Bears Ears National Monument. Our cultural heritage resides not 
only in the tangible objects protected by NAGPRA and the PROTECT 
Patrimony Resolution, but also in the living landscapes from which our 
people emerged, long before the arrival of the first Europeans to this 
continent. Our ancestral ties to the Bears Ears National Monument in 
Utah can be traced through the ancient roads, dwellings, petroglyphs, 
and ceremonial features that continue to enrich the region today. 
However, these sites are under constant threat by erosion, vandalism, 
looting, and indiscriminate damage through off-road vehicle use, as 
well as the general degradation of wildlife and plan habitats that are 
significant to our traditional practices. We urge Congress to preserve 
the designation of Bears Ears as a National Monument to support the 
permanent, long-term protection of the land and its irreplaceable 
resources and to provide appropriate funding for its preservation.
           iii. infrastructure development in indian country
    Many Pueblos are economically distressed rural communities. 
Infrastructure development is essential to diversifying and sustaining 
rural economies. However, most Tribal lands are subject to conditions 
that require intense overhauling--roads are often unimproved, utilities 
are insufficient, and reliable broadband connections barely exist. In 
addition, other types of infrastructure critical to creating vibrant 
Tribal communities such as new housing construction are deficient, with 
severe housing shortages occurring on Tribal lands.
    Increased Access to Capital for Economic Development. Pueblo 
governments and Pueblo-owned businesses are collectively among the 
largest employers in New Mexico, providing thousands of jobs in many 
rural areas of the State. Most recent statewide figures put the number 
of jobs provided by Tribal employers at nearly 18,000 in various 
industries. Non-Indians hold nearly 75 percent of these jobs. Despite 
such positive contributions, limited access to capital and financing 
remains one of the most significant barriers to Pueblo economic 
development. Tribes across the country struggle with uniquely 
burdensome Federal restrictions and regulations, poor infrastructure, 
and other challenges that limit their economies from flourishing. It is 
important to create avenues for investment funds, financial resources, 
and business models that are mutually advantageous to Tribes and 
potential partners for economic advancement, stability, and 
diversification. The opportunity to provide for a family through a 
desirable job with a decent income is a shared desire of all Americans.
    Broadband Infrastructure for Expanded Community Services. We are 
living in the digital age. The Internet has the potential to link an 
individual to the world at the click of a button, yet many Pueblo 
communities do not have access to the basic technology or reliable 
broadband systems that make even an initial connection possible. Our 
Tribal members are unable to take advantage of the myriad of benefits 
that the Internet has to offer, which range from access to online GED 
and higher education degrees, to telehealth medical services, to 
expanded economic opportunities for business investment, among many 
others. For communities that successfully connect to the broadband 
network, the experience is transformative. We urge Congress to bridge 
the digital divide and provide increased funding for broadband 
development in Indian Country.
    Health Begins at Home--Investing in Housing Development. Access to 
affordable, safe housing is the foundation for strong families, 
communities, and economies. Just as the deserts, mountains, and mesas 
provide a spiritual and cultural home for our Pueblo communities, 
Tribal governments have the responsibility of providing housing for our 
Tribal members. However, we depend on Federal appropriations under the 
Native American Housing and Self-Determination Act (NAHASDA) to meet 
many of our housing-related needs. A 2014 study conducted by the U.S. 
Department of Housing and Urban Development reported unacceptable 
living conditions for American Indians in New Mexico and Arizona 
counties with high rates of overcrowding and incomplete utility systems 
for kitchens and bathrooms. We urge Congress to provide increased 
funding to the Indian Health Service (IHS) address negative health 
outcomes associated with critical housing shortages that imperil our 
Tribal communities.
         iv. educational opportunities in our home communities
    Pueblo leaders wish to create a highly skilled, well-educated, 
workforce within their respective Tribal communities. With a pool of 
qualified workers, the Pueblos believe they will be able to attract 
business and economic development possibilities, create well-paying job 
opportunities, and assure that Tribal members enjoy a prosperous future 
that comes with being well educated.
    High Quality Tribal Education Systems. The Pueblos that constitute 
the APCG have always supported sound educational programs that comply 
with State and Federal accountability standards. We emphasize the 
importance of high quality instruction, effective professional teacher 
development and the development of appropriate, culturally sensitive 
curriculum, including Native language retention and instruction. A 
number of Pueblos are in the process of or have already assumed the 
responsibility for operating Bureau of Indian Education (BIE) schools 
located on their respective Tribal lands. Operating and maintaining 
schools requires considerable resources. We request adequate funding to 
develop and maintain high quality Tribal education systems that prepare 
the next generation of Native students for a lifetime meaningful 
opportunities.
    Vocational Training Programs. The APCG supports comprehensive 
oversight of the flow of funds and the implementation of policies that 
effectuate meaningful educational change. It is important to foster the 
advancement of higher education, but also to consider re-introducing 
vocational education, which in many school districts has been 
eliminated or severely limited. Vocational education can provide skills 
that contribute to employment opportunities and sustainable incomes. In 
addition, Science, Technology, Engineering and Mathematics (S.T.E.M.) 
curricula must be incorporated into Tribal school systems to enable our 
students to develop and compete in these pivotal industries. We request 
increased funding for the re-introduction and integration of vocational 
and S.T.E.M. curricula to diversify Tribal school systems and lay the 
foundation for student success.
    Protecting and Preserving Native Languages. The Pueblo worldview is 
contained in their languages. In addition to maintaining Tribal life 
ways, the Pueblos have established various programs and methods in 
order to retain and preserve what are considered some of the most 
ancient and distinct languages in America. Some Pueblo languages are so 
unique they are not spoken anywhere else in the world. Students in 
language immersion programs demonstrate substantial improvement in 
their academic performance and testing. They have also shown greater 
achievement in S.T.E.M. related subjects that increasingly form the 
bedrock of our domestic and international economies. We urge Congress 
to support programs that promote the value of Native languages and 
prevent the further loss of our languages and traditions.
    Thank you for the opportunity to offer outside witness testimony. 
The All Pueblo Council of Governors looks forward to working with 
Congress on advancing meaningful Tribal development under the fiscal 
year 2018 budget.
                                
                                 ______
                                 
                           Allen Esther deg.
               Prepared Statement of Esther Allen, Ph.D.

   Associate Professor, Programs in French and in Hispanic and Luso-
Brazilian Literatures and Languages, City University of New York (CUNY) 
 Graduate Center, and Department of Modern Languages, Baruch College, 
                                  CUNY

    Over the course of its half century of existence, the National 
Endowment for the Arts has consistently and substantially enhanced the 
daily lives of Americans everywhere. In all 50 States, the NEA has 
supported museums, opera houses, orchestras, theatres and countless 
other forms of artistic expression that enrich the cultural and 
spiritual life of communities and make them attractive places for 
businesses and individuals to remain or relocate and for tourists to 
visit. A 2010 study on the arts and economic prosperity determined that 
the more than 100,000 organizations in the U.S. nonprofit arts and 
culture sector which the NEA serves generated $61.1 billion in direct 
economic activity, and an additional $74.1 billion in event-related 
expenditures. Those figures speak for themselves, and have only 
increased since the report was published.
    My appeal for continued funding for the NEA, however, is based on 
my own experience of a little-known NEA program that has had a wildly 
outsized impact on the literary culture of the United States and on our 
Nation's cultural relations with the rest of the world: the NEA 
Translation Fellowships. Since this program was inaugurated in 1981, 
the NEA has been the Nation's most significant investor in support for 
literary translators and organizations that publish literary 
translation, as NEA Chairman Jane Chu notes in her introduction to 
``The Art of Empathy'', a 2014 NEA publication on the often overlooked 
significance of literary translation.
    In 1989-1990, I lived in Mexico with support from a Fulbright 
fellowship. While there, I travelled in the southern state of Chiapas, 
and read a 1962 novel by the Mexican author Rosario Castellanos titled 
``Oficio de tinieblas'', a long-acknowledged classic of Mexican 
literature, set among the indigenous Maya. On returning to the U.S. in 
1990, I was startled to learn that a literary work of such importance 
to a close ally of the United States--an ally with whom we share a 
lengthy border and great deal of geographic and cultural history--had 
never appeared in English. Meanwhile, the novel had been published in 
many other languages, including Hebrew; Castellanos was Mexico's 
ambassador to Israel, and her work is highly esteemed there.
    For several years, I tried to interest U.S. publishing houses in a 
translation, to no avail. Then, in 1995, I was granted a National 
Endowment for the Arts Translation Fellowship in support of the 
project. Doors began to open. ``The Book of Lamentations'', my 
translation of Castellanos' novel, was published in 1997 and remains in 
print today as a Penguin Modern Classic. Since its publication in 
English, the novel's fictionalized history of a Mayan uprising has 
helped many journalists and diplomats understand and contextualize the 
Zapatista rebellion in Chiapas. Its tragic story of oppression has 
moved countless students of Latin American literature and history and 
general readers--many of them, no doubt, U.S. citizens of Mayan 
descent. None of that would have happened were it not for the support 
of the National Endowment for the Arts.
    Multiply that by more than four hundred, and you have a sense of 
the impact of this one small, inexpensive NEA program. Translation 
Fellowships have brought literature from more than 84 countries, 
originally written in more than 66 languages, to American readers. 
Among those languages is Slovenian. If the First Lady of the United 
States would like to share the literature of her native country with 
family and friends who do not speak Slovenian, the NEA has helped make 
that possible.
    The U.S. is generally an exporter of its own culture to the world, 
and that makes the impact of the Translation Fellowship program all the 
more beneficial to U.S. diplomatic relations. Writers whose voices are 
influential in their own countries are likely to see our country 
differently when their work has been translated, published and reviewed 
here, when they know they have communities of readers here. The 
Translation Fellowship program says to the whole world that the United 
States Government supports empathy and wants to help make voices from 
across the globe heard in English. The international goodwill this 
gesture creates is inestimable.
    I ask the members of the Senate Subcommittee on the Interior, 
Environment, and Related Agencies to join me in supporting the National 
Endowment for the Arts, and urgently request them to ensure that this 
formidable Federal agency will be fully funded in the fiscal year 2018 
budget and able to continue its crucial work.
                                 ______
                                 
                 Prepared Statement of Alternate ROOTS
    Mr. Chairman and distinguished members of the subcommittee, we 
thank you for the opportunity to submit this testimony on behalf of 
Alternate ROOTS. We urge the Committee to appropriate $155 million to 
the National Endowment for the Arts for fiscal year 2018. Alternate 
ROOTS has 245 number of individual and organization members. Some 
members are highlighted below include:

Doris Davenport, Tuscaloosa, Alabama
Datule Collective, Little Rock, Arkansas
Art2Action, Tampa, Florida
Angela Davis Johnson, Atlanta, Georgia
Clear Creek Festival, Big Hill, Kentucky
Mondo Bizarro, New Orleans, Louisiana
Ashley Minner, Baltimore, Maryland
Daniel Johnson, Jackson, Mississippi
Azule, Hot Springs, North Carolina
Kimi Maeda, Columbia, South Carolina
Carpetbag Theatre, Knoxville, Tennessee
Clyde Valentine, Dallas, Texas
Performing Statistics, Richmond, Virginia
Anu Yadav, Washington, D.C.

    Alternate ROOTS is a 41 year old organization based in the Southern 
USA* whose mission is to support the creation and presentation of 
original art, in all its forms, which is rooted in a particular 
community of place, tradition, or spirit. As a coalition of cultural 
workers we strive to be allies in the elimination of all forms of 
oppression. ROOTS is committed to social and economic justice and the 
protection of the natural world and addresses these concerns through 
its programs and services.
    The ROOTS Region covers the Southern area of the United States: 
Alabama, Arkansas, Florida, Georgia, Kentucky, Louisiana, Maryland, 
Mississippi, North Carolina, South Carolina, Tennessee, Texas, 
Virginia, West Virginia, and Washington, D.C.
    For 50 years, the National Endowment for the Arts has held a 
significant Federal leadership role for the arts and culture in 
America. Its grants reach every congressional district and support arts 
organizations serving their communities in a variety of ways. Through 
the support of direct NEA grants and NEA partnerships with State arts 
agencies, arts organizations are helping people experience high-quality 
artistic presentations, access arts education and opportunities for 
artistic development, find their voices and share their stories, and 
have critical dialogue about important social issues.
    The following examples of recent projects that Alternate ROOTS has 
supported through the funds we have received from the NEA are a sample 
of the significant ways artists and cultural workers are able to serve 
their communities with the support of the NEA.
    PATOIS (New Orleans, Louisiana) creates accessible spaces at the 
intersection of art and social justice where communities can unite in 
the struggle for human rights in New Orleans and around the globe. 
Throughout the PIA partnership period, PATOIS will curate and produce a 
series of art and film events aimed at raising awareness on the impact 
of gentrification in New Orleans and supporting housing rights 
struggles through collaboration and creative actions. PATOIS will 
engage a range of community groups, activists, artists, organizing 
projects, and cultural workers to address the housing crisis facing the 
city, with their primary partner being Jane Place Neighborhood 
Sustainability Initiative (JPNSI), an organization that has been at the 
forefront of organizing around the housing crisis.
    The Graduates (Louisiana statewide) is an ensemble of formerly 
incarcerated women from the Louisiana Correctional Institute for Women 
(LCIW), co-founded and co-directed by Kathy Randels and Ausettua 
AmorAmenkum. ``Won't Bow Down!'' (WBD) is a project centered on The 
Graduates' personal criminal justice system experiences with a vision 
of life in Louisiana after prison reform and a goal to create awareness 
of and encourage community organizing to abolish mass incarceration of 
black people and achieve racial equity in the United States. WBD will 
tour to living rooms, churches, community centers, and stages in 12 
Louisiana communities. The autobiographical performances will shine a 
light on The Graduates' unique stories: the most radical and direct 
communication we can share with people about the experience of 
incarceration.
    SpiritHouse Inc. (Durham, North Carolina), in partnership with All 
of Us or None (AOUON-NC) and The Center for Participatory Change (CPC), 
will remount their interactive theatrical performance, ``Collective Sun 
Reshape the Mo[u]rning'' in Durham and Asheville, NC. First mounted in 
2012 under the direction of Ebony Noelle Golden, ``Collective Sun'' is 
a series of vignettes drawn from more than 8 years of research, 
organizing, and programmatic work that has been the emphasis of 
campaigns to challenge systemic racism and end criminalization and 
incarceration in this country. Part performance, part audio 
installation, and part collective action, ``Collective Sun,'' creates a 
platform where communities impacted by systemic racism and 
criminalization use their experiences and voices to become more 
civically engaged. The performances of ``Collective Sun'' will be used 
to strengthen SpiritHouse's Harm Free Zone work.
    Queer Histories/Queer Futures (New Orleans, Louisiana) is a triadic 
program of monthly events including workshops, salons, and creative 
intensives administered by Last Call in partnership with the New 
Orleans LGBT Community Center. QHQF kicks off with a series of oral 
history and audio production workshops for queer young adults and 
allies in which workshop participants will conduct and transcribe 
interviews with elders in the queer community and remix those 
interviews into new Last Call podcast episodes. QHQF will then host 
creative intensives to interpret these stories through small-scale 
performances that connect the histories of queer elders with the 
realities of queer youth in order to collectively envision a vibrant 
and robust queer future that includes all of us. Finally, QHQF will 
host a series of artist salons at which audiences will hear the 
finished podcast and interface with the new mini-performances. These 
salons create queer-centric gathering space, initiate and build 
relationships, and allow the stories we collect to have a wider 
audience beyond the queer community.
    Working Narratives (Wilmington, North Carolina) seeks support to 
produce Free Movement (FM), a public performance and community-
organizing project that seeks to link Southern culture, communities, 
and identities underserved by arts, justice, and health movements in 
their home base of Wilmington, NC. Utilizing a tested community 
cultural organizing practice that includes artists residencies, 
cultural asset mapping, and a collaborative design and production of a 
large scale public art gathering, FM will work with grassroots partners 
and members to occupy public space and build grassroots power for 
positive social change. Free Movement will premiere in March 2018, and 
deliver a whole ``package'' of story gathering and community dialogues, 
along with intensive artist residencies and workshops, and a main 
performance. Free Movement is a performance that equals a form of 
street theater and incorporates storytelling throughout its process.
    Community LIFT (Memphis, Tennessee) is working with the Soulsville 
Neighborhood Association (SNA) to create an outdoor lounge to help 
generate business, tackle blight, empower residents, attract artists, 
and create art by the Soulsville community. Created to reverse the 
Memphis' inequitable course of economic development, Community LIFT 
serves as a funder, connector, and capacity builder of redevelopment in 
three disenfranchised neighborhoods. Soulsville is a legendary 
neighborhood in South Memphis and home to world-famous Stax Records. In 
the first phase of this project, the partners rehabilitated renowned 
bluesman Memphis Slim's home into Slim House, a community music studio 
professionalizing Memphis musicians. With the support of Alternate 
ROOTS Community LIFT will reimagine the space with SNA members, and the 
partners will construct the space with local artists and neighborhood 
residents who have carpentry and woodworking skills. In the first six 
weeks of opening, Stax Music Academy youth and Slim House musicians 
will produce community storytelling performances, in partnership with 
citywide institutions, to activate the lounge. Beyond this, the lounge 
will provide a platform for Slim House members, who are emerging 
professional musicians, to showcase their talent.
    Girls Rock Charleston (Charleston, South Carolina), an arts-based 
social justice organization operating in Charleston, SC since 2011, is 
hosting a year-long after school program for at-risk girls and trans*  
youth ages 12-17. GRC works in partnership with organizations and local 
leaders to engage youth with a dynamic combination of music education, 
DIY media making, popular, and political education sessions, as well as 
academic and life skills support. Local artists, activists, musicians, 
and youth organizers serve as mentors, band coaches, and workshop 
leaders throughout the program to support the Rockers in using audio 
and visual artistic craft to explore their burgeoning identities as 
girls, women, and/or queer youth, and to address the impact of police 
violence and the prison system in their communities. Participants will 
work together to explore issues of sexism, racism, poverty, 
gentrification, segregation, and State violence through writing 
original music and creating visual art, while engaging in workshops 
emphasizing the resilience, resistance stories, and cultural traditions 
(such as storytelling and community organizing) of their own 
communities. Together, the Rockers will produce a multimedia body of 
work that will both document and impact the social issues they address. 
A public performance will be held at the end of each semester in which 
community members will be engaged around these issues through the work 
performed/exhibited. The program will not only support the Rockers in 
improving their grades and staying out of the juvenile justice system, 
but will provide space for them to build trust with each other and 
define their own visions for liberation in their communities. It will 
prioritize developing youth as whole people.
    Seeds of Fire, Highlander Research and Education Center (New 
Market, Tennessee) completed a week-long Living Legacy Tour of the 
South to connect the fights, struggles, and victories of folks fighting 
all forms of oppression. Highlander Research and Education Center is a 
leading institutional resource that connects people across generation, 
race, language, culture, and sector to build a unified movement for a 
just and equitable society. For the past 16 years, Highlander's Seeds 
of Fire (SOF) program has impacted thousands of young people, bringing 
together emerging and experienced grassroots organizers and community 
leaders to build collective power and influence critical policy 
decisions and practice shifts. The Seeds of Fire Living Legacy Tour 
brings together youth and young adult organizers and allies from 
communities of color and low-income communities to travel through key 
movement places in Louisiana, Alabama, and Mississippi. With a focus on 
addressing State sanctioned violence, tour participants will learn with 
artists and organizers, share cultural organizing skills with the local 
communities, and engage with movement elders, connecting historical 
struggles to those that young people are fighting against in the South, 
today. The Living Legacy tour allows participants to strategize and use 
cultural organizing methods to develop a collective analysis of 
systemic injustices. Its goal is to create learning exchanges and 
opportunities for growth and understanding while focusing on cultural 
organizing, intergenerational relationships, and organizational 
partnerships across the South.
    Performing Statistics (Richmond, Virginia) is a cultural organizing 
project that brings incarcerated youth and community experts together 
to collaboratively produce media campaigns, public installations, and 
performances supporting juvenile justice reform. The project supports 
Legal Aid Justice Center's (LAJC) advocacy with, and on behalf of 
juvenile justice system-involved youth and their families. The project 
utilizes collaborative and public art to connect diverse community 
experts, including currently incarcerated adults and youth, around 
community-based alternatives to incarceration. We believe that the 
youth and adults most affected by the system should have a leading 
voice in any movement.
    The artistic programming of Southern artists and organizations, 
supported by the NEA, gives vitality to their communities in numerous 
ways beyond the examples provided here. For many individual artists and 
small organizations in the South, these funds can sometimes be the only 
dollars supporting the work.
    The Federal investment in the NEA places value on the role of arts 
and culture in our society, and it realizes significant returns that 
are both measurable and intangible.
    We celebrate the NEA's fiscal year 2017 budget increase--the first 
since fiscal year 2011--and urge you to please support no less than 
$155 million to the National Endowment for the Arts in fiscal year 
2018. Thank you for considering our request.

    [This statement was submitted by Carlton Turner, Executive 
Director, and Ashley Walden Davis, Managing Director.]
                                 ______
                                 
         Prepared Statement of the American Alliance of Museums
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, thank you for allowing me to submit this testimony. My 
name is Laura Lott and I serve as President and CEO of the American 
Alliance of Museums (AAM). We urge your support for at least $155 
million each in fiscal year 2018 (fiscal year 2018) for the National 
Endowment for the Arts (NEA) and the National Endowment for the 
Humanities (NEH), as well as sufficient funding for the Smithsonian 
Institution. We also request your support for the Historic Preservation 
Fund (HPF), including at least $55 million for State Historic 
Preservation Offices (SHPOs), $15 million for Tribal Historic 
Preservation Offices (THPOs) and $28 million to preserve the sites and 
stories of the Civil Rights Movement. We request restored funding of 
$30 million and $4.6 million respectively for the Save America's 
Treasures (SAT) and Preserve America programs.
    Before detailing these funding priorities for the museum field, I 
want to express my deepest appreciation for the increases enacted by 
the subcommittee in the Consolidated Appropriations Act, 2017, Public 
Law 115-31. The additional funds for the NEH, NEA, Smithsonian 
Institution and historic preservation activities will enhance museums' 
work to enrich their communities and preserve our many heritages. The 
subcommittee's choice to make these investments in fiscal year 2017 
despite a very limited 302(b) allocation speaks volumes about its 
commitment to our Nation's cultural institutions. The American Alliance 
of Museums is deeply troubled by proposals from the Trump 
Administration to slash many of these priorities, and we look forward 
to working with you--our bipartisan allies--to reject them. While the 
subcommittee will once again have to make very difficult decisions this 
year, I contend that each of the priorities outlined below will both 
protect our Nation's cultural treasures and provide a tremendous 
economic benefit.
    AAM is proud to represent the full range of our Nation's museums--
including aquariums, art museums, botanic gardens, children's museums, 
culturally specific museums, historic sites, history museums, maritime 
museums, military museums, natural history museums, planetariums, 
presidential libraries, science and technology centers, and zoos, among 
others--along with the professional staff and volunteers who work for 
and with museums. We are honored to work on behalf of the Nation's more 
than 33,000 museums, which employ 400,000 people, invest more than $2 
billion annually in educational programs, receive more than 55 million 
visits each year from primary and secondary school students, and 
directly contribute $21 billion to their local economies.
    Museums are essential in their communities for many reasons:
  --Museums are key education providers. Museums already offer 
        educational programs in math, science, art, literacy, language 
        arts, history, civics and government, economics and financial 
        literacy, geography, and social studies, in coordination with 
        State and local curriculum standards. Museums also provide 
        experiential learning opportunities, STEM education, youth 
        training, job preparedness, and a range of programs geared 
        toward homeschooling families. They reach beyond the scope of 
        instructional programming for schoolchildren by also providing 
        critical teacher training. There is a growing consensus that 
        whatever the new educational era looks like, it will focus on 
        the development of a core set of skills: critical thinking, the 
        ability to synthesize information, creativity, and 
        collaboration. We believe museums are uniquely situated to help 
        learners develop these core skills, and this is borne out by 
        evidence. According to a recent University of Arkansas study, 
        students who attended just a half-day field trip to an art 
        museum experienced an increase in critical thinking skills, 
        historical empathy and tolerance. For students from rural or 
        high-poverty regions, the increase was even more significant.
  --Museums create jobs and support local economies. Museums serve as 
        economic engines, bolster local infrastructure, and spur 
        tourism. Both the US Conference of Mayors and the National 
        Governors Association agree that cultural assets like museums 
        are essential to attracting businesses, a skilled workforce, 
        and local and international tourism. Travelers who participate 
        in cultural or heritage activities spend 60 percent more than 
        other tourists.
  --Museums address community challenges. Many museums offer programs 
        tailored to seniors, veterans, children with special needs, 
        persons with disabilities, and more, greatly expanding their 
        reach and impact. For example, some have programs designed 
        specifically for children on the autism spectrum while others 
        are addressing veterans' post-war trauma or providing youth job 
        training opportunities.
  --Digitization and traveling exhibitions bring museum collections to 
        underserved populations. Teachers, students, and researchers 
        benefit when cultural institutions are able to increase access 
        to trustworthy information through online collections and 
        traveling exhibits. Most museums, however, need more resources 
        to digitize collections.
    The National Endowment for the Humanities is an independent Federal 
agency created by Congress in 1965. Grants are awarded to nonprofit 
educational institutions--including museums, colleges, universities, 
archives, and libraries--for educational programming and the care of 
collections. NEH supports museums as institutions of learning and 
exploration, and as keepers of our cultural, historical, and scientific 
heritages.
    In 2016, through Preservation & Access, one of NEH's national 
program divisions, 43 peer-reviewed, competitive grants totaling over 
$2.5 million dollars were awarded to museums, historical societies and 
historic sites for a variety of projects to preserve and provide access 
to our Nation's rich cultural heritage. Across all NEH divisions 
(including Preservation and Access, Research, Education, Public 
Programs, Challenge Grants and Digital Humanities), these institutions 
received 150 awards totaling over $21.3 million. Demand for humanities 
project support, as demonstrated by NEH grant application rates, far 
exceeds available funding. In fiscal year 2016, NEH received 5,304 
competitive grant applications representing $518.2 million in requested 
funds, but was only able to fund 16 percent of these peer-reviewed 
proposals.
    NEH also provides approximately forty percent of its funding 
directly to States through grants to humanities councils located in 
every State and US territory. In 2016, 55 State councils supported 
2,419 exhibitions, 280 preservation projects, and 1,612 local history 
programs, attracting a total audience of 5.5 million people.
    This year alone, NEH funding has supported museums' work in your 
communities, including:
  --The Mississippi Department of Archives and History received a 
        $100,000 grant for a multimedia learning initiative to extend 
        the resources of the forthcoming Museum of Mississippi History 
        and the Mississippi Civil Rights Museum directly into 
        classrooms across the State. Funds will also support technical 
        and curricular training for schools and teachers based on their 
        needs.
  --The Fleming Museum of Art at the University of Vermont received a 
        $5,742 grant to support new cabinets and environmental monitors 
        for its collection of works on paper. This will provide better 
        care for the works as well improved access for students and 
        faculty.
    The National Endowment for the Arts makes art accessible to all and 
provides leadership in arts education. Established in 1965, NEA 
supports great art in every congressional district. Its grants to 
museums help them exhibit, preserve, and interpret visual material 
through exhibitions, residencies, publications, commissions, public art 
works, conservation, documentation, services to the field, and public 
programs.
    In 2016, more than 2,000 museums participated as Blue Star 
Museums--a partnership between NEA, Blue Star Families, and the 
Department of Defense--to offer free admission to all active duty and 
reserve personnel and their families from Memorial Day through Labor 
Day. This particular effort served more than 923,000 people, while many 
other museums offer military discounts or free admission throughout the 
year.
    In 2016, NEA made more than 180 direct awards to museums, totaling 
over $5.4 million. Forty percent of NEA's grant funds are distributed 
to State arts agencies for re-granting, and many museums benefit from 
these funds as well. Receiving a grant from the NEA confers prestige on 
supported projects, strengthening museums' ability to attract matching 
funds from other public and private funders. On average, each dollar 
awarded by the NEA leverages more than nine dollars from other sources.
    This year alone, NEA funding has supported museums' work in your 
communities, including:
  --The Anchorage Museum received a $60,000 Creativity Connects grant 
        to support a series of programs exploring the ecology of the 
        Artic, in partnership with the University of Alaska Anchorage. 
        The organizations will work with artists and scientists on 
        exhibitions, events, and online presentations to engage the 
        public, conveying the complexity of the northern landscape 
        through curated experiences.
  --The International Folk Art Foundation in Santa Fe, New Mexico 
        received a $60,000 Art Works grant this year to support an 
        exhibit featuring folk art from the United States and 
        international artists. The artists' work may reflect responses 
        to societal crises, such as war, political instability, 
        dislocation, and ecological challenges. The exhibit will be 
        accompanied by artist residencies, lecture, and demonstrations.
    In addition to these direct grants, NEA's Arts and Artifacts 
Indemnity program also allows museums to apply for Federal indemnity on 
major exhibitions, saving them roughly $30 million in insurance costs 
every year and making many more exhibitions available to the public--
all at virtually no cost to the American taxpayer.
    The Smithsonian Institution comprises some of the most visited 
museums in the world, including the National Museum of American 
History, the National Air and Space Museum, and the National Museum of 
Natural History. The Smithsonian reaches visitors and learners of all 
ages, in the Nation's capital and across the country, with innovative 
exhibits and programs. Every year, its 20 museums--including the 
National Zoo--attract over 28 million in-person annual visitors. Its 
websites reach more than 100 million unique visitors, while its content 
and curriculums are used by teachers all over the country. The recently 
opened National Museum of African American History and Culture has 
captivated audiences from around the world, underscoring the power of 
our national museums to educate and inspire. We support funding that 
would allow these world-class museums to undertake critical collections 
care, make needed technology upgrades, conduct cutting edge research of 
every type, and increase access for all.
    The Historic Preservation Fund is the funding source of 
preservation awards to States, Tribes, local governments, and 
nonprofits. State and Tribal Historic Preservation Offices carry out 
the historic preservation work of the Federal Government on State and 
Tribal lands. These duties include making nominations to the National 
Register of Historic Places, reviewing impacts of Federal projects, 
providing assistance to developers seeking a rehabilitation tax credit, 
working with local preservation commissions, and conducting 
preservation education and planning. This Federal-State-local 
foundation of America's historic preservation program was established 
by the National Historic Preservation Act. Historic preservation 
programs are not only essential to protecting our many heritages; they 
also serve as economic development engines and job creators. We urge 
you to provide $55 million for SHPOs and $15 million for THPOs through 
the Historic Preservation Fund.
    We enthusiastically applaud the subcommittee's fiscal year 2017 
restoration of funding for the Save America's Treasures program, and 
urge you to fully restore it to $30 million in fiscal year 2018. From 
1999 to 2010, Federal funding of $315 million for 1,287 Save America's 
Treasures projects leveraged an additional $400 million in non-Federal 
funds, and created more than 16,000 jobs nationwide. These projects 
protected some of America's most iconic and endangered artifacts, 
including Ansel Adams' prints and negatives, Frank Lloyd Wright 
structures including Fallingwater, and the American flag that inspired 
the Star Spangled Banner. We request $4.6 million for the Preserve 
America program, which has not been funded in recent years.
    We also applaud the subcommittee's fiscal year 2017 investment in 
competitive grants to preserve the sites and stories of the Civil 
Rights Movement. The initial round of grants for this initiative is 
currently helping museums and historic sites around the country 
conserve endangered structures, document stories, and share resources 
with the public. We support fiscal year 2018 funding of $28 million for 
these Civil Rights Movement grants.
    I want to once more acknowledge the difficult choices that the 
subcommittee faces. I hope that my testimony has made it clear why 
these priorities are of critical importance to the Nation and will 
provide a worthwhile return on investment to the American taxpayer. 
Thank you again for the opportunity to submit this testimony.

    [This statement was submitted by Laura L. Lott, President and CEO.]
                                 ______
                                 
          Prepared Statement of the American Forest Foundation
    The 22 million family woodland owners in America and the lands they 
own, are an essential piece of the fabric of rural communities. These 
lands support hundreds of thousands of jobs, supply more than half of 
the wood for our forest products, and sustain our environment. 
America's family-owned woodlands, over one-third of the Nation's 
forested landscape, are critical to meeting the Nation's clean air and 
water, wildlife habitat, and wood supply needs today and in the future.
    The American Forest Foundation, a non-profit conservation 
organization, helps these family woodland owners manage their land to 
provide these benefits in rural communities across America. AFF also 
houses the American Tree Farm System, a national network of over 
70,000 landowners who manage their land to internationally-recognized 
standards of sustainability.
    Because America's forests are both public and privately owned in a 
patchwork across the rural landscape, strategies to grow jobs, 
strengthen rural economies, and protect forests from threats like 
wildfire must take a ``shared stewardship'' approach where both public 
and private landowners are working to manage forest resources.
    Because threats like wildfire do not exist solely on Federal land, 
in fact in the West, 30 percent of the high fire risk lands are 
private, family owned lands, tackling that problem, protecting lives, 
communities, and water supplies, requires active management of both 
public and private land. The same can be said for supplying wood. In 
any one given ``wood basket'' the mix of public and private ownership 
is different but sound management, including replanting after harvest, 
on both types of land is essential to keeping mills in operation and 
supplied with timber. Any number of other examples, like invasive 
forest pest outbreaks, source water protection or managing for at-risk 
wildlife, all require work on both public and private land as these 
issues do not heed property boundaries.
    All of these challenges--that require a shared stewardship 
approach--if not tackled, will have long-term consequences on rural 
economies and the Federal deficit. With 22 million people across 
America owning over one-third of America's forests in small, individual 
forest holdings, we cannot ignore these landowners if we're going to 
successfully tackle these challenges.
    While it's not the Federal government's role to manage private 
land, targeted assistance through programs like the Forest Stewardship 
Program, where a landowner is given information on how to manage their 
land, can have significant impact on the land and the public benefits 
produced. In fact, the National Association of State Foresters found 
that landowners with a forest stewardship plan are almost three times 
more likely to harvest timber. So by providing this small amount of 
advice landowners can be empowered to do better management that 
contributes to healthy forests and stronger rural economies that 
benefit public and private forest resources. Family woodland owners are 
not looking for a handout, they are just looking for this helping hand.
    AFF believes Congress can improve upon the President's fiscal year 
2018 Budget proposal by supporting this shared stewardship and ensuring 
sufficient resources for high priority public and private land 
strategies. AFF strongly believes that given the compelling Federal 
interest in forests and their sustainable management, Federal resources 
should be spent on the highest priority needs. We fully understand the 
tough budget climate. However, the almost sole focus on Federal land 
management in the proposed US Forest Service budget, paired with 
drastic cuts in funding for State and Private Forestry Programs in the 
US Forest Service that are essential to shared stewardship and tackling 
growing USFS problems like wildfire, will adversely impact the public 
benefits derived from all forests given the cross-boundary nature of 
the challenges and threats.
    The State and Private Forestry Programs offer a great return on 
investment. For every dollar invested in the State and Private Forestry 
Programs, particularly those that focus on rural lands, the states and 
private landowners invest states and private landowners put at least 
another dollar. In some programs, like the Landscape Scale Restoration 
Program, even more than match is leveraged. For very little tax payer 
money, every American is getting the benefit of the clean air and 
water, wildlife habitat, for forest products and the resulting jobs 
these lands produce. Investments through these programs are also 
leveraged by NRCS' roughly $80 million spent in forestry practices, the 
resulting synergy producing even larger impacts on rural economies and 
environments.
    We do believe a hard look at State and Private Forestry Programs, 
clearly identifying desired outcomes from these programs and targeting 
resources on outcomes will yield significant results. For example, AFF 
has identified, based on extensive assessments of private lands issues 
in the U.S., a need to focus on three key priorities: mitigating 
wildfire and protecting critical watersheds in the west, managing at-
risk species populations in the South and East, and increasing 
sustainable wood supplies for growing market demand in the south. 
Programs like the Landscape Scale Restoration Program can support this 
approach, providing competitive funding to address high priority issues 
and fostering innovation that leads to improved outcomes and better 
support for landowners.
    There is an opportunity to increase efficiencies, streamline 
administration, and deliver better service in State and Private 
Forestry Programs, just like in many other areas across the Federal 
government. We stand ready to work with the Trump Administration and 
Congress to pursue these opportunities.
    With these views in mind, AFF recommends the following for 2018 
funding and program direction for the U.S. Forest Service to support 
shared stewardship of America's rural forests and the families, 
communities, and economies that rely on these forests:
  --Continue support for Hazardous Fuels at least at 2017 funding 
        levels with direction to continue cross-boundary wildfire 
        mitigation work, including allowing at least $15 million on 
        non-Federal lands to maximize the benefits this program 
        delivers.
  --Direct the USFS to work with states and other partners to better 
        align State and Private Forestry Programs to deliver impact on 
        key priorities and improve program efficiency while reducing 
        administrative costs. To do this:
    --Forest Stewardship Program funding should at least be maintained 
            at 2017 funding levels, and focused to deliver on key 
            outcomes and national priorities.
    --Landscape Scale Restoration Program, established through the Farm 
            Bill in 2008, should be continued and strengthened through 
            mechanisms such as provided in the Klobuchar-Daines 
            Empowering State Forestry legislation, (S. 962) to better 
            deliver impact on key priorities.
  --Forest Health funding, which helps tackle insect and disease 
        infestations on both public and private lands should at least 
        be maintained. This funding helps address issues across the 
        country from mountain pine beetle ravaging the West to the 
        emerald ash borer consuming eastern ash trees.
  --We support $87 million for State Fire Assistance and $15 million 
        for Volunteer Fire Assistance, to maintain the initial attack 
        capabilities in states and local governments, helping on both 
        public and private lands, and providing invaluable assistance 
        to the Federal government in suppressing wildfires on Federal 
        land.
  --Forest Inventory and Analysis Program should be funded at $83 
        million, because both public and private land managers need the 
        best information about our forests to manage them well.
  --Lastly, when it comes to leveraging public and private funding to 
        grow rural forest economies, one of the best investments 
        Congress can make is in the USFS Forest Products Laboratory. 
        This Lab should be funded at $27 million, to leverage funds 
        from private industry for research and development into new and 
        improved uses of wood that supports local economies.
    We, at AFF, thank the subcommittee for the opportunity to provide 
some insight on these programs. If you have any questions, please 
contact Rita Hite at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c8baa0a1bcad88aea7baadbbbcaea7bda6aca9bca1a7a6e6a7baaf">[email&#160;protected]</a>

    [This statement was submitted by Tom Martin, President & CEO.]
                                 ______
                                 
                 Prepared Statement of American Forests
    Dear Chairman Murkowski, Ranking Member Udall, and Honorable 
Committee Members:

    American Forests appreciates the opportunity to submit public 
testimony regarding our fiscal year 2018 appropriation recommendations. 
We understand the continuing economic realities facing the Nation, and 
we thank this subcommittee for its support of key Federal conservation 
programs in Consolidated Appropriations Act of fiscal year 2017. Our 
Nation's forests yield a significant return on investment, whether 
those forests are public or private, in urban areas or in wildlands. 
The economic, social, and environmental benefits healthy forests 
provide are clear incentives for continued Federal investment. American 
Forests' funding recommendations are modestly above the fiscal year 
2017 enacted levels.
    Founded in 1875, American Forests is the oldest national nonprofit 
conservation organization in the United States. Its mission is to 
inspire and advance the conservation of forests. We do this by 
protecting and restoring threatened forest ecosystems, promoting and 
expanding urban forests, and increased the understanding of the 
importance of forests. American Forests has planted more than 50 
million trees in 1,000 forest restoration projects and works in cities 
across the country helping to increase urban forest canopy, 
demonstrating innovative greenspace creation.
    Respectfully, we ask you to reject the drastic cuts proposed in the 
President's fiscal year 2018 budget. We are deeply concerned by the 
zeroing out of important and effective programs like Urban and 
Community Forestry, Landscape Scale Restoration, Community Forests and 
Open Space Conservation, and Collaborative Forest Landscape 
Restoration. Defunding or severely cutting these programs will have 
profound and lasting repercussions on people and communities across the 
country--particularly those in rural areas where these funds are 
essential.
                       usda forest service (usfs)
State and Private Forestry
    Urban and Community Forestry (U&CF): U&CF plays an integral part in 
promoting sound stewardship of our Nation's urban and community forests 
and trees. By providing important technical and financial support, U&CF 
helps cities and towns across the Nation enhance tree and forest cover, 
prepare for storms and other disturbance events, contain threats from 
native and invasive pests, and maximize the economic, social, and 
ecological benefits of their tree resources. U&CF is a smart investment 
as Federal support is often leveraged 2:1 (or in many cases 
significantly more) by States and partner organizations. As a model 
Federal program, U&CF consistently increases communities served, brings 
together diverse partners and resources, and shows that Federal 
investment can have lasting impacts on communities of all sizes. 
American Forests recommends U&CF be funded at $31.3 million.
    Forest Stewardship Program (FSP): Administered in cooperation with 
State forestry agencies, this program plays a fundamental role in 
keeping forests as forests. A forest landowner with a forest 
stewardship plan is almost three times more likely to actively manage 
his or her land than one without a plan, leading to jobs and rural 
economic stimulus. American Forests is concerned by the $3 million cut 
to FSP in the fiscal year 17 Consolidated Appropriations Act. Often 
States are able to leverage multiple programs under Cooperative 
Forestry to enact landscape-scale forest management plans and 
restoration efforts. American Forests recommends funding for Forest 
Stewardship at $29 million.
    Landscape-Scale Restoration: The Landscape Scale Restoration 
program strategically prioritizes resources by competitively allocating 
the Cooperative Forestry Assistance Act funds. It focuses on targeting 
Federal investments, leveraged by State funding resources, to areas of 
greatest need, highest value, or strongest innovation potential as 
stipulated in each State Forest Action Plan. American Forests 
recommends funding the Landscape Scale Restoration program at $23 
million.
    Community Forests and Open Space Conservation Program (CFP): CFP 
has made substantial progress in preserving forests by increasing 
opportunities for Americans to connect with forests in their own 
communities and fostering new public-private partnerships. In the 
latest round of CFP grants, project partners leveraged $10.6 million in 
Federal funds to secure $34.5 million in non-Federal funding, resulting 
in more than 15,000 acres of community forests. American Forests 
recommends an increase in funds to $5 million in fiscal year 2018.
    Forest Health Management: The Forest Health Management programs 
provide essential expertise and assistance to State and municipal 
agencies and private landowners in countering non-native pests. 
Municipal governments across the country are spending more than $3 
billion each year to remove trees on city property killed by these non-
native pests. Homeowners are spending an additional $1 billion to 
remove and replace trees on their properties and are absorbing an 
additional $1.5 billion in reduced property values. American Forests 
asks that the Subcommittee appropriate $59 million for Federal lands 
and $48 million for cooperative lands.
    Forest Legacy Program: Since authorization in 1990, the Forest 
Legacy Program has protected 2.61 million acres of private forests 
through voluntary conservation easements. It is imperative to continue 
protecting our Nation's forests for future generations. Although still 
in private ownership, these lands provide a myriad of ecosystem 
services to Americans today. American Forests supports $62.35 million 
allocated through the Land and Water Conservation Fund.
National Forest System
    Collaborative Forest Landscape Restoration Program (CFLRP): CFLRP 
was created to promote job stability, a reliable wood supply, and 
forest health while reducing emergency wildfire costs and risks. This 
program is developing a successful track record and operating at a 
scale that demonstrates landscape impact. American Forests recommends 
the fiscal year 2017 enacted level of $40 million.
Forest and Rangeland Research
    The USFS's Forest and Rangeland Research program is essential in 
providing support for urban and wildland forestry research activities. 
These focus on understanding conditions and trends in our Nation's 
urban and community forests and in providing tools and best management 
practices. Agency researchers help policymakers and practitioners to 
understand the environmental, economic, and social services that trees 
and forests provide. We urge the Subcommittee to continue including 
language in Interior Appropriations reports encouraging the Forest 
Service to maintain a strong and vibrant urban forest research program. 
American Forests requests Congress to provide funding for the Forest 
and Rangeland Research line item at $303 million with $83 million 
allocated to the Forest Inventory Analysis.
                    bureau of land management (blm)
    Public Domain Forest Management: The BLM is entrusted with the 
management of 58 million acres of forests and woodlands across 12 
western States, including Alaska. 14 million acres--or 24 percent--of 
BLM forests are overstocked, increasing insect and disease attacks and 
catastrophic wildfire. Increased funding to address these serious risks 
is necessary across all land management agencies. American Forests 
supports $10.08 million.
                    fish and wildlife service (fws)
    Ecological Services: Ecological Services achieves conservation of 
FWS trust resources, focusing on imperiled species, and works closely 
with external partners and agencies for the conservation of natural 
resources across the landscape. The Ecological Services Program 
facilitates implementation of the Endangered Species Act. American 
Forests supports $252.29 million for Ecological Services.
    National Wildlife Refuge System: The National Wildlife Refuge 
System, with 563 refuges covering more than 150 million acres across 
the country, is vital to protecting America's wildlife and ensuring 
that their habitats are a priority. Refuges are visited by 48.5 million 
people each year, contribute $4.5 billion to the economy, and support 
35,000 jobs. Investment in the Refuge system is an investment in our 
communities. With 101 refuges within 25 miles of major population 
centers, the Refuge System is a vital component of our urban forests, 
as well. American Forests supports $508.20 million with fiscal year 
2017 enacted level requested for urban wildlife refuges.
    State and Tribal Wildlife Grant Program (STWG): Created in 2000, 
the STWGP provides grant funds to States and Tribes to develop and 
implement programs for the benefit of fish and wildlife and their 
habitats. The program is a proactive solution and important complement 
to the Endangered Species Act by supporting the creation and 
implementation of comprehensive wildlife conservation strategies or 
more commonly, State Wildlife Action Plans, to conserve declining 
wildlife and avoid the need for Federal listing. Actions must link to 
the plans which have helped conserve 1.9 million acres of habitat for 
species of greatest conservation need including 131,000 acres of 
habitat protected through land acquisition or conservation easements. 
American Forests supports $66.98 million for State and Tribal Wildlife 
Grants.
                         national park service
    Outdoor Recreation Legacy Partnership Program (ORLPP): The State 
and Local Assistance Program provides matching grants to States and 
localities for protection and development of parks and recreation 
resources and is the primary Federal investment tool to ensure that 
families have easy access to urban forests in parks and open space, and 
neighborhood recreation resources. This nationally competitive program 
complements the existing State and local assistance program by creating 
opportunities for outdoor play as well as developing or enhancing 
outdoor recreation partnerships in cities. American Forests supports 
the President's fiscal year 2017 request of $110 million for the State 
and local assistance program, which includes $12 million for ORLPP.
                 environmental protection agency (epa)
    Clean Water State Revolving Fund (CWSRF): Green infrastructure is a 
cost-effective and resilient approach to stormwater infrastructure 
needs that also provide many other community benefits. American Forests 
supports EPA's goal of strengthening green infrastructure activities to 
further its sustainability goals. American Forests request that not 
less than 20 percent the CWSRF funding be made available for green 
infrastructure or environmentally innovative projects that promote 
watershed protection, restoration and build community resilience.
                     legislative language requests
Wildfire Suppression Funding
    America's forests and forest-dependent communities are at risk from 
outbreaks of pests and pathogens, persistent drought, and the buildup 
of hazardous fuels. Urbanization and development patterns are placing 
more homes and communities near fire-prone landscapes, leading to more 
destructive and costly wildfires. Unfortunately, the ten-year average 
has not been enough to meet the USFS suppression needs, forcing the 
agency to transfer millions of dollars from non-suppression accounts to 
make up for the shortfall. The current wildfire suppression funding 
model and cycle of transfers and repayments has negatively impacted the 
ability to implement forest management, among many other activities. 
Additionally, the increasing ten-year average has not met annual 
suppression needs since before fiscal year 2002, which is why we are 
thankful to the Committee for the full transfer repayment and increased 
suppression funding in fiscal year 2016. However, DOI and USFS need a 
long-term fire funding solution that would result in stable and 
predictable budgets each year.
    We appreciate the Committee's support of the bipartisan Wildfire 
Disaster Funding Act, which addresses Federal fire funding challenges 
as well as other bipartisan Congressional efforts in this regard. We 
respectfully request a bipartisan fire funding solution that would (1) 
access disaster funding, (2) minimize transfers, and (3) address the 
continued erosion of agency budgets over time, with the goal of 
reinvesting in key programs that proactively restore forests to 
healthier conditions.
Land and Water Conservation Fund
    American Forests supports the permanent authorization of full and 
dedicated funding, without further appropriation or fiscal year 
limitation, for the Land and Water Conservation Fund (LWCF). LWCF 
programs protect natural resource lands, outdoor recreation 
opportunities, and working forests at the local, State and Federal 
levels. This program ensures that these important lands are protected 
for current and future generations. American Forests supports permanent 
authorization of $900 million in mandatory funding for LWCF programs in 
the Departments of Interior and Agriculture.

    [This statement was submitted by Rebecca Turner, Senior Director of 
Programs and Policy.]
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a non-profit, non-partisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the fiscal year 2018 budget request for the United States 
Geological Survey (USGS). The AGU, on behalf of its 60,000 Earth and 
space scientist members, respectfully requests Congress to appropriate 
$1.2 billion for the USGS in fiscal year 2018. Restoring strong funding 
to USGS will allow the agency to sustain current programs and invest in 
geologic, environmental, and ecological data needed by decision makers 
across the country.
    The USGS is uniquely positioned to provide informed responses to 
many of the Nation's greatest challenges and has a mission that 
positively impacts the lives of all Americans. The Survey plays a 
crucial role in assessing water quality and quantity; reducing risks 
from natural hazards; providing emergency responders with live-saving 
data; assessing mineral and energy resources; and managing our Nation's 
ecosystems. Through its offices across the country, the USGS provides 
high-quality research and data to policymakers, emergency responders, 
natural resource managers, civil and environmental engineers, 
educators, and the public. A few examples of the USGS' valuable work 
are provided below.
                monitoring and evaluating water quality
    The USGS collects information on water availability and quality to 
inform the public and decision makers about the status and history of 
freshwater resources. According to the American Society for 
Microbiology, up to 900,000 people fall ill and up to 900 die annually 
from waterborne infectious diseases in the U.S. alone. The data 
collected by USGS helps officials understand how to avoid, prepare for 
and mitigate water quality problems that affect communities around the 
country. During the past 130 years, the USGS has collected streamflow 
data at over 21,000 sites, water-level data at over 1,000,000 wells, 
and chemical data at over 338,000 surface-water and groundwater sites. 
This information is needed to effectively manage freshwaters--both 
above and below the land surface--for public health, agricultural, 
commercial, recreational, and ecological purposes.
                predicting and observing natural hazards
    The USGS works to reduce risks from floods, wildfires, earthquakes, 
tsunamis, volcanic eruptions, landslides, and other natural hazards 
that jeopardize human lives and cost billions of dollars in damages 
every year. Seismic networks and hazard analyses are used to formulate 
earthquake probabilities and to establish building codes. USGS monitors 
volcanoes and provides warnings about impending eruptions that are used 
by aviation officials to prevent planes from flying into volcanic ash 
clouds. Data from the USGS network of stream gauges enable the National 
Weather Service to issue flood and drought warnings. The USGS and its 
Federal partners monitor seasonal wildfires and provide maps of current 
fire locations and the potential spread of fires. In domestic and 
global events, emergency managers and public officials rely on USGS to 
inform them of risks and hazards posed to human and natural systems, 
saving millions of dollars and safeguarding American lives and 
property.
           mapping and assessing mineral and energy resources
    USGS assessments of mineral and energy resources--including rare 
earth elements, coal, oil, unconventional natural gas, and geothermal 
sources--are essential for making decisions about the Nation's energy 
future. The USGS identifies the location and quantity of domestic 
mineral and energy resources and assesses the economic and 
environmental effects of resource extraction and use. USGS also maps 
domestic supplies of rare earth elements to be used in new energy 
technologies, which can reduce dependence on foreign oil. The USGS is 
the sole Federal source of information on mineral potential, 
production, and consumption that are essential to support America's 
energy landscape now and in the future.
                 collecting and assessing land use data
    Research and data collected by the USGS are vital to predicting the 
impacts of land use and climate change on water resources, wildfires, 
and ecosystems. For 44 straight years, Landsat satellites have 
collected the largest archive of remotely sensed land data in the 
world, allowing for access to current and historical images that 
provide insights relevant for global agricultural production and for 
understanding the impact of natural disasters on communities and the 
environment. A 2013 National Research Council study found that the 
economic benefit of Landsat data was estimated to be $2 billion for 
2011 alone. The consistency of data sets like those provided by Landsat 
is vital for advances in science, more efficient natural resource 
management, and profitable applications of data in commerce and 
industry.
            developing and providing mapping for the nation
    The USGS utilizes unique technologies that enable the collection of 
accurate nationwide terrain information. This information improves our 
knowledge of water supply and quality issues; better prepares emergency 
responders for natural disasters; and provides businesses with more 
accurate data. Modernized, high-resolution topographic maps are 
provided by the USGS through their 3D Elevation Program (3DEP). 3DEP 
leverages funds from the private sector and other Federal agencies, 
providing open-access elevation data for a wide variety of users. From 
better flood-inundation maps, to cost-effective precision farming, to 
the development of renewable energy projects, 3DEP data supports 
cutting edge resource management and energy projects.
                maintaining and evaluating public health
    The USGS helps to maintain public health at the local, State, and 
national level. By monitoring changes in ecosystem and environmental 
health, the Survey can evaluate human susceptibility to contaminants, 
pathogens, and environmental disease. This unique perspective into the 
intersection between the physical environment, living environment, and 
humans allows the USGS to provide valuable insights regarding public 
health concerns. For example, the agency assesses negative health 
effects caused by the dispersion of contaminants after natural and man-
made disasters, such as hurricanes and oil spills. In one such 
instance, after Hurricane Sandy, the USGS provided soil, water, and 
sediment information to public health agencies to help them protect 
citizens from toxic contaminants.
               engaging the next generation of scientists
    The USGS meets monthly with other Department of Interior (DOI) 
bureaus to collaborate on projects that will engage the next generation 
of scientists. Collectively, the DOI is actively working to provide at 
least 10 million students with educational, work, and training 
opportunities. In 2015, the USGS offered learning opportunities to over 
100,000 students and teachers in activities such as science fairs, 
mentoring opportunities, camps, and hands-on learning experiences. 
Programs such as the USGS's Cooperative Research Units (CRU) provide 
under-represented undergraduate students with mentoring and hands-on 
experiences designed as a pathway to DOI recruitment.
                               conclusion
    AGU was pleased to see that the USGS received a 2 percent funding 
increase in the fiscal year 2017 Omnibus Appropriations Bill. 
Nevertheless, the agency has been historically strained by a large 
workload and too few resources. As the Nation faces unprecedented 
challenges, such as demand for limited energy, vulnerability to natural 
hazards, and the need for clean water, a substantial funding increase 
for USGS will allow the agency to maximize support for the Nation's 
environmental, economic, and national security.
    AGU respectfully requests that Congress appropriate $1.2 billion 
for USGS in fiscal year 2018. We appreciate the opportunity to submit 
this testimony to the subcommittee and thank you for your thoughtful 
consideration of our request.

    [This statement was submitted by Carissa Bunge, Public Affairs 
Specialist.]
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the American Geosciences 
Institute's perspective on fiscal year 2018 appropriations for 
geoscience programs within the subcommittee's jurisdiction. We ask the 
subcommittee to support and sustain critical geoscience functions at 
the United States Geological Survey (USGS), and related work at other 
agencies and bureaus.
    Specifically, we ask that you support funding of $1.2 billion for 
USGS. AGI also suggests $175 million for Energy and Minerals Management 
at the Bureau of Land Management; $75 million for the Bureau of Ocean 
Energy Management; $83 million for the Bureau of Safety and 
Environmental Enforcement; $8.1 billion for the Environmental 
Protection Agency; $863 million for the Smithsonian Institution; and 
$2.95 billion for the National Park Service.
    The Earth provides the energy, mineral, water, and soil resources 
that are essential for a thriving, innovative economy, national 
security, and a healthy population and environment. We must understand 
the Earth system, and particularly the geological characteristics of 
Earth's surface and subsurface, in order to sustain human health and 
safety, maintain energy and water supplies, and improve the quality of 
the environment while reducing risks from natural hazards.
    AGI is a nonprofit federation of 51 geoscientific and professional 
associations that represent approximately 250,000 geologists, 
geophysicists, and other Earth scientists who work in industry, 
academia, and government. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice of shared interests in our 
profession, plays a major role in strengthening geoscience education, 
and strives to increase public awareness of the vital role the 
geosciences play in society's use of resources, resilience to natural 
hazards, and the health of the environment.
             importance of understanding earth's subsurface
    The next great frontier lies under our feet. We know relatively 
little about the 2 miles of the Earth's crust immediately below the 
surface even though we rely on it for many of our energy, mineral, and 
water supplies; we use it as a disposal site for a variety of waste 
products; and it is the source of damaging earthquake and volcanic 
hazards. Scientific and technological innovations now equip us to 
identify the wealth that may lie in the shallow subsurface and to avoid 
destabilizing or contaminating the Earth's crust. By collaborating 
together, Federal agencies with expertise in the subsurface can help 
usher in a new era of understanding and wise development of the Earth 
and its resources.
    The U.S. Geological Survey has primary responsibility for examining 
the geological structure of the national domain. The Geoscience 
Directorate at the National Science Foundation funds basic geoscience 
research. State geological surveys play a vital role in geological 
mapping. NASA and NOAA provide important remote sensing and Earth 
monitoring data. The Department of Energy is already coordinating its 
own subsurface activities through the SubTER cross-cut.
    We respectfully suggest that the time has come for a coordinated 
national effort to examine and characterize the shallow subsurface of 
the country. Federal agencies should work together to combine 
fundamental science with advanced technologies to create a publicly 
available, national-scale, characterization of the shallow subsurface 
that would be the basis for private-sector investment and informed 
decisionmaking in both the private and public sectors. This budget can 
lay the scientific, technological, and administrative foundations to 
explore the next frontier.
                         u.s. geological survey
    AGI supports $1.2 billion for USGS to support the agency's 
scientific mission. We recommend a balanced portfolio of research, 
monitoring, and assessment, including geologic mapping and geophysical 
surveys, that supports smart use of the Nation's energy, mineral, 
water, and land resources.
    Importance of Geoscience Functions at USGS: The need for geological 
information has not diminished since USGS was established in 1879. On 
the contrary, as we place increasing demands on Earth's system, many 
critical decisions rely upon geoscience information. The USGS has a 
wide-ranging mission to provide objective maps, data, observations, 
analyses, assessments, and scientific solutions to support 
decisionmaking. While there is merit to USGS's broad remit, its unique 
geological mission should be paramount.
    Optimizing USGS facilities: Some USGS facilities are in extremely 
bad condition, others do not meet current requirements. AGI supports 
additional fiscal year 2018 funding for USGS Facilities to maintain 
essential monitoring, observation, and analytical instrumentation, and 
to consolidate facilities to best serve the agency's mission. Investing 
in USGS infrastructure now will increase efficiency and yield 
considerable savings in the coming years.
                          core science systems
  --National Cooperative Geologic Mapping Program (NCGMP): This 
        important, decades-long partnership between the USGS, State 
        geological surveys, and universities has a proven track record 
        of delivering cost-effective geological maps. AGI asks that 
        Congress increase funding for the National Cooperative Geologic 
        Mapping Program to $30 million in fiscal year 2018 to meet 
        growing demand from many sectors for geologic maps.
  --National Geospatial Program: Topographic mapping has been a core 
        activity at USGS since its inception. AGI strongly supports the 
        3D Nation interagency partnership to build a modern elevation 
        map of the Nation's territories and urges Congress to support 
        USGS's contribution, the 3DEP (3D Elevation) program. AGI 
        strongly supports investment in lidar and ifsar mapping, and 
        requests $69 million for the National Geospatial Program.
  --Data Preservation: The National Geological and Geophysical Data 
        Preservation Program (NGGDPP) produces more value in terms of 
        economic, environmental, hazard mitigation, and regulatory 
        efficiency than it costs to run. AGI urges Congress to 
        reauthorize NGGDPP and to fund it at the previously authorized 
        level of $3 million.
                      energy and mineral resources
  --Mineral Resources Program: We are concerned at the dearth of 
        investment in identifying and characterizing domestic mineral 
        resources, which can play a vital role in the security of our 
        national supply chains. USGS minerals and mapping programs 
        provide the baseline geologic information needed to stimulate 
        and target renewed interest in domestic mineral resources. 
        Funding these programs will support national defense and 
        economic priorities.
          The National Minerals Information Center (NMIC) continues to 
        provide financially and strategically vital information on the 
        global supply of, demand for, and flow of minerals and mineral 
        materials. We are impressed by the increase in timely analyses, 
        in addition to the regular collection and dissemination of 
        accurate data, generated by NMIC. AGI supports increased 
        funding of $60 million for the Mineral Resources Program.
  --Energy Resources Program: AGI supports increased funding for the 
        Energy Resources Program. We note the importance of research on 
        gas hydrates, which may play a significant role in future 
        energy and climate scenarios. AGI supports funding of $25 
        million for the Energy Resources Program.
                            land use change
  --Land Remote Sensing Program: One of the most fundamental concepts 
        in the geosciences is that the Earth changes through time. It 
        is impossible to overstate the importance of long-term, 
        consistent monitoring of the Earth to provide a sound basis for 
        decisionmaking. AGI supports $97 million for Land Use Change, 
        which includes Landsat and other Earth observing systems.
                            water resources
  --Drought and challenges in water supplies and water quality 
        highlight the importance of understanding the quality, 
        quantity, and distribution of our groundwater and surface water 
        resources. AGI urges Congress to ensure the continuity and 
        expansion of nationwide, long-term data collection and research 
        programs that support water planning and decisionmaking across 
        all States, and to fund Water Resources at $215 million for 
        fiscal year 2018.
                            natural hazards
  --Natural hazards can cause substantial damage throughout the Nation 
        but, with the right information, communities can take action to 
        avoid and mitigate potential harm. USGS landslide, earthquake, 
        volcano programs, plus the agency's work on geomagnetism and 
        coastal and marine geology, strengthen our national resilience 
        and save our communities and citizens from harm. AGI supports 
        robust funding of the Natural Hazards Program and urges 
        Congress to appropriate $145 million to this Mission Area.
                       bureau of land management
    AGI supports efforts by the Energy and Minerals Management program 
to modernize its data systems and administrative processes. BLM needs 
staff with appropriate skills to carry out energy and minerals 
inspections, data collection and analysis, and administration. AGI 
supports funding BLM's Energy and Minerals activities at $175 million 
and we urge investment in BLM's workforce to ensure efficient technical 
and administrative service.
      bureau of ocean energy management and bureau of safety and 
                       environmental enforcement
    In order to administer and oversee offshore energy development 
effectively and efficiently, BOEM and BSEE need sufficient, skilled 
staff. AGI recommends continued investment in workforce development to 
avoid delays in the functions of both bureaus. AGI supports $75 million 
in Federal funds for BOEM, and $83 million for BSEE.
                    environmental protection agency
    We respectfully request Congress to consider the value of many EPA 
science programs, especially their value to States, Tribes, extramural 
partners, and grant recipients, when making budget decisions. EPA 
provides many benefits to the Nation, we request funding of $8.1 
billion for the agency.
                        smithsonian institution
    The Smithsonian's National Museum of Natural History (NMNH) plays a 
dual role in communicating the excitement of the geosciences to the 
public and enhancing knowledge through research and the preservation 
and sharing of geoscience collections. AGI supports funding of $863 
million for the Smithsonian Institution, with $49.2 million for the 
NMNH.
                         national park service
    National parks are unique national treasures that showcase the 
geologic splendor of our country and offer unparalleled opportunities 
for research, education, and outdoor activities. AGI supports $2.95 
billion for the National Park Service and we note its important role in 
educating students and the public about all aspects of Earth and human 
history.
    Thank you for the opportunity to present testimony to the 
Subcommittee. If you would like additional information for the record, 
please contact Maeve Boland at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f39e919c9f929d97b392949a849691dd9c8194">[email&#160;protected]</a>, or 4220 King Street, 
Alexandria VA 22302-1502.

    [This statement was submitted by Allyson K. Anderson Book, 
Executive Director.]
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                           i. request summary
    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which collectively are the American Indian Higher Education Consortium 
(AIHEC), thank you for this opportunity to present our fiscal year 2018 
(fiscal year 2018) appropriations recommendations for the 29 colleges 
funded under Titles I and II of the Tribally Controlled Colleges and 
Universities Assistance Act (Tribal College Act); the two tribally 
chartered career and technical postsecondary institutions (Title V/
Tribal College Act); the two Bureau of Indian Education postsecondary 
institutions; and the Institute of American Indian Arts (IAIA). The 
Bureau of Indian Education administers each of these programs, with the 
exception of IAIA, which is congressionally chartered and funded in its 
own account.
    In fiscal year 2018, TCUs request:
  --$80,220,000 to fund institutional operations under Titles I and II, 
        and technical assistance authorized in the Tribally Controlled 
        Colleges and Universities Assistance Act of 1978, or Tribal 
        College Act, which would fund 27 TCUs at the authorized level 
        for the first time in 37 years and provide an additional 
        $100,000, for a total of $701,000 for increasingly needed 
        technical assistance. It is worth noting that the technical 
        assistance program has been level funded for 12 years;
  --Without the budget tables, which are not available at this writing, 
        we cannot confirm a potential cut to Title V of the Tribally 
        Controlled Colleges and Universities Assistance Act that 
        provides partial institutional operations funding for Navajo 
        Technical University (NTU) and United Tribes Technical College 
        (UTTC). The career and technical programs offered by these 
        colleges afford students a solid chance at not just a job, but 
        a career. Cuts to their basic operating budgets will likely 
        cause them to significantly scale back programs that cost the 
        most to offer--such as engineering, information technology, 
        digital manufacturing, and veterinary technology--but that 
        provide the highest career potential and benefits. We request 
        that any proposed cut to this grant program be rejected and 
        that the Nation's two tribally chartered postsecondary career 
        and technical institutions be appropriated $10,000,000;
  --$9,948,000 for the Institute of American Indian Arts;
  --Reject the President's budget recommendation to cut $7,000,000 from 
        Haskell Indian Nations University (HINU) and Southwestern 
        Indian Polytechnic Institute (SIPI), the Bureau of Indian 
        Education's two postsecondary institutions and fund HINU/SIPI 
        at a minimum of $23,000,000. The request to make such a deep 
        funding cut to the BIE's two postsecondary institutions, if 
        enacted, would yield devastating results and could lead to the 
        closing of these institutions that are vital to the 
        postsecondary education goals of many American Indian and 
        Alaska Native students.
  --Lastly, each year the Bureau of Indian Education provides $60 
        million to K-12 institutions under its purview for professional 
        development training and activities. We request that Congress 
        instruct the BIE to prioritize the Nation's TCUs as providers 
        of professional development to these elementary and secondary 
        schools that educate a large proportion of American Indians and 
        Alaska Natives. TCUs are ideally situated to offer high 
        quality, culturally relevant professional development 
        opportunities as they are place-based institutions that are 
        acutely aware of the needs of Native students.
    Other than HINU, SIPI, and IAIA, TCUs are founded and chartered by 
their respective American Indian Tribes, which hold a special legal 
relationship with the Federal Government, actualized by more than 400 
treaties, several Supreme Court decisions, prior congressional action, 
and the ceding of more than one billion acres of land to the Federal 
Government. Despite the trust responsibility and treaty obligations, 
the TCUs' primary source of basic operating funds has never been 
adequately funded. Further, our member institutions--already operating 
on marginal budgets--have suffered the ramifications of perennial 
across-the-board cuts, including sequestration.
            ii. opportunity and innovation in indian country
    Tribal Colleges and Universities are an essential component of 
American Indian/Alaska Native (AI/AN) education. Currently, 37 TCUs 
operate more than 75 campuses and sites in 16 States, within whose 
geographic boundaries 80 percent of all American Indian reservations 
and Federal Indian trust land lie. They serve students from well over 
250 federally recognized Tribes, more than 85 percent of whom receive 
Federal financial aid--primarily Pell grants. In total, the TCUs 
annually serve 160,000 AI/ANs and other community members through a 
wide variety of academic and community-based programs. TCUs are public 
institutions accredited by independent, regional accreditation agencies 
and, like all U.S. institutions of higher education, must regularly 
undergo stringent performance reviews to retain their accreditation 
status. Each TCU is committed to improving the lives of its students 
through higher education and to moving AI/ANs toward self-sufficiency. 
To do this, TCUs serve many roles in their reservation communities, 
functioning as workforce and job creation engines, community centers, 
public libraries, Tribal archives, entrepreneurial, small business, and 
career centers, computer labs, summer camps, community farms and 
gardens, economic development centers, applied research hubs, child and 
elder care centers, and more.
    The Federal Government, despite its direct trust responsibility and 
binding treaty obligations, has never fully funded TCU institutional 
operations as authorized under the Tribally Controlled Colleges and 
Universities Assistance Act of 1978. Yet despite funding challenges, 
TCUs are leading the Nation in preparing an AI/AN workforce, including 
nurses, land managers, and teachers for our Native schools. For 
example, half of all AI/AN special education teachers in Montana are 
graduates of one college: Salish Kootenai College. TCUs prepare other 
professionals in high-demand fields, including agriculture and natural 
resources management, human services, IT, and building tradesmen. By 
teaching the job skills most in demand on our reservations, TCUs are 
laying a solid foundation for Tribal economic growth, which is the only 
way to move Tribes and Tribal members to self-sufficiency. But 
workforce development is not enough. TCU leadership understands that we 
must do more to accelerate the move to self-sufficiency--we must move 
beyond simple workforce training. Today, TCUs are tackling the 
tougher--but much more significant--issue of job creation, because we 
know that to break the cycle of generational poverty and end the 
culture of dependency that grips so much of Indian Country, simply 
filling jobs that would be filled anyway is not enough. We must create 
new industries, new businesses, and build a culture of innovation. Our 
job creation initiative is focusing initially on advanced 
manufacturing, through a partnership with the U.S. Department of 
Energy, National Laboratories, TCUs, and industry. Already, we are 
seeing results with new TCU-Tribal-industry partnerships, new 
contracting opportunities, and new jobs for our students and graduates.
    Tribal Colleges continually seek to instill a sense of hope and 
identity within Native youth, who one day will lead our Tribal nations. 
Unacceptably, the high school drop-out rate for Native students remains 
around 50 percent. To help address this alarming reality, TCUs 
partnered with the Department of the Interior's Bureau of Indian 
Education to help create a durable ``college-going culture'' in BIE 
middle and high schools. TCUs are reaching back to create a bridge for 
Indian students as early as the elementary school, encouraging them to 
abandon any notion of dropping out of high school and instead, to think 
that the natural course is to finish high school and go on to the local 
TCU. In addition, TCUs offer dual credit courses for high school 
students, provide math teachers for local high schools as a strategy 
for improving course delivery, host Saturday academies, after school 
programs and summer camps for middle and high school students, and at 
the other end of the spectrum, offer GED or HiSET training and testing, 
depending on their location. All are solid steps to bolster the 
prospects for future of Native youth and breaking the cycle of 
generational poverty.
    As noted earlier, the TCUs' operations funding remains 
insufficient, and their budgets are further disadvantaged, because 
unlike other institutions of higher education, TCUs receive operations 
funding based on the number of Indian students served, with ``Indian 
student'' defined as a member of a federally recognized Tribe or a 
biological child of enrolled Tribal members. Yet, approximately 15 
percent of the TCUs' collective enrollments are non-Indian students. 
While many TCUs do seek operating funds from their respective State 
legislatures for their non-Indian, State-resident students (also 
referred to as ``non-beneficiary'' students) successes have been, at 
best, inconsistent. Given their locations, often hundreds of miles from 
another postsecondary institution, TCUs are open to all students, 
Indian and non-Indian, believing that education in general, and 
postsecondary education in particular, is a catalyst to a better 
economic future in remote areas.
                 iii. solid investment of federal funds
    In August 2015, an economic impact study on the TCUs, conducted by 
Economic Modeling Specialists International (EMSI), revealed that the 
known TCU alumni impact is $2.3 billion, which supports 28,778 jobs in 
the Nation. From a taxpayer's perspective, the study concluded that the 
total monetary benefits to taxpayers compared to their costs (equal to 
the Federal funds the TCUs received during the analysis year) yield a 
2.4 benefit-cost ratio. In other words, for every Federal dollar 
invested in the TCUs, the taxpayers receive a cumulative value of 
$2.40. The average annual rate of return is 6.2 percent, a solid rate 
of return that compares favorably with other long-term investments. On 
an individual basis, TCU students see an annual return of investment of 
16.6 percent, and the vast majority of TCU-trained workers remains in 
Indian Country and contributes to the local economy. TCUs benefit 
taxpayers through increased tax receipts and reduced demand for Federal 
social services; a win all-around.
            iv. challenges: tax base & gaming misconceptions
    Local Tax and Revenue Base: TCUs cannot rely on a local tax base 
for revenue. Although Tribes have the sovereign authority to tax, high 
reservation poverty rates, the trust status of reservation lands, and 
the lack of strong reservation economies hinder the creation of a 
reservation tax base. As noted earlier, on Indian reservations that are 
home to TCUs, the unemployment rate can well exceed 70 percent. By 
contrast, the national unemployment rate is currently 4.5 percent.
    Gaming and the TCUs: Although several of the reservations served by 
TCUs have gaming operations, they are not the mega-casinos located in 
urban areas and featured in the broad-based media. Only a handful of 
TCUs receive regular income from the chartering Tribe's gaming revenue, 
and the amounts received can vary greatly from year to year. Most 
reservation casinos are small businesses that use their gaming revenue 
to improve the local standard of living and potentially diversify into 
other, more sustainable areas of economic development. In the interim, 
where relevant, local TCUs offer courses in casino management and 
hospitality services to formally train Tribal members to work in their 
local tribally run casinos.
    Some form of gaming is legalized in 48 States, but the Federal 
Government has not used the revenues generated from State gaming as a 
justification to decrease Federal funding to other public colleges or 
universities in those States. Some have suggested that those Tribes 
that operate the handful of extremely successful and widely publicized 
casinos located in or near urban areas, should be financing higher 
education for all American Indians. And yet, no State is expected to 
share its gaming revenue with a less successful or non-gaming State.
             v. appropriations request for fiscal year 2018
    As noted earlier, it has been more than 35 years since the Tribal 
College Act was first funded, and the TCUs have yet to receive the 
congressionally authorized per Indian student funding level. Full 
funding for the TCUs' institutional operating grants under Titles I and 
II in fiscal year 2018 would require only a modest increase of 
approximately $10.4 million over the fiscal year 2017 appropriated 
level. These TCUs that educate the vast majority of TCU-attending 
students and serve some of the largest Indian Tribes in the Nation, 
have been level-funded since fiscal year 2014. Since that time, the 
College of the Muscogee Nation in Okmulgee, Oklahoma became eligible 
for funding under Title I of the Tribal College Act, and several more 
could potentially gain eligibility in the next few years.
                             vi. conclusion
    AIHEC Member institutions/Tribal Colleges and Universities provide 
quality higher education to thousands of American Indians and other 
reservation residents, as well as essential community programs and 
services to those who might otherwise not have access to such 
opportunities. The modest Federal investment that has been made in TCUs 
has paid great dividends in terms of employment, education, economic 
development and has significantly reduced social, healthcare, and law 
enforcement costs. Continuation of this investment makes sound moral 
and fiscal sense.
    We greatly appreciate the subcommittee's past and continued support 
of the Nation's Tribal Colleges and Universities and your thoughtful 
consideration of our fiscal year 2018 appropriations requests.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of appropriations for 
the United States Geological Survey (USGS), United States Forest 
Service (USFS), Environmental Protection Agency (EPA), United States 
Fish and Wildlife Service (USFWS), and Smithsonian Institution for 
fiscal year 2018. We encourage Congress to provide the USGS with $1.2 
billion in fiscal year 2018 and $173.9 million for the Ecosystems 
mission area. We further request that Congress provide the USFS Forest 
and Rangeland Research program with at least $296.0 million and EPA 
Science and Technology with at least $715 million. We also request the 
restoration of funding for Science Support in USFWS to the fiscal year 
2017 enacted level of $17.0 million. Lastly, we support $729.4 million 
for Smithsonian salaries and expenses, the same as in fiscal year 2017.
    The AIBS is a nonprofit scientific association dedicated to 
advancing informed decisionmaking that advances biological research and 
education for the benefit of science and society. AIBS works to ensure 
that the public, legislators, funders, and the community of biologists 
have access to and use information that will guide them in making 
informed decisions about matters that require biological knowledge. 
Founded in 1947 as a part of the National Academy of Sciences, AIBS 
became an independent, member-governed organization in the 1950s. 
Today, AIBS has individual members and more than 130 member 
organizations with a combined individual membership and staff of more 
than 200,000.
                         u.s. geological survey
    The USGS provides unbiased, independent research, data, and 
assessments that are needed by public and private sector decision-
makers. Data generated by the USGS save taxpayers money by enabling 
more effective management of water and biological resources, and 
providing essential geospatial information that is needed for 
commercial activity and natural resource management. The data collected 
by the USGS are not available from other sources and our Nation cannot 
afford to sacrifice this information.
    The Ecosystems activity within USGS underpins the agency's other 
science mission areas by conducting the research required to understand 
the impacts of water use, energy exploration and production, and 
natural hazards on natural systems. The USGS conducts research on and 
monitoring of fish, wildlife, and vegetation--data that informs 
management decisions by other Interior bureaus regarding protected 
species and land use.
    Biological science programs within the USGS gather long-term data 
not available from other sources. The knowledge generated by USGS is 
used by Federal and State natural resource managers to maintain healthy 
and diverse ecosystems while balancing the needs of public use.

    Examples of successful USGS Ecosystem initiatives include:

  --Development of comprehensive geospatial data products that 
        characterize the risk of wildfires on all lands in the United 
        States. These products are used to allocate firefighting 
        resources and to plan wildfire fuel reduction projects.
  --Identification and evaluation of control measures for Asian carp, 
        sea lamprey, Burmese pythons, and other invasive species that 
        cause billions of dollars in economic losses annually.
  --New insights on the spread of avian flu, chronic wasting disease, 
        and other diseases spread by wildlife in North America.

    The President's fiscal year 2018 budget request would cut the 
Ecosystems mission by 17 percent relative to the fiscal year 2017 
enacted level. Simply put, there is no way the agency can absorb these 
cuts without negatively affecting research and jeopardizing data 
quality. As a science agency, much of the USGS budget is dedicated to 
staff as well as equipment and facilities that must be maintained and 
updated to ensure the continuity of data acquisition and that the data 
gathered are reliable and available for future scientific 
investigations. The leadership of the USGS is doing all they can, and 
has been for a number of years, to contain costs while continuing to 
deliver high quality science.

    Among the proposed reductions are:

  --Elimination of curation of and research on biological collections 
        at the Smithsonian Institution. USGS has more than a million 
        specimens of birds, mammals, amphibians, and reptiles that are 
        housed at the Smithsonian. This arrangement goes back to 1889.
  --Elimination of research on the ecological effects of fracking. 
        Research by the USGS on this topic compliments research 
        conducted by EPA on water quality issues associated with 
        fracking. This information is vital to Federal and State 
        management of energy development.
  --Reduce wildlife and fisheries research. USGS conducts this research 
        for the benefit of Federal and State stakeholders. Without 
        these research programs, USFWS, the National Park Service, and 
        other Interior bureaus will not have the scientific information 
        needed to fulfill their agency missions to manage wildlife, as 
        these agencies do not have the scientific capacity of the USGS.
  --Reduced research on ecosystems of concern. This research is a 
        critical component of efforts to restore important national 
        treasures, such as the Everglades and the Chesapeake Bay. The 
        Arctic ecosystem research and monitoring program addresses the 
        needs of Native communities, and also promotes public health 
        throughout the US through monitoring avian flu.

    Although we are pleased that the Invasive Species Program and 
Cooperative Research Units were spared from cuts in the 
administration's request, we urge Congress to reject the deep cuts to 
other parts of the Ecosystems mission area.
                          u.s. forest service
    USFS research provides scientific information and new technologies 
to support sustainable management of the Nation's forests and 
rangelands. These products and services increase the basic biological 
and physical knowledge of the composition, structure, and function of 
forest, rangeland, and aquatic ecosystems. This research also saves 
lives and prevents property damage from wildfires.
    Forest and Rangeland Research is proposed for a 10.2 percent cut in 
the fiscal year 2018 budget request. Because the administration's 
request specifies that forest inventory and analysis be held at the 
fiscal year 2017 enacted level, the remaining six research areas would 
be subject to a collective 14 percent cut. This would negatively impact 
research on wildfires, invasive species, and forest management, and 
will have negative consequences for Americans' safety, health, and 
enjoyment of public forests.
    We ask Congress to fund the Forest and Rangeland Research program 
at $296.0 million, the same amount as in fiscal year 2015. Continued 
cuts to research will hinder the USFS's ability to fulfill its mission 
to sustain the health, diversity, and productivity of the Nation's 
forests and grasslands.
                    environmental protection agency
    Funding for EPA Science and Technology supports valuable research 
that is used to identify and mitigate environmental problems facing our 
Nation. EPA research informs decisions made by public health and safety 
managers, natural resource managers, businesses, and other stakeholders 
concerned about air and water pollution, human health, and land 
management and restoration. In short, this program provides the 
scientific basis upon which EPA monitoring and enforcement programs are 
built.
    Despite the important role of the Science and Technology 
appropriation, the proposed funding level for fiscal year 2018 is 
roughly half of what the program received in fiscal year 2002. The EPA 
Science Advisory Board has expressed concern repeatedly about the long-
term decline in research funding at EPA. ``These limitations pose a 
vulnerability for EPA at a time when the agency faces significant 
science questions with long-term implications for protecting the 
environment and public health.''
    We are especially concerned to see the proposed eliminations of the 
Science to Achieve Results (STAR) Research Grants and climate change 
research. These programs are important parts of the Federal 
government's ability to ensure clean air and water for its citizens.
    We ask Congress to fund the program at $715.0 million in fiscal 
year 2018.
                     u.s. fish and wildlife service
    The President's budget request would eliminate the Science Support 
program within USFWS. This program provides scientific information 
needed by USFWS, such as research on conservation of priority species 
prior to Endangered Species Act listing, on the impacts of energy 
production on wildlife, and best management practices for combating 
invasive species. For this program to be eliminated in conjunction with 
significant reductions in USGS biological research would mean that 
USFWS will have very little scientific information available as it 
tries to fulfill its mission to conserve, protect, and enhance the 
living resources of the United States for the benefit of the American 
people.
                        smithsonian institution
    The Smithsonian Institution is a valuable Federal partner in the 
curation and research on scientific specimens. The scientific experts 
at the National Museum of Natural History care for an astounding 140 
million specimens and ensure the strategic growth of this national 
treasure. To increase the availability of these scientific resources to 
researchers, educators, other Federal agencies, and the public, 
Smithsonian is working on a multi-year effort to digitize its 
collections. That effort will substantially increase the scientific 
uses of these collections.
    The Smithsonian has also been working to strengthen curatorial and 
research staffing and to backfill positions left open by retirements 
and budget constraints. The current staffing level is insufficient to 
provide optimal care for the collections. Future curatorial and 
collections management staffing levels may be further jeopardized given 
the proposed funding cuts at science agencies that support staff 
positions embedded at Smithsonian, such as the U.S. Geological Survey.
                               conclusion
    We urge Congress to reject the administration's budget request for 
fiscal year 2018 and to continue the bipartisan tradition of investing 
in our Nation's scientific capacity.
    Thank you for your thoughtful consideration of this request.

    [This statement was submitted by Julie Palakovich Carr, Public 
Policy Manager, and Robert Gropp, Ph.D., Co-Executive Director.]
                                 ______
                                 
              Prepared Statement of Americans for the Arts
    Americans for the Arts is the leading nonprofit organization for 
advancing the arts and arts education in America. With offices in 
Washington, DC and New York City, we have more than 55 years of service 
and are dedicated to representing and serving local communities, and 
creating opportunities for every American to participate in and 
appreciate all forms of the arts.
    I am pleased to submit written testimony supporting Federal funding 
for the National Endowment for the Arts (NEA) at the level of $155 
million for fiscal year 2018. Thank you to Chairman Murkowski, Ranking 
Member Udall, and members for the opportunity to provide public comment 
on the budget request for the NEA, on behalf of arts and culture across 
the country.
    I am deeply troubled by the Trump administration's proposed fiscal 
year 2018 budget calling for the elimination of the NEA. President 
Trump is the first and only American president who has made such a 
recommendation. Our nation's parents, teachers, community leaders, arts 
advocates, government officials, and even economists will not accept 
this proposal. For more than 50 years, the NEA has expanded access to 
the arts for all Americans, awarding grants in every congressional 
district throughout all 50 States and U.S. territories, as well as 
placing arts therapists in military hospitals to help returning 
military heroes heal from physical and traumatic brain injuries. 
Republican and Democratic leaders alike deeply value the work of the 
NEA.
    The administration's budget proposal shows a lack of understanding 
of the important role that the NEA plays in America today. With only a 
$150 million annual appropriation, the NEA's investment in every 
congressional district in the country contributes to a $730 billion 
arts and culture industry in America, according to the U.S. Bureau of 
Economic Analysis at the U.S. Department of Commerce, representing 4.2 
percent of the annual U.S. GDP. This arts and culture industry supports 
4.8 million jobs and yields a $26 billion trade surplus for our 
country.
    Beyond those numbers, the NEA work is critical to America's future, 
generating substantial economic, educational, and direct community 
impact. In fiscal year 2016, NEA grants resulted in $500 million in 
matching support. These are additional dollars investing in projects, 
services, and programming, like access to arts education, teacher 
training, and preservation of historic artifacts.
    In total, throughout its 50 years, the NEA has made over 147,000 
grants totaling more than $5 billion dollars, leveraging up to ten 
times that amount through private philanthropies and local 
municipalities.
    By law, 40 percent of both the NEA's grantmaking budget goes 
directly to States. States make the decisions on where these dollars go 
in their States.
    This cost? Approximately 0.004 percent of the Federal budget.

    Here are some outcomes if the cultural agencies were terminated:

  --States would lose funding. There would be the immediate, direct 
        loss, but also the leveraging loss. In Alabama, for example, 
        the Alabama State Council on the Arts receives about $775,000 
        from the NEA annually. From that $775,000 that the NEA gives, 
        the Alabama State Council on the Arts can typically leverage 
        another $4.6 million in donations that wouldn't otherwise 
        occur.
  --National initiatives would end. Just to highlight a few:
    --Creative Forces: Since 2011, the military healing arts 
            partnership has supported creative arts therapies for 
            service members with traumatic brain injury and associated 
            psychological health issues. With your leadership and 
            congressional support, in 2016, the initiative expanded to 
            ten additional sites nationwide and increased access to 
            therapeutic arts activities in local communities for 
            military members, veterans, and their families.
    --Big Read: Over the last decade, the NEA has funded more than 
            1,300 Big Read programs, providing more than $18 million in 
            grants to organizations in every congressional district. In 
            turn, these organizations have leveraged nearly $42 million 
            in local funding to support their NEA Big Read programs. 
            More than 4.8 million Americans have attended an NEA Big 
            Read event, approximately 79,000 volunteers have 
            participated at the local level, and over 37,000 community 
            organizations have partnered to make Big Read activities 
            possible.
    --Mayors' Institute on City Design: A leadership initiative in 
            partnership with the United States Conference of Mayors. 
            Since 1986, the Mayors' Institute has helped transform 
            communities through design by preparing mayors to be the 
            chief urban designers of their cities.
    --Shakespeare in American Communities: Since its inception, over 
            100 theater companies have taken part in the program, 
            benefitting more than 2.8 million individuals, including 
            2.3 million students in all 50 States.
  --Improving access to the arts would be stymied. Currently, 40 
        percent of NEA-supported activities take place in high-poverty 
        neighborhoods; 36 percent of NEA grants go to organizations 
        that reach underserved populations such as people with 
        disabilities, people in institutions, and veterans; and more 
        than half of NEA-funded art events take place in locations 
        where the median household income is less than $50,000. 
        Moreover, a non-Federal funding model will leave too many 
        communities behind. Philanthropic giving as a whole in the 
        United States is geographically disproportional, with rural 
        areas receiving only 5.5 percent of foundation grant dollars. 
        Public funding for the arts plays an essential role in making 
        sure all American communities may benefit.

    The administration's proposal also comes on the heels of recent 
passage of a funding increase of nearly $2 million for the agency, 
bringing its budget to nearly $150 million. As before and as always, we 
stand ready to assist and remain focused on getting the Endowments to 
the $155 million level in the coming months.
    I thank you for your support and recognition of the valuable 
contributions of cultural institutions to every community across the 
nation, and the role that Federal agencies such as the Institute of 
Museum and Library Services (IMLS), National Endowment for the 
Humanities (NEH), the NEA, and the Corporation for Public Broadcasting 
(CPB) play in invigorating communities and promoting lifelong learning. 
These are indeed core Federal responsibilities.
    Thank you for your consideration and support of the NEA in the 
fiscal year 2018 budget, which I am proud to say is also publicly 
supported by 40 Senators, in the recent letter to your committee 
delivered on March 31, 2017, led by Senate Cultural Caucus co-chair 
Senator Tom Udall.

    [This statement was submitted by Robert L. Lynch, president and 
CEO.]
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    We ask the subcommittee to reject the administration's fiscal year 
2018 budget, which represents a wholesale abdication of responsibility 
to protect the Nation's wildlife and the environment.
Bureau of Land Management (BLM)--Wild Free-Roaming Horses and Burros 
        Act
    The BLM continues to mismanage America's wild horses and burros, 
emphasizing their removal from public lands instead of implementing 
humane solutions, including the use of immuno-contraception to control 
fertility rates, that manage the animals on the range. We ask the 
Committee to fund the BLM at fiscal year 2017 levels and to urge it to 
continue exploring more effective and longer lasting fertility control 
agents. Alternatives to warehousing tens of thousands of healthy wild 
horses are needed but we oppose Sec. 116 ``Humane Transfer of Excess 
Animals'' of the fiscal year 2017 omnibus (Public Law 115-31). This 
language is unnecessary and could result in once-protected wild horses 
ending up in slaughter despite the directive to the contrary. Thousands 
of healthy and viable wild horses, not bound by limitations of the Act 
and currently being held by the BLM, are already available for sale to 
other Federal, State, and local entities. Finally, we oppose the budget 
directive regarding euthanasia and unrestricted sale of unadopted wild 
horses and burros and strongly support the inclusion of the ``no-kill'' 
language found in the fiscal year 2017 omnibus to ensure that BLM does 
not kill healthy wild horses and burros: ``Appropriations herein made 
shall not be available for the destruction of healthy, unadopted, wild 
horses and burros in the case of the Bureau or its contractors or for 
the sale of wild horses and burros that results in their destruction 
for processing into commercial products.''
Fish and Wildlife Service--National Wildlife Refuge System--Signage and 
        Reporting
    We request that fiscal year 2018 funding be maintained at the 
fiscal year 2017 level. Given the NWRS's stated purpose of conserving 
wildlife (including species threatened with extinction) and to ensure 
that these refuges are safe for the millions of Americans who visit 
them, we ask the Committee to adopt the language contained in the House 
Committee fiscal year 2017 report (H. Rpt. 114-632), and reaffirmed by 
the fiscal year 2017 omnibus, regarding signage for body-gripping 
traps: ``The Committee directs the Service to institute signage on any 
individual refuge where trapping occurs. The Service is also directed 
to establish guidance on such signage and include it in the refuge 
manual. Information should be posted on the National Wildlife Refuge 
System website and the websites of the individual refuges where 
trapping is occurring so the public is informed.'' Such signage and 
other public alerts are needed to promote public safety and greater 
transparency regarding the use of such devices on wildlife refuges. 
Currently, over half of the System's 563 refuges allow trapping. Steel-
jaw leghold traps, Conibear traps, and strangulation snares pose 
distinct risks to humans, wildlife, and other animals (e.g., pets) 
given their indiscriminate nature and the trauma such devices inflict 
upon those caught in these traps.
Fish and Wildlife Service--Office of Law Enforcement (OLE)--$75,053,000
    The FWS OLE is one of the most important lines of defense for 
wildlife both at home and abroad. OLE enforces over a dozen Federal 
wildlife and conservation laws that frequently impact both domestic and 
global security. OLE protects the public against the illegal trade in 
wildlife and wildlife products and, in so doing, also provides a 
defense against the introduction of dangerous pathogens that could harm 
animal and/or human health. We ask that the Committee maintain its 
approved level of $75.053 million for OLE.
Fish and Wildlife Service--International Affairs--Wildlife 
        Trafficking--$15,196,000
    We ask that the current funding be maintained in fiscal year 2018. 
US assistance combating wildlife trafficking is essential for species 
conservation and national and global security given its close 
association with terrorism and criminal syndicates. Congress has 
demonstrated a strong bipartisan commitment to this work and it is 
important to ensure adequate funding to implement Public Law 114-231, 
the Eliminate, Neutralize, and Disrupt Wildlife Trafficking Act of 
2016. With poaching and illegal wildlife trade reaching unprecedented 
levels, governments and private entities here and abroad have turned to 
FWS for leadership in coordinating, guiding, and implementing a 
response. Continuing to fund this important work will help provide 
financial assistance to projects in foreign countries that counter 
wildlife trafficking activities as outlined in the National Strategy 
for Combating Wildlife Trafficking and actions articulated in the 
associated Implementation Plan. Specifically, the activities/actions 
build further capacity and develop partnerships for species 
conservation, which also facilitates cooperation between the US and 
foreign governments fighting terrorist organizations and international 
crime syndicates that profit from wildlife trafficking.
                       white-nose syndrome (wns)
U.S. Fish and Wildlife Service--$4.5 million total; $2 million in 
        Endangered Species Recovery; $2.5 million in Service Science
U.S. Geological Survey--$1.6 million in Ecosystems/Wildlife
National Park Service--$3,155,000 in Natural Resource Stewardship
Bureau of Land Management--$500,000
U.S. Forest Service--$2.5 million, Research & Development; $500,000, 
        Forest Systems.
    Eleven years after the first-known observation of white-nose 
syndrome, this bat disease remains at the heart of North America's most 
precipitous wildlife die-off of the past century, but Federal agencies 
and their partners are making progress in addressing this crisis. 
Caused by an invasive species of fungus, Pseudogymnoascus destructans 
(Pd), WNS has killed at least 5.7 million bats, and has spread from its 
first site in upstate New York to 31 States and 5 Canadian provinces. 
Mortality has been so severe that some populations have declined by 
over 90 percent. WNS has struck nine species, including the federally 
endangered Indiana and gray bats. The disease is also responsible for 
the population crash of the northern long-eared bat, leading to its 
2015 designation as threatened under the Endangered Species Act. The 
fungus Pd also has been found in an additional two States, and on 
another seven bat species, including the endangered Virginia big-eared 
bat. WNS has the potential to affect 25 of our country's 47 bat 
species.
    Since the last appropriations cycle, two events have taken place 
that are significant for the WNS outlook. First is the discovery of WNS 
and Pd in Washington State last year, the first known incidence of WNS 
or Pd in western North America, occurring 1,300 miles from the previous 
westernmost detection of the disease or fungus. Second is the discovery 
of Pd in Texas earlier this year. Texas has the greatest diversity of 
bat species of any U.S. State. It is also located at the intersection 
of the ranges of eastern, southern, and western bat species. Two of 
these species have extensive distributions in the western United States 
and Central America. If WNS were to spread further, the number of 
species and ecosystems affected by the disease would escalate. 
Moreover, bat ecology in the West poses additional challenges for 
managing the disease. Western bat species roost and hibernate singly or 
in small groups, making the bats hard to locate for surveillance or 
treatment purposes. This is compounded by the difficulty of finding or 
accessing potential bat roosts or hibernacula in the West's 
mountainous, rugged topography.
    These developments have implications for WNS response. The WNS 
community is revisiting the WNS surveillance process in order to 
address questions that the westward movement poses, such as whether 
WNS's/Pd's appearance in Washington was a true jump from East to West 
or whether existing surveillance methods failed to detect the disease 
or fungus in the intervening regions, and how to conduct surveillance 
in western habitats where bats are difficult to locate. The new 
incidences of the disease and fungus also underscore the need--
heretofore unmet--for standardized bat population counts and trend 
monitoring across the Nation. The North American Bat Monitoring Program 
(NABat), a nascent initiative to which staff from several agencies 
contribute, aims to fill this gap by developing and implementing a plan 
for monitoring and tracking bats continent-wide in a coordinated and 
statistically rigorous manner.
    The loss of bats from WNS is expected to have serious implications 
for our economy and environment. Bats are primary predators of night-
flying insects, including agricultural pests that attack corn, 
soybeans, cotton, and other crops. By eating these pests, bats reduce 
the need for pesticides and lower food production costs; in this way, 
save U.S. farmers an average of $22.9 billion per year. Bats also 
perform ecological services for 66 plant species that produce timber.
    Thanks to consistent funding from Congress, the Federal Government 
and its partners have made great strides in the response to WNS. 
Accomplishments in the past year include:
    In addition to making grants to States and other entities for WNS 
research, monitoring, and management, the U.S. Fish and Wildlife 
Service, the lead agency for WNS response, created a new WNS funding 
initiative in partnership of FWS and the National Fish and Wildlife 
Foundation: the Bats for the Future Fund. The BFF will provide grants 
for developing and deploying WNS treatments. NFWF will administer the 
fund and match government contributions with private-sector monies. FWS 
provided $1 million to launch BFF. In collaboration with partners, the 
agency also began developing a structured decisionmaking model for 
prioritizing WNS scientific efforts. In this way, FWS hopes to help 
Federal, State, and other entities working on WNS get the best results 
possible with limited funds. In the last year, FWS also released a 
number of products for the WNS-related community: an updated gear-
decontamination protocol, aimed at preventing Pd spread, for cavers, 
wildlife/public lands managers, and others who access caves; 
informational postcards on gear decontamination and unusual bat 
behavior for audiences considered at secondary risk for Pd exposure and 
contact with bats, to be distributed at sites such as recreation stores 
and public-lands visitor centers; and recommendations for natural 
resources managers on minimizing human disturbance of bats. FWS also 
coordinated an update to the nationwide WNS surveillance plan, which 
guides nationwide sampling for WNS and Pd; included in the plan are 
steps to begin addressing the surveillance issues raised by last year's 
westward spread of the disease and fungus. Finally, FWS lent funding, 
collaboration, or other support to more than five trials of potential 
treatments carried out by various entities.
    The U.S. Geological Survey continues its role in WNS research and 
data-gathering. The agency supports State WNS and Pd surveillance, 
particularly in regions on the edge of the disease spread. USGS hired a 
coordinator for NABat, with additional funding from FWS. The agency is 
validating software for acoustic detection of bats, which in the 
western United States is one of the only bat-survey methods available. 
This supports not only the goals of NABat but also FWS's requirements 
for monitoring listed bat species. Topics of current USGS WNS-related 
research include: the fungi normally found on various species of bats 
and possible correlations to the differential WNS susceptibility of 
those species; determining ideal environmental conditions for bat 
refugia in case populations must be taken from the wild to ensure their 
survival; and evolving hibernation behavior in post-WNS bats. USGS 
staff also are lending expertise to the development of the structured 
decisionmaking model led by FWS.
    Since 2013, the National Park Service has funded more than 158 WNS-
related projects in 78 park units. The Service monitors bat populations 
on its lands, both in post-WNS areas to assess the disease's impacts 
and species' survival, and in unaffected areas to gather baseline data 
on bat populations and ecology. NPS's Bat Acoustic Survey Database is a 
repository for acoustic monitoring data gathered from these activities, 
providing guidance for collecting acoustic data, allowing for 
standardization and data comparability across the Service. Furthermore, 
the data-base is designed to allow for integration of data into NABat. 
NPS supports NABat in other ways as well. The agency conducts some of 
its surveys under the NABat framework, and in fiscal year 2016 NPS's 
Upper Columbia Basin Inventory and Monitoring Network hired a NABat 
coordinator for the Northwest--a region where there is a paucity of 
knowledge about bat populations and ecology. In addition, as the 
Federal agency that welcomes the largest number of visitors every year, 
NPS plays an key role in educating the public about WNS, through ranger 
outreach, visitor infrastructure, and multimedia materials. Finally, 
NPS continues to fund research into WNS.
    Congress has never allocated money for the Bureau of Land 
Management--the majority of whose lands are in the western United 
States--to respond to WNS. Pursuant to directive language in fiscal 
year 2012 and fiscal year 2014, the agency did undertake some WNS work. 
But the disease's and fungus's westward movement, as well as the 3,000-
plus caves and estimated 31,000 abandoned mines on BLM lands, 
underscore the need for the agency to increase its WNS response. In a 
limited number of sites, BLM is conducting the following WNS-related 
actions: WNS surveillance; planning and implementation of NABat 
monitoring; English- and Spanish-language signage installation to 
educate visitors about WNS. The agency also is providing funds through 
a small-grants program for field offices to get equipped for WNS 
response.
    Congress also has never allocated money for the U.S. Forest Service 
to engage on WNS, despite the fact that since the early days of the 
crisis the agency has contributed proactively to research and on-the-
ground management to address the disease. Ongoing USFS research 
includes: DNA sequencing of bats across eastern and midwestern States, 
looking for possible adaptive selection of immune systems and comparing 
them; silencing WNS-related genes to increase bat resistance to the 
disease; the effects of UV light to treat WNS-stricken bats; and a so-
called electronic nose to identify WNS and Pd without direct contact 
with bats. In addition, a USFS scientist conducted research that was 
critical to the updated decontamination protocol that FWS issued. 
Drawing on USFS's successful treatment in fiscal year 2015 of WNS-
afflicted bats with airborne volatile organic compounds released by the 
native soil bacterium Rhodococus rhodochrous, and subsequent release of 
those bats to the wild, future USFS research could focus on similar 
treatment agents that can be deployed without physically handling the 
bats. From a lands-management perspective, USFS is purchasing bat 
acoustic monitoring equipment to implement NABat in multiple National 
Forests; staff from the National Forest System and Research and 
Development branches are collaborating on implementation details for 
specific locations. It is clear that the Forest Service has made and 
continues to make major contributions to our understanding, detection, 
and treatment of Pd and WNS, but it has been doing so at the expense of 
other programs. We believe that the redirection of surplus funds from 
other accounts (such Forest Inventory and Analysis), as well as new 
funds, are more than justified.

    [This statement was submitted by Nancy Blaney, Director, Government 
Affairs.]
                                 ______
                                 
       Prepared Statement of the Arctic Slope Native Association
    The Arctic Slope Native Association (ASNA) appreciates the 
opportunity to submit written testimony regarding the fiscal year 2018 
budget for the Indian Health Service. We are an inter-Tribal health 
organization based in Barrow, Alaska. We operate under the resolutions 
of six federally recognized Tribes situated across Alaska's North Slope 
and serve the communities of Barrow, Anaktuvuk Pass, Atqasuk, Kaktovik, 
Nuiqsut, Point Hope, Point Lay and Wainwright. Our mission is to 
provide culturally sensitive quality healthcare for all the communities 
we serve.
    Our Samuel Simmonds Memorial Hospital in Barrow is the core of our 
program. This facility was rebuilt in 2013 with IHS funds and our 
state-of-the-art hospital means we can provide more services close to 
home instead of sending our ailing community members far away from 
their support networks. To give you an idea of our location, the 
closest hospital to the east is in Whitehorse, Canada; the closest 
hospital to the west is in Kotzebue, 220 air miles away; and the 
closest hospital to the south is in Fairbanks, 400 air miles away. 
Thank you so much for your support over the years in funding the 
construction of our hospital. It has made an enormous difference in the 
quality of healthcare our people are receiving.
           proposed changes to medicare and medicaid funding
    Many health reform proposals being considered in Congress would 
transform the Medicare and Medicaid programs, either through converting 
them into block grants provided to individual States, drastically 
changing payment policies, imposing payment limits and/or higher co-
pays for individual beneficiaries, or some combination of all these 
measures.
    We have serious concerns about any legislation that reduces or 
changes the way in which payments are made to Tribal programs under 
Medicare and Medicaid. Our healthcare programs are unique--both in 
their very nature and because of the severe health needs of the 
population we serve--and they are severely underfunded. These funding 
deficiencies will only be exacerbated further if these payments are 
reduced. Any of these legislative proposals would likely lead to 
drastic reductions in our ability to recover third-party revenues, 
without which we would be unable to operate, at least not at anywhere 
near current levels. To ensure the Federal government meets its special 
trust responsibility, IHS budget appropriations would have to double or 
triple to absorb the impact.
 the ahca and its detrimental impact on the alaska native and american 
                           indian population
    Medicaid expansion has been a tremendous advantage for the Alaska 
Native and American Indian community, extending insurance coverage to 
previously uninsured individuals, especially here in Alaska. The AHCA 
would not only undo those gains, but would be disastrous even for those 
patients with private insurance. The repeal of essential health benefit 
requirements for benchmark plans would mean that even those with 
private insurance may no longer be covered for necessary life-saving 
care. The costs of providing treatment--especially to those in remote 
communities--will skyrocket. The AHCA also proposes to eliminate the 
three-month retroactive payment option, a necessary component for us to 
receive reimbursement for care to many of our patients who reside in 
remote communities and who may not register for Medicare or Medicaid 
until they literally show up at our facilities. The bill also proposes 
to reduce State Medicaid reimbursements, which as noted above, would be 
disastrous for our program. We cannot emphasize enough how disastrous 
this bill as currently written would be for our programs.
                   increasing the ihs service budget
    ASNA is grateful for the large increases Congress provided for IHS 
overall in the fiscal year 2017 budget, especially the $78 million for 
Hospitals and Clinics programs, $14 million for Purchased/Referred 
Care, $13 million for Alcohol and Substance Abuse, $12 million for 
Mental Health, and the full reimbursement of Contract Support Costs. 
That said, many of the other budget increases are targeted for new 
facility staffing and targeted grants or pilot projects--programs all 
with worthy goals but that take away from overall increases that affect 
all Tribal programs, such as the need to keep pace with inflation and 
population growth. We request the Committee continue to prioritize 
increases to the general services budget--funds that will trickle down 
through our Compacts to all Tribal programs.
    We ask this Committee to reiterate its instruction to IHS that the 
agency must streamline and simplify its CSC calculations. IHS's new 
policy is still quite complicated and its inability to implement simple 
solutions has had adverse consequences for Tribal programs--such as the 
inaccurate estimates for 2016 and 2017 contract support cost 
requirements that decreased the other funds available that could have 
been provided for the delivery of healthcare services. We believe IHS 
needs to explore other options to simplify the CSC payment process.
    For the above-noted reasons, we are baffled by the Administration's 
fiscal year 2018 budget proposal to reduce IHS funding by $107 million 
below the fiscal year 2017 enacted level. Congress must reject the 
Administration's ill-conceived proposal that would exacerbate health 
disparities experienced by Alaska Natives and American Indians which 
shortens their lives and undermines community stability and family 
cohesion. Continue your good work to increase funding for Tribal health 
programs which will permit the health status of Alaska Natives and 
American Indians to be ``raised to the highest possible level,'' and 
permit ASNA and other Tribal healthcare providers to reduce the 
``prevalence and incidence of preventable illnesses among, and 
unnecessary and premature deaths of, Indians,'' as your colleagues in 
prior years sought to achieve with passage of the Indian Health Care 
Improvement Act.
    Thank you again for the opportunity to present testimony on these 
important issues.
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                              Reservation
    The Assiniboine and Sioux Tribes of the Fort Peck Reservation 
thanks the Senate Appropriations Subcommittee for the opportunity to 
submit written testimony concerning fiscal year 2018 appropriations for 
the Bureau of Indian Affairs (BIA) and Indian Health Service (IHS).
    The Fort Peck Reservation is in northeast Montana, forty miles west 
of the North Dakota border, and 50 miles south of the Canadian border, 
with the Missouri River defining its southern border. The Reservation 
encompasses over two million acres of land. We have approximately 
12,000 enrolled Tribal members, with approximately 7,000 Tribal members 
living on the Reservation. We have a total Reservation population of 
approximately 11,000 people.
    Congress has long recognized that the foundation for economic 
development and prosperity in Indian Country lay in community 
stability, which begins with infrastructure such as safe drinking 
water, roads, public safety, and healthcare. We ask the subcommittee to 
reject the Administration's proposal for fiscal year 2018 to reduce 
appropriations for the Bureau of Indian Affairs, Bureau of Indian 
Education and Indian Health Service which are core Federal programs 
serving the Fort Peck Reservation and our members. Reducing funding for 
Federal programs by some $400 million, that at current appropriation 
levels do not address the full measure of well documented Tribal needs, 
makes little sense.
                fort peck reservation rural water system
    We ask the subcommittee to continue to fund the required $2.4 
million for the Operation and Maintenance (OM&R) funding for the Fort 
Peck Reservation Rural Water System for fiscal year 2018, within 
appropriations to the Bureau of Indian Affairs (BIA) Construction 
account. This funding increase, of $138,000, is necessary for this 
System to safely operate with the correct level of staff and operating 
supplies, including chemicals. The System provides drinking water to 
more than 18,000 residents in Northeast Montana and several social and 
governmental agencies, including the BIA Agency Office, Poplar Schools, 
and Poplar hospital, Medicine Lake National Wildlife Refuge, as well as 
several towns including Wolf Point, Frazier, Culbertson, and Medicine 
Lake.
    Federal legislation authorizing the Fort Peck Reservation Rural 
Water System requires that the OM&R of the Assiniboine and Sioux Rural 
Water System--the portion on the Reservation that is held in trust by 
the Federal government--be paid in full by the BIA as a Federal 
obligation. This is consistent with the Federal trust responsibility to 
the Tribes who were promised a permanent home when we agreed to move to 
the Reservation. A permanent home requires safe drinking water. If this 
funding is not made available to the Tribes, this system will have to 
shut down and all of the people, towns, and Federal, Tribal, State, 
public and private agencies, and businesses will have no source of 
drinking water. Interruption
    Thus, the $2.4 million requested in fiscal year 2018 for the OM&R 
of this vital infrastructure project is critical. If Congress does not 
appropriate the required funds for OM&R, then this System will not 
operate and the people of Northeast Montana will have no drinking 
water.
                   public safety and drug trafficking
    Six years ago, through effective policing techniques, our Chief of 
Police was seeing a reduction in methamphetamine use on our 
Reservation, but over the last few years it has returned with a 
vengeance and now we battling opioid abuse and addiction. This problem 
must be attacked on all fronts: law enforcement; treatment; and 
improved social services. The administration's proposal to cut BIA 
Public Safety funding is unwise.

A. Law Enforcement

    There is no greater need in Indian county than public safety and 
justice and these programs cannot be sacrificed for any purpose. Our 
Police Chief estimates that 70%-80 percent of criminal conduct has a 
drug component to it, with assaults and burglaries arising out of drug 
use and addiction. The BIA's own statistics are alarming; over a 5-year 
period, drug related arrests in Indian Country increased nearly ten-
fold from 443 arrests in fiscal year 2008 to 4,289 arrests in fiscal 
year 2013. Our Tribal police department has 18 police officers, two 
dedicated to drug enforcement, three criminal investigators, and we 
share dispatchers with Roosevelt County. Our Police Chief said he could 
use six drug enforcement agents to help with the rising workload. The 
needs of our community and those throughout Indian Country cry out for 
increase law enforcement and justice funding.
    The crime in our community is impacting the most vulnerable in our 
community the most. In 2015, our Tribal court had 329 criminal cases 
involving crimes against children. These cases included aggravated 
sexual assault of a child, felony abuse of a child and endangering the 
welfare of child. These cases only reflect the cases where we had the 
jurisdiction to prosecute.

B. Detention Services

    The Fort Peck Tribes completed construction of a modern detention 
facility to serve the Reservation and other Tribes. This allows for 
inmates to be close to their homes and families which will be a benefit 
to the families as well as those serving a period of incarceration. It 
will do a great deal to ensure continuity in our families. We are 
concerned that the President's fiscal year 2018 Budget will further 
jeopardize the operation of BIA- or tribally-operated detention 
facilities like Fort Peck. Perhaps the greatest omission by BIA is its 
chronic failure to request sufficient operation and maintenance funds 
to fully staff, operate and maintain BIA-owned and Tribally-owned 
facilities and systems. Undermining the useful life of facilities and 
systems in Indian Country, which are all too scarce, perpetuates 
staffing and operational shortages which undermine our mission to 
improve living conditions on our Reservation.
    The Tribes worked with the BIA Office of Justice Services when we 
were building this new detention facility, including on the staffing 
and operations costs. The Tribes entered into a contract with the BIA 
for the operation of this facility. And while we received some funding 
associated with this contract, it is approximately 30 percent of what 
we negotiated with the BIA to have a fully functional detention center. 
Reductions in fiscal year 2018 appropriations for BIA Public Safety 
needs would simply set us further back and jeopardize a modern 
detention facility.
                            road maintenance
    The current level of road maintenance funding will permit Tribes to 
maintain approximately 16 percent of BIA-owned roads and 68 percent of 
BIA-owned bridges in ``acceptable'' condition. This leaves nearly 8 out 
of 10 BIA-owned roads and more than 3 out of 10 BIA-owned bridges with 
funds sufficient to maintain them in their current poor or failing 
condition. This is a public safety issue which contributes to delayed 
response times for Emergency Medical Services (EMS), police officers, 
and other first responders, missed medical appointments, school and 
work days and higher maintenance costs on Tribally- and privately-owned 
motor vehicles.
    Most BIA System routes are gravel and earthen school bus routes 
that require more frequent maintenance than paved roads. We are 
appreciative of the action taken by the Subcommittee for fiscal year 
2017, which added $3.6 million to the BIA Road Maintenance Program. We 
urge the Subcommittee to increase funding for the Road Maintenance 
Program for fiscal year 2018 by $10 million so that the percentage of 
public BIA System roads and bridges in ``acceptable'' condition may 
continue to rise in future years. This will promote public safety on 
BIA System routes and provide jobs to Tribal members who serve the 
Reservation community. As noted above, shortfalls in maintenance funds 
undermines our mission.
                         indian health service
    We continue to build government services and programs on the 
Reservation and attract businesses to improve the quality of life for 
our members. The IHS operates two clinics on the Reservation; the Verne 
E. Gibbs IHS Health Center in Poplar, and the Chief Redstone IHS Health 
Center in Wolf Point. In-patient services are available at the non-IHS 
Poplar Community Hospital and Trinity Hospital in Wolf Point. To combat 
the high incidence of heart disease, cancer and diabetes, the Tribes 
supplement health services on the Reservation through our Health 
Promotion and Disease Prevention (HPDP) Wellness Program and the 
Spotted Bull Resource and Recovery Center, which we operate pursuant to 
an ISDA contract with the IHS.
    We greatly appreciate the work of this Subcommittee to maintain the 
level of funding for the Indian Health Service. The healthcare provided 
through these dollars, whether it be direct medical care, dental care, 
substance abuse treatment or purchased/referred care, is saving lives 
and is making a difference on our Reservation. Our members know well 
what it means to have access to care, so the Tribes can only ask that 
you continue to fund these critical program and reject the 
administration's proposal to reduce IHS funding by $107 million below 
the fiscal year 2017 enacted level.
                               conclusion
    We thank the subcommittee for the opportunity to present testimony 
concerning the Bureau of Indian Affairs and Indian Health Service 
fiscal year 2018 budget.
                                 ______
                                 
     Prepared Statement of the Association of Art Museum Directors
    The Association of Art Museum Directors (AAMD) requests funding of 
$155 million each for the National Endowment for the Arts (NEA) and the 
National Endowment for the Humanities (NEH) for fiscal year 2018. We 
also ask that the subcommittee provide the U.S. Fish and Wildlife 
Service (FWS) with the funding necessary to staff and train personnel 
in order to avoid placing any additional impediments on American art 
museums that are importing works of art containing ivory for the 
purposes of temporary public exhibition.
                  arts and artifacts indemnity program
    AAMD again thanks the subcommittee for revising the statutory caps 
for exhibition indemnity agreements under the Arts and Artifacts 
Indemnity Act, which is administered by the NEA on behalf of the 
Federal Council on the Arts and the Humanities, of which both NEA and 
NEH are members. Participating AAMD members reported saving an average 
of more than $650,000 in insurance fees in 2015. A few examples of 
recent, current or upcoming indemnified exhibitions that may be of 
particular interest to members of the Subcommittee include:
  --Fine Arts Museums of San Francisco--Monet: The Early Years
  --Shelburne Museum, Shelburne, Vermont--Hunting and Fishing in 
        American Art
  --Albuquerque Museum of Art and History and Portland (Oregon) Art 
        Museum--Masterpieces from Ecole des Beaux Arts
  --Baltimore Museum of Art--Matisse/Diebenkorn
  --Dixon Gallery and Gardens, Memphis, Tennessee--Thomas Cole's The 
        Voyage of Life
  --Frist Center for the Visual Arts, Nashville, Tennessee--WWI and 
        American Art
  --Mississippi Museum of Art, Jackson, Mississippi--When Modern was 
        Contemporary: Selections from the Neuberger Collection
  --Rhode Island School of Design, Providence, Rhode Island--Lines of 
        Thought: Drawing from Michelangelo to Now from the British 
        Museum
                    national endowment for the arts
    As stated above, AAMD requests that Congress appropriate $155 
million for the NEA. The agency continues to make modest but important 
grants that leverage significant private support, disseminate best 
practices, and foster innovation. A few examples of recent grants 
listed on the NEA's website include:
  --Anchorage Museum, Anchorage Alaska: To support a series of programs 
        exploring the ecology of the Arctic in partnership with the 
        University of Alaska Anchorage's Alaska Center for Conservation 
        Science. Through augmented reality and other experimental 
        technologies, the organizations will work with artists and 
        scientists on a series of projects including exhibitions, 
        events, and online presentations that will engage the public in 
        immersive virtual environments as a way to convey the 
        complexity of the Northern landscape through curated 
        experiences.
  --St. Louis Art Museum, St. Louis, Missouri: To support the 
        exhibition, ``Degas, Impressionism, and the Paris Millinery 
        Trade.'' More than 100 artworks were showcased, including 
        paintings and works on paper by Degas. The exhibition explored 
        the millinery industry of the period, the international trade 
        in exotic feathers and floral decorations, the importance of 
        men's hats as a counterpart to what has traditionally been 
        considered a feminine fashion, and the connections to France's 
        colonial history. Free public programs and a symposium 
        accompanied the exhibition.
  --Walters Art Museum, Baltimore, Maryland: To support promotion and 
        installation costs for the exhibition ``A Feast for Senses: Art 
        and Experience in Medieval Europe.'' In medieval Europe, the 
        walled garden with fragrant flowers, herbs, sweet breezes, bird 
        songs, and a gurgling fountain was idealized as a place of 
        delight for the senses and escape from the tumult of everyday 
        cares. Such aspects of life inspired works of art that were the 
        focus of this international loan exhibition. Lectures, 
        workshops, and performances for adults, drop-in activities and 
        hands-on learning for families, and outreach, tours, and 
        workshops for students and teachers complemented the visitor 
        experience.
  --RISD Museum, Providence, Rhode Island: To support professional 
        development programs for artists at the RISD Museum. The 
        program includes a fellowship, professional development 
        activities, and special museum membership for artists. Run by 
        the museum at the Rhode Island School of Design, the program 
        engages emerging and mid-career artists to develop their 
        creative practice, increase their visibility among new 
        audiences, connect creative sectors, and support the generation 
        of new work. The program includes workshops and training on 
        professional practice, access to curators and globally 
        recognized artists, participation in programs for creative 
        professionals, and research opportunities that support the 
        creation of new work inspired by the collections.

    AAMD commends NEA for its commitment to the Blue Star Museums 
initiative, now in its eighth year. AAMD members have responded with 
overwhelming enthusiasm to Chairman Chu's invitation to offer free 
admission to active duty military and their families at least from 
Memorial Day through Labor Day. In 2016, approximately 90 percent of 
AAMD members in the United States either formally joined the program or 
already offered free admission to all. According to a survey conducted 
by Blue Star Families, 900,000 people took advantage of the program, 
and fifteen percent of participants reported that it was the first time 
they had visited a museum. AAMD is grateful to Blue Star Families and 
the NEA for the opportunity to serve this new audience.

    Comments to Blue Star Families from museums included:

        ``Blue Star allowed us the extra opportunity to reach out to 
        our local marine corps logistics base and other service members 
        as a way to thank them for their role in our Nation and 
        community.''

        ``Offering free admission and other programs to vets and blue 
        star families is the least we can do to thank these brave men 
        and women and their families who sacrifice so much. It is our 
        honor to do this small thing.''

        ``Loved seeing families come and being able to offer them free 
        admission as a thank you for all they've done for the 
        country.''
                 national endowment for the humanities
    This important agency assists art museums in presenting humanities 
scholarship to the general public and in strengthening the teaching of 
humanities in our Nation's schools. For example, the NEH awarded the 
Walters Art Museum a planning grant to explore collaborative approaches 
with cultural, educational, and philanthropic stakeholders to more 
deeply engage Baltimore City schools with the humanities. With funding 
from the NEH, the Walters is creating an intentional, strategic, and 
holistic plan that will ``launch new forms of collaboration towards the 
goal of restoring and enhancing meaningful student exposure to 
humanities instruction.'' This dialogue and process is timely as 
Baltimore City welcomes a new superintendent of schools. Similarly, the 
St. Louis Art Museum received a grant to establish the St. Louis 
Humanities Education Collaborative, a new Museum-led project that will 
co-create approaches to advancing the humanities and connecting schools 
to innovative curriculum.
    NEH also plays an invaluable role in assisting with the 
preservation and conservation of important collections. This is exactly 
the type of unglamorous work for which it is chronically difficult to 
raise private funding, making Federal support all the more valuable. 
For example, a major grant is helping to stabilize and protect the 
Shelburne Museum's wildfowl decoy collection, which numbers nearly 
1,400 objects and spans more than 150 years of decoy making. To protect 
the collections, the museum improved environmental conditions, 
security, and fire protection in the 1832 Dorset House, where the decoy 
collection and related art and artifacts are exhibited and stored. 
Additionally, it improved exhibition and ``open storage'' conditions to 
allow better physical and intellectual access for the collection.
    AAMD commends the NEH for two initiatives in particular. The Common 
Good is designed to demonstrate the critical role that humanities 
scholarship can play in public life. This is especially suitable for 
museums, which have developed expertise in presenting complex ideas to 
non-specialists. Standing Together, the Humanities and the Experience 
of War, supports programs that explore war and its aftermath, promote 
discussion of the experience of military service, and support returning 
veterans and their families.
                     u.s. fish and wildlife service
    The AAMD has had extensive conversations with the Fish and Wildlife 
Service (FWS) about the importance of presenting works of many cultures 
to the American public, works that without temporary exhibitions, 
Americans would never see. These works, entrusted to our museums from 
both foreign museums and foreign private collectors, are fragile, 
invaluable and represent the highest professional quality. American 
museums borrowing these works must be assured that the works can move 
quickly, safely and be fully protected.
    This is especially true when moving works of art, made in whole or 
in part of ivory, through designated ports as called for in the 
Director's Order 210 issued February 25, 2014. The Director's Order 210 
imposed strict requirements on importing works of ivory from abroad, 
with which museums are struggling to comply.
    Unfortunately, the FWS has limited capacity to staff and train 
personnel at the designated ports to process works of ivory for special 
exhibitions. There must be sufficient staff to ensure that the works 
move in accordance with professionally accepted procedures and the new 
requirements at the speed that a temporary exhibition requires. The 
AAMD urges the committee to provide FWS with the funding necessary to 
staff and train personnel in order to avoid placing any additional 
impediments on American art museums.
                               about aamd
    The purpose of the Association of Art Museum Directors is to 
support its members in increasing the contribution of art museums to 
society. The AAMD accomplishes this mission by establishing and 
maintaining the highest standards of professional practice, serving as 
forum for the exchange of information and ideas, acting as an advocate 
for its member art museums, and being a leader in shaping public 
discourse about the arts community and the role of art in society.

    [This statement was submitted by Christine Anagnos, Executive 
Director.]
                                 ______
                                 
  Prepared Statement of the Association of Clean Water Administrators
    The Association of Clean Water Administrators (ACWA) appreciates 
the opportunity to submit written testimony to the U.S. Senate 
Committee on Appropriations, Subcommittee on Interior, Environment, and 
Related Agencies. As the national voice of State, interstate, and 
territorial officials responsible for implementation of programs that 
protect surface waters across the Nation, ACWA opposes the fiscal year 
2018 Budget Proposal's suggested drastic cuts of 30 percent.
    Specifically, the budget cuts affecting the State and Tribal 
Assistance Grants (STAG grants) will severely limit States' ability to 
implement core water protection programs as required by the Clean Water 
Act (the Act). Most notably, the budget proposal reduces or eliminates 
Sec. 106 and Sec. 319 funds, both of which are critical funding sources 
for water protection efforts. The proposed reduction in fiscal year 
2018 Federal funding to States will leave States with fewer resources, 
while their obligations under environmental statutes remain.
    The Act relies on State governments for implementation, more so 
than other environmental statutes. In turn, Federal partners have 
recognized the importance of cooperative Federalism, and strong 
relationships with States by providing sorely needed funding through 
the aforementioned grants. For the principles of cooperative Federalism 
to work, and for our waters to be adequately protected, there must be a 
strong and stable State partner. Therefore, we request that the 
Sec. 106 and Sec. 319 fiscal year 2018 funding at least be consistent 
with the enacted fiscal year 2017 amounts of approximately $230.8 and 
$164.9 million respectively--recognizing this is still far below what 
is actually needed to effectively protect the Nation's waters.
    Section 106 of the Act is the main authorized funding source 
provided to the States and interstates to directly assist with 
preventing, reducing, and eliminating pollution to the Nation's waters. 
States use these funds to help develop standards, set pollution 
reduction loads, issue permits, confirm compliance, monitor results, 
and report on successes. Without these funds, States will lose many 
full-time employees that perform these duties, which would negatively 
affect local economic development. Without necessary permits industries 
will not expand or open new facilities.
    Section 319 funds are used for restoration efforts for waterbodies 
impaired by nonpoint source pollution. Currently, the majority of the 
waterbodies listed as not meeting their designated uses are impaired by 
nonpoint source pollution. While further collaboration with USDA is 
important for addressing agriculture based pollution, there is no other 
Federal funding source available to support States efforts to address 
nonpoint source water pollution from non-agriculture sources such as 
mining, urban development, failing septic systems, and other 
hydrological modifications. Eliminating Federal Sec. 319 funding will 
handicap States' ability to address nonpoint source pollution, which is 
already a difficult, cost-intensive problem.
    ACWA supports the focus on water infrastructure funding through the 
State Revolving Fund (SRF) programs. However, infrastructure funding 
will require State resources, including staff, to ensure these funds 
are awarded and disbursed effectively and efficiently. Applying for and 
administering SRF funds will take longer with State resources stretched 
thinner considering the 30 percent reduction to STAG grants. State 
agency operations, which ensure that SRF projects can proceed 
unencumbered, will be affected, and implementation of desperately 
needed infrastructure investments will be slower and less effective.
    The proposed elimination of the Great Lakes, Chesapeake Bay, Puget 
Sound, Long Island Sound, Gulf of Mexico, Lake Champlain regional 
programs, as well as the National Estuary Program is ill-advised. These 
programs protect some of the Nation's most important water resources 
and places from degradation, invasive species, and algal blooms. These 
bodies of water and estuaries have made great progress towards reaching 
their long term goals, and risk backsliding into worse conditions 
without the staff and resources needed to maintain recent progress. 
Therefore, we request that the funding for the regional programs, 
remain at the fiscal year 2017 level.
    In conclusion, ACWA asks that the subcommittee considers these 
funding requests. The proposed fiscal year 2018 EPA budget provides 
insufficient funding, especially now when States are under extreme 
pressure due to increased Federal requirements. Funding must be at 
least consistent with last year's budget to allow States to carry out 
their duties under the Act and increased if the States are to make 
strides in reaching the Nation's water quality goals which benefit all 
Americans. States cannot do it alone. The Act is built on a Federal-
State partnership. The States' and interstates' contributions to the 
Nation's water goals are vital to the Act's success, which is 
critically important to stimulate economic growth by expanding American 
manufacturing and American jobs while at the same time increasing 
tourism, water-based recreation, and a clean water supply for America's 
water infrastructure.

    [This statement was submitted by Peter LaFlamme, Director, Vermont 
Department of Environmental Conservation, ACWA President.]
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
          Universities (APLU) Board on Natural Resources (BNR)
    On behalf of the APLU Board on Natural Resources (BNR), we thank 
you for your support of science and research programs in fiscal year 
2017 of the United States Geological Survey (USGS) and the 
Environmental Protection Agency. We appreciate the opportunity to 
provide the following recommendations: $9 million for the USGS Water 
Resources Research Institutes and $20 million for the USGS Cooperative 
Fish and Wildlife Research Units, and $754 million for EPA's Science 
and Technology.
    APLU BNR requests $9 million for the Water Resources Research 
Institutes (WRRI). The APLU BNR request is based on the following: 
$7,500,000 in base grants for the WRRI as authorized by Section 104(b) 
of the Water Resources Research Act, including State-based competitive 
grants; $1,500,000 to support activities authorized by section 104(g) 
of the Act. Federal funding for the WRRI program is the catalyst that 
moves States and cities to invest in university-based research to 
address their own water management issues. State WRRIs take the 
relatively modest amount of Federal funding appropriated, match it 2:1 
with State, local and other funds and use it to put university 
scientists to work finding solutions to the most pressing local and 
State water problems that are of national importance. The Institutes 
have raised more than $16 in other funds for every dollar funded 
through this program. The added benefit is that often research to 
address State and local problems helps solve problems that are of 
regional and national importance. Many of the projects funded through 
this program provide the knowledge for State or local managers to 
implement new Federal laws and regulations. Perhaps most important, the 
Federal funding provides the driving force of collaboration in water 
research and education among local, State, Federal and university water 
professionals. This program is essential to solving State, regional and 
inter-jurisdictional water resources problems. As USGS itself has 
stated: ``The Water Institutes have developed a constituency and a 
program that far exceeds that supported by their direct Federal 
appropriations.''
    The Institutes also train the next generation of water resource 
managers and scientists. Last year, these institutes provided research 
support for more than 1,400 undergraduate and graduate students at more 
than 150 universities studying water-related issues in the fields of 
agriculture, biology, chemistry, earth sciences, engineering and public 
policy. Institute-sponsored students receive training in both the 
classroom and the field, often working shoulder-to-shoulder with the 
top research scientists in their field on vanguard projects of 
significant regional importance.
    In addition to training students directly, Water Resources Research 
Institutes work with local residents to overcome water-related issues. 
For example, the California Institute for Water Resources, like most of 
its peers, holds field days, demonstrations, workshops, classes, 
webinars, and offers other means of education in an effort to transfer 
their research findings to as many users as possible. Outreach that 
succeeds in changing a farmer's approach to nitrogen application or 
reducing a homeowner's misuse of lawn treatments can reduce the need 
for restrictive regulation.

    Below are some examples of work being done in various States:

  --In 2015, Alaska's Sagavanirktok (Sag) River flooded the Dalton 
        Highway, cutting off the only overland passage to the Prudhoe 
        Bay Oilfields for a period of approximately 3 weeks. Following 
        that event, the University of Alaska Fairbanks Water and 
        Environmental Research Center has been continuously working 
        with the Department of Transportation and Alyeska Pipeline 
        Services Company to understand Sag River flood dynamics and 
        reduce the risk of highway and/or pipeline damage from future 
        flooding events.
  --Researchers with the New Mexico Water Resources Research Institute 
        developed an innovative desalination technology to remove 
        organic substances and salts from water produced from oil and 
        gas exploration. Water in this system can be potentially 
        recycled in the industrial process making it more cost-
        effective. The technology also uses bacteria to convert 
        biodegradable pollutants into electricity, which offsets 
        operation energy use or supplies additional energy for other 
        systems for operators.
  --In California, the Institute for Water Resources is working with 
        communities in southern California, like the city of Glendora, 
        to help city officials better predict and respond to debris 
        flow from the San Gabriel Mountains. Communities like Glendora 
        are experiencing costly and damaging flows after high intensity 
        rainfalls and these flows often affect water quality 
        downstream. By partnering with local governments and other 
        stakeholders, the Institute is working to help these 
        communities with debris basin management.
  --The Arizona Water Resources Center has initiated nine programs to 
        promote and educate the public about water conservation and 
        management. The Arizona Water Education program has reached 
        over 32,400 students and 500 K-12 teachers with a projected 
        water savings over 3.7 million gallons per year from student-
        installed devices. Other programs address desert water 
        harvesting, water for drylands systems, and water quality 
        research.
  --Researchers with the Mississippi Water Resources Research Institute 
        have collaborated with the Grenada Chamber of Commerce to 
        develop a preliminary master plan with economic and marketing 
        feasibility studies to promote the economic development of 
        Grenada Lake. The 90,000-acre multi-use project is managed 
        through the U.S. Army Corps of Engineers Vicksburg District for 
        flood control, public recreation, conservation of fish and 
        wildlife, and public forests.
  --Researchers with the Idaho Water Resources Research Institute have 
        collaborated with community stakeholders to develop satellite 
        based remote-sensing technology for assessing crop-water usage 
        and aquifer depletion modeling, to investigate and help resolve 
        water rights conflicts, and for stream flow management. This 
        technology is also being adopted by ten western States and in 
        parts of Africa, Europe, and Australia.

    APLU BNR requests $22.5 million for the Cooperative Fish and 
Wildlife Research Units (CRU). The CRU program embeds Federal 
scientists in public universities to: 1) train the next generation of 
fisheries and wildlife managers; 2) conduct research on our Nation's 
fish and wildlife populations and habitats; and 3) provide technical 
assistance to State, Federal and other natural resource managers. 
Originally established in the 1930s to provide training for students in 
fisheries and wildlife biology, the units were formally recognized by 
the Cooperative Units Act of 1960 (PL 86-686). The CRUs provide 
experience and training for approximately 600 graduate students per 
year, a critical need as State and Federal workforces face 
unprecedented retirements over the next 5 to 10 years. There are 
currently 25 vacant CRU scientist positions spread over 21 States. This 
request is a $4 million increase that would enable the CRU program to 
become fully staffed. The CRUs provide valuable mission-oriented 
research for the U.S. Fish and Wildlife Service and cooperating State 
agencies. Today, there are 40 Cooperative Research Units in 38 States 
but there are many vacancies.
    Each unit is a true Federal-State-university-private sector 
collaboration as a partnership between the U. S. Geological Survey, a 
State natural resources management agency, a host university, and the 
Wildlife Management Institute. For every $1 the Federal Government puts 
into the program, $3 more are leveraged through the other partners. The 
U.S. economy has long relied on the bountiful natural resources 
bestowed upon this land. Federal investment in the CRUs will be 
returned many times over though the training of future natural resource 
managers who will guide the Nation in sustainable use of our natural 
resources. The research conducted by CRU scientists directly supports 
the difficult management challenges faced by natural resources 
managers. The examples below demonstrate the value of the CRUs to 
wildlife issues with local and national importance.

  --Minnesota: The Minnesota CRU is currently researching the olfactory 
        sensitivity of Asian carps to putative sex pheromones. This 
        work has recently received national attention, because Asian 
        carps are an invasive species that threatens many of the 
        Nation's freshwater native fishes through competition for food. 
        The Minnesota CRU hopes to use the sex pheromones to attract 
        and trap Asian carp, removing them permanently from the 
        Nation's freshwater lakes and rivers. Minnesota CRU researchers 
        are also studying human behavior, working to understand the 
        motivations of agricultural producers enrolling in USDA water 
        quality and wildlife habitat programs. They hope to gain 
        insight into designing and developing programs, practices and 
        messages that encourage broader participation in those 
        programs.
  --Tennessee: In 2011, an estimated 826,293 anglers fished in 
        Tennessee, creating an economic impact of nearly $1.3 billion 
        for the State. The Tennessee CRU supports this economic driver 
        by assessing fish stocks, working on recovery efforts for 
        threatened and endangered species, providing research and 
        technical assistance to support State decisions related to 
        fishing. For example, research on sauger in the Tennessee River 
        showed that minimum size requirements by the State were not 
        leading to increased mortality of released fish below the 
        minimum size. Their research also kept ``stinger'' hooks 
        available for fishermen by showing they also did not contribute 
        to increased mortality.
  --Oklahoma: The Oklahoma CRU in collaboration with Oklahoma State 
        University and the Oklahoma Department of Wildlife Conservation 
        conducted an economic analysis on the impact of protecting the 
        lesser prairie chicken (LPC). The political and legal 
        controversy surrounding the use of the Endangered Species Act 
        (ESA) to protect imperiled species raises questions about the 
        development restrictions and opportunity costs the ESA imposes 
        on private landowners and industry. The economic effects of 
        protecting the LPC have been small and there is no strong 
        evidence that regulations affected land values. However, after 
        looking for macro-level effects in employment data, regulations 
        did modestly reduce the number of jobs, although primarily in 
        priority habitat areas.

    Finally, APLU BNR requests $754 million for EPA's Science and 
Technology portfolio. While the S&T portfolio covers a wide range of 
topics, we will cite one historical, but still vitally important 
component of EPA Science. The work done to support pesticide 
regulations, including developing the suitable analytics for measuring 
pesticides in food and feed residue and enforcing tolerances, remains 
absolutely necessary so long as farmers need to control pests, local 
governments need to control mosquitos, or schools, hospitals, 
restaurants, and other venues need to be kept free of rats, 
cockroaches, and other pests. It currently costs life science 
companies, such as Dow AgroSciences, $250,000,000 to develop a new 
molecule for the market. Some of the cost can be attributed to 
complying with EPA regulations on pesticides. It would be highly 
deleterious to such companies and the consumers of their products if 
new chemicals could not be brought to market because the regulatory 
agency was unable to develop suitable analytics for a new product on 
time.
    BNR thanks you for the opportunity to provide our views to the 
subcommittee. We look forward to working with you through the fiscal 
year 2018 appropriations process.
About APLU and the Board on Natural Resources
    APLU's membership consists of 236 State universities, land-grant 
universities, State-university systems and related organizations. APLU 
institutions enroll more than 4.8 million undergraduate students and 
1.3 million graduate students, and conduct $43.2 billion annually in 
university-based research annually. The Board's mission is to promote 
university-based programs dealing with natural resources, fisheries, 
wildlife, ecology, energy, and the environment. BNR representatives are 
chosen by their president's office to serve and currently number over 
500 scientists and educators, who are some of the Nation's leading 
research and educational expertise in environmental and natural-
resource disciplines.

    [This statement was submitted by Keith Owens, Chair of the Board on 
Natural Resources; and Associate Vice President, Oklahoma Agriculture 
Experiment Station, Oklahoma State University, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c676965786422637b69627f4c63677f786d78692269687922">[email&#160;protected]</a>]
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators
    The Association of State Drinking Water Administrators (ASDWA) 
respectfully submits the following recommendations for fiscal year 2018 
appropriations on behalf of the drinking water programs in the fifty 
States, five territories, District of Columbia, and Navajo Nation.
                           summary of request
    ASDWA respectfully requests that, for fiscal year 2018, the 
Subcommittee appropriate funding for three programs at levels 
commensurate with Federal expectations for performance; that ensure 
appropriate public health protection; and that will result in enhancing 
economic stability and prosperity in American cities and towns. ASDWA 
requests $200 million for the Public Water System Supervision (PWSS) 
program and $1 billion for the Drinking Water State Revolving Loan Fund 
(DWSRF) program. These requests are based on demonstrated need and the 
reality of the job that State drinking water programs are expected to 
do. A more complete explanation of the needs represented by these 
requested amounts and their justification follows.
overview: the importance of safe drinking water for our communities and 
        the economy & the role of state drinking water programs
    States need sustained Federal support to maintain public health 
protection and to support the needs of the water systems they oversee. 
State drinking water programs strive to meet the Nation's public health 
protection goals through two principal funding programs: the Public 
Water System Supervision Program (PWSS) and the Drinking Water State 
Revolving Loan Fund (DWSRF) Program. These two programs, with their 
attendant State match requirements, provide the means for States to 
work with drinking water utilities to ensure that American citizens can 
turn on their taps with confidence that the water is both safe to drink 
and the supply is adequate. In recent years, State drinking water 
programs have accepted additional responsibilities in water system 
security and resiliency that include working with all public water 
systems to ensure that critical drinking water infrastructure is 
protected, including cyber security; that plans are in place to respond 
to both natural and manmade disasters; and that communities are better 
positioned to support both physical and economic resilience in times of 
crisis.
    Vibrant and sustainable communities, their citizens, workforce, and 
businesses all depend on a safe, reliable, and adequate supply of 
drinking water. Economies only grow and sustain themselves when they 
have safe and reliable water supplies. Over 90 percent of the 
population receives water used for bathing, cooking, and drinking from 
a public water system--overseen by State drinking water program 
personnel.
    In addition to the water we drink in our homes, water produced by 
public water systems is also used by businesses for a variety of 
purposes, including processing, cooling, and product manufacturing. 
Public water systems--as well as the cities, villages, schools, and 
businesses they support--rely on State drinking water programs to 
ensure they comply with all applicable Federal requirements and the 
water is safe to drink. State drinking water programs must have 
adequate funding to protect public health and maintain the economic 
health of communities. Incidents such as the chemical spill in 
Charleston, West Virginia where residents were without safe drinking 
water for more than a week; unsafe drinking water in Toledo, Ohio for 
more than a day due to the presence of algal toxins; and the leaching 
of lead from lead-containing pipelines into the water supply in Flint, 
Michigan all serve as stark reminders of the critical nature of the 
work that State drinking water programs do--every day--and the reason 
why the funding for State drinking water programs must be sustained.
state drinking water programs: how they operate, why support is needed, 
                and justifications for requested amounts
The Public Water System Supervision (PWSS) Program
    How the PWSS Program Operates: To meet the requirements of the Safe 
Drinking Water Act (SDWA), States have accepted primary enforcement 
responsibility for oversight of regulatory compliance and technical 
assistance efforts for more than 152,000 public water systems to ensure 
that potential health-based violations do not occur or are remedied in 
a timely manner. Over 90 contaminants are regulated in Federal drinking 
water regulations and the pace and complexity of regulatory activity 
has accelerated in recent years. States also assist communities by 
reviewing and approving engineering plans of new or modified public 
water systems. Beyond the contaminants covered by Federal drinking 
water regulations, States are also implementing an array of proactive 
initiatives to protect public health from ``source to tap.'' These 
include source water assessments and protections for communities and 
watersheds; outreach and education on programs such as asset management 
and workforce, technical assistance for water treatment and 
distribution for challenged utilities; and enhancement of overall water 
system performance.
    In recent years, States have also taken on an increasingly 
prominent role in working with Federal and local partners to help 
ensure sufficient water quantity. Many States have worked intensively 
with numerous small water systems in recent years that were within days 
of running completely dry. The public health and economic consequences 
of such a catastrophe would have been incalculable to the residents of 
those communities. In short, State activities go well beyond simply 
ensuring compliance at the tap--and, States perform these tasks more 
efficiently and cheaply than would be the case if the program were 
federally implemented. Well-supported State drinking water programs are 
a good deal.
    Why Adequate Support is Needed: States are unable to fulfill their 
obligation to the American public without adequate Federal funding 
support. Inadequate Federal funding for State drinking water programs 
has several negative consequences. Many States are simply unable to 
implement major provisions of the newer regulations, leaving the work 
undone or ceding the responsibility back to EPA, which is also 
challenged by the Agency's own resource constraints and lack of ``on 
the ground'' expertise. States also want to offer the flexibilities 
allowed under existing rules to local water systems. However, fewer 
State resources mean less opportunity to work individually with water 
systems to meet their individual needs. This situation has created a 
significant implementation crisis in several regions of the country and 
is ultimately delaying or hampering implementation of critically needed 
public health protections.
    State drinking water programs are extremely hard pressed 
financially and the funding gap continues to grow. States must 
accomplish all the above-described activities--and take on new 
responsibilities--in the context of a challenging economic climate. 
State-provided funding has historically compensated for inadequate 
Federal funding, but State budgets have been less able to bridge this 
funding gap in recent years. State drinking water programs have often 
been expected to do more with less and States have always responded 
with commitment and integrity, but they are currently stretched to the 
breaking point. Insufficient Federal support for this critical program 
increases the likelihood of contamination events that puts the public's 
health at risk. $101.9 million was appropriated for the PWSS program in 
fiscal year 2017--the same funding level as was appropriated in fiscal 
years 2014, 2015, and 2016. According to data available as of this 
writing, the Administration is expected to request a 31 percent 
decrease for PWSS funding. This reduces the grant to approximately $71 
million--a funding figure not seen since 1995, more than 20 years ago. 
This is an untenable situation--a significant decrease in funding to 
work with a growing population who are increasingly concerned about 
drinking water contaminants. There are no commensurate decreases in the 
number of public water systems to be overseen; no decreases in the 
number of regulatory requirements to be implemented; and certainly, no 
decreases in the level of allowable public health protection. Our ever-
improving ability to detect contaminants in drinking water and our 
understanding of their toxicity add to the demands on States, EPA, and 
the public water supply systems. In each of the drinking problems that 
occur each year, States step in to help resolve the problems and return 
the systems to providing safe water as quickly as possible. Yet, States 
are being asked to continue and even enhance the level of oversight 
with far fewer dollars than provided before the 1996 Amendments to the 
Safe Drinking Water Act. The current $101.9 million that was 
appropriated for the PWSS program for fiscal year 2017 is key for State 
oversight programs, and any reductions, no matter how small, exacerbate 
States' tenuous financial difficulties.
    For the PWSS Program in fiscal year 2018, ASDWA Respectfully 
Requests $200 million: The number of regulations requiring State 
implementation and oversight as well as performance expectations 
continue to grow while at the same time, the Federal funding support 
has been essentially ``flat-lined.'' Inflation has further eroded these 
static funding levels. This recommended amount is based on ASDWA's 
January 2014 resource needs report and begins to fill the above-
described resource gap. These funds are urgently needed for 
implementing existing drinking water rules, taking on new initiatives, 
and to account for the eroding effects of inflation. It is a small 
price to pay for public health protection.
The Drinking Water State Revolving Loan Fund (DWSRF) Program
    How the DWSRF Program Operates: Drinking water in the U.S. is among 
the safest and most reliable in the world, but it is threatened by 
aging infrastructure. Through low interest loans provided by the DWSRF, 
States help water utilities overcome this threat. The historical 
payback to the DWSRF on this investment has been exceptional. Since its 
inception, the DWSRF has touched millions of Americans through projects 
that enhance drinking water capabilities at water utilities. In the 
core DWSRF program, approximately $18.2 billion in cumulative Federal 
capitalization grants since 1997 have been leveraged by States into 
over $32.5 billion in infrastructure loans to small and large 
communities across the country. 25.5 percent of the cumulative DWSRF 
assistance, including negative interest loans and principal 
forgiveness, has been provided to disadvantaged communities. Such 
investments pay tremendous dividends--both in supporting our economy 
and in protecting our citizens' health. States have very effectively 
and efficiently leveraged Federal dollars with State contributions for 
more than 13,000 projects, improving health protection for millions of 
Americans.
    An important feature of the DWSRF program is the State ``set-
aside'' fund component and another key reason for adequately funding 
this critical program. Set-asides function as a proactive way for 
States to work with drinking water systems to maintain compliance and 
avoid violations. States may reserve up to 31 percent of these funds 
for a variety of critical tasks, such as increasing the technical, 
managerial, and financial capacity of water systems; providing training 
and certification for water system operators; and continuing wellhead 
protection efforts. Set-asides are an essential source of funding for 
States' core public health protection programs and these efforts work 
in tandem with infrastructure loans.
    Drinking Water Infrastructure Investment is Well below the 
Documented Need: The American Society of Civil Engineers, once again, 
has given the Nation's drinking water infrastructure a D+ grade and 
EPA's most recent National Drinking Water Infrastructure Needs Survey 
(2011) indicated that drinking water system infrastructure needs total 
$384 billion over the next 20 years; $72.5 billion of that total is 
needed to prevent contamination of 73,400 water systems. The American 
Water Works Association has estimated the 20 year need at $1 trillion 
(which more fully accounted for water distribution system replacement 
costs). Investment is needed for aging treatment plants, storage tanks, 
pumps, and distribution lines that carry water to our Nation's homes, 
businesses and schools. The DWSRF must continue to be a key part of the 
infrastructure solution.
    For the DWSRF Program in fiscal year 2018, ASDWA respectfully 
requests $1 billion: States were very encouraged by the $1.387 billion 
appropriated for the DWSRF in fiscal year 2010 but have been 
disappointed by the subsequent generally downward trend--$963 million 
in fiscal year 2011, $919 million in fiscal year 2012, $854 million for 
fiscal year 2013 (a figure not seen since 2006), $907 million in fiscal 
years 2014 and 2015, and $863 million in fiscal years 2016 and 2017. 
The primary purpose of the DWSRF is to improve public health protection 
by facilitating water system compliance with national primary drinking 
water regulations through the provision of loans to improve drinking 
water infrastructure. Water infrastructure is needed for public health 
protection as well as a sustainable economy, as explained above. 
Considering these indicators of success and documented needs, we 
believe funding at the $1billion level will better enable the DWSRF to 
meet the SDWA compliance and public health protection goals.
                               conclusion
    ASDWA respectfully recommends that the Federal fiscal year 2018 
budget needs for States' role in the provision of safe drinking water 
be adequately funded by Congress. A strong State drinking water program 
supported by the Federal-State partnership will ensure that the quality 
of drinking water in this country will not deteriorate and, in fact, 
will continue to improve--so that the public can be assured that a 
glass of water is safe to drink no matter where they travel or live. 
States are willing and committed partners. However, additional Federal 
financial assistance is needed to meet ongoing and ever growing 
regulatory, infrastructure, and security needs. In 1996, Congress 
provided the authority to ensure that the burden would not go 
unsupported. For fiscal year 2018, ASDWA asks that the promise of that 
support be realized.
                                 ______
                                 
   Prepared Statement of the Association of State Floodplain Managers
    The Association of State Floodplain Managers appreciates the 
opportunity to offer our comments on the fiscal year 2018 budget 
request for the U.S. Geological Survey. We focus primarily on the 
essential water monitoring work of USGS and on the important effort to 
collect elevation data for the Nation through the 3-DEP mapping 
program. These data collection programs provide critical information 
for many programs at multiple Federal agencies, but we are particularly 
focused on their importance for production of accurate, up-to-date 
flood hazard maps and for assisting our efforts to reduce flood risk, 
loss of life and property and disaster-related costs to U.S. taxpayers.
    The National Streamflow Network and the 3D Elevation Mapping 
program are important information sources for other Federal agencies as 
well as for State and local entities, non-profit organizations and 
private sector interests. We appreciate the efficiency of centralizing 
collection of this data at USGS to avoid duplication by other Federal 
and State agencies and to provide nationally uniform data so all 
communities and States have consistent data for managing hazard risk.
    After a budget briefing by USGS officials, we were pleased to learn 
that the proposed budget will not include cuts to the National 
Streamflow Network. We urge you to support this aspect of the budget. 
Of key importance for the value of the National Streamflow Network is 
the uninterrupted collection of long-term data. This is essential for 
projections of flood risk and forecasting. Adequate funding is needed 
to both assure continuity of data collection and to make progress 
toward completing the authorized network of gages. The costs are very 
appropriately shared by the many users of the data. While about 31 
percent of the costs are provided in Federal funds, another 45 percent 
comes from States, localities and Tribes, another 20 percent comes from 
other Federal agencies and the remainder comes from non-profits and the 
private sector. It is our understanding that the USGS budget for the 
National Streamflow network has been about $170 million. We urge that 
funding be maintained at that level at a minimum.
    We are very concerned about the proposed $3 million reduction in 
the budget for the 3-DEP mapping program. When considered in 
association with the recently approved fiscal year 2017 budget, this 
represents a cut of $7.5 million for 3DEP mapping. The 3-DEP 
topographic mapping program is a very important investment for the 
Nation. Fortunately, due to improved technology, the costs of LiDAR 
data collection are coming down, but investment in the effort to 
assemble this data for the entire Nation is necessary for continued 
progress toward the objective of accurate up to date topographic data 
for the Nation by 2023. The funding structure for the program is not 
reliable, since only a portion of the funding comes from USGS and the 
rest is dependent on data purchase by other governmental or private 
entities. One of the largest purchasers of the data is the Federal 
Emergency Management Agency (FEMA) because the topographic information 
is essential for production of accurate flood risk maps. Those flood 
risk maps are used to guide development decisions, siting of 
infrastructure and critical facilities, evacuation planning and other 
functions which save lives, property and costs to taxpayers. For these 
reasons, we urge that 3DEP mapping be funded at least at current levels 
in the USGS budget. If at all possible within budgetary constraints, 
this would be a wise area for increased appropriations as the Nation 
plans for a major investment in infrastructure.
    The ASFPM and its 36 chapters represent more than 17,000 local and 
State officials as well as other professionals engaged in all aspects 
of floodplain management and flood hazard mitigation including 
management of local floodplain ordinances, flood risk mapping, 
engineering, planning, community development, hydrology, forecasting, 
emergency response, water resources development and flood insurance. 
All ASFPM members are concerned with reducing our Nation's flood-
related losses. For more information on the association, its 14 policy 
committees and 36 State chapters, our website is: www.floods.org.
    We appreciate the chance to share our comments and recommendations 
regarding the USGS budget for fiscal year 2018. Please contact Chad 
Berginnis, Executive Director, or Larry Larson, Senior Policy Advisor, 
with any questions at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781b1a1d0a1f111616110b381e1417171c0b56170a1f">[email&#160;protected]</a> or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9d5d8cbcbc0f9dfd5d6d6ddca97d6cbde97">[email&#160;protected]</a>

    [This statement was submitted by Chad Berginnis, Executive 
Director.]
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
    Thank you Chairwoman Murkowski and Ranking Member Udall for 
allowing me to submit written testimony on behalf of the Nation's 215 
AZA-accredited zoos and aquariums. Specifically, I want to express my 
support for the inclusion of $11,100,000 for the Multinational Species 
Conservation Funds (MSCF) operated by the U.S. Fish and Wildlife 
Service (USFWS), $15,200,000 for the USFWS's International Affairs 
program, and $8,700,000 for National Environmental Education Act 
programs at the Environmental Protection Agency (EPA) in the fiscal 
year 2018 Interior, Environment, and Related Agencies appropriations 
bill. I also urge you to support robust funding of programs to conserve 
species under the Endangered Species Act (ESA) and reject any proposed 
cuts in funding to the USFWS.
                multinational species conservation funds
    MSCF programs support public-private partnerships that conserve 
wild tigers, elephants, rhinos, great apes, and marine turtles in their 
native habitats. Through the MSCF programs, the United States 
supplements the efforts of developing countries that are struggling to 
balance the needs of their human populations and endemic wildlife. MSCF 
programs help to sustain wildlife populations, address threats such as 
illegal poaching, reduce human-wildlife conflict, and protect essential 
habitat. By working with local communities, they also improve people's 
livelihoods, contribute to local and regional stability, and support 
U.S. security interests in impoverished regions. This Federal program 
benefits AZA-accredited zoos and aquariums in their field conservation 
efforts and partnerships with the USFWS.
             national environmental education act programs
    The EPA offers valuable environmental education initiatives that 
AZA encourages you to support. Education programs at AZA-accredited 
institutions provide essential learning opportunities, particularly 
about science, for schoolchildren in formal and informal settings. 
Studies have shown that American schoolchildren are lagging behind 
their international peers in certain subjects including science and 
math. In the last 10 years, accredited zoos and aquariums formally 
trained more than 400,000 teachers, supporting science curricula with 
effective teaching materials and hands-on opportunities. School field 
trips annually connect more than 12,000,000 students with the natural 
world. Increasing access to formal and informal science education 
programs has never been more important, and EPA environmental education 
grants help to support some of these opportunities at AZA-accredited 
facilities.
                         endangered species act
    The AZA and its members take the issue of wildlife conservation 
very seriously and wholeheartedly support the ESA, which has prevented 
hundreds of listed species from going extinct. Simply put, the ESA, 
which is recognized globally as a model for species preservation, is 
working. It has prevented the extinction of 99 percent of the species 
it protects since its inception in 1973. However, we know that the 
challenges facing our planet in the 21st century are as complex as they 
are urgent. Scientists estimate that the total number of mammals, 
birds, reptiles, amphibians, and fish has declined by more than 50 
percent since 1970, and many believe that we are living amidst the 
planet's sixth mass extinction. Climate change threatens to accelerate 
this crisis. Without critical intervention today, we are facing the 
very real possibility of losing some of our planet's most magnificent 
creatures such as cheetahs, elephants, gorillas, sea turtles, and 
sharks.
    AZA-accredited zoos and aquariums have a unique responsibility to 
help others understand this crisis. It is our obligation--to these 
animals and to all life on earth--to take bold action now to protect 
our planet's biodiversity. One achievement that has gone unnoticed by 
most people is that zoos and aquariums have played a significant role 
in bringing over 25 species, including California condor, Florida 
manatee, and black-footed ferret, back from the brink of extinction.
    Although we have made significant progress in saving endangered 
species, this work is far from done. Species protection and 
conservation requires long-term commitment by all of us. It is through 
the ongoing work related to species recovery plans that we will 
conserve these species for future generations. The AZA and its members 
fully support the ESA, and I encourage you to assure that the agencies 
responsible for carrying out the mandates of the Act receive the 
necessary funding, human resource capacity, and regulatory flexibility 
to succeed.
                              usfws budget
    Finally, much of the important conservation work at AZA-accredited 
zoos and aquariums depends on a robust and fully staffed USFWS. 
Acknowledging the budget challenges facing Congress and the agencies, I 
encourage you to assure that the USFWS has sufficient resources to 
employ qualified professionals, particularly for the programs handling 
permits, which support the science-based conservation breeding and 
wildlife education programs that require animals to be moved in an 
efficient, timely manner: International Affairs (Management Authority), 
Endangered Species, Law Enforcement, and Migratory Birds.
    AZA-accredited zoos and aquariums are essential conservation and 
education partners at the Federal, State, and local levels domestically 
as well as internationally. To assure that AZA-accredited zoos and 
aquariums can continue to serve in these important roles, I urge you to 
provide adequate funding for the USFWS as well as include $11,100,000 
for the MSCF, $15.2 million for the USFWS's International Affairs 
program, and $8,700,000 for critical environmental education programs 
at the EPA in the fiscal year 2018 Interior, Environment, and Related 
Agencies appropriations bill.
    Thank you for your consideration of our comments.

    [This statement was submitted by Dan Ashe, President and CEO.]
                                 
                                 ______
                                 
                         BardinDavidJonas deg.
                Prepared Statement of David Jonas Bardin
Hon. Lisa Murkowski, Chairman
Hon. Tom Udall, Ranking Member
Subcommittee on Interior, Environment and Related Agencies
Committee on Appropriations, United States House Senate

Re:  Proposal to zero out the $1.9 million & 15 FTE USGS Geomagnetism 
Hazards Program

    Dear Chairman Murkowski and Ranking Member Udall:

    Do not zero out this USGS program in DOI. Strengthen it, instead, 
because productive outputs of its highly-skilled 15 FTE staff are vital 
to our national and international security and critical infrastructure.
    The bipartisan Space Weather Research and Forecasting Act (S. 141), 
approved unanimously by the Senate on May 2, 2017 (see https://
www.congress.gov/bill/115th-congress/senate-bill/141), describes and 
relies on this very program as follows:

        SEC. 60701. SPACE WEATHER.
      
        (b) FEDERAL AGENCY ROLES.--
                (1) FINDINGS.--Congress finds that--
                
                        (E) the Department of the Interior collects, 
                        distributes, and archives operational ground-
                        based magnetometer data in the United States 
                        and its territories, and works with the 
                        international community to improve global 
                        geophysical monitoring and develops crustal 
                        conductivity models to assess and mitigate risk 
                        from space weather induced electric ground 
                        currents; . . . [S. Rept. 115-21 (https://
                        www.congress.gov/115/crpt/srpt21/CRPT-
                        115srpt21.pdf).]

    S. 141 recognizes that the USGS Geomagnetism Program has important 
responsibilities prescribed in the National Space Weather Action Plan 
[https://www.hsdl.org/?view&did=789864]. Particularly important: USGS 
is responsible for mapping geoelectric hazards of concern for the 
electric power grid, notably to the North American Electric Reliability 
Corporation (NERC) and Federal Energy Regulatory Commission (FERC) [see 
FERC Order No. 830, https://www.ferc.gov/whats-new/comm-meet/2016/
092216/E-4.pdf].
    USGS tells you [at page I-24 of fy2018_usgs_budget_justification; 
PDF page 176 of 330]:
    Summary of Budget Request
          The 2018 budget request for the USGS Geomagnetism Program is 
        $0 and 0 FTE, a change of -$1,884,000 and -15 FTE from the 2017 
        Annualized Continuing Resolution (CR) level.
    Overview
          Magnetic storms are caused by the dynamic interaction of the 
        Earth's magnetic field with the Sun. While magnetic storms 
        often produce beautiful aurora lights that can be seen at high 
        latitude, they can also wreak havoc on the infrastructure and 
        activities of our modern, technologically based society. Large 
        storms can induce voltage surges in electric-power grids, 
        causing blackouts and the loss of radio communication, reduce 
        GPS accuracy, damage satellite electronics and affect satellite 
        operations, enhance radiation levels for astronauts and high-
        altitude pilots, and interfere with directional drilling for 
        oil and gas.
          In order to understand and mitigate geomagnetic hazards, the 
        USGS Geomagnetism Program has monitored and analyzed the 
        Earth's dynamic magnetic field. The Program is part of the U.S. 
        National Space Weather Program (NSWP), an interagency 
        collaboration that includes programs in the National 
        Aeronautics and Space Administration (NASA), the Department of 
        Defense (DoD), the National Oceanic and Atmospheric 
        Administration (NOAA), and the National Science Foundation 
        (NSF). The Geomagnetism Program provides data to the NSWP 
        agencies, oil drilling services companies, geophysical 
        surveying companies, and several international agencies. USGS 
        data, products, and services are also used by the electric-
        power industry to evaluate geomagnetic storm risk.
        
    2018 Program Changes
          Eliminate the Geomagnetism Program. (-$1,884,000/-15 FTE): 
        This eliminates the Geomagnetism Program, an element of the 
        U.S. National Space Weather Program. This will reduce the 
        accuracy of NOAA and U.S. Air Force forecasting of the 
        magnitude and impact of geomagnetic storms. In addition to 
        eliminating the data provided to partner Federal agencies, the 
        elimination of the program will also reduce the availability of 
        geomagnetic information to the oil drilling services industry, 
        geophysical surveying industry, several international agencies, 
        and electrical transmission utilities.
    Science Collaboration
          The USGS is a member of the multiagency NSWP. Domestically, 
        the USGS works cooperatively with NOAA, the Air Force 557th 
        Weather Wing, and other agencies. For example, USGS observatory 
        data are used by NOAA's Space Weather Prediction Center, and by 
        the U.S. Air Force, for issuing geomagnetic warnings and 
        forecasts. Internationally, the USGS magnetic observatory 
        network is itself part of the global INTERMAGNET network. USGS 
        research is conducted in collaboration with the Colorado School 
        of Mines, the USGS Crustal Geophysics and Geochemistry Science 
        Center, the NOAA/SWPC, and the NASA Community Coordinated 
        Modeling Center.
          The USGS also works with private entities that are affected 
        by space weather and geomagnetic activity, including electric-
        power grid companies and the oil and gas drilling industries. 
        In the oil and gas industry, for example, drill operators need 
        to know which way their drill bits are going to maximize oil 
        production and avoid collisions with other wells. One way to 
        accomplish this important task is to install a magnetometer--a 
        sort of modern-day ``compass''--in a drill-string instrument 
        package that follows the drill bit. Simultaneous measurements 
        of the magnetic field in the drill hole are combined with those 
        monitored by the USGS to produce a highly accurate estimate of 
        the drill bit position and direction.

    But USGS omits that this program brings rapidly evolving earth 
science to NERC and FERC in particular.
    As a concerned citizen with Federal, State, municipal and private 
sector experience [see bio below], I believe that the USGS Geomagnetism 
Program brings modern relevance to earth science. We will need its 
services for many years to come to help protect us from ground-level 
hazards of space weather and, even, from malevolent risks (such as 
electromagnetic pulse attacks).
            Faithfully, David Jonas Bardin
                               short bio
    Mr. Bardin, a retired member of Arent Fox LLP, has focused on 
energy, environmental, public utility, and governance issues in a 
number of public and private capacities.
  --At Arent Fox beginning in 1980, he practiced energy, public 
        utilities, and environmental law on behalf of corporate and 
        governmental clients in the United States and abroad.
  --As a citizen, he addressed energy issues involving public 
        information, research and development, incentives for enhanced 
        oil recovery and carbon dioxide sequestration, unconventional 
        petroleum resources (including Bakken oil resources of the 
        Williston Basin [see http://www.undeerc.org/News-Publications/
        Leigh-Price-Paper/Default.aspx]), electric power reliability 
        and security, and District of Columbia and regional government 
        matters (including the University of the District of Columbia).
    He served as Deputy Administrator of the Federal Energy 
Administration (1977) and Administrator of the Economic Regulatory 
Administration of the Department of Energy (1977-79), under 
appointments by President Carter, and as New Jersey's cabinet-level 
Commissioner of Environmental Protection (1974-77) under appointment by 
Governor Byrne. He worked in Israel (1970-74) on public utility and 
environmental matters. He held Federal civil service positions (1958-
69) as trial attorney, assistant general counsel for legislation, and 
deputy general counsel at the U.S. Federal Power Commission (now FERC) 
during the Eisenhower, Kennedy, Johnson, and Nixon Administrations, and 
did active duty as an enlisted man in the U.S. Army Transportation 
Research & Engineering Command (1956-58).
    He served on the board of directors of the D.C. Water & Sewer 
Authority (2001-2011).
    He is a graduate of Columbia University Law School (1956), Columbia 
College (1954), and the Bronx High School of Science(1950). He and his 
wife, Livia, have four children and five grandchildren.
                                 ______
                                 
     Prepared Statement of the Bristol Bay Area Health Corporation
    The Requests of the Bristol Bay Area Health Corporation (BBAHC) for 
the fiscal year 2018 Indian Health Service Appropriations and our 
comments are as follows:
  --VBC Funding.--Direct the IHS to fully fund Village Built Clinic 
        (VBC) leases and make it a line item in the budget and allocate 
        at least an additional $12.5 million to the IHS for VBC leases, 
        for a total of $17 million.
  --CSC Funding.--Continue to fund Contract Support Costs (CSC) at 100 
        percent and provide funding on a permanent and mandatory basis.
  --Sequestration.--Shield the IHS/BIA from sequestration.
  --Increase IHS behavioral healthcare funding (Mental Health/Substance 
        Abuse)
  --Land Transfer Legislation.--Enactment of H.R. 236/S. 269, to 
        facilitate transfer of from IHS to BBAHC land on which our 
        dental clinic is located.
  --Concern of proposal to greatly increase the cost our Internet 
        access.

    The Bristol Bay Area Health Corporation was created in 1973 to 
provide healthcare services to Alaska Natives of Southwest Alaska. We 
began operating and managing the Kanakanak Hospital and the Bristol Bay 
Service Unit for the IHS in 1980, and was the first Tribal organization 
to do so under the Indian Self-Determination and Education Assistance 
Act (ISDEAA). BBAHC is a co-signer to the Alaska Tribal Health Compact 
with the Indian Health Service (IHS) under the ISDEAA and is now 
responsible for providing and promoting healthcare to the people of 28 
Alaska Native Villages.
    We have made significant progress but now deal with modern-day 
health problems. Today, rather than TB and influenza epidemics, we 
struggle with diseases of a modern society that include chronic 
illnesses such as cancer, diabetes, heart disease and behavioral and 
mental and behavioral health needs. The life expectancy of our people 
has increased from 47 years of age in 1952 to 69.4 in 1998, still below 
that of U.S. residents and other Alaskans.
    Village Built Clinics. The Bristol Bay Area Health Corporation 
thanks Congress for appropriating $11 million for Tribal health clinic 
leases in the fiscal year 2017 Consolidated Appropriations Act. We 
appreciate the Alaska Congressional delegation's continued support and 
are particularly thankful to Senator Murkowski for her leadership on 
this issue. We thank her for her steadfast determination in advocating 
for these small chronically underfunded remote clinics that serve as an 
essential health lifeline in rural Alaskan villages where there is no 
road system to connect villages to urban centers. As noted above, BBAHC 
serves 28 remote villages in southwest Alaska.
    BBAHC also appreciates the House Natural Resources Subcommittee on 
Indian, Insular, and Alaska Native Affairs holding a hearing on Indian 
infrastructure needs in Indian Country, and the support and 
participation of Chairman Emeritus Young in the discussion that focused 
on the considerable unmet needs of Village Built Clinics. Many of the 
Village Built Clinics are in extreme disrepair and there is a 
considerable need for a reserve fund for upkeep and expansion of these 
essential village facilities. In 2015, the Alaska Native Health Board 
estimated that a $14 million annual appropriation would be needed to 
fund a replacement reserve to tackle the clinic crisis. BBAHC supports 
increased funding for Village Built Clinics and requests that funding 
be a: (1) separate line item in the IHS budget, (2) recurring funding, 
and (3) displayed in the Budget Justification to better enable planning 
and certainty.
    The $11 million increase in fiscal year 2017 was a major step 
forward in funding Village Built Clinics, but that amount still does 
not meet the full amount of funding needed. In 2015, the Alaska Native 
Health Board estimated that in addition to the existing $4.5 million 
base, an additional $12.5 million is needed to fund these rural 
clinics. The fiscal year 2017 funding is a supplement to the 
approximately $4.5 million already being provided to these essential 
village clinics and should be so reflected. In addition, without a 
separate line item for Village Built Clinics, much of the funding could 
be distributed to other types of facility leases, leaving the Village 
Built Clinics falling far short of necessary funding.
    Contract Support Costs (CSC). BBAHC thanks this Subcommittee for 
its leadership in committing to fully fund IHS and BIA contract support 
costs for fiscal year 2016, and fiscal year 2017, funding it at ``such 
sums as necessary'' and making it a separate account in the IHS and BIA 
budgets. For IHS, the fiscal year 2017 estimate for contract support 
costs is $800 million and for the BIA, $278 million. For many years, 
both the IHS and BIA have vastly underpaid the contract support costs 
owed to Tribal organizations and this transformation makes an enormous 
difference in helping to ensure that the Indian Self-Determination and 
Education Assistance Act is fully funded and implemented as Congress so 
intended. The shift is also likely to significantly improve the 
Federal-Tribal government-to-government relationship. BBAHC thanks you 
for responding to Tribal requests and we also appreciate that the 
proviso that effectively denied CSC carryover authority granted by 
ISDEAA is absent from fiscal year 2017 Consolidated Appropriations Act.
    BBAHC will continue to advocate for our long-term goal of ensuring 
that full CSC appropriations are made permanent and mandatory. Under 
the ISDEAA, the full payment of CSC is not discretionary; it is a legal 
obligation affirmed by the Supreme Court of the United States. Funding 
of CSC on a discretionary basis has in the very recent past placed the 
House and Senate Appropriations Committees, in their own words, in the 
``untenable position of appropriating discretionary funds for the 
payment of any legally obligated contract support costs.'' BBAHC is 
committed to working with the appropriate Congressional committees to 
determine how best to achieve that goal.
    Sequestration. BBAHC respectfully requests the Subcommittee's 
support in amending the Balanced Budget and Emergency Deficit Control 
Act to exempt Indian programs, such as the IHS and BIA budgets, from 
sequestration. We support congressional efforts to fully exempt 
Veterans Health Administration programs from sequestration. However, 
Indian healthcare, as a Federal trust responsibility, should be 
afforded equal treatment. A number of members of this Subcommittee and 
other members of Congress have voiced support for our position and have 
publicly stated that it was an oversight that the Indian budgets were 
not included in the exempt category when the Balanced Budget and 
Emergency Deficit Control act was enacted.
    BBAHC is very concerned that the current fiscal year 2018 funding 
cap for non-defense discretionary spending is lower than the fiscal 
year 2017 spending cap. When put in the context of the President's 
fiscal year 2018 ``skinny'' budget proposal to raise defense spending 
by $54 billion and lower non-defense discretionary spending by a 
corresponding amount, we are concerned that a significant sequestration 
of funds is likely to occur. Whatever the case, Indian program budgets 
should be a funding priority and exempt from sequestration.
    Behavioral Health. We testified last year regarding the hardships 
in providing for our communities' behavioral and mental health needs, 
particularly with regard to our youth. As you know, there is an 
epidemic of suicide among Alaska Natives, especially teens. BBAHC has 
well-qualified professional staff who service approximately 8,000 
people in our region. But our social workers, counsellors and 
behavioral health aides have a theoretical caseload of 300 persons 
each. The ratio of mental health clinicians to clients is 1 to 1,300. 
Our 14-bed residential youth facility for substance abuse (Jake's 
Place) has an Alcohol and Drug Safety program funded by the State of 
Alaska but it is primarily an education program, not a treatment 
program, and much of the education is done remotely, via the Internet.
    We supported the Obama Administration's requested fiscal year 2017 
increases under Mental Health of $21.4 million for behavioral health 
integration and $3.6 million for the Zero Suicide initiative and under 
Alcohol and Substance Abuse of $15 million for the Generation 
Indigenous initiative and $1.8 million for a pilot youth project. The 
Senate Appropriations Committee also supported these increases and we 
appreciate that. The final fiscal year 2017 Appropriations Act provides 
under Mental Health $6.9 million for behavioral health integration and 
$3.6 million for the Zero Suicide initiative. Under Alcohol and 
Substance Abuse it provides $6.5 million for Generation Indigenous 
initiative, $1.8 million for the pilot youth project, and $2 million 
for detoxification. We are glad for any increases but urge you to make 
an increased commitment for fiscal year 2018 to help address the 
overwhelming behavioral health needs.
    Land Transfer Legislation. BBAHC also asks for your support in 
enacting legislation that would direct the Secretary of the Department 
of Health and Human Services to convey a 1.474-acre parcel of land, via 
warranty deed, to BBAHC for the land on which our new state-of the art 
dental clinic is located. The legislation is HR 236, introduced on 
January 3, 2017 by Congressman Young and S. 269 introduced on February 
1, 2017 by Senators Murkowski and Sullivan.
    The House and Senate bills are identical, and there is no reason 
they should not pass under unanimous consent or under suspension of the 
rules. The property transfer authorized by these bills would enable the 
land transfer from IHS to BBAHC via warranty deed, and would supersede 
any existing quitclaim deed. It would allow the BBAHC to have greater 
control over the land and more opportunities for financing as well as 
to remove any IHS reversionary interests.
    Our new dental facility opened in September 2016, on the grounds of 
the Kanakanak Hospital Compound. The new clinic replaced a dilapidated 
clinic and is providing expanded dental care to the our region where 
there are very few public dental clinics. Our service population is 
8,000. Part of the funding for the dental facility came from BBAHC 
reinvesting its share of a CSC settlement with IHS that was paid to 
compensate for years of contract underpayments to the Tribal health 
organization. The clinic is the first building owned by BBAHC on the 
hospital campus and there is a lot of pride and self-determination that 
flows from the new tribally-owned dental building.
    Universal Service Proposal. A a potentially devastating development 
is the proposal by the FCC to pro-rate by 7.5 percent the subsidies for 
Internet service. We currently have a subsidy from Universal 
Administrative Company (USAC)--the FCC-designated administrator of 
universal services--that subsidizes our Internet so we can connect thru 
satellite. Our current payment is $94,000 per month but under the 
proposal it will be $175,000 per month. That translates to an annual 
$2.72 million annual increase over what we are currently paying. There 
is no way we can afford this additional amount for connectivity. This 
will affect not only us but all Tribal health organizations in the 
State. Connectivity is the lifeline for the provision of health 
services in Alaska. In our case, we serve a vast area covering 28 
Tribal villages. This is obviously a case to be made to the FCC, but we 
want this Subcommittee, which is critical to the provision of providing 
funding for Alaska Native and Indian healthcare, and to be aware of 
this issue.
    In conclusion, we thank you for the opportunity to present 
testimony on IHS programs. We recommend: (1) directing the IHS to fully 
fund Village Built Clinic leases at $17 million and make it a line item 
in the budget, allocating at least an additional $12.5 million to the 
IHS for VBC leases; (2) continue to fund Contract Support Costs at 100 
percent and make funding available on a permanent and mandatory basis; 
(3) shield the IHS/BIA from sequestration; (4) increase funding for 
behavioral healthcare; (5) expedite passage of H.R. 236/S. 269, to 
facilitate transfer of the IHS parcel of land to BBAHC on which our 
dental clinic is located; and (6) ask for your attention on the 
proposal that would greatly increase our cost of internat access which 
his essential for the provision of healthcare.
    We appreciate your leadership and commitment to the advancement of 
the Native American people and thank you for your consideration of the 
concerns and requests of the Bristol Bay Area Health Corporation.

    [This statement was submitted by Robert Clark, President/CEO.]
                                 ______
                                 
    Prepared Statement of the Catawba Indian Nation, South Carolina
Requests:
    1.  Provide necessary funding to support Tribal self-determination 
and economic development.
    2.  Establish avenues for increased capital investment in Indian 
Country.
    3.  Maintain the $1 million allocation for NAGPRA-related law 
enforcement in fiscal year 2018 and beyond.
    4.  Expand funding for effective natural resource management and 
conservation.
    5.  Increase funding for Tribal historic preservation efforts to 
protect sacred sites.
    6.  Support the Johnson O'Malley program at the Bureau of Indian 
Education for Native student resiliency and long-term success.

    Introduction. Thank you Chairman Murkowski, Ranking Member Udall, 
and members of the subcommittee for the opportunity to testify on 
critical funding needs for American Indian and Alaska Native programs 
in the Department of the Interior. The people of the Catawba Indian 
Nation thank you for your hard work on behalf of Indian Country and for 
inviting Tribal leaders to submit outside witness testimony on their 
communities' behalf. As you are aware, the programs at issue are 
founded on the political relationship that exists between the Federal 
Government and Tribal nations, which frames our government-to-
government relationship and the trust responsibility to protect the 
interests and well-being of Tribal members.\1\
---------------------------------------------------------------------------
    \1\ Recently, there have been suggestions that Federal Indian 
programs and associated funding might somehow be unconstitutional. This 
is absolutely wrong. The Supreme Court has rejected equal protection 
challenges against Federal Indian laws, holding that the ``[T]he 
Constitution itself provides support for legislation directed 
specifically at the Indian Tribes. . . [T]he Constitution therefore 
`singles Indians out as a proper subject for separate legislation.' '' 
United States v. Antelope, 430 U.S. 641, 649 n. 11 (quoting Morton v. 
Mancari, 417 U.S. 535, 552 (1974)). If this were not true, a whole 
title of the U.S. Code (Title 25) would be in jeopardy in total 
contradiction to thousands of judicial decisions and dozens if not 
hundreds of laws passed by both houses of Congress and signed by every 
president.
---------------------------------------------------------------------------
    My name is William Harris and I am the Chief of the Catawba Indian 
Nation, the only federally recognized Tribe in the State of South 
Carolina. Since before recorded history, the Catawba have lived in the 
Piedmont area of South Carolina, east of the Nantahala National Forest 
and along the life-giving waters of the river bearing our name. Like 
our traditional pottery, the Catawba have been created from southern 
soil, to be shaped and fired over time by unimaginable hardship, and 
now stand tall as a living testament to our ancestors and to the land 
we call home. To advance the socioeconomic development and well-being 
of my Tribe and other Native communities, I offer the following budget 
recommendations for fiscal year 2018.
         i. sustainable economic development for smaller tribes
    Unique Hardships of the Catawba Indian Nation. As a sovereign 
nation and industrious people, we are committed to achieving economic 
self-sufficiency. The ability to provide a safe, vibrant, and fully 
functioning range of services to one's community is the aspiration of 
all Tribal governments. For the Catawba Indian Nation, this goal is 
immeasurably complicated by the terms of our 1993 Settlement Act with 
the State that inhibit meaningful Tribal economic development. For 
example, the Tribe was required to pay an out-of-county rate for Tribal 
students enrolled at public schools within the local Rock Hill School 
District based on an extremely unfair formula that would effectively 
impose a $500,000 annual fee on the Tribe. The justification for the 
fee was that the Tribe would be taking 3,500 acres of land into trust 
that could no longer be taxed, but in reality the Tribe has only taken 
about 300 acres into trust. As a result of legal action brought by the 
local school district following our inability to pay this exorbitant 
amount, there is a judgment against the Tribe exceeding the amount of 
our total assets. We urgently request Congressional support to promote 
our Tribal self-determination and sustainable economic development.
    Increased Support for Non-Gaming Tribes. Our Tribe is currently 
prohibited from establishing gaming operations on Tribal lands under 
the terms of our Settlement Act. Instead, we are allowed to operate 
just two bingo halls--neither of which ever turned even a marginal 
profit for the Tribe due to the mandatory 10 percent fee on gross bingo 
revenue that must be first transmitted to the State. It is our hope to 
come back to the Congress and ask for amendments to our Settlement Act 
that would restore some of our lost sovereignty and free-up our 
economic potential. In the interim, we continue to explore innovative 
avenues for economic development. We urge Congress to invest in 
programs that support economic development for non-gaming Tribes with 
limited resources to further the Federal Government's policy of 
promoting Tribal self-determination and economic self-sufficiency.
    Expanded Access to Investment Opportunities in Indian Country. 
Given adequate support and the appropriate resources, the majority of 
Tribes would likely become--assuming they are not already--significant 
contributors to their local and regional economies. Tribes are economic 
engines of the tourism industry, renewable energies, small business 
development, commercial services, among many others. However, limited 
access to capital and investment financing remain substantial barriers 
to economic development in Indian Country. We struggle with uniquely 
burdensome Federal restrictions and regulations, poor infrastructure, 
and other challenges that limit their economies from flourishing. It is 
important to create avenues for investment funds, financial resources, 
and business models that are mutually advantageous to Tribes and 
potential partners for economic advancement, stability, and 
diversification. We encourage Congress to provide increased support for 
investment opportunities in Indian Country in the fiscal year 2018 
budget.
              ii. protection for tribal cultural patrimony
    Continued Support for the Protection of Cultural Patrimony; Thank 
You for Supporting Efforts to End Illegal Trafficking in Tribal 
Cultural Materials. As an artist and traditional potter, I am 
intimately familiar with the press of cool clay beneath my fingers and 
the process of creating a new form from the South Carolina earth. Such 
vessels transmit not only the impressions of the artists who created 
them, but also the cultural heritage and worldviews of all those 
individuals who came before. When these items are removed from Native 
communities through illegal trafficking, theft, or disruptions in the 
transmission of traditional practices, an irreplaceable aspect of our 
cultural expression and identity is lost as well.
    We would like to take this opportunity to provide a heartfelt thank 
you to Congress for providing expanded funding for NAGPRA-related law 
enforcement activities in the 2017 Omnibus. With a secure and dedicated 
funding stream, BIA and Tribal officials will have an enhanced capacity 
to combat and deter the trafficking of Tribal cultural patrimony. When 
aligned with the Federal protections of the PROTECT Patrimony 
Resolution, passed by the Congress last year, the Catawba Indian Nation 
can see a positive path forward in ensuring that the next generation 
will have access to these important cultural resources. We strongly 
encourage Congress to continue to support programs that protect our 
cultural heritage and work to bring these irreplaceable objects home 
and to maintain the $1 million NAGPRA-related funding for fiscal year 
2018 and beyond.
    Natural Resource Protection to Safeguard Tribal Cultures. We often 
think of the destruction of cultural heritage in terms of monuments or 
great works of art. However, it is also possible to conceptualize the 
destruction of cultural heritage in terms of living natural resources. 
When natural resources are contaminated or destroyed, such alterations 
necessarily impact the cultures that depend on those resources for 
physical, spiritual, and cultural sustenance. Our cultural heritage as 
the Catawba Indian Nation is intertwined with the natural resources 
that surround and define us, particularly in regards to our sovereign 
lands and the currents of the Catawba River. We urge Congress to 
safeguard Tribal cultures by providing increased funding for natural 
resource protections in the fiscal year 2018 Interior budget.
    Tribal Historic Preservation Offices (THPOs). The landscapes and 
features that qualify as Tribal sacred sites are as diverse as the 567 
Tribal nations currently recognized by the Federal Government. Each 
individual Tribe must decide for itself what does or does not 
constitute a sacred site. In recent years, an increasing number of 
Tribes have established THPOs equivalent to State programs under the 
National Historic Preservation Act. Federal funding, however, has not 
kept up with the expansion of THPO programs and, as a result, it is 
difficult for Tribes to meet their preservation compliance duties and 
responsibilities. We request an increase in THPO funding as part of the 
Interior budget to better protect Tribal sacred sites for future 
generations.
                  iii. increased support for education
    Increased Funding for the Johnson-O'Malley Program (JOM). The JOM 
Program provides supplementary educational services to meet the unique 
needs of Native children attending public schools. These services 
include academic counseling, dropout prevention assistance, Native 
language incorporation, and culturally based education activities in 
the classroom. The implementation of culturally and linguistically 
appropriate instruction and program design has proven to contribute to 
Native student resiliency and long-term success. To ensure that Native 
students are receiving appropriate forms of support, the JOM Program 
authorizes parent committees to design and implement their own 
programs. Through this critical program we are able to better support 
our children as they reach for their educational goals. We urge an 
increase in funding for per student allocations under the JOM to 
account for future student growth.
    Thank you for inviting outside witness testimony on the Federal 
budget for fiscal year 2018. I appreciate the opportunity to testify on 
behalf of the Catawba People. We look forward to working with you on 
addressing these complex needs.
                                 ______
                                 
           Prepared Statement of the Central Arizona Project
    On behalf of the Central Arizona Water Conservation District 
(CAWCD), I encourage you to include $1.5 million for salinity specific 
projects in the Bureau of Land Management's (BLM) Soil, Water and Air 
Program in fiscal year 2018. The funding will help protect the water 
quality of the Colorado River that is used by approximately 40 million 
people for municipal and industrial purposes and used to irrigate 
approximately 5.5 million acres in the United States.
    CAWCD manages the Central Arizona Project (CAP), a multi-purpose 
water resource development and management project that delivers 
Colorado River water into central and southern Arizona. The largest 
supplier of renewable water in Arizona, CAP diverts an average of over 
1.5 million acre-feet of Arizona's 2.8 million acre-foot Colorado River 
entitlement each year to municipal and industrial users, agricultural 
irrigation districts, and Indian communities.
    Our goal at CAP is to provide an affordable, reliable and 
sustainable supply of Colorado River water to a service area that 
includes more than 80 percent of Arizona's population.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of Native American communities throughout the 
State. Nearly 90 percent of economic activity in the State of Arizona 
occurs within CAP's service area. The canal provides an economic 
benefit of $100 billion annually, accounting for one-third of the 
entire Arizona gross State product. CAP also helps the State of Arizona 
meet its water management and regulatory objectives of reducing 
groundwater use and ensuring availability of groundwater as a 
supplemental water supply during future droughts. Achieving and 
maintaining these water management objectives is critical to the long-
term sustainability of a State as arid as Arizona.
                 negative impacts of concentrated salts
    Natural and man-induced salt loading to the Colorado River creates 
environmental and economic damages. EPA has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. The majority of land within the Colorado River Basin is 
federally owned, much of which is administered by BLM. Human activity, 
principally irrigation, adds to salt load of the Colorado River. 
Further, natural and human activities concentrate the dissolved salts 
in the River.
    The U.S. Bureau of Reclamation (Reclamation) has estimated the 
current quantifiable damages at about $382 million per year to U.S. 
users with projections that damages would increase to approximately 
$614 million per year by 2035 if the program were not to continue. 
These damages include:
  --A reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --Increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.

    Adequate funding for salinity control will prevent the water 
quality of the Colorado River from further degradation and avoid 
significant increases in economic damages to municipal, industrial and 
irrigation users.
    history of the blm colorado river basin salinity control program
    In implementing the Colorado River Basin Salinity Control Act of 
1974, Congress recognized that most of the salts in the Colorado River 
originate from federally owned lands. Title I of the Salinity Control 
Act deals with the U.S. commitment to the quality of waters being 
delivered to Mexico. Title II of the Act deals with improving the 
quality of the water delivered to users in the United States. This 
testimony deals specific with Title II efforts. In 1984, Congress 
amended the Salinity Control Act and directed that the Secretary of the 
Interior develop a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by BLM.
    In 2000, Congress reiterated its directive to the Secretary and 
requested a report on the implementation of BLM's program (Public Law 
106-459). In 2003, BLM employed a Salinity Coordinator to increase BLM 
efforts in the Colorado River Basin and to pursue salinity control 
studies and to implement specific salinity control practices. 
Meaningful resources have been expended by BLM in the past few years to 
better understand salt mobilization on rangelands. With a significant 
portion of the salt load of the Colorado River coming from BLM 
administered lands, the BLM portion of the overall program is essential 
to the success of the effort. Inadequate BLM salinity control efforts 
will result in significant additional economic damages to water users 
downstream.
    The threat of salinity continues to be a concern in both the United 
States and Mexico. On November 20, 2012, a 5-year agreement, known as 
Minute 319, was signed between the U.S. and Mexico to guide future 
management of the Colorado River. Among the key issues addressed in 
Minute 319 included an agreement to maintain current salinity 
management and existing salinity standards. The CAWCD and other key 
water providers are committed to meeting these goals.
                               conclusion
    Implementation of salinity control practices through the BLM 
Program has proven to be a very cost effective method of controlling 
the salinity of the Colorado River and is an essential component of the 
overall Colorado River Basin Salinity Control Program.
    CAWCD urges the subcommittee to include $1.5 million for salinity 
specific projects in the Bureau of Land Management's (BLM) Soil, Water 
and Air Program. The continuation of funding will prevent further 
degradation of the water quality of the Colorado River and further 
degradation and economic damages experienced by municipal, industrial 
and irrigation users. A modest investment in source control pays huge 
dividends in improved drinking water quality for nearly 40 million 
Americans.

    [This statement was submitted by Theodore C. Cooke, General 
Manager.]
                                 ______
                                 
      Prepared Statement of the Chippewa Ottawa Resource Authority
                               i. summary
    The Chippewa Ottawa Resource Authority (CORA), on behalf of its 
five member Indian Tribes, requests $5,458,355.00 in recurring base 
funding from the Department of Interior's fiscal year 2018 
appropriation bill, to support Tribal natural resource management 
programs pursuant to two recently enacted Consent Decrees and support 
for all intertribal resource management organizations under 
``Evaluation and Research Activities--Climate Change''.
    CORA is a coalition of five federally-recognized Michigan Tribes 
including; the Bay Mills Indian Community, the Grand Traverse Band of 
Ottawa and Chippewa Indians, the Little River Band of Ottawa Indians, 
the Little Traverse Bay Bands of Odawa Indians, and the Sault Ste Marie 
Tribe of Chippewa Indians.
    The Tribes are parties to the historic United States v. Michigan, a 
court case concerning the exercise of treaty-reserved fishing, hunting, 
and gathering rights as they pertain to Article 13 of the 1836 Treaty 
of Washington. Article 13 States that the Tribes ``stipulate for the 
right of hunting on the lands ceded, with the other usual privileges of 
occupancy, until the land is required for settlement.''
                 ii. great lakes consent decree (2000)
    In 1979, following nearly a decade of litigation in State and 
Federal courts (United States v. Michigan), the Federal district court 
affirmed the existence of treaty-reserved fishing rights in the upper 
Great Lakes of Michigan. These court rulings also determined that the 
Tribes could regulate and manage their respective members' fishing 
activities. Accordingly, the Tribes have developed the biological, 
enforcement, and judicial programs necessary to properly protect and 
manage the Great Lakes fishery resource while continuing to exercise 
commercial and subsistence fishing activities.
    While these court decisions recognized that the Tribes' right to 
utilize the Great Lakes fishery resource was in fact reserved in the 
1836 Treaty of Washington, the allocation of fishing opportunities 
among competing user groups, and the inter-jurisdictional management 
authority was not addressed. Subsequently, the seven parties to U.S. v. 
Michigan, which included the five CORA Tribes, the State of Michigan, 
and the United States initiated negotiations in the early 1980's that 
culminated in a 15-year court-ordered settlement in 1985. In 2000, the 
parties successfully renegotiated a comprehensive agreement that will 
govern allocation and management of the Great Lakes fishery resource 
through the year 2020. This agreement was entered into Federal court as 
a Consent Decree on August 8, 2000.
    The Great Lakes Consent Decree was a complex agreement that imposed 
many new management obligations on the parties, particularly the 
Tribes. Recurring base funding levels for each Tribe were established 
prior to adoption of the 2000 Great Lakes Consent Decree; however, 
since 2001, CORA has been annually requesting a modest increase in base 
funding to help the Tribes accomplish the extensive mandates imposed by 
the Great Lakes Decree, and to offset over a decade of inflation.
                   iii. inland consent decree (2007)
    In the early 2000's, the parties to U.S. v Michigan, strongly 
desired to settle the Inland portion of the case through a joint 
agreement, rather than contentious and costly litigation, such as 
occurred during the Great Lakes phase. After some 2 years of complex 
negotiations, the parties were successful in negotiating an agreement 
that resolved the question of Inland treaty rights. This agreement was 
also entered into Federal law as a Consent Decree on November 2, 2007 
and has no expiration date. Similar to the Great Lakes Consent Decree, 
it describes the allocation, management, and enforcement processes that 
will govern the Tribes' Inland (i.e. non-Great Lakes) treaty-reserved 
hunting, gathering, and fishing rights throughout nearly 14 million 
acres in northern Michigan. As with the Great Lakes Decree the Federal 
Government is a signatory party.
    The 2007 Inland Consent Decree is a comprehensive and complex 
document that resolves the final phase of U.S. v. Michigan. In order to 
achieve an agreement of this scope and magnitude, the CORA Tribes made 
many concessions, assumptions, sub-agreements, and politically 
difficult changes in their natural resource harvesting activities and 
associated management structures, including the forfeiture of 
commercial opportunities. The Inland Consent Decree also establishes 
many new obligations and responsibilities for all parties. For the 
Tribes, these responsibilities are heavily weighted toward development 
of regulations, biological monitoring and assessment, enforcement of 
the newly enacted regulations, and numerous inter-governmental 
processes; all of which impose a substantial and permanent financial 
burden for the Tribes and of which Congress has provided initial 
dollars for the implementation of Tribal programs.
    In order to meet the obligations mandated by the Inland Consent 
Decree, while providing for long-term sustainable use of the resources 
for the next seven generations, each of the Tribes will need to 
establish a management capability in several core areas, including 
Conservation Enforcement, Biological monitoring and assessment, Tribal 
Court, and Administration. These dollars will assist with establishing 
management programs for each Tribe under the 2007 Consent Decree to 
ensure that the Tribes can meet their obligations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      Illustration 1. Extent of 1836 treaty-ceded lands and waters
                      (including the Great Lakes).

                   iv. funding request justification
    Clearly, both the Great Lakes and Inland Consent Decrees represent 
landmark accomplishments in resolving disputes related to rights 
reserved in treaties between the United States and Indian Tribes. These 
two Decrees cover the geographic majority of the State of Michigan and 
its Great Lakes waters; however, the viability and success of both the 
Great Lakes Decree and the new Inland Consent Decree hinges on the 
ability of all parties (Tribal, State, and Federal) to deliver 
effective resource management programs--and the onus is on the Tribes.
    In order to properly meet the responsibilities and mandates 
associated with both the Great Lakes and Inland Consent Decrees, CORA 
requests funding for the following activities:

    1.  Maintain and provide the current recurring base funding for 
continued operation under the Great Lakes Consent Decree.
    2.  Maintain newly enacted recurring base funding level to support 
programs necessary for implementation of the 2007 Consent Decree.

    After making such landmark, long-term commitments, it is imperative 
that the Tribes not be placed in a position where inadequate funding 
prohibits them from meeting their obligations, responsibilities, and 
opportunities under either the Inland or Great Lakes Consent Decrees. 
Adequate funding is absolutely critical to achieving the objectives and 
responsibilities described in both Consent Decrees; agreements that 
were designed to resolve complicated and culturally significant Treaty 
Rights issues. Moreover, failure to meet mandated obligations risks a 
``re-opening'' of these negotiated agreements or, at a minimum, 
modifying certain terms of either Decree in a manner that would 
adversely affect the Tribes' ability to exercise their treaty-reserved 
rights, or upset the delicate balance of allocation and management 
strategies among the parties, which of course, includes the Federal 
Government as a party. The CORA Member Tribes appreciate the initial 
dollars received which will assist with implementation of the 2007 
Inland Consent Decree.
 v. distribution of fiscal year-2018 funding request among cora tribes
    On behalf of CORA and its five member Tribes, I would like to thank 
you for your past financial support, and request your continued support 
in fiscal year 2018 in maintaining CORA's current base funding for 
Great Lakes activities, and maintaining the newly enacted recurring 
base funding for implementing CORA's responsibilities under the Inland 
Consent Decree.
         vi. evaluation and research activities--climate change
    The CORA Tribes respectfully request your support for fiscal year 
2018 RPI funding for all intertribal resource management organizations 
for the Climate Change line item and to provide to CORA its 
proportionate share of those funds. That amount is $681,355.00.

            Sincerely,

    [This statement was submitted by Jane A. TenEyck, Executive 
Director.]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma
    On behalf of the Choctaw Nation of Oklahoma, I am submitting 
written testimony for the Hearing Record on the fiscal year 2018 
budgets for the Indian Health Service (IHS) and the Bureau of Indian 
Affairs (BIA). This testimony identifies the funding priorities and 
budget issues important to the Choctaw Nation and its citizens. The 
Choctaw Nation requests that Congress exempt Tribal Government Services 
and Program Funding from Sequestrations, Unilateral Rescissions and 
Budget Cuts in all future appropriations. We also request that Congress 
fully-fund Contract Support Cost (CSC) without impacting direct program 
funding. The fiscal year 2016 Consolidated Appropriations Act included 
language establishing an indefinite appropriation for contract support 
costs in both the Bureau of Indian Affairs (BIA) and Indian Health 
Service (IHS). Under the new budget structure, the full CSC that Tribes 
are entitled to will be paid and other programs will not be reduced if 
payments are underestimated in the President's budget. Tribes agree 
that maintaining this structure achieves the Nation's legal obligation 
to fully pay CSC and those payments should not be achieved by reducing 
direct services to any Tribe. Choctaw settled our past contract support 
cost claims in both the IHS and BIA. These funds have been restored to 
our health services and have contributed greatly to our ability to 
continue to cultivate a healthcare system to address the needs of our 
Tribal citizens.
    We strongly urge the subcommittee to protect the Federal trust and 
treaty obligations that are funded in the Federal domestic budget. 
Federal funding that meets Federal Indian treaty and trust obligations 
also provides significant contributions to the economy. In just the 
Department of the Interior (DOI), the BIA and Bureau of Indian 
Education (BIE) contribute substantially to economic growth in Tribal 
areas through advances in infrastructure, strategic planning, improved 
practices of governance, and the development of human capital.

TRIBAL SPECIFIC REQUEST--IHS
``Joint Venture Construction Project Staffing--$15.5 Million''

    The Joint Venture Construction Program (JVCP) is a unique 
opportunity for the IHS to partner with Tribes and make scarce Federal 
dollars stretch much farther than in the traditional Federal 
construction programs. In 2014 the Choctaw Nation of Oklahoma was 
awarded a Joint Venture Construction Project by the IHS. The project 
consisted of the Tribe building the Regional Health Care Facility in 
Durant, Oklahoma and the commitment to staff the facility from the IHS. 
Partial funding in the amount of $15 million was included in the fiscal 
year 2017 appropriations bill for the IHS Joint Venture Construction 
Project line item. In accordance with the JVCP Agreement, the Choctaw 
Nation is requesting that the remaining IHS commitment for the facility 
of $15.5 million be included in the JVCP line item in the fiscal year 
2018 appropriation bill.

NATIONAL BUDGET REQUESTS--INDIAN HEALTH SERVICE AND BUREAU OF INDIAN 
        AFFAIRS

    A.  Special Diabetes Program for Indians--Support reauthorization 
of $200 million/year for 5 years (IHS)
    B.  Contract Support Costs--Indian Health Service and Bureau of 
Indian Affairs (IHS and BIA)
         1.  Provide full CSC funding without impacting direct Indian 
        program funding
         2.  Reclassify CSC funding as Mandatory for 2018-2021
    C.  Purchased and Referred Care (PRC) (Formerly Contract Health 
Services). Provide $474.4 million (IHS)
    D.  IHS Mandatory Funding (Maintaining Current Services)--Provide 
an Increase of $314.9 (IHS)
    E.  Provide Funding Increases to Support the Office of Tribal Self-
Governance (IHS) and the Office of Self-Governance (DOI) to fully staff 
the operations to build capacity to support the increased number of 
Tribes entering Self-Governance (IHS and BIA)
The Choctaw Nation of Oklahoma
    The Choctaw Nation of Oklahoma is the third largest Native American 
Tribal government in the United States with over 230,000 members. The 
Choctaw Nation territory consists of all or part of 10 counties in 
Southeast Oklahoma, and we are proudly one of the State's largest 
employers. The Nation operates numerous programs and services under 
Self-Governance compacts with the United States, including but not 
limited to: a sophisticated health system serving over 60,000 patients 
with Choctaw Nation Health Care Center (Hospital) in Talihina, nine (9) 
outpatient clinics, including three Joint Venture Projects in 
partnership with the Indian Health Service, the most recent of which is 
the Choctaw Regional Medical Clinic in Durant. The Nation also 
administers referred specialty care and sanitation facilities 
construction; higher education; Johnson O'Malley program; housing 
improvement; child welfare and social services; law enforcement; and, 
many other programs and services. The Joint Venture Construction 
Program (JVCP) is one of the IHS's most successful initiatives to 
increase access to healthcare throughout Indian Country. The Choctaw 
Nation has operated under the Self-Governance authority in the DOI 
since 1994 and in the Department of Health and Human Services' IHS 
since 1995. As a Self-Governance Tribe, the Nation is able to re-design 
programs to meet Tribally-specific needs without diminishing the United 
States' trust responsibility. Self-Governance is now a permanent 
reality for many Tribes.
    The Choctaw Nation has improved the health status of our people by 
operating a high quality healthcare system that is responsive and 
designed to meet the increasing complex needs of our users. We have 
leveraged scarce resources that have enabled us to succeed in the 
challenging healthcare field. We owe much to Self-Governance which 
authorized flexibility to use Federal appropriations in an efficient, 
effective way that supports the expansion and growth of the healthcare 
system we are continuing to build for our people.

A. INDIAN HEALTH SERVICE
(1) Special Diabetes Program for Indians--Support Permanent 
        Reauthorization Beginning with $200 Million

    The Special Diabetes Program for Indians (SDPI) has been a top 
priority for the Choctaw Nation since it was initially authorized in 
1997. SDPI is currently reauthorized through September 30, 2017 at a 
flat-line rate of $150 million/year (since 2004). Congressional funding 
remains the critical factor in the battle against diabetes and we 
request that as we continue to work for permanent authorization and 
mandatory program status, that you urge your colleagues to extend the 
reauthorization to 5 years and increase funding to $200 million/year. 
Permanent reauthorization will allow the program more continuity as 
well as provide us the ability to plan more long-term interventions and 
activities. Further, permanency of SDPI would be a great asset to 
promoting stability for this important health program and for reversing 
the trend of Type 2 diabetes in Indian Country. Continuing support of 
the SDPI will maintain critical momentum in diabetes research and care 
to help bring diabetes-related costs under control.
(2) Provide an Increase of $474.4 million for Purchased/Referred Care
    The Purchased/Referred Care (PRC) program pays for urgent and 
emergency, specialty care and other critical services that are not 
directly available through IHS and Tribally-operated health programs 
when no IHS direct care facility exists, or the direct care facility 
cannot provide the required emergency or specialty care, or the 
facility has more demand for services than it can currently meet. 
Although the Nation operates a hospital facility, the hospital is 
located in a very rural area and services are limited. Therefore, PRC 
is a significant need to provide intensive care and tertiary care, as 
well as emergency transportation.
(3) Mandatory funding (maintaining current services. Provide an 
        increase of $314.9 million.
    Current services calculate mandatory cost increases necessary to 
maintain those services at current levels. These ``mandatories'' are 
unavoidable and include medical and general inflation, pay costs, 
contract support costs, phasing in staff for recently constructed 
facilities, and population growth. If these mandatory requirements are 
not funded, Tribes have no choice but to cut health services, which 
further reduces the quantity and quality of healthcare services 
available to American Indian/Alaskan Native (AI/AN) people.
(4) Office of Tribal Self-Governance (OTSG). Provide an increase of $6 
        million to the IHS Office of Tribal Self-Governance
    OTSG develops and oversees the implementation of Tribal Self-
Governance legislation and authorities within the IHS under Title V of 
the Indian Self-Determination and Education Assistance Act (ISDEAA), 
Public Law 93-638, as amended. OTSG is responsible for a wide range of 
Agency functions that are critical to IHS' relationship with Tribal 
leaders, Tribal Organizations, and other American Indian and Alaska 
Native groups. In 2003, Congress reduced funding for this office by 
$4.5 million, a loss of 43 percent from the previous year. In each 
subsequent year, this budget was further reduced due to the applied 
Congressional rescissions. As of 2017, there are 361 Self-Governance 
(SG) Tribes. This represents slightly over 62 percent of all federally-
recognized Tribes. The Self-Governance process serves as a model 
program for Federal Government outsourcing, which builds Tribal 
infrastructure and provides quality services to Indian people.

(B) BUREAU OF INDIAN AFFAIRS
(1) Education. Support the following funding amounts:

  --Provide $2.6 billion for system-wide Bureau of Indian Education 
        (BIE) school construction and repair.
  --Provide $45 million for Johnson O'Malley
  --Provide $73 million for Student Transportation in the BIE system
  --Provide $78 million for Tribal Grant Support Costs for Tribally-
        controlled schools.
  --Provide $109 million for BIE facilities operations.
  --Provide $76 million for BIE facilities maintenance.
  --Provide $431 million for the Indian School Equalization Formula.
  --Provide $41 million for Education IT.
  --Provide $5 million for BIE immersion programs.
  --Reinstate $620,000 for juvenile detention education in BIA-funded 
        facilities.
(2) Fully Fund Fixed Costs and Tribal Pay Costs
    Partially funding or failing to fund Pay Costs for Tribes has 
devastated Tribal communities by causing critical job losses. Over 900 
Tribal jobs have been lost and an estimated 300 more jobs will be 
permanently lost on an annual basis if 100%Pay Costs are not provided. 
The Tribal losses are being further exacerbated by recent projections 
of costs that have been significantly underestimated. We urge full 
funding of fixed costs and Tribal pay costs.
(3) Increase Tribal Base Funding (instead of through grants)
    Grant funding, particularly inside the BIA, is not consistent with 
the intent of Tribal self-determination. Tribal leaders have grown 
increasingly frustrated by the increase in Indian Affairs funding offer 
through grants, which are inconsistently funded and unreliable upon 
which to build successful programs and interventions. Allocating new 
funds via grants marginalizes and impedes the Tribal Self-Determination 
and Self-Governance. We recommend providing increases to Tribal base 
funding instead of through grants to Tribal government.
(4) Office of Self-Governance (OSG)
    Provide funding to fully staff and allow OSG to operate as intended 
to oversee the implementation of Self-Governance legislation and 
authorities within DOI--Indian Affairs (IA) under Title IV of the 
ISDEAA, Public Law 93-638, as amended. Currently, of the 567 Federal-
recognized Tribes, 277 are participating in Self-Governance in DOI with 
a total $450 million in distributions. OSG's operating and staffing 
budget is $1.5 million but their current salaries are $1.9 million, so 
they are operating at a deficit. The BIA committed to supporting these 
positions and all that is required is an internal transfer. It needs to 
be recurring money to support current staff salary and required 
functions to implement the statute.
    The Choctaw Nation supports the National Congress of American 
Indian (NCAI), the National Indian Health Board (NIHB), and the 
National Indian Education Association (NIEA) fiscal year 2018 Tribal 
Budget Recommendations. These recommendations have been compiled in 
collaboration with Tribal leaders, Native organizations, and Tribal 
budget consultation bodies.
    Thank you for accepting our written testimony for the hearing 
record.

    [This statement was submitted by Mickey Peercy, Executive 
Director.]
                                 ______
                                 
         Prepared Statement of the Choose Clean Water Coalition
                                                    March 23, 2017.
Hon. Lisa Murkowski, Chair,
Subcommittee on Interior, Environment and Related Agencies,
U.S. Senate,
Washington, DC.

Hon. Tom Udall, Ranking Minority Member,
Subcommittee on Interior, Environment and Related Agencies,
U.S. Senate,
Washington, DC.

Dear Chair Murkowski and Ranking Member Udall:

    The undersigned members of the Choose Clean Water Coalition request 
continued support for programs that are essential to maintaining and 
restoring clean water to the rivers and streams throughout the 
Chesapeake Bay region and to the Bay itself. Two-thirds of the 18 
million people in this region get the water they drink directly from 
the rivers and streams that flow through the cities, towns and farms 
throughout our six State, 64,000 square mile watershed. Protecting and 
restoring clean water is essential for human health and for a robust 
regional economy.
    The efforts to clean the Chesapeake began under President Reagan in 
1983. In his 1984 State of the Union speech, President Reagan said, 
``Preservation of our environment is not a liberal or conservative 
challenge, it's common sense.''
    To follow a common sense path to maintain healthy local water and 
restore Chesapeake Bay, which is critical for our regional economy, we 
request funding for the following programs in fiscal year 2018:
                  u.s. environmental protection agency
Chesapeake Bay Program--$73.0 million
    We support level funding of $73.0 million for the base budget of 
the Chesapeake Bay Program, which coordinates Chesapeake Bay watershed 
restoration and protection efforts. The majority of the program's funds 
are passed through to the States and local communities for on-the-
ground restoration work through programs such as the Small Watershed 
Grants, Innovative Nutrient and Sediment Reduction Grants, State 
Implementation Grants, and the Chesapeake Bay Regulatory and 
Accountability Program grants.
    We strongly support the highly successful and popular Chesapeake 
Small Watershed Grants and the Innovative Nutrient and Sediment 
Reduction Grants--$6 million each--that Congress appropriated in fiscal 
year 2016. These are two well-run, competitive grant programs that have 
contributed significantly to water quality improvements throughout the 
Chesapeake Bay watershed. These are the Bay Program's only grants that 
go directly to on-the-ground restoration efforts by local governments 
and communities. Without specific Congressional direction, EPA has, in 
the past, reallocated this grant money for purposes other than local 
restoration. This is not the time to stop local implementation of 
restoration work. We strongly support the language in the fiscal year 
2016 Consolidated Appropriations Act, where Congress protected these 
critical local grant programs: ``The Committee recommends $73,000,000 
for the Chesapeake Bay program. From within the amount provided, 
$6,000,000 is for nutrient and sediment removal grants and $6,000,000 
is for small watershed grants to control polluted runoff from urban, 
suburban and agricultural lands.'' We urge you to retain the same 
language in the fiscal year 2018 Interior and Related Agencies 
Appropriations Bill, for both the overall Chesapeake Bay Program and 
for the local grant programs.
Clean Water State Revolving Fund (SRF) --$4.047 billion
    This program is critical to any national initiative to provide a 
Federal Infrastructure Spending Plan and it provides the lifeblood for 
the 1,779 local governments throughout the Chesapeake region to secure 
their water infrastructure. The funding level for this Clean Water SRF 
has eroded over the years as the clean water needs of local communities 
have increased dramatically. The Choose Clean Water Coalition supports 
efforts in both the House and the Senate, and within the 
administration, to triple the current funding for the Clean Water SRF--
and this is what we are requesting. This will help to close the gap 
between Federal infrastructure investment in clean water and the known 
need. This will also dramatically improve water quality and protect 
human health in our region and across the Nation.
    These low interest loans are critical for clean water and for 
ratepayers in the Chesapeake region and nationwide. We urge you to 
support the $4.047 billion funding level that would provide $891 
million in low interest loans to local governments in Delaware, 
Maryland, New York, Pennsylvania, Virginia, West Virginia and the 
District of Columbia--triple the current level of funding. We also 
strongly support targeting 20 percent of the Clean Water SRF funds for 
green infrastructure and innovative projects including those to manage 
stormwater, which helps communities improve water quality while 
creating green space, mitigating flooding, and enhancing air quality.
    The Clean Water SRF allocates money to the States based on a set 
formula, which is then used for low interest loans to local governments 
for critical capital construction improvement projects to reduce 
nutrient and sediment pollution from wastewater treatment and 
stormwater facilities; nonpoint sources of pollution, such as farms and 
development; and other sources. In addition to the use of these funds 
on farms and for nonpoint source pollution, it provides assistance for 
other pollution reduction and prevention activities in rural areas, 
such as reforestation and forest protection and stream stabilization 
and restoration. The Clean Water SRF enables local governments in the 
Chesapeake watershed to take actions to keep their rivers and streams 
clean. As the list of clean water infrastructure needs in the 
Chesapeake region continues to expand, we request that Congress triple 
the funding of the Clean Water SRF from last year's fiscal year 2016 
levels.
                       department of the interior
U.S. Geological Survey (USGS)--Chesapeake Bay Studies--$11.991 million
    We support level funding from fiscal year 2016 of $11.991 million 
for the USGS to provide the critical science necessary for restoration 
and protection efforts for fish, wildlife and the 18 million people in 
the Chesapeake Bay watershed. USGS focuses on monitoring and assessing 
fisheries, waterfowl and the quality of their habitats, which provide 
economic benefits to the States involved in the Chesapeake restoration 
effort and represent the priorities of the Department of the Interior.
    USGS activities are critical for the restoration of several 
freshwater fish species, including brook trout, an important 
recreational fishery. A related activity is identifying chemicals, and 
their sources, which lead to fish consumption advisories for humans. 
USGS also provides the expertise to restore and conserve coastal 
wetlands, critical habitat and food for the more than one million 
waterfowl that winter in the Chesapeake region. USGS helps to 
coordinate the collection and assessment of monitoring data collected 
by the States and USGS. These assessments will help the States focus on 
areas and types of practices, for more effective approaches toward 
water quality improvements.
    The USGS is leading an effort to map areas where restoration and 
conservation efforts will contribute to multiple Chesapeake goals--
benefiting people in the watershed as well as fish and wildlife. This 
mapping will help State and Federal partners more effectively focus 
actions and utilize available resources.
National Park Service--Chesapeake Regional Programs--$3.0261 million
    The National Park Service Chesapeake Bay Office runs a number of 
small, but very important programs that focus on increasing public 
access and the use of ecological, cultural and historic resources of 
the Chesapeake region. Expanding access and public awareness fosters 
stewardship and protection efforts.
    We are requesting level funding for these key programs administered 
by the National Park Service in the Chesapeake Bay watershed: Captain 
John Smith Chesapeake National Historic Trail ($385,000); Star Spangled 
Banner National Historic Trail ($150,600); support for coordinating 
these programs through the National Park Service Chesapeake Bay Office 
($476,500); and the Chesapeake Bay Gateways and Trails ($2.014 
million). In addition, as in the Consolidated Appropriations Act of 
2016, we urge you to extend the authorization for the Chesapeake Bay 
Gateways and Trails program for 2 more years.
       department of the interior/u.s. department of agriculture
National Park Service/U.S. Fish and Wildlife Service/Bureau of Land 
        Management/U.S. Forest Service--Rivers of the Chesapeake 
        Collaborative Landscape Planning Projects--Land and Water 
        Conservation Fund--$30.519 million
    We support continuation of the strategic use of funds from the Land 
and Water Conservation Fund for the Rivers of the Chesapeake 
Collaborative Landscape Planning initiative. This effort targets 
conservation funds for priority landscapes throughout the country; the 
Rivers of the Chesapeake is one such priority area. The collaborative 
proposal focuses on the great rivers of the Chesapeake and would 
protect 8,000 acres in the Potomac, Rappahannock, James, Nanticoke and 
Susquehanna watersheds in Delaware, Maryland, Pennsylvania and 
Virginia. The areas in the Chesapeake include nationally significant 
resources, such as migratory bird habitat, spawning areas for 
economically important fish and shellfish, significant forest resources 
and projects to enhance public access.
    Thank you for your consideration of these very important requests 
to maintain funding for these programs which are critical to clean 
water throughout the mid-Atlantic region.

            Sincerely,

1000 Friends of Maryland
Alice Ferguson Foundation
Alliance for Sustainable Communities
Alliance for the Chesapeake Bay
American Rivers
Anacostia Watershed Society
Audubon Naturalist Society
Back Creek Conservancy
Blue Water Baltimore
Cacapon Institute
Capital Region Land Conservancy
Catskill Mountainkeeper
Cecil Land Use Association
Center for Progressive Reform
Chapman Forest Foundation
Chesapeake Legal Alliance
Chesapeake Wildlife Heritage
Chester River Association
Clean Water Action
Coalition for Smarter Growth
Conservation Montgomery
Conservation Voters of Pennsylvania
Delaware Nature Society
Ducks Unlimited
Earth Force
Earth Forum of Howard County
E. Penn. Coalition for Abandoned Mine Rec.
Eastern Shore Land Conservancy
EcoLatinos
Elizabeth River Project
Elk Creeks Watershed Association
Environment America
Environment Maryland
Environment New York
Environment Virginia
Environmental Working Group
Envision Frederick County
Friends of Accotink Creek
Friends of Dyke Marsh
Friends of Lower Beaverdam Creek
Friends of Quincy Run
Friends of Sligo Creek
Friends of the Middle River
Friends of the Nanticoke River
Friends of the N. Fork of the Shenandoah River
Friends of the Rappahannock
Goose Creek Association
Interfaith Partners for the Chesapeake
Izaak Walton League of America
James River Association
Lackawanna River Conservation Association
Lancaster Farmland Trust
Little Falls Watershed Alliance
Lower Susquehanna Riverkeeper
Lynnhaven River NOW
Maryland Conservation Council
Maryland League of Conservation Voters
Mattawoman Watershed Society
Mehoopany Creek Watershed Association
Mid-Atlantic Council Trout Unlimited
Middle Susquehanna Riverkeeper
Montgomery Countryside Alliance
National Aquarium
National Parks Conservation Association
National Wildlife Federation
Nature Abounds
New York League of Conservation Voters
New York State Council of Trout Unlimited
Natural Resources Defense Council
Neighbors of the Northwest Branch
Otsego County Conservation Association
Otsego Land Trust
PennEnvironment
PennFuture
Pennsylvania Council of Churches
Piedmont Environmental Council
Potomac Conservancy
Potomac Riverkeeper
Potomac Riverkeeper Network
Queen Anne's Conservation Association
Rivanna Conservation Alliance
Rock Creek Conservancy
St. Mary's River Watershed Association
Sassafras River Association
Savage River Watershed Association
Severn River Association
Shenandoah Riverkeeper
Shenandoah Valley Network
Sidney Center Improvement Group
Sleepy Creek Watershed Association
South River Federation
Southern Environmental Law Center
SouthWings
Sparks-Glencoe Community Planning Council
Susquehanna Heritage
Trout Unlimited
Upper Potomac Riverkeeper
Upper Susquehanna Coalition
Virginia Conservation Network
Virginia League of Conservation Voters
Waterkeepers Chesapeake
West/Rhode Riverkeeper
West Virginia Citizen Action Group
West Virginia Environmental Council
West Virginia Rivers Coalition
Wetlands Watch
Wicomico Environmental Trust
                      
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission
    The Chugach Regional Resources Commission (``CRRC''), located in 
Alaska, is pleased to submit written testimony reflecting our needs, 
concerns and requests regarding the proposed fiscal year 2018 Budget 
for the Bureau of Indian Affairs (BIA). We are aware of the ongoing 
concern over the Federal deficit and Federal spending. Nevertheless, 
while the Federal Government is trimming its spending, it must still 
fulfill its legal and contractual obligations to Indian Tribes. The BIA 
not only has a legal and contractual obligation to provide funding for 
the CRRC, but the CRRC is able to translate this funding into real 
economic opportunity for those living in the small Alaska Native 
villages located in Prince William Sound and Lower Cook Inlet. CRRC is 
a non-profit coalition of Alaska Native Villages, organized in 1987 by 
the seven Native Villages located in Prince William Sound and Lower 
Cook Inlet in South-central Alaska: Tatitlek Village IRA Council, 
Chenega IRA Council, Port Graham Village Council, Nanwalek IRA Council, 
Native Village of Eyak, Qutekcak Native Tribe, and Valdez Native Tribe.
    CRRC was created to address environmental and natural resources 
issues and to develop culturally-sensitive economic projects at the 
community level to support the sustainable development of the region's 
natural resources. The Native Villages' action to create a separate 
entity demonstrates the level of concern and importance they hold for 
environmental and natural resource management and protection--the 
creation of CRRC ensured that natural resource and environmental issues 
received sufficient attention and focused funding.
    Through its many important programs, CRRC provides employment for 
up to 35 Native people in the Chugach Region annually--an area that 
faces high levels of unemployment--through programs that conserve and 
restore our natural resources. The administration's proposal to cut 
more than $300 million in appropriations for BIA puts all our work at 
risk.
    An investment in CRRC has translated into real economic 
opportunities, savings and community investments that have a great 
impact on the Chugach region. Our employees are able to earn a living 
and support their families, thereby removing them from the rolls of 
people needing State and Federal support. In turn, they are able to 
reinvest in the community, supporting the employment of and 
opportunities for other families. Our programs also support future 
economic and commercial opportunities for the region--protecting and 
developing our shellfish and other natural resources.
    Programs. CRRC has leveraged its BIA funding into almost $2 million 
annually to support its several community-based programs. Specifically, 
the $410,000 in base funding provided through BIA appropriation has 
allowed CRRC to maintain core administrative operations, and seek 
specific projects funding from other sources such as the Administration 
for Native Americans, the State of Alaska, Bureau of Indian Affairs, 
U.S. Forest Service, U.S. Fish & Wildlife Service, the U.S. Department 
of Education, the Exxon Valdez Oil Spill Trustee Council, the North 
Pacific Research Board and various foundations. This diverse funding 
pool has enabled CRRC to develop and operate several important programs 
that provide vital services, valuable products, and necessary 
employment and commercial opportunities. These programs include:
    Alutiiq Pride Shellfish Hatchery. The Alutiiq Pride Shellfish 
Hatchery is the only shellfish hatchery in the State of Alaska. The 
20,000 square foot shellfish hatchery is located in Seward, Alaska, and 
houses shellfish seed, brood stock and algae production facilities. 
Alutiiq Pride is undertaking a hatchery nursery operation, as well as 
grow-out operation research to adapt mariculture techniques for the 
Alaskan Shellfish industry.
    The Hatchery is also conducting scientific research on blue and red 
king crab as part of a larger federally-sponsored program. Alutiiq 
Pride has already been successful in culturing geoduck, oyster, 
littleneck clam, and razor clam species and is currently working on sea 
cucumbers. This research has the potential to dramatically increase 
commercial opportunities for the region in the future. The activities 
of Alutiiq Pride are especially important for this region considering 
it is the only shellfish hatchery in the State, and therefore the only 
organization in Alaska that can carry out this research and production.
    Natural resource curriculum development. Partnering with the 
University of Alaska, Fairbanks, and the National Oceanic and 
Atmospheric Administration, CRRC has developed and implemented a model 
curriculum in natural resource management for Alaska Native students. 
This curriculum integrates traditional knowledge with Western science. 
The goal of the program is to encourage more Native students to pursue 
careers in the sciences. In addition, we are working with the Native 
American Fish & Wildlife Society and Tribes across the country 
(including Alaska) to develop a university level textbook to accompany 
these courses.
    In addition, we have completed a K-12 Science Curriculum for Alaska 
students that integrates Indigenous knowledge with western science. 
This curriculum is being piloted in various villages in Alaska and a 
thorough evaluation process will ensure its success and mobility to 
other schools in Alaska.
    Alaska Migratory Bird Co-Management Council. CRRC is a member of 
the Council responsible for setting regulations governing the spring 
harvest of migratory birds for Alaska Natives, as well as conducting 
harvest surveys and various research projects on migratory birds of 
conservation concern. Our participation in this State-wide body ensures 
the legal harvest of migratory birds by Indigenous subsistence hunters 
in the Chugach Region.
    Statewide Subsistence Halibut Working Group. CRRC participates in 
this working group, ensuring the halibut resources are secured for 
subsistence purposes, and to conduct harvest surveys in the Chugach 
Region.
                               conclusion
    At a minimum, we urge Congress to sustain the current level of 
funding of $410,000 in the BIA's budget for recurring CRRC funding 
needs. Despite the Administration's request, if Congress were to 
include an increase in our funding it will permit us to leverage 
additional dollars to do more for the Alaska Native villages located in 
Prince William Sound and Lower Cook Inlet. With a nearly five-to-one 
return on every Federal dollar invested in CRRC, we believe this to be 
a terrific return for the Federal Government and our communities.
                                 ______
                                 
   Prepared Statement of Colorado River Basin Salinity Control Forum
    Waters from the Colorado River are used by nearly 40 million people 
for municipal and industrial purposes and used to irrigate 
approximately 5.5 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the current quantifiable damages at about $382 million per 
year. Congress authorized the Colorado River Basin Salinity Control 
Program (Program) in 1974 to offset increased damages caused by 
continued development and use of the waters of the Colorado River. 
Modeling by Reclamation indicates that the quantifiable damages would 
rise to approximately $614 million by the year 2035 without 
continuation of the Program. Congress has directed the Secretary of the 
Interior to implement a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by the 
Bureau of Land Management (BLM). BLM funds these efforts through its 
Soil, Water and Air Program. BLM's efforts are an essential part of the 
overall effort. A funding level of $1.5 million for salinity specific 
projects in 2018 is requested to prevent further degradation of the 
quality of the Colorado River and increased downstream economic 
damages.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. In implementing the Colorado River Basin Salinity 
Control Act in 1974, Congress recognized that most of the salts in the 
Colorado River originate from federally owned lands. Title I of the 
Salinity Control Act deals with the U.S. commitment to the quality of 
waters being delivered to Mexico. Title II of the Act deals with 
improving the quality of the water delivered to users in the United 
States. This testimony deals specifically with Title II efforts. In 
1984, Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
increase BLM efforts in the Colorado River Basin and to pursue salinity 
control studies and to implement specific salinity control practices. 
BLM is now working on creating a comprehensive Colorado River Basin 
salinity control program as directed by Congress. Meaningful resources 
have been expended by BLM in the past few years to better understand 
salt mobilization on rangelands. With a significant portion of the salt 
load of the Colorado River coming from BLM administered lands, the BLM 
portion of the overall program is essential to the success of the 
effort. Inadequate BLM salinity control efforts will result in 
significant additional economic damages to water users downstream.
    Concentration of salt in the Colorado River causes approximately 
$382 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The level of appropriation requested in this testimony is in 
keeping with the adopted Plan of Implementation. If adequate funds are 
not appropriated, significant damages from the higher salinity 
concentrations in the water will be more widespread in the United 
States and Mexico.
    In summary, implementation of salinity control practices through 
BLM is a cost effective method of controlling the salinity of the 
Colorado River and is an essential component to the overall Colorado 
River Basin Salinity Control Program. Continuation of adequate funding 
levels for salinity within the Soil, Water and Air Program will assist 
in preventing the water quality of the Colorado River from further 
degradation and significant increases in economic damages to municipal, 
industrial and irrigation users. A modest investment in source control 
pays huge dividends in improved drinking water quality to nearly 40 
million Americans.

    [This statement was submitted by Don A. Barnett, Executive 
Director.]
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    This testimony is in support of fiscal year 2018 funding for the 
Department of the Interior's Bureau of Land Management (BLM) associated 
activities that assist the implementation of Title II of the Colorado 
River Basin Salinity Control Act of 1974 (Public Law 93-320). This 
long-standing successful and cost-effective salinity control program in 
the Colorado River Basin is being carried out pursuant to the Colorado 
River Basin Salinity Control Act and the Clean Water Act (Public Law 
92-500). Congress has directed the Secretary of the Interior to 
implement a comprehensive program for minimizing salt contributions to 
the Colorado River from lands administered by the Bureau of Land 
Management (BLM). BLM funds these efforts through its Soil, Water and 
Air Program. BLM's efforts are an essential part of the overall effort. 
A funding level of $1.5 million for salinity specific projects in 2018 
is requested to prevent further degradation of the quality of Colorado 
River water supplies and increased economic damages.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California participates along with the other six 
Colorado River Basin States through the Colorado River Basin Salinity 
Control Forum (Forum), the interstate organization responsible for 
coordinating the Basin States' salinity control efforts. In close 
cooperation with the U. S. Environmental Protection Agency (EPA) and 
pursuant to requirements of the Clean Water Act, the Forum is charged 
with reviewing the Colorado River water quality standards every 3 
years. Every 3 years the Forum adopts a Plan of Implementation 
consistent with these water quality standards. The level of 
appropriation being supported in this testimony is consistent with the 
Forum's 2014 Plan of Implementation. The Forum's 2014 Plan of 
Implementation can be found on this website: http://
coloradoriversalinity.org/docs/2014%20Final%20REVIEW%20-
%20complete.pdf. If adequate funds are not appropriated, significant 
damages associated with increasing salinity concentrations of Colorado 
River water will become more widespread in the United States and 
Mexican portions of the Colorado River Basin.
    The EPA has determined that more than sixty-percent of the salt 
load of the Colorado River comes from natural sources. The majority of 
land within the Colorado River Basin is federally owned, much of which 
is administered by BLM. Through passage of the Colorado River Basin 
Salinity Control Act in 1974, Congress recognized that much of the 
salts in the Colorado River originate on federally-owned lands. Title I 
of the Salinity Control Act deals with the U.S. commitment to efforts 
related to maintaining the quality of waters being delivered to Mexico 
pursuant to the 1944 Water Treaty. Title II of the Act deals with 
improving the quality of the water delivered to U.S. users. In 1984, 
Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
coordinate BLM efforts in the Colorado River Basin States to pursue 
salinity control studies and to implement specific salinity control 
practices. BLM is now working on creating a comprehensive Colorado 
River Basin salinity control program as directed by Congress. With a 
significant portion of the salt load of the Colorado River coming from 
BLM-administered lands, the BLM portion of the overall program is 
essential to the success of the entire effort. Inadequate BLM salinity 
control efforts will result in significant additional economic damages 
to water users downstream.
    Over the 33 years since the passage of the Colorado River Basin 
Salinity Control Act, much has been learned about the impact of salts 
in the Colorado River system. Currently, the salinity concentration of 
Colorado River water causes about $382 million in quantifiable economic 
damages in the United States annually. Economic and hydrologic modeling 
by Reclamation indicates that these economic damages could rise to more 
than $614 million by the year 2035 without continued implementation of 
the Program. For example, damages can be incurred related to the 
following activities:
  --A reduction in the yield of salt-sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --Increases in the amount of imported water;
  --Increased cost associated with desalination and brine disposal for 
        recycled water in the municipal sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, and other household appliances, and 
        increased use of bottled water and water softeners in the 
        municipal and industrial sectors;
  --Increased costs of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --Increases in the use of water and cost of water treatment, and an 
        increase in sewer fees in the industrial sector;
  --Decreased life of treatment facilities and pipelines in the utility 
        sector;
  --Increasing difficulty in meeting wastewater discharge requirements 
        to comply with National Pollutant Discharge Elimination System 
        permit terms and conditions; and
  --Increased desalination and brine disposal costs due to accumulation 
        of salts in groundwater basins.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the nearly 20 million residents of southern 
California, including municipal, industrial, and agricultural water 
users in Imperial, Los Angeles, Orange, Riverside, San Bernardino, San 
Diego, and Ventura Counties. The protection and improvement of Colorado 
River water quality through the continued implementation of this very 
effective salinity control program will avoid, or reduce, additional 
economic damages to water users in California and the other States that 
rely on Colorado River water resources.

    [This statement was submitted by Christopher Harris, Executive 
Director.]
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    Mr. Chairman and members of the subcommittee, the Columbia River 
Inter-Tribal Fish Commission (CRITFC) is pleased to share its view on 
the Department of Interior, Bureau of Indian Affairs' (BIA) fiscal year 
2018 budget. We have specifically identified the following funding 
needs and one request for review:
    1.  $10.2 million for Columbia River Fisheries Management under 
Rights Protection Implementation, ($5.6 million above fiscal year 
2017), to meet the base program funding needs of the Commission and the 
fisheries programs of our member Tribes;
    2.  $4.8 million for U.S./Canada Pacific Salmon Treaty under Rights 
Protection Implementation, ($520,000 above fiscal year 2017) to 
implement obligations under the recent agreements adopted by the U.S. 
and Canada;
    3.  $8.0 million for Tribal Climate Resilience under Rights 
Protection Implementation to assist Tribes in climate change adaptation 
and planning ($2.6 million above fiscal year 2017);
    4.  $352.5 million for Public Safety and Justice, of which $943,000 
supports enforcement of Federal laws at In-Lieu and Treaty Fishing 
Access Sites on the Columbia River; and
    5.  $900k for Facilities Management, Operations and Maintenance to 
support annual Operations and Maintenance funding for the 31 In-lieu 
and Treaty Fishing Access sites.

    History and Background: CRITFC was founded in 1977 by the four 
Columbia River treaty Tribes: Confederated Tribes of the Umatilla 
Indian Reservation, Confederated Tribes of the Warm Springs Reservation 
of Oregon, Confederated Tribes and Bands of the Yakama Nation, and the 
Nez Perce Tribe. CRITFC provides coordination and technical assistance 
to these Tribes in regional, national and international efforts to 
protect and restore our shared salmon resource and the habitat upon 
which it depends. Our collective ancestral homeland covers nearly one-
third of the entire Columbia River Basin in the United States, an area 
the size of the State of Georgia.
    In 1855, the U.S. entered into treaties with the four Tribes \1\ 
whereupon we ceded millions of acres of our homelands. In return, the 
U.S. pledged to honor our ancestral rights, including the right to fish 
in all Usual and Accustomed locations. Unfortunately, a perilous 
history brought the salmon resource to the edge of extinction with 12 
salmon and steelhead populations in the Columbia Basin listed under the 
Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Nation, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    The CRITFC Tribes have arrived as globally-recognized leaders in 
fisheries restoration and management. We are principals in the region's 
efforts to halt the decline of salmon, lamprey and sturgeon populations 
and rebuild them to levels that support ceremonial, subsistence and 
commercial harvests. To achieve these objectives, our actions emphasize 
`gravel-to-gravel' management including supplementation of natural 
stocks, healthy watersheds and collaboration with State, Federal and 
private entities.
    The programs in this testimony are carried out pursuant to the 
Indian Self-Determination and Assistance Act. Our programs are 
integrated with State and Federal salmon management and restoration 
efforts.
    Columbia River Fisheries Management within Rights Protection 
Implementation: The salmon, returning in the greatest numbers since 
Federal dam construction, tell us we're succeeding. But along with 
success, management increases in complexity, requiring greater data 
collection and enforcement. Funding shortfalls prohibit the achievement 
of Tribal self-determination goals for fisheries management, ESA 
recovery effort, protecting non-listed species, conservation 
enforcement and treaty fishing access site maintenance. We request an 
increase of $5.5 million over fiscal year 2017 for a new program base 
of $10.2 million for Columbia River Fisheries Management.
    The BIA's Columbia River Fisheries Management line item is the base 
funding that supports the fishery program efforts of CRITFC and the 
four member Tribes. Unlike State fish and game agencies, the Tribes do 
not have access to Dingell-Johnson/Pittman-Robertson or Wallop-Breaux 
funding. The increase will be directed to support the core functions of 
the fisheries management programs of the Commission's member Tribes, 
namely enforcement, harvest monitoring and renegotiation support for 
four primary agreements including Columbia River Treaty modernization.
    In 2008, CRITFC and its member Tribes struck three landmark 
agreements: (1) the Columbia Basin Fish Accords with Federal action 
agencies overseeing the Federal hydro system in the Columbia Basin,\2\ 
(2) a 10-Year Fisheries Management Plan with Federal, Tribal and State 
parties under U.S. v OR, and (3) a new Chinook Chapter of the Pacific 
Salmon Treaty.\3\ These agreements establish regional and international 
commitments on harvest and fish production efforts, commitments to 
critical investments in habitat restoration, and resolving contentious 
issues by seeking balance of the many demands within the Columbia River 
basin. While through these agreements the Tribes have committed to 
substantial on-the-ground projects with some additional resources from 
the Bonneville Power Administration, the overall management 
responsibilities of the Tribal programs have grown exponentially 
without commensurate increases in BIA base funding capacity. For 
example, the Tribes' leadership in addressing Pacific Lamprey declines 
is this species' best hope for survival and recovery. The Tribes' are 
also addressing unmet mitigation obligations, such as fish losses 
associated with the John Day and The Dalles dams.
---------------------------------------------------------------------------
    \2\ The Nez Perce Tribe is not a Columbia Basin Fish Accord 
signatory.
    \3\ See Salmon Win A Triple Crown'' at http://www.critfc.org/text/
wana_109.pdf.
---------------------------------------------------------------------------
    The funding provided through the BIA to support Tribal co-
management is crucial to the Tribes and CRITFC's ability to 
successfully carry out Tribal rights protection, including these 
agreements. These funds support delivery of sound technical, scientific 
and policy products to diverse legal, public and private forums. Rights 
Protection Implementation funding takes on even greater importance as 
funding for State co-management agencies has become inconsistent or 
decreased. Below are priority need areas for CRITFC and our member 
Tribes.
    Workforce Development: CRITFC's Workforce Development Program helps 
prepare Tribal members of all ages for jobs and careers in Natural 
Resources Management by providing hands-on, culturally relevant 
experiences in the Science, Technology, Engineering and Math (STEM) 
subjects. Since 2010, CRITFC has held a five-day long Salmon Camp for 
20 middle school students in collaboration with its member Tribes. 
Beginning in 2014, CRITFC has offered paid internship and research 
experiences for college students interested in fisheries and natural 
resources. Through mentorship, internship and externship opportunities, 
CRITFC aims to establish and sustain a Tribal workforce pool of 
respected and skilled Native American scientists, policy analysts, 
technicians and managers that serve the Tribes' fisheries and natural 
resource management program needs.
    Columbia River Treaty Modernization: The CRITFC's member Tribes are 
part of a coalition of fifteen (15) Columbia Basin Tribes whose rights, 
as well as management authorities and responsibilities, are 
substantially affected by the implementation of the Columbia River 
Treaty. While the Columbia River Treaty is evergreen and continues to 
provide benefits to both the U.S. Canada through coordinated flood risk 
management and hydropower production, the provisions regarding 
coordinated flood risk management change substantially after 2024 
unless the Treaty is amended. The need for this necessary amendment 
also creates an opportunity to modernize the Columbia River Treaty to 
integrate ecosystem-based function as a third purpose of this 
beneficial partnership. By integrating ecosystem-based function into 
this bilateral Treaty we will have an opportunity to address shared 
natural resource issues in a pro-active, comprehensive approach rather 
than reacting in a piece meal approach to individual salmon listings 
under the Endangered Species Act. Rights Protection Funds can allow the 
Columbia Basin Tribes to continue collaborating with the States, 
Federal agencies and regional stakeholders to conduct technical 
analyses in support of the negotiations with Canada being prepared by 
the State Department.
    U.S./Canada Pacific Salmon Treaty under Rights Protection 
Implementation: The U.S. and Canada entered into the Pacific Salmon 
Treaty in 1985 to conserve and rebuild salmon stocks, provide for 
optimum production, and control salmon interceptions. The treaty 
established the Pacific Salmon Commission (PSC) as a forum to 
collaborate on intermingled salmon stocks. The U.S. Section of the PSC 
annually develops a coordinated budget for Tribal, State and Federal 
programs to ensure cost and program efficiencies. In 2008, the U.S. and 
Canada adopted a new long term Treaty agreement after nearly 3 years of 
negotiations. Both parties agreed to significant new management 
research and monitoring activities to ensure the conservation and 
rebuilding of the shared salmon resource. The 2008 agreement expires at 
the end of 2018. The Parties are in the process of negotiating a 
revised agreement, which will identify implementation funding.
    For Tribal participants in the Pacific Salmon Treaty, the U.S. 
Section has identified a program need of $4.8 million for the twenty-
five participating Tribes. These funds provide for direct Tribal 
participation with the Commission, panels and technical committees. 
This funding maintains Tribal resource assessment and research programs 
structured to fulfill required Treaty implementation activities, which 
protect trust resources. Our fiscal year 2018 recommended level for 
this program is an increase of $520,000 above the fiscal year 2017 
continuing resolution level and correlates to the U.S. Section's 
recommendation.
    Tribal Climate Resilience under Rights Protection Implementation: 
The Columbia River Treaty Tribes are feeling the effects of Climate 
Change. Shifts are occurring in salmon run timing, and berry and root 
ripening cycles. In 2015, climate-related stress in the form of 
historic forest fires and the loss of up to 400,000 sockeye salmon due 
to elevated water temperatures illustrate our climate crisis.
    Public Safety and Justice, Criminal Investigations and Police 
Services: Public safety continues to be a high priority for CRITFC and 
our Tribes. Our conservation and criminal enforcement officers are the 
cornerstone of public safety in the popular and heavily used Columbia 
Gorge area patrolling 150 miles of the Columbia River, including its 
shorelines in Oregon and Washington. In this area we are the primary 
provider of enforcement services at 31 fishing access sites developed 
pursuant to Public Law 87-14 and Public Law 100-581 for use by treaty 
fishers. CRITFC's officers possess BIA Special Law Enforcement 
Commissions to enhance protection and service to Tribal members and 
Federal trust properties along the Columbia River. We are pleased that 
the BIA has created OJS District 8 and housed it in Portland. CRITFC 
entered into a Public Law 93-638 contract with BIA in February 2011 for 
enforcement services along the Columbia River. That contract currently 
provides funding for two enforcement positions.
    Our immediate priority is to add two Patrol officers, one Sergeant, 
one Investigator and one Dispatcher. Full funding for this Enforcement 
need is $943,000 which would support a total of four officers, one 
sergeant, an investigator and a dispatcher.
    Facilities Management, Operations and Maintenance: Long term 
reliability of Operations and Maintenance funding for the 31 In-lieu 
and Treaty Fishing Access sites is in jeopardy. Under the current 
annual O&M service rate and under current financial market conditions 
the existing O&M funds will exhaust in 2022, a full twenty-three years 
short of the projected life of the originally structured O&M account. 
There are some immediate actions the Administration can and should take 
to provide stability for the sites. First, the 26 Treaty Fishing Access 
Sites should be added to the Federal property management inventory 
system and in doing will require additional annual operations and 
maintenance funding currently provided under contract by the Columbia 
River Inter-Tribal fish Commission. Second, the Administration should 
allocate $900,000 annually for O&M. These additional funds will ensure 
sufficient O&M at the newly added sites.
    A Request for Review of Salmon Mass-Marking Programs: CRITFC 
aspires to a unified hatchery strategy among Tribal, Federal and State 
co-managers. To that end, we structure hatchery programs using the best 
available science, regional expertise. A Congressional requirement, 
delivered through prior appropriations language, to visibly mark all 
salmon produced in federally funded hatcheries circumvents local 
decisionmaking and should be reconsidered. We have requested that 
Federal mass-marking requirements, and correlated funding, be reviewed 
for compatibility with our overall objective of ESA delisting and with 
prevailing laws and agreements: U.S. v Oregon, Pacific Salmon Treaty 
and the Columbia Basin Fish Accords. Salmon managers should be provided 
the latitude to make localized, case-by-case decisions whether to mark 
fish and, if so, in the appropriate percentages.
    In summary, through the combined efforts of the four Columbia River 
Treaty Tribes, supported by a staff of experts, we are proven natural 
resource managers. Our activities benefit the region while also 
essential to the U.S. obligation under treaties, Federal trust 
responsibility, Federal statutes, and court orders. We ask for your 
continued support of our efforts. We are prepared to provide additional 
information you may require on the Department of Interior's BIA budget.

    [This statement was submitted by the Honorable Leland Bill, 
Chairman.]
                                 ______
                                 
      Prepared Statement of the Confederated Tribes of Grand Ronde
    Chairman Murkowski, Ranking Member Udall, Members of the 
subcommittee:

    My name is Reynold Leno and I am the Tribal Council Chairman of the 
Confederated Tribes of Grand Ronde. Thank you for providing me with the 
opportunity to raise an issue of great importance to Grand Ronde and 
similarly situated Tribes in Indian Country--the lack of adequate law 
enforcement funding for our reservations. In particular, my remarks 
will highlight the continued impacts termination has had on Grand 
Ronde's ability to secure Federal funding for much needed law 
enforcement services.
    Grand Ronde is located in rural northwest Oregon and is comprised 
of 5,389 members. The Tribe's Reservation is located in the outlying 
areas of Polk and Yamhill Counties.
    The Tribe was terminated by the Federal Government in 1954 then 
restored in 1983. The burden of rebuilding the reservation fell on the 
shoulders of the Tribe. Grand Ronde, like other terminated Tribes, did 
not receive any of the Federal investments in services and 
infrastructure available to Indian Country in the years before 
restoration. Since restoration, the Tribe has put forth significant 
effort into rebuilding its Tribal community, including the development 
of various types of Tribal housing, government buildings, an education 
complex, a health and wellness center, fire and police stations, 
management of over 10,000 acres of timber lands, and operation of a 
successful casino. The Tribe has made substantial contributions into 
the infrastructure of the surrounding community as well, including 
roads, water systems, fire protection, and more.
    While Grand Ronde has made great strides in rebuilding its 
Reservation community, the Tribe continues to suffer the effects of the 
29 years of termination, and it continues to be disenfranchised when 
seeking funding for infrastructure needs such as law enforcement. The 
Grand Ronde community has grown significantly over the last two 
decades, and along with that population growth has come an increase in 
crime. The Grand Ronde Tribal Police Department and the Polk County 
Sheriff's Office handled nearly 900 cases in 2015 and more than 1,000 
cases in 2016 in the Grand Ronde area. Cases logged by the Grand Ronde 
Tribal Police Department alone, through early May, suggest we are on 
track to handle an estimated 1,200 cases in 2017. Drug-related crime is 
a historic and persistent concern for our Tribal community, as is the 
growth of sex crimes.
    Due to the high crime in the community and inadequate County 
resources, since 1997 the Tribe has funded or provided criminal law 
enforcement on and near its reservation and the surrounding community. 
Because of the Tribe's remote location, there is a history of 
inadequate police coverage. To address this, the Tribe entered into 
Enhanced Service Agreements with Polk County between 1997 and 2012, 
under which the Tribe paid the County hundreds of thousands of dollars 
per year to provide coverage in the Grand Ronde community. In 2012, 
following the passage of Oregon Senate Bill 412--State law which allows 
Tribal police officers to act as peace officers under Oregon law--the 
Tribe started its own police department and began enforcing criminal 
law in the Grand Ronde area. Grand Ronde now has primary responsibility 
for law enforcement in the area.
    The Grand Ronde Police Department has been slowly making strides in 
its law enforcement and community safety programs, and is beginning to 
see what we hope are positive trends in certain crime rates. 
Unfortunately, we continue to see sex crimes on the rise, especially 
those involving youth. Drugs remain a persistent concern in our 
community. Any reduction in force would result in a loss of any gains 
made, much less reduce our capacity to keep our youth safe and keep 
drugs off of our lands.
    The Tribe has never received operational funding from the Bureau of 
Indian Affairs, and its requests for funding have been denied. The 
Tribe has utilized COPS grants and State grants to fund some law 
enforcement and emergency preparedness functions, but does not have an 
identified source of funding for continuing police operations, for 
which it requires BIA funding. Due to the high crime rates in the 
remote and rural area--which also contains one of the largest tourist 
destinations in the State--it is imperative that, in the absence of 
Polk County enhanced services, there be police protection to ensure the 
safety of the community. In order for the Tribe to provide adequate law 
enforcement, it needs BIA funding.
    The Tribe has requested that the Bureau of Indian Affairs enter 
into a 638 contract with the Tribe under which the Tribe would perform 
law enforcement services. The request was denied on the grounds that 
the Bureau of Indian Affairs isn't currently providing law enforcement 
services to the Tribe and thus there is no program to transfer to the 
Tribe in a 638 contract. Had Grand Ronde not been terminated in 1954, 
we believe the Bureau of Indian Affairs would have provided law 
enforcement services on the Reservation, thus allowing the Tribe today 
to qualify for a 638 contract to fund its law enforcement.
    As a Tribe terminated in the 1950s, Grand Ronde is at a severe 
disadvantage as it is unable to secure law enforcement funding through 
the Public Law 638 program, as it was not federally recognized during 
the self-determination era when these Federal programs were 
established. Tribes that have been terminated and subsequently restored 
are at a significant disadvantage when it comes to accessing Federal 
funding for law enforcement.
    There is a lack of law enforcement funding for Indian Country. 
Grand Ronde is not alone--those Tribes who have been restored following 
the termination era face additional challenges in securing funding. BIA 
funding should be made available to those Tribes who have been 
terminated and restored and who provide criminal law enforcement in 
their respective communities.
                                 
                                 ______
                                 
               Congressional Fire Services Institute deg.
                       Prepared Statement of the
                 Congressional Fire Services Institute
                International Association of Fire Chiefs
                National Association of State Foresters
                    National Volunteer Fire Council
    Our organizations request that you include $87 million for the 
State Fire Assistance (SFA) program and $16 million for the Volunteer 
Fire Assistance (VFA) grant program in the fiscal year 2018 Department 
of Interior and Related Agencies Appropriations bill. SFA provides 
financial and technical support to States to enhance firefighting 
capacity, supports community-based hazard mitigation, and expands 
outreach and education to homeowners and communities concerning fire 
prevention. VFA provides grants to volunteer fire departments 
protecting communities with 10,000 or fewer residents to purchase 
equipment and training for use in wildland fire suppression. Both 
programs are administered by the U.S. Forest Service and require a 50 
percent match from the State or local entity in order to receive 
Federal funding.
    Wildland fire is a significant and growing problem across the 
Nation. Over the past 25 years there has been a substantial increase in 
the number of acres burned by wildland fire, as well as the amount of 
money spent by the Federal government to suppress wildland fire. In the 
west, the plains and the southeast where wildland fire has long been 
present, the fire season starts earlier and ends later than it used to, 
if it ends at all. Meanwhile, wildland fire is becoming increasingly 
common in areas of the country where it has historically not been 
problematic.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Local fire departments and State forestry agencies are the first 
line of defense against wildland fire. Eighty percent of the initial 
attack on wildland fire is performed by volunteer fire departments, and 
State foresters are responsible for wildfire protection on two thirds 
of America's forested lands. In 2015, eighty percent of the fires 
started in areas where State and local departments had primary 
jurisdiction, and almost half of the total acres burned in 2016 were on 
State and private lands.
    SFA and VFA are critical in building State and local capabilities 
to prepare for, mitigate against, and respond to wildland fire. In 
2015, SFA and VFA funding trained nearly 150,000 firefighters, provided 
over $15 million in new or upgraded equipment, and engaged more than 
15,000 communities to develop and implement community wildfire 
protection plans.
    Unfortunately, even as State foresters and local fire departments 
are grappling with the serious and growing threat posed by wildland 
fire, Federal support has stagnated. Funding for Federal grants to help 
local fire departments respond to wildland fire has decreased over the 
past decade, averaging $13 million from fiscal year 2013-2017 compared 
with $18.7 million in fiscal year 2008-2012.
    Our organizations note and appreciate that Congress increased 
funding for VFA to $15 million and for SFA to 77 million in fiscal year 
2017. We are disappointed in the Administration's proposal for 
reductions in these programs. We urge you to provide $16 million for 
VFA in fiscal year 2018, matching the level of funding provided in 
fiscal year 2010. Providing $87 million for SFA would at least 
partially track the suppression budget increase on Federal lands. These 
programs provide the bulk of America's initial attack. If we want to 
quickly suppress those fire starts which will become large devastating 
wildfires, investing in SFA and VFA makes great sense in protecting our 
Nation's forests.
                                 ______
                                 
  Prepared Statement of the Consortium of Aquatic Scientific Societies
    Dear Chairman Murkowski and Ranking Member Udall:

    The Consortium of Aquatic Scientific Societies (CASS) is comprised 
of six professional societies representing diverse knowledge of the 
aquatic sciences. CASS members include the: American Fisheries Society, 
Association for the Sciences of Limnology and Oceanography, Coastal and 
Estuarine Research Federation, Phycological Society of America, Society 
for Freshwater Science, and Society of Wetland Scientists. Our 
collective membership totals almost 20,000 individuals that span the 
private sector, academia, non-governmental organizations, and various 
Tribal, State, and Federal agencies. The CASS organizations represent 
professionals who combine deep subject-matter expertise, a commitment 
to independent objectivity, and the critical review of environmental 
information, along with a passion for the natural places and resources 
that form the foundation of American greatness. We support the 
development and use of the best available science to sustainably manage 
our freshwater, estuarine, coastal, and ocean resources to the benefit 
of the U.S. economy, environment, and public health and safety.
    CASS writes in strong support of the Environmental Protection 
Agency (EPA) and EPA programs that support the research, conservation, 
restoration, and sustainable use of aquatic ecosystems required by all 
U.S. citizens, who rely on clean and abundant water for their health 
and well-being. On March 16, the Trump Administration released a budget 
blueprint that identified drastic cuts to the EPA that would eliminate 
many critical programs that support sustainable use and economic 
development of aquatic resources. The Administration's internal spend 
plan memo from David A. Bloom, Acting CFO, dated March 21, directly 
targets many programs that protect and restore water resources. Among 
the programs listed for elimination: Great Lakes, Chesapeake Bay, Puget 
Sound, and other geographic restoration programs; nonpoint source 
pollution grant funds; the National Estuary Program; and research grant 
programs on safe and sustainable water resources and climate change. We 
urge you to reject these recommendations and instead provide your full 
support to EPA and its aquatic science and management programs.
    CASS recognizes that the Appropriations Committees face difficult 
decisions given fiscal constraints; we support EPA and the programs 
noted above because they are vital to our Nation's economic and 
environmental well-being, and are an efficient and effective use of 
funds appropriated by the Federal Government. They support a clean and 
adequate water supply, sustainable fish populations for food and 
recreation, natural and human communities that are resilient to hazards 
and changing climates, healthy and diverse aquatic ecosystems, and 
abundant outdoor recreation opportunities that protect America's 
conservation heritage and provide enormous economic and cultural 
benefit. The Federal funding provides an enormous return on investment 
that sustains and creates jobs and protects lives and natural 
resources. We hope that the Committee will continue its support for 
these vital EPA programs.

            Respectfully,

                    Joe Margraf, President, American Fisheries Society; 
                            Tim Nelson, President, Phycological Society 
                            of America; Linda Duguay, President, 
                            Association for the Sciences of Limnology 
                            and Oceanography; Emily Bernhardt, 
                            President, Society for Freshwater Science; 
                            Robert R. Twilley, President, Coastal and 
                            Estuarine Research Federation; and Gillian 
                            Davies, President, Society of Wetland 
                            Scientists.
                                 ______
                                 
                Prepared Statement of the Corps Network
    Dear Chairwoman Murkowski and Ranking Member Udall:

    I write on behalf of The Corps Network, to respectfully urge your 
strong support for continued funding for the Department of Interior 
(DOI) and US Forest Service (USFS) in fiscal year 2018, and thank you 
for your efforts to increase funding for key DOI and USFS accounts in 
fiscal year 2017. As you craft the fiscal year 2018 Interior 
Appropriations bill, we encourage you take into account the significant 
leveraging of limited Federal resources our Corps accomplish in 
partnership with land management agencies, and ensure they have 
adequate funding to expand on these cost-effective public-private 
partnerships and engage the next generation of youth and veteran 
outdoor stewards, entrepreneurs, recreationists, and sportsmen and 
women.
    Corps of The Corps Network support DOI and USFS budgets for youth, 
operation, management, maintenance, and construction which are used to 
engage Corps, and our youth and veteran Corpsmembers, on important 
projects; the Centennial Initiative; funding for Wildland Fire 
Management through both DOI and USFS; and language encouraging 
partnerships with Corps and expanding direct hire authority for USFS. 
By partnering with Corps, agencies achieve more with their budgets and 
accomplish cost-effective projects to help address the multi-billion-
dollar maintenance backlog; remediate wildfires and invasive species; 
improve access to public lands; build and maintain multi-use trails and 
increase recreation opportunities; and ensure productive fish and 
wildlife habitat for enthusiasts, hunters, and fishers.
    These accounts also support the 21st Century Conservation Service 
Corps (21CSC) initiative, which has received bipartisan support in 
Congress from Reps. Martha McSally (R-Arizona) and Seth Moulton (D-
Massachusetts) and Senators John McCain (R-Arizona) and Michael Bennet 
(D-Colorado), as well as Army General (Ret.) Stanley McChrystal and 
President Bush's Domestic Policy Advisor, John Bridgeland, and the past 
five Secretaries of the Interior. The 21CSC initiative has private 
sector support from Coca-Cola, the North Face, American Eagle 
Outfitters, Thule, KEEN, and REI. In addition, there are over 80 
different national and regional corporations and organizations 
supporting 21CSC like the American Recreation Coalition, Outdoor 
Industry Association, the Vet Voice Foundation, and the National Parks 
Conservation Association.
    Thank you again for your efforts to ensure these accounts were 
strong in the Consolidated Appropriations Act 2017. With additional 
support from the 2017 Act, Corps will help accomplish millions in 
critical projects while also leveraging limited Federal funds. For 
example, Corps have utilized around $150 million in project funding 
from DOI and USFS over the past 3 years and turned that into millions 
more in matched funds and service projects, with the added benefit of 
engaging youth and veterans in meaningful hands-on work experiences to 
develop in-demand skills on the path to careers while building respect 
for our country, hard work, and the outdoors. Corps bring at least 25 
percent match to these projects, making Federal funds go further than 
they otherwise would.
    Last year, our Corps around the country accomplished: 1.6 million 
acres of wildlife habitat improved and made accessible; 1.5 million 
trees planted; 365,000 acres of invasive species removed; 32,000 acres 
of fire fuel reduced; 22,000 miles of multi-use trails constructed and 
improved; 16,000 recreation facilities improved; 8,200 acres of 
erosion, landslide, and flood prevention; 2,600 miles of fish and 
waterway habitat restored; 500 wildfires and disasters responded to; 
and 190 historic structures preserved.
    The Corps Network represents America's 135 Conservation Service 
Corps. Corps provide youth and veterans the opportunity to serve their 
country, advance their education and obtain in-demand skills. Serving 
in crews and individual placements, Corpsmembers perform important 
conservation, recreation, infrastructure, wildfire, disaster response, 
and community development service projects on public lands and in rural 
and urban communities. Corps enroll over 25,000 youth and veterans 
annually in all 50 States and DC, Puerto Rico, and American Samoa. 
Corps engage an additional 100,000 volunteers, and complete thousands 
of service projects valuing hundreds of millions of dollars each year.
    Project sponsors consistently express a high degree of satisfaction 
with the quality of work and productivity of Corps. Virtually all 
Federal project partners (99.6 percent) say they would work with Corps 
again and an independent study commissioned by the National Park 
Service found a 50-80 percent cost savings in using Corps on projects.
          fiscal year 2018 interior appropriations priorities
    The Corps Network respectfully urges the committee to support these 
programs that will allow public land management agencies to engage 
Corps:
  --U.S. Forest Service--National Forest System: $1.5 billion in fiscal 
        year 18;
  --U.S. Forest Service--Capital Improvement and Maintenance: $364 
        million in fiscal year 18;
  --U.S. Forest Service--Wildland Fire Management: $2.8 billion in 
        fiscal year 18;
  --Department of Interior--Wildland Fire Management: $943 million in 
        fiscal year 18;
  --National Park Service--Operation: $2.4 billion in fiscal year 18;
  --National Park Service--National Recreation & Preservation: $62 
        million in fiscal year 18;
  --National Park Service--Centennial Initiative: $20 million in fiscal 
        year 18;
  --Fish and Wildlife Service--Resource Management: $1.3 billion in 
        fiscal year 18;
  --Bureau of Land Management--Management of Lands and Resources: $1 
        billion in fiscal year 18;
  --Bureau of Reclamation--Water & Related Resources: $1.2 billion in 
        fiscal year 18;
  --Bureau of Indian Affairs--Natural Resource Management: $200 million 
        in fiscal year 18;
  --Department of Interior & US Forest Service--21st Century 
        Conservation Service Corps (21CSC) Report Language: ``21st 
        Century Conservation Service Corps and Public Lands Corps.--The 
        Department of Interior, it's subdivisions, and the Forest 
        Service are directed to continue their partnerships with the 
        21st Century Conservation Service Corps (also referred to as 
        21CSC), and Public Lands Corps, in order to accomplish access, 
        conservation, wildfire, maintenance backlog, and infrastructure 
        projects and engage additional youth and veterans as detailed 
        and authorized in the Public Lands Corps Act of 1993 (16 USC 
        Chapter 37, Subchapter II).''
  --US Forest Service--Direct Hire Authority:
    --``(a) The Secretary of Agriculture may appoint, without regard to 
            the provisions of subchapter I of chapter 33 of title 5, 
            United States Code, other than fiscal year 2017 Budget 
            Justification USDA Forest Service sections 3303 and 3328 of 
            such title, a qualified candidate described in subsection 
            (b) directly to a position with the United States 
            Department of Agriculture, Forest Service for which the 
            candidate meets Office of Personal Management qualification 
            standards.
      -- (b) Subsection (a) applies to a former resource assistant (as 
            defined in section 203 of the Public Land Corps Act (16 
            U.S.C. 1722)) who--
        -- (1) completed a rigorous undergraduate or graduate summer 
            internship with a land managing agency, such as the Forest 
            Service Resource Assistant Program
        -- (2) successfully fulfilled the requirements of the 
            internship program; and
        -- (3) subsequently earned an undergraduate or graduate degree 
            from an accredited institution of higher education.
      -- (c) The direct hire authority under this section may not be 
            exercised with respect to a specific qualified candidate 
            after the end of the two-year period beginning on the date 
            on which the candidate completed the undergraduate or 
            graduate degree, as the case may be.

    All these programs help Corps leverage limited Federal dollars to 
accomplish more projects than land management agencies normally would, 
while engaging thousands of youth and veterans in improving and 
restoring our nation's lands, water, and recreation assets. The 
construction and operation accounts are important as they are the main 
source of project funding, and help the agencies address their backlog 
and needed projects. We also believe it's important that land 
management agencies have adequate operating funds so there are staff in 
place to help develop and process agreements in a timely manner with 
partners like Corps, and ensure that if land managers have needs, they 
can easily hire local youth who have experience working in resource 
management. The Centennial Initiative is an innovative approach to 
addressing the myriad of issues in the national parks and can be 
targeted toward addressing the deferred maintenance backlog.
    To expand on this work, we support inclusion of language to 
encourage continuation of public-private partnerships through DOI and 
USFS with our innovative 21st Century Conservation Service Corps 
(21CSC) Initiative. These partnerships are included as a priority for 
the Administration in the fiscal year 18 National Park Service Budget 
Justification for example: ``Under the umbrella of the 21st Century 
Conservation Corps (21st CSC) NPS engages 16-30 year old Americans, 
including low-income and disadvantaged individuals and veterans through 
compensated natural and cultural conservation work projects that assist 
the Service in maintaining its resources in an cost effective manner 
while providing the participants with developmental job skills training 
and education.''
    The USFS has been a major supporter of our 21CSC Initiative as 
well, explaining in the fiscal year 18 Budget Justification: ``Our 21st 
Century Service Corps (21CSC) partnership provides an enormous return 
on investment, allowing the Forest Service to address critical 
conservation restoration needs and simultaneously have a deep and 
lasting impact on the people who participate, thereby building the next 
generation of natural resource professionals. From fiscal year 2014 
through fiscal year 2016, the agency has employed 30,000 youth and 
veterans on more than 2,000 distinct projects; expanded YCC jobs by 58 
percent to 1,500 in fiscal year 2016; implemented a Resource Assistants 
Program for students, recent graduates and others that is building a 
diverse pool of qualified and experienced candidates for permanent 
positions; and orchestrated growth in the 21CSC organization, 
recognizing and approving 201 partner organizations.''
    Corps also partner with USFS and DOI on critical wildfire 
remediation and fighting and see firsthand the damage that is done to 
the system, and communities, by an outdated budget structure for 
wildfire needs. We support adequate funding for wildfire remediation, 
but also changes to the budgeting process as included in the Wildfire 
Disaster Funding Act--a bipartisan proposal that would fund wildfire 
suppression in a similar manner to how the government currently funds 
the response to other natural disasters. As the USFS noted in past 
budgets, ``It is subsuming the agency's budget and jeopardizing our 
ability to successfully implement our full mission.'' Sweeping funds to 
battle wildfires from other USFS accounts hurts the whole system.
    As you can see, our Corps partner with DOI and USFS in a critical 
capacity to help them better manage our natural resources while 
providing high quality service and work experience outdoors to engage 
thousands of youths and veterans. We understand the fiscal constraints 
placed upon the committee which is why ensuring more partnerships and 
opportunities for our cost-effective public private partnerships is 
more important than ever. We again respectfully urge your support for 
these programs. Thank you for your time and consideration.

    [This statement was submitted by Mary Ellen Sprenkel, President & 
CEO.]
                                 ______
                                 
                    Prepared Statement of Dance/USA
    Madam Chairman and distinguished Members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of Dance/
USA, its Board of Directors and its 500 members. We strongly urge the 
Subcommittee on Interior, Environment, and Related Agencies in the 
Committee on Appropriations to designate a total of $155 million to the 
National Endowment for the Arts (NEA) for fiscal year 2018. This 
testimony and the funding examples described below are intended to 
highlight the importance of Federal investment in the arts, so critical 
to sustaining a vibrant cultural community throughout the country.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts. Before the establishment of the NEA in 1965, 
funding for the arts was limited to major cities. The NEA has helped to 
strengthen regional dance, opera, theater and other artistic 
disciplines that Americans enjoy. NEA funding provides access to the 
arts in regions with histories of inaccessibility due to economic or 
geographic limitations. The NEA envisions a ``nation in which every 
American benefits from arts engagement, and every community recognizes 
and celebrates its aspirations and achievements through the arts.'' The 
agency has helped the arts become accessible to more Americans, which 
in turn has increased public participation in the arts.
    The NEA is a great investment in the economic growth of every 
community. Despite diminished resources, including a budget that is $17 
million less than it was in 2010, the NEA awarded more than 2,400 
grants in 2016 reaching nearly 16,000 communities. These grants nurture 
the growth and artistic excellence of thousands of arts organizations 
and artists in every corner of the country, resulting in jobs and 
economic activity. NEA grants also preserve and enhance our nation's 
diverse cultural heritage. The modest public investment in the nation's 
cultural life results in both new and classic works of art, reaching 
the residents of all 50 States and in every congressional district.
    In 2016, small-sized organizations (organizations with budgets 
under $350,000 per year) received 30 percent of the NEA's direct grants 
and 40 percent of NEA supported activity took place in high poverty 
neighborhoods.
    The return of the Federal Government's small investment in the arts 
is striking. The Bureau of Economic Analysis (BEA) and the NEA 
developed an ``Arts and Cultural Production Satellite Account'' which 
calculated the arts and culture sector's contributions to the gross 
domestic product (GDP) at 4.2 percent (or $729.6 billion) of current-
dollar GDP in 2014. Additionally, the nonprofit performing arts 
industry generates $135.2 billion annually in economic activity, 
supports more than 4.13 million full-time equivalent jobs in the arts, 
and returns $9.59 billion in Federal taxes (Arts and Economic 
Prosperity IV, Americans for the Arts). It is estimated that the North 
American opera industry injects over $1 billion directly into the 
economy each year.
    On average each NEA grant leverages $9 from private and public 
funds. Few other Federal investments realize such economic benefits, 
not to mention the intangible benefits that only the arts make 
possible. The NEA continues to be a beacon for arts organizations 
across the country.
    The return on investments is not only found in dollars. In 2012, 
2.2 million people volunteered 210 million hours with arts and cultural 
organizations, totaling an estimated value of $5.2 billion--a 
demonstration that citizens value the arts in their communities.
                           nea grants at work
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities.
    The more than 2,400 grants awarded to nonprofit arts organizations 
and arts programs supported projects that encourage artistic creativity 
and bring the arts to millions of Americans.
    NEA grants are awarded to dance organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In fiscal year 2016, the NEA awarded 162 grants to 
the dance field through the Art Works category, totaling $4,238,630.
Diavolo <rm-bond> Architecture in Motion
$20,000
Los Angeles, CA
    To support Diavolo <rm-bond> Architecture in Motion's education and 
outreach programs during the company's Unites States tour. The company 
will partner with venues on the tour to present Young People's 
Concerts, community workshops, master classes, and residencies. The 
Young People's Concert (YPC) is an interactive student matinee show 
that includes repertoire excerpts, teamwork discussions, fitness 
exercises, and active adult participation. YPC will be updated to 
feature the latest Diavolo works, new interactive community engagement 
techniques, revised study guides, and repairs to set pieces. The 
company will offer workshops and support training for additional 
teachers for these workshops.
Dance Exchange
$10,000
Takoma Park, MD
    To support the creation and presentation of Off-site/Insight: 
Stories from the Great Smoky Mountains, an Imagine Your Parks project. 
The intergenerational dance performance will unearth stories of the 
Great Smoky Mountains National Park, the surrounding region, and the 
people who have made the park what it is today. Dance Exchange will 
work with the National Park Service Staff to learn about the local 
ecology and park history. In collaboration with the Appalachian 
Highlands Science Learning Center, Dance Exchange will lead moving 
Field Guides, a series of workshops that will engage communities in 
creating a dance that enlivens the stories of those who have walked, 
explored, and preserved the region. The project will culminate in a 
public event that features live performances that illuminate stories 
about the park.
Island Moving Company
$10,000
Newport, RI
    To support the production of a new work using the Open for Dancing 
community engagement model. This distinctive model is a forum for the 
creation of a new, site-specific work, and uses the artistic process to 
weave audiences, participants, and artists together to form a unique, 
communal relationship. A new tall ship, the Oliver Hazard Perry, is in 
the final stages of outfitting in Newport, RI. Before it takes to the 
seas with its education training programs, the company will mount 
``Second Star on the Right,'' a retelling of Peter Pan performed on the 
decks and rigging of the ship. The company will include non-dancers in 
the creative process. Free performances will be offered.
Ballet Memphis
$10,000
Cordova, TN
    To support the presentation of ``Places,'' a performance of new 
dance works, which explores themes of the past, present, and future. 
Choreographer Joshua Peugh will create a new work focusing on the past 
to music by the Memphis soul group STAX. Choreographer Jennifer 
Archibald will create work focusing on the present. And choreographer 
Gabrielle Lamb will create her third work on Ballet Memphis by looking 
at the future and will explore how people respond to their surroundings 
and an ever-changing landscape. The project will include an open 
rehearsal and outreach activities with community groups. The 
performances will take place at Playhouse on the Square in the city's 
art district and will include one ``pay what you can'' community day.
              the non-profit professional dance community
    America's dance companies perform a wide range of styles and 
genres. These include aerial, ballet, modern, culturally specific, 
jazz, and tap companies. Over two-thirds of America's professional 
dance companies are less than 45 years old; as an established art form 
with national identity and presence, dance has burst onto the scene 
almost entirely within living memory. And yet, America can boast some 
of the greatest dance companies of the world and can take credit for 
birthing two indigenous dance styles--tap and modern dance.
    One key to this spectacular achievement has been the creation of a 
national marketplace for dance. When the National Endowment for the 
Arts instituted its Dance Touring Program in the 1970s, great dance 
became accessible to every community in America. What used to be a 
handful of professional companies and a scattering of regional dance 
has become a national treasure spread across cities and through 
communities, schools and theaters in all 50 States. Based on data from 
over 1,772 tax-exempt dance groups from across the United States, 
Dance/USA estimates that dance companies:
  --Employed over 15,896 individuals (based on data from 296 reporting 
        companies) in a mix of full-time and part-time positions and 
        supported by almost 23,000 volunteers (based on 276 reporting 
        companies);
  --Paid approximately $754.3 million in expenses (based on 745 
        reporting companies);
    Dance/USA, the national service organization for the professional 
dance field, believes that dance is essential to a healthy society, 
demonstrating the infinite possibilities for human expression and 
potential, and facilitating communication within and across cultures. 
Dance/USA sustains and advances professional dance by addressing the 
needs, concerns, and interests of artists, administrators, and 
organizations. Dance/USA's membership currently consists of nearly 500 
aerial, ballet, modern, culturally specific, jazz, and tap companies, 
dance service and presenting organizations, individuals, and related 
organizations. Dance/USA's member companies range in size from 
operating budgets of under $100,000 to over $50 million.
                               conclusion
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties, leaving its programs 
seriously underfunded. The continued bipartisan support for the NEA has 
continued to support artists and audiences, allowing dance and the arts 
to address critical issues, making communities healthier and more 
vibrant. The ``Dear Colleague'' letter in the U.S. House of 
Representatives received a record 154 signatures in support of the NEA.
    We urge you to continue toward restoration and increase the NEA 
funding allocation to $155 million for fiscal year 2018.
    On behalf of Dance/USA, thank you for considering this request.

    [This statement was submitted by Amy Fitterer, executive director, 
Dance/USA.]
                                 ______
                                 
            Prepared Statement of the Defenders of Wildlife
    Madam Chairman, Ranking Member and Members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. 
Founded in 1947, Defenders has nearly 1.2 million members and 
supporters and is dedicated to the conservation of wild animals and 
plants in their natural communities.
    North America is fortunate to have some of the most abundant and 
diverse wildlife on Earth, more than 200,000 known species in the U.S. 
alone. This unique and irreplaceable heritage is treasured by all 
Americans both for its aesthetic value as well as for the very tangible 
benefits it provides as a resource. For example, a third of our food is 
pollinated by birds, bats, and insects; wildlife-associated recreation 
generated $145 billion in economic benefits in 2011; \1\ bats provide 
at least $3.7 billion in pest control services to the agricultural 
industry annually; \2\ and the value of ecosystem services from habitat 
in the contiguous 48 States is estimated at $1.6 trillion annually.\3\ 
Budget cuts since fiscal year 2010 to Federal programs that conserve 
wildlife and habitat have severely undermined sound management. 
Inadequate funding will likely lead to irreparable harm to vulnerable 
species and habitat. Our Nation's wildlife is a treasure and well worth 
the investment to properly care for it.
---------------------------------------------------------------------------
    \1\ The 2011 National Survey of Fishing, Hunting, and Wildlife 
Associated Recreation, USFWS, 12/12.
    \2\ http://www.sciencemag.org/content/332/6025/
41.summary?sid=853248fd-6760-4341-93d0-2aeeab9ea450.
    \3\ The Economics Associated with Outdoor Recreation, Natural 
Resources Conservation and Historic Preservation in the United States, 
Southwick Associates, 9/29/11.
---------------------------------------------------------------------------
    Four riders that would have undermined protections for imperiled 
species and the Endangered Species Act (ESA) and sound management of 
our national wildlife refuges were included in the fiscal year 2017 
Senate Interior appropriations bill. We strongly opposed these riders 
and while all should rightfully have been removed from the final 
omnibus, we appreciate that all but one were stricken.
                       fish and wildlife service
    The U.S. Fish and Wildlife Service (FWS) is our Nation's premier 
wildlife conservation agency. FWS needs adequate funding if it is to 
recover threatened and endangered species and protect migratory birds 
and fish, species of global conservation concern and other trust 
species, and stop or prevent wildlife crimes.
    Cooperative Recovery.--Defenders supports continued funding for the 
Cooperative Recovery program at no less than the fiscal year 2017 
level. This initiative is supporting more efficient and strategic 
efforts across landscapes to recover threatened and endangered species 
on National Wildlife Refuges and surrounding lands and has already 
supported delisting of two species.
    Renewable Energy.--Defenders supports funding at no less than the 
fiscal year 2017 level for renewable energy related Planning and 
Consultation and Service Science programs. The Service supports 
approvals of renewable energy projects while ensuring they comply with 
relevant environmental laws, and conducts research to assess potential 
impacts of energy development on sensitive lands and wildlife and to 
identify mitigation strategies.
    Ecological Services.--Defenders supports no less than the fiscal 
year 2017 level of $240 million for Ecological Services so that high 
priority work to protect imperiled species can continue:

  --Listing: The FWS needs no less than the fiscal year 2017 level of 
        $20.5 million for listing so that it can continue to make 
        progress with its 7-year listing workplan that allows the 
        agency to prioritize over 350 species for listing decisions. 
        This workplan is supported by a wide range of stakeholders.
  --Recovery: Defenders appreciates the $2 million increase that was 
        provided for recovery in the fiscal year 2017 omnibus bill and 
        urges no less than the fiscal year 2017 level of $84 million 
        for fiscal year 2018. Currently, more than 400 listed U.S. 
        species do not have recovery plans and FWS receives less than 
        25 percent of the funding needed each year to implement all 
        recovery actions identified in recovery plans.
  --Planning and Consultation: Defenders appreciates the $4 million 
        increase that was provided for planning and consultation in the 
        fiscal year 2017 bill and urges no less than the fiscal year 
        2017 level of $103.1 million for fiscal year 2018. This 
        continued level of funding is needed to support crucial Section 
        7 consultations under the ESA so that projects can move forward 
        while minimizing harm to listed species. FWS's consultation 
        program already operates on an inadequate budget. Thus, some 
        nationwide consultations are already delayed (e.g., pesticide 
        consultations) and resources to monitor for permit compliance 
        are almost nonexistent.
  --Conservation and Restoration: Defenders urges no less than the 
        fiscal year 2017 level of $32.4 million to support continued 
        conservation for candidate species as they await listing as 
        well as work with stakeholders on a variety of efforts that 
        benefit trust resources such as coordinating with partners to 
        prepare for oil spill and hazardous materials releases.
  --Defenders appreciates that the fiscal year 2017 bill maintained 
        funding for the Wolf Livestock Loss Demonstration Program that 
        assists livestock owners co-existing with wolves, and we urge 
        continued funding at no less than $1 million.

    National Wildlife Refuge System.--Our National Wildlife Refuge 
System is the largest land and water system in the world dedicated to 
wildlife conservation. Refuges provide enormous benefits to the 
American people, generating $2.4 billion each year for local economies. 
Defenders appreciates the $2.5 million increase that was provided in 
the fiscal year 2017 bill. Nevertheless, the Refuge System Operations 
and Maintenance budget is now $80 million below the level needed to 
keep pace with inflation plus salary increases relative to the fiscal 
year 2010 level of $503.2 million. The workforce has declined through 
attrition during that time by 442 positions. Funding of $586 million 
for Operations and Maintenance would put the System on track for 
adequate funding in 4 years.
    Migratory Bird Management.--U.S. bird populations have experienced 
precipitous declines in recent years. Defenders supports continued 
funding at no less than the fiscal year 2017 level of $48.1 million, 
which includes funding for needed upgrades in aviation management and 
survey and monitoring programs, and for building resilience of bird 
species and their habitats through the Joint Ventures.
    Office of Law Enforcement (OLE).--Defenders supports no less than 
the fiscal year 2017 level of $75.1 million, a level that is still far 
from adequate. Currently, the OLE employs fewer than 200 special 
agents, the expert investigators that work to stop wildlife crimes both 
domestically and internationally. Moreover, only one in five current 
ports of entry are staffed with wildlife inspectors who work to 
intercept illegal wildlife shipments.
    International Affairs.--Defenders appreciates the $1.1 million 
increase provided in the fiscal year 2017 bill and urges continued 
funding at no less than the fiscal year 2017 level of $15.8 million 
which will continue to advance the National Strategy for Combating 
Wildlife Trafficking.
    Landscape Conservation Cooperatives (LCCs).--Defenders supports 
maintaining funding at no less than the fiscal year 2017 level of $13 
million for the LCCs which have been working to address complex 
challenges such as climate change across large landscapes.
    Science Support.--Defenders supports continued funding at no less 
than the fiscal year 2017 level of $17 million to address questions 
about climate adaptation and other landscape-level ecological changes, 
conservation of monarch butterflies and other declining species, 
strategies for addressing White-Nose Syndrome that is devastating bat 
populations, and other agency management challenges.
    Other key grant programs.--Defenders supports no less than the 
fiscal year 2017 levels for the Multinational Species Conservation 
Fund, the Neotropical Migratory Bird Fund, the Cooperative Endangered 
Species Fund, and State and Tribal Wildlife Grants.
              forest service and bureau of land management
    The U.S. Forest Service (FS) and the Bureau of Land Management 
(BLM) are essential to the conservation of wildlife and habitat in the 
U.S., yet funding is inadequate to address significant challenges to 
sustain these resources. Development and uses on public lands must 
proceed in a manner that maintains the ecological integrity of our 
lands and waters, conserves wildlife and habitat, and contributes to 
efforts to recover our most imperiled wildlife. We urge strong 
oversight to ensure that energy development is done in an 
environmentally sensitive fashion and in low conflict areas. Given 
their large land ownerships, it is imperative that both agencies 
embrace landscape level conservation and management efforts.
    FS Wildlife and Fisheries Habitat Management/Integrated Resource 
Restoration (IRR).--Defenders opposes expanding the IRR program beyond 
the current pilot program and in fact recommends the termination of the 
program given concerns that wildlife program activities have been 
marginalized under IRR and that timber targets have detracted from 
integrated restoration. Wildlife and Fisheries Habitat Management has 
been flat-funded at $140.5 million since fiscal year 2014. We support 
funding the program at least at the fiscal year 2010 level of $143 
million to carry out critical conservation and recovery activities and 
to begin to address the loss of biologists that has occurred in recent 
years.
    FS Land Management Planning, Assessment and Monitoring.--Numerous 
out of date forest plans lack contemporary conservation strategies for 
at-risk species, and often require costly amendment. Integrating the 
assessment, planning and monitoring programs will lead to more 
efficient land management planning, reducing timelines and costs. 
Defenders supports continued funding at no less than the fiscal year 
2017 level of $182.9 million.
    FS Collaborative Forest Landscape Restoration Program.--We support 
continued funding at the fiscal year 2017 level of $40 million for this 
cost-effective program established to restore forest and watershed 
health, improve wildlife habitat, and reduce the costs of fire 
suppression in overgrown forests and the risk of uncharacteristic 
wildfires.
    FS Forest and Rangeland Research (FS R&D).--We were disappointed 
that FS R&D was cut by $4.5 million in the final fiscal year 2017 bill 
and we urge a return to the fiscal year 2015 level of $226 million 
which included $27.1 million for Wildlife and Fish R&D. Adequate 
funding for this program is crucial in providing relevant tools and 
information to support sustainable management of National Forest System 
lands as well as non-Federal forest lands. Generally, we are concerned 
that the FS may lack adequate applied scientific capacity both in R&D 
and the National Forest System to implement critical conservation and 
management actions.
    BLM Wildlife and Fisheries Management.--Defenders appreciates the 
increase of $13.9 million for Wildlife and Fisheries in the fiscal year 
2017 bill, which includes an increase of $8.9 million for 
implementation of management prescriptions to conserve the greater 
sage-grouse. Defenders supports no less than the fiscal year 2017 level 
of $115.8 million.
    BLM Threatened and Endangered Species Management.--Funding for this 
program is far below the level needed to fund work the agency is 
required to do to recover ESA listed species on BLM lands. Defenders 
supports $22.6 million for the program, an increase of $1 million over 
fiscal year 2017, which simply restores the budget to the fiscal year 
2010 level and will better help recover listed species.
    BLM Renewable Energy.--Defenders supports funding at no less than 
the fiscal year 2017 level of $29.1 million to allow BLM to continue 
facilitating renewable energy development on public lands, while 
avoiding areas with natural resource conflicts, including sensitive 
wildlife species.
    BLM Resource Management Planning, Assessment and Monitoring.--
Defenders appreciates the increase of $4 million that was provided in 
the fiscal year 2017 bill for a total of $52.1 million. We urge 
continued funding at no less than that level to support new high 
priority planning efforts, data collection and monitoring crucial to 
the sage-grouse conservation strategy and other key initiatives, and 
continued development of a new geospatial initiative to better monitor 
ecological conditions and trends on the landscape.
                         u.s. geological survey
    The U.S. Geological Survey provides the basic science for 
conservation of wildlife and habitat.
    National Climate Change and Wildlife Science Center/Climate Science 
Centers.--Defenders was disappointed in the $1.1 million cut included 
in the final fiscal year 2017 bill. We urge funding at no less than the 
fiscal year 2016 level of $26.4 million to support scientific needs in 
planning for climate change adaptation and building resiliency of 
ecosystems.
    Ecosystems.--Defenders urges continued funding at no less than the 
fiscal year 2017 level of $159.7 million to help to support development 
of crucial scientific information for sound management of our Nation's 
biological resources.
                land and water conservation fund (lwcf)
    Defenders was disappointed in the $50 million cut to LWCF in the 
final fiscal year 2017 bill. We support funding at no less than the 
fiscal year 2016 level of $450 million to help to save some of the 
6,000 acres of open space, including wildlife habitat, that are lost 
each day in the U.S.\4\
---------------------------------------------------------------------------
    \4\ http://www.fs.fed.us/openspace/coop_across_boudaries.html.

    [This statement was submitted by Mary Beth Beetham, Director of 
Legislative Affairs.]
                                 ______
                                 
        Prepared Statement of the Dine Grant Schools Association
    The Dine Grant Schools Association (DGSA) is comprised of the 
school boards of six Bureau of Indian Education (BIE)-funded schools 
which are operated pursuant to the Tribally Controlled Schools Act 
(Public Law 100-297) and located on the Navajo Nation in Arizona and 
New Mexico. These schools are: Dzilth-Na-O-Dith-Hle Community Grant 
School; Kinteel Residential Campus, Inc.; To'hajiilee Day School; Na' 
Neelzhiin Ji'Olta (Torreon Day School); Hunters Point Boarding School; 
and Chilchinbeto Community School.
    As Tribal school boards, we have both the greater freedom and the 
tremendous responsibility to ensure that our students receive the kind 
of world-class, culturally relevant education that will help them reach 
their fullest potential. We take this responsibility seriously and we 
would like to thank this Subcommittee for playing an important role in 
our students' success. Further, as the BIE seeks to transition from 
running schools to supporting the Tribal school boards who take on this 
critical responsibility, the perspective of school boards who are 
already doing this successfully is more important than ever. This 
testimony highlights the needs and the best practices of Dine Grant 
Schools Association member school boards. Our highest funding 
priorities are: Tribal Grant Support Costs; Facilities Operations and 
Maintenance; and ISEP formula funds in the BIE budget as well as 
Education Construction and Repair in the Bureau of Indian Affairs 
budget.
    Success through language, culture, community involvement, and high 
standards. Successful students know who they are, that they are valued, 
and that great things are expected of them. Our schools incorporate 
Navajo language and culture into our curricula. We set rigorous 
standards that our students must strive to meet and that give them a 
sense of accomplishment at their achievements.
    Why Federal funding matters. It is difficult to concentrate on 
lessons if you are too cold or the roof is leaking or the water pipes 
don't work. It is difficult to take Partnership for Assessment of 
Readiness for College and Careers (PARCC) online practice tests or take 
distance learning Advanced Placement classes on dial up speed Internet 
connections. It is difficult to ride the bus, sometimes on unimproved 
roads, to a crumbling school whose replacement has been identified as a 
priority, yet no improvements are made because the extensive waiting 
list for construction puts it on hold for years. These challenges to 
learning are prevalent throughout Indian Country. What has been 
different these past several years is Congress's sea change in 
understanding the extent of these challenges and bipartisan resolve to 
address them. For this, we are deeply grateful. As we work to provide a 
world-class education and bright future for our students, we consider 
Members of Congress to be our partners in this endeavor. Below is a 
description of the programs that make the greatest difference in our 
ability to educate our students.
                       tribal grant support costs
    Since the 1988 Elementary and Secondary Education Act 
reauthorization, tribally-operated elementary and secondary schools 
have received funding for the administrative expenses incurred for the 
operation of BIE-funded schools through an Administrative Cost Grant, 
now called Tribal Grant Support Costs (TGSC). Tribal Grant Support 
Costs are the Contract Support Costs for tribally controlled schools. 
These funds are used for essential services such as contract/grant 
administration; program planning and development; human resources; 
insurance; fiscal, procurement, and property management; required 
annual audits; recordkeeping; and legal, security and other overhead 
services.
    Impact. In fiscal year 2016, Tribal Grant Support Costs were fully 
funded for the first time and in fiscal year 2017, Congress increased 
this amount at the BIE's recommendation to $80 million. In previous 
fiscal years when TGSC appropriations had been insufficient to meet the 
level of need without other sources of funding, we had been forced to 
re-direct more and more funds from our education program budgets to 
cover essential administrative costs. Our schools were forced to make 
difficult decisions--such as delaying purchase of new textbooks and 
other materials, paying non-competitive teacher salaries, reducing the 
number school days--to fit within these reduced budgets. Even with 
these cost-saving measures, some schools were still struggling with 
further reductions in management and business-office personnel at the 
risk of prudent internal controls and meeting the federally-mandated 
requirements for fiscal processes and operation of education grants/
programs.
    Request. Consistent, full funding of Tribal Grant Support Costs is 
a primary prerequisite for Tribes to continue to operate schools and 
for more Tribes to decide to take on this responsibility. As proponents 
of this model, we hope to be joined by even more schools in the coming 
years. We are grateful for Congress's commitment to full funding and 
willingness to work with Tribal school boards and the BIE to arrive at 
an amount that fulfills this obligation, particularly as more schools 
convert from BIE-operated to tribally-controlled schools.
                 facilities operations and maintenance
    Facilities Operations funding is for the ongoing operational 
necessities such as electricity, heating fuels, custodial services, 
communications, refuse collection and water and sewer service. This 
budget category saw a $7 million increase in fiscal year 2016 followed 
by a $3 million increase in fiscal year 2017.
    Facilities Maintenance funds are intended to provide for the 
preventative, routine, and unscheduled maintenance for all school 
buildings, equipment, utility systems, and ground structures. This 
budget category saw a $7 million increase in fiscal year 2016 followed 
by a $3 million increase in fiscal year 2017.
    There are numerous studies which attest to the fact that there is a 
close correlation between poor or inadequate facility conditions and 
poor student and staff performance. According to the fiscal year 2017 
budget justification, 55 of the 183 BIE-funded schools and dormitories 
(one-third) are still rated in ``poor'' condition in the Bureau's 
Education Facility Condition Index (FCI). Further, the fiscal year 2017 
budget justification elaborates that there is $388.9 million in 
deferred maintenance backlogs! It is clear that there is a long way to 
go with regard to upkeep of our schools. Part of the maintenance 
problem will be solved by replacing aging, deteriorated schools, but 
Federal resources for maintenance are needed to preserve that 
investment and to ensure our schools' facilities remain fully 
functional learning environments throughout the length of their design 
life.
    Impact. Our schools are making every effort to make do with very 
modest facilities funding. Since we cannot delay paying our utilities 
or avoid taking actions that would impact student safety, we often have 
to resort to using our other education or academic program monies--just 
like what happened when Tribal Grant Support Costs were not fully 
funded. We caution that insufficient funding to for Facilities 
Operations and Maintenance means delaying routine, as well as 
unscheduled, maintenance of buildings, equipment, utility systems and 
grounds--thereby jeopardizing student and staff safety. Attempts to 
moderate electrical and/or heating costs, or reduce custodial and 
refuse services and similar cost-cutting measures would only make our 
already compromised learning conditions more uncomfortable and 
unhealthy for students and staff. If we cannot provide a decent 
learning environment, how can we expect our students to focus on 
achieving academic success?
    Request. The recent increases for these two budget categories are 
important improvements; however, the fiscal year 2017 budget 
justification States that the $66.2 million requested (and provided in 
the fiscal year 2017 Omnibus appropriations) for Facilities Operations 
and the $59 million requested (and provided in the fiscal year 2017 
Omnibus appropriations) for Facilities Maintenance would fund 78 
percent of calculated Facilities Operations and Maintenance need across 
BIE-funded schools. We respectfully ask that the Subcommittee consider 
providing full funding.
        indian school equalization program (isep) formula funds
    The Indian School Equalization Program (ISEP) Formula is the core 
budget account for Educational and Residential programs of the BIE 
elementary and secondary schools and dormitories. These funds are used 
for instructional programs at BIE-funded schools and include salaries 
of teachers, educational technicians, and principals. The amount 
provided to each school is determined by a statutorily-mandated formula 
established by regulation.
    During the eight-year period of fiscal year 2003 to fiscal year 
2010, the ISEP Formula account increased by almost $45.5 million; but 
in only two of those years--fiscal year 2009 and fiscal year 2010--was 
the increase actually an increase in program funding. For the other 
years, the requested increases were limited to amounts needed for fixed 
costs and related changes, as opposed to actual program increases. 
Funding for ISEP began to fall in fiscal year 2011, and the fiscal year 
2015 level was actually $5 million less than in fiscal year 2010. In 
fiscal year 2016, Congress provided an increase for fixed costs 
followed by a $ 6.5 million program increase in fiscal year 2017.
    Impact. For most BIE-funded schools, the chronic shortfall in the 
other key school accounts has a negative impact on ISEP Formula 
funding, because ISEP Formula funds are often diverted to make up the 
shortfalls in other accounts, such as Tribal Grant Support Costs and 
Facilities Operations and Maintenance, when a Tribe or Tribal school 
board has no other source of funding to satisfy those shortfalls. This 
means fewer funds are available for instructional activities. We are 
tremendously grateful that Congress has increased funding for these 
critical accounts so ISEP Formula funds can be used for their intended 
purpose.
    Request. The $6.5 million program increase for a total of $400.2 
million that Congress provided in fiscal year 2017 will be very 
helpful; however, it still does not acknowledge the shortfalls that 
have been building for years. We respectfully request a total of $431 
million for this critical budget category.
                   education construction and repair
    This funding category within the BIA Construction budget includes 
Replacement School Construction; Facilities Component Replacement; 
Facilities Improvement and Repair; and Employee Housing Repair. 
According to the Department of the Interior, the current backlog of 
construction projects is estimated to be as high as $1.3 billion. The 
BIE has stated that its ``next-step'' is to ``develop a long-term 
school construction funding plan that will address the needs of all BIE 
funded schools determined to be in poor condition.'' We were encouraged 
by the substantial increase that this Subcommittee provided for 
Education Construction in fiscal year 2016 and then maintained in 
fiscal year 2017. We were encouraged to see the language in the fiscal 
year 2017 Omnibus joint explanatory statement directing the BIE to 
``submit an allocation plan to the Committees for campus-wide 
replacement and facilities replacement within 30 days'' of the 
Omnibus's enactment. Finally, we were overjoyed to see that the 
National Review Committee identified one of our member schools, Dzilth-
Na-O-Dith-Hle Community Grant School, for school replacement planning, 
design and construction funding.
    Impact. Facilities within the BIE system are woefully outdated and, 
in some cases, dangerous for students and staff. The lack of an 
appropriate learning environment in many BIE system schools puts Native 
students at an unfair disadvantage.
    Request. We ask that Congress and the BIE consult with Tribes and 
Tribal school boards when developing this long-term school replacement 
and repair plan. Further, we ask that once developed, Congress 
implement this plan by providing consistent funding for Education 
Construction and Repair each fiscal year. Adequate and predictable 
funding will mean that aging schools can finally be replaced in an 
orderly, scheduled fashion and our students can focus on their most 
important job: learning.
                               conclusion
    Thank you for the opportunity to provide testimony on these 
critical matters. As we work to provide a world-class education and 
bright future for our students, we greatly appreciate that the Members 
of this subcommittee and your colleagues in the Congress have joined as 
our partners in this endeavor.
    Questions regarding this document may be directed to: Jerry Chavez, 
President, Dine Grant Schools Association: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82e1eae3f4e7f8ace8e7f0f0fbb6b7c2fbe3eaededace1edefac">[email&#160;protected]</a>

    [This statement was submitted by Jerry Chavez, President.]
                                 ______
                                 
           Prepared Statement of the Duckwater Shoshone Tribe
    The requests of the Duckwater Shoshone Tribe (hereinafter 
``Tribe'') for the fiscal year 2018 Indian Health Service (IHS) and 
Bureau of Indian Affairs (BIA) appropriations are as follows:
  --Fully Fund Contract Support Costs for the IHS and BIA.
  --Protect the IHS budget from sequestration.
  --Permanently reauthorize the Special Diabetes Program For Indians.
  --Appropriate additional funding to the IHS Hospitals and Clinics 
        line item, and direct the IHS to allocate such additional 
        funding specifically for pharmacy programs and physician 
        services.
  --Increase funding for Road Maintenance in the BIA budget.
  --Increase funding for the Office of Indian Energy and Economic 
        Development (funded by the Community and Economic Development 
        activity in the Indian Affairs budget).
  --Increase funding for Welfare Assistance in the BIA budget.
    The Duckwater Shoshone Tribe is a federally recognized Indian Tribe 
located in a remote, high desert valley in the State of Nevada, in the 
very northern tip of Nye County. We are approximately 72 miles 
southwest of Ely and 40 miles southwest of Eureka. The Tribe is 
governed by a democratically elected, five-member Tribal council and is 
primarily an agricultural community. We offer a range of services to 
our Tribal members, including healthcare and natural resources and 
environmental health programs. The Tribe operates a Tribal health 
clinic under a self-governance agreement with the Indian Health Service 
(IHS) under Title V of the Indian Self-Determination and Education 
Assistance Act.
                fully fund contract support costs (csc)
    The Tribe wishes to thank the subcommittee for their leadership in 
making funding of IHS and BIA contract support costs for fiscal year 
2016, and now fiscal year 2017, an indefinite amount and also making it 
a separate account in the IHS and BIA budgets. This shift makes an 
enormous difference in helping ensure that the Indian Self-
Determination and Education Assistance Act (ISDEAA) is fully funded and 
implemented as Congress intended. It also significantly enhances the 
Federal-Tribal government-to-government relationship. The Tribe is also 
thankful that the subcommittees listened to Tribal comments about how 
the bill proviso in the fiscal year 2016 enacted bill effectively 
denied the CSC carryover authority authorized by the ISDEAA, and 
appreciates that the proviso was absent from the Consolidated 
Appropriations Act for fiscal year 2017.
    The Tribe nevertheless believes it is important that the indefinite 
appropriation of CSC funding be mandatory and permanent. Under the 
ISDEAA, the full payment of CSC is not discretionary, but is a legal 
obligation of the Federal Government which has been affirmed by the 
U.S. Supreme Court. Funding of CSC on a discretionary basis has in the 
very recent past placed the House and Senate Appropriations Committees, 
in their own words, in the ``untenable position of appropriating 
discretionary funds for the payment of any legally obligated contract 
support costs.'' The Tribe is determined to work together with the 
appropriate congressional committees to find a solution for achieving 
this goal.
                     exempt ihs from sequestration
    The Tribe is asking for this subcommittee's support, and the 
support of your colleagues, for amending the Balanced Budget and 
Emergency Deficit Control Act to exempt the IHS from potential 
sequestration of funds. We are glad that Congress has seen its way fit 
to fully exempt Veterans Health Administration's programs from 
sequestration and to limit state Medicaid grants and Medicare payments 
to a 2 percent reduction. However, we do not see why Indian health, as 
a Federal trust responsibility, is not afforded this same treatment. 
Indeed, a number of Members of this subcommittee and other members of 
Congress have publicly stated that it was an oversight that IHS was not 
included in the exempt category when the Balanced Budget and Emergency 
Deficit Control act was enacted.
    The Tribe is also greatly concerned that the current fiscal year 
2018 funding cap for non-defense discretionary spending is lower than 
the fiscal year 2017 spending cap. When put into the context of the 
President's ``skinny'' fiscal year 2018 budget outline proposal, which 
raises defense spending by $54 billion and lowers non-defense 
discretionary spending by a like amount, the Tribe fears that the stage 
is set for significant sequestration of funds. Whatever the outcome, 
Indian health should be made exempt from sequestration.
              special diabetes program for indians (sdpi)
    The Tribe, like others throughout Indian Country, continue to 
support a permanent reauthorization and increased funding for the SDPI, 
which provides crucial support for diabetes prevention and treatment 
programs. While we understand that an SDPI reauthorization bill is not 
under purview of this subcommittee, the SDPI and the programs carried 
out with SDPI funding certain affect the scope and range of our 
healthcare efforts and our IHS programs, which this subcommittee funds. 
The Tribe would greatly appreciate any help the Interior Appropriations 
Subcommittee Members can provide with your colleagues on this matter.
    The SDPI program has been funded at $150 million for many years and 
we often come to the brink of the expiration of its short authorization 
period before it is extended. It is set to expire again on September 
30, 2017. A permanent reauthorization with annual funding of $200 
million would provide stability for our diabetes programs in terms of 
planning and recruiting and retaining personnel. The program is 
required to track outcomes, and it has shown identifiable significant 
outcomes--both in terms of access to treatment and prevention.
       increased ihs funding for pharmacy and physician services
    Pharmacy programs within the IHS, and the funding the Tribe 
receives through its Hospitals and Clinics funding for carrying out a 
pharmacy program, are woefully inadequate for serving the needs of the 
Tribe's pharmacy patients. The funding has failed to keep up with the 
skyrocketing costs of prescription drugs, even with access to 
discounted goods and services on Federal Supply Schedules (FSS) and the 
McKesson Prime Vendor contract. The Tribe previously used its buy back 
authority to procure pharmacy services from the IHS through McKesson, 
which was extremely expensive, and moreover, McKesson has been 
experiencing a limited supply of pharmaceuticals. The Tribe's current 
funding is insufficient to keep up with rising pharmacy costs. The 
Tribe has a similar concern about the funding made available through 
the IHS that the Tribe can then allocate to procuring physician 
services. The Tribe has been experiencing great difficulty over the 
past several fiscal periods in recruiting and retaining physicians for 
carrying out its primary healthcare programs.
    While the Tribe has authority under its ISDEAA self-governance 
agreement to redesign its compacted programs and reallocate funding in 
any manner in which the Tribe deems to be in the best interests of the 
health and welfare of its own Tribal community, the reality is that 
there is just not enough funding for the Tribe to provide necessary 
services and still have adequate funding for pharmaceuticals and to pay 
physicians to locate to our remote area. We thus ask for the 
subcommittees' support for increasing the IHS appropriation for 
Hospitals and Clinics funding, and to direct the IHS to allocate 
additional funding toward pharmacy and physician services.
                      funding for road maintenance
    ``Road Maintenance,'' which is funded under the ``Tribal 
Government'' activity in the BIA budget, is critically important to our 
Tribe. We are located in a rural area with few resources, few well-
paved state or county connecting roads, and limited Tribal 
Transportation Program formula funds. As the Indian Affairs fiscal year 
2017 Budget Justification explains, ``The amount received in the TPA 
[Tribal Priority Allocation] portion of the budget has been 
approximately $24 million per year, which is less than 9 percent of the 
deferred maintenance of $289 million for fiscal year 2015.'' As has 
been noted in any number of Congressional hearings, written testimony, 
and Federal reports, the roads in Indian Country are some of the most 
dangerous and poorly funded roads in the Nation. We consider Road 
Maintenance funding to be a matter of public safety and we respectfully 
ask the subcommittee to increase appropriations for this critical 
budget sub activity.
                          economic development
    Being a rural Tribe means that our members have less access to both 
employment and job creation opportunities. We also struggle with high 
energy prices both for individual members and for our Tribal government 
buildings. These conditions are two factors hampering our ability to 
thrive as a community and we have been exploring a number of options to 
alleviate them. Through targeted studies, we have determined that we 
have viable wind and solar resources that can be developed. Developing 
these resources would provide our Tribe with greater energy certainty, 
lower energy prices, and economic opportunities for our Tribal members. 
We ask that this subcommittee increase funding for the Office of Indian 
Energy and Economic Development which is funded through the ``Community 
and Economic Development'' activity in the Indian Affairs budget, 
particularly the ``Job Placement and Training'' sub activity, which 
funds technical and vocational training, and the ``Minerals and 
Mining'' sub activity, which promotes and provides technical assistance 
for the development of renewable energy, conventional energy, and 
mineral resources. If we in Indian Country are to build a strong 
economic future for our communities, we must pursue an all of the above 
energy strategy which for us, includes wind and solar.
                        adult welfare assistance
    Rural areas, both in Indian Country and in non-Tribal areas, often 
experience higher than average rates of unemployment due to a lack of 
opportunities. As a Tribe, we are working hard to help create 
opportunities for our Members both in terms of job placement and job 
creation. Unfortunately, there are some circumstance when welfare 
assistance is temporarily needed for some Tribal members. The ``Welfare 
Assistance'' sub activity funded under the ``Human Services'' activity 
in the BIA budget provides these critical resources for our people. We, 
like the BIA and Congress, believe that welfare assistance should be a 
temporary safety net and ultimately, a bridge to better circumstances 
and opportunities, but we believe that it must exist. We ask the 
Subcommittees to increase funding for Welfare Assistance as a way to 
strengthen and stabilize families so that they are able to pursue 
opportunities and ultimately become self-sufficient.
    Thank you for your consideration of the concerns and requests of 
the Duckwater Shoshone Tribe.

    [This statement was submitted by Rodney Mike, Tribal Chairman.]
                                 ______
                                 
 Prepared Statement of the Dzilth-Na-O-Dith-Hle Community Grant School 
                                 (DCGS)
    Thank you for the opportunity to submit testimony on behalf of the 
Dzilth-Na-O-Dith-Hle Community Grant School (DCGS) on the Navajo 
Reservation in Bloomfield, New Mexico. Our school, which has been in 
continuous service since 1968, operates a K-8 educational program and a 
dormitory program for students in grades 1-12, serving around 260 
students in both programs. DCGS is a tribally controlled grant school 
is located approximately 170 miles northwest of Albuquerque. DCGS is 
primarily funded through appropriations received from the Bureau of 
Indian Education (BIE), and pass-through funding from the Department of 
Education.
    Our all-Navajo Board operates the DCGS through a Grant issued by 
the BIE under the Tribally Controlled Schools Act. The DCGS goal is to 
make a difference in the educational progress of our students and we 
believe that all of our students are capable of achieving academic 
success. Yet, we suffer from underfunding of practically every one of 
our educational and related programs that affects our ability to fully 
meet our school goals and our ability to successfully operate our 
programs under the Indian Self-Determination policy.
    Locally controlled schools like DCGS educate our students to be 
contributing members of our community and to help our people. This 
focus has helped improve our students' performance. If we were able to 
operate our school without funding shortfalls and constant worries, we 
think our students would reach even more amazing heights. Funding 
increases are desperately needed and are having a significant impact.
    At the outset, we would like to associate ourselves with the 
testimony of the Dine Bi Olta School Board Association, and fully 
support their recommendations. We ask the Subcommittee to pay 
particular attention to their suggestions regarding the BIE budget 
model, and BIE program management. Thank you.

    Our recommendations can be summarized as follows:

  --Ensure local control of schools and education resources through the 
        transition.
  --Fully fund school construction.
  --Provide $109 million for facilities operation and $76 million for 
        facilities maintenance (full funding).
  --Fund Student Transportation at $73 million, and BIA Road 
        Maintenance at $40 million.
  --Continue to fully fund Tribal Grant Support Costs.
  --Protect BIE and Indian programs from sequestration or shutdown.

1. Ensure Local Control of Schools and Education Resources

    We have told this Subcommittee before about DCGS's concern about 
the BIE's ``Blueprint for Reform,'' which aims to reorganize the BIE's 
administrative structure. We have been concerned that reform would 
centralize decisionmaking in the Headquarters office--rather than 
looking to schools and local communities. While we do not doubt the 
BIE's commitment to a high-quality education for Indian students, we 
firmly believe that our parents and our elected school board are best-
suited to make decisions affecting our students--a belief reflected by 
Congress in the passage of the Tribally Controlled Schools Act. We 
believe the new Administration will continue to implement the 
Blueprint, but we ask that this Subcommittee and your colleagues work 
with the BIE and Tribal schools to ensure BIE decisions are best for 
students and schools.

2. Full Funding for School Construction

    DCGS is proud to have been a successful applicant for the current 
round of school construction funding at BIE. As our school facilities 
were outdated and insufficient for our needs, we are looking forward to 
being able to offer an improved school for our students. This funding 
will enable us to replace our buildings that 7 years ago had a backlog 
of maintenance projects that would have cost $7.7 million to complete; 
a new school is transformative for our community.
    DCGS is nearing completion of its planning phase for the new school 
and, while there is work to do still, we believe that we can be a model 
of success in planning. We have worked closely with BIA facilities on 
moving this project along, and have made great progress. We have hired 
a project manager for the construction of the school, secured an 
engineering firm for design, are in the middle of our planning with 
staff and have conducted several interviews to make sure our staff has 
input on the design needs and planning process. The assessment of 
necessary prerequisites for construction is complete, including all 
field work for the facility condition assessment. The remaining hurdle 
is that we are waiting for completion of the Historic Preservation 
Assessment by the Navajo Nation. We have requested that the BIE assist 
the Nation in completing this step, as the project is otherwise on time 
and on-budget. If necessary, we hope this Subcommittee will recognize 
that there must be flexibility in timelines for funding availability in 
these projects, and work with us and the BIE on these matters.
    According to the Department of Interior's 2013 figures, the backlog 
of construction projects for schools was estimated to be as high as 
$1.3 billion. That figure has grown with further backlog and the shift 
of more schools onto the necessary construction list. We were 
encouraged by the substantial increase that this Subcommittee provided 
for Education Construction in fiscal year 2016 and then maintained in 
fiscal year 2017. We believe BIE schools are due for a wholesale school 
replacement effort like that provided for Department of Defense schools 
where 134 of their schools were rebuilt over 5 years, beginning in 
2011. DCGS supports the call for full funding for school construction 
funds to immediately address this need. We urge the Committee and the 
BIE to engage in consultation with Tribal schools and Tribes to begin 
the effort towards modernization of all BIE schools.

3. Full Funding for Facilities Operation and Maintenance

    To enable Tribal schools to keep their buildings in working order 
(and so they last as long as possible), we must receive adequate 
operation and maintenance funding. As we have said in years past, we 
are forced to sacrifice instruction and other funds to keep ancient 
heaters working or to keep water and sewer systems functional. We owe 
it to our students and to our communities to make sure our buildings 
are safe and sanitary, and full operations and maintenance funding 
allow us to do so. Schools still only receive partial funding for these 
purposes. DCGS requests that Congress fund BIE facilities operations at 
$109 million and BIE facilities maintenance at $76 million.

4. Increase Funding for Indian School Equalization Programs

    The most critical stream of funding for community grant schools 
like ours is funding in the Indian School Equalization Program (ISEP). 
The ISEP funds are those that schools use for the day-to-day operation, 
whether that is paying teachers and staff, purchasing curriculum and 
supplies, or operating student programs. In years past, our ISEP funds 
were put under pressure by unfunded needs elsewhere in our schools, 
which might have involved paying utilities or repairing one of our 
school buses with ISEP funds. The National Congress of American Indians 
has recommended that Congress appropriate $431 million for ISEP 
funding, which we think should be this Subcommittee's baseline for 
funding this budget year. We have repeated this in past years, but we 
want you to know that we really do mean it: ISEP is our schools' 
lifeblood, and we are still struggling to make up for losses over time.

5. Increase funding for Student Transportation

    As a rural school, one of our most challenging tasks is getting our 
children to school and back home--we must battle poor roads, increasing 
costs of maintenance, and high fuel costs as part of this, but we must 
keep the buses running. We request at least $73 million for student 
transportation in the BIE system. We also request that this 
Subcommittee fund BIA Road Maintenance at a sustainable level. We echo 
NCAI's recommendation that the Subcommittee appropriate at least $40 
million for road maintenance in fiscal year 2018. Such funding will 
enable us to maintain our six school buses, and will protect other 
funds that would otherwise be used for this purpose.

6. We support full funding for Tribal Grant Support Costs.

    Tribal Grant Support Costs (TGSC) (formerly known as Administrative 
Cost Grants) are the BIE analogue to Contract Support Costs, and are 
necessary for schools like DCGS to operate our schools. Not only do the 
TGSC funds pay for the administration of the school, but also fund all 
indirect costs like payroll, accounting, insurance, background checks 
and other legal, reporting, and recordkeeping requirements.
    TGSC has been fully funded for the last 2 years, and we are very 
grateful to this Subcommittee for that. In years past schools had only 
received, at most, two-thirds of the TGSC needed to cover overhead 
costs. DCGS welcomes this long overdue change, and applauds this 
Subcommittee's decision to treat schools' support costs the same as 
contractors with the BIA and the Indian Health Service. We are able to 
better serve our students with these funds.
    Like all our funding, TGSC is critical, and we appreciate very much 
the Subcommittee's support in full funding. This year, we request 
continued full funding of TGSC, which enables DCGS and other schools to 
realize self-determination in education. We believe last year's funding 
of $80 million must be increased to meet the need as additional BIE-
operated schools convert to Tribal operation under the Tribally 
Controlled Schools Act.

7. Protect BIE and other Indian Programs from Sequestration or Shutdown

    You will likely hear from several other witnesses today that 
Indian-related programs must be protected from budget fights that 
result in sequestration, rescission, or government shutdown. We join 
those in urging this Subcommittee to include language in budget and 
appropriations bills that continued funding for Native-related programs 
through these challenges. Schools receive advance year funding--and 
thus are a bit shielded from shutdowns or short term continuing 
resolutions--but our communities feel the reverberations from these 
incidents directly. Funding for our programs is scarce already--
reductions for sequestration and stop-work orders from shutdowns hit 
reservation communities especially hard, and our students feel the same 
stress that is affecting their parents and neighbors.
    Since Tribal programs are part of treaty and trust rights--programs 
that were paid for with land and lives--we think it appropriate that 
Congress make Native-related appropriations mandatory. Upholding the 
trust responsibility is a solemn duty of the U.S., and exempting 
Native-related programs and funding from budget challenges would be a 
good step in fulfilling that charge.
    Lastly, we would like to raise our concern to this Subcommittee 
with language in the President's signing statement for the fiscal year 
2017 Omnibus Appropriations bill. In that signing statement, he singled 
out School Improvement Programs serving the BIE, Tribal technical 
assistance and contracting programs with the Department of Defense, and 
Native American and Alaska Native Housing Block Grants as an example of 
programs that ``allocate benefits on the basis of race, ethnicity, and 
gender,'' and ones that the Administration will treat ``in a manner 
consistent with the requirement to afford equal protection of the 
laws.'' This Subcommittee is well aware that Native American programs--
like all of those at the BIE and BIA--are not provided on the basis of 
race or ethnicity. These programs grow from the political relationship 
between Tribal governments and the United States, and embody the trust 
and treaty duties we mentioned earlier. We worry that miscategorization 
of programs serving Indians and Alaska Natives as based on race or 
ethnicity undermines the responsibility shared by all branches of the 
Federal Government to live up to the United States' promises. We hope 
this Subcommittee plays an important oversight role to ensure the 
Administration fulfills its trust and treaty obligations as well.
    We look forward to working with the Subcommittee on furthering the 
important work of our school and enriching our students. Thank you for 
the opportunity to submit testimony.

    [This statement was submitted by Ervin Chavez, School Board 
President & Faye BlueEyes, Administrative Services Director.]
                                 ______
                                 
        Prepared Statement of the Ecological Society of America
    On behalf of the Ecological Society of America (ESA), the world's 
largest society of professional ecologists representing over 10,000 
members across the country, I write to urge you to provide $1.2 billion 
for the US Geological Survey (USGS) for fiscal year 2018 and to reject 
proposed cuts to the agency's fiscal year 2017 funding. ESA is 
concerned with the administration's proposal to cut the USGS fiscal 
year 2018 budget by nearly 15 percent to $900 million, a funding 
reduction that would significantly restrict the agency's ability to 
fulfill its mission and provide important impartial scientific 
information to decision makers and American citizens. We urge you to 
preserve funding for the USGS so the agency can continue its critical 
work of maintaining our Nation's natural resources, ensuring 
environmental health, and protecting public health.
    The USGS plays a unique role within the Department of the Interior, 
conducting research across a broad array of scientific disciplines and 
providing data that informs responses to many of the Nation's greatest 
challenges. To highlight just a few examples, USGS science:
  --Reduces risks from natural hazards--including earthquakes, 
        landslides, volcanic eruptions, flooding, drought, and 
        wildfires--that jeopardize human lives and result in billions 
        of dollars in damages annually.
  --Informs management of freshwater resources--both above and below 
        the land surface--for drinking water, agriculture, and 
        commercial, industrial, recreational, and ecological purposes.
  --Informs sound management of natural resources on Federal and State 
        lands, including control of invasive species and wildlife 
        diseases that cause billions of dollars in economic losses. 
        This information is shared with other Interior bureaus and 
        State agencies to allow for adequate monitoring and management.
  --Helps predict the impacts of land use and climatic conditions on 
        the availability of water resources and the frequency of 
        wildfires. The Landsat satellites have collected the largest 
        archive of remotely sensed land data in the world, which 
        informs agriculture production and our Nation's response to and 
        mitigation of natural hazards.
  --Provides vital geospatial and mapping data used in economic 
        development, environmental management, infrastructure projects, 
        and scientific applications by States, Federal agencies, and 
        the private sector.
  --Helps make decisions about the Nation's energy future by assessing 
        mineral and energy resources--including rare earth elements, 
        coal, oil, unconventional natural gas, and geothermal. The USGS 
        is the sole Federal source of information on mineral potential, 
        production, and consumption.
    Few modern problems can be addressed by a single scientific 
discipline. The USGS has a unique capacity to deploy truly 
interdisciplinary teams of experts to gather data, conduct research, 
and develop integrated decision support tools that improve ecosystem 
management, ensure accurate assessments of our water quality and 
quantity, reduce risks from natural and human-induced hazards, deliver 
timely assessments of mineral and energy resources, and provide 
emergency responders with accurate geospatial data and maps.
    The Society is appreciative of the strong bipartisan, bicameral 
support USGS has received from House and Senate appropriators over the 
years. We respectfully request that you continue this trend by 
providing $1.2 billion for the US Geological Survey for fiscal year 
2018 and rejecting proposed cuts to the agency's fiscal year 2017 
funding.

    [This statement was submitted by David M. Lodge, President.]
                                 ______
                                 
        Prepared Statement of the Ecological Society of America
    The Ecological Society of America (ESA) appreciates the opportunity 
to provide testimony in support of fiscal year 2018 appropriations for 
the Environmental Protection Agency. ESA is the Nation's largest 
professional society of ecologists, representing over 10,000 members 
across the country. We write to urge you to support robust funding for 
the Environmental Protection Agency (EPA) for fiscal year 2018, 
specifically at least $715 million for Science and Technology within 
EPA.
    The EPA is vital to protecting both the environment and human 
health, and the agency's Science and Technology programs are critically 
important to its ability to successfully address environmental 
problems. Strong investments in the EPA are essential to ensuring the 
health of our Nation's citizens and environment.
 epa science and technology programs reduce environmental risks facing 
                               americans
    Since its formation in 1970, the EPA has reduced environmental risk 
to Americans, enforced laws safeguarding human health and the 
environment, and helped the Nation serve as a leader in protecting the 
environment.
    Science and Technology funding supports programs and research that 
contribute to clean air, clean water, sustainable communities, homeland 
security, and human health. Through the Office of Research and 
Development (ORD), the EPA conducts cutting-edge research programs, 
including important ecological research and monitoring, that provide 
the scientific foundation for the agency's decisionmaking and other 
programs. EPA research projects focus on issues of national 
significance and help to solve complex environmental problems--often 
with public health implications--with new scientific understanding and 
technologies. From detecting and addressing harmful algal blooms to 
helping communities rehabilitate contaminated sites, EPA research 
funded by Science and Technology appropriations delivers solution-
oriented results with broad and significant impacts.
   proposed cuts would have consequences for human and environmental 
                                 health
    ESA is very concerned with the administration's proposed cuts to 
the EPA. The President's budget proposal requests only $5.7 billion for 
the agency, a reduction of 31 percent from the fiscal year 2017 enacted 
amount of $8.1 billion. This significant cut would be achieved by 
eliminating 3,800 agency jobs and over fifty agency programs, including 
categorical grant programs and regional environmental programs, climate 
science research, and partnership programs. The administration's budget 
also proposes to reduce funding for EPA Science and Technology 
considerably to only $451 million, a 36 percent cut from net fiscal 
year 2017 funding.
    ESA is extremely troubled by these proposed changes and the 
devastating impacts they would have on the agency's ability to fulfill 
its mission and conduct the scientific research necessary to inform its 
operations and decisions. We urge you to reject cuts to EPA programs 
and research as you proceed with fiscal year 2018 appropriations.
 strong investments in the epa protect our citizens and our ecosystems
    The EPA is an essential agency that plays a key role in addressing 
ecological problems and other environmental issues that affect public 
health. We appreciate your past support for this critical agency, and 
we urge you, in the interest of ensuring the health of our Nation's 
citizens and ecosystems, to continue this support and provide robust 
funding for the EPA in fiscal year 2018, in particular $715 million for 
EPA Science and Technology.
    Thank you for your consideration of this request.
                                 ______
                                 
       Prepared Statement of the Entomological Society of America
    The Entomological Society of America (ESA) respectfully submits 
this statement for the official record in support of funding for 
entomology-related activities at the U.S. Department of Agriculture 
Forest Service and the U.S. Environmental Protection Agency (EPA). For 
fiscal year 2018, ESA requests the Forest Service be funded at least at 
the fiscal year 2016 enacted level of $5.68 billion in discretionary 
funds. Within the Forest Service, ESA requests the Forest and Rangeland 
Research budget be supported at $291.982 million to preserve valuable 
invasive species research and development. The Society also supports 
continued investment in Forest Health Management programs across the 
Forest Service in fiscal year 2018. In addition, ESA recommends $8.267 
billion for EPA, including support for Pesticides Licensing Program 
Area activities within its Science & Technology and Environmental 
Program & Management budgets, and continued support for State & Tribal 
Assistance Grants for Pesticide Program Implementation. Finally, ESA 
strongly supports EPA's commitment to work with other Federal agencies 
to monitor and improve pollinator health, including involvement by EPA 
to examine the potential impact of pesticides on pollinator health.
    Advances in forestry and environmental sciences, including the 
field of entomology, help to protect our ecosystems and communities 
from threats impacting our Nation's economy, public health, and 
agricultural productivity and safety. Through improved understanding of 
invasive insect pests and the development of biological approaches to 
pest management, entomology plays a critical role in reducing and 
preventing the spread of infestation and diseases harmful to national 
forests and grasslands. The study of entomology also contributes to the 
development of Integrated Pest Management (IPM) techniques, which use 
science-based, environmentally friendly, comprehensive methods to take 
preventative action against pests, often resulting in lower costs and a 
more targeted use of pesticides. In addition, entomology improves our 
knowledge of pollinator biology and the factors affecting pollinator 
health and populations, helping to ensure safe, reliable crop 
production that meets the needs of a growing world population.
    The U.S. Forest Service sustains the health, diversity, and 
productivity of 193 million acres of public lands in national forests 
and grasslands across 44 States and territories. Serving as the largest 
supporter of forestry research in the world, the agency employs 
approximately 35,000 scientists, administrators, and land managers. In 
addition to activities at the Federal level, the Forest Service 
provides technical expertise and financial assistance to State and 
private forestry agency partners.
    The Forest Service's Forest and Rangeland Research budget supports 
the development and delivery of scientific data and innovative 
technological tools to improve the health, use, and management of the 
Nation's forests and rangelands. Within Forest and Rangeland Research, 
the Invasive Species Strategic Program Area provides scientifically 
based approaches to reduce and prevent the introduction, spread, and 
impact of non-native invasive species, including destructive insects, 
plants, and diseases that can have serious economic and environmental 
consequences for our Nation. For example, Forest Service scientists are 
working to prevent the devastation of ash trees across North America by 
the emerald ash borer, an invasive beetle that was accidentally 
introduced from Asia. Emerald ash borer was first detected in 2002 and, 
since then, has killed countless millions of ash trees. This biological 
invasion threatens to eliminate all ash trees from North America, and 
is the costliest invasion from a forest insect to date. Emerald ash 
borer is just one of the exponentially growing list of invasive insects 
and diseases that harm our Nation's forests and our Nation's economy. 
Forest health is also affected by invasive weeds, and those weeds are 
often best controlled by beneficial insects used as biological control 
agents, resulting in permanent and often spectacular control. ESA 
respectfully requests that Forest and Rangeland Research be fully 
funded at $292 million for fiscal year 2018.
    Also under the purview of the Forest Service is the Forest Health 
Management program, which conducts mapping and surveys on public and 
private lands to monitor and assess risks from potentially harmful 
insects, diseases, and invasive plants. The program also provides 
assistance to State and local partners to help prevent and control 
outbreaks that threaten forest health. According to a 2011 study, 
invasive forest insects cost local governments alone an average of over 
$2 billion per year; direct costs to homeowners from property loss, 
tree removal, and treatment averages $1.5 billion per year.\1\ 
Initiatives within the Forest Health Management program can help 
control these costly pests. The program's ``Slow the Spread'' 
activities, for example, have led to a 60 percent reduction in the rate 
of the spread of an invasive species known as gypsy moth, resulting in 
an estimated benefit-to-cost ratio of 3:1. Without the program, it is 
estimated that 50 million additional acres would have been infested by 
the moth.\2\ To support these important functions, ESA requests that 
the subcommittee oppose any proposed cuts to Forest Health Management 
program in fiscal year 2018.
---------------------------------------------------------------------------
    \1\ Aukema, J.E.; Leung, B.; Kovacs, K.; [et al.]. 2011. Economic 
impacts of non-native forest insects in the continental United States. 
PLoS ONE 6(9): e24587.
    \2\ Forest Service Fiscal Year 2017 Budget Overview: http://
www.fs.fed.us/sites/default/files/FY-2017-FS%20-budget-overview.pdf.
---------------------------------------------------------------------------
    EPA carries out its mission of protecting human health and the 
environment by developing and enforcing regulations, awarding grants 
for research and other projects, conducting studies on environmental 
issues, facilitating partnerships, and providing information through 
public outreach. Through these efforts, EPA strives to ensure that our 
Nation enjoys clean water, clean air, a safe food supply, and 
communities free from pollution and harmful chemicals.
    EPA's Pesticides Licensing Program Area, supported by EPA's Science 
& Technology and Environmental Program & Management budgets, serves to 
evaluate and regulate new pesticides to ensure safe and proper usage by 
consumers. Through the mandate of the Federal Insecticide, Fungicide, 
and Rodenticide Act (FIFRA), EPA utilizes scientific expertise and 
data, including knowledge gained from entomological sciences, to set 
maximum tolerated residue levels and to register pesticide products as 
effective and safe. By controlling insects that act as vectors of 
diseases of humans and domesticated animals, and invasive insect 
species that endanger our environment, pesticides registered by EPA 
help protect public health and the Nation's food supply. EPA's 
activities in this area also include the development of educational 
information and outreach to encourage the use of IPM and other reduced-
risk methods of controlling pests. For example, EPA continues to 
support work protecting children from pesticide exposure used in and 
around schools, helping to promote cost-effective strategies that 
reduce student exposure to pesticides and pests. IPM strategies used in 
schools reduce student exposure to pesticides as well as allergens from 
pests themselves. Therefore, ESA supports continuing the modest funding 
that EPA has invested in school IPM.
    Among EPA's State & Tribal Assistance Grants, categorical grants in 
the area of Pesticides Program Implementation help to facilitate the 
translation of national pesticide regulatory information into real-
world approaches that work for local communities. For example, these 
grants fund efforts to reduce health and environmental risks associated 
with pesticide use by promoting, facilitating, and evaluating IPM 
techniques and other potentially safer alternatives to conventional 
pest control methods. ESA requests that the subcommittee support a 
modest increase for Pesticides Program Implementation grants.
    ESA is in favor of increased funding for scientifically based 
studies of pollinator populations and health. Pollinators play a vital 
role in our Nation's agriculture industry; for example, bees pollinate 
more than 90 crops in the United States and are essential for the 
production of an estimated 70 percent of all the food we eat or export. 
To ensure a healthy bee population, more research is needed to fully 
understand the complexities of Colony Collapse Disorder (CCD) and to 
examine the diverse factors that endanger bee health. Pesticides 
represent just one potential risk to bees, but both the risks and 
benefits must be balanced, and those risks and benefits will vary among 
different crops and different crop-producing regions of the United 
States. EPA is well-positioned to help identify methods for protecting 
bee health; the agency has previously awarded agricultural grants to 
three universities to aid in the development of IPM practices that 
lower pesticide risks to bees while protecting valuable crops from 
pests. For this reason, ESA supports EPA's participation in multi-
agency efforts to investigate pollinator health and implementing plans 
to prevent pollinator population decline.
    ESA, headquartered in Annapolis, Maryland, is the largest 
organization in the world serving the professional and scientific needs 
of entomologists and individuals in related disciplines. Founded in 
1889, ESA has nearly 7,000 members affiliated with educational 
institutions, health agencies, private industry, and government. 
Members are researchers, teachers, extension service personnel, 
administrators, marketing representatives, research technicians, 
consultants, students, pest management professionals, and hobbyists.
    Thank you for the opportunity to offer the Entomological Society of 
America's support for Forest Service and EPA programs. For more 
information about the Entomological Society of America, please see 
http://www.entsoc.org/.

    [This statement was submitted by Susan Weller, PhD, President.]
                                 ______
                                 
   Prepared Statement of the Federation of State Humanities Councils
    Madam Chairwoman and members of the subcommittee, I thank you for 
this opportunity to submit testimony on behalf of the 56 State and 
jurisdictional humanities councils. Our request for fiscal year 2018 is 
$155 million for the National Endowment for the Humanities and $46 
million for the Federal/State Partnership, which funds the councils.
    The State humanities councils are full partners of the NEH, using 
the Federal/State Partnership funding to bring public programs to 
communities throughout the nation. Councils use these funds to leverage 
additional support from foundations, corporations, private individuals, 
and State governments. On average, councils leverage $5.00 in local 
contributions for every dollar of Federal funding awarded through their 
grants. Over the past few years, they have further extended their 
resources by forming partnerships with more than 9,000 organizations 
throughout their States. Each year, councils continue to expand their 
programming to meet growing needs in their States. Councils in many 
States help to revitalize communities, especially in rural areas, 
through programs that strengthen local institutions and increase 
tourism. Teacher institutes conducted by councils increase the quality 
of humanities education and re-inspire teachers. Family reading 
programs contribute to school readiness and long-term academic success, 
particularly for children in low-income families. Council-conducted 
community conversations help residents understand all sides of divisive 
issues.
    The preamble to the legislation that created the National Endowment 
for the Humanities and its sister agency, the National Endowment for 
the Arts, proclaims that ``Democracy demands wisdom and vision in its 
citizens.'' This lofty assertion calls for citizens to develop the 
ability to carefully evaluate and shape decisions about issues they 
confront in their personal and community lives. It requires citizens to 
understand their own and their nation's history in order to fully 
understand the forces that brought us to our present moment. It asks 
that citizens recognize and accommodate differences in viewpoint and 
experience as a necessary prelude to shaping strong communities. These 
are all values advanced through the humanities and the programs 
supported by the National Endowment for the Humanities and the State 
humanities councils.
    The first statement of the preamble offers another bold assertion: 
``The arts and the humanities belong to all the people of the United 
States.'' This includes people without easy access to major educational 
and cultural institutions but whose stories are an essential part of 
our national narrative. It includes people in all income categories, 
all racial and ethnic groups, and all levels of educational 
achievement. It includes those who live in towns of 400 people as well 
as those who live in cities with populations in the millions. The State 
humanities councils play a key role in fulfilling the promise of the 
preamble's statement by extending the reach of the NEH into communities 
in all corners of every State. California Humanities, for example, 
helped tell the story of Boonville, with a population of just over a 
thousand people, through a radio documentary, while also training 
librarians to facilitate community conversations in such urban areas as 
San Diego, Sacramento, and Riverside City. In 2017-18, the Kentucky 
Humanities Council will bring the Smithsonian's ``Hometown Teams'' 
exhibit to the small communities of Hazard, Carlisle, and Hodgenville, 
while preparing for the 36th Annual Kentucky Book Fair to be held at 
the Kentucky Horse Farm in November. The Rhode Island Council for the 
Humanities makes it possible for both residents and tourists to learn 
about historical sites in Rhode Island through a smartphone app that 
tells stories by and about Rhode Islanders, and through their 
``Catalyzing Newport'' project that engages visiting scholars to help 
citizens address local and national challenges. Senior citizens 
throughout North Dakota who are interested in writing can join their 
neighbors in writing and storytelling workshops. The council's annual 
GameChanger festival brings citizens together to share ideas about a 
major event or issue that has changed or has the potential to change 
our world.
    Councils ensure that ``the humanities belong to all the people'' 
through their programming for such groups as veterans, residents of 
rural communities, children and families, and teachers, as well as 
through the many programs designed to strengthen and revitalize 
communities.
    Supporting veterans. The State humanities councils and the NEH 
offer programs that not only help returning veterans find their place 
in their communities, but also help those communities understand the 
veterans' experiences. One of the most effective tools for processing 
the experience of war is reading and sharing stories, which is the 
basis of several council programs for veterans.
    The Alaska Humanities Forum's ``Duty Bound'' is a thematic 
initiative that runs through their programs, activities, and 
publications, deepening the public's understanding of the experiences 
of Alaska's veterans. In a State that is home to 73,000 veterans, the 
council uses the humanities to promote conversations that increase 
understanding of those affiliated with the armed services and to help 
tell the stories of military personnel and veterans. One of the 
programs, ``Danger Close: Alaska,'' brings together veterans and 
civilian writers to explore themes of war and military experience. 
These programs gave rise to a publication, ``Duty Bound,'' which 
featured pieces by two of the participants in its premiere issue.
    The Missouri Humanities Council also employs writing as a means of 
enabling veterans and their families to explore and understand the 
experience of war. Their Veterans Writing Workshop, conducted in 
partnership with two major libraries, a veterans' medical facility, and 
a university, are offered free and are taught by professional writers. 
Some of these writings are included in the council's annual anthology, 
Proud to Be: Writing By American Warriors, first published in 2012. The 
wife of a Vietnam veteran who took part in the program said, ``Perhaps 
after reading what others shared, he feels it is now all right for him 
to do so as well. History will always be written by professionals, but 
a personal story of what a man experienced in his lifetime is priceless 
for our future generations.''
    ``On Coming Home,'' a five-week reading and discussion program 
sponsored by Humanities Oregon, offers veterans from all eras an 
opportunity to come together around a meal to read, discuss, and share 
ideas about such themes as patriotism, family, loyalty, ethics, and 
home. Discussions, led by a veteran, are prompted by music, poems, and 
essays written by veterans from the Civil War through the recent wars 
in Iraq and Afghanistan.
    California Humanities continues to share the powerful stories 
gathered through their ``War Comes Home'' initiative, which included a 
series of video-recorded interviews with veterans from several 
different eras and varying backgrounds; five public forums that looked 
at a variety of veteran-related themes; and a package of resources for 
teachers that included access to an online instructional toolkit and 
webinars. All materials are available on the council website for 
viewing by the public and as a source of instructional materials for 
teachers.
    Telling the story of rural communities. Rural America represents a 
vital chapter of our national narrative, but it is a chapter too often 
overlooked. The State councils are a major force in helping rural 
communities define their own stories and share them with the rest of 
the country. Through the Museum on Main Street (MoMS) initiative, 
designed specifically for rural communities and made possible through a 
partnership between the councils and the Smithsonian Institution 
Traveling Exhibition Service (SITES), dozens of rural communities each 
year are able to host a Smithsonian exhibit, supplemented by an 
exhibition created by residents of the community, demonstrating how the 
themes of the exhibit play out at the local level.
    Humanities Montana pays special attention to rural communities in 
its State through its ``Hometown Humanities'' program, which selects a 
town of fewer than 20,000 people each year as a partner in a year of 
programming. The council provides the community with at least 20 free 
programs of the town's choosing, selected from the council's catalog of 
programs. The council requires the community to form a leadership team 
of eight to twelve people drawn from the local library, schools, 
museums, local government, and others to develop the slate of programs, 
enhance existing cultural programs, and assess the effectiveness of the 
project as it unfolds.
    This year councils in Alaska, Kentucky, Maryland, Missouri, 
Mississippi, Montana, North Dakota, New Mexico, Rhode Island, Vermont, 
West Virginia, and 24 other States collaborated with the National 
Archives to educate thousands of Americans, particularly in rural 
communities, about the Bill of Rights, in recognition of its 225th 
anniversary. The councils partnered with more than 1,300 libraries, 
community centers, schools, and other local institutions, which 
displayed the kiosk exhibit and supported educational activities.
    Promoting family literacy. Many studies have shown that children 
exposed to books at an early age have a much higher chance of long-term 
academic success. Conversely, children who have had little exposure to 
the culture of reading in their homes can be at a serious educational 
disadvantage before they even enter school. Many councils help address 
this potential gap, especially for low-income families, through reading 
programs in local libraries. These programs have impact in several 
important ways--by bringing families together in a welcoming setting, 
helping to strengthen reading skills of parents, familiarizing families 
with the library, instilling a love of reading, and encouraging 
intergenerational discussion of ideas. In 1991 the Louisiana Endowment 
for the Humanities created a groundbreaking humanities-based program, 
``Prime Time,'' currently conducted by councils in Alabama, Florida, 
Kentucky, Michigan, Mississippi, Nebraska, and Washington, which has 
been shown to produce long-term improvement in family engagement and 
student academic achievement. The program uses high-quality children's 
literature and storytelling to generate discussion of such themes as 
courage and determination, dreams, loyalty, and fairness. Since 2015, 
the Mississippi Humanities Council has served 198 families and 346 
children through their Prime Time program, providing both learning and 
enjoyment. One of the project's storytellers offered this description 
of the project's impact: ``It was evident to me that people in the 
community are hungry for opportunities to enrich the lives of their 
children, but there are not many opportunities to do so. Prime Time 
seemed to fill a need for a sense of community and belonging as well as 
supporting the parents' desire for their children to receive a good 
education.''
    Inspiring leaders of the future. The future of our nation depends 
on investment in our children. That means providing the best possible 
educational resources and opportunities for students in both rural and 
urban settings. Humanities Tennessee's ``Letters About Literature'' 
program is a contest for students in grade 4 through 12 to write a 
letter to an author, living or dead. Students are encouraged to think 
critically about something they have read and reflect on how it has 
changed their view of the world. In West Virginia, a professor at 
Bluefield State College reported that the West Virginia Humanities 
Council had provided mini-grants for the college's Windows on the World 
presentations, which enriched not only the students at Bluefield State, 
but also high school students in the surrounding communities of 
Princeton, Montcalm, and Pikeview. ``If we did not have the support of 
the NEH and West Virginia Humanities Council, our students would be 
deprived of these learning experiences and exposure to the world's 
cultures, customs, and traditions. The Council helps us to prepare 21st 
century leaders who will be more worldly-wise.''
    Councils in New Mexico and Maryland serve as the State coordinators 
for the very successful National History Day program, through which 
middle and high school students participate in a competition that 
encourages critical thinking, development of research skills, and a 
deep understanding of history. A History Day parent in Maryland 
reported that her daughter's National History Day experience 
``encouraged her critical thinking skills and allowed her to fine-tune 
her writing skills, among many other positives, and as a result, was a 
contributing factor in her being accepted to Columbia University. I am 
proud to share that she is now a successful practicing attorney in the 
healthcare field.''
    Since 1997, Vermont Humanities has sponsored a one-week summer 
literacy camp allowing up to 200 middle school children to read, share 
ideas, and participate in a variety of creative activities in 
communities around the State. Teachers and school administrators 
encourage students most in need of individual support to take part in 
the camp, which offers a safe and secure environment in which to engage 
with literature and ideas, develop new skills, and gain confidence. A 
director of one of these camps told the council, ``We know that the 
camp is a success because each year every camper wants to finish every 
reading, every project, and every activity.''
    The councils' profound understanding of the needs of their States 
and their extensive reach into communities large and small ensures that 
the humanities truly do belong to all the people of the United States. 
We thank you for understanding how critical that is to our democracy 
and for providing support for the NEH and the State humanities 
councils.

    [This statement was submitted by Esther Mackintosh, President.]
                                 ______
                                 
         Prepared Statement of the Flandreau Santee Sioux Tribe
    Thank you Chairwoman Murkowski, Ranking Member Udall, and Members 
of the subcommittee. It is with pleasure that the Tribe submits our 
written testimony to you regarding various funding issues relevant to 
the Flandreau Santee Sioux Tribe located in South Dakota. I intend to 
primarily discuss the funding issues present for our Joint Venture 
Construction Program Health Care Facility and the Flandreau Santee 
Sioux Tribal Police, but will briefly discuss issues of other critical 
programs if time permits.
    For decades, the health services provided to members of my Tribe 
have been grossly inadequate. We have utilized Public Law 93-638 
contracting to operate the Tribal health clinic to the best of our 
abilities, but due to insufficient and untimely funding, unpaid 
contract support costs, and limited facilities, we are failing our 
people. We have lack of privacy issues in our current clinic coupled 
with inadequate space to fully perform necessary program functions.
    The Joint Venture Construction Program found at Section 818(e) of 
the Indian Health Care Improvement Act authorizes the Indian Health 
Service to establish projects that allow American Indian and Alaska 
Native Tribes to construct tribally owned healthcare facilities in 
exchange for the IHS providing the post-construction funding for 
equipment, operations, and maintenance of for a minimum of 20 years.
    Left without adequate means to self-fund the construction of a 
healthcare facility, in 2007, the Tribe made application to the Indian 
Health Services to participate in the Joint Venture Construction 
Program. The Tribe was awarded a commitment in 2009, but took several 
years to organize its efforts under the program. In 2012, the Tribe 
aggressively pursued the opportunity and hired a Minnesota architect 
and a South Dakota construction manager to plan the project. These 
groups worked extensively with the Indian Health Service to design a 
state-of-the-art facility which met all Federal requirements.
    The Tribe and the Indian Health Service formalized the arrangement 
in July of 2014 by entering into a Joint Venture Agreement. There were 
new provisions to the Joint Venture Agreement itself that left the 
Tribe with fewer options to finance the construction. Construction was 
also pushed back over a year because of a miscommunication between the 
IHS Area Office in Aberdeen, and IHS Headquarters that kept us out of 
the President's budget. With financing in sight, the Tribe took the 
risk and began construction in March of 2016. Regardless of the 
obstacles faced, the Tribe was able to successfully sell bonds in June 
of 2016 and construction has continued under budget, and on time with 
an expected completion date in July of 2017.
    The Tribe now faces its largest endeavor. Article VIII of the Joint 
Venture Agreement provides, ``In exchange for the Tribe's design and 
construction of the Facility . . . , and the Tribe's purchase of the 
initial equipment for the Facility, the IHS agrees to provide the 
equipment, supplies, and staffing for the operation and maintenance of 
the Facility for an initial period of 20 years . . . subject to the 
provision of appropriations by Congress.'' The Tribe must have the 
funding promised by the IHS appropriated to assure our membership, and 
all of the non-Tribal members that we serve, that we can operate our 
new facility.
    A continuing resolution for fiscal year 2018 would not allocate the 
additional funding promised, causing a possible default on our 
financial obligations, and resulting in a grossly underfunded facility. 
The Tribe pleads with this subcommittee to fulfill the contractual 
obligations of the Indian Health Service. We are in the process of 
needing to hire around fifty new employees to fully staff our facility, 
and can simply not afford to use Tribal funds dedicated to other 
critical programs to continuously supplement our clinic.
    We further have issues with our Police Department funding that I 
would like to expound on. Public safety is of the utmost importance to 
all Tribes, especially in South Dakota where the State is becoming 
plagued by methamphetamine. We have had stagnant funding for the 
police, while all of our expenses are rising exponentially. The Tribal 
Police drive arrested individuals on the reservation 125 miles away to 
be detained, which poses serious community exposure during 
transportation due to gaps in coverage. The facility 125 miles away was 
the only detention center willing to house our arrestees.
    The Tribe has two police officers, and another who is in the police 
academy. With our current funding level, we cannot afford to provide 
the coverage that our community needs. Even a modest increase would 
have an incredible impact on our small, but equally troubled 
reservation.
    We implore this subcommittee to consider all of the programs that 
our membership depends on, and to maintain or increase funding. We are 
trying to run professional government operations, and we are doing it 
in the absence of clarity. The Tribe is relying on its funding, and 
cannot provide adequate services in gridlock. The Tribe further demands 
parity with the States in all funding matters because of the Federal 
promise of promoting Tribal sovereignty and self-sufficiency.
    Madame Chair, thank you for consideration of the Flandreau Santee 
Sioux Tribe's concerns.
                                 ______
                                 
  Prepared Statement of the Fond Du Lac Band of Lake Superior Chippewa
    I am Kevin R. Dupuis, Sr., Chairman of the Fond du Lac Band of Lake 
Superior Chippewa. I would like to thank you for the opportunity to 
submit written testimony on fiscal year 2018 Appropriations for Indian 
programs funded through the Interior Department, Indian Health Service 
and Environmental Protection Agency. On behalf of the Band, I also want 
to express our appreciation for the work you have done over the years, 
including your recent work on fiscal year 2017 funding, to ensure that 
Federal funds are available to assist Tribes in meeting longstanding 
needs.
    Our Reservation is in northeastern Minnesota. It is a small part of 
our aboriginal homeland and was established by the Treaty of September 
30, 1854. We have approximately 4,200 members and provide health, 
education, social services, public safety and other governmental 
services to more than 7,300 Indian people who live on and near our 
Reservation. With the assistance of the Federal Government, as well as 
other public and private partners, we have been working to find 
effective solutions to end the legacy of poverty that has plagued our 
community, so that we are able to provide good jobs, grow the local 
economy, educate our children, prevent crime, and care for our elders 
and infirm. We are proud of what we have accomplished, but much still 
needs to be done and Federal funding is essential to these efforts. 
Because of this we are deeply troubled by the severe cuts that the 
President proposes be made in fiscal year 2018. Such radical cuts are 
counter-productive. The modest investment of Federal funds has allowed 
the Band to use Band resources and attract private partners to carry 
out projects that create jobs and benefit the local economy. We urge 
Congress to maintain Federal funding for these important programs.
    Bureau of Indian Education.--The Band operates the Fond du Lac 
Ojibwe School. Our school serves an average of 340 children from pre-K 
through 12th grade. Our students come from very low-income households; 
more than 90 percent of our students qualify for free or reduced rate 
lunches. We rely on Federal funds from both the Interior Department and 
Education Department to run this school. We are making progress in 
improving the outcomes for our students. For example, high school 
graduation rates for American Indians in Minnesota have improved from 
37.9 percent in 2003 to 52.6 percent in 2016, but are still well-below 
state-wide rates. We have always been handicapped by limited resources. 
Past Federal funding for education has never kept pace with need. As 
shown by data compiled by Minnesota, in 2016, there remain significant 
disparities between American Indians and the population statewide on 
education:

----------------------------------------------------------------------------------------------------------------
                                                      3rd grade students  8th grade students      High School
                                     Living below        at 3rd grade      at 8th grade math   graduation rates
                                      poverty (%)      reading level (%)       level (%)              (%)
----------------------------------------------------------------------------------------------------------------
Statewide.......................  10.2..............  57.3..............  58  ..............  82.2
MN Indian.......................  25.1..............  35.8..............  30.3..............  52.6
----------------------------------------------------------------------------------------------------------------
From: Minnesota Compass, http://www.mncompass.org/education/overview.

    We very much appreciate Congress's decision to increase overall 
education funding for fiscal year 2017 by $39 million above the fiscal 
year 2016 funding level. But we are deeply troubled by the President's 
budget blueprint for fiscal year 2018. This blueprint proposes a 12 
percent cut to the Interior Department budget, without saying how those 
cuts might affect Indian education. The threat to our school is 
compounded by the Blueprint's proposed 13 percent cut in Education 
Department funding (another critical source for our school) combined 
with the plan to move Federal money to school choice. The drastic cuts 
that the President proposes will only hurt our students.
    Because education is so critical to success later in life, we urge 
Congress to increase Federal funding for Indian education programs. At 
a minimum, funding for these programs should be maintained at fiscal 
year 2017 levels. The key elements of Indian education funding through 
Interior are:
  --ISEP which is the primary source of school funding provided through 
        Interior. It covers salaries for teachers, teacher aides, and 
        administrative personnel and is essential to our ability to 
        recruit and retain qualified teachers.
  --Tribal Grant Support Costs which helps pay for accounting, 
        insurance, background checks, legal and record-keeping.
  --School Facility Operations and Maintenance which keeps the building 
        safe, pay for preventative maintenance, and cover insurance and 
        utility costs.
  --Student Transportation which allow us maintain, repair, and replace 
        buses.
  --Early Childhood Development funds (FACE), which is critical to 
        providing preschoolers with skills to be school-ready.
  --Johnson O'Malley, which assists Indian children in public schools.
    BIA: Public Safety and Justice.--We appreciate Congress's decision 
to increase funding for BIA's Public Safety and Justice by $8 million 
above fiscal year 2016 levels. Although we are a small community in a 
Public Law 280 State, we are on the front lines combating major crimes. 
We face a serious drug epidemic which includes opioids, meth, heroin, 
as well as prescription drug abuse. Because of that epidemic, our law 
enforcement department is called upon to respond to a growing number of 
substance abuse relied crimes as well as drug overdoses and deaths. 
These include a troubling number of offenses involving juveniles. Our 
law enforcement also responds to many other matters, including domestic 
disputes, disturbances, disorderly conduct, property damage, theft, 
trespass, suspicious activity, unwanted persons, medical emergencies, 
fire, neglected children, missing persons, suicide threats, and 
traffic-related issues. The demand on our law enforcement has increased 
over the years. In 2016 our law enforcement responded to more than 
8,200 incidents and calls for service--an increase from past years 
where the numbers were: 8,000 in 2015; 6,000 in 2014; 5,342 in 2013; 
5,100 in 2012; and 4,900 in 2011.
    We address law enforcement by a combination of Tribal and available 
Federal funds and cooperative agreements with local law enforcement 
agencies. We now have 19 full time officers, and 3 administrative 
staff. We are hiring two more full-time officers so we will have a 
total of 21 officers. To effectively meet need, we should have 23 to 25 
full time officers, with 3 full time investigators. As present, we have 
only 1 investigator which is not enough. We need to be able to do more 
drug investigations so we can reduce the amount of drugs entering our 
community. We also have unmet need for equipment. We lack basic 
equipment for our investigation unit--from binoculars to more 
sophisticated surveillance equipment like video cameras and digital 
recorders. Our patrol cars are aging and need more-costly service 
repairs. Federal funding is essential to meet those needs. We urge 
Congress to increase funding for Tribal law enforcement.
    BIA: Trust-Natural Resources Management.--We appreciate Congress's 
decision to increase by $9 million funding for BIA Trust-Natural 
Resources in fiscal year 2017. We urge Congress to substantially 
increase funding for this program in fiscal year 2018 as funding levels 
have never met need. Natural resource management is vital in Indian 
country where the basic subsistence needs of many Indian people 
(especially those living in poverty) depend on natural resources. This 
is certainly true at Fond du Lac. By Treaties in 1837, 1842 and 1854, 
the United States acquired our aboriginal territory but, to ensure that 
we could sustain ourselves and our families, expressly promised that we 
retained rights to hunt, fish and gather natural resources within and 
outside our Reservation. Our members depend on and exercise these 
treaty-protected rights to put food on the table and for ceremonial 
practices that serve as the foundation for our culture. The stewardship 
of those natural resources--through scientific study, resource 
management, and enforcement of Band laws that regulate Tribal members 
who hunt, fish and gather those resources--are an important source of 
employment for many of our members. Funding for Trust-Natural Resources 
Management allows us to protect, enhance, and restore natural 
resources.
    The funding for these programs has also led to other successes. For 
example, with modest funding from the Interior Department (along with 
Tribal funds), we developed a solar energy facility which we are using 
for our hotel and casino. And with help from Federal funds, we have 
been developing biomass heating systems for our community buildings. 
These small Federal investments have big cost savings and go a long way 
to help us be self-sufficient.
    Forest resources are an important asset to the Fond du Lac Band. 
The Interior Department just recently highlighted the importance of 
protecting forests from wildfire. Yet fire preparedness funding is 
below the most efficient level (MEL) and while we do not yet know the 
details of the President's proposed fiscal year 2018 budget cuts, 
proposals have been made in the past to reduce fuels funding from 
Indian forestry. These funds should not be cut. Fire preparedness and 
fuels funding create (and maintain) jobs in Indian forestry and protect 
Indian and non-Indian lands.
    U.S. Fish and Wildlife Service.--The FWS is a valued partner in the 
Band's wildlife and fisheries research and restoration programs. We 
request that the overall budget of the FWS be increased, with a 
particular increase to the Native American Liaison and Tribal Wildlife 
Grant programs.
    Environmental Protection Agency (EPA).--We are very concerned about 
the overall reductions being made to EPA funding and urge Congress not 
to permit any more reduction. We rely on EPA grants to clean up 
brownfields and administer clean water and clean air programs. These 
programs are important to protecting the health of our community, so 
that we have safe water to drink and can continue to rely on fish, wild 
rice, and game to put food on the table. These federally-assisted 
programs are also good for the economy. The small amount of Federal 
funds that help us protect the environment boosts tourism and creates 
jobs.
  --Great Lakes Restoration Initiative (GLRI).--We appreciate 
        Congress's decision to maintain funding for GRLI in fiscal year 
        2017 at fiscal year 2016 levels, and urge Congress to continue 
        to fund this important initiative at this level. It is 
        critically important for all communities along the Great 
        Lakes--States and Tribes--to be able to clean up past pollution 
        and respond to damaging invasive species. The work funded by 
        the initiative is also good for the economy. It protects major 
        commercial fisheries as well as the recreation and tourism 
        industries which depend on the lakes. Tribes and States are 
        already investing their own funds to restore and protect the 
        lakes, but cannot do the work without Federal help.
  --Water Quality.--We have a federally approved water quality 
        standards program that has seen annual funding declines, while 
        the need and Band's responsibilities have increased. Given the 
        current threats to water resources in our region, we urge that 
        Tribal section 106 funding be doubled so that we can do the 
        work needed to protect the water we drink and which are 
        critical to the fish and game that are central to our and the 
        State's economy.
  --Air.--In conjunction with our water quality monitoring 
        responsibilities, the Band has a long-standing air monitoring 
        program that has also faced a steady decline in Federal 
        funding. We request that air quality program funding for Tribes 
        be increased.
  --Wetlands.--One-half of our reservation is made up of wetlands. 
        Proper management and restoration of this valuable resource is 
        impossible without adequate and consistent Federal funding. We 
        request sustained wetland monitoring and protection program 
        funding.
    Indian Health Service.--We very much appreciate Congress's decision 
to increase funding for IHS in fiscal year 2017, as this is essential 
to address the high rates of medical inflation and the substantial 
unmet need for healthcare among Indian people. Indians at Fond du Lac, 
like Indians throughout the Nation, continue to face disproportionately 
higher rates of diabetes and its associated complications, than the 
rest of the population. As reported by Minnesota, in 2015, the rate of 
diabetes among American Indians was 18.4 percent, more than double the 
rate of the population statewide. See Minnesota Compass, http://
www.mncompass.org/health/overview. Heart disease, cancer, obesity, 
chemical dependency and mental health problems are also prevalent among 
our people. All Indian Tribes should receive 100 percent of the Level 
of Need Formula, which is absolutely critical for Tribes to address the 
serious and persistent health issues that confront our communities. The 
Band serves over 7,300 Indian people at our clinics, but the current 
funding level meets only 33 percent of our healthcare funding needs.
    To make progress in reducing the disparities in Indian health, we 
urge Congress to continue to increase funding for IHS by a minimum of 
37 percent in fiscal year 2018, including increases of: $169.1 million 
for full funding of current services; $145.8 million for binding fiscal 
obligations; and $28.5 million for Contract Support Costs. We also urge 
an increase of $1.6 billion for program expansion increases, with the 
top priorities given to Hospitals & Health Clinics; Purchased/Referred 
Care; Mental Health; Alcohol & Substance Abuse; and Dental Health. 
Expanded resources for treatment and community education capacity are 
especially needed to combat the epidemic of drug abuse. Additional 
funding for the Methamphetamine, Suicide Prevention Initiative should 
be made available to Tribes and the IHS so that this ``new sickness'' 
can be addressed. Best practices in pharmacy inventory and prescription 
monitoring need to be modeled and replicated throughout Indian Country.
    Finally, we have deep concerns about any legislation that cuts or 
changes the way in which Medicaid is paid to IHS-funded healthcare 
providers. Medicaid is a key source of funding for our healthcare 
programs--funding that is not available from IHS but which is available 
to us when we serve Medicaid-eligible Indian people. Medicaid fills a 
critical gap for the Indian health system, covering needed surgeries, 
preventative care, and dental care which saves lives. If Medicaid 
dollars are cut, or block-granted to the States, or allocated per 
capita, then substantially larger increases will be needed in IHS 
funding. Miigwech. Thank you.
                                 ______
                                 
 Prepared Statement of the Friends of Rachel Carson National Wildlife 
                                 Refuge
    Ms. Chairman and Honorable Members of the subcommittee: I am Bill 
Durkin, President of the Friends of Rachel Carson National Wildlife 
Refuge in Biddeford, Maine.
    I have been a member of the Friends of Rachel Carson NWR for the 
past 28 years. The group was founded in 1987; we are a small group 
supporting the refuge in Southern Maine. I have given numerous written 
statements over the years and we really appreciate your support in the 
past. This year, our refuge is not requesting any appropriations 
directly for Rachel Carson National Wildlife Refuge; this is a request 
for general funding of the National Wildlife Refuge System of $586 
million. This year we ask to appropriate $60 million in the National 
Wildlife Refuge Fund. I also urge the sub-committee to fund the Land , 
Water and Conservation Fund at full funding at $900 million with a $150 
million of that request for the National Wildlife Refuge Systems 
purchase of easements and in holdings. I thank you all for your 
consideration.
    The Rachel Carson National Wildlife Refuge is named in honor of one 
of the Nation's foremost and forward-thinking biologists. After 
arriving in Maine in 1946 as an aquatic biologist for the U.S. Fish and 
Wildlife Service, Rachel Carson became entranced with Maine's coastal 
habitat, leading her to write the international best-seller The Sea 
Around Us. This landmark study, in combination with her other writings, 
The Edge of the Sea and Silent Spring, led Rachel Carson to become an 
advocate on behalf of this Nation's vast coastal habitat and the 
wildlife that depends on it. Her legacy lives on today at the refuge 
that bears her name and is dedicated to the permanent protection of the 
salt marshes and estuaries of the southern Maine coast. The refuge was 
established in 1966 to preserve migratory bird habitat and waterfowl 
migration along southern Maine's coastal estuaries. It consists of 11 
refuge divisions in 12 municipalities protecting approximately 5,600 
acres within a 14,800 acre acquisition zone.
    Consisting of meandering tidal creeks, coastal upland, sandy dunes, 
salt ponds, marsh, and productive wetlands, the Rachel Carson NWR 
provides critical nesting and feeding habitat for the threatened piping 
plover and a variety of migratory waterfowl, and serves as a nursery 
for many shellfish and finfish. Located along the Atlantic flyway, the 
refuge serves as an important stopover point for migratory birds. 
Previous years' appropriations have allowed the USFWS to conserve 
several properties within the refuge.

    1. We are requesting an overall funding level of $586 Million in 
fiscal year 2018 for the Operations and Maintenance Budget of the 
National Wildlife Refuge System, managed by the U.S. Fish and Wildlife 
Service. All of the refuges are in dire need of staffing and upkeep. 
The National Wildlife Refuge System is responsible for 568 million 
acres of lands and waters, but currently receives less than a $1. per 
acre for management costs. The refuges cannot fulfill its obligation to 
the American public, our wildlife and 47 million annual visitors 
without adequate funding. Refuges provide unparalleled opportunities to 
hunt, fish, watch wildlife and educate children about the environment. 
An investment in the Nation's Refuge System is an excellent investment 
in the American economy, generating $2.4 billion and creating about 
35,000 jobs in local economies. Without increased funding for refuges, 
wildlife conservation and public recreation opportunities will be 
jeopardized. We fully supported the U.S. Fish and Wildlife's request of 
$586 Million for Operation and Management for the National Wildlife 
Refuge System.

    2. Appropriate $60 million in the National Wildlife Refuge Fund in 
fiscal year 2018 which offsets losses in local government tax revenue 
because lands owned by the Refuge System are exempt from taxation. The 
Refuge Fund is an annual appropriation that supplements the Refuge 
Revenue Sharing Program. The Revenue Sharing Program offsets lost local 
tax revenue by providing payments to local governments from net income 
derived from permits and wildlife refuge activities.

    3. We request $150 million in LWCF funding for Refuge land 
acquisitions/conservation easements and we call for full funding of 
LWCF at $900 million. The Land and Water Conservation Fund is our 
Nation's premier Federal program to acquire and protect lands at 
national parks, forests, refuges, and public lands and at State parks, 
trails, and recreational facilities. These sites across the country 
provide the public with substantial social and economic benefits 
including promoting healthier lifestyles through active recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting the adaptation of wildlife and fisheries to 
climate change. The quality of place is greatly enhanced. As you know, 
LWCF uses no tax payer dollars. Created by Congress in 1964 and 
authorized at $900 million per year (more than $3 billion in today's 
dollars), the LWCF is our most important land and easement acquisition 
tool. In the President's budget, he has included full funding for LWCF 
programs at the $900.M level, and I support the administration's 
commitment to fully funding the program. This wise investment in the 
Land and Water Conservation Fund is one that will permanently pay 
dividends to the American people and to our great natural and 
historical heritage. The Refuge System needs $150 million in LWCF for 
fiscal year 2018, including these high priority requests:
  --$10 million for Everglades Headwaters NWR and Conservation Area 
        (Florida)
  --$2 million for Clark River NWR (Kentucky)
  --$5.5 million for Silvio O. Conte NWR (Connecticut, New Hampshire, 
        Vermont, Massachusetts)
  --$3 million for Cache River NWR (Arizona)
  --$2 million for Bear River Watershed Conservation Area (Wyoming, 
        Idaho, Utah)
  --$2 million for Blackwater NWR (Maryland)
  --$1.4 million for Balcones Canyonlands NWR (Texas)
  --$6.2 million for Hakalau Forest NWR (Hawaii)
  --$2 million for the Northern Tallgrass Prairie (Minnesota, Iowa)
  --$750,000 for Maine Coastal Islands NWR (Maine)

    I again extend our appreciation to the subcommittee for its ongoing 
commitment to our National Wildlife Refuge System and respectfully 
request the Interior, Environment and Related Agencies Appropriations 
Subcommittee allocate $586 million for the Refuge System's fiscal year 
2018 Operations & Maintenance Budget, $60 million in the National 
Wildlife Refuge Fund and $150 million in Refuge LWCF monies. We need 
Congress to standby their commitment that was made in 1964 : stabilize 
the LWCF at $900 million.
    Thank you again, Mr. Chairman, for the opportunity to present this 
testimony in support of protecting wildlife and it's habitat. Enjoy 
your next walk out on a National Wildlife Refuge.
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) urges Congress to provide 
$1.2 billion for the U.S. Geological Survey (USGS) in fiscal year 2018. 
As one of our Nation's key science agencies, the USGS plays a vital 
role in understanding and documenting mineral and energy resources that 
underpin economic growth; researching and monitoring potential natural 
hazards that threaten U.S. and international security; and determining 
and assessing water quality and availability. Approximately two thirds 
of the USGS budget is allocated for research and development. In 
addition to underpinning the science activities and decisions of the 
Department of the Interior, this research is used by communities across 
the Nation to make informed decisions in land use planning, emergency 
response, natural resource management, engineering, and education. 
Despite the critical role played by the USGS, funding for the agency 
has stagnated in real dollars for more than a decade. Given the 
importance of the many activities of the Survey that protect lives and 
property, stimulate innovations that fuel the economy, provide national 
security, and enhance the quality of life, GSA believes that growth in 
Federal funding for the Survey is necessary for the future of our 
Nation and urges Congress to reject the cuts proposed in the 
Administration's fiscal year 2018 request.

    The Geological Society of America, founded in 1888, is a scientific 
society with over 26,000 members from academia, government, and 
industry in all 50 States and more than 100 countries. Through its 
meetings, publications, and programs, GSA enhances the professional 
growth of its members and promotes the geosciences in the service of 
humankind.
u.s. geological survey contributions to national security, health, and 
                                welfare
    The USGS is one of the Nation's premier science agencies. 
Approximately two thirds of the USGS budget is allocated for research 
and development. In addition to underpinning the science activities and 
decisions of the Department of the Interior, this research is used by 
communities and businesses across the Nation to make informed decisions 
in land use planning, emergency response, natural resource management, 
engineering, and education. USGS research addresses many of society's 
greatest challenges for national security, health, and welfare. Several 
are highlighted below.
  --Natural hazards--including earthquakes, tsunamis, volcanic 
        eruptions, wildfires, and landslides--are a major cause of 
        fatalities and economic losses. Recent natural disasters 
        provide unmistakable evidence that the United States remains 
        vulnerable to staggering losses. Landslides, which occur in 
        every State, cause more than $3 billion in damage each year. An 
        improved scientific understanding of geologic hazards will 
        reduce future losses through better forecasts of their 
        occurrence, which allows for effective planning and mitigation.
          Decision makers in many sectors rely upon USGS data. For 
        example, USGS volcano monitoring provides key data to enable 
        decisions on the safety of aviation. Data from the USGS network 
        of stream gages is used by the National Weather Service to 
        issue flood and drought warnings. Earth and space observations 
        provide data necessary to predict severe space weather events, 
        which affect the electric power grid, satellite communications 
        and information, and space-based position, navigation, and 
        timing systems. GSA urges Congress to support efforts for USGS 
        to modernize and upgrade its natural hazards monitoring and 
        warning systems to protect communities from the devastating 
        personal and economic effects of natural disasters, including 
        additional 3-D elevation mapping and earthquake early warning 
        systems.
  --A recent report by the National Research Council, Emerging 
        Workforce Trends in the Energy and Mining Industries: A Call to 
        Action, found, ``Energy and mineral resources are essential for 
        the Nation's fundamental functions, its economy, and its 
        security.'' Recent studies have shown that rare earth elements 
        are essential to the production, sustainment, and operation of 
        U.S. military equipment. Reliable access to the necessary 
        material is a bedrock requirement for the Department of 
        Defense. In addition, many emerging energy technologies--such 
        as wind turbines and solar cells--depend upon rare earth 
        elements and critical minerals that currently lack diversified 
        sources of supply. GSA supports increases in minerals science, 
        research, information, data collection and analysis that will 
        allow for more economic and environmental management and 
        utilization of minerals. In addition, GSA supports increases in 
        research to better understand domestic sources of energy, 
        including conventional and unconventional oil and gas and 
        renewables.
  --The flooding in the Western United States is a testament to our 
        dependence on water. The availability and quality of surface 
        water and groundwater are vital to the wellbeing of both 
        societies and ecosystems. Greater scientific understanding of 
        these resources through monitoring and research by the USGS is 
        necessary to ensure adequate and safe water resources for the 
        health and welfare of society.
  --USGS research on climate impacts is used by local policymakers and 
        resource managers to make sound decisions based on the best 
        possible science. The Climate Science Centers, for example, 
        provide scientific information necessary to anticipate, 
        monitor, and adapt to climate change's effects at regional and 
        local levels, allowing communities to make smart, cost-
        effective decisions.
  --The Landsat satellites have amassed the largest archive of remotely 
        sensed land data in the world, a tremendously important 
        resource for natural resource exploration, land use planning, 
        and assessing water resources, the impacts of natural 
        disasters, and global agriculture production. GSA supports 
        interagency efforts to plan a path forward for future support 
        of Landsat.
    Activities from hazard monitoring to mineral forecasts are 
supported by the Core System Sciences, Facilities, and Science Support 
arenas. These programs and services, such as geologic mapping and data 
preservation, provide critical information, data, and infrastructure 
that underpin the research of the USGS. Increases are particularly 
needed in Facilities to address many deferred maintenance issues.
    Knowledge of the earth sciences is essential to scientific literacy 
and to meeting the environmental and resource challenges of the twenty-
first century. It is also fundamental to training the next generation 
of Earth science professionals. GSA is very concerned that cuts in 
Earth science funding will cause students and young professionals to 
leave the field, potentially leading to a lost generation of 
professionals in areas that are already facing worker shortages. 
Investments in these areas could lead to job growth, as demand for 
these professionals now and in the future is assessed to be high.
    Emerging Workforce Trends in the Energy and Mining Industries: A 
Call to Action, found, ``In mining (nonfuel and coal) a personnel 
crisis for professionals and workers is pending and it already exists 
for faculty.'' Another recent study by the American Geosciences 
Institute, Status of the Geoscience Workforce Report 2016, found an 
expected deficit of approximately 90,000 geoscientists by 2024. Strong 
investments in geoscience research are needed to prepare citizens for 
these job opportunities.
    Thank you for the opportunity to provide testimony about the U.S. 
Geological Survey. For additional information or to learn more about 
the Geological Society of America--including GSA Position Statements on 
water resources, mineral and energy resources, natural hazards, and 
public investment in Earth science research--please visit 
www.geosociety.org or contact Kasey White at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7219051a1b06173215171d011d111b17060b5c1d00155c">[email&#160;protected]</a>

    [This statement was submitted by Kasey White, Director for 
Geoscience Policy.]
                                 ______
                                 
      Prepared Statement of the Healing Lodge of the Seven Nations
    The requests of The Healing Lodge of the Seven Nations (hereinafter 
``HL7N'') for the fiscal year 2018 Indian Health Service (IHS) budget 
are as follows:

  --Support increased funding of $2,523,000 for the IHS facilities 
        appropriation, as sufficient to help ensure HL7N can obtain and 
        utilize IHS funding for the construction of a new behavioral 
        health family and wellness center and a gymnasium expansion 
        project, both of which are critically needed for the American 
        Indian and Alaska Native youth.
  --Safeguard the IHS from sequestration.
  --Ensure full funding of contract support costs.
HL7N Is A Youth Regional Treatment Center
    HL7N is one of the 12 Youth Regional Treatment Centers (YRTCs) 
within the Indian healthcare system, located in Spokane Valley, 
Washington. As a YRTC, HL7N is a self-determination contractor with the 
Indian Health Service (IHS) under the Indian Self-Determination and 
Education Assistance Act (ISDEAA). Our purpose is to provide 
residential substance use disorder services to American Indian and 
Alaska Native youth between the ages of thirteen and seventeen. HL7N 
was formed in 1988 by seven Indian Tribes in the Pacific Northwest 
(Confederated Tribes of the Colville Reservations, Coeur d'Alene Tribe, 
Kalispel Tribes of Indians, Kootenai Tribe of Idaho, Nez Perce Tribe, 
Spokane Tribe of Indians and Confederated Tribes of Umatilla Indian 
Reservation) to create a centrally located, safe and caring healing 
center for Tribal adolescents and their families. The HL7N business 
complex is nestled in a quiet wooded area consisting of 38 acres owned 
by the IHS and thirteen acres owned by HL7N.
    HL7N operates a 45-bed adolescent residential chemical dependency 
treatment center, with programs ranging between 90-120 days that are 
designed around individual youth's needs and are grounded in Native 
American traditional, cultural and spiritual values and practices. Our 
addiction treatment programs use evidence-based treatment models to 
create a holistic approach towards healing. The success of this program 
is based on shared beliefs and daily practices that provide structure 
and consistency; on values and practices that foster respect, honesty, 
generosity, strong cultural identification; and hope for positive life 
changes. The work done by HL7N not only treats addiction, but 
strengthens families, empowers communities and ultimately saves lives.
Increased Funding For IHS Facilities
    HL7N currently provides treatment for addictive, substance-related 
conditions within the adolescent population, which suffers from severe 
cannabis use, opioid dependence, alcohol abuse and addiction, and 
benzodiazepine dependency. Additionally, more and more youth are 
presenting with higher mental health disease, which is a serious 
concern for the future health of the adolescents if not addressed 
promptly and appropriately. In a recent study conducted by Harvard 
University, the Cambridge Institute and HL7N involving youth residing 
on regional reservations of the HL7N Tribes, the study found that 29 
percent of the youth received a diagnosis of at least one psychiatric 
disorder; 13 percent had multiple diagnoses; and 60 percent diagnosed 
with a depressive disorder also present with a substance use disorder. 
Typically, Tribal youth have multiple limitations, which include 
substance use and addictive disorders, criminal activity, psychological 
problems, impaired functioning, and disaffiliation from mainstream 
values, coupled with historical and inter-generational trauma. These 
challenges for our youth support the need for the increased 
availability of culturally relevant mental health services.
    HL7N does not currently have adequate facility space and funding to 
devote to such treatment services. The number of adolescents denied for 
admissions to HL7N--due to higher mental health issues--unfortunately 
grew from 25 percent to 31 percent in 2016, creating an increased 
concern by the regional Tribes over the lack of culturally appropriate 
inpatient substance abuse and mental health treatment access. With 29 
years of successful experience in working with American Indian and 
Alaska Native adolescents, the HL7N proposes to establish an innovative 
adolescent program focused on outpatient and inpatient treatment 
designed to address their chronic, unmet behavioral healthcare needs.
    HL7N is planning the construction of a new, ``shovel ready'' 
infrastructure project to add a 4,072 square foot Behavioral Health 
Family and Wellness Center, for the provision of mental health and 
chemical dependency clinical services, primarily serving America 
Indian/Alaska Native youth. The cost of this construction project is 
estimated at $1,655,000. The facility will be built on IHS property 
permanently assigned to HL7N and consist of a single story office 
building, with office accommodations and family focused counseling 
rooms to include tele-medicine capability.
    HL7N is also planning to construct an addition to its existing YRTC 
gymnasium in order to add showers, dressing rooms, fitness room and 
restrooms for the adolescents. This project is expected to cost 
$868,000. This ``shovel ready'' infrastructure project will consist of 
the construction of a 2,366 square foot addition to the existing 
gymnasium for the purpose of improving youth's mental and physical 
health through physical exercise. This expansion will help increase 
moderate intensity physical activity as an intervention in mental 
health and substance addiction treatment. The addition of a shower 
system will also help HL7N to identify any contraband (drugs) that may 
be brought back by youth who are returning from outings. Gone 
undetected, such drugs could be used and/or distributed to other youth, 
which is extremely detrimental to their treatment process and recovery. 
Once constructed, the facility maintenance costs will be covered by the 
HL7N's existing ISDEAA annual funding agreement and other of HL7N's 
financial resources.
    HL7N thus appeals to this Subcommittee to support increased funding 
for the IHS facilities appropriation, as adequate for the IHS to be 
able to fund HL7N's new behavioral health facility and its gymnasium 
expansion. Funding these facilities will help in fulfilling the Federal 
Government's commitment and obligations to improve the health of 
American Indian and Alaska Native adolescents. Equally important, the 
youth deserve a chance to achieve recovery and learn to better manage 
their mental health issues, while striving to become contributing 
members of society.
Fully Fund Contract Support Costs (CSC)
    We wish to thank this Subcommittee for its leadership in making 
funding of IHS contract support costs for fiscal year 2016, and now 
fiscal year 2017, an indefinite amount, and also for making it a 
separate account in the IHS budget. This shift makes an enormous 
difference in helping ensure that the ISDEAA is fully funded and 
implemented as Congress intended. It also significantly enhances the 
Federal-Tribal government-to-government relationship. For IHS, the 
fiscal year 2017 estimate for contract support costs is $800 million. 
We also wish to provide our thanks for listening to the tribes who 
explained why the proviso in the IHS fiscal year 2016 enacted funding, 
which effectively denied the CSC carryover authority granted by the 
ISDEAA, was inappropriate. We very much appreciate that this proviso 
was absent from the Consolidated Appropriations Act for fiscal year 
2017 and recommend that it not be resurrected in fiscal year 2018 or 
thereafter.
    Our long-term goal, however, remains that the indefinite 
appropriation of CSC funding be mandatory and permanent. Full payment 
of CSC under the ISDEAA is mandatory, as affirmed by the United States 
Supreme Court. HL7N is committed to working together with the 
appropriate Congressional committees to determine how best to achieve 
this goal.
Protect IHS Funding From Sequestration
    We request that you support an amendment to the Balanced Budget and 
Emergency Deficit Control Act to exempt the IHS from potential 
sequestration of funds, as Congress has rightfully done to fully exempt 
the Veterans Health Administration's programs from sequestration. We 
believe that Indian health should be afforded the same treatment as the 
VA, and most especially so in light of the Federal Government's trust 
responsibility to tribes. We are aware that a number of members of this 
Subcommittee and other members of Congress have publicly stated that it 
was an oversight IHS was not included in the exempt category when the 
Balanced Budget and Emergency Deficit Control act was enacted. We would 
like to correct that oversight.
    We also express our concern that the current fiscal year 2018 
funding cap for non-defense discretionary spending is lower than the 
fiscal year 2017 spending cap. When considered in light of the 
President's ``skinny'' fiscal year 2018 budget outline proposal, which 
raises defense spending by $54 billion and lowers non-defense 
discretionary spending by a similar amount, we fear a significant 
sequestration of funds in fiscal year 2018. It is thus even more 
imperative that Indian health be made exempt from sequestration.
    Thank you for your consideration of the concerns and requests of 
The Healing Lodge of the Seven Nations.

    [This statement was submitted by Sam Penney, President, Board of 
Directors.]
                                 
                                 ______
                                 
                         Hendrickson Paul deg.
                 Prepared Statement of Paul Hendrickson
Sirs and Madams:

    The National Endowment for the Arts is a crucial American cultural 
institution. I have been a recipient of the NEA Literature Fellowship 
twice, and on each occasion the grant afforded me the opportunity to 
continue working on the nonfiction book project I was then engaged in. 
It would have been impossible otherwise. In both instances, the books 
went on to get finished, won critical acclaim, made me proud. (One 
became a bestseller.) I am proud to be an American who can apply to a 
governmental institution that supports arts and culture. Please do not 
let the current administration eliminate it.

            Yours sincerely,
                                          Paul Hendrickson,
Senior Lecturer, Department of English, University of Pennsylvania.
                                 ______
                                 
      Prepared Statement of the Hualapai Tribe of the Grand Canyon
    The Hualapai Tribe of the Grand Canyon is deeply concerned with 
proposed funding cuts to the US Environmental Protection Agency which 
provide needed resources for protecting the environment and human 
health of our people. The Federal government has treaty and trust 
responsibilities to protect all Indian Tribes natural resources, and to 
ensure the safety and health of all human beings living in the United 
States of America and Tribal Nations. My Tribe will be adversely 
affected by budget cuts to future State and Tribal Assistance Grant 
(STAG) funding and it is of vital importance for you to hold harmless 
funding which is provided to Tribes for Tribal environmental protection 
programs.
    The Hualapai Tribe depends on funding from the Environmental 
Protection Agency (EPA) to address their environmental priorities and 
needs. Funding is already limited for Tribal environmental programs to 
protect our natural resources and the safety and the health of our 
people. Specific programs which would cause great impact to Tribal 
environmental programs if they were not funded or had a 30 percent cut 
in funding include the Clean Water Act State Revolving Fund for 
Sanitation Facilities, Safe Drinking Water Act State Revolving Fund for 
Drinking Water Systems, Indian Environmental General Assistance 
Program, Clean Water Act Section 106 and 319 activities and Clean Air 
Act Section 103 and 105 activities.
    The Hualapai Tribe has the same capacity as States with respect to 
the Clean Water Act's Section 106--Water Pollution Control Program. The 
1987 Clean Water Act Amendments (i.e., Section 518 of the Clean Water 
Act, 33 U.S.C. 1251 et seq.,) added a new section titled ``Indian 
Tribes'' which authorizes U.S. Environmental Protection Agency (EPA) to 
treat federally recognized Indian Tribes as States for certain 
provisions, including financial assistance under such programs as the 
Water Pollution Control Program. Section 518 is commonly known as the 
``Treatment as a State (TAS) section''. The Hualapai Tribe has water 
quality standards; Treatments as a State (TAS) recognition: conducts 
annual water quality assessments and every 5 years submits a 305b 
report; conducts a triennial review of our water quality standards; 
Developing and administering Non-Point Source and National Pollutant 
Discharge Elimination System (NPDES) Permit Programs; ensuring the 
protection and anti-degradation of our water resources. Unfortunately 
we are not funded at a regular and consistent rate (target) like 
States. Adequate funding to maintain our program would be $490,000 a 
year.
    The Tribe has been able to utilize EPA funding to create 
environmental laws and ordinances to preserve and protect the natural 
resources of the Hualapai Tribe. Provide access to safe drinking water 
and sanitation services to homes in our community, monitor Air quality 
and visibility at the southwestern rim of the Grand Canyon and the 
community of Peach Springs, Construction of brush barriers to reduce 
erosion and sediment deposition in the headwaters of different 
watersheds on the reservation, Initiate clean up and enforcement of 
fuel spill releases and the development of emergency response plans.
    My Tribal community relies upon healthy and safe ecosystems to 
sustain our health, traditional lifeways, treaty rights, and ceremonial 
and cultural practices. Because of our remote, marginal location, our 
Tribal lands are more vulnerable to droughts, fires, and floods. 
Moreover, my sovereign Tribal government must contend with complicated 
jurisdictional issues arising from relationships with State and local 
governments. We are responding to these complex, serious challenges 
with well-managed, cost-effective environmental programs that reinforce 
Tribal sovereignty, protect important resources, and underscore the 
value of Tribal self-determination.
    Therefore, I request that you hold harmless funding which is 
provided to Tribes for Tribal environmental protection programs 
including the Clean Water Act State Revolving Fund for Sanitation 
Facilities, Safe Drinking Water Act State Revolving Fund for Drinking 
Water Systems, Indian Environmental General Assistance Program, Clean 
Water Act Section 106 and 319 activities and Clean Air Act Section 103 
and 105 activities. I would also like to request that you come to our 
Reservation to see the positive impact that EPA funding has provided to 
our people and our lands. As you know Tribes and their people pay 
Federal taxes like all other citizens and should be afforded Federal 
funding opportunities.
    I look forward to meeting with you in the future and sharing our 
experiences in protecting our homelands and human health.

    [This statement was submitted by Dr. Damon Clarke, Chairman, 
Hualapai Tribal Council.]
                                 ______
                                 
 Prepared Statement of the Humane Society of the United States, Humane 
         Society Legislative Fund, and Doris Day Animal League
    Thank you for this opportunity to offer testimony to the Interior, 
Environment, and Related Agencies Subcommittee on matters of importance 
to our organizations. We urge the Subcommittee to address the following 
requests in the fiscal year 2018 Department of Interior, Environment, 
and Related Agencies budget:
  --Environmental Protection Agency, CompTox Program: increase over 
        fiscal year 2017 level
  --Bureau of Land Management, Wild Horse and Burro Program: 1) 
        $80,400,000, contingent on implementing National Academy of 
        Science recommendations for fertility control; 2) language to 
        protect wild horses and burros from slaughter; 3) replacement 
        of language from General Provisions, Section 115, ``Transfer of 
        Animals to Other Agencies,'' with fiscal year 2017 omnibus 
        language from General Provisions, Section 116, ``Humane 
        Transfer of Excess Animals''
  --Fish and Wildlife Service, Multinational Species Conservation Fund: 
        $11,000,000, with no funds from conservation programs to 
        promote trophy hunting, trade in animal parts, or other 
        consumptive uses of wildlife
  --Fish and Wildlife Service, Office of International Affairs: support 
        President's request
  --Fish and Wildlife Service, Office of Law Enforcement: support 
        President's request
    We also request that the budget exclude any language that would in 
any way impede the Fish and Wildlife Service's efforts to combat 
wildlife trafficking, or that would undermine the Endangered Species 
Act.
            environmental protection agency--comptox program
    Thousands of chemicals are currently used, and hundreds of new ones 
are introduced each year, for which EPA needs to conduct toxicity 
assessments. EPA is also tasked with evaluating and registering 
pesticides and, more recently, evaluating chemicals for possible 
endocrine activity. To address these needs, EPA established the 
National Center for Computational Toxicology (NCCT) to predict hazard 
and prioritize chemicals for further screening and testing, developing 
and using high-throughput assays and predictive tools which are less 
expensive and time consuming and more predictive of relevant biological 
pathways.
    Through EPA's CompTox program, EPA has screened more than 2,000 
chemicals (industrial, food additives, pesticides, and consumer 
products) and evaluated them in more than 700 high-throughput assays. 
Additionally, EPA is using ToxCast data to prioritize chemicals for 
evaluation in the Endocrine Disruptor Screening Program. Tox21, a 
collaboration among EPA, the National Institute of Environmental Health 
Sciences, the National Center for Advancing Translational Sciences, and 
the Food and Drug Administration, is currently screening 10,000 
chemicals to improve the effectiveness of drug development. NCCT also 
works with other divisions of EPA's Office of Research and Development 
to develop predictive tools and systems biology databases. These 
projects are reducing animal use while improving the speed and accuracy 
of chemical evaluation relevant to several programs. With the passage 
in 2016 of the Frank R. Lautenberg Chemical Safety for the 21st Century 
Act, there is a marked need to ensure these tools are augmented and 
taken up by the agency.
    Congress appropriated increases for the program's budget in fiscal 
years 2016 and 2017. However, the President's budget has significantly 
slashed this progress. We support an increase over and above fiscal 
year 2017 to the CompTox program in fiscal year 2018. This will 
increase the likelihood of realizing the goals presented in the CompTox 
program, and assure a more predictable and relevant chemicals safety 
assessment.
        bureau of land management--wild horse and burro program
    The HSUS is one of the leading advocates for the protection and 
welfare of wild horses and burros in the United States, with a long 
history of working collaboratively with the BLM--the agency mandated to 
protect America's wild horses and burros--on the development of 
effective and humane management techniques.
    For years, The HSUS has strongly supported significantly reducing 
the number of wild horses and burros annually gathered and removed from 
our rangelands, noting that removing horses from the range without 
implementing any program for suppressing population growth is an 
unsustainable method for managing our Nation's wild horses. This 
approach leads BLM into a continuous cycle of roundups and removals, 
even as long-term, cost-efficient, and humane management strategies, 
such as fertility control, are readily available.
    BLM has long removed many more wild horses and burros from the 
range than it could expect to adopt. Consequently, the cost of caring 
for these animals off the range has skyrocketed. According to BLM, 
caring for one wild horse in a long-term holding facility over the 
course of its life costs approximately $46,000. Today, there are almost 
50,000 wild horses and burros in these pens, and the agency spends more 
than 63 percent of its annual Wild Horse and Burro budget on holding 
costs. While the number of animals removed from the range has declined 
in recent years, it has been roughly equivalent to the number of 
animals BLM has adopted out, preventing a reduction in the program's 
carrying cost.
    Furthermore, BLM's wild horses and burros management program has 
negative effects that go beyond a simple cost-benefit analysis. For 
instance, the recommendations in the National Academy of Sciences (NAS) 
2013 report ``Using Science to Improve the BLM Wild Horse and Burro 
Program: A Way Forward'', commissioned by the BLM itself, stated that 
BLM's own practices of managing wild horses ``below food-limited 
carrying capacity'' by rounding up and removing a significant 
proportion of the herd's population every three to 4 years is 
facilitating high horse population growth rates on the range.
    To move the agency away from this failed paradigm, Appropriations 
language in the past few years has requested that BLM create a long-
term, humane, and financially sustainable management path that 
incorporates fertility control tools. This approach is supported by the 
NAS report, which called for increased use of on-the-range management 
tools, including the fertility control vaccine Porcine Zona Pellucida 
(PZP). Further, studies have shown that incorporating fertility control 
into the management of wild horses and burros would significantly lower 
the program's carrying costs. A 2008 paper determined that on-the-range 
contraception could reduce total wild horse and burro management costs 
by 14 percent, saving $6.1 million per year. In addition, the results 
of a paper describing an economic model commissioned by The HSUS 
indicates that treating wild horses on one hypothetical Herd Management 
Area (HMA) with PZP could save BLM approximately $5 million dollars 
over 12 years, while achieving and maintaining Appropriate Management 
Levels of 874 horses. Since BLM estimates that more than 72,000 wild 
horses roam in the United States, PZP use could save tens of millions 
of dollars if applied broadly across all HMAs.
    However, instead of pursuing Congressional recommendations to 
increase the use of fertility control tools, BLM has consistently 
failed to implement any humane management plan. In fact, in 2016 the 
agency treated with fertility control only 467 horses from the 
estimated rangeland population of 72,000--less than 1 percent of the 
population.
    Now, the President's fiscal year 2018 budget calls for the agency 
to further reduce its use of fertility control and requests the ability 
for the agency to send wild horses and burros to slaughter. This will 
not solve rangeland population conflicts; rather, it will simply repeat 
the past failures of attempting to lower rangeland populations by 
removing animals. Twenty years of history has shown that this does not 
maintain stable populations. Moreover, the overwhelming majority of the 
American public opposes horse slaughter, and will not accept this as a 
solution for managing our wild horses.
    For these reasons, we ask that you continue to fund the BLM Wild 
Horse and Burro Program at the fiscal year 17 level, which is 
$80,400,000, contingent on the agency's use of the funding to 
immediately begin implementing the currently available NAS-recommended 
fertility control methods.
    We also request inclusion of the same language barring wild horses 
and burros from being sent to slaughter that figured in the fiscal year 
2016 omnibus: ``Appropriations herein made shall not be available for 
the destruction of healthy, unadopted, wild horses and burros that 
results in their destruction for processing into commercial products,'' 
(Division G, p. 714, line 23).
    The President's fiscal year 2018 budget proposes language allowing 
the transfer of horses and burros to Federal, State, and local 
agencies. This language is contained in General Provisions, Section 
115, entitled, ``Transfer of Animals to Other Agencies.'' We request 
that you replace this language with similar language from the fiscal 
year 2017 omnibus, from General Provisions, Section 116, entitled 
``Humane Transfer of Excess Animals.''
   fish and wildlife service--multinational species conservation fund
    The FWS Multinational Species Conservation Fund (MSCF) supports 
conservation programs for African and Asian elephants, rhinos, tigers, 
great apes, and sea turtles. We request $11 million for this program, 
roughly the same amount as in the fiscal year 2017 omnibus, and $2 
million more than the President's request. The HSUS joins a broad 
coalition of organizations in support of the MSCF, while asking that 
the sales of semi-postal stamps benefiting this program remain 
supplementary to annually appropriated levels.
    While we wholeheartedly support continued funding for the MSCF, we 
are concerned about past incidents and oppose any future use of funds 
from these conservation programs to promote trophy hunting, trade in 
animal parts, and other consumptive uses--including live capture for 
trade, captive breeding, entertainment, or for the public display 
industry--under the guise of conservation. The use of MSCF grants must 
be consistent with the spirit of its authorizing law.
       fish and wildlife service--office of international affairs
    We support the fiscal year 2018 budget request of $14.2 million for 
the FWS Office of International Affairs. This program supports efforts 
to conserve our planet's wildlife diversity by protecting species and 
habitat, combating wildlife trafficking, and building capacity for 
landscape-level wildlife conservation. The Office's Wildlife Without 
Borders programs address grassroots conservation problems, and we 
support this work to conserve some of the world's most iconic species 
in their native habitats.
          fish and wildlife service--office of law enforcement
    The global trafficking of wildlife has reached emergency levels, 
with impacts on national security, international human rights, and the 
survival of protected wildlife species. In particular, African 
elephants face an unprecedented crisis, with one elephant killed every 
15 minutes in Africa. A host of other species, such as rhinos, 
pangolins, tigers, and sharks, is threatened by poaching and 
trafficking as well. The United States is the world's second-largest 
market, behind China, for ivory product sales. In response, FWS issued 
a rule in July 2016 to curtail the domestic trade in ivory. The rule 
also increases scrutiny of imports of African elephant trophies, and 
extends Endangered Species Act protection to live African elephants in 
captive facilities in the United States.
    It is imperative that the Nation stay firm in its effort to curtail 
the U.S. ivory trade and to combat wildlife trafficking. To that end, 
the Administration's fiscal year 2018 FWS budget includes $73 million 
for the Office of Law Enforcement; we ask the Subcommittee to fund the 
Office at this level. The request provides the Service with resources 
critical to curbing transnational wildlife crime. In addition, we ask 
that the bill not include language that would weaken the enforcement or 
implementation of the rule combating ivory trade in the United States.
                         endangered species act
    The Endangered Species Act (ESA) is fundamental to the protection 
of our planet's most imperiled animals. This law, which is supported by 
90 percent of American voters, has prevented the extinction of 99 
percent of the species under its care, including the bald eagle. Under 
the ESA, the responsibility to list and delist species lies with 
Federal agencies, which must make these listing decisions based on the 
best available science. The authority to make these science-based 
management decisions should remain with Federal agencies.
    We ask that the fiscal year 2018 budget exclude any language that 
prevents Federal agencies from making listing or delisting decisions 
based on sound science, or that otherwise undermines the ESA.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    My name is Gregory E. Conrad and I serve as Executive Director of 
the Interstate Mining Compact Commission. I appreciate the opportunity 
to present this statement to the Subcommittee regarding the views of 
the Interstate Mining Compact Commission's 26 member States on the 
fiscal year 2018 budget request for the Office of Surface Mining 
Reclamation and Enforcement (OSMRE) within the U.S. Department of the 
Interior. In its proposed budget, OSMRE is requesting $60.1 million to 
fund Title V grants to States for the implementation of their 
regulatory programs, a reduction of $8.4 million below the fiscal year 
2017 enacted level.
    The Compact is comprised of 26 States that together produce some 95 
percent of the Nation's coal, as well as important noncoal minerals. 
The Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive and economically viable mining 
industry.
    OSMRE has projected an amount of $60.1 million for Title V grants 
to States in fiscal year 2018, an amount which is matched by the 
States. These grants support the implementation of State regulatory 
programs under the Surface Mining Control and Reclamation Act (SMCRA) 
and as such are essential to the full and effective operation of those 
programs.\1\ Pursuant to these primacy programs, the States have the 
most direct and critical responsibilities for conducting regulatory 
operations to minimize the impact of coal extraction operations on 
people and the environment. The States accomplish this through a 
combination of permitting, inspection and enforcement duties, 
designating lands as unsuitable for mining operations, and ensuring 
that timely reclamation occurs after mining.
---------------------------------------------------------------------------
    \1\ OSMRE recognizes the significant role played by the States in 
its budget justification document on page 50 where it notes that 
``primacy States have the most direct and critical responsibilities for 
conducting regulatory operations to minimize the impact of coal 
extraction operations on people and the environment. The States have 
the capabilities and knowledge to regulate the lands within their 
borders.''
---------------------------------------------------------------------------
    In fiscal year 2017, Congress approved $68.5 million for State and 
Tribal Title V grants pursuant to the Omnibus Appropriations Bill. This 
continued a much-needed trend whereby the amount appropriated for these 
regulatory grants aligned with the demonstrated needs of the States. 
The States are greatly encouraged by the amount approved by Congress 
for Title V grant funding over the past several fiscal years. These 
grants had been stagnant for many years and the gap between the States' 
requests and what they received was widening. This debilitating trend 
was compounding the problems caused by inflation and uncontrollable 
costs, thus undermining State efforts to realize needed program 
improvements and enhancements and jeopardizing their efforts to 
minimize the potential adverse impacts of coal extraction operations on 
people and the environment.
    In past budget requests, OSMRE displayed a pattern of proposing 
inadequate funding for State Title V regulatory programs. Congress 
consistently rejected the proposed reductions and funded the programs 
at amounts that more closely aligned with the States' projected needs. 
OSMRE's fiscal year 2018 budget proposal once again moves the grants 
marker in the wrong direction with a cut in regulatory grants that is 
double what the previous administration had proposed in fiscal year 
2017. OSMRE indicates that this significant reduction is based on ``a 
downward trend in State grant execution and a historical return of 
unexecuted appropriated funds at the end of the grant cycle each 
year.'' We are uncertain what OSMRE is alluding to with regard to the 
``downward trend in State grant execution''. Nothing in OSMRE's annual 
oversight evaluations of State programs has identified this as a 
problem in need of attention.
    Furthermore, it should be kept in mind that, given fiscal 
constraints on State budgets, some States have only recently been able 
to move beyond hiring and salary freezes and restrictions on equipment 
and vehicle purchases, all of which have inhibited the States' ability 
to spend the full amount of their Federal grant money in recent years. 
With many States now recovering enough to utilize their full grant 
amount, it is imperative that funding be maintained at the current 
level of $68.6 million, as fully justified by the States' estimates of 
program needs. Those estimates reflect the ongoing work associated with 
State program implementation including permit reviews, inspections and 
enforcement at all inspectable units. Even with the downturn in coal 
production, the States' workload has not decreased--and in some cases 
has increased given the tenuous condition of some coal companies. In 
the latter situation, higher levels of vigilance are the order of the 
day in order to insure contemporaneous reclamation and abatement of 
violations.
    OSMRE goes on to note that it will ``continue to support State 
regulatory grant requests by re-distributing the available prior year 
funds as needed.'' We believe this plan to be shortsighted in that it 
fails to consider the improving fiscal conditions in many States and 
the damaging precedent set by appropriating suboptimal grant amounts. 
Furthermore, there is no guarantee that these carryover funds will be 
available into the future or that they would not be reprogrammed for 
other purposes.
    Clear indications from Congress that reliable, consistent funding 
will continue into the future has done much to stimulate support for 
these programs by State legislatures and budget officers who, in the 
face of difficult fiscal climates and constraints, have had to deal 
with the challenge of matching Federal grant dollars with State funds. 
This is particularly true for those States whose match is partially 
based on permit fees from the mining industry, where significant 
reductions in permitting activity translate to fewer permit fees (but 
not in the amount of regulatory work for State regulatory agencies). 
Recall that any cut in Federal funding generally translates to an 
additional cut of an equal amount for overall program funding for many 
States, especially those without Federal lands, since these States can 
generally only match what they receive in Federal money.
    We are encouraged with language in OSMRE's budget justification 
document that indicates OSMRE ``will continue to practice cooperative 
conservation through working in partnership with States and Tribes to 
carry out the mission of the SMCRA'' and that the agency is ``shifting 
its role from direct enforcement to oversight'', thereby ``refocusing 
actions on mission accomplishment while fostering a better working 
relationship with the States.'' However, the proof is in actual 
implementation of these laudable goals. The States' tendency to be 
rather circumspect about OSMRE's approach to oversight is based on the 
agency's aggressive treatment of the States over the past 8 years, 
particularly with regard to the reflexive use of Ten-Day Notices as an 
oversight tool and the failure to engage the States in a meaningful way 
regarding crucial programmatic areas such as policies on Clean Water 
Act implementation and stream protection. Based on our experience with 
program operations, some of the very areas OSMRE identifies as reasons 
for its oversight activity are either dependent on State involvement 
(training) or have seen little in the way of progress over the years 
(State program amendment review and approval). Specific program areas 
where OSMRE intends to provide its expertise and assistance are often 
also reliant upon or must defer to State experience including blasting 
and bonding.
    The overall performance of the States as detailed in OSMRE's annual 
State program evaluation reports, together with the fact that 
nationwide, 90 percent of the sites inspected did not have off-site 
impacts, demonstrates that the States are implementing their programs 
effectively and in accordance with the purposes and objectives of 
SMCRA.\2\ In our view, this suggests that OSMRE is adequately 
accomplishing its statutory oversight obligations with current Federal 
program funding and that any increased workloads are likely to fall 
upon the States, which have primary responsibility for implementing 
appropriate adjustments to their programs identified during Federal 
oversight.
---------------------------------------------------------------------------
    \2\ The Congress agreed with this assessment when it commented as 
follows on OSM's proposed increase in fiscal year 2017: ``The Committee 
continues to reject the proposal to increase inspection and enhanced 
Federal oversight of State regulatory programs. Delegation of the 
authority to the States is the cornerstone of the surface mining 
regulatory program, and State regulatory programs do not require 
enhanced Federal oversight to ensure continued implementation of a 
protective regulatory framework.'' (H. Report 114-632 at pages 38-39).
---------------------------------------------------------------------------
    To the extent that OSMRE seeks to enhance State primacy, we would 
support a renewed focus on processing State program amendments. 
Additionally, if OSMRE is looking for ways to improve and enhance the 
overall implementation of SMCRA at both the State and Federal level, we 
would urge the agency to move forward with the findings and 
recommendations that IMCC has presented to OSMRE to address the 
continuing fiscal impacts on program implementation, particularly with 
respect to duplicative inspection and enforcement requirements.
    For all the above reasons, we urge Congress to approve not less 
than $68.6 million for State and Tribal Title V regulatory grants, the 
same amount enacted by Congress over the past few fiscal years. In 
doing so, Congress will continue its commitment to ensuring the States 
have the resources they need to continue their work on the forefront of 
environmental protection and preservation of public health and safety.
    OSMRE's proposed budget reduces expenditures for the National 
Technical Training Program (NTTP) and the Technical Information and 
Professional Service (TIPS) by 15 percent. While there may be room for 
some adjustments to these two programs, we caution against cuts that 
would impact the effectiveness of these worthwhile programs. The States 
rely heavily on the NTTP and TIPS training classes for their new 
employees and for refresher courses for more seasoned employees. Any 
adjustments to these two programs should involve the States working 
through the NTTP/TIPS Steering Committee.
    With regard to funding for State Title IV Abandoned Mine Land (AML) 
program grants, the States and Tribes should receive a mandatory 
appropriation of $321.5 million in fiscal year 2018. In its proposed 
fiscal year 2018 budget, OSMRE seeks to eliminate $90 million for the 
AML economic development pilot projects due to the fact that this 
funding ``overlaps with existing mandatory AML grants''. We believe 
that funding for pilot projects is separate and distinct from other AML 
funding sources. As the Subcommittee noted with regard to the fiscal 
year 2017 Omnibus Appropriations bill, this funding is targeted for 
economic and community development and reuse goals. We strongly support 
continued funding (from the General Fund) for these pilot projects, 
along with expansion of the program to include three additional States 
(Virginia, Ohio and Alabama). We also recommend concerted action to 
reauthorize fee collection under Title IV of SMCRA. A resolution 
concerning reauthorization, along with proposed legislative 
adjustments, is attached.
    IMCC also supports a continuation of funding for the watershed 
cooperative agreements at $1.5 million. Much valuable work has been 
accomplished through this program, especially given the matching funds 
that come from other sources besides OSMRE's share for these worthwhile 
projects. We also support funding for the Applied Science program, 
which has supported a range of beneficial research projects addressing 
advanced technologies and practices specific to coal mined sites.
    We appreciate the opportunity to submit this statement on the 
Office of Surface Mining's proposed budget for fiscal year 2018. We 
also endorse the statement of the National Association of Abandoned 
Mine Land Programs (NAAMLP), which goes into greater detail regarding 
the implications of OSMRE's funding for the States and Tribes related 
to the AML program. We would be happy to answer any questions.
                                 ______
                                 
          Prepared Statement of the Intertribal Timber Council
                        introduction and summary
    Mr. Chairman, Members of the subcommittee, I am Phil Rigdon, 
President of the Intertribal Timber Council (ITC) and Deputy Director 
of Natural Resources for the Yakama Nation. The ITC offers the 
following recommendations for fiscal year 2018 Indian forestry-related 
activities in the Bureau of Indian Affairs (BIA), the Department of 
Interior (DoI) Office of Wildland Fire Management (OWFM), and the USDA 
Forest Service (USFS):
    NOTE: Comments are based on funding levels presented in the fiscal 
year 2017 Consolidated Appropriations Act, Public Law 115-31.
BIA
    1.  Increase BIA Forestry (TPA) by $5 million for the hiring of 67 
additional foresters to increase Tribal trust timber harvest pursuant 
to tribally approved forest plans, improving Tribal employment, 
economies, and forest management;
    2.  Increase BIA Forestry Projects Forest Development by $5 million 
($2 for thinning, $3 million for replanting) to reduce BIA backlogs, 
provide hundreds of immediate jobs, and strengthen long-term Tribal 
economies;
OWFM
    3.  Provide $49.5 million in OWFM Burned Area Rehabilitation for 
Indian trust forests burned in 2015.
    4.  Direct a reassessment of wildfire suppression priorities to 
include Indian trust forests as a second priority behind only 
protection of life as a suppression priority.
    5.  Increase Fuels Management funding to $206 million; allow RTRL 
funds on Tribal lands.
USFS
    6.  Encourage expanded support for the ITC Anchor Forest 
initiative, and direct USFS to initiate implementation of the ``Anchor 
Forest Final Report'', including harvest.
    7.  Continue encouraging the USFS to improve implementation of the 
TFPA.
                                  bia
1. Increase BIA Forestry (TPA) by $5 million for the hiring of 67 
        additional foresters to increase Tribal trust timber harvest 
        within tribally approved forest plans, improving Tribal 
        employment, economies, and forest and woodland management.
    Indian forests and woodlands comprise 18.6 million acres, or one 
third, of the total 57 million acres of Indian land held and managed in 
trust by the U.S. Department of the Interior's BIA. Forests are a 
principal Tribal renewable resource, and more than 300 Indian Tribes 
have forest resources. Across the country, Indian forests provide more 
than $40 million in annual Tribal governmental revenues, 19,000 jobs in 
and around Tribal communities, and wildlife habitat, clean water and 
air, and sources of food and medicine for Indian people.
    Six million acres of Tribal trust forests support commercial use. 
Sustainable annual harvest targets set by Tribal governments total 
approximately 750 million board feet. But lack of BIA trust management 
capacity, combined with increasingly complex Federal regulation, has 
caused actual annual harvest levels to fall steadily over the past 
forty years, to a current level only about half that amount. Since 
1991, this decline has cost Tribes $700 million in foregone stumpage 
revenue and tens of thousands of forestry-related jobs. For fiscal year 
2015, BIA could only process 46 percent of the tribally approved annual 
allowable cut, costing Tribes more than $60 million in foregone 
revenue.
    The 2013 Indian Forest Management Assessment Team Report, the third 
statutorily required (Public Law 101-630, Section 312) decadal 
independent review on Tribal forests and forestry (IFMAT III), finds 
that Federal funding for BIA forestry is only one third of that per-
acre for the U.S. Forest Service, that BIA technical forestry staffing 
is chronically insufficient, that each BIA forester administers more 
acres than any other Federal forester, and that BIA professional 
forester staffing should be increased by 65 percent.
    Over the past 2 years I cited an example on my reservation--the 
Yakama Nation--where 33 of the 55 BIA Forestry positions had not been 
filled for a long time. Today, it is basically unchanged, despite 
repeated Tribal pleas. Our harvest targets are not being met, our 
forest health is suffering, and economic opportunities are being lost.
    Data from IFMAT III indicates $5 million added to BIA funding for 
67 foresters (@ $75,000 each) could increase Tribal harvest by up to 
295 million board feet, generate $3 in stumpage revenue for every $1 
invested, and create more than 15,000 rural jobs.
    Please note that additional BIA funding for foresters is essential 
to increasing the Tribal harvest. Even in this era of Tribal assumption 
of forest management functions pursuant to the Indian Self-
Determination Act, the BIA remains responsible for a wide range of 
critical forestry functions in its capacity as trustee. These functions 
include environmental clearances and approval and oversight for timber 
sales, and the lack of forestry staff to perform these and other trust 
functions directly constrains harvest levels.
    In addition to significantly increasing harvest, jobs and revenue, 
increased BIA funding for forestry staff would improve compliance with 
approved Tribal forest management plans, bringing the forest into a 
better managed State, improving forest health and reducing fire, insect 
and disease threats and their associated Federal costs.
2. Increase BIA Forestry Projects Forest Development by $5 million ($2 
        for thinning, $3 million for replanting) to reduce BIA 
        backlogs, provide immediate jobs, and strengthen long-term 
        Tribal economies.
    For decades, insufficient BIA support has allowed significant 
thinning and replanting backlogs to accrue on Tribal trust forest land. 
In recent years, the thinning backlog has remained around 10 percent of 
Tribal trust forest acreage, and the replanting backlog has stayed 
around 4 percent. With these backlogs, parts of our forests are either 
underproductive or out of production altogether, depriving our 
communities of vitally needed jobs and income. The backlogs also 
contribute to poor forest health, particularly for thinning, where 
dense stands grow slowly and are especially susceptible to fire, 
disease and insects.
    In fiscal year 2016, Congress initiated an effort to significantly 
reduce the BIA's thinning backlog. The Committee has maintained this 
effort with $2 million in fiscal year 2017, which is greatly 
appreciated. For fiscal year 2018, we request its continuation with a 
$2 million increase, and that this forest development initiative be 
extended to replanting with a $3 million increase. Both will 
immediately provide hundreds of reservation jobs, with replanting 
offering needed entry-level opportunities. Increased thinning can also 
produce immediate increases in forest product values and Tribal 
revenues, and over the long term, thinning and replanting both 
strengthen our forest economies and improve forest resiliency, in 
keeping with the Federal Government's trust obligation.
                 doi office of wildland fire management
3. Provide $49.5 million in OWFM Burned Area Rehabilitation for Indian 
        trust forests burned in 2015.
    The Interior Department's Office of Wildland Fire Management has 
done next to nothing to rehabilitate the nearly 500,000 acres of Tribal 
trust timber burned during the catastrophic 2015 wildfire season. 
Approximately 1.5 billion board feet of timber was killed, worth more 
than $200 million in Tribal revenue. Nearly 100,000 acres need 
reforestation. Tribal losses of their forest resource, revenue and jobs 
are severe and will extend decades into the future. BIA has estimated 
recovery costs of $55 million over 5 years, including $9 million for 
fiscal year 2016 and $12.6 million for fiscal year 2017. To date, the 
Interior Department has only provided $5.5 million toward the recovery 
of our trust forests burned in 2015, and that includes $2 million 
provided by Congress in fiscal year 2016 to BIA Forestry Projects--not 
OWFM.
    It is outrageous that Federal wildland fire policy essentially 
sacrifices our trust forest assets to protect private property (see 
next item), and now, having allowed this important trust asset to be 
significantly damaged, the Federal Government is giving only lip 
service to its rehabilitation. For fiscal year 2018, to try to get us 
back on track and assure the recovery of this trust asset, we ask that 
the full balance of the BIA's rehabilitation budget for these 2015 
burned lands be provided in the OWFM BAR appropriation, specifically 
designated for recovery of Tribal forests burned in 2015.
4. Direct a reassessment of wildfire suppression priorities to include 
        Indian trust forests as a second priority behind only 
        protection of life as a suppression priority.
    In late summer 2015, when a wave of lightning-caused wildfires 
swept across the Northwest, including on Indian reservations, fire 
crews attacking reservation fires were diverted to fight off-
reservation fires threatening private property, and the fires on our 
trust forests exploded. Despite the Federal trust obligation and 
liability for the management and protection of Tribal trust forests, 
despite the Tribal communities' reliance on our trust forests for jobs, 
revenue, water, and a broad array of other economic, ecological and 
cultural benefits, Federal wildfire policy basically sacrifices Indian 
trust property to save private property. That should not be the case. 
We understand the protection of life needs to be a first priority in 
wildfire suppression, but we believe our forest property, which the 
U.S. has a trust obligation to protect, should be considered a priority 
over private property in Federal wildfire suppression priorities. While 
burned Tribal forests and our dependant economies will take decades to 
recover, burned private structures, often insured, can be rebuilt in 
months. As the ITC requested last year, we again request the Committee 
to direct the reevaluation of Federal fire suppression priorities to 
consider the protection of Indian trust resources as second only to 
protection of life.
5. Increase Fuels Management funding to $206 million; allow RTRL funds 
        on Tribal lands.
    For fiscal year 2018, ITC urges, as it has for many recent years, 
that DOI Fuels Management funding be restored to its fiscal year 2010 
$206 million level. Proactive reduction of fuels is a proven method to 
reduce risk to our Nation's forests and is a sound investment to reduce 
the expense of future suppression. Within the fiscal year 2018 Fuels 
Management budget, ITC also strongly supports the continuation of $10 
million for Reserved Treaty Rights Lands (RTRL) landscape restoration. 
Currently, Tribes can use these funds for proactive fuels and forest 
health projects on neighboring Federal forests to protect Tribal treaty 
assets. To make these RTRL funds more flexible and efficient, we ask 
that they be authorized for use on both Tribal lands and off-
reservation lands.
                                  usfs
6. Encourage expanded support for the ITC Anchor Forest initiative, and 
        direct USFS to initiate implementation of the ``Anchor Forest 
        Final Report'', including harvest.
    ITC requests that the Committee include report language to 
encourage and expand the Forest Service's continued support of the 
ITC's Anchor Forest initiative, in which Tribes and other forest 
stakeholders pursue long-term collaboration to maintain ecological 
functions and sustain economically viable infrastructure for 
management, harvesting, transportation, and processing of forest 
products as a cost effective management strategy. The final report of 
the ITC's Anchor Forest pilot study of forest lands in central and 
eastern Washington State, published in March 2016 and available on line 
at the ITC website, was developed with the participation of Tribal, 
Federal and State governments, the conservation community, and local 
forestland owners and businesses. Tribes in the Lakes States, the 
Plains States, Alaska, and the Southwest are expressing interest in the 
Anchor Forest concept, and we urge Committee report language supporting 
expanded application of the Anchor Forest concept.
    ITC also asks that the Committee direct the USFS to actively 
initiate implementation of the ``Anchor Forest Final Report'', 
including harvest. The USFS contributed to and actively participated in 
that Anchor Forest study. The study is now complete and published, but 
USFS has not thus far undertaken any activities to implement its 
findings and recommendations. To help bring life to the Anchor Forest 
concept and sustain local forest jobs and infrastructure, please direct 
USFS to begin implementing its portion of the ``Anchor Forest Final 
Report'', including harvest.
7. Continue encouraging the USFS to improve implementation of the TFPA.
    Finally, ITC requests the subcommittee express continued support 
for implementation of the Tribal Forest Protection Act, as it did in 
fiscal year 2015. The Tribal Forest Protection Act (TFPA, PL 108-278) 
authorizes Tribes to conduct fuels and health projects on USFS and BLM 
lands to protect Tribal trust and cultural resources. The Committee's 
support helped prompt a series of successful regional TFPA workshops 
and the initiating of a good number of TFPA agreements. There is strong 
continuing interest in additional workshops and TFPA projects, and the 
ITC urges the Committee to express continued support for the TFPA 
program.
                 intertribal timber council background.
    The ITC is a 41 year old association of forest owning Tribes and 
Alaska Native organizations dedicated to improving the sustainable 
ecological and economic management of our 18.6 million acres of 
timberland and woodland held in BIA trust. We invite you to come visit.
    That concludes my statement. Thank you.
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe
    On behalf of the Jamestown S'Klallam Tribe, I am pleased to submit 
this written testimony on our funding priorities and requests for the 
fiscal year 2018 Bureau of Indian Affairs (BIA), Indian Health Service 
(IHS) and the Environmental Protection Agency (EPA) budgets. A 
fundamental goal for our Tribe is achieving economic self-sufficiency/
self-reliance through opportunities that enable us to generate our own 
unrestricted revenues to address the unfulfilled Federal obligation and 
unmet needs of our community. When Tribes are allowed to conduct 
activities on their own land subject to their own taxes and regulations 
that are not impeded by State and local tax infringement, Indian 
reservation economies flourish. We have shown time and again that the 
Federal investment in our communities is a good investment and 
continued program and financial support is invaluable to protecting our 
resources and bolstering Tribal local and State economies.
    Decades of unfulfilled Federal obligations has devastated Tribal 
communities who continue to face persistent shortfalls and overwhelming 
unmet needs. Unless Congress acts, sequestration cuts will return in 
fiscal year 2018. These budgetary rescissions are permanent, 
unsupportable reductions to Tribal base programs and the cumulative 
effect over the years has devastated Tribal communities and stifled 
Tribal self-sufficiency. Until Tribes attain exclusive taxing 
jurisdiction within their Tribal lands, Federal support at sustainable 
levels remains critical to ensure the delivery of essential 
governmental services to our Tribal citizens. The Federal trust 
obligation must be honored and vital programs and services for Tribes 
must be sustained and held harmless in any budgetary deals enacted to 
reduce the national deficit.

TRIBAL SPECIFIC APPROPRIATION PRIORITIES

    1.  $8.3 million for Tribal/City of Sequim Wastewater Connection
    2.  $127,994 Tribal increase for the Indian General Assistance 
Program (GAP) EPA
    3.  $150,000 to restore funding for the Dungeness Floodplain 
Restoration & Ecosystem Restoration Puget Sound Geographic and National 
Estuarine Program (NEP) EPA

    $8.3 million--Waste Water System.--Basic sanitation facilities in 
our community is an essential prerequisite to ensuring public health 
and community wellness, as well as, economic viability. Specifically, 
in order to engage in economic development and expand our Tribal 
business portfolio, the Tribe needs to invest in a waste water system. 
Our Tribal government cannot operate without adequate infrastructure 
for sanitation facilities and clean water. After years of careful 
planning and research, we have entered into a partnership with the City 
of Sequim to connect Tribal businesses and governmental facilities in 
Blyn to the City of Sequim Wastewater Treatment Plant. The installation 
of the project pipeline is approximately $8.3 million but this 
investment will not only address environmental/public health concerns, 
it will accrue sustainable long term economic benefits.
    $127,994 million increase--Indian General Assistance Program 
(GAP)--EPA.--Our Treaty, Point No Point, guarantees our Tribe and its 
citizens the right to hunt, fish, and gather shellfish in our usual and 
accustomed areas but that right is meaningless if there are no elk to 
hunt, fish to catch, or clams and berries to harvest. Our Tribe has 
been recognized on numerous occasions for our leadership, stewardship, 
and management practices in the area of Natural Resources protection 
and development. We have made tremendous strides in advancing 
techniques that identify and reduce pollution, improve water quality, 
assess the status of public health needs, restore habitat, and 
replenish depleted fish and shellfish stocks, that are on the brink of 
extinction, including, ESA listed summer chum. Preservation of Tribal 
Treaty Rights begins with Tribal capacity building which is critical to 
sustain the positive environmental and economic achievements, 
including, the generation of employment opportunities, the building and 
upgrading of ecological infrastructure, the establishment of domestic 
and international trade relationships, and the bolstering of Tribal, 
local and State economies.
    $150,000--Geographic/Ecosystems Program (Dungeness Floodplain 
Restoration & Ecosystem Restoration Puget Sound).--The Dungeness River 
is the Tribe's ancestral river. In 1855, a dike was built on the 
Dungeness estuary marshlands and, this act, coupled with a plethora of 
other man-made impacts, has caused serious degradation to the Dungeness 
River Salmon habitat. These environmental impacts have been devastating 
and have led to declines in the Salmon populations because of the loss 
of habitat. The Geographic/Ecosystems program provides funding for our 
Tribe to protect and restore the Puget Sound ecosystem. The success of 
this program is evidenced in the many achievements our Tribe has seen 
to date, including, commercial shellfish bed upgrades, construction of 
storm water infrastructure across Puget Sound, salmon recovery and 
water quality improvement, successful research projects, such as, 
biotoxin research results on shellfish, successful levee and log jam 
design projects, and, many education and engagement campaigns. This 
program is also multi-jurisdictional in that Federal and State 
agencies, Tribes, regional fishery organizations and other partners 
take a synergistic and economically sustainable approach to addressing 
environmental issues. The benefits of this program extend well beyond 
the reservation boundaries and into the local surrounding communities.

NATIONAL REQUESTS AND RECOMMENDATIONS FOR THE BIA AND IHS

    1.  Contract Support Costs Mandatory Funding
    2.  Increase Funding for Tribal Base Budgets/Recurring Programs

    Contract Support Costs Mandatory Funding.--The Tribe appreciates 
the continued bipartisan support of the Interior Appropriations 
Subcommittee for full funding of Contract Support Costs (CSC) for both 
the IHS and BIA. The Consolidated Appropriations Act provided full 
funding of CSC in fiscal year 2016 at an indefinite amount, and ensured 
that funding for CSC was not at the expense of amounts appropriated for 
critical programmatic services. Our Tribe maintains, however, that the 
indefinite appropriation of CSC funding must be made mandatory and 
permanent to ensure that these legally mandated obligations are 
properly executed.
    Increase Funding for Tribal Base Budgets/Recurring Programs.--
Recently, agencies are opting to fund Tribal programs and services with 
grant dollars as opposed to providing base recurring funding. Grant 
funding undermines core Self-Governance tenets and hinders the ability 
of Tribes to redesign programs and services to better address their 
community's needs. Grant funding does not work well as the main funding 
source because it is a short term investment that is used to support 
ongoing and critical needs. Grants create uncertainty in planning, make 
Tribes compete for limited funding, require extensive regulation, 
impose overly burdensome reporting requirements and restrict the use of 
indirect costs. We would urge Congress to increase funding for Tribal 
base budgets by funding Tribal Priority Allocations and other Recurring 
Programs because it will benefit all Tribes as opposed to creating more 
grants that only benefit a few.

NATIONAL REQUESTS AND RECOMMENDATIONS FOR THE BIA

    1.  Economic Development TPA $25 million
    2.  Natural Resources TPA $10 million
    3.  Indian Guaranteed Loan Program $12.6 million

    $25 million--Economic Development (TPA).--Increased funding for 
Economic Development will allow us to continue to diversify our 
successful business portfolio and expand our revenue generating 
opportunities. Chronic underfunding and the severe lack of private 
investment have left the economic potential of our Tribe unrealized. 
Tribes are forced to rely on their own economic ventures to generate 
revenue to support programs and services for Tribal citizens. Yet, 
Tribes are expected to meet these economic challenges with fewer 
resources and greater restrictions placed on vital economic financing 
tools and incentives that are easily accessible and lucrative to other 
governments.
    $10 million--Natural Resources (TPA).--The Federal investment in 
Tribal Natural Resources will foster Tribal self-sufficiency and 
support Tribal economies by cultivating cross jurisdictional 
partnerships with State and local governments that create jobs and 
promote and advance trade. This investment also advances a number of 
ancillary but equally important cultural and religious practices, 
creates community cohesiveness and improves the environmental 
conditions on our Tribal homelands and in surrounding communities.
    $15 million--Indian Guaranteed Loan Program/Surety Bonds.--Loan 
guarantees are an attractive financial tool because Tribes are able to 
leverage limited Federal funding and promote economic growth by 
investing in projects that are capable of generating their own revenue 
streams. The program, however, has been consistently targeted for cuts 
despite its positive return on the Federal investment. If not for the 
Loan Guarantee Program, many Tribes would not be unable to secure loans 
from typical sources that are available to other entities and 
businesses. Federal credit programs should facilitate Tribal access to 
private capital markets where Tribes frequently encounter market 
resistance to conventional lending.
    Office of Self-Governance (OSG).--OSG provides administrative 
support to half of all Tribes nationwide. However, a current funding 
shortfall of .4 million will result in the loss of critical staff 
unless this Subcommittee provides a budget line item increase for OSG 
or the Bureau is directed to transfer recurring funding internally.

NATIONAL REQUESTS AND RECOMMENDATIONS FOR THE IHS

    1.  Support Mandatory Appropriations for IHS
    2.  Fully Fund the Indian Healthcare Improvement Act Provisions in 
the ACA
    3.  Increase Funding for Purchased and Referred Care $562.2 million

    Support Mandatory Appropriations for IHS.--Tribal healthcare 
programs should be funded similarly to every other government health 
programs in this country through mandatory funding. The Interior, 
Environment and Related Agencies Appropriations Bill, which includes 
funding for IHS, has not been enacted in a timely manner for the past 
twenty years, creating significant challenges to Tribes' ability to 
provide critical healthcare services to their Tribal citizens. When it 
comes to IHS funding, delays could mean the loss of life. Late funding 
not only affects quality of care, it constrains Tribal healthcare 
providers' ability to plan, budget, recruit and retain staff, and 
construct and maintain facilities. Providing predictable, timely and 
sufficient funding will ensure the Federal Government is upholding its 
trust responsibility to American Indians and Alaska Natives.
    Fully Fund the IHCIA Provisions in the ACA.--Although the IHCIA 
provides the authority and, with it, the opportunity to provide 
essential healthcare to Tribal citizens, it did not provide the 
necessary funds to the IHS to carry out these new statutory 
obligations. There are twenty three unfunded provisions in the Indian 
Health Care Improvement Act (IHCIA). Many of the provisions that remain 
unfunded would strengthen the Tribal healthcare workforce, provide 
greater access to behavioral health and support innovative initiatives 
for healthcare delivery to Tribal citizens. Funding these provisions is 
a necessary precursor to increase Tribal capacity, infrastructure and 
most importantly access to healthcare services. A significant Federal 
investment is needed to achieve a fully funded Indian Health Service 
and now is the time to act on opportunities made possible in the newly 
expanded authorities granted under the IHCIA.
    $562.2 million--Purchased and Referred Care (PRC).--Most IHS and 
Tribally-operated direct care facilities do not provide the required 
emergency and specialty care services so Tribes are forced to turn to 
the private sector to fulfill this need. PRC funds are used to purchase 
essential healthcare services, including inpatient and outpatient care, 
routine emergency ambulatory care, transportation and medical support 
services, such as diagnostic imaging, physical therapy, laboratory, 
nutrition and pharmacy services.

NATIONAL REQUESTS AND RECOMMENDATIONS

    The Jamestown S'Klallam Tribe continues to support the requests and 
recommendations of the Self-Governance Communication and Education 
Tribal Consortium, the National Congress of American Indians and the 
National Indian Health Board.

REGIONAL REQUESTS AND RECOMMENDATIONS

    The Jamestown S'Klallam Tribe support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.

    [This statement was submitted by W. Ron Allen, Tribal Chairman/
CEO.]
                                 ______
                                 
       Prepared Statement of the Kenai Peninsula Borough (Alaska)
                                                      May 25, 2017.
Hon. Lisa Murkowski,
Hon. Tom Udall,
Subcommittee on Interior, Environment, and Related Agencies,
Committee on Appropriations.

Dear Senators Murkowski and Udall,

    Since 1977, Congress has appropriated and the U.S. Treasury has 
distributed payments in lieu of taxes (PILT) on Federal lands 
nationwide. The Federal Government owns about 65 percent of the lands 
in the Kenai Peninsula Borough, with the borough budgeted to receive 
$2.6 million in Federal PILT funds in fiscal year 2017 and estimating 
the same amount in fiscal year 2018. This letter is to state our 
support for full finding of the PILT program in the Federal fiscal year 
2018 budget, and to provide you with an example of how important those 
dollars are to the borough, in particular to help fund a new effort to 
provide emergency response services for traffic accidents along the 
Seward, Sterling and Hope highways on the peninsula.
    The Kenai Peninsula Borough lacks the authority to provide borough-
wide emergency services (fire and ambulance services). Rather, such 
services are provided through local service areas, such as the Nikiski 
Fire Service Area and the Central Emergency Service (CES) Area, and 
through volunteer squads, such as in the small communities of Cooper 
Landing, Hope and Moose Pass. That mix of service areas and volunteer 
organizations leaves more than 90 miles of State highway through the 
peninsula with uncertain coverage and emergency response authority. 
Volunteers respond to accidents as best they can, assisted by personnel 
from CES stations (Sterling and Soldotna) who respond as they are 
able--under the authority of mutual-aid agreements--while still 
managing their primary responsibilities at home, all the while as 
people injured in traffic accidents wait for help to arrive.
    The borough's solution was to create an emergency services area 
that stretches literally--and only--along the State highway right of 
way. There are no residents in the right of way, and no private 
property. As such, there was no way under existing State statute to 
create a traditional service area. But the legislature this session 
looked favorably upon our proposal to amend statute to allow creation 
of such a service area along a State highway. A unique solution, but I 
believe it will work.
    As we wait for the governor to sign the measure into law, I have 
proposed to the borough assembly the use of Federal PILT funds to pay 
for the emergency response services. As a significant portion of the 
State highway is on or adjacent to Federal lands, there is no property 
to tax as normally would be the case in a municipal service area. Yet 
the need for the services clearly exists--almost 200 people were 
injured in more than 100 traffic accidents along the affected stretches 
of the Seward, Sterling and Hope highways the past 2 years. It is the 
only road connection between the Kenai Peninsula and the rest of 
Alaska, a heavily traveled corridor with more than 8,000 vehicles a day 
during the peak season. This seems to me to be a perfect use of Federal 
PILT dollars, since many of the travelers are utilizing this corridor 
to access Federal public lands.
    I write to share with you our plans for the Federal funds, should 
you or any of your colleagues ever wonder what Alaska municipalities do 
with the money, separate from depositing the check into the general 
fund.
    The Kenai Peninsula Borough appreciates the longstanding program's 
contribution toward public services for our residents and visitors 
alike.

            Sincerely,
                                   Mike Navarre,
                                           Mayor.
                                 ______
                                 
    Prepared Statement of the Lac Du Flambeau Band of Lake Superior 
                            Chippewa Indians
    The Lac du Flambeau Band of Lake Superior Chippewa Indians 
appreciates the opportunity to provide written testimony concerning 
IHS, BIA and EPA funding for fiscal year 2018. The Band is located in 
Vilas, Oneida and Iron Counties Wisconsin. Our Tribe of 3,400 members 
is the largest employer in Vilas County. Together with Tribal 
enterprises, the Tribe employs 800 individuals, with nearly 25 percent 
or 190 employees paid in full or in part with appropriations made under 
this subcommittee's jurisdiction. Within our 86,600-acre reservation, 
there are 260 lakes, 71 miles of streams and rivers, approximately 
42,000 acres of forested land and roughly 42,000 acres of water and 
wetlands. Our reservation has one of the densest concentrations of 
fresh water in the country and our lands and waters are sacred to the 
Band and its members. We are working hard to build and maintain a 
stable, healthy Tribal community, amid many challenges. Like many rural 
areas, we are dealing with opioid abuse and the challenges of creating 
and maintaining jobs for our citizens and residents.
    It has taken many years for the Tribe to reduce our unemployment 
rate, which spiked considerably after the 2008-2010 economic downturn. 
Federal expenditures by our Tribe in fiscal year 2016 totaled about $20 
million, of which IHS, BIA and EPA funding amounted to $12 million or 
about 60 percent. It is critical to our Tribe that Federal funds within 
this subcommittee's jurisdiction increase in 2018 to help us address 
our great health, educational, social and natural resource needs. Our 
testimony today addresses IHS, BIA and EPA programs that are vital to 
the Lac du Flambeau Band. The Tribe thanks the subcommittee for its 
leadership and commitment to Indian Tribes which honors the Nation's 
trust responsibility to the Indian people. The Tribe appreciates that 
Congress provided increased funds in fiscal year 2017 for BIA, BIE and 
IHS programs.
    As you have done for fiscal year 2017, we ask that you reject 
President Trump's ``America First'' Budget for fiscal year 2018, which 
calls for unwarranted reductions in non-defense agency appropriations, 
including unwarranted cuts to the Department of Health and Human 
Services, Department of the Interior, and Environmental Protection 
Agency (EPA). The America First budget proposal, if enacted, would 
cause great harm to the Band and to most Native Americans who, more 
than most Americans, rely heavily on Federal appropriations across 
multiple Federal agencies, not just Interior and DHHS.
    The Tribal Government does not want to inform any one of the 
hundreds of our loyal Tribal employees whose jobs depend, in whole or 
part on Federal funds, that the Tribe must lay them off in 2018 because 
the Federal Government did not honor its commitments to Indian people 
in accordance with the trust responsibility and the special government-
to-government relationship. Please continue to educate your Senate 
colleagues concerning the trust obligation and the important work that 
Indian Tribes carry out with Federal funds. What our Tribe has worked 
decades to build will be at risk if program funding drops, layoffs 
occur and families move off the Reservation.
    We are grateful that the final spending measure for fiscal year 
2017 that Congress just passed. Native Americans, many of whom are low 
income wage earners, live a fragile existence. Adverse changes can tip 
them further into poverty and unemployment, which can lead to substance 
abuse and premature death. We have seen this on our Reservation. Please 
recognize the interconnectedness of IHS, BIA and EPA programs which 
help promote healthy Tribal members and healthy communities; essential 
building blocks for stable communities where Tribal parents can raise 
Native youth in safety and security so that may realize their fullest 
potential and contribute to their community's and the Nation's future.
                   i. indian health service programs
    The Tribe greatly appreciates the $232 million increase Congress 
provided for fiscal year 2017 for the IHS, allocated among such 
accounts as Hospitals and Clinics, Purchased/Referred Care (P/RC), 
Mental Health, Alcohol and Substance Abuse, Dental Health, Contract 
Support Costs (CSCs), construction and maintenance and improvement. The 
Tribe operates the Peter Christensen Health Center, Dental Program, a 
Family Resource Center, a Domestic Abuse Program, a Youth Center and 
Child Support Agency. Our programs ensure the support and preservation 
of family life and wellbeing by providing such services as outpatient 
mental health, outpatient alcohol and other drug abuse, and 
psychological consults. The Health Center provides quality healthcare 
and offers a full range of family medical services by Board Certified 
family physicians, advanced practice nurse practitioner and physician-
assistants. The program also provides podiatry, optometry, pharmacy and 
a range of community-based services. Together, our health programs 
employ a staff of 140 individuals, about three-quarters of our 
workforce supported in part by funds appropriated by this subcommittee. 
The Tribe asks that Congress increase IHS funding in 2018 and reject 
the Administration's unwise cuts.
    Our rationale for this funding increase is borne of necessity. We 
are seeing how important proactive and preventive health services are 
for our community. Wisconsin is seeing a large increase in babies born 
with Neonatal Abstinence Syndrome (NAS), a result of women taking 
prescription drugs such as Vicodin or heroin while pregnant. Recent 
data shows that Vilas County has the second-highest percent of NAS 
babies in the State, 2-3/100 babies. Early treatment is critical. We 
urge the subcommittee to increase funds for preventive health programs, 
which can save lives and empower our Tribe to help our citizens address 
addictions and mental health issues, especially targeting our Tribal 
youth. Please prioritize increases in fiscal year 2018 IHS funding for 
Hospitals and Clinics, mental health, substance abuse treatment and P/
RC funds so that we can take a proactive stance by investing wisely in 
preventive health services.
                     ii. bie and bia appropriations
Indian Education
    Congress provided $34.7 million for Adult Scholarships and $2.9 
million for special higher education scholarships for fiscal year 2017. 
We recommend this subcommittee include a similar increase for fiscal 
year 2018. As Congress noted last year: ``Indian education remains 
among the Committee's top priorities because it is a fundamental trust 
responsibility and because elementary and secondary students in 
particular have fallen far behind their peers.'' We oppose cuts to the 
BIE and Department of Education in fiscal year 2018 which threaten to 
undermine educational services for Native youth and adults. Together, 
these programs provide critical educational resources and services for 
Tribal members that are crucial to meeting the unique educational and 
cultural needs of our students. If our children are to excel in life, 
they must be educated in stimulating environments by well educated 
professionals, transported in modern buses over all-season roads and 
delivered to safe, loving homes. Our Tribe is doing its part. Education 
at Lac du Flambeau begins early. We operate the Little Dream Daycare 
and Zaasijiwan Head Start and Early Head Start programs. We also 
operate a Home-Based program that serves up to 24 families. Our early 
education programs include multiple activities designed to promote 
learning, school readiness and social/emotional wellness. We realize 
that good nutrition, learning through play and time outdoors in the 
fresh air are central to health.
    The Lac du Flambeau Public School and Lakeland Union High School 
educate our Tribal youth. The High School's 2015/2016 student body was 
20 percent Native American and 86 percent of high school graduates went 
on to attend 4- and 2-year colleges/technical schools, 9 percent 
entered the workforce or pursued other activities and 5 percent entered 
the military. For this reason, we oppose any effort to eliminate the 
Johnson O'Malley Program, the goal of which is to address the unique 
cultural needs of Indian students attending public schools through a 
supplemental program of services planned, developed and approved by the 
Local Indian Education Committee, comprised of parents of eligible 
Indian students. The $14 million JOM Program must be increased, so that 
Indian children are provided the supplemental programs that honor and 
celebrate their Native heritage and help them grow into confident, 
well-adjusted adults who contribute to their families.
Road Maintenance Program
    The Tribe appreciates Congress including a $3.2 million increase in 
funding for the Road Maintenance Program for fiscal year 2017. We 
believe a $10 million increase is justified for fiscal year 2018. The 
Tribe receives less than $90,000 to maintain nearly 180 miles of BIA-
owned roads. Our budget requirements for road maintenance are closer to 
$2 million annually. As the subcommittee noted, appropriations for 
fiscal year 2016 permitted only 16 percent of BIA-owned roads to be 
maintained in ``fair'' condition. According to the CDC, motor vehicle 
crashes are the leading cause of death among Native Americans aged 1-
44. Native American infants are eight times more likely to be killed in 
a motor vehicle crash than a non-Native infant. Poorly maintained roads 
contribute to motor vehicle crashes. Poor roads contribute to absentee-
ism at work and school and delay police and EMT responders. A year's 
entire road maintenance budget can be consumed in the winter months 
removing snow and salting/sanding roads to ensure freedom of movement. 
Transportation barriers undermine Federal and Tribal efforts to improve 
Native health, educate our youth and attract businesses and jobs to 
remote, rural communities like ours. The ``historical'' formula for the 
BIA Road Maintenance Program makes little sense to us. We ask the 
subcommittee to include report language for fiscal year 2018 that 
directs the BIA to explain the allocation methodology, verify each 
Tribe's road inventory that generate Road Maintenance dollars, and make 
publicly available to Tribes their relative share of funds.
                  iii. natural resources (epa and bia)
    The Tribe has a vibrant Natural Resources program, including a Fish 
Hatchery for several species of fish, Fisheries Management, Waterfowl 
habitat protection (Great Lakes Restoration Initiative, Conservation 
Law Enforcement, Wildlife), Water Resources, Historic Preservation and 
Land Management. Our Natural Resources Department employs fish 
biologists, wildlife biologists, fish hatchery operators, hydrologists, 
technicians and administrators, many of whom are paid in full or in 
part with EPA and BIA funds and critical to our work protecting the 
resources that were promised to us in our Treaties. We urge the 
subcommittee not to jeopardize our Natural Resources programs that are 
critical to protecting our culture, our health and our economy, part of 
Wisconsin's $19 billion hunting, fishing, recreation and tourism 
industry. A 31 percent reduction in EPA funding and cuts to BIA Natural 
Resources programs would be devastating to our Program. Even with 
existing funding, we struggle to meet the demands we face to maintain 
clean air, water and lands from the many contaminants that threaten our 
community. The highest concentrations of mercury tainted lakes are in 
the State's northern most counties, including Vilas and Oneida. 
Minnesota and Wisconsin lead the Nation with mercury-contaminated 
lakes. At present, there are more than 500 fish health mercury 
advisories in place in Wisconsin. This presents a direct threat to our 
culture because we cannot eat contaminated fish that are otherwise a 
staple of our diet.
A. Great Lakes Restoration Initiative
    Thank you for funding the Great Lakes Restoration Initiative at 
$300 million in fiscal year 2017. Do not terminate this vital program. 
For the indigenous people of Wisconsin, the Great Lakes represent the 
lifeblood of our culture and the foundation of our economies. The 
protection and preservation of the Great Lakes is a necessity.
B. Trust-Natural Resources Management
    In fiscal year 2017, Congress appropriated $200.9 million for the 
BIA's Trust-Natural Resources Management programs, a $9.1 million 
increase from fiscal year 2016. Our Tribe alone needs nearly a $500,000 
increase for our Tribal Fish Hatchery Operations and Tribal Management/
Development Program for fiscal year 2018. The Fisheries and Fish 
Culture Program raises all fish necessary for stocking reservation 
waters and we benefit from programs carried out by GLIFWC. Our 
fisheries program also generates Tribal revenues.
C. EPA Tribal General Assistance Program
    Weeks ago, Congress approved $3.527 billion for State and Tribal 
Assistance Grants, including $2.461 billion for Infrastructure 
assistance grants and $1.066 billion for categorical grants 
(maintaining Tribal air quality management grants and Tribal general 
assistance program (Tribal GAP) grants at $12.8 million and $65.4 
million, respectively). The Tribal GAP program provides base 
environmental funding to assist Tribes in building their environmental 
capacity to assess environmental conditions, utilize available data and 
build their environmental programs to meet their local needs. This is a 
foundational program for Tribes to address the broad range of 
challenges we face regarding our natural resources. Our Natural 
Resources Program would suffer in the face of a 31 percent cut.
D. Circle of Flight: Wetlands Waterfowl Program
    We urge the subcommittee to continue to provide support for the BIA 
Circle of Flight Program (about $707,000). This modest BIA program 
supports Tribal efforts throughout the Great Lakes Region to restore 
and preserve wetlands and waterfowl habitat within Tribal territories 
and enhances wild rice gathering, providing expanded hunting and 
fishing opportunities for economic development.
E. Underground Storage Tank Fund (LUST)
    We remain concerned that annual reductions to the Underground 
Storage Tank fund (LUST) permits ongoing contamination of ground waters 
that threaten Tribal and other communities. We encourage the 
subcommittee to instruct EPA to give greater consideration to Tribal 
cleanup standards and help Indian Tribes remediate unsafe conditions on 
reservations.
    Thank you for affording us the opportunity to submit written 
testimony.
                                 ______
                                 
        Prepared Statement of the League of American Orchestras
    The League of American Orchestras urges the Senate Interior, 
Environment, and Related Agencies Appropriations Subcommittee to 
support fiscal year 2018 funding for the National Endowment for the 
Arts (NEA) at a level of $155 million. The bipartisan support in 
Congress for the ongoing work of the NEA was affirmed when a $2 million 
increase for the agency was included in the final fiscal year 2017 
omnibus appropriations bill. Further increases in funding in fiscal 
year 2018 will enable the agency to help more communities fulfill the 
NEA's mission to provide all Americans with diverse opportunities for 
arts participation.
    The League of American Orchestras leads, supports, and champions 
America's orchestras and the vitality of the music they perform. Its 
diverse membership of more than 2,000 organizations and individuals 
runs the gamut from world-renowned symphonies to community groups, from 
summer festivals to student and youth ensembles, from businesses 
serving orchestras to individuals who love symphonic music. Orchestras 
contribute to civic vitality, educate citizens of all ages, and unite 
people through creativity and artistry.
    In fiscal year 2016, the NEA's Grants to Organizations included 112 
direct grants to orchestras in the Art Works and Challenge America 
categories. These grants expand the capacity of orchestras to present 
concerts and programs that are greatly valued by communities of all 
sizes, due in no small part to the powerful leveraging capacity of one 
dollar of direct NEA funding to yield up to $9 in private and other 
public funds. The following eight orchestral awards from fiscal year 
2016 and fiscal year 2017 total $122,500 in direct Federal support and 
offer an inspiring glimpse into the unique community partnerships that 
result from the Federal investment in the NEA.
        nea funding broadens access for underserved communities
    One of the most valuable services the NEA provides is to improve 
public access to the arts. The Challenge America grant category offers 
support primarily to small and mid-sized organizations for projects 
that extend the reach of the arts to populations whose opportunities to 
experience the arts have been limited by geography, economics, or 
disability. The Billings Symphony Orchestra & Chorale (BSO&C), with its 
four full-time and four part-time staff and approximately 70 orchestra 
musicians, used its Challenge America grant to present guest artist Rex 
Richardson as trumpet soloist for several events, including a free 
concert and education and engagement programs in downtown Billings and 
in the town of Hardin. Among the schools Mr. Richardson visited were 
Hardin Middle School (a 100 percent Title I school that combines with 
several schools from the neighboring Crow Indian Reservation), Senior 
High School (a Title I school in Billings), and Montana State 
University-Billings. Mr. Richardson's master clinic for the Hardin 
middle school brass students proved to be an especially rewarding 
experience for an autistic high school band student who was unable to 
travel with the band to a State basketball tournament. Mr. Richardson 
deputized this young man to help with one group of middle school 
students while he worked with another; the orchestra's director of 
education reported ``This young man's smile never left his face because 
he was given a chance to work with someone of Mr. Richardson's caliber 
and was also given the chance to help other younger students while the 
rest of his band members were away.'' Approximately 800 Montanans, 
including this high school student, had truly memorable experiences 
thanks to NEA support.
    The Spokane Symphony, with a staff of 25, received an NEA Art Works 
grant for ``Music Heals,'' a unique collaboration with the Spokane 
Indian Reservation inspired by the words of a Spokane Tribal Elder: 
``We won't heal until we all remember to sing, drum, and dance.'' The 
intergenerational program brought together students in the Wellpinit 
School District, Spokane Tribal Elders, and the community through music 
education in traditional instruments and interactive performances with 
the orchestra. By uniting music education and traditional Native 
American musical arts and storytelling, this collaboration encouraged 
students to participate in life-changing music-making. The orchestra 
performed on the grounds of the Spokane Tribe for a collaborative 
concert and cultural exchange with students performing on hand-made 
flutes and drums alongside members of the orchestra.
    With a full-time administrative staff of seven and upward of 100 
part-time professional musicians, the West Virginia Symphony Orchestra 
(WVSO) serves more than 35,000 West Virginians a year, many of whom 
live in isolated communities. An Art Works grant helped support the 
WVSO's statewide touring and community engagement project, bringing 
award-winning educational programs to communities such as Beckley, 
Elkins, Fairmont, and Parkersburg. The WVSO used music as a point of 
entry to help learners gain a better understanding of music, math, and 
other disciplines. Helping to shape the next generation of creative 
thinkers, productive citizens, and community leaders through the arts 
can make a difference in communities where unemployment and poverty 
rates are high and educational attainment rates low. NEA support is 
essential for the WVSO's statewide touring and engagement work.
    Another orchestra taking to the open road to engage with 
communities well beyond their concert hall is the Utah Symphony. The 
Great American Road Trip (GART) is a follow up to the symphony's 2014 
Mighty 5 Tour, and this venture will take the orchestra on a 1,200-
mile tour of Utah this late summer. Free outdoor performances and 
educational activities in rural communities will offer opportunities to 
pay homage to Utah's landscape and to the country's Native American 
heritage. Thanks to support from the NEA, the Utah State Legislature, 
and Signature Sponsor the George S. and Dolores Dore Eccles Foundation, 
this tour will strengthen existing collaborations with other 
organizations and individuals in outlying communities, build new 
partnerships, and most importantly, enable the orchestra to fulfill its 
mission to ``connect the community through great live music.'' NEA 
support is an important component in allowing the Utah Symphony, with 
its 67 full-time and 15-part time staff, two librarians, and 86 
musicians, to make music accessible to the people throughout Utah, and 
this critical investment has long-lasting impact that creates both an 
artistic legacy and broader community engagement.
           nea funding supports educating our country's youth
    With six full-time and four part-time/contract staff members and 62 
musicians, the Chattanooga Symphony & Opera (CSO) maximized its Art 
Works grant to support ``Sound Beginnings,'' a series of educational 
programs that includes sending principal musicians from the orchestra 
to perform at no charge as many as 60 times for more than 25,000 
students in a 12-county area. Additionally, nearly 7,000 third grade 
students in Hamilton County schools attended the CSO's Young People's 
Concerts free of charge this year. During the course of its varied 
educational offerings, the CSO learned that many families often felt 
uncomfortable attending cultural events because their children with 
special needs might respond to music differently. With assistance from 
the Tennessee Arts Commission's Accessibility Office, the CSO 
immediately began efforts to offer programs for families and children 
with autism, Down Syndrome, and other disabilities. The resulting 
Saturday morning, ``Sensory Friendly Concert'' series in a variety of 
Chattanooga locations provided a welcoming and inviting way for these 
previously underserved children and families to interact with music and 
the CSO. One first-time attendee wholeheartedly affirmed the value of 
this series: ``We just wanted to say thank you for doing these sensory 
friendly concerts. Our son loves music but would never be able to sit 
quietly through a concert with drums, etc. This way he (we all!) were 
able to enjoy the beautiful music! Thank you again!'' With such 
enthusiasm from families and the community for this program, the CSO 
plans to continue--and perhaps expand--this series in the upcoming 
season.
    The Anchorage Symphony Orchestra (ASO), with just four full-time 
employees and more than 100 musicians, brings orchestral music to 
thousands of students far beyond its immediate region. An Art Works 
grant helped to support ASO's Young People's Concerts (YPCs), a 
collaboration with Anchorage School District music educators to 
encourage participation in school instrumental music programs among 
elementary school students. Each year, the ASO pays for buses to bring 
approximately 7,000 students from communities 75 miles north and 50 
miles south of Anchorage to attend the concerts, and it waives the $5 
admission fee for any student who cannot afford it. Although the ASO is 
pleased to introduce many of these students to a professional orchestra 
for the first time, its main goal is to plant the seed for extended 
musical participation. During a recent conversation, Dr. Bruce Wood, 
Director of the Anchorage School District's Music and Fine Arts 
Department, shared that a stunning ninety-three percent (93 percent) of 
ASD sixth graders elect to start band and orchestra. He wrote, ``I 
consider the Young People's Concerts as vital to a healthy music 
education for the children of the Anchorage School District.''
    nea funding supports american artistry and thoughtful community 
                               engagement
    The NEA provided Art Works funding to Pacific Symphony for its 
annual American Composers Festival, supporting four live concert 
performances that featured the musical works of California-based 
composers Frank Ticheli (a past composer-in-residence), John Adams 
(celebrating his 70th birthday), and Peter Boyer with his ``Ellis 
Island: The Dream of America.'' Pacific Symphony's project focused not 
just on this showcase of California artists, but on taking a closer 
look at its culturally-diverse Orange County home base. With a staff of 
50 full-time employees and 88 musicians, the Symphony offers a variety 
of low-cost participatory programs, community-wide engagement, and free 
public performances. Recent projects include a side-by-side amateur 
instrumental program, an annual Community Ensembles Festival paired 
with free outdoor Plazacasts of live concerts, and an annual ``Lantern 
Festival'' celebrating Chinese New Year, which attracted 4,200 
residents and visitors thanks to a partnership with the Irvine Chinese 
School and Bowers Museum. Pacific Symphony's programs have been 
intentionally designed to engage new audiences, offer unusual platforms 
and locations for engagement, and strategically build upon one another.
    The Portland Symphony Orchestra (PSO) in Maine is using an Art 
Works grant to help showcase local talent and creative assets. With 16 
staff members and 84 musicians, the PSO delivers programs that serve 
more than 100,000 people each season, and thanks to an fiscal year 2017 
Art Works grant, will be offering a special program this fall to 
celebrate the tenth and final season of its music director, Robert 
Moody. The program will feature The Book of Matthew, which American 
composer Mason Bates has re-written for choir and organ. The residents 
of Maine will be the first to hear this new version, which will feature 
Maine's top vocal ensemble, Choral Arts, as well as the Kotzschmar 
Organ. The program will also feature Leonard Bernstein's Symphony No. 1 
``Jeremiah,'' and end with Karl Jenkins's The Armed Man--a work that 
will be performed for the first time in Maine with an orchestra. The 
overall program is inspired by Bernstein's famous quote in the wake of 
President Kennedy's death: ``This will be our reply to violence: to 
make music more intensely, more beautifully, more devotedly than ever 
before.'' Jenkins's piece ends powerfully with a hope for peace in a 
new millennium, bringing a note of optimism to a thought-provoking 
program that also honors the 100-year anniversary of the Armistice. 
With increased support from the NEA, the PSO can continue to present 
programming that shares world-class artistry and provokes thoughtful 
dialogue and meaningful reflection with Maine residents.
    Thank you for this opportunity to convey the tremendous value of 
NEA support for the communities served by orchestras throughout our 
country. Orchestras provide countless innovative collaborations, 
thoughtful programming for underserved communities, and lifelong 
learning opportunities in service to adults and children in communities 
of all sizes. As orchestras continually strive to share the power and 
benefits of music to more people, we applaud the NEA's national 
leadership in promoting excellence and engagement with high-quality 
artistry. We urge you to increase our Nation's creative potential and 
access to the arts by approving $155 million in funding for the 
National Endowment for the Arts in fiscal year 2018.

    [This statement was submitted by Jesse Rosen, President and CEO.]
                                 ______
                                 
               Prepared Statement of the Literary Network
    The Literary Network (LitNet) is a coalition of 68 literary 
organizations from across the country. Our members represent 
independent presses, literary journals, educational institutions, and 
hundreds of thousands of writers and individuals who love and 
appreciate the written word.
    Since 1965, the National Endowment for the Arts has supported art 
and arts education initiatives in every congressional district in the 
United States, and the agency serves as an important economic driver 
for those communities. Every $1 of NEA funding leverages $9 in private 
and public dollars and fuels a dynamic cultural economy that generates 
millions of American jobs.
    Literature inspires, enriches, educates, and entertains. It reminds 
us that there is beauty and joy in language, that others have insights 
worth paying attention to, that in our struggles we are not alone. By 
helping writers and translators create new work and connect with 
audiences through publishers and other literary organizations and 
programs, the National Endowment for the Arts celebrates literature as 
an essential reflection of our Nation's rich diversity of voices. In 
the past 50 years, the NEA has given over $162 million to literary 
nonprofits and individual writers across the United States.
    On September 29th, 1965, President Johnson signed the National Arts 
and Humanities Act of 1965, and never have these words from that act 
rung truer than today:

        ``The world leadership which has come to the United States 
        cannot rest solely upon superior power, wealth, and technology, 
        but must be solidly founded upon worldwide respect and 
        admiration for the Nation's high qualities as a leader in the 
        realm of ideas and of the spirit.''

    The President's proposed fiscal year 18 budget will cut the budget 
of the National Endowment for the Arts from approximately $150 million 
to $29 million, effectively scaling down the program to nonexistence 
past 2018. This is unacceptable. By eliminating this funding, the 
administration is waging an assault on free expression, on the impact 
the arts have on the economy, and the role arts play in education, 
healing, and innovation. The fiscal year 17 budget of the National 
Endowment for the Arts makes up merely .004 percent of the Federal 
budget. This is just 46 cents for every American, less than the cost of 
a single stamp. Last year, the NEA made more than 2,400 grants in 
almost 16,000 communities in every congressional district across the 
country.
    The U.S. Bureau of Economic Analysis reports that the arts and 
culture sector is a $704 billion industry, or 4.2 percent of the 
Nation's GDP--a larger share of the economy than transportation, 
tourism, and agriculture. The nonprofit arts industry alone produces 
$135 billion in economic activity annually. The arts employ more than 4 
million people in the creative industries nationally, prepare our 
students for the innovative thinking required in the 21st century 
workplace, and spur tourism. Arts organizations are spirited and 
entrepreneurial businesses. They employ people locally, purchase goods 
and services from within their communities, and market and promote 
their regions. The arts creates jobs that cannot be shipped overseas.
    As advocates for the literary arts, we understand the power in 
language, literature, and the arts, and the strength gained in sharing 
our thoughts and ideas in words. Art enriches our lives and opens doors 
to knowledge and understanding, and it is thanks to the National 
Endowment for the Arts that there are programs across the country that 
value and celebrate art and artists for their ability to touch on all 
aspects of the human experience.
    Your support for the arts is essential to our education system, 
economy, and our pride as a nation. We hope you will keep this in mind 
as you consider legislation that funds the National Endowment for the 
Arts.

826 National
Academy of American Poets
Alice James Books
American Poetry Review
Asian American Writers' Workshop
American Literary Translators Association
Association of Writers & Writing Programs
Authors Guild
Bellevue Literary Press
BOA Editions
CantoMundo
Cave Canem Foundation
Center for the Art of Translation
Coffee House Press
Community of Literary Magazines and Presses
Community-Word Project
Copper Canyon Press
Creative Nonfiction Foundation
Downtown Writers Center, YMCA of Greater Syracuse
Epiphany Magazine
Fishtrap
Four Way Books
Graywolf Press
Grubstreet
Hugo House
Just Buffalo Literary Center
Kundiman
Lambda Literary
Letras Latinas, Institute for Latino Studies, University of Notre Dame
Lighthouse Writers Workshop
Literary Arts
Literary Freedom Project
LitTAP
Loft Literary Center
Los Angeles Literary Alliance
Maine Writers & Publishers Alliance
Mass Poetry
Miami Book Fair
Milkweed Editions
Minerva Rising Press
National Book Foundation
O, Miami
One Story
The Operating System
PEN America
PEN Center USA
Pen/Faulkner Foundation
Pittsburgh Arts & Lectures
Poetry Foundation
Poetry Slam
Poetry Society of America
Poets & Writers
Poets House
Rain Taxi
Sarabande Books
Seattle Arts & Lectures
Seattle City of Literature
Small Press Distribution
Split This Rock
Teachers & Writers Collaborative
University of Arizona Poetry Center
Urban Word NYC
Utah Humanities
Wick Poetry Center
Wordsmitten Media
Words Without Borders
Writers in the Schools
Zyzzyva
      
                                 ______
                                 
          Prepared Statement of the Lower Elwha Klallam Tribe
    Chairman Blunt, Members of the subcommittee and the distinguished 
Gentleman from the 6th District in Washington State representing my 
Tribe, Congressman Derek Kilmer. I am Frances Charles, Chairwoman of 
the Lower Elwha Klallam Tribe, an elected position that I have been 
honored to hold for the past 12 years. Thank you for providing me this 
opportunity to testify on the Bureau of Indian Affairs (BIA), Indian 
Health Service (IHS), and Environmental Protection Agency (EPA) budgets 
for fiscal year 2018. My testimony identifies our most urgent Tribal-
specific funding needs at the Lower Elwha Klallam Tribe. We are also 
supporting some Regional and National budget requests which will 
benefit the Lower Elwha citizens and community.
         tribal-specific requests for lower elwha klallam tribe

Bureau of Indian Affairs--$5.43 Million

    1.  $4.972 Million--Dam Removal and Fisheries Restoration--Public 
Law 102-495, Elwha River Ecosystem and Fisheries Restoration Act
           a.  $702,000--Salmon Hatchery O&M
           b.  $270,000--Flood Control Levee O&M
           c.  $4 million--Land Acquisition
    2.  $267,000--Tribal Court Enhancement and Implementation of Tribal 
Law and Order Act (TLOA) and Violence Against Women Act (VAWA)
    3.  $191,000--Tiwahe Initiative--Tribe seeks to assert jurisdiction 
in its own court system over all cases arising under the Indian Child 
Welfare Act (ICWA) and to become a licensing agency for foster homes

Indian Health Service--$500,000--Mental Health and Chemical Dependency 
        programs

Environmental Protection Agency--$356,000--Environmental Programs
    1.  $125,000--General Assistance Grant (GAP)
    2.  $81,000--Clean Water Act Sec. 106 Grant
    3.  $150,000--Puget Sound Partnership Tribal Capacity Grant

Contract Support Costs--Past, Present and Future

    As a Self-Governance Tribe, Lower Elwha has been impacted by the 
Federal Government's refusal to pay full contract support costs (CSC) 
for contracted and compacted programs for the past two decades. In 2014 
and 2015, the Supreme Court determined that Tribes were entitled to 
CSC. The game-changer going forward was the ground-breaking decision by 
Congress in Public Law 114-113, Consolidated Appropriations Act, 2016, 
to create a new account in the appropriations bill specifically for CSC 
in 2016 and 2017 as well as language establishing an indefinite 
appropriation for CSC in both agencies. Under the new budget structure 
the full CSC that Tribes are entitled to will be paid and other 
programs will not be reduced if payments are underestimated in the 
President's budget. Tribes agree that this structure achieves the 
Nation's legal obligation to fully pay CSC without imposing any 
corresponding reduction in direct services to any Tribe. We also 
continue to request to fully fund CSC on a mandatory basis in fiscal 
year 2018-2021 and make it a permanent, indefinite appropriation.

The Lower Elwha Klallam Tribe

    The Lower Elwha Indian Reservation is located at the mouth of the 
Elwha River along the Strait of Juan de Fuca on the northern Olympic 
Peninsula, about 8 miles west of the City of Port Angeles, Washington. 
The Lower Elwha Tribe has roughly 1,000 members and a total land base--
Reservation and adjacent trust lands--of about 1,000 acres. We are a 
salmon people with fishing rights in a large expanse of marine and 
fresh waters, reserved in the 1855 Treaty of Point No Point. To date, 
our economic development opportunities have been limited and we believe 
our long-term prospects are tied to natural resources restoration and 
preservation in an ecologically rich region where an extraction-based 
economy is well past its prime.
              lower elwha tribal-specific funding requests
$5.43 Million--Bureau of Indian Affairs

    1.  $4.972 Million--Dam Removal and Fisheries Restoration.--We were 
the leading advocate for the removal of the two hydro-electric dams on 
the Elwha River. In accordance with Congress's direction in the Elwha 
River Ecosystem and Fisheries Restoration Act of 1992 (Elwha Act), 
Public Law 102-495, we are working closely with the National Park 
Service and other agencies to remove the last remnants of the dams and 
restore the once famously abundant runs of native Elwha River salmon 
and steelhead. Unfortunately, removal of the dams caused a short- term 
threat to the salmon runs (due to sediment released from behind the 
former dams) and has adversely impacted our small Tribal land base and 
our Tribal budgets. We are strongly committed to the restoration of 
fisheries, fish habitat, streams and rivers, and the Port Angeles 
Harbor. We urgently need increased Self-Governance funds to support the 
operation of dam removal mitigation and restoration features and to 
revive our other Self-Governance activities from which we have been 
forced to transfer funds to support dam removal mitigation.
           a.  $702,000--Salmon Hatchery O&M Costs.--Fish Hatchery 
        Operations Budget for the ongoing operation and maintenance 
        (O&M) of our state-of-the-art hatchery, which went online in 
        2011. This is a significant increase of $601,929 annually, but 
        one that is amply justified by the crucial role that our 
        hatchery serves in dam removal and fishery restoration. Our 
        hatchery is a genetic preserve for native Elwha salmonids, 
        which have been on the verge of extirpation from the impacts of 
        the dams and which have been further threatened by the enormous 
        sediment load unleashed by the removal of the dams. The 
        National Marine Fisheries Service would not have approved dam 
        removal under the Endangered Species Act without the hatchery's 
        native salmonid programs. The Tribe should not have to bear the 
        O&M cost of this important restoration facility that in fact 
        benefits the entire region.
           b.  $270,000--Flood Control Levee O&M Costs.--The levee on 
        our lands had to be expanded prior to dam removal in order to 
        protect Tribal lands from the newly unleashed Elwha River and 
        to conform to new Federal standards--clearly it is a mitigation 
        feature of the dam removal project. In the 1992 Elwha Act, 
        Congress intended that courts not be asked to address problems 
        where legislative solutions would be far more effective in 
        covering all the bases. Twenty-five years of inflation since 
        1992 more than justifies this increase in the current annual 
        operations allocation of $10,400.
           c.  $4 million for Land Acquisition.--Section 7(b) of the 
        Elwha Act authorized $4 million so that the Secretary could 
        acquire trust lands for the Tribe in Reservation status in 
        Clallam County, Washington, for economic development and 
        housing. But those funds have never been appropriated. In 1934, 
        an Interior Department report concluded that the Reservation 
        should be 4,000 acres, but currently we have only 1,000 acres, 
        several hundred of which (on the river's side of the levee) 
        have to be maintained in undeveloped status as floodplain 
        habitat. In addition, we need legislative direction to ensure 
        that former hydro-project lands are transferred to the Tribe as 
        contemplated in Section 3(c)(3) of the Elwha Act. The Elwha 
        people have struggled for a century from the harm to their 
        culture and economies caused by the Elwha River dams. We had to 
        endure the destruction of not only the fisheries but the treaty 
        fishers themselves and the attendant loss of our traditional 
        and cultural livelihood; we have lost an opportunity--which 
        will only return after another generation--to teach our 
        children the ways of their ancestors and the Elwha life as 
        designed by the Creator.
    2.  $267,000--Funding for Tribal Court Enhancement and to Implement 
TLOA and VAWA.--Although the Interior Department and the Tribe have 
identified Tribal Court enhancement as a high priority, Lower Elwha has 
been unable to adopt the enhanced sentencing provisions authorized by 
the 2010 Tribal Law and Order Act (TLOA) or to exercise expanded 
Domestic Violence Criminal Jurisdiction under the 2013 Violence Against 
Women Act (VAWA) because of the lack of adequate base funding for its 
Tribal Court development. Requested funding will enable our Tribe to do 
so by providing for: (a) mandatory criminal defense representation 
(including basic legal assistance for domestic violence victims); (b) 
legal representation for parents in abuse/neglect cases; (c) detention 
services; (d) probation services that focus on solutions and 
restorative justice by sharing coordinated case management and re-entry 
referrals; and, (e) basic court security. Full funding for TLOA-
mandated provisions and increased base funding for our Tribal Court 
will enable Elwha to benefit from: BIA regional assessments using Trial 
Court Program Standards; specific technical assistance and training 
identified through these assessments; targeted training initiatives for 
specific Tribal court personnel (judges, prosecutors, public defenders 
clerks); development of Tribal Court bench books; identification of 
funding sources for pilot court programs; and captured data covering 
criminal pre-trial to post-conviction matters, including any collateral 
civil legal issues.
    3.  $191,000--Funding for ICW-related services from BIA's Tiwahe 
(Family) Initiative.--Lower Elwha faces a community crisis with the 
increasing number of child abuse/neglect cases, which stem from 
inordinately high rates of drug/substance abuse by parents or 
caregivers. This crisis severely impacts services in all facets of 
Tribal government. A coordinated community response must be based on 
multi-disciplinary, culturally informed case planning and service 
delivery, coupled with a strong commitment to restorative justice 
ideals and (in criminal cases) solutions-based sentencing. A major 
obstacle to implementing this approach is our lack of infrastructure to 
assume jurisdiction over all local cases clearly arising under the 
Indian Child Welfare Act; 85 percent of our current ICWA cases remain 
in the State court system. In addition, because we are dependent on an 
inadequate State system for licensing foster care providers, we are 
often unable to make proper placements to assist our families. For the 
past three fiscal years, the Tribe's base Federal funding (BIA Self-
Governance ICWA) has remained flat-lined at a mere $45,000. We seek 
$191,000 additional annual funding from the BIA's Tiwahe (Family) 
Initiative, which would enable the Tribe to assert jurisdiction in its 
own court system over all cases arising under the ICWA and to become a 
licensing agency for foster homes.

Indian Health Service Elwha Tribal-Specific Funding Requests--$500,000 
        for Elwha Health Department Programs

    The drug abuse and mental health crisis threatens to destroy the 
potential and the cultural connections of many Tribal members and 
families. In fiscal year 2016, the Tribe's Mental Health and Chemical 
Dependency programs served 275 American Indian/Alaskan Native (AI/AN) 
patients, with the potential to reach approximately 1,500 within 
Clallam and Jefferson County. The Tribe currently subsidizes its 
chemical dependency program with third-party revenue and gaming revenue 
to fund prevention health initiatives and chemical dependency programs, 
yet these critical health epidemics remain severely underfunded. To 
remedy this, the Center for Medicare and Medicaid Services formula must 
be expanded to inpatient chemical dependency treatment programs at the 
current encounter rate of $391/per day, with annual increases.

Environmental Protection Agency Elwha Tribal-Specific Funding 
        Requests--$356,000 for Elwha Tribal Environmental Programs 
        (General Assistance Grant, $125,000; Clean Water (Sec. 106) 
        Grant: $81,000; and Puget Sound Partnership Tribal Capacity 
        Grant: $150,000)

    Lower Elwha's environmental programs have developed a strong 
pragmatic capability to protect human and basic environmental health 
over the past two decades, for not only the Tribal community but also 
the greater Port Angeles and northern Olympic Peninsula communities. By 
focusing on collaboration with local governments and other 
stakeholders, we have maximized the efficiency of our small but skilled 
staff. This would not be possible without the basic EPA funding that we 
seek to continue. This funding supports: basic staff salaries, 
including for our highly experienced program director (General 
Assistance Grant); water quality monitoring in significant local rivers 
and lakes (Clean Water Grant); Tribal participation and influence in 
local, State, and Federal processes that involve environmental planning 
and review activities (General Assistance and PSP Tribal Capacity 
Grants). In particular, EPA funding is critical to our participation in 
the cleanup of toxic contamination of Port Angeles Harbor, which was 
nominated for Superfund but deferred to State cleanup authority; under 
this deferral arrangement, the Tribe has a unique and important role in 
this cleanup as the sole local representative working directly with the 
responsible State agency to ensure that the cleanup will protect the 
health not only of Tribal members but all residents of the greater Port 
Angeles area.

Regional and National Budget Requests

    The Lower Elwha Klallam Tribe supports the fiscal year 2018 
Regional Budget Priorities of the Northwest Indian Fisheries 
Commission, Affiliated Tribes of Northwest Indians, and the Northwest 
Portland Area Indian Health Board. We also support the fiscal year 2018 
National Budget Priorities of the National Congress of American Indians 
and National Indian Health Board.
    Thank you for considering the requests of the Lower Elwha Tribe.

    [This statement was submitted by Honorable Frances G. Charles, 
Chairwoman.]
                                 ______
                                 
            Prepared Statement of the Mescalero Apache Tribe
    Background of the Mescalero Apache Tribe: As Europeans began to 
encroach on our ancestral homelands, the Mescalero Apache Tribe (Tribe) 
entered into the Treaty with the Apaches with the United States on July 
1, 1852. The Mescalero Apache Reservation (Reservation) was created by 
a succession of Executive Orders in the 1870's and 1880's. The 
Reservation spans 720 square miles (460,405 acres) across south-central 
New Mexico and is home to approximately 4,900 Tribal citizens and 200 
non-Indian residents.
    My testimony focuses on four priorities: increased funding and 
services to address methamphetamine and substance abuse; construction 
dollars for Tribal corrections and justice systems facilities; 
increased funding, streamlined regulations, and access to capital for 
housing; and parity in funding for Tribal forest management and 
wildfire prevention.

    Substance Abuse and Prevention: In December of 2015, the DEA and 
Bureau of Indian Affairs (BIA) dismantled three drug trafficking 
organizations distributing methamphetamine on the Mescalero Apache 
Reservation and across southeastern New Mexico. It was clear to the 
Federal investigators of this sting that drug cartels targeted the 
Reservation as a safe haven for their criminal enterprise.
    Leading up to the sting, our Reservation suffered a spike in drug-
related crimes. The Federal sting was spurred by the brutal beating of 
a 13-year-old girl on the Reservation. Two male subjects were high on 
meth. The girl survived, but is still recovering from her injuries.
    To this day, our Reservation continues to reel from the infliction 
of this poison on our people. Meth and other illegal and legal 
prescription drugs have devastated our community. For more than a 
decade now, meth has plagued our Reservation with violent crime and 
suicide, as well as other health issues, including birth defects traced 
to women using meth while pregnant.
    Like other Indian nations, the Mescalero Apache Tribe is fighting 
to maintain our culture, language and identity, and this influence is 
coming in and attacking us. I look at other reservations across the 
country, and we're all facing this as a group. It's in big cities, 
small towns and villages. Mescalero is certainly not immune.
    Methamphetamine has a disproportionate devastating impact on Tribal 
communities, accounting for up to 40 percent of violent crime in Indian 
Country. The epidemic of substance abuse is the root cause of many 
social and economic issues facing Tribes. Inadequate funding for 
alcohol and substance abuse services has a ripple effect on our 
healthcare, education, and justice systems. Congress must provide 
sustainable funding to help families prevent and survive these 
challenges.

    REQUEST: The President's Budget requests an increase of $678,000 
for the IHS Substance Abuse program. The Mescalero Apache Tribe instead 
supports the recommendation put forth by the National Indian Health 
Board that the IHS Alcohol and Substance Abuse program be funded at 
$397 million for fiscal year 2018. This is $178.5 million above the 
fiscal year 2017 enacted level, and better reflects the dire situation 
of substance abuse facing Indian Tribes. In addition, while beyond the 
purview of this subcommittee, we ask that you work with your 
Appropriations Colleagues at Labor HHS and CJS to steer 10 percent of 
funding from the recently enacted CARA Initiative to address the 
scourge of addiction in Native communities.

    Public Safety Facility Construction: A January 2017 DOJ Inspector 
General Report states that, ``Violent crime rates in Indian country are 
more than 2.5 times the national rate and some reservations face more 
than 20 times the national rate of violence. However, many Tribal 
nations do not have the resources to develop the necessary correctional 
infrastructure.''
    Congress approved the transfer of funding for the Tribal public 
safety & justice construction program from the BIA to DOJ in fiscal 
year 1999. From fiscal year 1999-fiscal year 2002 the DOJ construction 
program received approximately $35 million annually. The Tribal Law and 
Order Act of 2010 amended the Tribal Justice Systems Infrastructure 
Program (TJSIP)(42 U.S.C. 13709) to authorize funding for Indian Tribes 
to construct multi-purpose justice centers that house police, courts, 
corrections, and alternatives to correction all within one facility. 
The Act authorized appropriations at $35 million annually. In recent 
years, DOJ's Tribal corrections construction and maintenance program 
has averaged less than $7 million. In fiscal year 2014, without any 
Tribal consultation, the Office of Justice Programs (OJP)--Bureau of 
Justice Assistance determined that it ``is no longer awarding grants 
for new construction projects. Currently, TJSIP funds are only 
available for renovation and/or expansion of existing facilities.'' See 
DOJ-Inspector General Report at 82 (Jan. 2017).
    The Mescalero Apache Tribe acknowledges that we cannot arrest our 
way out of the problem of violent and drug-related crime facing our 
community. However, any functioning justice system must employ 
incarceration as an option in order to deter crime and remove dangerous 
individuals from the public. For nearly two decades now, the Mescalero 
Apache justice system has operated without a local corrections center 
to incarcerate offenders sentenced by our Tribal Court.
    The Tribe has sought funding for an adult/youth correctional 
facility since 1998 to replace the dilapidated BIA jail, which was just 
over 4,100 square feet with a small fenced area for impounded vehicles. 
In 2003, the BIA--without consultation--closed the jail on what was 
supposed to be a temporary basis. It was never reopened. In 2009, the 
Tribe, participating in the BIA's High Priority Performance Goal (HPPG) 
initiative, applied for and received an ARRA planning and design grant 
for a new justice center. The plan was completed in 2012 for a 
Mescalero Apache Justice Center that would house the Court, the 
Prosecutor's Office, Probation Offices, and the Public Defender's 
Office in addition to separate cells for male, female and juveniles. 
The Tribe has not been able to secure funding to continue the project.

    REQUEST: We urge the subcommittee to either return the justice 
system construction program to the BIA or respectfully request that you 
work with your colleagues on the CJS Appropriations Subcommittee to 
restore and fully fund justice systems construction at the authorized 
level of $35 million.

    The Tribe generally supports the President's fiscal year 2018 
Budget request to direct 7 percent of ALL OJP funding to Indian 
Country's justice needs, and a separate request for $30 million for 
Tribal COPS. We ask that any overall increase in funding be directed to 
TJSIP program with direction to BJA to restore the new facilities 
construction program.

    Indian Housing Needs: fiscal year 2018 testimony before the 
subcommittee acknowledges Indian Country's unmet need of approximately 
68,000 housing units (new and replacement) that will cost in excess of 
$33 billion. Mescalero's housing needs conservatively stand at 300 new 
homes.
    While HUD, through its NAHASDA Indian Housing Block Grant program 
(IHBG), is the primary source of funding for housing on Indian lands, 
BIA's HIP is separate and distinct. HIP is a home improvement and 
replacement program that serves the most needy individual throughout 
Indian Country. HIP is a secondary, safety-net housing program that 
seeks to eliminate substandard housing and homelessness on Indian 
reservations.

    REQUEST: The fiscal year 2017 Omnibus provided $9.7 million for HIP 
an increase of $1.7 million. This was welcome news as the program has 
suffered sustained cuts over the past decade. We urge the subcommittee 
to oppose the President's fiscal year 2018 Budget proposal to eliminate 
the HIP program, and instead build on the progress made in fiscal year 
2017 and restore HIP funding to the fiscal year 2007 level of $18.6 
million.

    The Mescalero Apache Tribe also attempts to serve our Reservation 
housing needs by utilizing the USDA Single Family Housing Repair Loan 
and Grant Program and HUD's Indian Block Grant program. (On June 21st, 
the Tribe will be recognized for the success we have had with the USDA 
program as we serve low-income homeowners with remodeling activities.) 
The Tribe also received one tax credit project from the State of New 
Mexico's Low Income Housing Tax Credit (LIHTC) program. And we have HIP 
and IHBG homes on the Reservation. Each of these agencies imposes a 
different environmental review process and requirements. The Tribe has 
a housing project that has been held up for several years due to delays 
in the multiple environmental review processes. The project came to a 
standstill and remains stalled.

    REQUEST: We urge the subcommittee to add report language to 
streamline and unify environmental review requirements for all Federal 
Indian housing-related programs.

    Finally, while outside the purview of this subcommittee, we urge 
you to reach out to your Appropriations Committee colleagues to reject 
any proposed cuts to the HUD Section 184 Indian Loan Guarantee Program 
and Title VI loan program. In addition, we ask that you work to improve 
the LIHTC program to guarantee that at least 10 percent of tax credits 
are allocated to the housing crisis on Indian lands. These programs 
represent vital access to outside investment capital and enable Tribes 
to leverage our limited Indian Housing Block Grant funds.

    Forest Management and Wildfire Prevention: The Lincoln National 
Forest (LNF) and nearby BLM lands were carved out of the initial 
Reservation boundaries promised to the Tribe. The Mescalero people have 
maintained strong cultural ties to these lands. To this day, we 
continue to gather plants important to our traditions and conduct 
ceremonies on these Federal lands.
    Since 1960, the Tribe has leased approximately 860 acres of LNF 
lands under two special use permits to establish, manage, and operate 
Ski Apache. The Tribe has made significant improvements to the Resort, 
including a recent $15 million investment to triple the ski lift 
capacity and $2.6 million for world-class zip lines to provide year-
round recreation. Ski Apache employs 350 people and contributes many 
millions of dollars to the local economy in tourists and lodgers. To 
protect these investments and our sacred lands, the Tribe has a 
considerable interest in maintaining a healthy forest and preventing 
wildfires and resulting flooding.
    However, Tribal forestry programs receive far less funding than our 
State and Federal counterparts. The 2013 IFMAT Report acknowledges that 
BIA allocations to Tribes average only $2.82/acre; whereas, National 
Forests receive $8.57/acre and State forests in the western U.S. 
average an astounding $20.46/acre. At one-fourth to one-tenth of the 
funding our State and Federal counterparts receive, Tribes are able to 
accomplish vastly more reductions in hazardous fuels and have 
healthier, functioning forest ecosystems. This work is not sustainable.
    Nature provided us a preview of what will happen if the Mescalero 
forestry program is allowed to die. The Little Bear Fire started 
modestly on June 4, 2012, caused by lightning in the White Mountain 
wilderness in LNF. Over the ensuing five days, LNF deployed few assets 
and the fire jumped the fireline blazing through the Ski Apache Resort 
and onto Tribal lands. Within two weeks, the Little Bear Fire burned 
35,339 acres in LNF, 8,522 acres of private land, 112 acres of State 
land and 357 acres of the Reservation. The fire also destroyed more 
than 255 buildings and homes in the region and 44,500 acres of prime 
watershed. The overall estimated cost of the fire, including 
suppression and damages, exceeded $100 million.
    A comparison of the impacts of the Little Bear Fire on the 
healthier Mescalero Tribal forests and much less healthy LNF 
demonstrates the need for continued funding of smart fuels management 
projects. In 2008, the Tribe completed an important, cost-effective 
hazardous fuels reduction project on the Eagle Creek portion of the 
Reservation. As the Little Bear Fire moved across the landscape, the 
previously treated Eagle Creek project area was used as a defensible 
space to turn the Little Bear Fire away from the steep, densely 
forested terrain of the North Fork of the Rio Ruidoso, and prevented 
complete devastation of the Village of Ruidoso source waters. The 
Little Bear Fire is proof positive that hazardous fuels reduction 
projects work to save lives, protect property, and maintain healthy 
forests.
    Hazardous fuels funding levels must be restored to enable Tribes to 
continue to protect our communities. Each year, more forests throughout 
the country are burning, more critical watersheds are jeopardized, and 
more communities are placed at risk. Congress must acknowledge and 
fulfill the legal treaty and trust obligations of the United States to 
help protect and care for Indian lands and our forests as permanent 
homes. Tribal forestry programs must be funded accordingly. The United 
States must fully fund hazardous fuels treatment for Indian lands and 
nearby Federal lands separately from the national firefighting budgets. 
The fiscal year 2018 Omnibus took positive steps by increasing BIA 
Forestry funding to $54.1 million, including a $2 million increase for 
forest thinning projects.

    REQUEST: We urge the subcommittee to build on this progress and 
support the Intertribal Timber Council's request to fund BIA Forestry 
at $79.1 million (+$25 million) as a first step towards the additional 
$100 million needed for Tribal forest funding parity with other Federal 
forestry programs recommended in the IFMAT III report. We ask that you 
oppose the President's request to cut BIA Forestry funding by $2.8 
million.

    [This statement was submitted by Danny Breuninger, President.]
                                 ______
                                 
         Prepared Statement of the Metlakatla Indian Community
    The requests of the Metlakatla Indian Community for the fiscal year 
2018 Interior, Environment, and Related Agencies budget are as follows:
  --Appropriate $1,000,000 through the BIA Safety of Dams (SOD) program 
        to address the hazard mitigation needs and initial planning 
        phases for improvements at Chester Lake Dam.
  --Move forward with full and mandatory funding for Contract Support 
        Costs (CSC).
  --Funding for Tribal courts in Public Law 83-280 States.
  --Shield IHS funding from sequestration.
  --Support for additional funding for Village Built Clinics.

    The Metlakatla Indian Community (MIC) is located on the Annette 
Island Reserve in southeast Alaska, a land base of 87,000 acres. 
Through our Annette Island Service Unit we provide primary health 
services at our outpatient facility through funding from the IHS as a 
co-signer to the Alaska Tribal Health Compact under the Indian Self-
Determination and Education Assistance Act. We have significant fish 
and forestry resources, but as noted elsewhere in this testimony, we 
require more resources to fully manage them.
Chester Lake Dam
    Chester Lake is the sole municipal water supply, so maintaining 
this reservoir is essential to the survival of the Tribe. Measures to 
secure and improve this water supply are a high priority to Tribal 
leaders. It is this consideration that led the Emergency Preparedness 
Task Force to enforce the cessation of hydropower operations from 
Chester Lake during the extremely low water period from July to 
September in 2016.
    This had the effect of making the Tribe rely more heavily on diesel 
power generation and the Purple Lake Dam. The Bureau of Indian Affairs 
(BIA) Safety of Dams Downstream Hazard Classification Study 2016 was 
performed in summer 2016 to determine if the dam's hazard 
classification needed to be re-evaluated and to begin potential work to 
make improvements to this reservoir.
    This process is part of the oversight provided by BIA SOD to ensure 
the safety of dams in Indian Country. In March 2017, SOD informed MIC 
that the Chester Lake Dam qualified to have its hazard classification 
upgraded from low to high hazard, thereby requiring additional 
comprehensive evaluation of the Dam, its status and steps to take to 
prevent any kind of an emergency or hazard to the community health and 
wellness.
    The MIC has determined, through this process, that $1,000,000 in 
infrastructure funding is necessary to make safety improvements at 
Chester Lake Dam, as well as carry out necessary planning and studies 
for expansion of the dam's storage and hydropower production capacity. 
The total cost of this project will be approximately $12 million, but 
the initial funding will allow for immediate safety measures to be 
implemented to protect the drinking water supply while planning for the 
Phase 2 improvements that will increase not only water storage capacity 
but also expanded hydropower production from Chester Lake Dam.
Contract Support Costs (CSC)
    Our great thanks for this subcommittee's leadership in making 
funding of IHS and BIA contract support costs (CSC) for fiscal year 
2016, and now fiscal year 2017, an indefinite amount and also having 
made it a separate account in the IHS and BIA budgets. This shift makes 
an enormous difference in helping ensure that the Indian Self-
Determination and Education Assistance Act (ISDEAA) is fully funded and 
implemented as Congress intended in these two agencies. It also 
significantly enhances the Federal-Tribal government-to-government 
relationship. For IHS, the fiscal year 2017 estimate for contract 
support costs is $800 million, and for the BIA it is $278 million.
    Thank you also for listening to Tribes who explained why the 
problematic IHS-supported fiscal year 2016 enacted bill proviso which 
effectively denied the CSC carryover authority granted by the ISDEAA. 
We appreciate that this proviso is absent from the Consolidated 
Appropriations Act for fiscal year 2017.
    Our objective, though, continues to be the indefinite appropriation 
of CSC funding as mandatory and permanent. Full payment of CSC is not 
discretionary; it is a legal obligation under the ISDEAA, affirmed by 
the U.S. Supreme Court. Funding of CSC on a discretionary basis has in 
the very recent past placed the House and Senate Appropriations 
Committees, in their own words, in the ``untenable position of 
appropriating discretionary funds for the payment of any legally 
obligated contract support costs.'' We remain committed to working with 
the appropriate congressional committees to determine how best to 
achieve this objective.
Tribal Court Assistance for Tribes Subject to Public Law 83-280
    We appreciate the much-needed support in the fiscal year 2017 
appropriations bill for Tribes who are affected by Public Law 83-280 
and who are striving to serve their communities with competent and 
appropriate judiciary systems.
    The fiscal year 2017 Explanatory Language accompanying the 
Consolidated Appropriations Act, fiscal year 2017 would increase BIA 
Tribal Justice Support funding for Tribes affected by Public Law 83-280 
(first enacted during the early 1950s termination era) who are working 
to exercise their rightful jurisdiction on domestic violence and other 
matters, and to increase available remedies and services for crime 
victims. It is very important for the future of Tribal nations affected 
by Public Law 83-280 to continue development of robust criminal 
jurisdiction systems. We quote below the fiscal year 2017 language:

        ``Funding for Tribal justice support is restored to 
        $17,250,000, of which not less than $10,000.000 is to address 
        the needs of Tribes affected by Public Law 83-280. The 
        Committees remain concerned about Tribal court needs as 
        identified in the Indian Law and Order Commission's November 
        2013 report, which notes Federal investment in Tribal justice 
        in ``Public Law 280'' States has been more limited than 
        elsewhere in Indian Country. The Committees expect the Bureau 
        to work with Tribes and Tribal organizations in these States to 
        fund plans that design, promote, sustain, or pilot courts 
        systems subject to jurisdiction under Public Law 83-280. The 
        Bureau is also directed to formally consult and maintain open 
        communication throughout the process with Tribes and Tribal 
        organizations on how this funding supports the technical 
        infrastructure and future Tribal court needs for these 
        jurisdictions.''
Shield IHS Funding From Sequestration
    We have requested in our previous years' testimony that the IHS 
budget be protected from sequestration. We again ask this 
subcommittee's support of an amendment to the Balanced Budget and 
Emergency Deficit Control Act to exempt the IHS from sequestration of 
funds, just as Congress has done for the Veterans Health 
Administration's health programs. We are very concerned that the 
current fiscal year 2018 funding cap for non-defense discretionary 
spending is lower than the fiscal year 2017 spending cap, and when 
considered along with the President's ``skinny'' fiscal year 2018 
budget outline proposal, which significantly lowers non-defense 
discretionary spending, we fear a significant sequestration of funds in 
fiscal year 2018. IHS funding for healthcare services should be made 
exempt from sequestration.
Village Built Clinics
    We thank Congress so much for the $11 million for Tribal health 
clinic leases in the fiscal year 2017 Consolidated Appropriations bill, 
and in particular for Senator Murkowski's determination in advocating 
for these very small clinics which are the health lifeline in rural 
Alaska villages. We ask everyone to put yourself and your family in the 
position of living in a tiny, incredibly remote village with no roads 
and challenging weather and needing the healthcare that can be provided 
by trained community members and the health professionals who rotate in 
and out of those communities and utilize the small clinics as 
headquarters. We are also pleased that the House Natural Resources 
Subcommittee on Indian, Insular, and Alaska Native Affairs hearing on 
Indian infrastructure needs in Indian Country, with the support and 
participation of Representative Don Young, included a discussion of the 
needs of Village Built Clinics. It was an appropriate subject as many 
of the Village Built Clinics are in disrepair and there is great need 
for a reserve fund for their upkeep and expansion. In 2015, the Alaska 
Native Health Board estimated that $14 million annually was needed to 
fund a replacement reserve to address the crisis state of the clinics.
     We support increased funding for Village Built Clinics and request 
that the funding be: (1) recurring, (2) a separate line item in the IHS 
budget, and (3) displayed in the Budget Justification to better enable 
planning and certainty. The fiscal year 2017 funding is supplemental to 
the approximately $4.5 million already being provided to those life-
saving small clinics and should be so reflected. In 2015, the Alaska 
Native Health Board estimated that $12.5 million was needed in addition 
to the existing $4.5 million base. Accordingly, the $11 million 
increase in fiscal year 2017 was a major step forward but still does 
not cover the full amount of need. In addition, without a separate line 
item for Village Built Clinics, much of the funding could be 
distributed to other types of facility leases, leaving the Village 
Built Clinics coming up short.
    We are glad to provide any additional information you may request. 
Thank you for your consideration of the concerns and requests of the 
Metlakatla Indian Community.

    [This statement was submitted by Audrey Hudson, Mayor.]
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California
    Chairwoman Murkowski, Ranking Member Udall, and Members of the 
subcommittee:

    The Metropolitan Water District of Southern California 
(Metropolitan) encourages the subcommittee's support for fiscal year 
2018 Federal funding of $1.5 million in financial assistance from the 
Bureau of Land Management's (BLM) Soil, Water and Air Program for the 
Colorado River Basin Salinity Control Program (Salinity Control 
Program) to prevent further degradation of Colorado River water quality 
and increased economic damages.
    The salt concentration in the Colorado River causes over $382 
million in damages to water users each year. While this figure is 
significant, had it not been for the efforts of the Salinity Control 
Program, damages would be much higher. Salinity Control Program actions 
have reduced salinity concentrations of Colorado River water over 90 
milligrams per liter (mg/L) from what they would have been without the 
actions. That reduction has avoided additional damages of over $200 
million per year. Modeling by Reclamation indicates that the economic 
damages will rise to approximately $614 million by the year 2035 
without continuation of the program.
    Metropolitan is the regional water supplier for most of urban 
Southern California, providing supplemental water to retail agencies 
that serve approximately 19 million people. Water imported via the 
Colorado River Aqueduct has the highest level of salinity of all of 
Metropolitan's sources of supply, averaging around 630 mg/L since 1976. 
This salinity level causes economic damages to all sectors. For 
example, high salinity leads to:
  --A reduction in the useful life of water heaters, faucets, garbage 
        disposals, clothes washers, and dishwashers, and an increased 
        use of water softeners in the household sector;
  --An increase in the cost of cooling operations, additional need for 
        and cost of water softening, and a decrease in equipment 
        service life in the commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration;
  --Increased cost of desalination and brine disposal for recycled 
        water in the municipal sector; and
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector.

    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission signed Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed the Colorado River Basin 
Salinity Control Act of 1974 (Act) into law. To further foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum.
    The Forum is charged with reviewing the Colorado River's water 
quality standards for salinity every 3 years. In so doing, it adopts a 
Plan of Implementation consistent with these standards. The Plan of 
Implementation, as adopted by the States and approved by EPA in 2014, 
calls for 67,000 tons of additional salinity control measures to be 
implemented by Reclamation, the Natural Resources Conservation Service 
(NRCS) and the BLM by 2018.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. In implementing the Colorado River Basin Salinity 
Control Act in 1974, Congress recognized that most of the salts in the 
Colorado River originate from these federally owned lands. Title I of 
the Salinity Control Act deals with the U.S. commitment to the quality 
of waters being delivered to Mexico. Title II of the Act deals with 
improving the quality of the water delivered to users in the United 
States. This testimony deals specifically with Title II efforts.
    In 1984, Congress amended the Salinity Control Act and directed 
that the Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
increase BLM efforts in the Colorado River Basin and to pursue salinity 
control studies and to implement specific salinity control practices. 
BLM is now working on creating a comprehensive Colorado River Basin 
salinity control program as directed by Congress.
    Meaningful resources have been expended by BLM in the past few 
years to better understand salt mobilization on rangelands. With a 
significant portion of the salt load of the Colorado River coming from 
BLM administered lands, the BLM portion of the overall program is 
essential to the success of the effort. Inadequate BLM salinity control 
efforts will result in additional economic damages to water users 
downstream.
    Implementation of salinity control practices through BLM is a cost 
effective method of controlling the salinity of the Colorado River and 
is an essential component to the overall Colorado River Basin Salinity 
Control Program. Continuation of adequate funding levels for salinity 
within the Soil, Water and Air Program will assist in preventing the 
water quality of the Colorado River from further degradation and 
significant increases in economic damages to municipal, industrial and 
irrigation users. A modest investment in source control pays huge 
dividends in improved drinking water quality to nearly 40 million 
Americans.
    Metropolitan urges the subcommittee to support funding for fiscal 
year 2018 of $1.5 million from the Bureau of Land Management's (BLM) 
Soil, Water and Air Program for the Colorado River Basin Salinity 
Control Program.

    [This statement was submitted by Jeffrey Kightlinger, General 
Manager.]
                                 ______
                                 
    Prepared Statement of the National American Indian Court Judges 
                              Association
    On behalf of the National American Indian Court Judges Association 
(NAICJA), this testimony addresses important programs in the Department 
of Interior, Indian Health Service, Bureau of Indian Affairs, and 
Environmental Protection Agency as they concern Tribal justice system 
funding. Specifically, NAICJA joins the National Congress of American 
Indians (NCAI) in requesting:

------------------------------------------------------------------------
               Program                   NCAI Fiscal Year 2018 Request
------------------------------------------------------------------------
DOI: Bureau of Indian Affairs         Provide increases via Tribal base
                                       funding instead of through grants
DOI: Bureau of Indian Affairs         $82 million in additional funding
                                       for base funding for Tribal
                                       courts
------------------------------------------------------------------------

    NAICJA is a national, non-profit association comprised of Tribal 
justice personnel, including Tribal leaders, judges, justices, court 
administrators, court clerks, Indian law practitioners and scholars, 
and others devoted to supporting and strengthening Tribal justice 
systems. NAICJA's mission, as a national representative membership 
organization, is to strengthen and enhance Tribal justice systems 
through education, information sharing, and advocacy. Established in 
1969, NAICJA has a long history of dedication to providing educational 
support for Tribal court judges and court-related personnel.
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in Tribal communities. The vast 
majority of the approximately 350 Tribal court systems function in 
isolated rural communities. These Tribal justice systems face many of 
the same difficulties faced by other isolated rural communities, but 
these problems are greatly magnified by the many other complex problems 
that are unique to Indian country.
    Tribal justice systems are faced with a wide range of difficult 
criminal and civil justice problems on a daily basis, including lack of 
jurisdiction over non-Indians, complex jurisdictional relationships 
with Federal and State criminal justice systems, inadequate law 
enforcement, great distance from the few existing resources, lack of 
detention staff and facilities, lack of sentencing or disposition 
alternatives, lack of access to advanced technology, and lack of 
substance abuse testing and treatment options, among other issues.
    Part of the Federal trust responsibility to Indian Tribes includes 
basic governmental services in Indian Country, funding for which is 
appropriated in the discretionary portion of the Federal budget. Tribal 
governments exist to protect and preserve their unique cultures, 
identities, and natural environments for posterity. As governments, 
Tribes must deliver a wide range of critical services, such as 
education, workforce development, and first-responder and public safety 
services, to their citizens. The Federal budget for Tribal governmental 
services reflects the extent to which the United States honors its 
promises to Indian people.
    Yet Tribal justice systems historically have been under-funded and 
continue to be under-funded in most Tribal communities. In 1991, the 
United States Civil Rights Commission found that ``the failure of the 
United States Government to provide proper funding for the operation of 
Tribal judicial systems . . . has continued for more than 20 years.'' 
\1\ The Commission also noted that ``[f]unding for Tribal judicial 
systems may be further hampered in some instances by the pressures of 
competing priorities within a Tribe.'' \2\ Moreover, they opined that 
``[i]f the United States Government is to live up to its trust 
obligations, it must assist Tribal governments in their development. . 
. .'' \3\ The Commission ``strongly support[ed] the pending and 
proposed congressional initiatives to authorize funding of Tribal 
courts in an amount equal to that of an equivalent State court'' and 
was ``hopeful that this increased funding [would] allow for much needed 
increases in salaries for judges, the retention of law clerks for 
Tribal judges, the funding of public defenders/defense counsel, and 
increased access to legal authorities.'' \4\ The Indian Law and Order 
Commission (ILOC) noted that in addition to funding shortfalls, short-
term, competitive funding approach is deficient because it reflects 
Federal priorities rather than Tribal ones, favors hired grant-writers, 
requires Tribes to compete against each other, and offers only 3-year 
programs that often leave Tribes with staff turnover and short-term 
programs.\5\
---------------------------------------------------------------------------
    \1\ United States Commission on Civil Rights, The Indian Civil 
Rights Act: A Report of the United States Commission on Civil Rights 71 
(June 1991).
    \2\ Id.
    \3\ Id.
    \4\ Id.
    \5\ Indian Law and Order Commission, A Roadmap for Making Native 
America Safer: Report to the President & Congress of the United States 
83 (2013) [hereinafter ILOC Report].
---------------------------------------------------------------------------
Allocate $82 Million for Tribal Base Funding
    In September 2015, the Bureau of Indian Affairs submitted a report 
to Congress that revealed that the BIA is funding most Tribal courts at 
a dismal 6 percent of estimated need.\6\ The BIA estimates that full 
funding for Tribal courts would cost over $860 million. For Tribal 
courts operating in Public Law 280 jurisdictions, funding has been even 
lower. BIA estimates that it would cost an additional $16.9 million for 
Tribes in mandatory Public Law 280 jurisdictions to be funded at 6 
percent of need noting that ``while $16.9 million would not be widely 
viewed as robust or perhaps even adequate, it would match existing 
levels of funding in non-Public Law 280 States, which reflect a 
constrained fiscal environment.''
---------------------------------------------------------------------------
    \6\ ``Report to the Congress on The Budgetary Cost Estimates of 
Tribal Courts in Public Law 83-280 States,'' Bureau of Indian Affairs, 
Office of Justice Services (Sept. 16, 2015).
---------------------------------------------------------------------------
    The critical financial need of Tribal courts ultimately led to the 
passage of the Indian Tribal Justice Act (the ``Act'').\7\ Congress 
found that ``[t]ribal justice systems are an essential part of Tribal 
governments and serve as important forums for ensuring public health, 
safety and the political integrity of Tribal governments.'' \8\ 
Affirming the findings of the Civil Rights Commission, Congress further 
found that ``Tribal justice systems are inadequately funded, and the 
lack of adequate funding impairs their operation.'' \9\ In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for Tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000.\10\
---------------------------------------------------------------------------
    \7\ Public Law No. 103-176 (codified at 25 U.S.C. Sec. 3601 et 
seq.)
    \8\ 25 U.S.C. Sec. 3601(5).
    \9\ 25 U.S.C. Sec. 3601(8).
    \10\ 25 U.S.C. Sec. 3621(b).
---------------------------------------------------------------------------
    To carry out the provisions of the Indian Tribal Justice Act, 
Congress authorized annual appropriations of over $58 million annually 
for each of the fiscal years 1994-1999 with $50 million annually for 
base support funding for Tribal justice systems. In today's dollars 
this would be $82 million per year, which would be less than 10 percent 
of the overall need estimated by BIA. Unfortunately, a total of only $5 
million of the more than $58 million per year appropriated was actually 
appropriated through 1999.\11\ Since Congress enacted the Indian Tribal 
Justice Act in 1993, the needs of Tribal court systems have continued 
to increase, but there has been no corresponding increase in funding 
for Tribal court systems.\12\
---------------------------------------------------------------------------
    \11\ United States Commission on Civil Rights, A Quiet Crisis: 
Federal Funding and Unmet Needs in Indian Country 79 (2003) 
*hereinafter ``A Quiet Crisis''+.
    \12\ In 2000, Congress reaffirmed the Congressional commitment to 
provide this increased funding for Tribal justice systems when it 
reauthorized the Act for seven more years of funding at the same level 
of more than $58 million per year through the Indian Tribal Justice 
Technical and Legal Assistance Act. See Pub. L. No. 106-559 Sec. 202.
---------------------------------------------------------------------------
    Despite numerous congressional reauthorizations of the Act over the 
past couple of decades--most recently in the Tribal Law and Order Act 
(TLOA) \13\--funds have never been appropriated to implement the Act. 
The Act does not differentiate between Tribes subject to Public Law 280 
jurisdiction or not. The promise of this much-needed base funding must 
be fulfilled. We ask Congress to commit to fully funding Tribal courts 
within the next 5 years by incrementally increasing funding each year.
---------------------------------------------------------------------------
    \13\ Tribal Law and Order Act, Public Law 111-211, Sec. 242 (2010).
---------------------------------------------------------------------------
Conclusion
    Thank you for your consideration of this testimony. For more 
information, please contact A. Nikki Borchardt Campbell at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b8bfbdbdbf96b8b7bfb5bcb7f8b9a4b1">[email&#160;protected]</a> or Ansley Sherman at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="14757a6778716d547a757d777e753a7b66733a">[email&#160;protected]</a>
                                 ______
                                 
   Prepared Statement of the National Assembly of State Arts Agencies
    Chairman Calvert, Ranking Member McCollum and Members of the 
subcommittee, thank you for the opportunity to submit this testimony 
regarding Federal appropriations for the National Endowment for the 
Arts in fiscal year 2018. My name is Pam Breaux, and I am the Chief 
Executive Officer of the National Assembly of State Arts Agencies 
(NASAA), the organization representing the State and jurisdictional 
arts agencies of the United States. Today, I urge your committee to 
support funding the National Endowment for the Arts (NEA) at $155 
million in fiscal year 2018.
    Last year, while considering funding for fiscal year 2017, this 
Committee voted unanimously to increase funding for the agency by 
$500,000. The States and NASAA are extremely grateful to the 
subcommittee for this, particularly given the limitations Congress 
faces because of sequestration. As you look to the next budget, NASAA 
hopes you will consider increasing funding for the NEA, which makes a 
substantial impact in communities throughout the United States.
    In asking for an increase in funding for the NEA, it is important 
to acknowledge the continued bipartisan support that this subcommittee 
and Congress have demonstrated for State arts agencies. Through a 
highly effective Federal-State partnership, the NEA distributes 40 
percent of its programmatic funds to State and regional arts agencies 
each year, amounting to $41 million in fiscal year 2016; these dollars 
help to leverage additional public and private investments in the arts, 
empower States and regions to address their unique priorities, and 
serve far more constituents than Federal funds alone could reach.
    State arts agencies use their share of NEA funds, combined with 
funds from State legislatures, to support 21,000 grants to arts 
organizations, civic organizations, schools and artists in more than 
4,400 communities across the United States. Twenty-six percent of State 
arts agencies' grant awards go to nonmetropolitan areas, supporting 
programs that strengthen the civic and economic sustainability of rural 
America. Thirty-nine percent of State arts agencies' grant awards go to 
arts education, fostering student success in and out of school and 
providing the critical thinking, creativity and communications skills 
needed to meet the demands of today's competitive work force. 
Congress's ongoing endorsement of the 40 percent formula is essential 
to State arts agencies, boosting their ability to drive innovation in 
their States.
    Throughout the country, State arts agencies play significant roles 
in shaping education policy, stimulating economic growth and helping 
communities thrive as rewarding and productive places to live, conduct 
business, visit and raise families. Should Congress support an increase 
for the NEA, State arts agencies will be able to expand their 
meaningful role in helping every congressional district have full 
opportunities to experience the economic, civic and cultural benefits 
that the arts offer. An example area of focus for NASAA and State arts 
agencies is the NEA's work with the Department of Defense (to support 
arts therapy in healing programs for veterans at the Walter Reed 
National Military Medical Center and the National Intrepid Center of 
Excellence). Federal leadership has enabled State arts agencies to 
replicate this successful partnership at the State level. In a recent 
poll NASAA conducted of State arts agencies, more than 90 percent of 
respondents said that they are either currently undertaking or 
interested in pursuing arts therapy programs for veterans.
    Thank you for your consideration. NASAA looks forward to continuing 
to work productively with this subcommittee, and we stand ready to 
serve as a resource to you. Thank you for your consideration.

    [This statement was submitted by Pam Breaux, Chief Executive 
Officer.]
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies
    On behalf of the National Association of Clean Air Agencies 
(NACAA), thank you for this opportunity to testify on the fiscal year 
2018 proposed budget for the United States Environmental Protection 
Agency (EPA), particularly grants to State and local air pollution 
control agencies under Sections 103 and 105 of the Clean Air Act (CAA), 
which are part of the State and Tribal Assistance Grant (STAG) program. 
Specifically, NACAA strongly opposes the administration's proposal to 
cut State and local air quality grants by 30 percent (from $227.8 
million in fiscal year 2017 to $159.5 million in fiscal year 2018) and 
is very concerned about the significant hardship this will pose on the 
public's health and welfare. We ask that Congress, at a minimum, 
continue to fund these grants at last year's level. Additionally, NACAA 
requests that grant funds for fine particulate matter monitoring remain 
under Section 103 authority, rather than being shifted to Section 105 
authority.
    NACAA is a national, non-partisan, non-profit association of State 
and local air pollution control agencies in 45 States, the District of 
Columbia and four territories. The members of NACAA have the primary 
responsibility under the Clean Air Act for implementing our Nation's 
clean air program. The air quality professionals in our member agencies 
have vast experience dedicated to improving air quality in the United 
States. These observations and recommendations are based upon that 
experience. The views expressed in this testimony do not necessarily 
represent the positions of every State and local air pollution control 
agency in the country.
  steep cuts will have devastating impacts on state and local programs
    For many years, State and local air pollution control agencies have 
struggled with insufficient resources and have done what they could to 
address their budget shortfalls. However, due to economic hardships, 
States and localities increasingly rely on Federal grants. 
Unfortunately, since grant levels have essentially remained flat in 
recent decades, taking inflation into consideration, grant funding has 
actually decreased by nearly 17 percent since 2000.
    State and local agencies would find it difficult to accommodate any 
cuts to Federal air quality grants; additional cuts of 30 percent would 
be devastating. Such reductions would severely impede the ability of 
many agencies to continue essential programs and, in the most extreme 
cases, some smaller l ocal agencies could conceivably have to close 
down entirely. With such cuts, many State and local air pollution 
control agencies will have trouble fully implementing the CAA's health-
based air standards and delivering the clean and healthful air the 
public deserves. Additionally, these agencies and their regions could 
be subject to harsh sanctions under the CAA, including the withholding 
of millions of dollars in Federal highway funds, severe emissions 
``off-set'' limits that could interfere with economic development, and 
the possibility of EPA imposing Federal Implementation Plans on States.
    Maintaining funding for State and local agencies will not only 
protect public health, but will also allow them to continue to provide 
services to the public and the regulated community, such as more 
expedited permit processing, compliance assistance and streamlined 
regulatory operations. These services, if adequately funded, contribute 
to economic development and administrative efficiencies.
    NACAA recently surveyed State and local air quality agencies to 
learn what a reduction of approximately 30 percent in Federal air 
quality grants would mean to their programs.\1\ The results reveal a 
very disturbing picture: cuts of the magnitude proposed would likely 
have a devastating impact on their efforts to provide healthful air 
quality for the public. Indeed, if Congress enacts such cuts, we fear 
more people will die prematurely and get sick unnecessarily.
---------------------------------------------------------------------------
    \1\ NACAA Report, Impacts of Proposed fiscal year 2018 Budget Cuts 
on State and Local Air Quality Agencies (May 22, 2017), http://
www.4cleanair.org/sites/default/files/Documents/NACAAFundingReport-
FY2018.pdf.
---------------------------------------------------------------------------
    In responding to the NACAA survey, agency after agency painted a 
similar picture of severe curtailments to their programs in the face of 
the steep cuts being proposed: cancellation of programs, loss of staff 
and a diminished capacity to obtain and maintain healthful air quality. 
Nearly every respondent reported that cuts of this magnitude would 
severely reduce the benefits the agencies can provide. These include 
not only to the general public, with respect to decreasing air 
pollution, maintaining clean air and generally protecting public 
health, but also to the regulated community, in terms of permitting, 
compliance assistance and other services.
    The respondents provided a long and varied list of ways in which a 
30-percent reduction would impact State and local air quality, 
affecting nearly every function they perform. They identified many 
activities to be reduced and/or eliminated, including monitoring, 
inspections, enforcement, permit issuance, compliance assistance, data 
analysis, equipment maintenance and complaint response, along with 
losing staff who are needed to do all that work, among others.
    The impacts of these reductions are far reaching. Numerous agencies 
reported that they would be operating at a bare minimum level and that 
the services they provide the public would be limited or even 
eliminated. Perhaps most importantly, efforts to obtain healthful air 
quality and maintain clean air would suffer as a result of these 
resource constraints on their programs.
    Agencies also reported that their State or local governments, which 
already provide the lion's share of funding for clean air programs, 
would not be able to make up for the reductions in Federal grants 
through additional State or local appropriations, general funds, grants 
or other contributions. Additionally, several agencies noted that they 
could consider increasing fees to address the shortfall, but that 
gaining approval for additional fees is unlikely as well.
    Finally, State and local air quality agencies reported that a 30-
percent cut in grants could force them to turn some of their important 
Clean Air Act implementation work back to the Federal Government. Since 
local communities, including many regulated entities, generally prefer 
working with their local and State agencies (as opposed to EPA), the 
return of responsibilities to the Federal Government would be a 
tremendous loss. Additionally, since the proposed budget calls for 
sharp cuts to EPA's operating budget as well, the agency would not be 
in a good position to take on the tasks that the State and local 
agencies can no longer carry out.
    While the responses taken as a whole provide an overall impression 
of the adverse impacts of the proposed grant reductions, reading what 
State and local agency officials said in their own words about their 
individual agencies offers a sense of the harm these critically 
important programs and public health would suffer. A sampling follows:

    ``A cut in our Federal grant of 30 percent would impose serious and 
adverse impacts on our individual State and collective ability to 
effectively run our air pollution control programs. There would very 
likely be many more people in our State getting sick and possibly dying 
as a result of these budget cuts.'' 

    ``We are insufficiently staffed to assure citizens are protected 
from asbestos. Asbestos is a carcinogen and was widely used in 
buildings . . . Our current staffing . . . is only able to inspect 8 
percent of the structures. This inability to verify compliance places 
the public directly at risk.''

    ``Without question, a cut of 30 percent to the already-reduced 
funding levels would devastate our program . . . [W]e would be forced 
to cut our staffing by at least one-third . . . a reduction in staffing 
along the proposed lines would significantly delay the issuance of 
permits for new construction.''

    ``If you cut back on enforcement programs, such as inspections and 
compliance assistance, your regulated community tends to be out of 
compliance more of the time. This can result in increased emissions 
which affect the health of your citizens.''

    ``Because we are at the Federal minimum for our air monitoring 
network and unable to fully meet our planning, inventory, and asbestos 
compliance requirements, a reduction of 30 percent would be 
devastating. We clearly would be unable to meet the federally-mandated 
responsibilities.''

    ``The State and local funding cuts combined with the proposed 30 
percent Federal funding cut will result in about a 72 percent reduction 
in [our] overall budget. This will significantly impact [our] ability 
to be here at all, and if we are still here, it will be at a 60-70 
percent decreased staffing level leaving us with 7-10 FTEs to manage a 
6 county area. At this level, we will not be able to meet the core 
requirements of the State contract and Federal grants.''

    ``A reduction of Federal funds may result in an air quality 
monitoring network that does not meet Federal requirements.''

    ``These cuts ignore reality; because we still have to meet all the 
existing Federal requirements . . . When we fail, due to a lack of 
resources, it will be local taxpayers who bear the burden of paying 
environmental groups' legal fees.''

    ``We'd no longer do any air toxics work.''
air pollution is still a significant threat to human health in spite of 
                              improvements
    There are many important problems that fall under this 
subcommittee's jurisdiction, but it is unlikely that any pose more of a 
threat to public health than air pollution. In fact, tens of thousands 
of people in this country die prematurely each year and many others 
suffer serious health problems as a result of exposure to air 
pollution. These include, among other things, premature mortality; 
cancer; and cardiovascular, respiratory, neurological and reproductive 
damage.\2\ This subcommittee has the opportunity to address very 
serious public health and welfare problems by providing adequate 
Federal funding for State and local air agencies' efforts.
---------------------------------------------------------------------------
    \2\ FY 2014-2018 EPA Strategic Plan (April 10, 2014), page 8.
---------------------------------------------------------------------------
    According to EPA figures, about 120 million people in this country 
(about 40 percent of the population) lived in counties that exceeded at 
least one of the Federal health-based air pollution standards in 
2015.\3\ With respect to hazardous air pollutants (HAPs), EPA's 
National Air Toxics Assessment (NATA) indicate that in 2011 ``all 285 
million people in the U.S. ha[d] an increased cancer risk of greater 
than 10 in one million,'' while one-half million people have an 
increased risk of cancer of over 100 in a million, due to exposure to 
HAPs.\4\
---------------------------------------------------------------------------
    \3\ FY 2018 EPA Budget in Brief (May 2017), page 11, https://
www.epa.gov/sites/production/files/2017-05/documents/fy-2018-budget-in-
brief.pdf.
    \4\ http://www.epa.gov/national-air-toxics-assessment/2011-nata-
assessment-results.
---------------------------------------------------------------------------
    While we have made great improvements in air quality in this 
country and even though the programs under the Clean Air Act have 
provided significant health and welfare benefits, air pollution remains 
a significant threat to human health and there is much work to be done.
  nacaa recommends that authority for monitoring grants remain under 
                              section 103
    EPA has proposed to begin shifting funds for PM2.5 monitoring from 
Section 103 authority, where no State or local matching funds are 
needed, to Section 105, which would require a match. We recommend that 
the funds remain under Section 103 authority. For individual agencies 
that have concerns about the matching requirements, this will ensure 
that they do not have to refuse essential monitoring funds because they 
do not have the resources for the match. In past years, Congress has 
been very responsive to our requests on this issue, for which we are 
very grateful, and we recommend that Congress again retain these grants 
under Section 103 authority.
                               conclusion
    NACAA strongly opposes the Administration's proposed decrease of 30 
percent in grants to State and local air pollution control agencies 
under Sections 103 and 105 of the Clean Air Act for fiscal year 2018, 
as part of the State and Tribal Assistance Grant (STAG) program 
(decreasing grants from $227.8 million in fiscal year 2017 $159.5 
million). We recommend that Congress provide funding at last year's 
level, at a minimum. We further request that grants for 
PM<INF>2.5</INF> monitoring remain under Section 103 authority, rather 
than being shifted to Section 105 authority.
    Thank you for this opportunity to testify on this important issue 
and for your consideration of the funding needs of State and local air 
quality programs.
                                 ______
                                 
 Prepared Statement of the National Association of Clean Water Agencies
    As the subcommittee begins to develop legislation to fund USEPA in 
the fiscal year 2018 budget, the National Association of Clean Water 
Agencies (NACWA) thanks you for your past support for strong funding 
for clean and safe water and appreciates the opportunity to submit our 
appropriation testimony for fiscal year 2018. NACWA represents a 
growing network of nearly 300 public wastewater and stormwater agencies 
of all sizes nationwide. Below are our key appropriations priorities 
for fiscal year 2018.

Agency: USEPA
Program: Clean Water State Revolving Fund
Funding Request: $2.8 B (2x fiscal year 2017 enacted level)

    The Clean Water State Revolving Fund (CWSRF) is a critical tool 
which municipal clean water agencies around the U.S. leverage to help 
meet their Federal obligations under the Clean Water Act (CWA). The 
low-interest loans, and in limited cases grants and loan forgiveness, 
that the CWSRF provides help clean water agencies make critical 
infrastructure investments as affordably as possible for ratepayers. 
The CWSRF has been instrumental in many communities' successes in 
complying with National Pollutant Discharge Elimination System (NPDES) 
permits, implementing secondary (biologic) treatment of wastewater, and 
reducing the frequency and size of sewer overflows during wet weather 
events. The CWSRF is also essential for many communities working to 
implement new regulatory requirements ranging from updated water 
quality standards to tightening nutrient limitations. And, the CWSRF is 
increasingly used to help implement innovative stormwater and nutrient 
management projects and green infrastructure.
    The CWSRF is increasingly crucial at a time when--even with tools 
like the CWSRF--sewer and water rates are increasing well above the 
rate of inflation. Key drivers of rising rates include Federal consent 
decrees requirements, associated capital construction and debt service, 
CSO and SSO controls, and sewer rehabilitation and replacement.
    As you know, recent water crises have focused increasing national 
attention on the state of our Nation's water infrastructure. NACWA has 
welcomed proposals to dramatically boost water infrastructure spending, 
and believes that the requested doubling of Federal appropriations 
would be an appropriate step in fiscal year 2018. Of course, we also 
recognize the limitations Congress faces. In light of this, at minimum 
we urge Congress to maintain level funding with the $1.39 B enacted in 
fiscal year 2017 to help ensure these programs remain strong.

Agency: USEPA
Program: Integrated Planning
Funding Request: Provide at least $6.5 M for Integrated Planning

    NACWA utility members have been encouraged by the Integrated 
Planning Framework for Municipal Stormwater & Wastewater which EPA put 
forth in 2012. NACWA urges Appropriators to provide at least $6.5 
million to help advance this approach, which promises to aid 
municipalities in addressing their CWA obligations strategically. 
Integrated Planning allows for prioritizing clean water investments 
within a compliance schedule that focuses on the highest-impact 
investments first, generating greater ``bang for the buck'' and 
allowing communities to address environmental and public health issues 
holistically and cost-effectively. NACWA has been pleased to see 
bipartisan support for Integrated Planning from Congress. We urge 
funding for this program to help the Agency provide technical 
assistance to pilot communities as this approach becomes better 
accepted and understood across the United States.

Agency: USEPA
Program: Geographic Programs
Funding Request: $473 M (Maintain fiscal year 2017 enacted levels 
        across all Geographic Programs)

    USEPA's Geographic Programs, including the Great Lakes Restoration 
Initiative (GLRI), Chesapeake Bay Program, Long Island Sound, among 
others, support watershed-based investments aimed at improving water 
quality and related goals. The goals and impacts of these programs 
cross multiple States, impact waters of national significance, and 
leverage significant State, local, and private dollars. In many cases, 
the geographic programs have helped forge partnerships between clean 
water agencies, upstream landowners, conservation groups, and other 
stakeholders to strategically address root problems and advance water 
quality, reduce historic contamination, restore habitat, and many other 
goals that advance the Clean Water Act goals of fishable and swimmable 
waters. NACWA was pleased to see funding ultimately maintained for 
these programs in fiscal year 2017 but is alarmed by the President's 
fiscal year 2018 Budget Proposal which proposes their elimination. We 
urge Appropriators to restore funding for these important and 
successful programs this year.

Agency: USEPA
Program: Categorical Grants: Nonpoint Source Sec. 319
Funding Request: $165 million (Maintain fiscal year 2017 enacted level)

    Nonpoint Source grants are provided to State, Tribes, and 
territories to aid implementation of EPA-approved Nonpoint Source 
Management Programs under Sec. 319 of the CWA. Activities provided 
under these programs include technical and financial assistance to 
municipalities, outreach and education, and technology transfer and 
training. These programs also help monitor and assess the impacts of 
nonpoint management projects, an area where continued research and 
documentation is in demand by public entities and the private sector.
    The CWA has been remarkably successful in reducing point source 
discharges, and in many watersheds nonpoint sources remain the largest 
outstanding driver of water quality impairments. Nonpoint sources also 
contribute to acute public health risks such as harmful algal blooms 
and threats to drinking water. Continued progress on improving water 
quality under the CWA relies in large part on the ability to improve 
nonpoint source management. NACWA was alarmed to see this program 
proposed for elimination in the President's fiscal year 2018 Budget 
Proposal and we urge Appropriators to restore funding.

Agency: USEPA
Program: Categorical Grants: Pollution Control Sec. 106
Funding Request: $230 M (Maintain fiscal year 2017 enacted level)

    Under Sec. 106 of the CWA, EPA provides Federal assistance to 
States and Tribes to aid in their role of enforcing the CWA. Strong 
State programs are essential to the cooperative Federalism approach of 
the Act. The clean water agencies represented by NACWA continually 
engage with their State programs offices on all aspects of CWA 
permitting, compliance and enforcement. NACWA is interested in efforts 
to help streamline programs but is concerned by proposed cuts to these 
grants in fiscal year 2018, as they may have near-term impacts on the 
functioning of State programs to the detriment of the regulated 
community.
    Thank you for your thoughtful consideration, and please do not 
hesitate to contact NACWA for additional information.

    [This statement was submitted by Kristina Surfus, Director of 
Legislative Affairs.]
                                 ______
                                 
    Prepared Statement of the National Association of Conservation 
                               Districts
                                                     August 7, 2017

 
 
 
Senator Lisa Murkowski, Chairman,     Senator Tom Udall, Ranking Member,
Subcommittee on Interior,             Subcommittee on Interior,
 Environment, and Related Agencies,    Environment, and Related
Committee on Appropriations,           Agencies,
U.S. States Senate,                   Committee on Appropriations,
Washington, DC.                       U.S. Senate,
                                      Washington, DC.
 


Dear Chairman and Ranking Member:

    The National Association of Conservation Districts (NACD) 
represents America's 3,000 conservation districts and the 17,000 men 
and women who serve on their governing boards. Conservation districts 
are local units of government established under State law to carry out 
natural resource management programs at the local level. Districts work 
with millions of cooperating landowners and operators to help them 
manage and protect land and water resources on all private lands and 
many public lands in the United States.
    Recent events across the country have shown the importance and 
continued benefit of proper management of our water and forest 
resources. For fiscal year 2018, NACD respectfully requests an 
appropriation of $184.9 million for Environmental Protection Agency's 
319 Nonpoint Source Grants. We also request maintaining level funding 
for the Forest Service's State and Private Forestry program at $237 
million in the fiscal year 2018 Interior appropriations bill.
    The 319 Nonpoint Source Grants are critically important to stream 
bank stabilization, stormwater management, low-impact development, and 
other projects led by conservation districts to address water quality 
at the local level. Working lands are under increased pressure to 
produce food, feed, fuel, and fiber for the world's growing population. 
Because of this reality, it is more important than ever that we 
dedicate the resources necessary to ensuring local communities continue 
to have access to and realize the benefits of clean water.
    State and Private Forestry is one of the few U.S. Forest Service 
(USFS) programs that provides technical and financial assistance to 
private landowners. For this reason, State and Private Forestry 
programs should be staffed and funded at levels that allow for strong 
public-private partnerships and ensure greater forest management and 
economic opportunity on private, non-industrial forest lands.
    Thank you for your consideration of these requests. We look forward 
to working with you as we continue to serve the nation through natural 
resource conservation.

            Sincerely,
                                    Brent Van Dyke,
                                                    NACD President.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, I am David Terry, Executive Director of the National 
Association of State Energy Officials (NASEO), which represents the 56 
State and Territory Energy Offices. NASEO is submitting this testimony 
in support of funding for the ENERGY STAR program (within the Climate 
Protection Partnership Division of the Office of Air and Radiation) at 
the U.S. Environmental Protection Agency (EPA). NASEO supports funding 
of at least $55 million, including specific report language directing 
that the funds be utilized only for the ENERGY STAR program. The ENERGY 
STAR program is successful, voluntary, and cost-effective. The program 
has a proven track record--it makes sense, it saves energy and money 
and Americans embrace it. With a slowly recovering economy, ENERGY STAR 
helps consumers and businesses control expenditures over the long term. 
The program is strongly supported by product manufacturers, utilities 
and homebuilders, and ENERGY STAR leverages the States' voluntary 
efficiency actions. Voluntary ENERGY STAR activities are occurring in 
public buildings, such as schools, in conjunction with State Energy 
Offices, in Alabama, Alaska, Arkansas, California, Colorado, Delaware, 
District of Columbia, Florida, Georgia, Hawaii, Idaho, Illinois, 
Kentucky, Maine, Maryland, Michigan, Minnesota, Mississippi, Missouri, 
Montana, Nebraska, Nevada, New Hampshire, New Jersey, New Mexico, New 
York, North Carolina, North Dakota, Ohio, Oklahoma, Oregon, 
Pennsylvania, Rhode Island, South Carolina, Tennessee, Texas, Utah, 
Vermont, Virginia, Washington, West Virginia, Wisconsin, and Wyoming. 
The proposed elimination of this program in the President's budget is a 
grave mistake.
    The ENERGY STAR program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments, communities and business to 
achieve these goals in a cooperative, public-private manner. NASEO has 
worked very closely with EPA and approximately 40 States are ENERGY 
STAR Partners. With very limited funding, EPA's ENERGY STAR program 
works closely with the State Energy Offices to give consumers and 
businesses the opportunity to make better energy decisions and 
catalyzes product efficiency improvements by manufacturers without 
regulation or mandates. This program is voluntary.
    ENERGY STAR focuses on energy efficient products as well as 
buildings (e.g., residential, commercial, and industrial). Over 1 
billion ENERGY STAR certified products were shipped in 2015 across more 
than 85 product categories for a cumulative total of well over 5.2 
billion products since 1992. The ENERGY STAR label is recognized across 
the United States. In 2014, 89 percent of households recognized the 
ENERGY STAR label when it was shown to them. This constitutes an 
increase of 48 percent since the Consortium for Energy Efficiency first 
conducted the National Awareness of ENERGY STAR survey in 2000. It 
makes the work of the State Energy Offices much easier, by working with 
the public on easily recognized products, services, and targets. In 
order to obtain the ENERGY STAR label a product has to meet established 
guidelines. ENERGY STAR's voluntary partnership programs include ENERGY 
STAR Buildings, ENERGY STAR Homes, ENERGY STAR Small Business, and 
ENERGY STAR Labeled Products. The program operates by encouraging 
consumers and working closely with State and local governments to 
purchase these products and services. Marketplace barriers are also 
eradicated through education. State Energy Offices are working with EPA 
to promote ENERGY STAR products, ENERGY STAR for new construction, 
ENERGY STAR for public housing, etc. A successful example of how State 
Energy Offices are leveraging this key national program is the Nebraska 
Energy Office, which since 2005, has utilized ENERGY STAR as the 
standard for certifying home and office electronics that are eligible 
under the State's successful and long-running Dollar and Energy Savings 
Loan program.
    In 2016, millions of consumers and 16,000 voluntary partners, that 
included manufactures, builders, businesses, communities and utilities, 
tapped the value of ENERGY STAR and achieved impressive financial and 
environmental results. Their investments in energy-efficient 
technologies and practices reduced utility bills by well over $34 
billion.
    An estimated 500,000 homes were improved through the whole house 
retrofit program, Home Performance with ENERGY STAR (HPwES) through 
2015. This work was performed by 48 locally sponsored programs and more 
than 2,100 participating contractors across the nation. Over 30 States, 
including California, Kentucky, Minnesota, Nevada, and Pennsylvania, 
operate or support the Home Performance with ENERGY STAR programs.
    The State Energy Offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding ENERGY STAR Business Partners 
program. In Kentucky, the State has partnered with school districts and 
engineering firms to advance ENERGY STAR rated schools, resulting in 
more than 325 ENERGY STAR rated schools in the State, a 67 percent 
increase since 2012. Over the past few years, Kentucky has moved 
aggressively to promote and build zero-net energy schools. Other States 
that have over 150 ENERGY STAR rated schools include Arizona, 
California, Colorado, Florida, Georgia, Indiana, Michigan, Minnesota, 
New Mexico, New York, North Carolina, Ohio, Pennsylvania, Texas, Utah, 
Virginia, Washington and Wisconsin. Over 27 percent of Utah's K-12 
schools are certified as ENERGY STAR.
    EPA provides technical assistance to the State Energy Offices in 
such areas as ENERGY STAR Portfolio Manager (how to rate the 
performance of buildings), setting an energy target, and financing 
options for building improvements and building upgrade strategies. 
ENERGY STAR Portfolio Manager is used extensively by State Energy 
Offices to benchmark performance of State and municipal buildings, 
saving taxpayer dollars. Portfolio Manager is the industry-leading 
benchmarking tool used voluntarily by more than 325,000 commercial 
buildings. Portfolio Manager is used to measure, track, assess, and 
report energy and water consumption.
    Additionally, the industrial sector embraces ENERGY STAR and 
companies such as GM, Eastman Chemical, Nissan, Raytheon, Boeing and 
Toyota are recognized for sustained energy excellence by the program. 
At the close of 2014, the number of industrial sites committed to the 
ENERGY STAR Challenge for Industry grew, while 306 sites met or 
exceeded their targets by achieving an average 20 percent reduction in 
industrial energy intensity.
    The State Energy Offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
We encourage these continued efforts.
                               conclusion
    The ENERGY STAR program saves consumers billions of dollars every 
year. The payback is enormous. NASEO supports robust program funding of 
at least $55 million in fiscal year'17. Funding for the ENERGY STAR 
program is justified. It's a solid public-private relationship that 
leverages resources, time and talent to produce tangible results by 
saving energy and money. NASEO endorses these activities and the State 
Energy Offices are working very closely with EPA to cooperatively 
implement a variety of critical national programs without mandates.
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters
    The National Association of State Foresters (NASF) appreciates the 
opportunity to submit written public testimony to the House Committee 
on Appropriations, Subcommittee on Interior, Environment, and Related 
Agencies regarding our fiscal year (FY) 2018 appropriations 
recommendations. Our priorities focus primarily on appropriations for 
the USDA Forest Service (Forest Service) State and Private Forestry 
(S&PF) programs.
    State Foresters deliver technical and financial assistance, along 
with forest health, water and wildfire protection for more than two-
thirds of the Nation's 751 million acres of forests. The Forest Service 
S&PF mission area provides vital support to deliver these services, 
which contribute to the socioeconomic and environmental health of rural 
and urban communities. The comprehensive process for delivering these 
services is articulated in each State's Forest Resource Assessment and 
Strategy (State Forest Action Plan), authorized in the 2008 Farm Bill 
and continued in the Agriculture Act of 2014.
    Your support of the following programs is critical to helping 
States address the many and varied challenges outlined in Forest Action 
Plans.
                     wildland fire and forest fuels
    Wildland Fire Funding: State Foresters ask for your continued 
support to pass legislation that fixes the broken wildfire funding 
system and addresses much-needed forest management reforms, either 
separately or in tandem.
    The current wildfire suppression funding model continues to the 
challenge the Forest Service's ability to achieve its overall mission 
and negatively impacts Agency programs of priority to State Foresters. 
Over time, the portion of the Forest Service's budget dedicated to fire 
has grown from under 20 percent to more than 50 percent of the agency's 
total budget. As wildfire eats up a larger share of the agency's 
budget, less is available to other critical programs. Compounding the 
issue is the practice of fire transfers--occurring when appropriated 
suppression funds run out--that disrupts or cancels projects that 
conserve and enhance our Nation's public and private forests.

    -- The Department of the Interior and the Forest Service need a 
long-term fire funding solution that would result in stable and more 
predictable budgets.

    In addition to the wildfire funding issue are the challenges posed 
by the Nation's unhealthy, overgrown and fire-prone Federal forests.

    -- We support environmentally responsible forestry reforms on 
Federal lands as part of the funding remedy or as a separate effort.

    State Fire Assistance (SFA): More people living in fire-prone 
landscapes, high fuel loads, drought, and unhealthy landscapes are 
among the factors that led most State Foresters to identify wildland 
fire as a priority issue in their State Forest Action Plans. We now 
grapple with increasingly expensive and complex wildland fires--fires 
that frequently threaten human life and property. In 2016 there were 
67,743 wildfires that burned 5.5 million acres.

    -- Eighty 2 percent of the total number of fires were where State 
and local departments had primary jurisdiction. 46 percent of the total 
acres burned were on State and private lands. In 2015, 85 percent of 
all local and State crews and engine dispatched outside of their 
geographic area were responding to Federal fires, primarily on initial 
attack.

    -- Attacking fires when they are small is the key to reducing 
fatalities, injuries, loss of homes and cutting Federal fire-fighting 
costs.

    SFA and Volunteer Fire Assistance (VFA) are the fundamental Federal 
mechanisms for assisting States and local fire departments in 
responding to wildland fires and in conducting management activities 
that mitigate fire risk on non-Federal lands. SFA helps train and equip 
local first responders who are often first to arrive at a wildland fire 
incident and who play a crucial role in keeping fires and their costs 
as small as possible. A small investment of SFA funds supports State 
forestry agencies in accessing and repurposing equipment from the 
Federal Excess Personal Property and the Firefighter Property programs. 
In fiscal year 2015, these two programs delivered more than $169 
million in equipment for use by State and local first responders.

    -- NASF supports funding the State Fire Assistance program at $87 
million and Volunteer Fire Assistance at $15 million in fiscal year 
2018. The need for increased funding for fire suppression on Federal 
lands has broad support and the administration's budget recommends a 
funding increase to meet the anticipated fire threat. Some of the 
largest and costliest Federal land fires begin on State, local and 
privately owned lands. The need to increase fire suppression funding 
for State, local and private lands, where over 80 percent of wildfires 
occur, is just as urgent and should reflect the increases on Federal 
lands.
                    forest pests and invasive plants
    Also among the greatest threats identified in the State Forest 
Action Plans are native and non-native pests and diseases. These pests 
and diseases have the potential to displace native trees, shrubs and 
other vegetation types in forests; the Forest Service estimates that 
hundreds of native and non-native insects and diseases damage the 
Nation's forests each year. They are also devastating the trees and 
forests of America's cities and towns. For example, the cost of 
replacing a single street tree is approximately $1000. The growing 
number of damaging pests and diseases are often introduced and spread 
by way of wooden shipping materials, movement of firewood, and through 
various types of recreation. In 2010, approximately 6.4 million acres 
suffered mortality from insects and diseases\1\ and there is an 
estimated 81.3 million acres at risk of attack by insects and disease 
over the next 15 years.\2\ These losses threaten clean and abundant 
water availability, wildlife habitat, clean air, and other 
environmental services. Furthermore, extensive areas of high insect or 
disease mortality can set the stage for large-scale, catastrophic 
wildfire.
---------------------------------------------------------------------------
    \1\ Man, Gary. 2011. Major Forest Insect and Disease Conditions in 
the United States: 2010 Update. Last accessed on March, 5, 2015 at: 
http://www.fs.fed.us/foresthealth/publications/
ConditionsReport_2011.pdf.
    \2\ Tkacz, Bory, et al. 2014. NIDRM 2012 Report Files: Executive 
Summary. Last accessed on March, 5, 2015 at: http://www.fs.fed.us/
foresthealth/technology/pdfs/2012_RiskMap_Exec_
summary.pdf.
---------------------------------------------------------------------------
    The Cooperative Forest Health Management program supports 
activities related to prevention, monitoring, suppression, and 
eradication of insects, diseases, and plants through provision of 
technical and financial assistance to States and territories to 
maintain healthy, productive forest ecosystems on non-Federal forest 
lands. Forest pests know no bounds. Controlling pests on private lands 
can stop millions of dollars in damage much of which would occur on 
public lands. The Cooperative Forest Health Management program plays a 
critical part in protecting communities already facing outbreaks and in 
preventing exposure of more forests and trees to the devastating and 
costly effects of exotic and invasive pests and pathogens.

    -- NASF supports funding the Forest Health Management--Cooperative 
Lands Program at $48 million in fiscal year 2018.
assisting landowners and maintaining working forest landscapes--forest 
                          stewardship program
    Working forest landscapes are a key part of the rural landscape, 
providing an estimated 900,000 jobs, clean water, wood products, and 
other essential services to millions of Americans. Private forests make 
up two-thirds of all the forestland in the United States and support an 
average of eight jobs per 1,000 acres.\3\ However, the Forest Service 
estimates that 57 million acres of private forests in the U.S. are at 
risk of conversion to urban development over the next two decades. 
Programs like the Forest Stewardship Program and Forest Legacy Program 
are key tools identified in the State Forest Action Plans for keeping 
working forests intact and for providing a full suite of benefits to 
society. Almost 90 percent of those who have stewardship plans, 
implement them. Almost 50 percent of the Nation's wood supply comes 
from small landowners who are the target of this program. Last year 
this program assisted over 455,000 landowners in developing or revising 
their stewardship plans or leading them to resources who are able to 
assist. Again fires and diseases know no bounds. A robust program has 
positive impacts on the Nation's watersheds, wildlife habitat and 
neighboring public lands.
---------------------------------------------------------------------------
    \3\ Forest2Market. The Economic Impact of Privately-Owned Forests. 
2009.

    -- NASF supports funding the Forest Stewardship Program at $29 
million in fiscal year 2018. Increasing active management on Federal 
lands has broad support and has received increased funding in recent 
years through the Forest Products budget line item, while funding for 
Forest Stewardship has decreased. . The need to provide funding on 
State and private lands is just as urgent.
                         forest legacy program
    This program provides critical Federal assistance to States and 
private landowners to keep working forests working through permanent 
conservation easements and in some cases, fee acquisitions. Each 
easement acquisition is required to have a long-term forest stewardship 
plan.
    Working forests play an important role to sustain the economic, 
ecological, and social well-being of America's rural and urban areas 
through the jobs they support and the benefits they provide, such as 
wildfire threat reduction, clean air and water, wildlife habitat, and 
outdoor recreation space.

    -- NASF supports funding the Forest Legacy Program at $62 million 
in fiscal year 2018. NASF supports the program being fully funded from 
the Land and Water Conservation Fund and not be included in the 
discretionary budget cap. NASF also recommends report language 
requiring coordination with State Foresters prior to recommendation and 
selection of easements and acquisitions due to land management 
considerations and tax implications.
            urban and community forest management challenges
    Urban and community forests are important to achieving energy 
savings, improved air quality, neighborhood stability, aesthetic value, 
reduced noise, and improved quality of life in municipalities and 
communities around the country. There are demonstrable studies that 
show positive impacts urban trees and forests have on: childhood 
asthma, mitigating the impacts of auto exhaust, reducing home heating 
and air conditioning costs, providing economically viable solutions for 
storm water absorption, enhancing retail business and even reducing 
crime rates. In fact, urban and community forests have been shown to 
provide environmental, social, and economic benefits to the more than 
80 percent of Americans living in medium and large size cities and 
towns.\4\ Yet, urban and community forests face serious threats, such 
as development and urbanization, invasive pests and diseases, and fire 
in the wildland urban interface (WUI).
---------------------------------------------------------------------------
    \4\ United States Census Bureau, Growth in Urban Population 
Outpaces Rest of Nation, Census Bureau Reports. Available at https://
www.census.gov/newsroom/releases/archives/2010_census/cb12-50.html. 
Last Accessed March 5, 2015.
---------------------------------------------------------------------------
    Since its expansion under the Cooperative Forestry Assistance Act 
of 1990 (CFAA), the Forest Service's Urban and Community Forestry 
(U&CF) Program has provided technical and financial assistance to 
promote stewardship of urban forests in communities of all sizes across 
the country. The program is delivered in close partnership with State 
Foresters and leverages existing local efforts that have helped 
thousands of communities and towns manage, maintain, and improve their 
tree cover and green spaces. The program directly serves more than 
7,000 communities across the United States. The program has over a 2:1 
match for Federal dollars provided for this program.

    -- NASF supports funding the Urban and Community Forestry program 
at $31 million in fiscal year 2018.
    importance of forest inventory data in monitoring forest issues
    The Forest Inventory and Analysis program (FIA) enables forest 
managers and the natural resource community to understand the scope and 
scale of trends and changes in forest conditions and to make 
projections of future conditions. Funding for FIA supports State and 
private lands, which account for two-thirds of America's forests and 
provide public benefits such as clean air and water, wildlife habitat, 
outdoor recreation, jobs and wood products.
    NASF is concerned with the recent proposed and realized reductions 
to the USDA Forest Service Research and Development budget and 
recommends a total R&D funding level of $303 million--$83 million 
allocated to FIA.

    -- NASF supports funding the Forest Inventory and Analysis program 
at $83 million in fiscal year 2018.
                      landscape scale restoration
    National priority Landscape Scale Restoration (LSR) projects are a 
key way that States, in collaboration with the USDA Forest Service and 
other partners, address critical forest priorities across the 
landscape. LSR projects focus only on the most critical priorities 
identified in each State's Forest Action Plan and on achieving national 
goals as laid out in the State and Private Forestry national themes. As 
a result, LSR contributes to achieving results across the landscape and 
to making meaningful local, regional, and national impacts.
    Competitive allocation of Cooperative Forestry Assistance Act funds 
was codified in the 2008 Farm Bill. The LSR budget line item was 
subsequently included in the fiscal year 2014 appropriations bill as 
the funding mechanism for a competitive process aimed at addressing 
critical priorities identified in State Forest Action Plans and based 
on the tenets of the State and Private Forestry redesign effort--
conserve working forest landscapes, protect forests from harm, and 
enhance public benefit from trees and forests.
    LSR allows State forestry agencies to target resources toward the 
highest priority forest needs in a State, group of States, or region, 
while also meeting national priorities.
    Regional review teams comprised of State and Federal officials with 
knowledge of the on-the-ground realities within the region carry out a 
rigorous review process to select the LSR projects that will receive 
funding within their region. Selected LSR projects are, as a result, 
the best and most ground-truthed landscape-scale, cross-boundary, 
outcome-driven projects.

    -- NASF supports funding the Landscape Scale Restoration program at 
$23 million in fiscal year 2018. NASF does not support increases in 
this program coming at the expense of other programs described above. 
NASF also supports report language which would allow for additional 
funding over fiscal year 2017 levels for LSR to be allocated for the 
highest national priorities as identified in each of the State Forest 
Action Plans as determined by each State Forester.
     epa categorical nonpoint source pollution grants (section 319)
    In addition to USFS programs, State foresters also receive critical 
program support through the EPA, most notably through the STAG (State 
and Tribal Assistance Grant) categorical grants for nonpoint source 
pollution (aka ``319 funds''). Despite the need to make substantial 
changes in how the EPA functions and interacts with the States, these 
grants allow for the cooperation inherent in ``cooperative 
Federalism'', are an appropriate function for the agency, and should be 
kept robustly funded. For many State forestry agencies, these funds are 
critical in supporting delivery of water quality best management 
programs and helping private forest owners protect water resources in 
their forests, leading to clean water outcomes that benefit all 
citizens.

    -- NASF supports maintaining level funding for the Nonpoint Source 
Pollution Grants--a level of $170 million.
                                 ______
                                 
    Prepared Statement of the National Association of State Outdoor 
                      Recreation Liaison Officers
    Thank you Chairwoman Murkowski, Senator Udall and other honorable 
Members of the subcommittee for the opportunity to submit written 
testimony pertaining to funding for the Land and Water Conservation 
Fund's (LWCF) State Assistance Program in the fiscal year 2018 Interior 
Appropriations bill.
    Overview of Funding Request: As outlined below, we encourage you to 
continue the Federal investment in the LWCF, especially as it relates 
to the State and local partnership created through the State Assistance 
Program. We would like to remind the subcommittee one of the key 
purposes of the Act was to help preserve, develop, and assure access to 
outdoor recreation facilities to provide recreation and strengthen the 
health of U.S. citizens in close to home venues. Therefore, we urge you 
to continue to make greater investments in States and local communities 
by:
  --Appropriating a minimum of $110 million for the State Assistance 
        Program in fiscal year 2018.
  --If overall allocations for LWCF are increased above fiscal year 
        2017 levels we request at least 40 percent of fiscal year 2018 
        LWCF appropriations be directed to the State Assistance 
        Program.
  --Continue the innovative, ``Outdoor Recreation Legacy Partnership'' 
        (ORLP) competitive grant program in fiscal year 18 at $12 
        million.

    About the National Association of State Outdoor Recreation Liaison 
Officers. We are an organization of State and territorial officials, 
appointed by our Governors to be a liaison to the Federal Government 
for the administration of and advocacy for the Land and Water 
Conservation Fund's State Assistance Program. We work in this capacity 
to ensure close-to-home access to parks and recreation opportunities in 
communities throughout the Nation and to ensure the program is 
administered effectively and efficiently.
    The State Assistance Program of the LWCF. Originally the majority 
of the LWCF was set aside to be a partnership program between the 
Federal Government and State and local political subdivisions to 
provide outdoor recreation in close to home locations. These outdoor 
recreation facilities were meant to provide social, healthful and 
economic benefits and to improve the quality of life throughout the 
Nation. That is why in the original Act, 60 percent of the LWCF was 
dedicated to State and local grants.
    However, after a ten year period a congressional conference 
committee eliminated the percent set aside for State and local grants, 
while incorporating a provision that required no less than 40 percent 
be dedicated to Federal land acquisition. Therefore, with the 
elimination of any percentage dedicated to State and local outdoor 
recreation grants the amount for State and local grants declined and 
the Federal percentage increased over the years. This is the primary 
reason there is a common misconception among many that LWCF is merely a 
Federal land acquisition program. We want to emphasize this was not 
true in the beginning of the program and it is certainly not true 
today. We are proud the dollar-for-dollar matching grant of the State 
Assistance Program requires a strong commitment from States and local 
governments to support construction of outdoor recreation projects and 
to operate and maintain them forever.
    The State Assistance Program requires that the ongoing maintenance 
of these areas are the responsibility of the State and local partner in 
perpetuity. This is a real deal for the citizens of the Nation, as the 
Federal Government encourages the development of outdoor recreation 
through these 50 percent matching grants and the citizens benefit from 
convenient access to these close to home areas. One additional benefit 
is the areas developed and maintained through program remains the 
property of the State or local government, but the resources developed 
through the LWCF remain publicly accessible in perpetuity and are 
protected as such by the LWCF Act.
    In summary, we thank the committee for their on-going support of 
LWCF which provides close-to-home recreation access for our Nation's 
citizens and we look forward to our continued partnership with the 
National Park Service in administering the program.

    [This statement was submitted by Lauren S. Imgrund, Pennsylvania 
State Liaison Officer; President, National Association of State Liaison 
Officers.]
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
                              introduction
    On behalf of the National Congress of American Indians (NCAI), we 
would like to acknowledge the steadfast work undertaken and attention 
paid by the Members of this subcommittee to uphold the Federal trust 
and treaty obligations funded in this appropriations bill. As the most 
representative organization of American Indian and Alaska Native 
Tribes, NCAI serves the broad interests of Tribal governments across 
the Nation. As Congress considers the fiscal year 2018 budget, we call 
on decision-makers to ensure that the promises made to Indian Country 
are honored in the Federal budget. This testimony addresses the Bureau 
of Indian Affairs (BIA), Indian Health Service (IHS), and Tribal 
programs in the Environmental Protection Agency (EPA). The fiscal year 
2017 Omnibus included hard-fought increases for BIA, Bureau of Indian 
Education (BIE), IHS, and other core Tribal government programs. We are 
hopeful that the fiscal year 2018 final Interior appropriations bill 
will build on the investments made in Indian Country in the fiscal year 
2017 Omnibus.
                      federal trust responsibility
    The relationship between Tribal nations and the Federal Government 
is unique and founded on mutual promises. Indian treaties have the same 
status as treaties with foreign nations, and because they are made 
under the US Constitution are ``the supreme law of the land.'' Treaties 
and laws have created a fundamental contract between Indian Nations and 
the United States: Tribes ceded millions of acres of land that made the 
US what it is today, and in return Tribes have the right of continued 
self-government and the right to exist as distinct peoples on their own 
lands. That fundamental contract--the Federal trust relationship--
ensures that Tribal governments receive funding for basic governmental 
services. As governments, Tribes must deliver a wide range of critical 
services, such as health, education, workforce development, first-
responder, and public safety services, to their citizens. The 
obligations to Tribes and their citizens funded in the Federal budget 
reflect the trust responsibility. Importantly, these programs are not 
based on race or ethnicity but rather on the centuries-long political 
relationship between Tribal communities and the United States.
    Due to fluctuations in Federal funding and the uncertain budget 
process, many Tribes have faced continued emergencies in meeting the 
public service needs of their citizens.\1\ Funding decisions by the 
Administration and Congress are an expression of our Nation's policy 
priorities, and the Federal budget for Tribal governmental services 
reflects the extent to which the United States honors its obligations 
to Indian people.
---------------------------------------------------------------------------
    \1\ See NCAI Resolution ATL-14-084.
---------------------------------------------------------------------------
               tribal growth benefits states and regions
    While the Federal treaty and trust relationship calls for Federal 
funding of education, healthcare, and other government services, 
upholding Indian treaty and trust obligations is also an important 
component of Tribal and surrounding regional economies.
    Economists have found that Tribal economic growth leads to economic 
growth in surrounding regions. Tribal economic activity produces 
regional multiplier impacts for the off-reservation economy.\2\ 
Economic research on Tribal colleges, timber, procurement, and casinos 
has shown direct, indirect, and induced impacts on gross regional 
product and employment.\3\ Well-functioning governments are essential 
to market economies. Governments provide local and national public and 
quasi-public goods that the private sector would otherwise under 
provide,\4\ such as public safety and justice--essential for conducting 
business on reservations and Tribal lands. In addition, Federal and 
Tribal governments fund public investments in core infrastructure, such 
as roads, bridges, and water and sanitation systems that provide high 
economic rates of return.\5\ Such core infrastructure in Indian Country 
has faced insufficient public investment for decades. Additionally, 
noncore public investments, such as early childhood education, early 
childcare, healthcare, and a range of human services, provide at least 
as much of a near-term economic boost as core infrastructure.\6\
---------------------------------------------------------------------------
    \2\ Croman, K. S., & Taylor, J. B. (2016). ``Why beggar thy Indian 
neighbor? The case for Tribal primacy in taxation in Indian country.'' 
Joint Occasional Papers on Native Affairs (JOPNA 2016-1). Tucson, AZ 
and Cambridge, MA: Native Nations Institute and Harvard Project on 
American Indian Economic Development.
    \3\ Ibid.
    \4\ Hackbart, M., & Ramsey, J. R. (2002). The theory of the public 
sector budget: An economic perspective. Budget Theory in the Public 
Sector, 172.
    \5\ Bivens, J. and Blair H. (2016). A public investment agenda that 
delivers the goods for American workers needs to be long-lived, broad, 
and subject to democratic oversight.
    \6\ Ibid.
---------------------------------------------------------------------------
                        bureau of indian affairs
    On May 23, the administration released its detailed fiscal year 
2018 budget request. Themes in this budget include shifting Federal 
costs to other governments (including Tribes, States, and localities). 
The fiscal year 2018 budget for Indian Affairs would be $2.48 billion, 
a decrease of $371.7 million below the fiscal year 2017 Omnibus level, 
a decrease of about 13 percent. Compared to the fiscal year 2017 
annualized CR, the cut is 10.9 percent. Operation of Indian Programs 
would receive $2.1 billion in the President's budget, a decline of 11 
percent compared to the fiscal year 2017 Omnibus level and 8 percent 
compared to the fiscal year 17 CR. Tribal Priority Allocations would be 
cut by 12.7 percent relative to the fiscal year 17 CR level. Bureau of 
Indian Education (BIE) would be cut by $105.1 million, 11.8 percent 
less than the fiscal year 17 Omnibus and $64.3 million and 7.6 percent 
less than the fiscal year 2017 CR.
    The President's budget would eliminate many programs identified by 
Tribal leaders as critical to Tribes across the Nation, including: the 
Housing Improvement Program (HIP), $8 million; Tribal Climate 
Resilience, $9.9 million; Alaska Native Programs, $1 million; Small and 
Needy Tribes, $1.8 million; Special Higher Education Scholarships, $2.7 
million; Science Post Graduate Scholarship Fund, $2.4 million; Juvenile 
Detention Center Education program, $499,000; Replacement School 
Construction, $45.4 million; Replacement Facility Construction, $11.9 
million. We request that Congress reject these eliminations, not only 
because the reductions undercut the Federal trust responsibility, but 
also run counter to the program areas identified as important by Tribal 
leaders themselves during budget consultations. Nine out of twelve 
regions during budget formulation in March 2017 identified scholarships 
as a top five program in need of increases (out of all the line items 
in the BIA budget). Half of all BIA regions identified HIP as a top 
five priority.
    In addition to eliminations, the administration's budget also 
proposes drastic cuts to programs identified as critical to Indian 
County. For instance, the President's budget cuts Human Services 
overall by $35.2 million compared to the fiscal year 17 Omnibus (a 22 
percent cut), in programs that provide social services, welfare 
assistance, and Indian Child Welfare Act protections. The reductions 
largely reflect elimination of funding for pilot programs for the 
Tiwahe initiative. Several of the top TIBC budget priorities reviewed 
in the BIA budget formulation are programs included in the Tiwahe 
initiative, including Social Services. Tribal leaders expressed strong 
support for programs that are a part of this initiative because of its 
goals of reducing poverty, domestic violence, and substance abuse, 
which in turn makes for safer communities. The integrated programming 
to addressing interrelated problems represents a promising approach to 
complex problems in Indian Country, breaking down silos to meet the 
needs of families and communities.
    Many of the programs involved in this initiative have not had 
funding increases for years (except in the fiscal year 2017 Omnibus 
bill), and they remain top programs in fiscal year 2018 and 2019. 
Notably, all Tribes received recurring base increases under the 
initiative. Non-pilot Tribes stand to gain from learning best practices 
that will be documented and shared by the pilot Tribes in addressing 
issues that affect most Tribes throughout the Nation, such as 
intervention and prevention, improving case management, strengthening 
partnerships with providers, and increasing access to family and social 
services to ultimately improve health, safety, and well-being.
    The President's budget proposes $326 million for Law Enforcement, a 
reduction of $21.4 million, or a 6 percent cut compared to the fiscal 
year 17 CR. Proposed reductions include $3 million for the pilot 
program to reduce recidivism, which was completed in 2017 and $10 
million provided to conduct Tribal courts assessments located in Public 
Law 83-280 States. Tribal Courts would be reduced by $6 million, which 
eliminates increases provided under the Tiwahe initiative. BIA recently 
conducted an analysis of law enforcement and detention needs pursuant 
to the Tribal Law and Order Act, and found that the total need for 
basic law enforcement and detention services in Indian country is $1 
billion. This estimate includes Tribes without regard to whether they 
are located in a Public Law 280 jurisdiction. Given the inadequacy of 
current funding levels, the BIA has had a policy for many years to 
generally provide law enforcement and detention funding only to Tribes 
in non-Public Law 280 jurisdictions. This has left Tribes in many areas 
completely without BIA support for Tribal police and detention needs. 
We ask Congress to commit to fully funding Tribal law enforcement and 
detention within the next 5 years by incrementally increasing funding 
each year.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    If this budget were enacted for BIA, the overall funding provided 
for BIA would be lower than any level in the last 15 years, when 
adjusted for inflation. The 2017 BIA funding level is 6 percent below 
the comparable 2010 level after adjusting for inflation. In 2018, those 
cuts would grow to 20 percent. These reductions are untenable and 
absolutely break the trust responsibility to Indian Tribes. We urge 
this subcommittee to continue its bipartisan effort to meet the Federal 
obligations for Indian Country.
                               education
    The budget request would temporarily suspend funding for BIE school 
Construction and cuts construction funding from $57.8 million to $80.2 
million, more than 40 percent below fiscal year 2017 funding levels; 
and cut the Indian School Equalization Program (ISEP), the core program 
for operation of BIE, by $2.4 million to a proposed $398.8 million. The 
budget request also would reduce funding for the Johnson O'Malley 
Program, another top ranked program by Tribes, by $4.6 million, a 
reduction of more than 30 percent, to $10.2 million. We urge this 
subcommittee to reject these proposed cuts to education, reductions 
which would significantly undermine opportunities for Native students.
                            road maintenance
    NCAI appreciates the increase of $3.6 million for Road Maintenance 
for a total of $30.3 million in the fiscal year 2017 Omnibus bill. The 
administration's budget would only fund Roads Maintenance at $28.1 
million. We urge Congress to restore funding at least to the fiscal 
year 2017 Omnibus level. Most BIA regions have identified that this 
program requires additional increases to meet unmet needs. Currently, 
BIA needs approximately $290 million per year to maintain BIA-owned 
roads and bridges to an adequate standard.
                           natural resources
    The fiscal year 2018 budget proposes untenable cuts for many Tribal 
natural resource programs: Rights Protection Implementation (-$11 
million or 28 percent compared to the fiscal year 2017 Omnibus), Tribal 
Management and Development (-$2 million compared to the fiscal year 
2017 Omnibus), Forestry (-$5 million, a 10 percent cut), and Fish-
Wildlife-and-Parks (-$2.8 million, an 18 percent cut). Tribal 
representatives on the Tribal Interior Budget Council have expressed 
strong support for these programs throughout the 2018 budget 
consultation meetings and NCAI urges Congress to reject these deep cuts 
to Tribal natural resource programs.
  economic contributions and value added of federal treaty and trust 
                             responsibility
    Federal funding that meets Federal Indian treaty and trust 
obligations also provide significant contributions to the economy. In 
just the Department of the Interior, the Bureau of Indian Affairs (BIA) 
and Bureau of Indian Education (BIE) ``contribute substantially to 
economic growth in Tribal areas. . . .'' \7\ In fiscal year 2012, 
Indian Affairs ``contributed over $14 billion in value added, $18 
billion in economic activity and supported nearly 93,000 jobs, many of 
them on Indian lands.'' \8\ Value added is the contribution of an 
activity to overall Gross Domestic Product (GDP). Indian Affairs 
specific funding to support Tribal governments provided value added of 
$0.9 billion and economic contributions of $1.2 billion. These 
estimates for GDP included energy, minerals, forestry, irrigation, 
support for Tribal government, and loan guarantees. Education and 
public safety also provide significant social and economic benefits 
that are difficult to measure. Justice service programs provide 
economic benefits of: protection of property rights, support of health 
and safety, lower medical costs from crime, human capital development, 
and other positive spillover effects.
---------------------------------------------------------------------------
    \7\ U.S. Department of the Interior, Economic Report, fiscal year 
2012, July 29, 2013.
    \8\ Ibid.
---------------------------------------------------------------------------
                         indian health service
    NCAI thanks the subcommittee for including increases for IHS in the 
fiscal year 2017 Omnibus bill of $232.3 million over the fiscal year 
2016 enacted amount. For fiscal year 2018, the Tribal Budget 
Formulation Workgroup requested $7.1 billion for IHS. NCAI supports the 
requests of the Workgroup and the National Indian Health Board. NCAI 
appreciates the bipartisan support for the Indian Health Service budget 
in Congress and we look forward to ongoing support for the IHS budget 
in providing much needed increases for the IHS budget.
                    environmental protection agency
    Tribes and States are the primary implementers of environmental 
programs. Program capacity building is a top environmental priority 
identified by Tribes as part of the EPA National Tribal Operations 
Committee National Tribal Caucus. The Indian General Assistance Program 
(IGAP) is unique among Federal programs in that it provides a 
foundation which Tribes can leverage to support other greatly-needed 
programs. GAP funding is particularly critical to Alaska Native 
villages, where it provides 99 percent of the overall funding to 
address their fundamental and often dire needs, such as safe drinking 
water and basic sanitation facilities. NCAI urges the subcommittee to 
protect this funding against cuts in fiscal year 2018.
                               conclusion
    Thank you for this opportunity to share our concerns on programs 
that fulfill treaty and trust obligations in the Federal budget. We 
look forward to working with this subcommittee on a bipartisan basis 
once again this year.
                                 ______
                                 
      Prepared Statement of the National Ground Water Association
    The National Ground Water Association (NGWA) requests that $5 
million be allocated in the fiscal year 2018 Interior, Environment & 
Related Agencies appropriations bill to the United States Geological 
Survey (USGS) Groundwater and Streamflow Information Program to 
continue implementation and maintenance of a national groundwater 
monitoring network (NGWMN).
    In addition to funding, NGWA is also requesting eligibility of the 
cooperative grant funding be expanded to Tribes, as well as State and 
local governments. Tribes are currently able to provide data, but are 
not eligible to receive funding to help create and/or maintain a 
groundwater monitoring network.
    NGWA is the world's largest association of groundwater 
professionals, representing public and private sector engineers, 
scientists, water well contractors, manufacturers, and suppliers of 
groundwater related products and services. NGWA maintains that 
management of groundwater resources should be a coordinated effort 
between Federal, State and local governments based on the strengths of 
each government level, the best science available, and the nature of 
the resource. The NGWMN is a great example of cooperation between 
levels of government, in order to manage and protect a vital natural 
resource.
    Water is one of the most critical natural resources to human, 
ecosystem and economic survival. Nationally, over 40 percent of the 
drinking water supply comes from groundwater and, in some locations, it 
is relied on by 80 percent of Americans for drinking water. Groundwater 
also serves as a key source of agricultural irrigation water.
    While the health of the American people and our Nation's economic 
prosperity depends on groundwater, no systematic nationwide monitoring 
network is in place to measure what is currently available and how 
groundwater levels and quality may be changing over time.
    As with any valuable natural resource, our groundwater reserves 
must be monitored to assist in planning and minimizing potential 
impacts from shortages or supply disruptions. Just as one cannot 
effectively oversee the Nation's economy without key data; one cannot 
adequately address the Nation's food, energy, economic, and drinking 
water security without understanding the extent, availability and 
sustainability of a critical input--groundwater.
    Congress acknowledged the need for enhanced groundwater monitoring 
by authorizing a national groundwater monitoring network with passage 
of Public Law 111-11 (Omnibus Public Land Management Act) in 2009, the 
SECURE Water Act, and viability of the network was proven through the 
completion of pilot projects in six State--Illinois, Indiana, 
Minnesota, Montana, New Jersey, and Texas. These States voluntarily 
pilot tested concepts for a national groundwater monitoring network as 
developed by the Federal Advisory Committee on Water Information's 
(ACWI) Subcommittee on Ground Water (SOGW).
    Following completion of the pilots and reports on the viability of 
the NGWMN, congressional support for the network has enabled national 
implementation of the program:

  --Fiscal year 2015: $2.6 million
  --Fiscal year 2016: $3.6 million
  --Fiscal year 2017: $4.1 million

    However, national implementation has no yet been achieved. To date, 
only 22 grants have been awarded to State and local agencies, with the 
third round of awards currently pending.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While continuing support for the NGWMN is requested at this time, 
it is important to note that the requests will be finite once all 
States are connected to the network. From there, the costs of ongoing 
maintenance of the network are expected to be minimal.
    Once implemented nationwide, the NGWMN would provide consistent, 
comparable nationwide data that would be accessible through a public 
web portal for Federal, State, local government and private sector 
users. In these tight fiscal times, the proposed network would build on 
existing State and Federal investments, maximizing their usefulness and 
leveraging current dollars to build toward systematic nationwide 
monitoring of the groundwater resource.
    Funding from the NGWMN will be used for two purposes:

    1.  Provide grants to regional, State, and Tribal governments to 
cost share increased expenses to upgrade monitoring networks for the 50 
States to meet the standards necessary to understand the Nation's 
groundwater resources. Activities funded include: site selection, web 
services development, well drilling, well maintenance, among others.
    2.  Support the additional work necessary for USGS to manage a 
national groundwater monitoring network and provide national data 
access through an Internet web portal.

    A selection of State projects funded is listed below to demonstrate 
to type of work being funded by Congress in the first rounds of 
cooperative agreements.

  --Alaska Department of Natural Resources received funding to become a 
        data provider, serving water level data to the portal. In 
        addition, funding is received to do well maintenance and well 
        drilling.
  --Minnesota Pollution Control Agency received funds to re-establish 
        web services to provide data to the network and expand coverage 
        across all of the States principal aquifers.
  --South Carolina Department of Natural Resources received funding to 
        set-up web services to provide water level data to the NGWMN.
  --Texas Water Development Board received funding to select and 
        classify water quality wells and incorporate them into the 
        NGWMN.

    A complete list of all cooperative agreements funded is available 
for fiscal year 2015 and fiscal year 2016. Each recipient of funding 
must also provide USGS a report, following the conclusion of the 
funding period.
    Though the amount of funding requested is small in the context of 
the Department of Interior's annual budget request, funding is vital 
considering that, for a small investment, we can begin finally to put 
in place adequate monitoring of the hidden resource that provides over 
40 percent of the Nation's drinking water supply and serves as a key 
driver for our agricultural economy.
    Thank you for your consideration of this request. With questions or 
in request of additional information, please contact Lauren Schapker, 
NGWA Government Affairs Director, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d2bea1b1bab3a2b9b7a092bcb5a5b3fcbda0b5fc">[email&#160;protected]</a>

    ----------------------------------------------------------------

    The National Ground Water Association is a not-for-profit 
professional society and trade association for the groundwater 
industry. NGWA is the largest organization of groundwater professionals 
in the world. Our more than 11,000 members from all 50 States and 72 
countries include some of the leading public and private sector 
groundwater scientists, engineers, water well contractors, 
manufacturers, and suppliers of groundwater related products and 
services. The Association's vision is to be the leading community of 
groundwater professionals that promotes the responsible development, 
use and management of groundwater resources.

    ----------------------------------------------------------------

                                 ______
                                 
         Prepared Statement of the National Humanities Alliance
    Mr. Chairman and Members of the subcommittee:

    On behalf of the National Humanities Alliance, with our nearly 200 
member organizations, I write to express strong support for the 
National Endowment for the Humanities (NEH).
                                overview
    For fiscal year 2018, we respectfully urge the subcommittee to fund 
the National Endowment for the Humanities at $155 million.
    We would like to thank the subcommittee for appropriating $149.8 
million to the NEH for fiscal year 2017, thereby increasing the 
Endowment's funding by nearly $2 million for the second consecutive 
year. These increases are critical steps in rebuilding the capacity of 
the NEH, which has been severely eroded in recent years. Despite the 
recent increases, the Endowment's current funding is 20 percent below 
its fiscal year 2010 level, when adjusted for inflation. Modestly 
increasing the NEH's budget to $155 million would allow the Endowment 
to regain its capacity to support the humanities at a time when the 
humanities are increasingly called upon to meet national needs.
    While we recognize the seriousness of the fiscal situation faced by 
Congress and the Administration, and we understand the difficult 
choices that are before this subcommittee, we believe that expanding 
the capacity of the NEH should continue to be a priority. In the 
remainder of this testimony, I will highlight some of the many ways 
that the NEH serves national needs and helps accomplish critical 
national goals.
                       neh serves national needs
    The National Endowment for the Humanities' funding is distributed 
to the Federal/State Partnership, which supports humanities councils in 
every State and territory; Competitive Grants divisions, which award 
peer-reviewed grants in research, education, preservation, digital 
humanities, challenge grants, and public programs; and the Common Good 
Initiative, which harnesses the power of the humanities to address 
society's pressing challenges. I will highlight just five examples of 
how NEH grants serve clear national needs.
    1.  The NEH's Standing Together program aids veterans' 
        reintegration into civilian life and deepens public awareness 
        of the experience of war.
          For the past 4 years, the NEH has supported innovative 
        programs that harness the power of the humanities to serve 
        veterans. Increased appropriations over the past 2 years have 
        been critical to expanding these programs, although much unmet 
        demand continues to exist. In fiscal year 2017, the NEH 
        introduced the Dialogues on the Experience of War program, 
        which supports community discussion groups for veterans and 
        their families. The NEH awarded one of these grants to a 
        faculty member at the University of Oklahoma to develop a 
        course for past, current, and future (ROTC) service members. 
        Through an exploration of the history and literature of war, 
        the course encourages veterans to express thoughts on the 
        experience of war.
          Other efforts funded through the Standing Together initiative 
        include writing programs for veterans suffering from PTSD; 
        intensive college-preparation programs; and training for 
        Veterans Affairs staff to help them understand the experiences 
        of veterans.
    2.  The NEH plays a key role in the preservation of native 
        languages and cultures.
          The NEH supports the documentation and teaching of native 
        languages, history, and culture. A 2016 grant to the North 
        Slope Borough Department of Inupiat History allowed it to work 
        together with the Inupiat Heritage Center Museum to properly 
        conserve seven paintings depicting the traditions and history 
        of the Inupiat people. These paintings, in conjunction with an 
        ongoing oral history project, help pass the Inupiat culture to 
        the next generation. Another 2016 grant was awarded to the 
        Cankdeska Cikana Community College in Fort Totten, North Dakota 
        to develop a curriculum on Dakota literature and oral history, 
        preserve the Dakota language, and increase outreach efforts to 
        the broader community.
          The NEH's Office of Challenge Grants, meanwhile, awarded 
        funding to the Northwest Indian College in Bellingham, 
        Washington to develop programs to preserve the culture and 
        revitalize the language of the Salish people. These are just 
        three examples of NEH's long-term commitment to sustaining, 
        revitalizing, and preserving Native American languages and 
        cultures.
    3.  The NEH is the only entity, Federal or private, with a national 
        mandate to ensure that support for the humanities serves all 
        Americans.
          Through NEH on the Road, the NEH brings museum exhibitions to 
        underserved regions, making use of existing exhibitions from 
        larger museums to efficiently provide high-quality exhibitions 
        to communities across the country. More than half of the 
        communities served have fewer than 50,000 residents. For 
        example, in Red Cloud, Nebraska, a community of only 1,020, 
        more than 3,000 people saw Our Lives, Our Stories: America's 
        Greatest Generation. The exhibit traveled to 23 other locations 
        including Excelsior Springs and Fulton, Missouri and Fairmont, 
        West Virginia. Additionally, between 2012 and 2023, For All The 
        World To See: Visual Culture and The Struggle for Civil Rights, 
        will travel to a total of 50 sites, including in Boise, Idaho, 
        Park City, Utah, and Belton, Texas.
          To ensure a wide reach, the NEH has also dedicated funding 
        lines for innovation in humanities curricula in community 
        colleges, HBCUs, Hispanic-Serving Institutions, and Tribal 
        Colleges. A recent grant to Columbus State Community College in 
        Columbus, Ohio, funds the development of a course on the 
        history of Western medicine, disease, and public health, the 
        first such general education course taught at a community 
        college. This course is specifically designed for students 
        interested in medical fields to afford an understanding of the 
        social, political, and cultural dimensions of disease.
    4.  The NEH safeguards our historical and cultural legacies
          With small grants to historical societies, historic sites, 
        archives, and town and county record offices around the 
        country, the NEH ensures that local historical documents and 
        artifacts are preserved under the proper conditions and 
        accessible in the long-term. For example, the NEH recently 
        awarded a grant to Scarborough Library at Shepherd University 
        to assess the preservation of memorabilia, photographs, books, 
        scrapbooks, correspondence, and maps related to the history of 
        Shepherdstown, West Virginia. A 2016 grant of just $2,035 
        funded the purchase of equipment to monitor the environmental 
        conditions for the collections at the Hockaday Museum of Art in 
        Kalispell, Montana, thereby enabling the preservation of the 
        history and art of Glacier National Park.
          In a massive undertaking, the NEH is also enabling the 
        digitization of historical newspapers from around the country 
        through the National Digital Newspaper Program. For example, in 
        2016, NEH awarded a grant to the Alaska Division of Libraries, 
        Archives, and Museums to digitize 100,000 pages of historic 
        Alaska newspapers published between 1866 and 1922. To date, the 
        NEH has provided support for the digitization of approximately 
        11 million pages of newspapers published between 1690 and 1963 
        --making these resources accessible for scholars, students, and 
        anyone interested in researching local history or genealogy.
          NEH also supports the publication of the documents associated 
        with important historical figures and events and ensures that 
        these documents are widely accessible. For example, a 2016 
        grant to the University of Tennessee supported the publication 
        of the papers of President James Polk and the development of an 
        online portal that provides free and convenient access to 
        students, teachers, and the public. Another recent grant 
        supported the University of Southern Mississippi's digitization 
        and online publication of 483 interviews documenting the Civil 
        Rights Movement in Mississippi.
    5.  With a modest investment, the NEH stimulates private, local 
        investment in the humanities and cultivates tourism.
          NEH matching grants over the last 50 years have generated 
        more than $4 billion in non-Federal donations to humanities 
        projects and institutions. The NEH's investments in museums, 
        historic sites, research, and the preservation of historic 
        artifacts have played a key role in developing local cultural 
        heritage tourism economies, which attract 78 percent of all 
        leisure travelers. Over several decades, for example, the NEH 
        has supported the development of new exhibitions at Thomas 
        Jefferson's Monticello. These grants have had an outsized 
        impact on the local economy as Monticello welcomes nearly 
        400,000 annual visitors, 93 percent of whom are from outside 
        Virginia and 50 percent of whom stay in a hotel for at least 
        one night adding at least $13.1 million to the local economy.

    In addition to these highlighted programs, each year the NEH awards 
hundreds of competitive, peer-reviewed grants to individual scholars 
and a broad range of nonprofit educational organizations around the 
country. Grantees include universities, two- and four-year colleges, 
humanities centers, research institutes, museums, historical societies, 
libraries, archives, scholarly associations, K-12 schools, local 
education agencies, public television/film/radio producers, and more. 
Through its competitive grants programs, the NEH supports the 
preservation of collections that would be otherwise lost, path-breaking 
research that brings critical knowledge to light, programs for teachers 
that enrich instruction in schools, and public programs that reach 
individuals and communities in every district in the country.
    Overall, the NEH's support is crucial for building and sustaining 
humanities' infrastructure in all 50 States, serving American citizens 
at all stages of life.
                               conclusion
    We recognize that Congress faces difficult choices in allocating 
funds in this and coming years. We ask the subcommittee to consider 
modestly increased funding for the humanities through the NEH as an 
investment in opportunity for all Americans, innovation and economic 
growth, and strengthening our communities. Thank you for your 
consideration of our request and for your past and continued support 
for the humanities.

    Founded in 1981, the National Humanities Alliance advances national 
humanities policy in the areas of research, preservation, public 
programming, and teaching. Nearly 200 organizations are members of NHA, 
including scholarly associations, humanities research centers, 
colleges, universities, and organizations of museums, libraries, 
historical societies, humanities councils, and higher education 
institutions.

    [This statement was submitted by Stephen Kidd, Executive Director.]
                                 ______
                                 
  Prepared Statement of the National Indian Child Welfare Association
    The National Indian Child Welfare Association (NICWA) is a national 
American Indian/Alaska Native (AI/AN) nonprofit organization. NICWA has 
provided leadership in the development of public policy that supports 
Tribal self-determination in child welfare and children's mental health 
systems for over 30 years. This testimony will provide funding 
recommendations for the following programs administered by the Bureau 
of Indian Affairs (BIA) in the Department of the Interior: Indian Child 
Protection and Family Violence Prevention grant programs ($43 million), 
Social Services ($50 million), Welfare Assistance ($80 million), Indian 
Child Welfare Act On or Near Reservation Program grant program (Tribal 
Priority Allocation--$20 million), and Indian Child Welfare Act Off-
Reservation Program grant program ($5 million).
    In order for AI/AN children to have the full protections and 
supports they need, Congress must appropriate adequate funds to the 
basic child welfare programs and services that Tribal communities, like 
all communities, need. States also rely on Tribes to help them provide 
appropriate child welfare services to AI/AN children and families that 
fall under their jurisdiction.\1\ This includes partnering on 
investigations of child abuse and neglect reports, building case plans 
for families, providing culturally based family services, and securing 
appropriate out-of-home placements. Investments in these programs will 
reduce preventable trauma to children and families, reduce future 
expenditures for more expensive and intrusive services, and decrease 
long-term involvement with the child welfare system.
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office. (2005). Indian Child 
Welfare Act: Existing information on implementation issues could be 
used to target guidance and assistance to States. Retrieved from http:/
/www.gao.gov/new.items/d05290.pdf.
---------------------------------------------------------------------------
    The recommendations below suggest funding increases that will 
provide Tribal communities with sufficient child welfare funding, avoid 
unnecessary restraint on local Tribal decisionmaking, and support 
established State and Tribal partnerships dedicated to the protection 
of AI/AN children.
                    priority program recommendation
    BIA Indian Child Protection and Family Violence Prevention Act 
Recommendation: Appropriate for the first time $43 million for the 
three discretionary grant programs under this law--$10 million for the 
Indian Child Abuse Treatment Grant Program, $30 million for the Indian 
Child Protection and Family Violence Prevention Grant Program, and $3 
million for the Indian Child Resource and Family Service Centers 
Program to protect AI/AN children from child abuse and neglect. Despite 
overwhelming need these grant programs have never been appropriated 
funds since their inception in 1990.
    The Indian Child Protection and Family Violence Prevention Act 
(ICPFVPA), Public Law No. 101-630 (1990), was enacted to fill gaps in 
Tribal child welfare services--specifically child protection and child 
abuse treatment--and to ensure better coordination between child 
welfare and domestic violence programs. The act authorizes funding for 
two Tribal programs: (1) the Indian Child Protection and Family 
Violence Prevention Program, which funds prevention programming as well 
as investigation and emergency shelter services for victims of family 
violence; and (2) the Treatment of Victims of Child Abuse and Neglect 
program, which funds treatment programs for victims of child abuse. It 
also authorizes funding to create Indian Child Resource and Family 
Service Centers in each of the BIA regional areas. These centers would 
provide training, technical assistance, and consultation to Tribal 
child protection programs.
    There is an incredible need for family violence prevention and 
treatment resources in AI/AN communities. As recently recognized by 
Congress in the Violence Against Women Reauthorization Act of 2013, AI/
AN women are more likely than any other population to experience 
intimate partner violence. In fact, more than one in three AI/AN women 
experience intimate partner violence at some point in their lives.\2\ 
Further, AI/AN children experience child abuse and neglect at an 
elevated rate. They are victims of child maltreatment at a rate of 13.8 
per 1,000, compared to the national rate of 9.2 children per 1,000.\3\ 
These problems are intricately intertwined. Studies show that in 49-70 
percent of cases, men who abuse their partners also abuse their 
children,\4\ while child abuse investigations reveal violence against 
the mother in 28-59 percent of all cases.\5\
---------------------------------------------------------------------------
    \2\ Black, M. C., & Breiding, M. J. (2008). Adverse health 
conditions and health risk behaviors associated with intimate partner 
violence--United States, 2005. (Table. 1) Morbidity and Mortality 
Weekly Report, 57(5), 113-117.
    \3\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Administration on Children, Youth and 
Families, Children's Bureau. (2015). Child maltreatment 2015. 
Rockville, MD: Author.
    \4\ White Eagle, M., Clairmon, B., & Hunter, L. (2011). Response to 
the co-occurrence of child maltreatment and domestic violence in Indian 
Country: Repairing the harm and protecting children and mothers [Draft] 
(pp. 19-20). West Hollywood, CA: Tribal Law and Policy Institute.
    \5\ Carter, J. (2012). Domestic violence, child abuse, and youth 
violence: Strategies for prevention and early intervention. San 
Francisco, CA: Family Violence Prevention Fund.
---------------------------------------------------------------------------
    Child abuse prevention funding is vital to the well-being and 
financial stability of AI/AN communities. Beyond the emotional trauma 
that maltreatment inflicts, victims of child maltreatment are more 
likely to require special education services, more likely to be 
involved in the juvenile and criminal justice systems, more likely to 
have long-term mental health needs, and have lower earning potential 
than their peers.\6\ Financially, child maltreatment costs Tribal 
communities and the United States $210,012 per victim.\7\ Child abuse 
prevention funding is an investment Tribal communities believe in, but 
need support to fulfill.
---------------------------------------------------------------------------
    \6\ Fang, X., Brown, D. S., Florence, C. S., & Mercy, J. A. (2012). 
The economic burden of child maltreatment in the United States and 
implications for prevention. Child Abuse & Neglect, 36, 156-65. doi: 
10.1016/j.chiabu.2011.10.006.
    \7\ Fang, X., Brown, D. S., Florence, C. S., & Mercy, J. A. (2012). 
The economic burden of child maltreatment in the United States and 
implications for prevention. Child Abuse & Neglect, 36, 156-65.
---------------------------------------------------------------------------
                     other program recommendations
    BIA Welfare Assistance Program: Increase appropriation levels to 
$80 million to support Tribal services that assist families in crisis, 
prevent child neglect, sustain kinship placements for children placed 
outside their homes, support adults in need of care, and provide final 
expenses.
    The Welfare Assistance line item provides five important forms of 
funding to AI/AN families: (1) general assistance, (2) child 
assistance, (3) non-medical institution or custodial care of adults, 
(4) burial assistance, and (5) emergency assistance.
    AI/AN child welfare programs and social service agencies need to 
have the resources necessary to support families in times of crisis and 
uncertainty. AI/AN adults--including parents and kinship caregivers--
are unemployed on reservations at a rate more than two times the 
unemployment rate for the total population.\8\ Thirty-four percent of 
AI/AN children live in households with incomes below the poverty line 
as compared to 20.7 percent of children nationwide.\9\ The crippling of 
Native economies before the self-determination era left Tribal 
communities overwhelmingly impoverished, with few economic 
opportunities and high unemployment. The barriers to employment vary 
region to region in Indian Country, but include geographic remoteness, 
a weak private sector, poor basic infrastructure, and even a lack of 
basic law enforcement infrastructure. These conditions make the 
programs funded under welfare assistance an important safety net for 
AI/AN families.
---------------------------------------------------------------------------
    \8\ Stegman, E., & Ebarb, A. (2010). Sequestering opportunity for 
American Indians/Alaska Natives (Para. 1). Retrieved from Center for 
American Progress website: http://www.americanprogress.org/issues/
poverty/news/2013/11/26/80056/sequestering-opportunity-for-american-
indians-and-alaska-natives.
    \9\ U.S. Department of Health and Human Services, Health Resources 
and Services Administration, Maternal and Child Health Bureau. (2013). 
Child health USA 2012 (p. 9). Rockville, MD: Author.
---------------------------------------------------------------------------
    The General Assistance Program provides short-term monetary 
assistance for basic needs like food, clothing, shelter, and utilities 
to individuals who are actively working towards financial stability and 
ineligible for all other financial assistance programs. The Emergency 
Assistance Program provides a one-time emergency payment of less than 
$1,000 to individuals experiencing property damage beyond their 
control. These programs are essential to families experiencing 
unexpected job loss or financial crisis. They often provide the 
assistance necessary to help a family make ends meet and keep their 
children safely in their home.
    The Child Assistance Program provides payments for AI/AN children 
on Tribal lands who must be cared for outside their homes in foster 
care, adoptive, or guardianship placements and who are not eligible for 
other Federal or State child placement funds.
    The current funding for the Welfare Assistance Program does not 
begin to meet the needs in Tribal communities. This leaves families in 
poverty and caregivers willing to take children who have been abused or 
neglected into their homes without sufficient financial support.
    BIA Indian Child Welfare Act Program: Increase appropriations to 
the Indian Child Welfare Act On or Near Reservation Program grant 
program to $20 million and the Off Reservation grant program to $5 
million.
    The Indian Child Welfare Act (ICWA) was a response to national 
findings that public and private child welfare agencies were 
systematically removing AI/AN children from their homes and communities 
at horrendous rates, often without due process and under questionable 
circumstances. To prevent these troubling practices, which 
unfortunately still occur today, Congress provided protections to AI/AN 
families in State child welfare and judicial systems under ICWA. It 
also recognizes the authority of Tribal nations to provide child 
welfare services and adjudicate child welfare matters. To effectuate 
these provisions, ICWA authorized grant programs to fund child welfare 
services on or near reservations and for ICWA support in off-
reservation, urban Indian programs.
    At the time that ICWA was passed in 1978, Congress estimated that 
between $26 million--$62 million would be required to fully fund Tribal 
child welfare programs on or near reservations.\10\ Even after an 
important fiscal year 2015 increase as part of the Tiwahe Initiative, 
current funding levels fall far short of this estimate--especially 
after adjusting for inflation.
---------------------------------------------------------------------------
    \10\ S. Rep. No. 95-597 (p. 19) (1977).

        Appropriate $5 million for the authorized, but unfunded, Off-
        Reservation ICWA Program to ensure all AI/AN children receive 
---------------------------------------------------------------------------
        effective services as required by ICWA.

    According to the 2010 Census, 67 percent of AI/AN people lived off-
reservation. These children and families are best served when State 
child welfare systems are not only working with the child's Tribe, but 
also with urban Indian child welfare programs. These programs provide 
assistance to States and the child's Tribe, and provide culturally 
appropriate child welfare services. For this reason, ICWA authorizes 
child welfare funding for urban Indian programs. From 1979-1996, 
funding was allocated to urban organizations serving Native children 
and families. When funded, off-reservation programs provided important 
services such as recruitment of Native foster care homes, child abuse 
prevention efforts, and culturally appropriate case management and 
wraparound services. When funding stopped, the majority of these 
programs disintegrated even as the population of AI/AN children off-
reservation increased. This funding must be reinstated.
    BIA Social Services Program: Provide $50 million to fortify child 
protective services and ensure meaningful technical assistance to 
Tribal social service programs across Indian Country.
    The Social Services Program provides a wide array of family support 
services, filling many funding gaps for Tribal programs and ensuring 
Federal staff and support for these programs. Importantly, the Social 
Services Program provides the only BIA and Tribal-specific funding 
available for ongoing operation of child protective services in Indian 
Country. It also funds BIA social workers at regional and agency 
offices, and funds training and technical assistance to Tribal social 
service programs and workers.
    The Social Services Program is drastically underfunded and as a 
result, AI/AN children and families suffer. Recent increases as part of 
the Tiwahe Initiative are to be commended and their momentum must be 
continued. This recommended increase will ensure that basic child 
protective services are provided in Tribal communities across the 
country, that Tribes have access to meaningful training and technical 
assistance, and that the BIA has the resources necessary to fill 
service gaps. The Tribal Interior Budget Council estimated an unmet 
need of $32 million on top of the fiscal year 2015 enacted level during 
Tribal budget formulation for fiscal year 2017.
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources
Chairman Murkowski and Ranking Member Udall:

    Good afternoon. I am Stephen Schoenholtz, Director of the Virginia 
Water Resources Research Center at Virginia Tech. Thank you for this 
opportunity to testify on behalf of National Institutes for Water 
Resources (NIWR), in support of the Water Resources Research Act 
program, a program funded as part of the U.S. Geological Survey's 
(USGS) budget. I specifically want to thank you for the subcommittee's 
strong continuing support for the Water Resources Research Act, and 
request that the subcommittee fund the WRRA program in fiscal year 2018 
at $9 million.
    The Water Resources Research Act, enacted in 1964, is designed to 
expand and provide more effective coordination of the Nation's water 
research. The Act establishes water resources research institutes 
(Institutes) at lead institutions in each State, as well as for 
Washington D.C., Guam, Puerto Rico, the Virgin Islands, the Federated 
States of Micronesia, the Commonwealth of the Northern Mariana Islands, 
and American Samoa.
    Congress created the Institutes to fulfill three main objectives:
  --Develop, through research, new technology and more efficient 
        methods for resolving local, State, and national water 
        resources challenges;
  --Train water scientists and engineers through on-the-job 
        participation in research; and
  --Facilitate water research coordination and the application of 
        research results through dissemination of information and 
        technology transfers.

    Since 1964, the Water Resources Research Institutes have fulfilled 
these three objectives in partnership with the U.S. Geological Survey. 
The Institutes, managed by a director in each State, promote water-
related research, education, and technology transfer at the national, 
State, and local level through grants and sponsored projects. The 
program is the only federally-mandated research network that focuses on 
applied water resource research, education, training, and outreach.
    The Water Resources Research Institutes program is a State-based 
network dedicated to solving problems of water quantity (supply) and 
quality in partnership with universities, local governments, the water 
industry, non-governmental organizations, and the general public. Each 
State contributes a minimum of a 2:1 match if non-Federal funds to 
Federal funds, thus ensuring that local and regional priorities are 
addressed and the impact of Federal dollars is maximized. The 
Institutes are a direct, vital link between Federal water interests and 
needs and the expertise located within the States' research 
universities.
    The Water Resources Research Institutes program also provides a 
mechanism for ensuring State, regional, and national coordination of 
water resources research, education of future water professionals, and 
proper transfer and utilization of results and outcomes. In fact, the 
Institutes collaborate with 150 State agencies, 180 Federal agencies, 
and more than 165 local and municipal offices.
    For more than five decades, the Institutes, in partnership with 
USGS, have provided significant research results and services to our 
Nation and proven successful at bringing new water professionals into 
the work force. Although these projects primarily focus on State needs, 
they also address water issues relevant to our Nation. The following 
are several examples of research conducted by Institutes across the 
country.
    My Institute, the Virginia Water Resources Research Center (VWRRC), 
is a research unit in the College of Natural Resources and Environment 
at Virginia Tech. Planning and sustainable management of surface water 
and groundwater supplies has become a significant issue for Virginia. 
In 2015, the Virginia General Assembly directed their Joint Legislative 
Audit and Review Commission to assess accuracy and effectiveness of 
Virginia's planning and permitting program for sustainable water 
supply. The VWRRC was contracted by JLARC to form an advisory committee 
and to conduct research on the State's sustainability model for 
groundwater in eastern Virginia and for surface water throughout the 
State. A resultant report produced by the VWRRC in 2016 was used by 
JLARC to inform the General Assembly of the effectiveness of current 
efforts to sustainably manage water supplies and to recommend 
considerations for improvements.
    In 2015, Alaska's Sagavanirktok (Sag) River flooded the Dalton 
Highway, cutting off the only overland passage to the Prudhoe Bay 
Oilfields for a period of approximately 3 weeks. Following that event, 
the University of Alaska Fairbanks Water and Environmental Research 
Center has been continuously working with the Department of 
Transportation and Alyeska Pipeline Services Company to understand Sag 
River flood dynamics and reduce the risk of highway and/or pipeline 
damage from future flooding events.
    Researchers with the New Mexico Water Resources Research Institute 
developed an innovative desalination technology to remove organic 
substances and salts from water produced from oil and gas exploration. 
Water in this system can be potentially recycled in the industrial 
process making it more cost-effective. The technology also uses 
bacteria to convert biodegradable pollutants into electricity, which 
offsets operation energy use or supplies additional energy for other 
systems for operators.
    Researchers at the Nevada Water Resources Research Institute are 
studying issues associated with water reuse--a water supply strategy of 
particular importance to water-scarce regions. Work includes 
identifying contaminants, evaluating existing and emerging treatment 
technologies, assessing potential public health and environmental 
health impacts, and outreach to the public.
    Research being funded through the Maine Water Resources Research 
Institute will help determine what remediation efforts might be 
required by drinking water utilities in the wake of an increase in the 
rate and intensity of precipitation events and associated rapid runoff. 
These extreme events wash organic matter into lakes that can ultimately 
cause a buildup of organic carbon that can trigger disastrous algal 
blooms, taste and odor problems, and may form unhealthy by-products. 
Their work will inform the development of management and adaptation 
strategies to ensure sustained high water quality.
    There are two grant components of the USGS Water Resources Research 
Institutes program.
    The State Water Research Grants provide competitive seed grant 
funding opportunities for State water institutes for research 
priorities that focus on State, local, and community water resources 
problems. The study areas span the spectrum of water supply, water 
quality, and public policy issues of water management. These seed 
grants are used to develop future research proposals and secure 
additional external funding.
    The National Competitive Grants program promotes collaboration 
between the USGS and university scientists in research on significant 
regional and national water resources issues and promotes dissemination 
of results of the research funded under this program.
    With our funding and educational services, water-related 
professionals and researchers provide solutions to the many complex 
water management challenges we face, including toxicity in urban 
stormwater runoff, managing aquifer recharge in drought--stricken 
communities, and monitoring and alleviating human and ecological health 
impacts associated with water reuse.
    Our Nation faces growing challenges in providing water for 
agriculture, human consumption, industrial use, and natural resource 
applications. Institutes also use their base grants to help train new 
scientists, disseminate research results to water managers and the 
public, and promote intrastate and regional collaboration. The Water 
Resources Research Institutes serve to build the STEM workforce as we 
enter a period in which there will be a disproportionate number of 
retirements in all sectors.
    For fiscal year 2018, the National Institutes for Water Resources 
recommends the subcommittee provide $9,000,000 to the USGS for the 
Water Resources Research Institute program. We respectfully submit 
that, even in times of fiscal challenges, investing in programs at USGS 
focused on data collection and the reliability and quality of water 
supplies is critically important to the health, safety, quality of 
life, and economic vitality of communities across the Nation.
    Thank you, on behalf of all the Institute directors, for the 
opportunity to testify and for the subcommittee's strong support of the 
Water Resources Research Institutes program.

    [This statement was submitted by Dr. Stephen H. Schoenholtz, 
Director, Virginia Water Resources Research Center.]
                                 ______
                                 
       Prepared Statement of the National Opera Center of America
                            (OPERA America)
    Madam Chairman and distinguished Members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of OPERA 
America, its Board of Directors and its more than 2,000 organizational 
and individual members. We strongly urge the Subcommittee on Interior, 
Environment, and Related Agencies in the Committee on Appropriations to 
designate a total of $155 million to the National Endowment for the 
Arts (NEA) for fiscal year 2018. This testimony and the funding 
examples described below are intended to highlight the importance of 
Federal investment in the arts, so critical to sustaining a vibrant 
cultural community throughout the country.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts. Before the establishment of the NEA in 1965, 
funding for the arts was mostly limited to larger cities. The NEA has 
helped to strengthen regional dance, opera, theater and other artistic 
disciplines that Americans enjoy. NEA funding provides access to the 
arts in regions with histories of inaccessibility due to economic or 
geographic limitations. Not only has every congressional district 
received direct funding from the NEA, but 40 percent of the NEA's 
budget is automatically distributed to State arts councils, reaching 
tens of thousands of audience members and communities across the 
country.
    The NEA envisions a ``nation in which every American benefits from 
arts engagement, and every community recognizes and celebrates its 
aspirations and achievements through the arts.'' The agency has helped 
the arts become accessible to more Americans, which in turn has 
increased public participation in the arts.
    Opera is a continuously growing art form that can address the 
diverse needs and backgrounds of our communities. New opera companies 
are being established in communities that have never before had access 
to live performances. OPERA America's membership includes approximately 
160 professional U.S. company members representing 48 States (including 
DC).
    Opera audiences are growing more diverse. From 2008 to 2012, the 
percentage of African American attendees increased by 59 percent, 
Hispanic attendance grew by 8.3 percent, and those of other non-white 
groups grew by 19.4 percent. During this time period, younger audiences 
have also increased. The 18-24 age bracket grew by 43.2 percent and 
those in the 25-34 bracket grew by 33.8 percent.
    Since 1900, nearly 1,000 new operatic works have been produced by 
professional opera companies in North America. Of that 1,000, 589 
operas premiered between 1995 and 2015. In the 2015-2016 season, 33 
North American operas premiered. The growth in number and quality of 
American opera corresponds directly to the investment of the NEA's 
earlier investment in the New American Works program of the former 
Opera-Music Theater Program.
    Beyond the opera house, opera companies are finding new and 
exciting ways to bring the essence of opera to other local theaters and 
community centers, frequently with new and innovative works that 
reflect the diverse cultures of the cities they serve. Strong 
partnerships with local schools extend the civic reach of opera 
companies as they introduce children to a multi-media art form and 
discover promising young talent.
    The NEA is a great investment in the economic growth of every 
community. Despite diminished resources, including a budget that is $17 
million less than it was in 2010, the NEA awarded more than 2,400 
grants in 2016 in nearly 16,000 communities. These grants nurture the 
growth and artistic excellence of thousands of arts organizations and 
artists in every corner of the country. NEA grants also preserve and 
enhance our Nation's diverse cultural heritage. The modest public 
investment in the Nation's cultural life results in both new and 
classic works of art, reaching the residents of all 50 States and in 
every congressional district.
    In 2016, small-sized organizations (organizations with budgets 
under $350,000 per year) received 30 percent of the NEA's direct grants 
and 40 percent of NEA supported activity took place in high poverty 
neighborhoods.
    The return of the Federal Government's small investment in the arts 
is striking. The Bureau of Economic Analysis (BEA) and the NEA 
developed an ``Arts and Cultural Production Satellite Account'' which 
calculated the arts and culture sector's contributions to the gross 
domestic product (GDP) at 4.2 percent (or $729.6 billion) of current-
dollar GDP in 2014. Additionally, the nonprofit performing arts 
industry generates $135.2 billion annually in economic activity, 
supports more than 4.13 million full-time equivalent jobs in the arts, 
and returns $9.59 billion in Federal taxes (Arts and Economic 
Prosperity IV, Americans for the Arts). It is estimated that the North 
American opera industry injects over $1 billion directly into the 
economy each year.
    On average each NEA grant leverages at $9 from private and public 
funds. Few other Federal investments realize such economic benefits, 
not to mention the intangible benefits that only the arts make 
possible. The NEA continues to be a beacon for arts organizations 
across the country.
    The return on investments is not only found in dollars. In 2012, 
2.2 million people volunteered 210 million hours with arts and cultural 
organizations, totaling an estimated value of $5.2 billion--a 
demonstration that citizens value the arts in their communities.
                           nea grants at work
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities.
    The more than 2,400 grants awarded to nonprofit arts organizations 
and arts programs supported projects that encourage artistic creativity 
and bring the arts to millions of Americans.
    NEA grants are awarded to opera organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In fiscal year 2016, the NEA awarded 66 grants to 
the opera field through the Art Works category, totaling $2,133,000.
The Industry
$12,000
Los Angeles, CA
    To support the premiere of a new multidisciplinary opera, 
``Galileo,'' by composer Andy Akiho. Adapted from Bertolt Brecht's 
play, ``Life of Galileo,'' the work will connect Brecht's text to a 
contemporary aesthetic, exploring new ways of realizing his theatrical 
theories. To draw out the mythical, promethean strands of the play's 
themes, the opera will be staged around an enormous bonfire on a 
stretch of public beach in Santa Monica, near the Santa Monica 
Mountains National Park. Director Yuval Sharon will create a new 
version of Brecht's original work which composer Andy Akiho will set to 
music. The project's multidisciplinary collaborations with a Los 
Angeles-based theater and dance company will continue the 
organization's mission of creating new works that honor the origins of 
the genre while pushing to expand its traditional boundaries.
Opera Theatre of Saint Louis
$90,000
St. Louis, MO
    To support the creation and production of a new performing edition 
of ``The Grapes of Wrath,'' by composer Ricky Ian Gordon and librettist 
Michael Korie. Based on John Steinbeck's 1939 novel of the same name, 
the story follows the Joad family's fight for survival from the Dust 
Bowl in Oklahoma to California during the Great Depression. The opera 
premiered in 2007 as a large-scale production that included three acts, 
nearly 50 featured singers, and a four-hour run-time. The composer and 
librettist developed a shorter, two-act version that required fewer 
performers on stage and will be more accessible to a greater number of 
opera companies for future productions.
Intermountain Opera Bozeman
$10,000
Bozeman, MT
    To support performances of Donizetti's ``The Daughter of the 
Regiment,'' with related audience engagement activities. Educational 
and outreach activities include a public workshop, a performance for 
elementary school students, a class for students at Bozeman High 
School, a class for adults at Montana State University (MSU), and 
master classes for MSU vocal students.
Opera Memphis
$30,000
Memphis, TN
    To support 30 Days of Opera. The fifth year of the initiative will 
be comprised of a month of admission-free opera performances featuring 
an original children's opera, ``pop-up'' style opera performances, and 
masterclasses. Activities will include both structured concerts and 
educational workshops, as well as collaborative performances with 
community organizations.
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties, leaving its programs 
seriously underfunded. The continued bipartisan support for the NEA has 
continued to support artists and audiences, allowing opera and the arts 
to address critical issues, making communities healthier and more 
vibrant. The ``Dear Colleague'' letter in the U.S. House of 
Representatives received a record 154 signatures in support of the NEA.
    We urge you to continue toward restoration and increase the NEA 
funding allocation to $155 million for fiscal year 2018.
    On behalf of OPERA America, thank you for considering this request.

    [This statement was submitted by Marc A. Scorca, president and CEO, 
OPERA America.]
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association
    Chairman Murkowski, Ranking Member Udall and Members of the 
subcommittee, thank you for the opportunity to submit testimony on 
behalf of National Parks Conservation Association (NPCA). Founded in 
1919, NPCA is the leading national, independent voice for protecting 
and enhancing America's National Park System for present and future 
generations. I appreciate the opportunity to provide our views 
regarding the National Park Service (NPS) fiscal year 2018 budget.
    National parks protect America's heritage and deliver robust 
economic returns of $10 in economic benefits nationally for every 
dollar invested in the NPS. The economic value of parks has grown along 
with visitation so that last year, national parks supported nearly $35 
billion in economic activity and 318,000 jobs. NPCA and other polling 
indicates the vast popularity of national parks and strong bipartisan 
support for adequately funding them. And of course they are deeply 
loved by the American people in part because they protect our cultural 
and natural heritage.
    We acknowledge the tremendous challenge the subcommittee faces in 
setting thoughtful spending priorities, so we are grateful for your 
consistent support for national parks. NPCA and our partners in the 
National Parks Second Century Action Coalition commend your 
subcommittee for providing needed increases for the National Park 
Service the last four fiscal years, with a particularly noteworthy 
increase in fiscal year 2016. This will be helpful for parks to try to 
keep up with their funding challenges. As they are still behind where 
they need to be to meet their mission, we urge you to do your best to 
build on this support as the System enters its next century of service 
to the American people.

    Top three fiscal year 2018 Priorities: NPCA requests appropriated 
funding for NPS with a focus on these accounts:

    1.  $2,535,436,369 for `Operation of the National Park System'
    2.  $303,089,287 for `National Parks Construction'
    3.  $30,000,000 for `National Park Partnerships'/Centennial 
Challenge

    These amounts represent a similar increase as that enacted for the 
system's centennial year.

    However, we must note there are other programs critical to NPCA. My 
testimony outlines these and several other issues:

  --The Budget Control Act and need for another budget deal;
  --Park operations and construction funding and their connection to 
        the maintenance backlog;
  --The Centennial Challenge program;
  --The Land and Water Conservation Fund and Historic Preservation 
        Fund;
  --National Heritage Areas;
  --The Federal Lands Recreation Enhancement Act;
  --Policy riders;
  --And the administration's workforce reduction effort.

    Budget Control Act (BCA) and budget process: We've been dismayed to 
see the many challenges to the budget and appropriations process in 
recent years, and the threat and harm they have brought to national 
parks. We were deeply discouraged in fiscal year 2013 when the BCA, due 
to the failure of the Joint Select Committee on Deficit Reduction to 
identify offsets, mandated sequester cuts that were so damaging to 
national park operations that they resulted in shuttered facilities and 
thousands of ranger positions going unfilled. We were consequently 
pleased with the 2-year budget deals that have provided needed relief 
from that indiscriminate and damaging instrument with spending levels 
that are already austere absent the sequester.
    One of our largest concerns now is the need for another budget deal 
to prevent the sequester, and we urge the committee to work with your 
colleagues to ensure a deal. We are urging Congress to reach such a 
deal as a central component of our fiscal year 2018 advocacy.
    The President's fiscal year 2018 budget: Not helpful to fiscal year 
2018 is the extraordinarily damaging president's budget, which if 
enacted would be the largest cut to the park service since WWII. It 
seeks to cut more than 1,200 staff (FTEs), cut park operations by 8 
percent, reduce deferred maintenance funding despite claims to the 
contrary, and much more. The deep cut to EPA threatens the health of 
park air and waters. We urge the subcommittee to wholeheartedly reject 
that deeply flawed proposal.
    The Interior allocation: NPCA believes the allocation provided to 
the subcommittee in recent years has been insufficient and emblematic 
of the austere constraints on domestic discretionary investments. In 
part to address this concern, we continue to urge legislation to 
address the dysfunctional system of catastrophic wildfire funding that 
burdens the Interior allocation. We support a clean fire funding fix, a 
bipartisan solution that would 1) access disaster funding, 2) minimize 
transfers, and 3) address the continued erosion of agency budgets over 
time, with the goal of reinvesting in key programs that would restore 
forests to healthier conditions.
    Further, we feel that the Interior subcommittee allocation is 
unlikely to ever be sufficient to meet the full needs of the Land and 
Water Conservation Fund (LWCF), the National Park System backlog, or 
the Payments in Lieu of Taxes (PILT) and Secure Rural Schools (SRS) 
programs, all of which should receive mandatory funding support outside 
of the Interior bill.
    Park operations and the maintenance backlog: The subcommittee's 
recent increases for maintenance accounts will be very helpful for 
national parks--but we regret to acknowledge that more is needed. After 
adjusting for inflation, fiscal year 2017 levels for park operations is 
still $96 million, or 4 percent below levels in fiscal year 2010, when 
NPCA analysis indicated an annual operations shortfall of approximately 
a half billion dollars. Many parks remain understaffed: between fiscal 
year 2010 and fiscal year 2016, FTEs for the park service were reduced 
by 2,515 FTEs--an 11.3 percent reduction in staff (from fiscal year 
2018 NPS budget justifications). As you know, these losses can be 
damaging, with impacts such as less day-to-day maintenance, less 
scientific inventory and monitoring, reduced hours or even closed 
public facilities, fewer visitor programs, and other challenges to 
parks fulfilling their mission. The challenge is compounded by a 13 
percent increase in visitation over the last 2 years, with some parks 
struggling with much more than that average.
    Support for our request would help address the $11.3 billion 
deferred maintenance backlog. The backlog continues to threaten the 
protection of nationally significant resources and, eventually the 
experience of visitors. Recent increases have been helpful but are 
still insufficient to meet the need. While the backlog is one of our 
highest funding priorities, we do not want a focus on the backlog to 
cause other needed work to fall further behind; therefore, we 
respectfully request broad investments in park operations to address 
cyclic maintenance and repair and rehabilitation, but also, 
importantly, the many operating needs beyond maintenance.
    Construction and the backlog: The NPS construction account is a 
principal mechanism for addressing major repair needs, yet even after 
the fiscal year 2016 increase in that account, it remains $286 million, 
or 58 percent below levels of 15 years ago after adjusting for 
inflation. This is why the requested increase for this account is so 
important to address needed projects throughout the park system.
    Dedicated backlog funding: We respect that it can be very difficult 
to identify budgetary offsets for mandatory programs, yet urge Congress 
to recognize that a more realistic long-term solution is needed to 
address the maintenance backlog. Under current allocations established 
by the BCA, it is difficult to see how this subcommittee will be able 
to address even the highest priority non-transportation facilities' 
needs. We were grateful for the recent opportunity to testify to the 
House Natural Resources Committee on this issue on March 16th, 2017 and 
recommend review of NPCA's testimony submitted for that hearing.
    We are heartened at the bipartisan introduction of the National 
Park Service Legacy Act, S. 751 and H.R. 2584. We're grateful of the 
support of several Interior appropriators for those bills. We urge the 
members of the committee to cosponsor the bill and work with other 
members of Congress and the administration to ensure its passage as a 
standalone bill or as a component of a larger infrastructure package or 
other appropriate bill.
    Centennial Challenge: We commend this subcommittee for restoring 
the Centennial Challenge program in fiscal year 2015, and for the 
increases for the program in fiscal year 2016 and 2017. This support 
has leveraged more than two dollars for every dollar invested for 
signature projects across the National Park System that enhance the 
visiting experience. Many more philanthropic opportunities await, so we 
hope the subcommittee can support the request for an increase in this 
exciting program that enjoys strong bipartisan support. We commend 
Congress for passage of the Centennial Act in the last Congress to 
dedicate funding to that program and to a newly established endowment. 
Given the extraordinary philanthropic interest in the program, 
sustained or increased appropriations would help leverage additional 
philanthropic dollars--a wise investment. We understand the intent of 
the committee in the fiscal year 2018 omnibus report in directing 
Centennial Challenge dollars to focus on deferred maintenance. While we 
commend you on the increase and concur that maintenance is a pressing 
need as outlined above, we fear this could have the effect of competing 
with investments in the many philanthropic-driven projects that improve 
the visiting experience in other ways beyond maintenance.
    Land and Water Conservation Fund (LWCF): The acquisition of 
inholdings is directly related to better managing the places in which 
our nation already has made a significant investment. Thus we urge 
support for the NPS Federal land acquisition and management portion of 
LWCF, a critical tool for protecting our national parks. We were 
pleased the fiscal year 2016 omnibus included better funding for the 
LWCF program and a 3-year reauthorization. However, we were also 
disappointed to see a cut to LWCF in fiscal year 2017, leaving 
insufficient funds for several proposed projects. We urge the 
subcommittee to reject the president's draconian request for this 
account and restore appropriated funding. Additionally, we request 
support for permanent reauthorization of the program through support 
for H.R. 502, which now has more than 160 bipartisan cosponsors.
    Historic Preservation Fund (HPF): The HPF provides the primary 
source of funding for State Historic and Tribal Historic Preservation 
Offices in all 50 States. The HPF also supports the Historic Tax Credit 
program, responsible for the rehabilitation of over 40,000 buildings, 
the creation of 2.5 million jobs and the leveraging of $117 billion in 
private investments in historic preservation projects. We commend the 
committee on the increase for the fund in fiscal year 2017 to $81 
million and request continued support for the program at that level.
    National Heritage Areas (NHAs): NPCA is a strong supporter of the 
National Heritage Area program. The 49 existing NHAs have generated $12 
billion in economic activity and $1.2 billion in tax revenues, and 
generated over 900,000 volunteer service hours. This mighty program 
with a modest budget ($19.8 million in fiscal year 2017) deserves 
support from both Congress and the president. Furthermore, support for 
H.R. 1002 would establish a program structure and provide uniform 
standards for designating, funding and assessing all NHAs.
    Federal Lands Recreation Enhancement Act (FLREA): We appreciate 
this subcommittee has supported short-term extensions of FLREA. 
Reauthorization is critical for NPS to retain needed fee revenue. As 
NPCA continues to support a long-term reauthorization of FLREA with the 
respective authorizing committees, we ask the subcommittee to continue 
support for annual extensions.
    Policy Riders: Efforts to attach environmentally damaging policy 
riders only further threatens the appropriations process, so we were 
grateful that the final fiscal year 2017 bill was largely free of the 
many proposed riders that would have threatened parks, their 
ecosystems, and the health of visitors and wildlife within them. We 
urge continued rejection of efforts to attach damaging riders.
    The Administration's Workforce Reduction Effort: We are deeply 
concerned about the administration's effort to reduce the size of the 
Federal workforce as it relates to the park service and the agencies 
that support it, particularly EPA, which ensures the health of park 
water and air. As noted earlier, parks are already understaffed. We are 
concerned not only about the potential for this process to further 
reduce park service staff but also to eliminate or merge important 
programs and offices. We ask the committee to monitor this exercise and 
remind the administration that these actions are within your 
jurisdiction. One option for such a statement would be through report 
language similar to that provided in the Agriculture section of the 
fiscal year 2017 omnibus report.
    In conclusion: NPCA has emphasized to this subcommittee over the 
years the importance of providing more adequate funding for America's 
treasures. As the subcommittee has acknowledged, the National Park 
Service and System are deeply popular with the American public and are 
important for local economies. As we emphasize the importance of 
providing staff to serve record numbers of visitors, and staff and 
resources to address the repairs backlog, we should not forget the 
profound importance of park sites in preserving and interpreting our 
natural and cultural heritage--a heritage that defines America's very 
identity. This subcommittee has recognized these places as priorities; 
we again commend you for supporting their needs and urge your 
continuing support.
    This subcommittee and its House counterpart have also emphasized 
the importance of a sustainable funding model for NPS. As you know, 
NPCA has long explored concepts that supplement but do not supplant the 
Federal responsibility to appropriate funding for our nation's parks. 
In this spirit, we again urge cosponsorship of the maintenance backlog 
legislation, S. 751.
    Again, respectfully recognizing what we expect will be another 
constrained allocation, we urge you to provide the best funding level 
possible for NPS to help the agency recover from underfunding.
    Thank you for the opportunity to testify.

    [This statement was submitted by John Garder, Director of Budget 
and Appropriations.]
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association
    Thank you Chairwoman Murkowski, Senator Udall, and other honorable 
Members of the subcommittee for the opportunity to submit written 
testimony pertaining to funding for the Land and Water Conservation 
Fund's (LWCF) State Assistance Program and in the fiscal year 2018 
Interior Appropriations bill.
Overview of Funding Request:
    As outlined below, we encourage you to renew the Federal investment 
in the LWCF. However, given that the purpose of the Act is to help 
preserve, develop, and assure access to outdoor recreation facilities 
to strengthen the health of U.S. citizens, we urge you to make a 
greater investment in States and local communities by:
  --Allocating a minimum of 40 percent of fiscal year 2018 LWCF 
        appropriations to the State Assistance Program;
  --If not at least 40 percent overall, than a minimum of $110 million 
        in overall funding for the State Assistance Program, which is 
        consistent with the amount appropriated for fiscal year 2017;
  --Continuing the innovative, ``Outdoor Recreation Legacy 
        Partnership'' (ORLP) competitive grant program in the amount of 
        $12 million; and,
  --Find a permanent solution to fully fund the LWCF at its authorized 
        amount of $900 million, again, with a minimum of 40 percent of 
        annual funding allocated to the State Assistance Program.
About the National Recreation and Park Association:
    The National Recreation and Park Association (NRPA), is a nonprofit 
organization dedicated to the advancement of public parks, recreation 
and conservation efforts nationwide. Our members touch the lives of 
every American in every community every day. Through our network of 
more than 50,000 professional members and advocates we represent park 
and recreation departments in cities, counties, townships, special park 
districts, and regional park authorities, along with citizens concerned 
with ensuring close-to-home access to parks and recreation 
opportunities exist in their communities. Everything we support and do 
leverages their role in conservation, health and wellness, and social 
equity to improve the communities in which they work, play and live.
40 Percent Allocation of Total LWCF Appropriations to the State 
        Assistance Program:
    The LWCF State Assistance Program provides dollar-for-dollar 
matching grants to States and local communities for the construction of 
outdoor recreation projects. The land purchased with LWCF State 
Assistance funding remains the property of the State or local 
government, and the resources developed through the LWCF remain 
publicly accessible in perpetuity.
    The LWCF provides numerous benefits to local communities across 
America, and it does so through a dedicated funding source--namely oil 
and gas leasing revenues from the Outer Continental Shelf (OCS). The 
Bureau of Ocean Energy Management (BOEM) anticipates that a minimum of 
$4 billion will be generated from these leases in 2017 alone, with only 
a small fraction (approximately 10 percent using final fiscal year 2017 
funding levels) provided overall to the LWCF. Unfortunately an even 
more miniscule amount is provided to the State Assistance Program. This 
is in large part due to the fact that current law mandates that a 
minimum of 40 percent of the total LWCF annual appropriations must be 
provided to the Federal land acquisition program without specifying an 
amount for the State Assistance Program. As a result, States and local 
communities have historically received a very disproportionate share of 
the total LWCF appropriations, with less than 15 percent of total LWCF 
funding going to the State Assistance Program since 1998.
    With this as background, we thank you very much for your efforts in 
fiscal year 2016, which led to the highest total appropriation for LWCF 
in years. You also realized that a higher percentage of overall LWCF 
dollars should be allocated to the States for the purpose of meeting 
the ever increasing need for safe and accessible close-to-home 
recreation. The $110 million for State Assistance in fiscal year 2016 
represents approximately one-quarter of overall LWCF appropriations for 
the year.
    For fiscal year 2017, while the overall appropriation for LWCF was 
reduced compared to the previous year, we're grateful that the State 
Assistance Program was maintained at the same $110 million total 
amount.
    While this amount signifies a major improvement over the long-term 
average of, again, less than 15 percent of total LWCF spending, we call 
upon the subcommittee to seek a permanent solution to funding the LWCF 
at its authorized amount of $900 million, with the State and Local 
Assistance Program receiving at least 40 percent of overall LWCF 
expenditures each year. With four-out-of-five Americans now living in 
our larger communities, and the fact the original LWCF Act called for 
60 percent to State Assistance, it's reasonable that the formula grants 
to the States for outdoor recreation should receive a more equitable 
distribution of LWCF dollars annually.
    We agree on the importance of preserving and providing access to 
our national treasures for all to enjoy--and congratulate and recognize 
the National Park Service as it enters its second century. However, 
we'd like to remind you that many treasured public areas are NOT 
located on Federal property.
    For the reasons outlined below, we are asking you to empower States 
and local communities to do more to preserve, develop, and assure 
access to outdoor recreation facilities to strengthen our Nation by 
allocating 40 percent of total LWCF appropriations to the State 
Assistance Program in fiscal year 2018.
LWCF State Assistance's Return on Investment and Return on Objective:
    One of the key aspects of the LWCF State Assistance Program is the 
ability to create jobs. The outdoor recreation industry, as such is 
supported by LWCF State Assistance, is an economic powerhouse in the 
United States. According to the Outdoor Industry Association, the 
industry generates $887 billion in consumer spending and supports over 
7 million jobs annually.\1\ In fact, our own research has determined 
that America's local and regional public park agencies generated nearly 
$140 billion in economic activity and supported nearly 1 million jobs 
from their operations and capital spending alone in 2013.\2\
---------------------------------------------------------------------------
    \1\ Outdoor Industry Association, ``The Outdoor Recreation Economy 
Report 2017''.
    \2\ NRPA, ``The Economic Impact of Local Parks'' published 2015.
---------------------------------------------------------------------------
    Considering there are 7,800 State and over 100,000 locally managed 
parks throughout the country, it is obvious that outdoor recreation is 
most prevalent at the State and local level, and it is the LWCF State 
Assistance Program which serves as the catalyst for so many of the 
places, spaces, and opportunities for outdoor recreation which 
stimulates the outdoor economy.
    When viewed through the lens of the importance of the American 
outdoor recreation industry, the LWCF State Assistance Program has, for 
more than four decades, achieved a proven return on investment (ROI) 
demonstrated by the fact that $4 billion in Federal support has been 
matched and leveraged to provide more than $8 billion in total public 
investment. But the benefits of this program, don't stop there, as the 
State Assistance Program has not only provided a ROI, but has also done 
a tremendous job of providing an outstanding ``return on objective'' 
for the American taxpayer by ensuring access for all to nearby public 
spaces, in perpetuity.
    Not everyone has the ability to visit one of our treasured national 
parks, and even those who do so are unable to on a regular basis. Their 
visits are often destination vacations or once-in-a-lifetime trips. To 
the average American, however, the neighborhood park--down the street, 
open and accessible to the public, and without an admission fee--is the 
most important public space in their lives. The State Assistance 
Program has played a critical role in the creation of these important 
places, with more than 40,400 grant projects covering nearly every 
county across America.
    The LWCF State Assistance Program is dedicated to ensuring that 
Americans have access to close-to-home public recreation opportunities. 
It is a means by which the subcommittee can provide investment to 
critically important local park infrastructure, including: a new soccer 
field at Sisterhood Park in Anchorage, Alaska; enhancements at 
Bluewater Lake State Park near Perwitt, New Mexico; and an accessible 
playground at Fall Creek Falls State Park in Spencer, Tennessee. Each 
of the aforementioned communities benefited from State Assistance grant 
funding since 2013.
LWCF State Assistance Provides Health and Environmental Benefits:
    In addition to creating jobs and ensuring access for all, the LWCF 
State Assistance Program delivers tangible health benefits, 
contributing to the physical, mental and overall social health and 
well-being of Americans. The CDC reports obesity is now a leading cause 
of chronic disease and identifies increased access to parks, green 
space, and recreation opportunities is essential to becoming a 
healthier Nation and reducing unsustainable healthcare costs.
    The LWCF State Assistance Program also significantly contributes to 
protecting the environment and promoting environmental stewardship. 
LWCF State Assistance projects have a historical record of contributing 
to reduced and delayed storm water runoff volumes, enhanced groundwater 
recharge, storm water pollutant reductions, reduced sewer overflow 
events, increased carbon sequestration, urban heat island mitigation 
and reduced energy demands, resulting in improved air quality, 
increased wildlife habitat, and increased land values on the local 
level.
Maintaining The Outdoor Recreation Legacy Partnership Competitive Grant 
        Program:
    While the LWCF has indeed benefited virtually every community in 
the country, many of our Nation's cities and urbanized counties face 
distinct challenges that require additional resources. Recognizing this 
fact as well as the importance of public parks and recreation to larger 
urban renewal and community development efforts, Congress established 
the Urban Parks and Recreation Recovery Program (UPARR) to provide 
matching grants directly to localities in metropolitan areas. Over the 
course of two decades UPARR provided $272 million for nearly 1,500 
projects in 380 communities. This enabled neighborhoods across the 
country to restore both outdoor and indoor recreation facilities; 
support innovative recreational programming and enhance delivery of 
services and programs that provided constructive alternatives to at-
risk youth. Despite its successes, UPARR has not been funded since 
fiscal year 2002, yet many of the urban open space and recreation 
challenges still exist today.
    With UPARR now dormant for over a decade, we appreciate greatly 
your recognition for the need to target some State Assistance dollars 
to assist our most underserved, urban communities. Your support has led 
to the development of what is now known as the Outdoor Recreation 
Legacy Partnership (ORLP) program. This national competitive grant 
program complements the traditional State Assistance formula grants 
program by focusing on national priorities, specifically helping urban 
communities to acquire or develop land to create or reinvigorate public 
parks and other outdoor recreation spaces in ways that significantly 
improve local communities and encourage people to connect (or re-
connect) with the outdoors.
    NRPA is pleased to have worked with NPS to help develop the pilot 
for this initiative and believes it will prove successful in 
highlighting the innovative projects and partnerships the State 
Assistance Program provides across America. This year, NPS intends to 
award as many as 40 ORLP grants to support the revitalization and 
protection of close-to-home parks and recreation opportunities in 
underserved areas.
    We ask that you maintain funding for the ORLP at $12 million for 
fiscal year 2018. Also, as this program is included as part of the 
overall funding for the State Assistance Program, we ask the 
subcommittee to ensure that any continued funding for the ORLP does not 
negatively impact the total amount provided to the critical formula 
grants to the States for conservation and outdoor recreation.
    Madam Chair and Members of the subcommittee, few programs can 
address so many national priorities as effectively as the LWCF State 
Assistance Program. This subcommittee and Congress have the rare 
opportunity to achieve national goals, all without costing the 
individual American taxpayer a penny, and can do so by adopting three 
simple recommendations: Allocate a minimum of 40 percent of total LWCF 
funding to the State Assistance Program; and continue the innovative 
ORLP grant program to help address the need for improved recreational 
infrastructure in larger metropolitan communities. Finally, we call 
upon the subcommittee to find a permanent solution for fully funding 
the LWCF with a minimum of 40 percent of annual support going to the 
State Assistance Program.
    Thank you again for the opportunity to share NRPA's recommendations 
and your consideration of our request.

    [This statement was submitted by Kevin O'Hara, Vice President for 
Urban and Government Affairs.]
                                 ______
                                 
    Prepared Statement of the National Tribal Contract Support Cost 
                               Coalition
    This testimony is offered on behalf of the National Tribal Contract 
Support Cost Coalition. The Coalition is comprised of 21 Tribes and 
Tribal organizations situated in 11 States. Collectively, they operate 
contracts to administer almost $500 million in Indian Health Service 
(IHS) and Bureau of Indian Affairs (BIA) programs on behalf of over 250 
Native American Tribes.\1\ The Coalition was created to assure that the 
Federal Government honors the United States' contractual obligation to 
add full contract support cost funding to every contract and compact 
awarded under the Indian Self-Determination and Education Assistance 
Act. Our Counsel litigated the Supreme Court Cherokee and Arctic Slope 
cases against the Indian Health Service, and co-litigated the Ramah 
class action case against the Bureau of Indian Affairs, all of which 
held that IHS and BIA contracts with Indian Tribes are true, binding 
contracts which must be paid in full no less than any other government 
contract.
---------------------------------------------------------------------------
    \1\ The NTCSCC is comprised of the: Alaska Native Tribal Health 
Consortium (Alaska), Arctic Slope Native Association (Alaska), Central 
Council of Tlingit & Haida Indian Tribes (Alaska), Cherokee Nation 
(Oklahoma), Chickasaw Nation, Chippewa Cree Tribe of the Rocky Boy's 
Reservation (Montana), Choctaw Nation (Oklahoma), Confederated Salish 
and Kootenai Tribes (Montana), Copper River Native Association 
(Alaska), Forest County Potawatomi Community (Wisconsin), Kodiak Area 
Native Association (Alaska), Little River Band of Ottawa Indians 
(Michigan), Pueblo of Zuni (New Mexico), Riverside-San Bernardino 
County Indian Health (California), Shoshone Bannock Tribes (Idaho), 
Shoshone-Paiute Tribes (Idaho, Nevada), Southeast Alaska Regional 
Health Consortium (Alaska), Spirit Lake Tribe (North Dakota), Tanana 
Chiefs Conference (Alaska), Yukon-Kuskokwim Health Corporation 
(Alaska), and Northwest Portland Area Indian Health Board (43 Tribes in 
Idaho, Washington, Oregon).
---------------------------------------------------------------------------
    Over the past year, both IHS and BIA have worked closely with 
Tribes and Tribal organizations on finalizing and publishing new CSC 
policies setting forth internal guidelines for calculating and 
reconciling CSC payments. Many Tribes across the country submitted 
comments, and some are reflected in the final results. In this respect, 
Tribal consultation worked, and both agencies are to be applauded for 
their inclusive processes. But the agencies' results differ 
substantially, and it is on this difference that we wish to focus, 
especially the unnecessarily restrictive and complex approach taken by 
IHS.
    On the one hand, you have the BIA Manual revisions. The Coalition 
applauds the BIA approach, which genuinely embraced the Committee's 
instructions to be simple and straightforward, and to streamline the 
process for determining and reconciling contract support cost 
requirements. Tribes and agency personnel, alike, can easily understand 
the BIA's new policy, and the BIA's simple approach will lead to 
accurate CSC estimates over time. It also does not require extensive 
training, and therefore has already led to improved agency business 
practices.
    On the other hand, you have the IHS. While IHS deserves genuine 
praise for consulting extensively with Tribes beginning last spring, 
the ultimate result was both complex and controversial. Despite 
compromises reached with Tribes on most issues, the agency's adherence 
to certain legal positions that the Office of General Counsel prefers 
to litigate left two large issues in dispute. As a result, the new IHS 
policy adopts the agency's position on the ``duplication'' and 
``allocation'' issues, and notes the Tribal position in footnotes. 
IHS's intransigence on these issues has left their resolution to the 
courts, and there are now at least three ongoing cases against IHS 
involving one or both of these issues.\2\
---------------------------------------------------------------------------
    \2\ In one case, the Federal district court last September ruled in 
favor of the Tribal position on both issues. IHS's reaction was 
unfortunate: instead of revising the CSC policy accordingly, IHS 
declared it will appeal the decision to the Tenth Circuit Court of 
Appeals.
---------------------------------------------------------------------------
    The final IHS policy also remains terribly over-complicated: not 
only does it refer to the statute instead of explaining key concepts in 
plain language, but it also contains several complex calculations, 
requires Tribes to submit additional documentation to the agency each 
year, and necessitates two separate CSC negotiation processes each 
year. Indeed, the policy is so complicated that the agency has only one 
staff person across the entire country that can answer policy questions 
and guide the agency's interpretation of its new policy. This person is 
currently serving a dual role as an Acting Director at Headquarters, 
further delaying decisions and complicating negotiations for individual 
Tribes. The agency's approach to training on the new policy is quite 
telling--instead of partnering with Tribes that asked to be involved in 
any agency training programs, the agency instead developed and released 
a series of YouTube videos that completely ignore the Tribal position 
on the ``duplication'' and ``allocation'' issues.
    The policy is so complicated that IHS personnel have been unable to 
get a firm grasp on CSC calculations. We understand that in 2017, IHS 
misstated the total CSC requirement across Indian country by over $90 
million. We believe the actual total CSC need for IHS in 2017 is around 
$703 million, not the $800 million included in the President's budget 
for that year and defended by IHS throughout 2016. We believe the total 
CSC need in fiscal year 2018 will be about $725 million, still far 
below the agency's prior estimate.\3\ Clearly, the agency's failure to 
simplify the CSC calculation process is impacting IHS, too.
---------------------------------------------------------------------------
    \3\ We caution that our own estimate for 2018 will vary depending 
on where this Committee decides to make increases, since most CSC 
calculations are a function of the size of the IHS programs the Tribes 
administer.
---------------------------------------------------------------------------
    IHS's overly complex CSC policy isn't just impacting CSC 
calculations and estimates; it is also overly complicating what IHS 
calls the post-year reconciliation process. Since the adoption of the 
updated policy, IHS has gone back to Tribes to ``reconcile'' CSC 
calculations for 2014, 2015 and 2016. In some instances IHS is 
demanding that Tribes repay millions of dollars--including dollars that 
were spent years ago--while other Tribes are still waiting to be paid 
the full CSC they were promised as much as 3 years ago. If the new 
policy remains unchanged, IHS must do a better job of committing the 
necessary staff to work with Tribes to perform these calculations on a 
timely basis and to resolve matters quickly.
    In sum, while both agencies have made real progress in improving 
their management of their CSC accounts, we respectfully urge the 
subcommittee to repeat its instructions to IHS to further simplify its 
calculation and reconciliation processes, and to instruct the agencies 
not to seek to reduce Tribal contract support cost entitlements.
    To further simplify and streamline contracting activities, we also 
respectfully suggest that the subcommittee urge the agencies to explore 
using multi-year arrangements for fixed rates or fixed lump-sum amounts 
subject to inflationary adjustments.
    We also respectfully suggest that the subcommittee remind both 
agencies to interpret and apply the Act's CSC provisions liberally in 
favor of the Tribes. After all, that is the law, both as stated in 
section 108 of the Indian Self-Determination Act and in two Supreme 
Court decisions.
    On another note, we thank the subcommittee for removing the 
``notwithstanding'' clause from the 2017 appropriation addressing 
certain earmarked funds, including substance abuse and suicide 
prevention initiative (SASP) funds and domestic violence prevention 
initiative (DVPI) funds. Between 2008 and 2012, IHS agreed to award 
these funds through Self-Determination Act agreements, and to calculate 
contract support cost requirements on those funds. But starting in 2012 
IHS reversed course, refusing to calculate CSC requirements and 
demanding that these funds be awarded through separate grant 
instruments. This change caused Tribes to cut vital program operations 
to fund the administrative costs of these programs, including for grant 
administrators, while adding extraordinary complexity through the 
parallel grant funding and reporting process. Nationwide, IHS's change 
in position reduced behavioral health program funding amounts by 25 
percent.
    IHS relied on the old ``notwithstanding'' clause to force Tribes 
into grant instruments and to dodge the Indian Self-Determination Act's 
mandate to add contract support costs to these program funds. We hope 
that in 2017 and beyond, the elimination of that clause will lead IHS 
to return to its former pre-2012 practice. We respectfully suggest that 
the subcommittee ask IHS to report on its progress in eliminating the 
grant funding mechanism and in adding contract support costs to 
administer these precious funds.
    The National Tribal Contract Support Cost Coalition thanks the 
subcommittee for this opportunity to testify.
                                 ______
                                 
   Prepared Statement of the National Trust for Historic Preservation
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, I appreciate this opportunity to present the National 
Trust for Historic Preservation's recommendations for fiscal year 2018 
appropriations. My name is Tom Cassidy and I am the Vice President of 
Government Relations and Policy. The National Trust is a privately-
funded nonprofit organization chartered by Congress in 1949. We work to 
save America's historic places to enrich our future.
    The Nation faces a challenging fiscal environment. The National 
Trust recognizes there is a need for fiscal restraint and cost-
effective Federal investments. However, funding levels proposed in the 
administration's budget request threaten to sharply curtail the ability 
of Federal agencies to fulfill their responsibilities to manage 
preservation, conservation and recreation programs on Federal lands. We 
look forward to working with this subcommittee as you address the 
ongoing needs for investments to sustain our Nation's rich heritage of 
cultural and historic resources that generate lasting economic and 
civic vitality for communities throughout the Nation.
    National Park Service: Historic Preservation Fund. The Historic 
Preservation Fund (HPF) is the principal source of funding to implement 
the Nation's historic preservation programs. The Committees have done 
remarkable work to provide strong funding levels to further the 
purposes of the Historic Preservation Fund in recent years, and we look 
forward to working with you to continue this progress. We urge you to 
reject the administration's proposed cut of $29.8 million from the HPF. 
This would result in the lowest funding level for SHPOs since 2009 and 
the lowest funding level for THPOs since 2011, when there were 118 
THPOs compared to approximately 175 today. In addition, the elimination 
of four separate competitive grant programs funded last year would 
result in a sharp decrease in the delivery of preservation services and 
projects throughout the Nation.
    We support maintaining at least the fiscal year 2017 enacted level 
of $80.91 million for the Historic Preservation Fund, including a 
minimum of $47.9 million for State Historic Preservation Officers 
(SHPOs) and $10.4 million for Tribal Historic Preservation Officers 
(THPOs). We also urge you to maintain at least level funding of $13 
million for competitive grants to preserve the sites and stories of the 
Civil Rights movement, $4 million for grants to Historically Black 
Colleges and Universities, and continue to fund $500,000 for the 
successful competitive grants program for the survey and nomination of 
properties associated with communities currently underrepresented in 
the National Register of Historic Places and National Historic 
Landmarks. Recent studies have documented that less than 8 percent of 
such listings identify culturally diverse properties. We also support 
continuation of the Save America's Treasures program, which received $5 
million in fiscal year 2017.
    The National Park Service distributes HPF grants that are matched 
by State Historic Preservation Offices (SHPOs) and Tribal Historic 
Preservation Offices (THPOs). Inadequate HPF funding limits support for 
preservation activities such as survey, nomination of properties to the 
National Register of Historic Places, public education, project review 
required by the National Historic Preservation Act and for the Federal 
Historic Rehabilitation Tax Credit (HTC). The HTC is the largest 
Federal investment in historic preservation. It has catalyzed 
rehabilitation of more than 42,250 buildings. Since its creation more 
than 30 years ago, the HTC has created more than 2.4 million jobs and 
leveraged more than $131 billion in private investment.
    National Park Service: Operation of the National Park System. The 
National Park Service (NPS) is responsible for 413 units of the 
National Park System ranging from the battlefields where our ancestors 
fought and died to recent additions like the Birmingham Civil Rights 
National Monument and the Reconstruction Era National Monument. Over 
the past 20 years, more than 40 new parks have been added to the park 
system, many of which preserve historic places and themes that have 
been underrepresented within the system. We strongly oppose the 
President's proposed budget cuts for National Park Service Operations. 
The administration's request of $2.225 billion--a cut of nearly $200 
million from fiscal year 2017--would result in decreased stewardship of 
historic and cultural resources and reductions in visitor services at a 
time when our national parks are more popular than ever. We encourage 
the subcommittee to provide at least level funding from fiscal year 
2017 of $2.45 billion.
    National Park Service: Deferred Maintenance. The National Park 
Service is responsible for maintaining a system comprised of more than 
84 million acres that tells the stories of remarkable people and events 
in our country's history. Unfortunately, after 100 years of operation 
and inconsistent public funding, the National Park System faces a 
deferred maintenance backlog estimated at almost $12 billion, of which 
47 percent is attributed to historic assets. Deferred maintenance in 
our national parks puts historic and cultural sites at risk of 
permanent damage or loss, and in the absence of funding, the condition 
of these assets will continue to deteriorate and become more expensive 
to repair and preserve in the future.
  --Construction. We concur with the recommendation in the President's 
        budget blueprint ``that the National Park Service assets are 
        preserved for future generations by increasing investment in 
        deferred maintenance projects.'' Similarly, we support the 
        administration's budget request for a $7.2 million increase 
        over fiscal year 2017 enacted for the Line Item Construction 
        program, which addresses the deferred maintenance for the NPS' 
        highest priority non-transportation assets with projects larger 
        than $1 million.
  --Repair and Rehabilitation; Cyclic Maintenance. We strongly oppose 
        the administration's proposed reductions for Repair and 
        Rehabilitation and Cyclic Maintenance. These investments 
        support a service-wide deferred maintenance strategy that 
        directs funds to high priority mission critical and mission 
        dependent assets required to maintain historic structures and 
        that are essential to abate the continued growth of the 
        deferred maintenance backlog. After years of level funding or 
        modest increases for both Repair and Rehabilitation and Cyclic 
        Maintenance, we were pleased to see increases for fiscal year 
        2016 and fiscal year 2017 and thank the Committee for its 
        commitment to addressing the deferred maintenance backlog. 
        Additional investments will contribute to the successful 
        preservation of historic sites and other resources in the 
        National Park System.
    Finally, we strongly support the creation of a reliable, dedicated 
Federal funding source distinct from annual appropriations to address 
the deferred maintenance backlog, as outlined in bipartisan legislation 
introduced (S. 751/H.R. 2584) in the Senate and House.
    National Park Service: Leasing Historic Structures in National 
Parks. We appreciate the Committees' strong support of expanded use of 
historic leasing authorities by the NPS. We look forward to working 
with the subcommittee and the Service as it completes the report called 
for in last year's Omnibus.
    National Park Service: National Heritage Areas. We recommend 
funding for the Heritage Partnership Program and our National Heritage 
Areas (NHAs) at the fiscal year 2017 enacted level of $19.8 million. 
The administration's proposal to eliminate NHA funding would severely 
impair the sustainability of the program and render many NHAs unable to 
function.
    National Park Service: Philanthropy and Partnerships. The National 
Trust supports the Centennial Challenge, which provides Federal funding 
to match donations for signature National Park Service projects and 
programs, and urge the Committee to consider funding this initiative at 
least at the fiscal year 2017 enacted level. This funding will allow 
the NPS to leverage private contributions to enhance visitor services 
and improve cultural and natural resources across the parks in the 
Service.
    As part of our commitment to assist the NPS reduce the maintenance 
backlog of historic properties, the National Trust launched the HOPE 
(Hands-On Preservation Experience) Crew initiative in 2014 to train 
young adults in preservation skills while helping protect and restore 
historic sites. Youth and veterans are trained in the preservation 
skills necessary to perform preservation work in the parks and other 
Federal lands through a cooperative agreement between the NPS, other 
Federal land management agencies, and several NGOs including the 
Student Conservation Association and The Corps Network. Since 2014, 
HOPE Crew has trained over 600 young people and veterans at 100 
projects nationwide, resulting in 80,000 hours and $14.3 million in 
preservation work to protect places that are significant to their 
communities, including rehabilitating structures at Martin Luther King, 
Jr. National Historic Site, Little Big Horn Battlefield National 
Monument, Golden Gate National Recreation Area, and Shenandoah National 
Park. Projects like these help reduce the maintenance backlog while 
providing job skills and education for the next generation of stewards 
of America's most important historic sites.
    Bureau of Land Management: Cultural Resources Management. The 
cultural resources program funds National Historic Preservation Act 
(NHPA) Section 106 review of 13,000 land-use proposals each year, 
compliance with the Native American Graves Protection and Repatriation 
Act and Government-to-Government consultation with Indian Tribes and 
Alaska Native Governments. We recommend $17.3 million, a modest 
increase of $1.2 million above the fiscal year 2017 enacted level. This 
account has been level funded for years. Increased funding is necessary 
to fulfill BLM's statutory requirements for Section 106 reviews of land 
use proposals and NHPA's Section 110 requirements for inventory and 
protection cultural resources. The increase would support surveys of 
sensitive areas, site protection and stabilization projects for sites 
vulnerable to unauthorized activities and damage due to fire, erosion 
and changing water levels. Funding would also support updated 
predictive modeling and data analysis to enhance the BLM's ability to 
address large-scale, cross-jurisdictional land-use projects.
    The BLM oversees the largest, most diverse and scientifically 
important collection of historic and cultural resources on our Nation's 
public lands, as well as the museum collections and data associated 
with them. Since fiscal year 2003, the cultural resources program has 
lost 19 FTEs while the demand for Section 106 compliance has remained 
even or increased. The loss of personnel has diminished the BLM's 
ability to review land proposals like transmission lines, energy 
development and recreation permits. The administration's proposed 
overall reduction of 1,062 FTE from BLM would sharply erode the 
agency's capacity to fulfill its mission and responsibilities. We urge 
the Committee to reject this proposed dramatic reduction in staffing.
    Bureau of Land Management: National Landscape Conservation System. 
The BLM's National Landscape Conservation System (National Conservation 
Lands) includes 36 million acres of congressionally and presidentially 
designated lands, including National Monuments, National Conservation 
Areas, Wilderness, Wilderness Study Areas, National Scenic and Historic 
Trails, and Wild and Scenic Rivers. We encourage the Committee to 
provide $50.6 million to the base program for the National Landscape 
Conservation System, an increase of $13.8 million above the fiscal year 
2017 enacted level. The increase in base funding will prevent critical 
damage to the resources found in these areas, ensure proper management 
and provide for a quality visitor experience. This funding level would 
enable BLM to hire essential management and law enforcement staff, 
monitor and protect natural and cultural resources, close unauthorized 
routes that damage fragile cultural sites and undertake needed 
ecosystem and species restoration projects. We also support maintaining 
funding for wilderness management of at least $18.2 million and 
providing level funding of $779,000 for national monument management on 
Oregon and California Grant Lands. We urge you to reject the 
administration's proposed cuts to these programs, which would result in 
reduced visitor services, decreased maintenance and care of trails, and 
fewer educational and interpretive resources.
    As the Nation's newest system of protected lands, the National 
Conservation Lands encompass some of our country's most significant 
historic and cultural resources, yet the BLM's ability to steward these 
resources is undermined by insufficient funding. The National 
Conservation Lands are just one-tenth of BLM managed lands but they 
host one-third of all BLM's visitors. Without sufficient funding, the 
BLM struggles to complete essential resource protection, such as 
signing trails, inventorying and protecting cultural sites from looting 
and vandalism.
    Department-Wide: Land and Water Conservation Fund. The National 
Trust supports robust funding for the Land and Water Conservation Fund 
(LWCF), and we urge the Committee to reject the drastic cut proposed 
for the program in the administration's budget request. We encourage 
the Committee to restore funding to the fiscal year 2016 enacted level 
of $450 million, which is just half of the $900 million from offshore 
mineral leasing revenues dedicated to LWCF annually. Many of the 
Nation's most significant historic and cultural landscapes have been 
permanently protected through LWCF investments, including Martin Luther 
King Jr. National Historic Site, Canyons of the Ancients National 
Monument and Harpers Ferry National Historic Park. In total, more than 
$550 million has been invested to acquire historic sites and 137,000 
acres in 162 NPS units. Within LWCF funding, we encourage the Committee 
to provide at least level funding of $10 million for the American 
Battlefield Protection Program.
    Independent Agencies: National Endowment for the Arts and National 
Endowment for the Humanities. We urge the Committee to reject the 
administration's proposed elimination of funding for the National 
Endowment for the Arts (NEA) and National Endowment for the Humanities 
(NEH) and instead maintain the fiscal year 2017 enacted level of $149.8 
million for each program. NEA and NEH funding is critical to 
communities around the country. It supports efforts by the National 
Trust's Historic Sites and others to tell a fuller American story and 
engage visitors with history in compelling ways. For example, support 
from the NEA has created programs like Art and Shadows at the Shadows-
on-the-Teche in Louisiana that put regionally-based artists in 
residence at the site, resulting in programming that attracted new 
audiences and served as a prototype for broader arts-focused 
programming that now draws people from around the country to the town's 
downtown commercial district. NEH support has brought teachers from 
around the country to learn about history in the places that it was 
made and carry those experiences back to their classrooms, such as 
exploring the intellectual underpinnings of the Constitution at James 
Madison's Montpelier or discovering the rich, but largely unknown, 
African American history in the President's neighborhood at Decatur 
House.
    Thank you for the opportunity to present the National Trust's 
recommendations for the fiscal year 2018 Interior, Environment and 
Related Agencies appropriations bill.
                                 ______
                                 
            Prepared Statement of the Native Village of Eyak
    The Requests of the Native Village of Eyak (Eyak) for the fiscal 
year 2018 Indian Programs Appropriations and our comments are as 
follows:
  --CSC Funding.--Continue to fund Contract Support Costs at 100 
        percent and appropriate funding on a permanent and mandatory 
        basis;
  --Sequestration.--Shield the IHS/BIA from sequestration and provide 
        advance appropriations to Native programs;
  --VBC Funding.--Direct the IHS to fully fund Village Built Clinic 
        (VBC) leases, make it a line item in the budget and allocate 
        $17 million to IHS for VBC leases;
  --Joint Venture Program.--Increase funding and reopen the Joint 
        Venture application program in 2018;
  --Natural Resource Funding.--Increase funding for Tribal natural 
        resource management programs; and
  --Tribal Court Funding.--Increase funding for Tribal courts located 
        in Public Law 280 States.
    Thank you Chairman Calvert, Ranking Member McCollum and Members of 
the subcommittee for holding this hearing for public witnesess on 
Indian programs. Of course, we also thank our own House Natural 
Resources Committee, Chairman Emeritus Young for his advocacy with this 
subcommittee.
    My name is Mark Hoover and I am a Council Member on the Eyak 
Traditional Council, a Tribal government located in Cordova, Alaska. We 
are a federally recognized Tribe on the southeast shores of Prince 
William Sound in the North Gulf coast of Alaska. We emphasize self-
determination as an avenue to improve the lives and health of our 
Tribal citizens by creating opportunities, strengthening partnerships 
and capacity, promoting our culture, and protecting our traditional 
land and resources..
    Contract Support Costs (CSC).--Eyak would first like to thank the 
subcommittee for its leadership in understanding the reason for and 
committing to fully funding the IHS and BIA contract support costs for 
fiscal year 2016, and fiscal year 2017, and making funding indefinite 
and also a separate account in the IHS and BIA budgets. For too many 
years, the IHS and the BIA have vastly underpaid contract support costs 
owed to Tribes and Tribal organizations and this transformation makes a 
tremendous difference in helping to ensure that the Indian Self-
Determination and Education Assistance Act (ISDEAA) is fully funded and 
implemented as Congress so intended. We thank you for listening and 
responding to Tribes and our requests.
    Eyak requests that Congress continue to fully fund CSC and ensure 
appropriations are ultimately made permanent and mandatory. Under the 
ISDEAA, the full payment of CSC is not discretionary; it is a legal 
obligation affirmed by the United States Supreme Court. Eyak maintains 
its commitment to working with Congress on how to best achieve that 
goal.
    Sequestration.--Eyak requests the support of the Subcommittee in 
amending the Balanced Budget and Emergency Deficit Control Act to 
exempt Indian programs, such as the IHS and BIA budgets, from 
sequestration. While we support Congressional efforts to fully exempt 
Veterans Health Administration (VA) programs from sequestration and to 
limit State Medicaid grants and Medicare payments to a 2 percent 
reduction, Indian healthcare, as a Federal trust responsibility, should 
be afforded equal treatment to VA programs. A number of members of this 
Subcommittee and other members of Congress have voiced support for this 
position and have stated that it was an oversight that Indian budgets 
were not also included in the exempt category of the Balanced Budget 
and Emergency Deficit Control Act.
    Eyak is concerned that the current fiscal year 2018 funding cap for 
non-defense discretionary spending is lower than the fiscal year 2017 
spending cap. When put in the context of the President's fiscal year 
2018 budget proposal to raise defense spending by $54 billion and lower 
non-defense discretionary spending by a corresponding amount, we are 
worried that a significant sequestration of funds is likely to occur 
which would severely impact Tribal program budgets. Indian program 
budgets should be exempt from sequestration.
    Village Built Clinics.--Eyak would like to thank Congress for its 
appropriation of $11 million for Tribal health clinic leases in the 
fiscal year 2017 Consolidated Appropriations bill. These small 
chronically underfunded remote clinics serves as an essential lifeline 
for rural Alaskan villages where there is no road system to connect 
villages to urban centers. We sincerely appreciate your support and 
thank you for your leadership on this issue.
    Eyak also appreciates the House Natural Resources Subcommittee on 
Indian, Insular, and Alaska Native Affairs holding a hearing on Indian 
infrastructure needs in Indian Country, and the support and 
participation of Chairman Emeritus Young in the discussion that focused 
on the considerable unmet needs of Village Built Clinics. Many of the 
Village Built Clinics are in extreme disrepair and there is a 
considerable need for a reserve fund for upkeep and expansion of these 
essential facilities. In 2015, the Alaska Native Health Board estimated 
that an additional $14 million annual appropriation would be needed to 
fund a replacement reserve to tackle the clinic crisis. Eyak supports 
increased funding for Village Built Clinics and requests that funding 
be a separate line item in the IHS budget, recurring funding, and 
displayed in the Budget Justification to enable better planning and 
certainty for Tribes.
    The $11 million increase in fiscal year 2017 funding for Village 
Built Clinics was a major advancement, but that amount does not meet 
the full need. In 2015, the Alaska Native Health Board estimated that 
in addition to the existing $4.5 million base, $12.5 million is still 
needed to fund the Village Built Clinics. The fiscal year 2017 funding 
served as a supplement to the approximately $4.5 million already being 
provided to these essential village clinics. Without a separate line 
item for Village Built Clinics, much of the funding could be 
distributed to other types of facility leases, leaving the Village 
Built Clinics falling far short of the necessary funding.
    Joint Venture Program.--Eyak urges Congress to increase funding for 
the IHS Joint Venture (JV) program and respectfully requests that the 
application period reopen in 2018, so that new Tribes can join the 
program. The JV program leverages both Tribal and IHS funding to enable 
construction and staffing of safe and modern health facilities for 
Native people. This unique Federal-Tribal partnership allows the IHS to 
provide funding for staffing, equipping, and operations, while a 
participating Tribe covers costs of design and construction. Joint 
Venture projects have proven to be a successful and vital component of 
improving access to care and reducing health disparities throughout 
Indian Country. Eyak would like to invest in a new health facility in 
the near future and is ready to take this next step in our self-
determination efforts as we continue to provide and expand quality and 
affordable community healthcare.
    Natural Resource Funding.--Eyak respectfully asks that Congress 
increase funding for Tribal natural resource management programs to 
assist Tribes in the management, development, and protection of Tribal 
natural resources. Tribal natural resource programs provide many 
benefits to a Tribe such as revenue generation, job creation, and the 
protection of cultural and traditional resources. It is a program that 
helps fulfill the Federal trust responsibility by allowing Tribes to 
manage their own natural resources in compliance with various 
regulations and requirements related to land and natural resource 
management. Increasing funding for these fundamental programs is 
essential.
    Tribal Court Funding.--Eyak welcomes the fiscal year 2017 increase 
for Tribal courts located in P 83-280 (Public Law 83-280) States and 
asks that this increase continue in fiscal year 2018. We see no greater 
need across Indian Country than to protect our Tribal citizens through 
public safety and justice initiatives. Eyak has a very active Tribal 
court, but like other Tribes who reside in Public Law 280 States, we 
consistently struggle with funding. As we work to build, maintain and 
improve our village infrastructure, a crucial part of that is a well-
functioning Tribal judicial system.
    The BIA has had a long-standing and unjustified policy of not 
funding Tribal courts in Public Law 280 States. The fiscal year 2017, 
BIA Tribal Justice Support appropriation was $17.2 million, or about $7 
million over fiscal year 2016 levels and it would provide increases 
resources for Tribal courts in Public Law 280 States. The BIA fiscal 
year 2017, explanatory language for the Consolidated Appropriations Act 
explains: ``Funding for Tribal justice support is restored to 
$17,250,000, of which not less than $10,000,000 is to address the needs 
of Tribes affected by Public Law 83-280. The Committees remain 
concerned about Tribal court needs as identified in the Indian Law and 
Order Commission's November 2013 report, which notes Federal investment 
in Tribal justice in ``Public Law 280'' States has been more limited 
than elsewhere in Indian Country. The Committees expect the Bureau to 
work with Tribes and Tribal organizations in these States to fund plans 
that design, promote, sustain, or pilot courts systems subject to 
jurisdiction under Public Law 83-280. The Bureau is also directed to 
formally consult and maintain open communication throughout the process 
with Tribes and Tribal organizations on how this funding supports the 
technical infrastructure and future Tribal court needs for these 
jurisdictions.''
    Eyak sincerely thanks Congress and especially Senator Murkowski, 
for underscoring the significant financial need of Tribal courts in 
Public Law 280 States. We respectfully request that Congress increase 
funding for our Tribal courts to meet the substantial financial need 
and we also request that Congress continue to urge the BIA to fund 
Public Law 280 courts in order to promote safe and healthy Tribal 
communities.
    In conclusion, and on behalf of the Native Village of Eyak, we 
thank you for the opportunity to present testimony on some of the high 
priority needs regarding funding for Indian related programs. Eyak 
recommends: continued funding for Contract Support Costs at 100 percent 
on an indefinite and mandatory basis; exempt the IHS/BIA from 
sequestration and provide advance appropriations for Native programs; 
fully fund Village Built Clinic leases at $17 million and make it a 
line item in the budget; increase funding and reopen the IHS Joint 
Venture program; increase funding for Tribal natural resource programs; 
and increase funding for Tribal courts located in Public Law 280 
States. We appreciate your commitment to Native American people and 
thank you for your consideration of Eyak's concerns and requests.
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance
    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2018 
appropriations for the Smithsonian Institution and Department of the 
Interior. We encourage Congress to use 2017 enacted levels as the basis 
for 2018 funding decisions and to include new investments that address 
agency backlogs in the preservation and curation of scientific and 
cultural collections within Interior and the Smithsonian Institution.

        The Natural Science Collections Alliance is a non-profit 
        association that supports natural science collections, their 
        human resources, the institutions that house them, and their 
        research activities for the benefit of science and society. Our 
        membership consists of institutions that are part of an 
        international community of museums, botanical gardens, 
        herbaria, universities, and other institutions that contain 
        natural science collections and use them in research, 
        exhibitions, academic and informal science education, and 
        outreach activities.

    Scientific collections, and the collections experts who make, care 
for, and study those collections, are a vital component of our Nation's 
research infrastructure. Whether held at a museum, government managed 
laboratory or archive, or in a university science department, these 
scientific resources contain genetic, tissue, organismal, and 
environmental samples that constitute a unique and irreplaceable 
library of Earth's history. The specimens, their associated data, and 
collections experts drive cutting edge research on significant 
challenges facing modern society, such as improving human health, 
enhancing food security, and understanding and responding to 
environmental change. Collections inspire novel interdisciplinary 
research that precipitates innovation and addresses some of the most 
fundamental questions related to biodiversity.
    The institutions that care for scientific collections are important 
research centers that enable other scientists to study the basic data 
of life; conduct modern biological, geological, anthropological, and 
environmental research; integrate across these diverse disciplines; and 
provide undergraduate and graduate students with hands-on training 
opportunities. In-house institutional staff expertise is vital to the 
development and deployment of this critical research infrastructure.
    According to the Federal Interagency Working Group on Scientific 
Collections, ``scientific collections are essential to supporting 
agency missions and are thus vital to supporting the global research 
enterprise.'' In recognition of the importance of collections, the 
Office of Science and Technology Policy issued a memo that directed 
Federal agencies to budget for the proper care of collections. 
``Agencies should ensure that their collections' necessary costs are 
properly assessed and realistically projected in agency budgets, so 
that collections are not compromised.''
    Preservation of specimens and the strategic growth of these 
collections are in the best interest of science and the best interest 
of taxpayers. Existing scientific collections that are properly cared 
for and accessible are a critical component of the U.S. science 
infrastructure and can be readily integrated into new research on 
significant questions. Specimens that were collected decades or 
centuries ago are now routinely used in cutting edge research in 
diverse fields related to genomics, human health, biodiversity 
sciences, informatics, environmental quality, and agriculture.
    The Smithsonian Institution is a valuable Federal partner in the 
curation and research on scientific specimens. The scientific experts 
at the National Museum of Natural History care for an astounding 140 
million specimens and ensure the strategic growth of this national 
treasure. To increase the availability of these scientific resources to 
researchers, educators, other Federal agencies, and the public, 
Smithsonian is working on a multi-year effort to digitize its 
collections. That effort will substantially increase awareness of the 
availability of these collections via the Internet.
    Smithsonian has also been working to strengthen curatorial and 
research staffing and to backfill positions left open by retirements 
and budget constraints. The current staffing level is insufficient to 
provide optimal care for the collections. Future curatorial and 
collections management staffing levels may be even more in jeopardy 
given the proposed funding cuts at science agencies that support staff 
positions embedded at Smithsonian, such as the U.S. Geological Survey.
    Interior is an important caretaker of museum collections; the 
Department has an estimated 146 million items, comparable in size only 
to the Smithsonian Institution. Although many of the department's 
collections are located in bureau facilities, numerous artifacts and 
specimens are also housed by non-governmental facilities, such as 
museums and universities.
    In addition, the United States Geological Survey (USGS) furthers 
the preservation, inventory, and digitization of geological scientific 
collections, such as rock and ice cores, fossils, and samples of oil, 
gas, and water. The National Geological and Geophysical Data 
Preservation program helps States with collections management, improves 
accessibility of collections data, and expands digitization of 
specimens to ensure their broader use. One example of the pay offs of 
this program is the potash mineral deposit discovered in Michigan that 
is worth an estimated $65 billion. Rock samples from Michigan were 
entered into a national database, where private companies discovered 
their existence and are now assessing the potential for mining.
    Another USGS program is supporting public access to biodiversity 
information. The Biodiversity Information Serving Our Nation system is 
the only web-based Federal resource for finding species in the United 
States and contains 250 million records. It also serves as the U.S. 
connection to the Global Biodiversity Information Facility. USGS also 
supports the documentation and conservation of native pollinators 
through its Native Bee Inventory and Monitoring Lab.
    Another USGS program that furthers the curation of and research 
with biological collections is proposed for elimination. USGS has more 
than a million specimens of birds, mammals, amphibians, and reptiles 
that are housed at the Smithsonian. This arrangement goes back to 1889, 
but is suggested for termination by the Administration. We urge 
Congress to continue this valuable program. For more on this program, 
see http://nscalliance.org/wordpress/wp-content/uploads/2011/02/nsca-
usgs-smithsonian-report.pdf.
    The Bureau of Land Management has a large backlog of cultural 
resources to inventory on public lands. Presently, 90 percent of public 
lands have not been assessed for heritage resources. Such assessments 
need to be conducted before unique resources are lost to looting, 
vandalism, fire, or environmental change.
    The National Park Service needs to continue its investments in 
scientific collections, including cataloging of millions of museum 
objects. The Park Service curates a wide range of specimens and 
artifacts, from historical and cultural items to preserved tissues from 
protected species and living microorganisms collected from national 
parks. Several parks have made progress on addressing planning, 
environmental, storage, security, and fire protection deficiencies in 
museum collections, but much work remains to be done. The President's 
budget request would undo past progress, with the percentage of museum 
objects in `good' condition decreasing from 75 percent to 70 percent by 
the end of fiscal year 2018.
                               conclusion
    Scientific collections are critical infrastructure for our Nation's 
research enterprise. Research specimens connect us to the past, are 
used to solve current societal problems, and are helping to predict 
threats to human health, methods for ensuring food security, and the 
impact of future environmental changes. Sustained investments in 
scientific collections are critical for our Nation's continued 
scientific leadership.
    Please support adequate funding for the Department of the 
Interior's Capital Working Fund, as well as programs within Interior 
bureaus and the Smithsonian Institution that will support these 
organizations' efforts to preserve scientific collections--a truly 
irreplaceable resource.
    Thank you for your thoughtful consideration of this request.

    [This statement was submitted by Joseph Cook, Ph.D., President.]
                                 ______
                                 
              Prepared Statement of the Nature Conservancy
    Chairman Murkowski, Ranking Member Udall and Members of the 
subcommittee, thank you for the opportunity to submit recommendations 
for fiscal year 2018 appropriations. The Nature Conservancy is an 
international, non-profit conservation organization working around the 
world to protect ecologically important lands and waters for nature and 
people. Our mission is to conserve the lands and waters upon which all 
life depends.
    As we enter the fiscal year 2018 Budget cycle and another year of a 
challenging fiscal environment, the Conservancy continues to recognize 
the need for fiscal austerity. The Conservancy also wishes to thank 
this subcommittee for the final fiscal year 2017 funding levels for 
Department of the Interior conservation programs. Our budget 
recommendations this year reflect a balanced approach with funding 
levels consistent with fiscal year 2017 and fiscal year 2016 funding 
levels. Of particular note, we wish to work with this subcommittee and 
the authorizing Committees on identifying permanent funding solutions 
for wildfire funding, the Land and Water Conservation Fund, the Payment 
in Lieu of Taxes Program and Secure Rural Schools. The Conservancy 
greatly appreciates the Committee's past support of a much-needed fire 
funding fix and more recent efforts to ensure wildfire suppression has 
supplemental funding above the 10-year average in fiscal year 2017. 
However, agencies continue to need a long-term solution to address the 
impacts of the increasing 10-year average on programs necessary to 
maintain our public lands. We respectfully request a bipartisan fire 
funding solution be included as part of the fiscal year 2018 Interior, 
Environment, and Related Agencies' appropriations bill. A fire funding 
solution must fund wildfires like natural disasters by 1) accessing 
disaster funding, 2) minimizing transfers, and most importantly, 3) 
address the continued erosion of agency budgets over time, with the 
goal of reinvesting in key programs that would restore forests to 
healthier condition. We also strongly support the emphasis on funding 
for sage grouse conservation in fiscal year 2017 and urge congress to 
continue support for ongoing sage grouse conservation efforts.
    Land and Water Conservation Fund (LWCF).--The fiscal year 2017 
Omnibus dedicated $400 million in discretionary appropriations for the 
Land and Water Conservation Fund. LWCF has strong bipartisan support 
and the Conservancy recognizes Congress's commitment to funding 
important on-the-ground conservation and recreation projects. The 
Nature Conservancy supports funding LWCF through a blend of current and 
permanent funding and looks forward to working with Congress to find a 
permanent funding solution for LWCF. Additionally, the Conservancy 
supports the balanced approach in the budget on both ``core'' and 
``collaborative'' LWCF projects.
    Forest Legacy.--We support a minimum of $62 million for the Forest 
Legacy Program in current discretionary funding and the $38 million in 
permanent, mandatory funding, totaling $100 million for Forest Legacy 
Programs.
    Endangered Species.--The Conservancy supports continuing funding of 
at least $31 million, consistent with fiscal year 2017 levels, for the 
Cooperative Endangered Species Conservation Fund (CESCF), and requests 
the subcommittee consider additional funding level request for 
permanent funding. We also request your continuing support for Habitat 
Conservation Plan (HCP) funding, specifically HCP Land Acquisition 
Grants where the need has greatly outpaced available resources in 
recent years.
    State and Tribal Wildlife Grants.--The Conservancy supports the 
fiscal year 2017 Omnibus funding level of $62.5 million for this 
program. Strong Federal investments are essential to ensure strategic 
actions are undertaken by State, Tribal and Federal agencies and the 
conservation community to conserve wildlife populations and their 
habitats and to prevent species from being listed as threatened or 
endangered.
    Wildlife Conservation Programs.--The variety of wildlife 
conservation programs conducted by the US Fish and Wildlife Service 
(FWS) continue a long and successful tradition of supporting 
collaborative conservation in the U.S. and internationally. We urge the 
Committee to continue funding such established and successful programs 
as the North American Wetlands Conservation Act (NAWCA), Neotropical 
Migratory Bird Conservation Fund (NMBCA), the Migratory Bird Joint 
Ventures, FWS Migratory Bird Management Program and the FWS Coastal 
Program at no less than fiscal year 2017 Omnibus funding levels. We 
support, at a minimum, sustained funding for the Partners for Fish and 
Wildlife Program and the Cooperative Landscape Conservation and 
Adaptive Science programs. The latter will help support DOI in 
addressing large-scale conservation challenges across all ownerships, 
supporting collaborative problem solving for some of our nation's most 
challenging conservation issues. We also request strong funding this 
year for the National Fish Habitat Initiative.
    International Programs.--The international conservation programs 
appropriated annually within the Department of Interior are relatively 
small but are effective and widely respected. They encompass the U.S. 
Fish & Wildlife Service's (FWS) Multinational Species Conservation 
Funds, the FWS Wildlife Without Borders regional and global programs, 
and the U.S. National Park Service International Program. We urge that 
fiscal year 2018 levels for these programs remain equivalent to fiscal 
year 2017 Omnibus levels at a minimum.
    National Wildlife Refuge System.--The Conservancy supports stronger 
funding for the Refuge System's Operations and Maintenance accounts. 
Found in every U.S. State and territory, national wildlife refuges 
conserve a diversity of America's environmentally sensitive and 
economically vital ecosystems, including oceans, coasts, wetlands, 
deserts, tundra, prairie, and forests. The Conservancy requests $568 
million in for fiscal year 2018. This represents the funding necessary 
to maintain management capabilities for the Refuge System.
    Hazardous Fuels and Restoration.--Strategic, proactive hazardous 
fuels and restoration treatments have proven safer and more cost-
effective in reducing risks to communities and forests by removing 
overgrown brush and trees, leaving forests in a more natural condition 
resilient to wildfires. The Conservancy recommends investing in the 
USDA Forest Service's Hazardous Fuels program at a $479 million level 
and DOI's Fuels Management program at a level of $178 million, in 
addition to investing $30 million into a new Resilient Landscapes 
program designed to restore and maintain fire adapted landscapes and 
habitats and repeating the Committee's fiscal year 2012 instructions 
for allocating funds to priority landscapes in both WUI and wildland 
settings. Additionally, the CFLR program must continue to be funded and 
expanded to $60 million and the Legacy Roads and Trails program funded 
at $50 million.
    Sage Grouse Conservation.--The Conservancy requests continued 
investment to support ongoing efforts to restore and conserve sagebrush 
habitat and the greater sage-grouse across Federal, State, Tribal and 
private lands. We support the continued support for sage grouse 
conservation provided through the fiscal year 2017 Omnibus. These 
resources are needed to implement on-the-ground projects and monitor 
habitat treatments, address rangeland fire and broader wildland fire 
prevention, suppression and restoration efforts, and support the 
partnership and science necessary for effective conservation. The BLM 
is facing perhaps the single most challenging effort in its history in 
conserving key sagebrush habitat, addressing identified threats to 
sage-grouse and promoting sustainable economic development across some 
165 million acres in coordination with State and local managers and 
private land owners. Additional resources for the FWS will be used, 
inter alia, for developing voluntary prelisting conservation agreements 
with private landowners who are ready and willing to undertake critical 
conservation work for the sagebrush steppe ecosystem on large blocks of 
private lands.
    BLM Land Management and Renewable Energy Development.--The 
Conservancy supports continued funding at fiscal year 2017 levels for 
BLM's initiatives to implement smart land management approaches, which 
include Rapid Ecoregional Assessments, Resource Management Planning, 
Regional Mitigation Planning, coordination with LCCs, and the 
Assessment, Inventory, and Monitoring Strategy. Many BLM programs 
contribute to these cross-cutting initiatives including: National 
Landscape Conservation System--($50.65 million); Resource Management 
Planning program ($65.2 million); Wildlife and Fisheries management 
($108.7 million request); and Threatened & Endangered species 
management ($21.6 million request). Additionally, the Conservancy 
supports continued funding for BLM's renewable energy development 
program at $29 million which includes implementation of the Western 
Solar Energy Program. Collectively, these efforts will help BLM manage 
its lands efficiently and effectively for energy development, species 
and habitat conservation, recreation, and other uses to maximize the 
public benefit from these lands.
    Environmental Protection Agency's Geographic Programs.--EPA's 
geographic programs, including the Great Lakes Restoration Initiative, 
Chesapeake Bay, Puget Sound, Long Island Sound, and Gulf of Mexico 
programs, make a significant contribution to protecting habitat and 
water quality in the large landscapes where they work. These programs 
have a proven record of supporting the States' voluntary restoration 
efforts, and the Conservancy urges the Committee to continue strong 
funding for these programs at the fiscal year 2017 appropriated levels.
    Colorado River Basin Recovery Programs.--The Upper Colorado River 
Endangered Fish Recovery Program and San Juan River Basin Recovery 
Implementation Program take a balanced approach to recovering four 
endangered fish species in the Colorado River basin. The Upper Colorado 
and San Juan recovery programs are highly successful collaborative 
conservation partnerships involving the States of New Mexico, Colorado, 
Utah, and Wyoming, as well as Indian Tribes, Federal agencies, and 
water, power and environmental interests. These programs provide 
critically important Endangered Species Act (ESA) compliance for over 
2,450 Federal, Tribal, State, and private water projects across the 
Upper Colorado River Basin. Through these efforts, water use and 
development has continued in growing Western communities in full 
compliance with the ESA, State water and wildlife law, and interstate 
compacts. Implementation of the ESA has been greatly streamlined for 
Federal agencies, Tribes and water users. The Conservancy supports 
$1.532 million for the Fish and Wildlife Service for the Colorado River 
Basin recovery programs, including recovery funds for both the Upper 
Colorado River Endangered Fish Recovery Program and San Juan River 
Basin Recovery Implementation Program, as well as fish hatchery needs 
associated with the recovery plans.
    National Streamflow Network.--The National Streamflow Network 
provides continuous streamflow information at over 8,200 locations 
across the country and is managed within the U.S. Geological Survey's 
Groundwater and Streamflow Information Program. Water managers, 
scientists, and other decisions makers, including within the 
Conservancy, rely on data from the National Streamflow Network to plan 
for floods, droughts, and other extreme events; design infrastructure, 
including the operation of Federal reservoirs; facilitate energy 
generation; protect aquatic species and restore habitat; and manage 
Federal lands. The Conservancy supports funding in fiscal year 2018 to 
fully implement the National Streamflow Network.
    Water Infrastructure Finance and Innovation Program.--Subtitle C of 
Title V of the Water Resources Reform and Development Act of 2014 
provides authority for low-cost credit that can leverage private 
investment for water infrastructure. The criteria include whether a 
project protects against extreme weather events or helps maintain the 
environment. The Nature Conservancy supports funding at EPA of 
$25,000,000 to carry out this program.
    Thank you for the opportunity to submit The Nature Conservancy's 
recommendations for the fiscal year 2018 Interior, Environment and 
Related Agencies Appropriations Bill.
                                 ______
                                 
              Prepared Statement of the Nature Conservancy
                          usda forest service
    Thank you to Chairman Murkowski, Ranking Member Udall, and Members 
of the subcommittee for the opportunity to submit recommendations for 
fiscal year 2018 appropriations. The Nature Conservancy is an 
international, non-profit conservation organization whose mission is to 
conserve the lands and waters upon which all life depends.
    America's public forests have tremendous national importance but 
their health puts them at severe risk unless we invest in proper 
stewardship and forestry. America's forests store and filter more than 
half of our nation's water supply, provide jobs to nearly one million 
forest product workers, generate $13.6 billion in recreation based 
economic activity from USDA Forest Service lands alone, are habitat to 
thousands of forest-dependent wildlife and plant species, offer a 
million square miles to sportsmen and families for outdoor recreation, 
and are a major carbon sink that sequester 15 percent of all fossil 
fuel emissions in the U.S.
    However, megafires, pests, drought, and sprawl place forests at 
risk; an area larger than the State of Oregon is in immediate need of 
restoration to return forest health--and that is on USDA Forest Service 
lands alone. Unfortunately, forest restoration is significantly 
obstructed by ballooning fire suppression costs.
    The current wildfire suppression funding model and cycle of 
transfers and repayments has negatively impacted the ability to 
implement forest stewardship, among many other activities. 
Additionally, the increasing ten-year average to has not met annual 
suppression needs since before fiscal year 2002. We experienced once 
again how the ten-year average would not have been sufficient to meet 
the fiscal year 2016 suppression needs. Thankfully, Congress rightfully 
protected the agency (and the Department of the Interior) from 
transfers by allocating levels above the ten-year average. The 
Conservancy also appreciates Congress' efforts to ensure the USDA 
Forest Service and the Department of the Interior receive supplemental 
funding for suppression in fiscal year 2017. However, agencies continue 
to need a long-term solution to address the impacts of the increasing 
ten-year average on programs necessary to maintain our public lands.
    The Conservancy greatly appreciates the Committee's past support of 
a much-needed comprehensive fire funding fix, and respectfully request 
a bipartisan fire funding solution that would (1) access disaster 
funding, (2) minimize transfers, and most importantly and (3) address 
the continued erosion of agency budgets over time, with the goal of 
reinvesting in key programs that would restore forests to healthier 
conditions.
    Investing in the following Forest Service programs are critical to 
meeting forest restoration goals:
    Increase funding for Collaborative Forest Landscape Restoration 
(CFLR) to $60 million.--The CFLR program is demonstrating that 
collaboratively-developed forest restoration plans can be implemented 
at a large scale with benefits for people and the forest. This is a 
model approach that brings citizens, local government and Federal staff 
together to determine effective management that is locally appropriate 
and provides jobs, sustains rural economies, reduces the risk of 
damaging fires, addresses invasive species, improves wildlife habitat, 
and decommissions unused, eroding roads. The funding increase will 
guarantee the existing signature projects covering over 17 million 
acres can continue, and additional critical projects across America's 
forests can begin.
    Fund the Forest Service Hazardous Fuels programs at no less than 
$479 million.--Strategic, proactive hazardous fuels treatments have 
proven safer and more cost-effective in reducing risks to communities 
and forests by removing overgrown brush and trees, leaving forests in a 
more natural condition resilient to wildfires. Drought conditions 
increase the need for investment in this program to restore and 
maintain fire adapted landscapes and habitats. The Conservancy 
recognizes the Committee's continued support for this program through 
its increased funding levels, particularly over the last few years.
    The Conservancy additionally recommends funding for programs that 
support critical restoration programs on national forests. Effective 
and durable restoration requires integrated approaches that address 
threats and improve forest health and habitat values while supporting 
forest-dependent communities.
  --Wildlife & Fisheries Habitat Management maintained at a $140 
        million funding level to restore, recover, and maintain 
        wildlife and fish and their habitats on all national forests 
        and grasslands.
  --Vegetation & Watershed Management funded at $185 million to promote 
        restoration through watershed treatment activities, invasive 
        plant species control, and reforestation of areas impacted by 
        wildfire and other natural events.
  --Legacy Road and Trail Remediation (LRT) maintained at $50 million 
        to restore river and stream water quality by fixing or removing 
        eroding roads, while providing construction jobs, supporting 
        vital sportsmen opportunities, and reducing flooding risks from 
        future extreme water flow events.
  --Land Management Planning, Inventory and Monitoring funded at $201 
        million, including consolidating the two previously separate 
        budget items. Consolidation will be more efficient for land 
        managers, while supporting the collaborative, community and 
        science based planning featured by the Forest Service 2012 
        Forest Planning regulation.
    Fund Forest Health programs at a total of $111 million ($63 million 
for Federal and $48 million for Cooperative).--Forest health protection 
programs work to protect forests by minimizing the impacts caused by 
invasive species. Across the nation large-scale, non-native insect, 
disease, and invasive plant outbreaks are damaging forest health. These 
programs help reduce invasions of non-native pests that destroy iconic 
American trees such as ash, hemlock, and California oaks.
    Fund State Fire Assistance (SFA) at $86 million.--SFA provides aid 
to communities for fuels treatments, firefighter capacity building, 
fire prevention education, and pre-fire planning. The SFA program is an 
important complement to the Hazardous Fuels program for Federal lands.
    Fund Landscape Scale Restoration (LSR) at $24 million.--Through 
LSR, non-Federal lands have access for competitively selected projects 
that leverage State funding, restore forests of national importance, 
and, whenever possible, complement CFLR and other landscape scale 
restoration efforts.
    Fund Forest & Rangeland Research at $293 million.--Forest and 
Rangeland Research offers vital scientific basis for policies that 
improve the health and quality of urban and rural communities. This 
program is vital for the long-term health and utility of our American 
forests and rivers, particularly as we face an uncertain climatic 
future.
    Maintain funding for the Joint Fire Science Program at $7 million 
and maintain funding under Wildland Fire Management.--This key, yet 
small, program has proven a great success in supporting practical 
science that reduces fire risk and enhances economic, ecological, and 
social outcomes nationwide.
    Fund Forest Legacy at a minimum of $62 million for the Forest 
Legacy Program in current discretionary funding and the $38 million in 
permanent, mandatory totaling $100 million.--The Forest Legacy program, 
in partnership with States, supports efforts to acquire conservation 
easements and fee simple interests on privately owned forest lands from 
willing sellers. These acquisitions leverage non- Federal dollars and 
support long-term sustainable forestry while protecting other 
ecological, watershed and recreational values for local communities at 
risk of development or conversation to other uses.
    Thank you for the opportunity to share The Nature Conservancy's 
forest restoration priorities.
                                 ______
                                 
   Prepared Statement of the Navajo-Hopi Land Commission of the 23rd 
                         Navajo Nation Council
Requests:
    1.  Continue to provide necessary funding to complete relocation in 
an effective and timely fashion.
    2.  Provide additional funding to fulfill Congress' mandate to 
provide adequate infrastructure for relocatees.
    3.  Increase oversight of the relocation and rental payment 
processes.
    4.  Provide $20 million for critical needs in the Former Bennett 
Freeze Area.
    5.  Support incentives for private sector investment and the 
streamlining of regulations in the Former Bennett Freeze Area.
    6.  Expand BIA efforts to mitigate hardship in the Former Bennett 
Freeze Area, including establishing a DOI Task Force to assess 
opportunities to aid redevelopment.

    Introduction. Chairman Murkowski, Ranking Member Udall, and 
honorable Members of the subcommittee, thank you for this opportunity 
to provide testimony on behalf of the Navajo-Hopi Land Commission 
(NHLC) of the 23rd Navajo Nation Council. My name is Walter Phelps, 
Chairman of the NHLC and a Council Delegate of the Navajo Nation. The 
NHLC is entrusted with addressing both the ongoing effects of the 
Federal relocation of 15,000 Navajo people off their ancestral lands 
and the realities of 12,000 Navajos living in the former Bennett Freeze 
area, where a strict 41--year construction freeze has left despair and 
desperate need for rehabilitation and reconstruction. It has been over 
40 years (or over two generations) since the Navajo Hopi Land 
Settlement Act of 1974. Relocation has left the Navajo Nation with a 
population of relocatees, a significant number of whom have yet to 
receive the full benefits Congress intended; a population within Hopi-
Partitioned Lands that struggles living outside the jurisdiction of the 
Nation; and a population in the 1.6-million acre Former Bennett Freeze 
Area (FBFA) that remains severely economically depressed.
    A Special Thank You to this subcommittee. The Navajo Nation is 
deeply appreciative of the effort and the energy this subcommittee has 
put into addressing how to bring about a humane closure to relocation. 
The increased funding that the subcommittee has provided has 
dramatically accelerated the provision of benefits to Navajo families 
who have been waiting for years, if not decades.
                           navajo relocation
    Office of Navajo and Hopi Indian Relocation (ONHIR). After the 
passage of the relocation Act, ONHIR was established by Congress to 
carry out relocation activities pursuant to the Act, and operate as 
trustee and Federal land administrator to the Navajo Nation. 
Unfortunately the work of OHNIR proceeded at a glacial pace. The 
Department of Interior's (DOI) Office of Inspector General (OIG) 
published a report on ONHIR that identified two causes for the delay in 
completing relocation: (1) ONHIR's failure to complete eligibility 
determinations; and (2) the complicated and lengthy administrative 
appeals process. ONHIR's routine denials of applications and reliance 
on the adversarial process have historically diverted funds away from 
building homes for certified applicants.
    Now we look to ONHIR's future. The core principle that all parties 
have agreed upon is that every eligible Navajo should receive the 
benefits they were promised under the law. ONHIR is responsible for the 
delivery of these benefits and should operate, in some fashion, until 
its mission is completed. Nonetheless, the Navajo Nation has engaged in 
dialogue with the Bureau of Indian Affairs (BIA) and OHNIR on what 
closure of OHNIR and the transition of remaining functions to the BIA 
may look like. Many of those functions could be transferred in the 
relatively near future as a part of phasing out ONHIR. The Navajo 
Nation, perhaps more than any other party involved, desires to bring 
closure to the relocation process, which has marked a sad chapter in 
American and Navajo history. However, we believe that the Federal 
Government has a responsibility to bring this closure about in a 
conscientious and compassionate manner and live up to the promise of a 
thorough and generous relocation.
    Completion of Promised Infrastructure. The Navajo Hopi Land 
Settlement Act required the Relocation Commission to prepare a report 
that includes a plan that shall ``assure that housing and related 
community facilities and services, such as water, sewers, roads, 
schools, and health facilities, for such households shall be available 
at their relocation sites . . . .'' (Public Law 93-581, Section 13). In 
1981 the Relocation Commission released its report and plan to 
Congress. In the ``Report and Plan,'' the Relocation Commission 
acknowledged its obligations:

        Congress was greatly concerned that relocation of Indian 
        families be to areas where community facilities and services 
        exist or will exist. The Commission's plan for relocation 
        shall, ordered Congress: Assure that housing and related 
        community facilities and services, such as water, sewer, roads, 
        schools, and health facilities, for such households shall be 
        available at their relocation sites. . . .

    (See Executive Summary, p. 4). Despite this commitment, the Report 
and Plan principally focuses on what facilities, services, and 
infrastructure may already exist (usually Navajo and BIA), without 
providing much detail about what the Relocation Commission would 
provide. Indeed, there is language that pushes off such Relocation 
Commission commitments to a later time. The Relocation Commission did 
not adequately address the requirements of the original Act in assuring 
``that housing and related community facilities and services, such as 
water, sewer, roads, schools, and health facilities, for such 
households shall be available at their relocation sites. . . .'' These 
unfulfilled obligations are further compounded by the fact that the 
citizens and residents of the Navajo Nation are the most underserved 
communities in the United States of America with respect to 
infrastructure.
Requests:
    1.  Continue to provide necessary funding to complete relocation in 
an effective and timely fashion.

    We recognize and appreciate the increased funding that ONHIR has 
received in recent years and request that OHNIR's funding is kept 
intact.

    2.  Provide additional funding to fulfill Congress' intent to 
provide infrastructure for relocatees.

    When Congress passed the relocation act it directed the Commission 
to ``[a]ssure that housing and related community facilities and 
services, such as water, sewers, roads, schools, and health facilities, 
for such households shall be available at their relocation sites. . . 
.'' (Public Law 93-581, Section 13). Unfortunately, two generations 
later many relocatees lack the most basic infrastructure, let alone 
what that they were promised at their relocation sites. Indeed, many of 
the relocatees are the most underserved populations in the country with 
respect to infrastructure. The Navajo Nation is currently reviewing 
what ONHIR constructed and what ONHIR should have constructed. We ask 
the subcommittee to adequately fund the infrastructure list that is 
being developed by the Nation to ensure that the infrastructure mandate 
is carried out ``with the same vigor as a sympathetic and generous 
Congress conceived it.'' (1981 Report and Plan to Congress, Executive 
Summary, p. 4).

    3.  Increase oversight of the relocation and rental payment 
processes.

    We are requesting report language encouraging DOI to conduct a 
study and furnish a report regarding lease payments due from the Navajo 
Nation to the Hopi Tribe (see formerly 25 U.S.C. Sec. 640d-15(a)). The 
BIA delays for years in making these rental determinations, resulting 
in huge interest payment obligations on the part of the Navajo Nation.
                       former bennet freeze area
    The Former Bennett Freeze Area. The 40-year development freeze 
imposed by Commissioner of Indian Affairs Robert Bennett in 1966 
affected a 1.6-million acre area that encompasses nine Navajo Chapter 
communities in the western portion of the Navajo Nation. For the FBFA 
to recover and redevelop, there must be a sustained reconstruction 
program implemented over a decade or more. This would be consistent 
with the findings of this subcommittee's July 1993 field hearing. The 
nine Navajo chapters in the FBFA have extended lists of projects they 
need to adequately serve their communities, including housing and 
related infrastructure, solid waste transfer station facilities, fire 
departments, telecommunications infrastructure, assisted living centers 
for seniors, and community facilities such as cemeteries and recreation 
parks. Funding for road repair and maintenance is also an enormous 
challenge. Although the Federal Government bears great responsibility 
to the harm that those in the FBFA continue to suffer, the NHLC 
recognizes that full redevelopment ultimately lies in our own hands. In 
addition to seeking funds, we ask this subcommittee to the support 
private sector partnerships and incentives needed for transformational 
change.
Requests:

    1.  Provide $20 million for critical needs in the Former Bennett 
Freeze Area.

    Critical needs of the FBRA include housing, safe drinking water, 
electricity, timely emergency response services, telecommunications 
infrastructure, and community facilities. We request the subcommittee 
allocate $20 million for housing and related improvements in the FBFA 
out of the BIA Trust Natural Resources Account (Natural Resources 
Subactivity).

    2. Support incentives for private sector investment and the 
streamlining of regulations.

    The NHLC asks the subcommittee to support new incentives to 
encourage private sector investment in the FBFA (and other relocation-
impacted areas). Although legislation to advance incentives may not 
strictly fall within this subcommittee's jurisdiction, as efforts are 
made to advance and pass such legislation, this subcommittee may well 
be asked to be of assistance.

    3.  Expand BIA efforts to mitigate hardship in the relocation and 
redevelopment processes.

    We ask that the subcommittee direct the BIA to expand efforts to 
rehabilitate the former Bennett Freeze. Specifically, we request that 
the subcommittee include report language that would establish a DOI 
taskforce to undertake a review of Interior programs that would benefit 
the FBFA and assist the Navajo Nation in creating jobs and supporting 
workforce development with a goal of strengthening this area (as well 
as the relocation-impacted Navajo chapter communities). Such taskforce 
should include the BIA, Bureau of Reclamation, U.S. Geological Survey, 
Fish and Wildlife Service, and Office of Surface Mining and should 
examine programs such as the Economics and Resource Planning Team and 
Rural Tribal Water Projects.
    Conclusion. All parties would agree that the relocation has gone on 
for far too long. Recent discussions regarding the closure of ONHIR and 
transition of remaining functions have given us the glimpse of an end 
to this sad and painful history. The NHLC is committed to working with 
you to find ways to bring about the end of the relocation era in a 
compassionate manner. Thank you for the opportunity to present this 
testimony.
                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe
    Honorable Chairman and Members of the subcommittee, as Chairman of 
the Nez Perce Tribal Executive Committee, I would like to thank you for 
the opportunity to provide testimony on behalf of the Nez Perce Tribe 
(Tribe) as the Committee evaluates and prioritizes fiscal year 2018 
appropriations for Indian Health Service (IHS), Bureau of Indian 
Affairs (BIA), Environmental Protection Agency (EPA), U.S. Forest 
Service (FS), and U.S. Fish and Wildlife Service (FWS) in relation to 
the needs of Tribal nations.
    First, on behalf of the Tribe, I want to acknowledge and thank this 
subcommittee for your efforts on a longstanding, bipartisan basis to 
understand the needs of Indian Country and advocate for increased 
appropriations to the many programs in your jurisdiction that benefit 
our citizens, our Tribal governments, and all members of our 
communities.
    As with any government, the Tribe performs a wide array of work and 
provides a multitude of services to its Tribal membership as well as 
the community at large. The Tribe has a health clinic, a Tribal police 
force, a social services department, a comprehensive natural resources 
program that does work related to forestry, wildlife management, land 
services and land management, habitat restoration, air quality and 
smoke management, water quality and sewer service, and also has one of 
the largest fisheries departments of any Tribe in the Nation working on 
the recovery of listed species under the Endangered Species Act (ESA). 
The Tribe has a comprehensive administrative framework that provides 
extensive services on the Nez Perce Reservation. These programs are 
necessary and vital for a sovereign nation that preserves and protects 
the Treaty rights of the Nez Perce People and provides day-to-day 
governmental services to its members and surrounding communities. The 
Tribe has long been a proponent of self-determination for Tribes and 
believes our primary obligation is to protect the Treaty-reserved 
rights of the Tribe and our members. All of the work of the Tribe is 
guided by this principle. As a result, the Tribe works extensively with 
many Federal agencies and proper funding for those agencies and their 
work with, for, and through Tribes is of vital importance. This work 
cannot be accomplished unless the U.S. continues to affirm and follow 
through on its trust responsibility to Indian Tribes by properly 
funding programs. The Tribe supports the National Congress of American 
Indians' publication titled ``Investing in Indian Country for a 
Stronger America,'' a comprehensive guide on recommendations for fiscal 
year 2018 funding of Tribal programs.
                    environmental protection agency
    The Tribe has submitted comments on the budget request for programs 
within this subcommittee's jurisdiction for a number of years. We wish 
to note that although prior testimony has put funding for BIA and IHS 
first, this year, given indications that the fiscal year 2018 budget 
request will severely reduce EPA funding and given the breadth and 
array of our work with that agency, we place it first for your 
consideration.
    The Tribe works closely with EPA on a large number of programs that 
are essential to the health and safety of the 18,000 Tribal and non-
Tribal citizens residing within the Nez Perce Reservation and that also 
protect the Treaty-reserved resources of the Tribe that the U.S. has a 
trust obligation to preserve. These programs include: the Clean Water 
Act 106 Program; the Clean Water Act 319 Program; Nonpoint Source (NPS) 
Pollution Prevention Program; the Indian General Assistance Program; 
the Brownfield Program; the Underground Storage Tank Program; the 
Delegation of Nez Perce Federal Implementation Plan; the Clean Air Act 
103 Grant-Nez Perce Tribe Air Quality Project; and the EPA Region 10 
Pesticide Circuit Rider Program. In total, the Tribe currently 
implements over $1.5 million in programmatic funding under these 
programs. The Tribe recommends the Indian General Assistance Program be 
funded at $75 million, the Tribal allocation under the Clean Water Act 
106 program be increased to 20 percent, $13 million for Tribal Air 
Quality Management, $80 million for the Brownfields program, and $13 
million be provided in lieu of the percent cap on Tribal funding for 
NPS pollutant control.
                         indian health service
    The Tribe currently operates Nimiipuu Health, a healthcare clinic 
on the Nez Perce Reservation. The main clinic is located in Lapwai, 
Idaho, with a satellite facility located 65 miles away in Kamiah, 
Idaho. Nimiipuu Health provides services to at least 3,950 patients 
each year. Annually, this computes to 40,000 medical provider visits 
which do not include pharmacy or laboratory visits. This workload is 
very costly. Our expenditure total for fiscal year 2016 was $14,418,561 
and Purchased/Referred Care (P/RC) costs for outpatient services for 
fiscal year 2016 totaled $4,028,595. The clinic spent an additional 
$331,133.67 on P/RC using monies received from settling IHS contract 
support cost litigation.
    For fiscal year 2018, the Tribe supports continuing the $5 billion 
in funding enacted for fiscal year 2017. This funding amount will allow 
Tribes to pay costs, maintain current services, and allow IHS, Tribal, 
and urban programs and facilities to keep up with medical and non-
medical inflation and population growth. The Tribe recommends an 
increase of $51.9 million in funding for PR/C which will help to meet 
the PR/C spending needs of Tribal health facilities.
    The Tribe supports $800 million for fiscal year 2018 contract 
support costs as was provided in fiscal year 2017. In addition, because 
full funding of these obligations is so important to Indian Country, 
the Tribe supports reclassifying contract support costs for the BIA and 
IHS as mandatory and not discretionary beginning in fiscal year 2018. 
However, this change in funding should not be accomplished or be off-
set by reducing other funding for these agencies that would adversely 
affect services or programs. Finally, this funding should not be 
unnecessarily reduced by excessive set-asides for administration. The 
Tribe also recommends permanent, mandatory funding of the Special 
Diabetes Program at $150 million per fiscal year.
                        bureau of indian affairs
    The Tribe supports funding for contract support costs of at least 
the $273 million provided for in fiscal year 2017 and as stated above, 
the reclassification of these costs from discretionary to mandatory, as 
well as a 5 percent increase in overall funding for the BIA. The Tribe 
also requests the fiscal year 2018 Interior appropriations bill include 
a ``Carcieri fix'' to address legal issues that have arisen related to 
the transfer of land into trust which has created uncertainty over the 
status of lands. This uncertainty only stifles and impedes economic 
development in Indian Country.
    In relation to the BIA Public Safety and Justice account, the Tribe 
advocates for at least the $353 million in funding for law enforcement 
and $31 million for Tribal courts that was enacted in fiscal year 2017. 
The Nez Perce Reservation spans 1,200 square miles covering five 
counties and has a mixture of Tribal and non-Tribal residents. The 
Tribe provides a full service law and justice program. The Tribe has a 
fully trained and staffed police force, a fully staffed Tribal court, a 
prosecutor, a public defender, and other personnel to perform related 
administrative functions. Currently, the Tribe contributes $1,797,467 
annually to cover the shortfall in BIA funding for the Tribe's law 
enforcement, $390,927 for judicial services/probation, $365,601 for 
prosecutorial services, $164,860 for public defender services and 
$300,000 for prisoner boarding. This supplemental funding is derived 
from Tribal taxes on goods and fuel and Tribal gaming revenues that 
would otherwise be used for other Tribal governmental services. The 
funding for these programs needs to be increased to account for 
shortfalls in funding the Tribe has to absorb in order to continue the 
operation of these vital services on the Reservation.
    In relation to education, the Tribe requests that funding for the 
Johnson O'Malley program be increased from the static levels of $14.8 
million provided in fiscal years 2016 and 2017, and total funding of 
$35 million be provided for Scholarships and Adult Education and 
Special Higher Education Scholarships. These increases will help 
address the rising costs of attending college. The Tribe also supports 
$2.5 million, if not an increase, for Tribal Education Departments 
along with increases for Tribal Colleges and Universities that support 
institutions like Northwest Indian College that operates a satellite 
campus on the Nez Perce Reservation.
    The Tribe also relies on the BIA for funding for our work related 
to endangered species and protection of the Tribe's Treaty resources 
including Chinook and steelhead salmon. The funding has also been used 
to supplement research efforts of the Tribe relative to other sensitive 
species. Particularly helpful and important to the Tribe is the BIA 
Endangered Species Program for which the Tribe recommends a $1 million 
increase. This account provides Tribes with technical and financial 
assistance to protect endangered species on trust lands. Also, the 
Tribe recommends an increase of $2.8 million for BIA Natural Resource 
Tribal Priority Allocations which will help increase Tribal land and 
management capabilities.
    In addition, the funding provided under the BIA Rights Protection 
implementation monies are critical to support the exercise of treaty 
reserved, off-reservation hunting and fishing for Tribes. The Tribe 
supports total funding in the amount of $40 million. BIA single-line 
dollars provide the foundation for core program administration and 
treaty rights protection activities, such as harvest monitoring. These 
efforts are central to the Tribe's fisheries management 
responsibilities as established by the Treaties and further delineated 
in court decisions regarding implementation of hunting and fishing 
Treaty rights. It is important to understand that this funding is not 
for equipment but is used for job creation.
    The Tribe also supports $15 million in funding for the BIA Wildlife 
and Parks Tribal Priority Allocations. As stated earlier, the Tribe has 
invested a significant amount of personnel and resources in the 
restoration of salmon through our fisheries programs. The States of 
Oregon, Washington and Idaho, as well as sports fisheries, directly 
benefit from this work. These programs have been successful with 
funding under the Tribal Management and Development Program which is 
critical for the Tribe's management of fish and wildlife. We support 
funding in the amount of $14 million for the Tribal Management and 
Development Program.
         u.s. fish and wildlife service and u.s. forest service
    The Tribe relies heavily on funding sources within the FWS and the 
FS. First, the operations of Kooskia National Fish Hatchery are funded 
by FWS. The Tribe manages this facility pursuant to the terms of the 
Snake River Water Rights Act of 2004 (Act). FWS requires full funding 
for the operations of this important facility to ensure the U.S. meets 
its obligations under this Act. Second, the FWS administered State and 
Tribal Wildlife Grants program is an important and cost effective 
expenditure for the government and is one of the few sources of funds 
Tribes can tap into for wildlife research. Since 2005, we have received 
five such grants that have allowed us to work on diverse issues such as 
gray wolf monitoring, bighorn sheep research, rare plant conservation, 
and Condor habitat research. Continued funding for the State and Tribal 
Wildlife Grant program will allow recipient Tribes to build capacity 
and maintain involvement in key conservation issues. The Tribe strongly 
urges this subcommittee to increase funding for these competitive 
grants to $66 million and increase the Tribal share by $2 million as 
they provide a large return for a small investment.
    Related to forest management, the Tribe supports the inclusion of 
language in the fiscal year 2018 Interior appropriations bill for 
wildfire disaster funding that treats wildfires like other natural 
disasters and emergencies to help prevent funds from having to be 
diverted from forest management. We thank the subcommittee for your 
efforts on this critical issue.
    The Nez Perce Reservation and its usual and accustomed areas are 
rich in natural resources and encompass 11 national forests. The Tribe 
works closely with each forest's administration to properly manage its 
resources on behalf of the Tribe. These range from protecting and 
properly managing the products of the forest to providing habitat for 
the vast wildlife in each one such as elk, deer, bighorn sheep and 
wolves. Increased funding is necessary so that the FS can meet these 
trust obligations and continue to work with Tribes on a government-to-
government basis without being hampered by lack of funding to fill 
positions.
    With regard to management of bighorn sheep, the Tribe would like to 
note that the subcommittee has included report language over the last 
several years that encourages research related to disease transmission 
between domestic sheep and bighorn sheep. The Tribe encourages this 
type of research mandate to be restricted to laboratory settings and 
not be allowed to occur in the field where impact and harm would be 
more difficult to control. The bighorn sheep populations within the 
Tribe's aboriginal territories are too fragile and too important to be 
put at risk.
    Thank you for the opportunity to testify today. As you can see, the 
Tribe does a tremendous amount of work in a variety of areas. It is 
important that the U.S. continue to fund this work and uphold and honor 
its trust obligations to Tribes.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Chair Lisa Murkowski, Ranking Member Tom Udall and Members of the 
subcommittee, for the record my name is Lorraine Loomis and I am chair 
of the Northwest Indian Fisheries Commission (NWIFC). The NWIFC is 
comprised of the twenty Tribes that are party to United States v. 
Washington \1\ (U.S. v. Washington), which upheld the Tribes' treaty-
reserved right to harvest and manage various natural resources on and 
off-reservation, including salmon and shellfish.
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
    On behalf of the NWIFC, I am here today to speak specifically to 
our fiscal year 2018 natural resources management and environmental 
program funding requests for the Bureau of Indian Affairs (BIA) and 
Environmental Protection Agency (EPA). These programs are necessary to 
meet the many natural resources management responsibilities required of 
the Tribes, including the management of Pacific salmon fisheries that 
contributes to a robust natural resource-based economy and the 
continued exercise of Tribal treaty rights to fish.

          SUMMARY OF FISCAL YEAR 2018 APPROPRIATIONS REQUESTS

                        bureau of indian affairs
Provide $56.5 million for Rights Protection Implementation (collective 
request)
        Provide $17.146 million for Western Washington Fisheries 
        Management
        Provide $3.082 million for Washington State Timber-Fish-
        Wildlife
        Provide $4.844 million for U.S./Canada Pacific Salmon Treaty
        Provide $2.4 million for Salmon Marking
        Provide $5.442 million for Climate Change
Provide $10.378 million for Hatchery Operations and Maintenance
Provide $273.0 million for Contract Support
Provide $30.355 million for Cooperative Landscape Conservation
Provide $830,000 for Watershed Restoration
                    environmental protection agency
Provide $96.4 million for General Assistance Program
Provide $50.0 million for Puget Sound Geographic Program
Provide $5.0 million for Beyond GAP

                       JUSTIFICATION OF REQUESTS

                        bureau of indian affairs
Rights Protection Implementation Subactivity
    The 41 Tribes in the Great Lakes and Pacific Northwest with similar 
treaty-reserved rights have collectively identified that no less than 
$52.0 million for Rights Protection Implementation (RPI) is necessary 
to support essential Tribal treaty-reserved resource management. The 
NWIFC has also identified an additional need of $4.5 million for RPI 
Climate Change, bringing our total request for RPI to $56.5 million. 
The fiscal year 2017 enacted level provides $39.661 million for RPI.
    A summary of the accounts of interest to us within RPI is further 
identified below. However, please note that a breakdown of these 
accounts is not provided in the BIA's fiscal year 2018 Greenbook.
    Provide $17.146 million for BIA Western Washington Fisheries 
Management.--We respectfully request $17.146 million; an increase of 
$8.614 million over the fiscal year 2016 enacted level of $8.532 
million. Funding for this program supports the Tribes to co-manage 
their treaty-reserved resources with the State of Washington, and to 
continue to meet court mandates and legal responsibilities. For 
example, funding supports harvest planning, population assessments, 
data gathering for finfish, shellfish, groundfish, wildlife, and other 
natural resource management needs.
    Provide $3.082 million for BIA Washington State Timber-Fish-
Wildlife (TFW).--We respectfully request $3.082 million; an increase of 
$346,000 over the fiscal year 2016 enacted level of $2.736 million. 
Funding for this program is provided to improve forest practices on 
State and private lands, while providing protection for fish, wildlife 
and water quality. This funding supports the Tribes' participation in 
the Timber, Fish and Wildlife Agreement--a collaborative 
intergovernmental and stakeholder processes between the State, 
industry, and Tribes.
    Provide $4.844 million for BIA U.S./Canada Pacific Salmon Treaty.--
We respectfully request $4.844 million; an increase of $564,000 over 
the fiscal year 2016 enacted level of $4.28 million. The Pacific Salmon 
Treaty (PST) Act of 1985 charges the U.S. Section of the Pacific Salmon 
Commission (PSC) with the responsibility for implementation of the PST, 
a bilateral treaty with Canada. Tribes assist the Federal government in 
meeting its obligations to implement the treaty, by participating in 
various fisheries management exercises including cooperative research 
and data gathering activities. This funding request will provide 
sufficient resources to support Tribes to continue effective 
participation in the bilateral PST process.
    Provide $2.4 million for BIA Salmon Marking.--We respectfully 
request $2.4 million; an increase of $1.332 million over the fiscal 
year 2016 enacted level of $1.068 million. Since 2003, Congress has 
required that all salmon released from federally funded hatcheries are 
marked for conservation management purposes and has provided funding to 
implement this mandate. This funding allows Tribes to mark salmon at 
Tribal hatcheries and to use these marked fish to scientifically 
monitor salmon populations in western Washington.
    Provide $4.5 million for BIA Climate Change.--We respectfully 
request $4.5 million for Climate Change for our member Tribes; an 
increase of $2.118 million over our fiscal year 2016 allocation. The 
fiscal year 2016 appropriations provided a collective (Great Lakes and 
Northwest) total of $5.442 million, of which our member Tribes received 
$2.382 million. Funding for this program will provide Tribes the 
capacity to identify, respond and adapt to the impacts of our changing 
climate. There is a need to assess the potential impacts to Tribal 
treaty-reserved resources in the face of climate change, which brings 
different challenges for every Tribal community. It is important that 
Tribes be provided the maximum flexibility to develop watershed and 
site-specific science-based activities to meet their particular needs.
Fish, Wildlife & Parks Projects/Fish, Wildlife and Parks Subactivity
    Provide $10.378 million for Hatchery Operations and Maintenance.--
We respectfully request $10.378 million specifically for Hatchery 
Operations and Maintenance; an increase of $2.0 million over the $8.378 
million provided for these programs in fiscal year 2016. Funding is 
provided to Tribal hatcheries to support the rearing and releasing of 
salmon and steelhead for harvest by Indian and non-Indian fisheries in 
the U.S. and Canada. Hatcheries are a necessary component of fisheries 
management because habitat degradation has greatly diminished natural 
spawning populations. As such, hatcheries are now essential for 
maintaining the treaty right to harvest fish. Without hatcheries, 
Tribes would lose their most basic ceremonial and subsistence fisheries 
that are central to our Tribal culture. Hatcheries also play a large 
role in recovering Pacific salmon, many of which are listed under the 
Endangered Species Act.
    Funding for Fish Hatchery Maintenance is provided to Tribes 
nationwide based on the ranking of annual project proposals. A 
comprehensive needs assessment study for our western Washington Tribes 
was conducted in fiscal year 2006 by the BIA at the request of 
Congress, which identified a need of over $48.0 million in necessary 
hatchery maintenance and rehabilitation costs.
Other Subactivities and Accounts
    Provide $273.0 million for BIA Contract Support.--We respectfully 
request $273.0 million, which would maintain funding at the fiscal year 
2017 enacted level. We also support the reclassification of Contract 
Support Costs (CSC) as mandatory funding beginning in fiscal year 2018. 
Funding for this function is provided to Tribes and Tribal 
organizations to ensure they have the capacity to manage Federal 
programs under self-determination contracts and self-governance 
compacts. These funds are critical as they directly support our 
governmental functions, which allow us to fully exercise our right to 
self-govern.
    Provide $30.355 million for BIA Cooperative Landscape 
Conservation.--We respectfully request $30.355 million; an increase of 
$20.399 million over the fiscal year 2017 enacted level of $9.956 
million. Funding for this program will support Tribal capacity to 
participate in and provide input on climate change issues that impact 
fisheries and other treaty-reserved resources. It will also allow 
Tribes to provide their perspective on climate change adaptation and 
resiliency necessary to protect their treaty-reserved rights, which is 
informed by both traditional ecological knowledge and scientific 
research.
    Provide $830,000 for BIA Watershed Restoration.--We respectfully 
request $830,000 for the western Washington treaty Tribes. Funding has 
historically been contained in the Forestry Subactivity--Forestry 
Projects--Watershed Restoration account and supports our Salmon and 
Steelhead Habitat Inventory and Assessment Program (SSHIAP). SSHIAP is 
a vital program to the western Washington Tribes, because it provides 
essential environmental data management, analysis, sharing, and 
reporting to support Tribal natural resource management. It also 
supports our Tribes' ability to adequately participate in watershed 
resource assessments and salmon recovery work.
                    environmental protection agency
    Provide $96.4 million for EPA General Assistance Program (GAP).--We 
respectfully request $96.4 million; an increase of $30.924 million over 
the fiscal year 2017 enacted level of $65.476 million. GAP is important 
because it provides the capacity for Tribes across the Nation to 
develop and operate essential environmental protection programs. These 
programs help our member Tribes address environmental issues such as 
water pollution, which impacts Tribal health and safety, as well as 
treaty-reserved resources.
    Provide $50.0 million for EPA Puget Sound Geographic Program.--We 
respectfully request $50.0 million; an increase of $22.0 million over 
the fiscal year 2017 enacted level of $28.0 million. This Geographic 
Program provides essential funding that will help protect and restore 
Puget Sound--an estuary of national significance. Funding for this 
program is essential for Tribes because it supports our participation 
in a broad range of Puget Sound recovery work, including, scientific 
research, resource recovery planning, implementation, and policy 
discussions on issues that affect our treaty rights.
    Provide $5.0 million for EPA ``Beyond GAP''.--We respectfully 
request $5.0 million for EPA ``Beyond GAP'' and accompanying 
legislative language that would specifically allow Tribes to use this 
funding for implementing Tribal programs. We also request an increase 
to the Tribal allocations in EPA CWA Sec. 104, Sec. 106 and Sec. 319, 
and CAA Sec. 103 and Sec. 105 programs to allow for media-specific 
implementation priorities. This ``Beyond GAP'' request would advance 
the EPA/Tribal partnership from solely funding capacity building to 
funding environmental programs capable of implementing a broad range of 
management activities necessary to protect health and safety, as well 
as treaty-reserved resources.

                               CONCLUSION

    We respectfully urge the Subcommittee to continue to support our 
efforts to protect and restore our treaty-reserved rights that in turn 
will provide for thriving communities and economies. Thank you.

    [This statement was submitted by Lorraine Loomis, Chair.]
                                 ______
                                 
       Prepared Statement of the Norton Sound Health Corporation
    The requests of the Norton Sound Health Corporation (NSHC) for the 
fiscal year 2018 Indian Health Service (IHS) budget are as follows:
  --Continue support and funding for the IHS Joint Venture program, 
        which should be expanded to allow behavioral health programs to 
        participate, and provide increased funding for staffing and for 
        the IHS facilities appropriation, as sufficient to help ensure 
        Norton Sound can construct and fully staff a new Wellness and 
        Training Center, which is needed for providing critical 
        substance use disorder and behavioral health services.
  --Direct IHS to accept small ambulatory clinic funding applications 
        for new health clinics that are construction-in-progress or 
        consider negotiating staffing funds for new facilities.
  --Expand and streamline funding for sewer and water projects.
  --Make funding for Village Built Clinics recurring every year, which 
        should be shown as a line item in the IHS budget and displayed 
        in the Budget Justification.
  --Ensure full funding of contract support costs.
  --Increase funding for behavioral healthcare services.
  --Shield IHS funding from sequestration.
    The Norton Sound Health Corporation (NSHC) is the only regional 
health system serving Northwestern Alaska, along the Bering Strait 
Region. We are not connected by road to any other part of the State, 
and are 500 air miles from the City of Anchorage (roughly the distance 
from Washington, D.C. to Portland, Maine). Our service area encompasses 
44,000 square miles. The system includes a regional hospital, which we 
own and operate under an Indian Self-Determination and Education 
Assistance Act (ISDEAA) agreement, and 15 village-based clinics.\1\
---------------------------------------------------------------------------
    \1\ We serve the communities of: Brevig Mission, Council, Diomede, 
Elim, Gambell, Golovin, King Island, Koyuk, Mary's Igloo, Nome, St. 
Michael, Savoonga, Shaktoolik, Shishmaref, Solomon, Stebbins, Teller, 
Unalakleet, Wales, and White Mountain.
---------------------------------------------------------------------------
    Remove Restrictions on Joint Venture Construction Projects To 
Include Behavioral Health Facilities, and Increase Funding For IHS 
Joint Venture and Facilities Construction Funding. Substance use 
disorders and the costs associated with substance use in NSHC's region 
is at a crisis level. Substance abuse is present in 95 percent of law 
enforcement calls and incarcerations, in 92 percent of child protective 
services cases, and in 95 percent of referrals to women's shelters. The 
related healthcare costs, not only for substance-related treatment, but 
also connected with school and vocational drop-outs, suicides, and lost 
productivity continue to skyrocket.
    While general outpatient services are a critical tool for 
addressing these concerns, many times patients need an even higher 
level of care in order to receive the deep clinical counseling required 
to combat a lifetime of substance abuse. In response to a community 
survey, in which NSHC's communities identified a significant need for 
addressing substance use and treatment options in a culturally 
sensitive manner, NHSC is developing a new Wellness and Training Center 
in order to provide a full continuum of treatment locally. The services 
will include detoxification, intensive outpatient services, day 
treatment and sober housing. Because people are literally dying in our 
region from addiction, this project is critical to help NSHC promote 
healing and to put the brakes on the rampant substance use in our 
region. This multipurpose building will also house our Health Aide 
Training Program, one of only four Health Aide Training sites in 
Alaska. Over seventy Health Aides are employed by Norton Sound Health 
Corporation and deliver nearly 70 percent of the healthcare in the 
region. Their training needs are comprehensive and must be maintained. 
This new training space will allow for increased classroom sizes to 
sustain the quality program.
    NSHC has finished designing the new Wellness and Training Center 
and is ready to begin site work and pad preparation this year, with 
construction to start in 2018. The Center will be located near the 
Norton Sound Regional hospital in Nome, Alaska. We have funded the 
design work and initial phases of the project through grant funding and 
donations, as well $1.9 million of NSHC's own funding. Although NSHC 
has pledged another $2.5 million toward construction, the total cost of 
the construction project remains at $11.8 million. NSHC has also with 
its own funds started construction of two ancillary health clinics in 
the villages of Savoonga and Gambell.
    It was understood that the Small Ambulatory Clinic Fund, if 
approved, would support construction funding for both Gambell and 
Savoonga health clinics. The IHS has now reneged on its funding for 
these projects, claiming that because construction has already started, 
the projects are not eligible for funding as small ambulatory clinic 
projects or joint venture construction projects under the Indian Health 
Care Improvement Act (IHCIA). IHS has also denied funding for the 
Wellness and Training Center because it would include a behavioral 
health component, even though the new Title VII to the IHCIA has 
emphasized the need for behavioral health components to Tribal health 
programs. There is nothing in the IHCIA that prohibits the IHS from 
funding these construction projects under applicable IHCIA authorities 
just because they have already been started, nor is there any 
limitation in the law that a Tribal wellness center may not include a 
behavioral health component. Behavioral health facilities, like any 
healthcare facility in Indian country, are in desperate need of 
additional funding for staffing and operating their programs.
    NSHC thus requests that the Subcommittees take up this issue with 
IHS regarding their restrictive policies on eligibility for the fiscal 
year 2017 funds, and include fiscal year 2018 report and/or statutory 
language requiring the IHS to fund these projects from fiscal year 2018 
funds provided to implement these IHCIA authorities. NSHC also asks 
that the Subcommittees continue to fund and support the IHS Joint 
Venture program, as it is critically important for helping to address 
the significant backlog of facilities needs that continues to exist 
throughout Indian country. We also request that staffing funds be made 
available for clinics built by Tribes and Tribal organizations, as 
recurring money for staffing would go a long way toward supporting 
Tribal efforts to construct and operate new facilities in place of 
aging ones. We also ask the Subcommittees to support increased funding 
for the IHS facilities appropriations, as the amount of funding being 
appropriated for facilities construction and for maintenance and 
improvement of existing facilities is not currently adequate to cover 
the very substantial facility requirements that exist in Indian country 
and throughout the Alaska Tribal health system. Without facilities in 
which to provide healthcare, we cannot meet our communities' needs for 
quality and available local treatment.
    Funding For Water & Sewer Projects. Five villages within the Bering 
Strait region are still to this day completely unconnected to any 
running water and sewer. Those villages are Diomede, Wales, Shishmaref, 
Stebbins and Teller. In three other of NSHC's communities, 30-50 
percent of the homes still lack such connections, and ongoing sewer and 
water upgrades and maintenance backlogs remain concerns in seven other 
of our communities.
    Multiple Federal programs help to fund water and sewer projects, 
including grant programs through the U.S. Department of Agriculture and 
Environmental Protection Agency (EPA), as well as through the IHS. 
However, Federal funding streams must be coordinated in order to 
complete construction of a system in a community. For example, the 
EPA's Safe Drinking Water Act funding can only be used for community 
water facilities and water service lines, but not for interior 
plumbing. IHS housing support funds can be used for water and sewer 
facilities to non-HUD ``like new'' native owned/occupied homes, but 
regulations currently prevent connection to newer HUD-built homes. The 
regulatory structure is thus complex and makes for complicated planning 
and funding challenges.
    NSHC believes it would be beneficial to streamline and align 
Federal agency authorities through the IHS. Establishing a program 
within the IHS that would allow Tribes to enter into contracts with the 
private sector, use Federal sewer and water funding from multiple 
agencies to support the complete construction of running water and 
sewer in a community would lead to a clear path toward water and sewer 
development, rather than the piecemeal approach that exists today. We 
thus request the subcommittees' support for establishing such a program 
within the IHS, and for expanding the current funding within the IHS 
budget that is allocated toward water and sewer projects. In this day 
and age, we should not have communities, nor homes within communities, 
that are unconnected to safe water and sewer.
    Additionally, we want to bring to the Subcommittees attention that 
as we consider reforms to regulatory structure for water and sewer 
projects, we are experiencing in our communities in Alaska the very 
real problem of climate change. Increasing temperatures are changing 
Alaska: thawing permafrost and eroding costal and river shorelines are 
damaging and shortening the operating life of critical sanitation 
infrastructure in Native communities. The State of Alaska and the 
Federal General Accounting Office have identified 31 threatened Native 
communities, 12 of which are looking at relocating their villages. 
Funding for programs impacted by climate change, such as those related 
to addressing flooding and erosion, must not be cut, and we ask the 
Subcommittees to help encourage the Federal funding agencies to be more 
responsive to the need for research and development, in order to 
address the sewer and water needs in these communities that are 
threatened by climate change.
    Village Built Clinics. NSHC has testified for several years now 
about the chronic underfunding of our Village Built Clinics (VBCs). We 
cannot overstate the importance of the VBCs in Alaska. Anyone can try 
to imagine living in a very remote village with no roads and 
unpredictable weather, while a need for healthcare services arises, and 
can appreciate how the VBCs are necessary to ensure there is an 
available, local source of healthcare in such situations. We thus want 
to thank Congress for funding the $11 million increase for Tribal 
health clinic leases in the fiscal year 2017 Consolidated 
Appropriations bill. However, we now ask for the Subcommittees' support 
to make VBC funding recurring every year, and request that additional 
funding be provided. In 2015, the Alaska Native Health Board estimated 
that $12.5 million was needed in addition to the existing $4.5 million 
base. Accordingly, the $11 million increase in fiscal year 2017 was a 
major step forward, but still does not cover the full amount of need. 
In addition, without a separate line item for VBCs, much of the funding 
could be distributed to other types of facility leases, leaving the 
VBCs even more short on necessary funding. We thus also request that 
VBC funding be shown as a line item in the IHS budget and displayed in 
the Budget Justification in order to assist with planning and certainty 
for our VBCs.
    Funding For Contract Support Costs. We wish to express our 
gratitude for the Subcommittees' leadership in making funding of IHS 
contract support costs (CSC) for fiscal years 2016 and 2017 an 
indefinite amount, and for making CSC a separate account in the IHS 
budget. This has made a tremendous difference in our ability to 
implement our healthcare programs under the Indian Self-Determination 
and Education Assistance Act (ISDEAA). Our objective, though, continues 
to be the indefinite appropriation of CSC funding as mandatory and 
permanent. Full payment of CSC is not discretionary; it is a legal 
obligation under the ISDEAA, affirmed by the U.S. Supreme Court. NSHC 
remains committed to working together with the appropriate 
Congressional committees to determine how best to achieve this 
objective.
    Additional Issues. We have in the past testified in support of the 
Obama Administration's and the Senate Subcommittee's recommendation for 
$25 million for an IHS Behavioral Health Integration Initiative. The 
final bill does not contain that amount, although there is an overall 
fiscal year 2017 $12 million increase for the Mental Health Account 
(from $82 million to $94 million). We hope that fiscal year 2018 
funding will be provided to build on this Initiative. We have also 
several times in the past requested that the IHS budget from 
sequestration. We again ask the Subcommittees' support for this 
request.
    Thank you for your consideration of the concerns and requests of 
the Norton Sound Health Corporation.

    [This statement was submitted by Christopher Bolton, Chief 
Operating Officer.]
                                 ______
                                 
Prepared Statement of the Officers of the Environmental Council of the 
                                 States
    Dear Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee:

    The undersigned Officers of the Environmental Council of the States 
(ECOS), on behalf of the organization, submit this testimony on the 
President's proposed fiscal year 2018 budget for the U.S. Environmental 
Protection Agency (EPA), and specifically regarding the Categorical 
Grants within the State and Tribal Assistance Grants (STAG Categorical 
Grants).
    States are collectively and independently reviewing the President's 
proposal. We appreciate the interactions and outreach by the 
Administration to seek State input on the budget to date, and look 
forward to further engagement on the budget with the administration and 
congressional delegations. It will be important that budget adjustments 
are made thoughtfully and with caution to assure sustained support to 
programs that advance the well-being of our communities and to the many 
partnerships we employ to deliver programs that drive critical 
environmental and public health protection.
    The administration's proposed funding of $597 million for the STAG 
Categorical Grants continues a national conversation about how to 
deliver environmental programs in our country efficiently and with a 
focus on results and outcomes.\1\ ECOS is committed to, with our 
Federal, State, and local partners, assessing how we, collectively, 
perform environmental protection work today in the most efficient, 
least duplicative, manner possible.
---------------------------------------------------------------------------
    \1\ ECOS notes that some funding for States is contained in other 
parts of the EPA proposed budget. For purposes of this testimony, 
however, ECOS focuses on the STAG Categorical Grants.
---------------------------------------------------------------------------
                     core state environmental work
    Through authorization and delegation over the last 45 years, States 
have become the primary implementers of Federal environmental statutes, 
today with 96 percent of the delegable authorities under Federal law. 
The STAG Categorical Grants fund core State environmental work, which 
include all aspects of operating delegated Federal programs such as 
issuing permits, conducting inspections, setting standards, collecting 
and managing data, bringing enforcement actions, providing compliance 
assistance and inspections, evaluating information submitted by 
regulated entities, citizen complaint response, external engagement and 
communication, developing regulations, drafting policies, classifying 
waterbodies, preparing for and responding to accidental or intentional 
releases of contaminants, and cleaning up and restoring sites. The STAG 
Categorical Grants make up on average 27 percent of State Environmental 
Agency Budgets.\2\ Decreases in STAG Categorical Grants will have 
impacts on State environmental agencies that must be thoughtfully 
considered.
---------------------------------------------------------------------------
    \2\ https://www.ecos.org/news-and-updates/green-report-on-status-
of-environmental-agency-budgets/.
---------------------------------------------------------------------------
                   supercore stag categorical grants
    While all the STAG Categorical Grants are important to States, ECOS 
identified several STAG Categorical Grants as ``supercore'' because 
they directly support core State environmental responsibilities. 
Supercore STAG Categorical Grants sustain State performance of core 
legal obligations and health protection responsibilities. They are:
  --Hazardous Waste Financial Assistance (RCRA Core Funding)
  --Water Pollution Control (Clean Water Act Section 106)
  --State and Local Air Quality Management (Clean Air Act Sections 103, 
        105, 106)
  --Nonpoint Source Control (Clean Water Act Section 319)
  --Public Water System Supervision (PWSS) (Safe Drinking Water Act 
        Section 1443(a))
  --Environmental Information (E-Permitting, Modernization of Data 
        Systems)
  --Multipurpose Grants (created in fiscal year 2016 Omnibus for State 
        defined high priority activities)
    The new Multipurpose Grants are the type of flexible, State-
priority informed funding that States have been seeking for a long 
time. In 2016 all 56 States, territories, and the District of Columbia 
accepted the share of the $19,800 million in Multipurpose Grants 
funding for which they were eligible. Projects undertaken included 
National Ambient Air Quality Standards implementation activities, 
process or system improvement efforts (many involving electronic data 
management systems), water pollution control, drinking water, and 
pesticides. Most importantly, the selected projects were important to 
the respective States, territories, and the District of Columbia.
                         state revolving funds
    We acknowledge the administration's clear signal in favor of water 
infrastructure investment, with level funding proposed for the STAG 
State Revolving Loan funds (SRF). States recognize the significant need 
for investment in clean and safe water infrastructure nationally; ECOS 
recently documented that just the top 20 ready to go in 2017 water and 
wastewater projects per State total over $14.4 billion.\3\ SRF funds 
are not cost-free to States--there is a 20 percent State match 
required. And while States can set-aside up to 31 percent of drinking 
water SRF funds to support State programs and activities to ensure safe 
drinking water, and 4 percent of clean water SRF funds for 
administrative costs, the overwhelming majority of SRF funds are 
distributed out to communities and are not for supporting the core 
State environmental work discussed above.
---------------------------------------------------------------------------
    \3\ https://www.ecos.org/documents/ecos-inventory-of-states-2017-
ready-to-go-water-and-wastewater-projects/.
---------------------------------------------------------------------------
                              rescissions
    States have voiced concerns that funds must be dispersed in a 
timely manner to allow efficient and effective use by States. States 
are currently working with EPA to address this real issue and improve 
administrative processes. We urge Congress to consider this ongoing 
concern and work as a basis to not include rescissions of unobligated 
STAG funds in the fiscal year 2018 enacted budget. For rescissions 
which are necessary in future years, we suggest rescissions should be 
taken equitably across Federal and State grant accounts.
                     the importance of flexibility
    States are managing State level cuts to their budgets, and historic 
flat Federal STAG funding, by leaning business processes and by 
strategically applying practices that improve efficiency, such as 
targeting inspections to priority areas and implementing technological 
advancements. Within each State, needs and priorities can vary in part 
from priorities set by EPA at the Federal level. State commissioners 
require maximum flexibility to direct the Federal resources in ways 
that suit their unique needs and circumstances. While the States may 
agree with and appreciate funding for specific efforts, States need 
flexibility to budget for and implement work activities most 
effectively. Directed funding undermines State flexibility and needed 
support for on-going every day implementation of the Nation's 
environmental laws. The States, as co-regulators with EPA, wish to 
preserve and expand State flexibility to address State and regional 
priorities within EPA's national framework. Fewer funding directives 
and instructions help streamline State-EPA discussions about the work 
to be accomplished and allow States to move more quickly to turn 
appropriated Federal dollars into positive environmental and public 
health results.
                     epa's scientific research role
    State environmental agencies significantly value much of the 
research that EPA performs. States recently submitted to EPA for 
consideration a comprehensive inventory of current State research 
priorities.\4\ Ensuring that EPA has sufficient funding to directly 
assist States with key research needs is important, part of effective 
government, and much more efficient than multiple States seeking to 
answer common environmental science questions. ECOS hopes to work with 
the administration and Congress to see that appropriated EPA research 
dollars respond to identified State environmental agency research 
needs.
---------------------------------------------------------------------------
    \4\ https://www.ecos.org/wp-content/uploads/2017/04/ERIS-Survey-
Summary-One-Pager.pdf.
---------------------------------------------------------------------------
                a call to revisit cooperative federalism
    The amount of Federal funding appropriate for environmental 
programs delegated to States is closely related to how we collectively 
view cooperative Federalism. States are committed to engaging the 
Congress, the administration, and all other parties and interests in 
how we can more fully define how cooperative Federalism today impacts 
policy, operations, and fiscal positions, and how we ensure effective 
public health and environmental protections. We believe that we can 
build on the foundations of national statutes, learn from the 
innovations and successes of State programs, and confidently meet the 
challenge of providing 21st century environmental protection with the 
best of 21st century methods and relationships.
                               conclusion
    ECOS values our work with the Appropriations Committee and 
Subcommittee, and appreciates consideration of our views. We are 
confident the funding appropriated will be well used, and that States 
will continue their dedicated efforts to deliver the clean environment 
all Americans want and deserve in the most efficient, modern, and 
results-oriented way possible. We welcome the opportunity to answer any 
questions or provide any further information. Questions about our 
testimony can be directed to ECOS' office at 50 F Street NW, Suite 350, 
Washington D.C. 20001, via email to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="543530213a3a1431373b277a3b26337a">[email&#160;protected]</a>
    We thank you for the opportunity to share our perspectives, and are 
willing to provide the subommittee with any input in the future.

        John Linc Stine, Commissioner, Minnesota Pollution Control 
        Agency, ECOS President.

        Todd Parfitt, Director, Wyoming Department of Environmental 
        Quality, ECOS Vice President.

        Becky Keogh, Director, Arkansas Department of Environmental 
        Quality, ECOS Secretary/Treasurer.

        Martha Rudolph, Director of Environmental Programs, Colorado 
        Department of Public Health and Environment, ECOS Past 
        President.
                                 ______
                                 
              Prepared Statement of the Oglala Sioux Tribe
                                summary
    The Oglala Sioux Tribe requests:
  --An additional $200 million for BIA law enforcement, including 
        officer training, Tribal court personnel, and construction and 
        maintenance of Tribal detention facilities;
  --$85.3 million for substance use disorder programs;
  --$6.2 billion for the Indian Health System;
  --Funding for road construction;
  --$25 million for water infrastructure;
  --Funding for education and recreation facilities, youth safe houses, 
        community centers, including $620,000 for juvenile detention 
        education in BIA-funded facilities; and
  --Funding for child protective services.
                              introduction
    Thank you Chairman Murkowski, Ranking Member Udall, and Members of 
the subcommittee for your work on behalf of Indian Country. It is truly 
appreciated. While we know you have made progress through your hard 
work, the chronic underfunding of Indian Country programs and treaty 
obligations over the years is taking an enormous toll. It is quite 
literally costing lives as needs such as healthcare, behavioral health, 
and law enforcement go underfunded. Without adequate funding to operate 
fundamental government services, such as our court system and child 
protective services, we face the dilemma of how to continue 
administering these services ourselves. Underfunding, therefore, 
threatens our ability to exercise our rights to self-determination and 
sovereignty.
    The Sioux Treaty of 1868 promised certain benefits and annuities 
each year to the bands of the Great Sioux Nation. Congressional 
ratification of that treaty cemented into law the United States' 
obligation to make appropriations for the Oglala Sioux Tribe. We ask 
you to fulfill those treaty obligations.
                 law enforcement and the meth epidemic
    In May 2016, our Tribe declared a State of Emergency on the Pine 
Ridge Reservation because of the shortage of Tribal Police officers and 
law enforcement resources. This shortage has resulted in a sharp 
increase in crime and an inability of our Tribal Police to guarantee 
the health and safety of our citizens, which results in inter-
generational cycles of trauma as children are exposed to high rates of 
violence and substance abuse. We understand that funding in the Office 
of Justice Service's account for criminal investigations and police 
services flows more heavily to criminal investigators rather than 
police officers. We need adequate funding for each of these important 
positions. Decades of underfunding Tribal public safety programs has 
fueled an unprecedented spike in violent crime and drug trafficking, 
consistent with the methamphetamine and heroin epidemic throughout the 
Great Plains Region. With only four officers covering our approximately 
3 million acres per 12-hour shift, our Tribe simply does not have the 
necessary resources for public safety purposes. Each officer is 
personally responsible for 700,000 acres, without adequate support or 
backup and at great personal risk. The BIA has acknowledged that we 
need a minimum of about 95 more officers, but funds are not available 
to address this need.
    Our criminal justice system is in critical need of funding. The 
Kyle Justice Center has been at the top of BIA's construction priority 
list for over 15 years. This short-term holding facility, court, and 
911 call center is desperately needed but sits 100 percent complete for 
design. It is shovel ready. Additionally, our Tribal Court is so 
severely lacking in funding that we fear facing the dilemma of whether 
we can continue to exercise this fundamental aspect of our sovereignty.
    A Tribe's ability to exercise its sovereignty and protect its 
citizens should not be dependent on its wealth. In order to fulfill 
these basic treaty rights, we request an additional $200 million for 
BIA law enforcement, including officer training, Tribal Court 
personnel, and the construction and maintenance of Tribal detention 
facilities. We also request $85.3 million for IHS substance use 
disorder programs.
                 indian health care in the great plains
    One of the United States' most sacred treaty obligations is 
providing for Indian healthcare. In the Great Plains, this moral and 
legal responsibility has been very nearly abandoned. Our citizens are 
among the poorest and most disenfranchised in the country. The 
``Washington Post'' recently reported on a study that demonstrates that 
Oglala Lakota County has among the lowest life expectancy in the 
country.\1\ Last year the Senate Committee on Indian Affairs held an 
oversight hearing and a field hearing on the poor quality of care 
received at IHS facilities in the Great Plains. Despite increased 
oversight and accountability efforts, our healthcare crisis continues 
to unfold. At the root of the Great Plains Health Care crisis is the 
glaring fact that IHS is only funded at about 60 percent of need. IHS 
must be able to recruit and retain high-quality employees, and that 
requires funding for salaries, housing, and training in addition to 
increased employee accountability. Additionally, there must be adequate 
facilities. Our Pine Ridge Hospital struggles with inadequate space to 
serve its user population. The IHS Service Unit profile States that the 
active user population exceeded the designed user population in 2000, 
and that the Service Unit currently services a user population of 
51,227 in a space that is already undersized to serve the Health 
Systems Planning estimated user population of 22,000 patients.
---------------------------------------------------------------------------
    \1\ Joel Achenbach, ``U.S. Life Expectancy Varies by More Than 20 
Years From County to County,'' Washington Post (May 8, 2017); Laura 
Dwyer-Lindgren, et al. ``Inequalities in Life Expectancy Among US 
Counties, 1980 to 2014: Temporal Trends and Key Drivers,'' JAMA Intern. 
Med. (May 8, 2017).
---------------------------------------------------------------------------
                            road maintenance
    Current funding, $24 million nationwide, for the BIA Road 
Maintenance program has been flat for over 22 years. This results in a 
compounding deferred maintenance backlog. In the Great Plains Region 
alone, a conservative estimate for deferred maintenance is $10.6 
million; nationally, it is $289 million. Funding levels for maintenance 
on the Reservation of $598 per mile are staggeringly low compared to 
the average $6,000 per mile that South Dakota spends on road 
maintenance. Further, snow and ice control can consume up to 50 percent 
of an annual budget, a financial dilemma our Tribe faces every winter. 
Funding is so tight that routine bridge maintenance is not performed 
until it reaches a state of emergency. Further, a specific road issue 
is the Allen Road between Allen and Highway 18. The Tribe paid to build 
this road, but it has no monies to maintain it. The State receives 
funding for the road, but it is not maintaining it. A private citizen 
has been plowing this road for free in an effort to keep it safe for 
school buses. This is unacceptable. The Tribe should be provided 
adequate funding so that we can maintain this road; we stand ready to 
do the work provided we have the funding.
                          water infrastructure
    Our Tribe is the lead sponsor of the Mni Wiconi Project, authorized 
by the Mni Wiconi Project Act of 1988, Public Law 100-516, as amended. 
The Project is a monumental clean drinking water project that provides 
Missouri River water to the Pine Ridge Reservation, the Lower Brule 
Sioux Reservation, Rosebud Sioux Reservation and the West River/Lyman-
Jones Water District. Funding is needed to complete the necessary 
community systems upgrades on Pine Ridge. The Act provides that the 
Oglala Sioux Rural Water Supply shall include the purchase, 
improvement, and repair of existing water systems. However, the Bureau 
of Reclamation, which funds the Project, will not accept the community 
systems into the Project until they are upgraded to a certain standard. 
Funding for these upgrades is necessary.
    The Tribe is working with several Federal agencies to implement its 
plan to complete the upgrades. The Tribe, however, needs almost $25 
million to upgrade 19 existing systems and transfer them into the Mni 
Wiconi Project, as intended by the Act. Once transferred they will be 
operated and maintained through authorized funding under the Mni Wiconi 
Project Act. Additional monies provided to the IHS's Sanitation 
Facilities Construction account as well as to the EPA's Revolving Funds 
are needed to allow for the IHS and EPA to better contribute and 
participate in the joint Federal agency effort to complete the upgrades 
of the systems in a timely manner so those on the Pine Ridge 
Reservation can finally receive the clean drinking water they were 
promised so long ago under the Mni Wiconi Project Act.
                  education facilities and programming
    Total replacement of the Wounded Knee and Little Wound Schools is 
required. The Wounded Knee School project has been on the BIA's Office 
of Facility Maintenance and Construction list for many years, and 
Little Wound was built in the 1950s. School replacement and repairs 
must include adequate funding for operations and maintenance, necessary 
components of school infrastructure, so that the investment in 
construction can be safeguarded and our students can be safe in their 
learning environment. Currently, these crucial components are funded at 
less than 50 percent of the need.
    Our youth need safe houses where they can go and where they can get 
assistance identifying physical and mental health resources available 
to them. They also need youth centers as safe places to congregate and 
build a sense of community. Children also need places to play. 
Currently, our children ask to be driven all the way to Rapid City just 
so they can play in the park. Our communities need playgrounds, skate 
parks, and other community spaces. Thus, we request funding for the 
construction, operation, maintenance, and personnel of youth safe 
houses, youth centers, and recreational facilities (such as skate 
parks, athletic fields, basketball courts, art centers, music centers, 
etc.) to provide spaces where youth can be secure outside their homes.
    Also, $620,000 is needed for juvenile detention in BIA-funded 
facilities. This essential funding provides critical educational 
services to detained and incarcerated youth. From 2012 to 2016, this 
need was not funded, and we thank you for supporting the reinstatement 
of this much-needed source of funds for the education and 
rehabilitation of some of our most vulnerable youth.
                                housing
    Pine Ridge has a terrible housing shortage. Many of our citizens--
infants, elders, veterans, families--live in conditions that no 
American should have to endure. Families live packed into two-bedroom 
homes or families of six try to survive in a one-bedroom. Overcrowding 
affects the physical, social, and mental state of our people, and it is 
often impossible to study, to be healthy, and to maintain a strong 
family unit in such environments. We also have difficulty recruiting 
and retaining quality IHS staff because of our housing shortage. We 
currently need 4,000 new units and 1,000 homes repaired. Many homes are 
also in desperate need of repair, with citizens living in conditions 
that are not only overcrowded but also unsafe. Our citizens depend on 
the Housing Improvement Program (HIP), which assists families under 150 
percent of the Department of Health and Human Services Poverty 
Guidelines that live in substandard housing and have no other resource 
for housing assistance. HIP funds are separate from the Native American 
Housing Assistance and Self-Determination Act (NAHASDA) and are not 
used on homes built by the Department of Housing and Urban Development 
(HUD). These essential HIP funds are used to build new or replacement 
homes and to renovate homes for our people who have nowhere to go. 
Also, expanding the Tiwahe Initiative so we may be included is 
important not only for its comprehensive approach to social services, 
but also because HIP targets housing improvements at established Tiwahe 
sites.
                       child protective services
    The Child Protection Services (CPS) and Indian Child Welfare Act 
(ICWA) Program perform an integrated child and family services system 
to address child welfare and comprehensive family support services for 
the families on the reservation. The program administers a Social 
Security Act, Title IV-B grants through block grants and Title IV-E 
through the State/Tribal Agreement and the Social Security Act. There 
are 16 full-time positions funded by the State through the State/Tribal 
Agreement. With the number of cases and the backlog of pending cases, 
we need four more full time support staff with an annual rate of 
$38,000 plus fringe benefits for a total of $162,640 for personnel 
services. CPS is funded through the BIA and currently funds only one 
full-time director with fringe benefits. CPS needs funding for an 
administrative staffer. Foster care payments received are welfare 
assistance funds. With the increase in client caseloads, we need at 
least $100,000 for foster care payments. The program also has an unmet 
need for operating costs and staff training for both CPS and ICWA. The 
total for child welfare services including maintenance payments for 
foster care, guardianship, and adoption is projected to cost $402,600 
annually. The ICWA program funds three full-time employees with fringe 
benefits, with no funding for operating costs, including staff travel. 
Further, there is an unmet need of $75,000 for our cases as we 
anticipate an average of 17 children served every quarter. These are 
enrolled Tribal members throughout the United States for which 
intervention takes place.
    CPS also needs funding for four additional program vehicles with an 
average cost of $20,000 each. Currently, we only have three vehicles 
that the staff share. With the constant repairs and maintenance for 
these older vehicles, we need more new vehicles as staff is on-call 
staff 24/7.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    The Oregon Water Resources Congress (OWRC) is concerned about 
continuing reductions to the U.S. Environmental Protection Agency's 
(EPA) Clean Water State Revolving Fund Loan Program (CWSRF) and is 
requesting that appropriations for this program be increased to at 
least $2 billion in fiscal year 2018. The CWSRF is an effective loan 
program that addresses critical water infrastructure needs while 
benefitting the environment, local communities, and the economy.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly 1/3 of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production.
                    fiscal year 2018 appropriations
    We recognize that our country is facing difficult economic times 
and that we must make strategic investments with scarce resources. The 
CWSRF is a perfect example of the type of program that should have 
funding increased because it creates jobs while benefitting the 
environment, and is an efficient return on taxpayer investment. Oregon 
is facing record levels of unemployment and the CWSRF funded projects 
provide much needed construction and professional services jobs. 
Moreover, as a loan program, it is a wise investment that allows local 
communities to leverage their limited resources and address critical 
infrastructure needs that would otherwise be unmet.
    Nationally, there are large and growing critical water 
infrastructure needs. In EPA's most recent needs surveys, ``The Clean 
Watersheds Needs Survey 2012: Report to Congress and Drinking Water 
Infrastructure Needs Survey and Assessment: Fifth Report to Congress'', 
the estimated funding need for drinking water infrastructure totaled 
$384 billion (in 2011 dollars) and wastewater infrastructure needs 
totaled $271 billion (in 2012 dollars). Appropriations for water 
infrastructure, specifically CWSRF, should not be declining but 
remaining strong in order to meet these critical needs. In 2015 
appropriations for the CWSRF program was approximately $1.448 billion 
and declined to $1.394 billion in fiscal year 2016. We are concerned as 
we see this negative downward trend continuing while the infrastructure 
needs only become more critical.
    We also continue to be highly supportive of expanding ``green 
infrastructure,'' in fact, irrigation districts and other water 
suppliers in Oregon are on the forefront of ``green infrastructure'' 
through innovative piping projects that provide multiple environmental 
benefits, which is discussed in greater detail below. However, 
continually reducing the amount of funds available for these types of 
worthwhile projects is counterproductive to the Administration's desire 
and has created increased uncertainty for potential borrowers about 
whether adequate funding will be available in future years. CWSRF is 
often an integral part of an overall package of State, Federal and 
local funding that necessitates a stronger level of assurance that loan 
funds will be available for planned water infrastructure projects. 
Reductions in the CWSRF could lead to loss of grant funding and delay 
or derail beneficial projects that irrigation districts have been 
developing for years.
    Additionally, OWRC is pleased that EPA continues ``strategic 
partnerships'' with the USDA's Natural Resources Conservation Services 
(NRCS) and other Federal agencies to improve water quality and address 
nonpoint source pollution. Oregon had two priority watersheds eligible 
for funding through the National Water Quality Initiative in 2014 and 
anticipates that additional watersheds will be included in the future. 
As Oregon is a delegated State, OWRC also feels strongly that the 
Oregon Department of Environmental Quality (DEQ) is best situated to 
develop and implement activities to improve these and other impaired 
waterways in the State. DEQ and its administration of the CWSRF has 
been an extremely valuable tool in Oregon for improving water quality 
and efficiently addressing infrastructure challenges that are otherwise 
cost-prohibitive.
    OWRC was very satisfied to see the passage of the Water 
Infrastructure Improvements for the Nation Act (WIIN) by Congress in 
December last year. An integral piece of the funding puzzle for our 
member districts was reinstated by this act, irrigation district 
eligibility for principal forgiveness. The CWSRF is often an integral 
part of an overall package of State, Federal and local funding that 
necessitates a stronger level of assurance that loan funds will be 
available for planned water infrastructure projects. Irrigation 
districts are often located in rural communities and have a small 
number of farmers with limited capacity to take on loan debt. Even a 
small reduction in the principal repayment obligations can make the 
difference in whether or not a district can move forward with a 
project. Reductions in eligibility for principal forgiveness in the 
CWSRF could lead to loss of grant funding and delay or derail 
beneficial projects that irrigation districts have been developing for 
years.
                              cwsrf needs
    The appropriations for the CWSRF program over the past few years 
has been far short of what is needed to address critical water 
infrastructure needs in Oregon and across the Nation. This has led to 
fewer water infrastructure projects, and therefore a reduction in 
improvements to water quality. DEQ's most recent ``Proposed Intended 
Use Plan Update #1--State fiscal year 2017,'' lists 15 projects in need 
of a total of $86,148, 504 in Oregon alone. The Federal capitalization 
grant funding awarded fiscal year 2016 will total $14,974,000, which is 
wholly inadequate to address and complete these much needed projects.
    Unfortunately, due to recent cutbacks and lack of availability 
principal forgiveness for irrigation districts (which was recently 
reinstated with the passage of the WIIN Act), only two irrigation 
districts submitted applications for funding in 2017: Middle Fork 
Irrigation District (MFID), and Central Oregon Irrigation District 
(COID). MFID requested $20,000,000 for the design and construction of 
multiple projects to improve water quality and quantity associated with 
its irrigation diversions in the Middle Fork Hood River watershed. COID 
requested $1,140,000 for design and construction to pipe approximately 
3,000 linear feet of open canal and to upgrade their fish screen at the 
inlet on the Deschutes River. OWRC is hopeful that with an increase in 
money available, more districts will apply for funding to complete 
projects that will not only benefit the environment and the patrons 
served by the water delivery system, but also benefit the economy.
                     cwsrf and irrigation districts
    OWRC and our members are highly supportive of the CWSRF, including 
promoting the program to our members and annually submitting Federal 
appropriations testimony to support increased funding for the CWSRF. We 
believe it is an important funding tool that irrigation districts and 
other water suppliers are using for innovative piping projects that 
provide multiple environmental and economic benefits.
    Eight OWRC member districts have successfully received loans from 
the CWSRF over the last several years and many more will apply if 
eligible to receive some principal forgiveness. Numerous irrigation 
districts and other water suppliers need to pipe currently open canals, 
which reduces sediment and water temperature and provides other water 
quality improvements as well as increasing water availability for fish 
and irrigators by reducing water loss from the delivery system. In 
2009, four irrigation districts received over $11 million funding in 
Oregon from the American Recovery and Reinvestment Act (ARRA) through 
the CWSRF for projects which created valuable jobs while improving 
water quality. These four projects were essential to DEQ not only 
meeting but exceeding the minimum requirement that 20 percent of the 
total ARRA funding for the CWSRF be used for ``green'' projects. 
Without the irrigation district projects, it is likely that Oregon's 
CWSRF would not have qualified for ARRA funding.
         the importance and success of local watershed planning
    Oregon's success in watershed planning illustrates that planning 
efforts work best when diverse interests develop and implement plans at 
the local watershed level with support from State government. Oregon 
has recently revised their CWSRF rules; thus making conservation easier 
and its benefits to be better achieved in the State. As the national 
model for watershed planning, Oregon does not need a new Federal agency 
or Executive Branch office to oversee conservation and restoration 
efforts. Planning activities are conducted through local watershed 
councils, volunteer-driven organizations that work with local, State 
and Federal agencies, economic and environmental interests, 
agricultural, industrial and municipal water users, local landowners, 
Tribes, and other members of the community. There are over 60 
individual watershed councils in Oregon that are already deeply engaged 
in watershed planning and restoration activities. Watershed planning in 
Oregon formally began in 1995 with the development of the Oregon Plan 
for Salmon Recovery and Watershed Enhancement, a statewide strategy 
developed in response to the Federal listing of several fish species. 
This strategy led to the creation of the Oregon Watershed Enhancement 
Board (OWEB), a State agency and policy oversight board that funds and 
promotes voluntary and collaborative efforts that ``help create and 
maintain healthy watersheds and natural habitats that support thriving 
communities and strong economies'' in 1999.
                               conclusion
    In conclusion, we applaud the CWSRF program for allowing Oregon's 
DEQ to make targeted loans that address Clean Water Act issues and 
improve water quality but also help incentivize innovative water 
management solutions that benefit local communities, agricultural 
economies, and the environment. This voluntary approach creates and 
promotes cooperation and collaborative solutions to complex water 
resources challenges. We respectfully request the appropriation of at 
least $2 billion for the U.S. Environmental Protection Agency's Clean 
Water State Revolving Loan Fund for fiscal year 2018.

    [This statement was submitted by April Snell, Executive Director.]
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    The Oregon Water Resources Congress (OWRC) is writing to express 
its strong support for the U.S. Fish and Wildlife Service Fisheries 
Restoration Irrigation Mitigation Act (FRIMA) Program and is requesting 
that appropriations for this program be increased to $15 million in 
fiscal year 18, which is what FRIMA was originally authorized for. The 
FRIMA program is an essential costshare funding program that helps 
water users and fishery agencies better protect sensitive, threatened, 
and endangered fish species while ensuring water supply delivery to 
farms and communities.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly 1/3 of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production.
                    fiscal year 2018 appropriations
    The FRIMA program meets a critical need in fishery protection and 
restoration, complimenting other programs through the U.S Fish and 
Wildlife Services (FWS). Fish passage and fish screens installations 
are a vital component to fishery protection with several benefits:
  --Keeps sensitive, threatened and endangered fish out of canals and 
        water delivery systems.
  --Allows fish to be safely bypassed around reservoirs and other 
        infrastructure.
  --Eliminates water quality risks to fish species.
    There are over 100 irrigation districts and other special districts 
in Oregon that provide water supplies to over one million acres of 
irrigated cropland in the State. Almost all of these districts are 
affected by either State or Federal Endangered Species Act listings of 
Salmon and Steelhead, Bull Trout or other sensitive, threatened or 
endangered species. The design and installation of fish screens and 
fish passage to protect the myriad of fish species is often cost-
prohibitive for individual districts to implement without outside 
funding sources.
    Oregon irrigation districts anticipate no less than $25 million in 
funding will be required to meet current fish passage and fish screen 
needs. Limited cost-share funds are available from the Oregon Watershed 
Enhanced Board (OWEB) program in Oregon, but the primary cost-share for 
fish screen and fish passage projects has been provided by the 
districts and their water users. Project needs include both 
construction of new fish screens and fish passage facilities as well as 
significant upgrades of existing facilities to meet new requirements 
(new species, new science) of the National Oceanic and Atmospheric 
Administration (NOAA) Fisheries Service and the FWS. Upgrades are often 
needed to modernize facilities with new technologies that provide 
better protection for fish species as well as reduced maintenance and 
increased lifespan for the operator.
   background of the fisheries restoration irrigation mitigation act 
                            (frima) program
    FRIMA, originally enacted November 2000, created a Federal 
partnership program incentivizing voluntary fish screen and fish 
passage improvements for water withdrawal projects in Idaho, Oregon, 
Washington and western Montana. The funding goes to local governments 
for construction of fish screens and fish passage facilities and is 
matched with non-Federal funding. Irrigation districts and other local 
governments that divert water for irrigation accessed the funding 
directly, while individual irrigators accessed funding through their 
local Soil and Water Conservation District (SWCD), which are local 
governments affiliated with the Natural Resources Conservation Service 
(NRCS).
    FRIMA was reauthorized as part of the Water Infrastructure 
Improvements for the Nation Act (WIIN) of 2016 for only $18 million, 
well short of the estimated $500 million in fish screening and passage 
needs in the Pacific Northwest alone. The original legislation in 2000 
(Public Law 106-502) was supported and requested by the Pacific 
Northwest Partnership, a coalition of local governmental entities in 
the four Northwest States. As one of the members of that coalition, we 
appreciate and strongly support your efforts to reauthorize the FRIMA 
program. The FRIMA legislation authorized $25 million annually, to be 
divided equally among the four States from 2001 to 2012, which was when 
the original authorization expired. The actual funding appropriated to 
the FRIMA program (through congressional write-ins) ranged from $1 
million to $8 million, well short of the $25 million it was authorized 
for and far short of what is needed to address fish passage and 
screening needs across the region. However, that small amount funding 
was used to leverage other funds and assisted the region in making 
measurable progress towards addressing fish screens and fish passage 
needed to protect sensitive, threatened, and endangered fish species.
    FRIMA funding was channeled through FWS to State fishery agencies 
in the four States, distributed using an application and approval 
process based on a ranking system implemented uniformly among the 
States, including the following factors: fish restoration benefits, 
cost effectiveness, and feasibility of planned structure. All projects 
provided improved fish passage or fish protection at water diversion 
structures and benefitted native fish species in the area, including 
several State or federally listed species. Projects were also subject 
to applicable State and Federal requirements for project construction 
and operation.
                            program benefits
    FRIMA projects provide immediate protection for fish and fills a 
large unmet need in the Pacific Northwest for cost-share assistance 
with fish screening and fish passage installations and improvements. A 
report by FWS covering program years fiscal year 2002-2012 provides 
State-by-State coverage of how the congressional provided funding has 
been used in the program. Compared to other recovery strategies, the 
installation of fish screens and fish passage infrastructure has the 
highest assurance for increasing numbers of fish species in the Pacific 
Northwest. Furthermore, the installation of these devices have minimal 
impacts on water delivery operations and projects are done 
cooperatively using methods that are well accepted by landowners and 
rural communities.
    The return of the FRIMA program will catalyze cooperative 
partnerships and innovative projects that provide immediate and long-
term benefits to irrigators, fishery agencies, and local communities 
throughout the Pacific Northwest. This program is also a wise 
investment, with past projects contributing more than the required 
match and leveraging on average over one dollar for each Federal dollar 
invested. FRIMA provides for a maximum Federal cost-share of 65 
percent, with the applicant's costshare at 35 percent plus the on-going 
maintenance and support of the structure for passage or screening 
purposes. Applicants operate the projects and the State agencies 
monitor and review the projects.
                       oregon's project benefits
    Twenty-six fish screens or fish passage projects in Oregon were 
previously funded using FRIMA for part of the project financing. These 
projects have led to:
  --Installation of screens at 17 diversions or irrigation pumps.
  --Removal or modification of 12 fish passage barriers.
  --Three-hundred sixty-five miles being re-opened to fish passage.
    In addition, the Oregon Department of Fish and Wildlife (ODFW) has 
used some of the FRIMA funding to develop an inventory of need for fish 
screens and passages in the State. Grants ranged from just under $6,000 
to $400,000 in size with a local match averaging 64 percent of the 
project costs, well over the amount required under the Act (35 
percent). In other words, each Federal dollar invested in the FRIMA 
program generates a local investment of just over one dollar for the 
protection of fish species in the Pacific Northwest.
    The following are examples of how Oregon used some of its FRIMA 
money:
    Santiam Water Control District Project: Fish screen project on a 
large 1050 cubic feet per second (cfs) multipurpose water diversion 
project on the Santiam River (Willamette Basin) near Stayton, Oregon. 
Partners are the Santiam Water Control District, ODFW, Marion Soil and 
Water Conservation District, and the City of Stayton. Approved FRIMA 
funding of $400,000 leveraged a $1,200,000 total project cost. Species 
benefited included winter steelhead, spring Chinook, rainbow trout, and 
cutthroat trout.
    South Fork Little Butte Creek: Fish screen and fish passage project 
on a 65 cfs irrigation water diversion in the Rogue River Basin near 
Medford, Oregon. Partners are the Medford Irrigation District and ODFW. 
Approved FRIMA funding of $372,000 leveraged a $580,000 total project 
cost. Species benefited included listed summer and winter steelhead, 
coho salmon, and cutthroat trout.
    Running Y (Geary Diversion) Project: Fish screen project on a 60 
cfs irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Wocus Drainage District, ODFW, and 
Jeld-Wen Ranches. Approved FRIMA funding of $44,727 leveraged a total 
project cost of $149,000. Species benefited included listed red-band 
trout and short-nosed sucker.
    Lakeshore Gardens Project: Fish screen project on a 2 cfs 
irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Lakeshore Gardens Drainage District and 
ODFW. Approved FRIMA funding of $5,691 leveraged a total project cost 
of $18,970. Species benefited included red-band trout, short-nosed 
sucker and Lost River sucker.
                               conclusion
    Increasing appropriations for FRIMA will fill a vital funding gap 
for fish screens and fish passage projects that are needed to better 
protect sensitive, threatened, and endangered fish species, which also 
benefits the economy, local communities, and the environment we share. 
FRIMA funds projects that are ready to be constructed and will provide 
immediate improved protections for fish and immediate jobs for the 
construction of the projects. Dollar-for-dollar, providing screening 
and fish passage at diversions is one of the most cost-effective uses 
of restoration dollars, creating fishery protection at low cost, with 
low risk and significant benefits. The return of the FRIMA program will 
catalyze cooperative partnerships and innovative projects that provide 
immediate and long-term benefits to irrigators, fishery agencies, and 
local communities throughout the Pacific Northwest. We respectfully 
request the appropriation of at least $15 million for U.S. Fish and 
Wildlife Service Fisheries Restoration Irrigation Mitigation Act 
program for fiscal year 2018.

    [This statement was submitted by April Snell, Executive Director.]
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System
    Madame Chairwoman and Members of the subcommittee:

    The Partnership for the National Trails System appreciates your 
support over the past 20 years, through operations funding and 
dedicated Challenge Cost Share funds, for the national scenic and 
historic trails administered by the National Park Service. We also 
appreciate your increased allocation of funds to support the trails 
administered and managed by the Forest Service and for the trails in 
the Bureau of Land Management's National Landscape Conservation System.
    2018 will be the 50th year since Congress established the National 
Trails System as a bold experiment in public/private collaboration for 
public benefit. While most of the trail making is done by tens of 
thousands of citizen stewards increased funding is needed to close gaps 
in these trails. To continue the progress that you have fostered and to 
begin the next 50 years with an increased investment in the National 
Trails System, the Partnership requests that you provide annual 
operations funding for each of the 30 national scenic and historic 
trails for fiscal year 2018 through these appropriations:
  --National Park Service: $16.233 million for administration of 23 
        trails and for coordination of the long-distance trails program 
        by the Washington office. Construction: $357,200 for the Ice 
        Age Trail and $250,000 for the Pacific Crest Trail.
  --USDA Forest Service: $85 million for trails construction and 
        maintenance (CMTL) with $7.796 million of it to administer 6 
        trails and $1.3 million to manage parts of 16 trails 
        administered by the NPS or BLM. $600,000 for Iditarod Trail 
        construction and maintenance.
  --Bureau of Land Management: $2.812 million to administer three 
        trails and for coordination of the National Trails program and 
        $7.14 million to manage portions of 13 trails administered by 
        the Park Service or the Forest Service and for operating five 
        National Historic Trail interpretive centers. Construction: 
        $300,000 for the Iditarod Trail. Maintenance: $300,000 for the 
        Iditarod Trail and $250,000 for the Pacific Crest Trail.
  --We ask you to create a $1.5 million National Trails System 
        Challenge Cost Share Program for the National Park Service.
  --We ask you to restore the Bureau of Land Management's Challenge 
        Cost Share Program with $3 million and allocate $500,000 of it 
        for the national scenic and historic trails.
    We ask you to appropriate $900,000,000 from the Land and Water 
Conservation Fund and allocate $54,832,000 of it to these agencies to 
purchase 72 tracts along five national scenic and seven national 
historic trails described in the National Trails System Collaborative 
Landscape Planning proposal:
  --Bureau of Land Management: $2,895,000
  --U.S. Fish and Wildlife Service: $12,719,000
  --U.S. Forest Service: $18,331,000
  --National Park Service: $20,887,000.
                         national park service
    The $16.233 million we request for Park Service operations includes 
increases for some of the trails to continue the progress and new 
initiatives made possible by the additional funding Congress provided 
several years ago. An increase of $570,000 for the Old Spanish Trail 
will enable the Park Service to begin implementing the Trail's new 
Comprehensive Administrative Strategy working with the Old Spanish 
Trail Association to increase volunteer participation in signing, 
interpreting, and educating the public about the trail. The Park 
Service will be better able to collaborate with the Bureau of Land 
Management in administering the trail and to consult with other 
agencies to protect the cultural and natural resources along it from 
destruction by energy projects.
    We request an increase of $660,000 to expand Park Service efforts 
to protect cultural landscapes at more than 200 sites along the Santa 
Fe Trail, to develop GIS mapping, and to fund public educational and 
community outreach programs of the Santa Fe Trail Association. 
Increases of $313,224 for the Oregon Trail and $255,192 for the 
California Trail will enable the Park Service to work with the Oregon-
California Trails Association to develop digital and social media to 
connect with youth in the cities along these trails providing 
information about their many layers of history and to better protect 
the historical and cultural heritage sites and landscapes along them 
from destruction by energy development in the West. We request an 
increase of $300,000 to $833,000 for the Ala Kahakai Trail to enable 
the Park Service to work with E Mau Na Ala Hele, the Ala Kahakai Trail 
Association, and other community organizations to care for resources on 
the land and with the University of Hawaii to conduct archaeological 
and cultural landscape studies along this trail.
    The $1,020,000 we request for the 4,200 mile North Country Trail 
will enable the Park Service to provide greater support for the 
regional GIS mapping, trail building, trail management, and training of 
volunteers led by the North Country Trail Association. The $1,278,000 
we request for the Ice Age Trail includes a $443,000 increase to build 
partner and citizen capacity for building new and maintaining existing 
trail, protecting the natural and cultural resources on the lands 
purchased for the trail, and to provide the Park Service with a planner 
to accelerate planning of the land protection corridor for the trail.
    Construction: We request that you provide $357,200 for the Ice Age 
Trail to build 30 miles of new trail and several trailhead parking lots 
and $250,000 for the Pacific Crest Trail for trail construction 
projects.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. We 
request that you restore the Bureau of Land Management Challenge Cost 
Share program, appropriate $3 million to fund it, and allocate $.5 
million of that to fund projects along the national scenic and historic 
trails. We ask you to create a National Park Service National Trails 
System Challenge Cost Share program with $1.5 million funding to 
continue the steady progress toward making these trails fully available 
for public enjoyment as a wise investment of public money that will 
generate public benefits many times greater than its sum.
                          usda--forest service
    We ask you to appropriate $85 million for trails construction and 
maintenance (CMTL) to begin to address the considerable maintenance 
backlog on the trails in the National Forest System. Within this 
appropriation we request that you provide $7.796 million as a separate 
budgetary item specifically for the Arizona, Continental Divide, 
Florida, Pacific Crest, and Pacific Northwest National Scenic Trails 
and the Nez Perce National Historic Trail within the over-all 
appropriation for Capital Improvements and Maintenance for Trails. 
Recognizing the on-the-ground management responsibility the Forest 
Service has for 1024 miles of the Appalachian Trail, more than 650 
miles of the North Country Trail, and sections of the Ice Age, Anza, 
Caminos Real de Tierra Adentro and de Tejas, Lewis & Clark, California, 
Iditarod, Mormon Pioneer, Old Spanish, Oregon, Overmountain Victory, 
Pony Express, Trail of Tears and Santa Fe Trails, we ask you to 
appropriate $1.3 million specifically for these trails.
    The Partnership's request of $7.796 million includes $1.5 million 
to enable the Forest Service and Florida Trail Association to continue 
trail maintenance, to control invasive species, do ecosystem 
restoration, and otherwise manage 4,625 acres of new Florida Trail 
land. The $7.996 million request also includes $2.1 million for the 
Pacific Crest Trail, $2 million for the Continental Divide Trail, $1 
million for the Pacific Northwest Trail, $826,000 for the Nez Perce 
Trail, and $570,000 for the Arizona Trail. Some of the additional funds 
requested will enable the Forest Service to develop Comprehensive 
Management Plans for the latter three trails. We also request $600,000 
of additional funding for construction and for maintenance of sections 
of the Iditarod Trail.
                       bureau of land management
    Although considerably more money is needed to fully administer the 
National Conservation Lands System and protect its resources, we 
request that you appropriate $84 million in base funding for the 
System. We ask that you appropriate as new permanent base funding 
$250,000 for National Trails System Program Coordination, $1,000,000 
for the Iditarod Trail, $230,000 for El Camino Real de Tierra Adentro 
Trail, $1,332,000 for the Old Spanish Trail, and $4,000,000 for the 
Bureau to manage 4,645 miles of thirteen other national scenic and 
historic trails. We request $300,000 to construct new sections of the 
Iditarod Trail and to maintain these trails: Iditarod Trail--$300,000 
and Pacific Crest Trail--$250,000. We also request $3,140,000 to 
operate five historic trails interpretive centers.
    To promote greater management transparency and accountability for 
the National Trails and the whole National Landscape Conservation 
System (NLCS), we urge you to request expenditure and accomplishment 
reports for each of the NLCS Units for fiscal year 2017 and fiscal year 
2018 and to direct the Bureau to include unit-level allocations within 
major sub-activities for each of the scenic and historic trails, and 
wild and scenic rivers--as the Bureau has done for the national 
monuments, wilderness, and conservation areas--within a new activity 
account for the National Landscape Conservation System in fiscal year 
2019. The Bureau's lack of a unified budget account for National Trails 
prevents the agency from efficiently planning, implementing, reporting, 
and taking advantage of cost-saving and leveraging partnerships and 
volunteer contributions for every activity related to these national 
resources.
                    land and water conservation fund
    The Partnership strongly supports full funding of the Land and 
Water Conservation Fund at the authorized $900 million for the 
component Federal and State programs funded under LWCF. Within this 
amount we request that you appropriate $54,832,000 for the National 
Trails System Collaborative Landscape Planning proposal to acquire 72 
parcels along these 12 national scenic and historic trails:
Bureau of Land Management: $2,895,000 <rm-bond> 12 parcels <rm-bond> 
        1,845 acres
    Nez Perce National Historic Trail (ID) $2,295,000 to protect 
riparian ecosystems and migratory corridors with habitat for sage 
grouse, pronghorn antelope, and elk, and historic and cultural 
resources.
    Pacific Crest National Scenic Trail (OR) $600,000 for trail and 
resource protection within the Cascade Siskiyou National Monument in 
Southern Oregon.
U.S. Fish and Wildlife Service: $12,719,000 <rm-bond> 7 parcels 
        <rm-bond> 6,462 acres
    Appalachian National Scenic Trail (PA) $1,800,000 for protection of 
a keystone habitat for bog turtles, black bear, Indiana bats, northern 
flying squirrels, and bald eagles along the Kittatinny Ridge.
    California National Historic Trail (ID) $1,570,000 to protect the 
largest breeding concentration of Sandhill Cranes and a haven for other 
waterfowl near Grays Lake NWR from agricultural development;
    Captain John Smith Chesapeake National Historic Trail (VA) 
$8,500,000 to preserve and provide access to the site of a historic 
encounter between John Smith and indigenous peoples and protect a major 
eagle and migratory bird stopover habitat at Fones Cliff in the 
Rappahannock NWR;
    Lewis and Clark National Historic Trail (WA) $849,000 to preserve a 
wealth of unique ecosystems and enhance ecosystem connectivity between 
State-protected lands and the Steigerwald NWR.
U.S. Forest Service: $18,331,000 <rm-bond> 41 parcels <rm-bond> 8,704 
        acres
    Appalachian National Scenic Trail (NC, TN, VA, VT) $7,626,000 to 
protect the largest remaining inholding of the Green Mountain NF, 
relocate trail segments, preserve trail viewsheds, and provide 
ecological connectivity and watershed protection near or adjacent to 
the Pisgah NF State-protected lands;
    Continental Divide National Scenic Trail (MT, CO) $1,065,000 to 
protect alpine headwaters of the Rio Grande River and high-altitude 
habitat for Elk, deer, and Canada Lynx within the Helena National 
Forest;
    Florida National Scenic Trail (FL) $90,000 to fill trail gaps and 
provide connectivity between protected areas along the Withlacoochee 
River and adjacent to Suwannee River State Park;
    Pacific Crest National Scenic Trail (CA, WA) $9,550,000 to protect 
inholdings of the Shasta-Trinity NF, maintain public access to at-risk 
trail segments along riparian corridors, and preserve iconic viewscapes 
at Pine Mountain.
National Park Service: $20,887,000 <rm-bond> 12 parcels <rm-bond> 7,466 
        acres
    Ala Kahakai National Historic Trail (HI) $6,000,000 to protect 444 
archaeological sites at an ancient coastal indigenous gathering area 
that hosts a wealth of native plants and wildlife both above and below 
ground in lava tubes;
    Appalachian National Scenic Trail (MA, NY, ME) $5,657,000 to 
protect the remaining 8 miles of shoreline and enable public access for 
Bald Mountain Pond, to enable multiple trail re-routings, to preserve 
delicate habitats for threatened and endangered species, to support 
connectivity of riparian and forest habitats, and to preserve iconic 
scenic viewsheds;
    North Country National Scenic Trail (MI, WI) $5,900,000 to fill 
over nine miles of trail gaps, protect over 2,500 acres along the 
Sturgeon River downstream from the Ottawa National Forest, and to 
preserve public access to a 3,000-ft pristine shoreline of Lake 
Superior that provides critical habitat for endangered and migratory 
species;
    Overmountain Victory National Historic Trail (TN) $330,000 to 
protect the historically significant Shelving Rock Encampment Site, 
preserve original trail roadbed, and facilitate interpretation;
    Washington-Rochambeau Revolutionary Route National Historic Trail 
(NY) $3,000,000 for preservation of a Revolutionary War-era supply 
depot site and cemetery.
         private sector support for the national trails system
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide private 
financial support for public projects, often resulting in a greater 
than equal match of funds.
    The private trail organizations' commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2016 the trail organizations fostered 1,029,569 
hours of documented volunteer labor valued at $24,256,645 to help 
sustain the national scenic and historic trails. The organizations also 
raised private sector contributions of $13,184,886 for the trails.

    [This statement was submitted by Gary Werner, Executive Director.]
                                 ______
                                 
           Prepared Statement of the Performing Arts Alliance
    Mr. Chairman and distinguished Members of the subcommittee, we 
thank you for the opportunity to submit this testimony on behalf of the 
Performing Arts Alliance (PAA). We urge the subcommittee to appropriate 
$155 million to the National Endowment for the Arts for fiscal year 
2018. PAA member organizations include the following national 
associations:
  --Alternate ROOTS
  --American Composers Forum
  --Association of Performing Arts Presenters
  --Chamber Music America
  --Chorus America
  --Dance/USA
  --League of American Orchestras
  --National Alliance for Musical Theatre
  --National Association of Latino Arts and Cultures
  --National Performance Network
  --Network of Ensemble Theaters
  --New Music USA
  --OPERA America
  --Theatre Communications Group

    The Performing Arts Alliance (PAA) is a national network of more 
than 33,000 organizational and individual members from the 
professional, nonprofit performing arts fields. We envision a United 
States in which the diverse ecology of the performing arts is deeply-
valued and supported, adequately and equitably resourced, and where 
participation is accessible to all. The National Endowment for the Arts 
plays a key role in achieving this vision, and we submit this testimony 
to highlight the importance of Federal investment in the arts.
    The National Endowment for the Arts (NEA) holds a significant 
Federal leadership role for the arts and culture in America. Through 
partnerships with State arts agencies such as the North Dakota Council 
on the Arts in Bismarck, North Dakota and direct grants awarded to 
nonprofit arts organizations and local arts agencies such as the 
Yoknapatawpha Arts Council in Oxford, Mississippi, NEA funding reaches 
every congressional district. Grants support programs, projects, and 
collaborations that are helping people experience high-quality artistic 
presentations, access arts education and opportunities for artistic 
development, and are helping communities unite.
    The following examples of recent NEA grantees within the PAA 
network are a sample of the significant ways performing arts 
organizations are serving their communities with NEA support.

-- NEA support helps arts organizations provide broad access to high-
quality arts experiences.

    Alberta Bair Theater in Billings, Montana received fiscal year 2017 
Challenge America support to present the classical music duo Black 
Violin and the renowned Dance Theatre of Harlem to rural communities 
throughout south central Montana and northern Wyoming. The theater 
offered mainstage performances, public discussions, school matinees, 
and master classes. Challenge America funding extends the reach of the 
arts to underserved populations, including those whose opportunities to 
experience the arts are limited by geography, ethnicity, economics, or 
disability.
    Also with the support of fiscal year 2017 Challenge America 
funding, Carnegie Hall, Inc. in Lewisburg, West Virginia celebrated the 
cultural history of Southern traditional music through multi-
disciplinary exhibitions. TA member of Chamber Music America, the 
organization served rural audiences in Greenbrier County with two 
exhibitions: the Music Makers Foundation's ``We Are The Music Makers'' 
and the West Virginia Music Hall of Fame's ``Music of the Coalfields.'' 
The project included live performances, classes and a film screening.
    Chattanooga Symphony and Opera Association in Chattanooga, 
Tennessee is offering sensory-friendly concerts that are making 
classical music accessible for families and children who are 
differently-abled both intellectually and physically. With fiscal year 
2017 Art Works support, the symphony collaborates with certified music 
therapists to design and present these performances for community 
members with autism and Down syndrome.

-- NEA funding supports lifelong learning in the arts which includes 
outreach programs, teacher training, and university partnerships.

    Chamber Music America member Community Music Works in Providence, 
Rhode Island received fiscal year 2016 Art Works support for an ongoing 
outreach program that provides free lessons in instrumental music, 
music theory, and improvisation to local at-risk children and youth. 
The organization also provides leadership development and performance 
opportunities for advanced students.
    Portland, Oregon-based Network of Ensemble Theaters (NET) received 
fiscal year 2016 Art Works support for its ongoing ``Intersection: 
Ensembles + Universities'' symposium. NET's national symposium is 
connecting colleges, universities, and training programs with 
professional ensembles to seed new opportunities for sharing resources, 
learning, collaborations, and performance, building up the field of 
ensemble theater artists.
    The Kentucky Center for the Performing Arts in Louisville, Kentucky 
is collaborating with Morehead State University and the Kentucky 
Department of Education to provide arts-based professional development 
to classroom teachers and school administrators in the rural eastern 
part of the State. A member of the Association of Performing Arts 
Professionals, the Kentucky Center received fiscal year 2017 Art Works 
support to help educators and administrators create curriculum, lesson 
plans, and assessment strategies. It is also training educators to use 
a virtual teaching platform to video record lessons and instructional 
feedback.

-- NEA grants support projects that provide valuable opportunities for 
artistic development.

    One of the guiding principles of the NEA's Art Works program is 
``art is work for the artists and arts professionals who make up the 
field.'' Opportunities for training and creating work are important to 
artists at all stages of their careers as well as artists who are still 
students.
    Oregon Ballet Theatre (OBT) in Portland, Oregon received fiscal 
year 2017 Art Works support for its Choreography XX residency program. 
It supported three North American female choreographers with a four-
week intensive residency to create world-premiere ballets with OBT 
dancers. The new ballets were presented free of charge to the public at 
Portland's Rose Garden ampitheatre.
    Young composers are able to train with established professionals 
during this year's Santa Fe Chamber Music Festival in Santa Fe, New 
Mexico. The Festival is offering a week-long composition workshop for 
young artists with the FLUX String Quartet with fiscal year 2017 Art 
Works support. In addition, Young artists present their talents to the 
community in a professional setting during the Kauffman Center for the 
Performing Arts' Future Stages Festival. Located in Kansas City, 
Missouri, the free community festival is supported by fiscal year 2017 
Art Works funding.
    The Old Globe Theatre's New Voices program and Festival supports 
the development of new works by both established and emerging 
playwrights. Based in San Diego, California, The Old Globe Theatre's 
program is supported by fiscal year 2017 Art Works funding. The project 
will commission new works from artists and offer developmental readings 
and workshops. The program includes a specific focus on Latinx artists 
and communities to promote Latin-American stories and experiences.

-- NEA funds support the development of works that address social 
issues and create safe spaces for community dialogue.

    Cornerstone Theater Company is addressing food insecurity in its 
production of ``The Hunger Bridge Show.'' The Los Angeles-based company 
received fiscal year 2017 Art Works support for this project which will 
be informed through discussions with community members about their 
needs, fears, and hopes, around issues of hunger and food.
    Sandglass Theatre in Putney, Vermont received fiscal year 2017 Art 
Works support for ``Babylon,'' an original work exploring the 
escalating global crisis of refugees and asylum seekers. The production 
has been developed through interviews with resettled refugees and looks 
at their relationship to their lost homelands, to their new homelands 
and languages, and to other migrants who are fleeing violence. 
Sandglass is a member of the National Performance Network.
    Working Classroom in Albuquerque, New Mexico is providing artists 
residencies in the Youth Arts Center where professional guest artists 
are collaborating with students from historically underserved 
communities, training them in the techniques and aesthetics of their 
practice. With fiscal year 2017 Art Works support, the project explores 
issues of social justice, education, and equity, and artists and 
students are co-creating mural art, theater works, and animated 
projects around these themes.

-- NEA grants support projects that share a diversity of traditions, 
helping people connect across cultures and communities.

    The Bunnell Street Arts Center based in Homer, Alaska is presenting 
the ``Decolonizing Alaska'' tour of works by Alaskan artists with the 
support of fiscal year 2017 Challenge America funding. The touring 
exhibit features painting, dance, fiber art, and beading from the 
Inupiaq, Yu'pik, Denai'ana, and Athabascan Alaskan traditions. Artists 
on the tour are offering workshops and discussions to explore their 
work one-on-one with community members.
    Strathmore Hall Foundation in North Bethesda, Maryland is 
presenting Step Afrika! in community and main stage performances and 
in-school residencies with the support of fiscal year 2016 Art Works 
funding. Step Afrika! will share the history of stepping, the 
percussive movement tradition drawn from African cultures, in workshops 
serving local, low-income, African-American and Hispanic youth. 
Workshops and residencies aim to teach teamwork, discipline, 
motivation, and commitment.
    The artistic programming supported by the National Endowment for 
the Arts gives vitality to our Nation's communities in numerous ways 
beyond the examples provided here. Federal investment in the NEA places 
value on the role of arts and culture in our society, realizing 
significant returns that are both measurable and intangible. We 
celebrate the NEA's fiscal year 2017 budget increase and urge you to 
support $155 million in fiscal year 2018. Thank you for considering our 
request.

    [This statement was submitted by Amy Fitterer, Chair, and Cristine 
Davis, General Manager.]
                                 ______
                                 
                 Prepared Statement of Poets & Writers
    With the NEA's sustained support, Poets & Writers has grown into 
the Nation's largest organization serving creative writers. Grants from 
the NEA helped to launch two of our key programs: Poets & Writers 
Magazine, which celebrates its thirtieth anniversary this year and 
which has over 100,000 readers; and our website, pw.org, which we 
launched in 1996 and which now draws over 140,000 visitors per month.
    Writers from Jonathan Franzen to Tracy K. Smith, Michael Cunningham 
to Claudia Rankine, Audrey Niffenegger to Ocean Vuong, have told us 
that Poets & Writers helped them get started, taught them how to submit 
work to literary journals, find an agent, or connect with others in the 
literary community through the resources we provide.
    We also help an ecosystem of literary organizations--small presses, 
literary magazines, reading series, writer's groups--that rely on Poets 
& Writers to reach their constituents. The poet Jane Hirshfield 
described Poets & Writers as ``a kind of Osmocote or Greensand slow-
release fertilizer for America's literary landscape.''
    Without the consistent support the NEA has provided, our ability to 
provide trustworthy information and advice, to encourage writers, and 
to nurture the Nation's literary community would not be possible.
    I hope that the subcommittee will vote to increase support for the 
NEA. So much good is done with a relatively small amount of funding.

    [This statement was submitted by Elliot Figman, Executive 
Director.]
                                 ______
                                 
           Prepared Statement of the Public Lands Foundation
Madam Chairman:

    We thank you for this opportunity to present your committee with 
our views regarding the Department of the Interior (DOI) budget request 
for fiscal year 2018. Our comments focus primarily on the budget 
request as it may relate to the Bureau of Land Management. As a 
national, non-profit organization with more than 700 members, comprised 
principally of retired, but still dedicated, BLM employees, the Public 
Lands Foundation (PLF) has a unique body of experience, expertise and 
knowledge of public land management. As retirees, we believe we offer 
an objective and non-bureaucratic view of what is currently happening 
on the National System of Public Lands (NSPL). The PLF supports the BLM 
and its programs, but we are independent in our views and requests. We 
strive to improve the effectiveness of the BLM by (1) encouraging 
professionalism of its employees, (2) increasing the public's 
understanding of and support for the proper management of the NSPL, and 
(3) promoting scientific management of lands administered by the BLM. 
We are strong advocates for keeping public lands in public hands.
Overview
    The BLM manages the most diverse landscapes in the Nation's 
portfolio; providing stewardship to more than 245 million acres of land 
and 700 million acres of mineral estate from the north slope of Alaska 
to Jupiter Inlet in Florida, and from tundra, to old growth forests, to 
desert landscapes. These lands consist of many attributes; habitat for 
thousands of species of plants and animals, clean water, cultural 
resources, scenic beauty, solitude, and special places. They also 
provide the opportunity to provide the Nation with wealth from its many 
resources including oil and gas, coal, renewable energy, non-energy 
minerals, all types of recreation, forage for livestock, timber, and 
wild horses and burros. The economic value of these lands to the 
American people is immense; according to the ``Department of the 
Interior Economic Contribution'' report of July 2014, these lands 
generate combined revenues in excess of $107 billon and over 446,000 
jobs. These lands are important economically to the United States as a 
whole; they are vital to the many rural communities throughout the West 
that are intermixed with these lands and whose citizens work and 
recreate on the lands. However, these uses and values can only be 
achieved when there is some balance in the programs to provide for the 
diversity of uses and maintenance of healthy, resilient landscapes.
Budget Overview
    The PLF recognizes and appreciates the difficult decisions that 
must be made by the Congress and the administration to allocate scarce 
dollars to programs that generate the best economic and social returns. 
A large part of managing the Nation's public lands involves managing 
wildfire. Agencies in the Department of the Interior and the Forest 
Service do a great job of suppressing nearly all of the wildland fire 
starts, catching around 98 percent of the fires with initial attack. 
However, the one or 2 percent of fires that escape initial attack 
become very expensive and over the past several years have quickly 
consumed the agencies suppression budget requiring them to ``borrow'' 
from other accounts. This transfer of funds, often in the hundreds of 
millions of dollars, diminishes the agencies capabilities to implement 
planned fuel reduction and projects in other program areas. The PLF 
supports the President's proposal to fund suppression at the full 10-
year average for this fiscal year; however, we also support the on-
going bipartisan efforts to develop a long-term solution to the 
wildland fire funding and severity issues and encourage this Committee 
to support passage of legislation that would reduce or eliminate fire 
borrowing.
    We support the requests for funding to provide vital energy needs 
from traditional energy sources and renewable energy sources. 
Environmentally sound development of the Nation's energy resources and 
the infrastructure to deliver the energy can contribute significantly 
to the country's energy independence. BLM has the experience and the 
procedures to streamline and increase energy permitting. However, we 
are concerned about the emphasis in the President's Budget Blueprint to 
reduce ``unproductive compliance efforts.'' Specific compliance efforts 
deemed to be unproductive are not identified. We hope oil and gas 
inspection and enforcement is not in this category. Following a GAO 
report in 2011, BLM began conducting inspection and enforcement 
activities on high risk oil and gas wells in order to ensure accurate 
reporting and payment of royalty fees. This program recovers more 
revenue than it costs, thereby ensuring a fair return to the American 
taxpayer and must be continued at its current level.
    The President's Blueprint proposes elimination of discretionary 
grants for mine hazard remediation that overlap with mandatory grants. 
We support the goal to eliminate redundancy. However, we must stress 
that continuation of mine hazard remediation is critical for BLM. 
Investing in hazard remediation not only saves lives, it also reduces 
expensive settlement and litigation that come with injuries of 
fatalities related to mine hazards. If the goal is a fair return on 
taxpayer investment, this program must be adequately funded.
    We are pleased to see the emphasis on partnerships. BLM has been 
successful for many years in generating partnerships, providing for on 
the ground work which otherwise would not be accomplished. BLM has a 
process to ensure projects support the Bureau's highest priorities. In 
addition, each dollar of challenge cost share money generates at least 
a dollar of matching funds.
    We are also gratified to see BLM specifically mentioned as a 
priority for infrastructure maintenance. Facilities contained on the 
245 million acres of BLM administered land are important to the 
taxpayer and need to be maintained. BLM has historically not always 
been included in meeting these maintenance needs. We would like to see 
infrastructure maintenance specifically include land restoration, 
forest thinning, brush control, weed control, etc. both as a means of 
improving resource conditions and stimulating local rural economies. 
These are the same lands that provide access to public land recreation. 
Adequate attention must be given to the value of public lands, 
especially rivers and trails as means to access our Nation's public 
lands.
    The President's Budget Blueprint fails to mention youth engagement. 
This has been a longstanding theme throughout several administrations. 
BLM has made great progress in its ``Engaging the Next Generation'' 
program. The PLF supports efforts to get youth involved in the outdoors 
and to gain an appreciation for the resources the Nation offers. Many 
of the members of PLF gained an appreciation for land management either 
from working on ranches and farms or by involvement in activities, such 
as the ones proposed in this budget. We hope some of the participants 
in these programs may decide to go into careers in natural resource 
management and fill the jobs of the many employees nearing retirement.
    One of the biggest challenges that the BLM faces is finding a 
workable and acceptable solution to the Wild Horse and Burro problem. 
There is probably no BLM issue that receives more passionate input from 
the public and local governments than this program. The BLM has tried 
several approaches to resolve the problem of rapidly expanding horse 
populations yet continues to be stymied in finding and effectively 
implementing a solution that the public will accept. The budget 
proposes to continue research on more effective fertility control 
methods and other actions suggested by the National Academy of Science 
study, but results from these actions are years off and will involve 
study and preparation of lengthy National Environmental Policy Act 
documents and, likely, result in litigation. Meanwhile the herds 
continue to grow, doubling every four to 5 years. In addition, the cost 
to feed and care for these animals for their relatively long life 
consumes a major part of the program budget. The recent recommendation 
of the Wild Horse and Burro Advisory Board to allow euthanasia is an 
indication of how critical the situation is. The BLM needs support to 
make use of all the authorities and tools provided in the statutes in 
order to effectively manage this program. We urge congress to remove 
the prohibition on ``sale without limitation.'' This would at least be 
a step in the right direction.
    Finally we are extremely concerned over how a $1.6 billion 
reduction (11.7 percent) for the DOI would translate to BLM. BLM has 
been underfunded for its entire existence, spending only about $4 per 
acre to manage the vast amounts of public lands. A budget cut of this 
magnitude would severely impact BLM's ability to provide adequate 
service to American citizens and limit its ability to protect taxpayer 
investments.
    The PLF strongly supports the dedicated professional employees of 
the BLM and other agencies. The nature of the BLM mission is employee 
intense. Some of the work can be done by contractors, but much of it 
requires BLM employees that are professionally trained in their 
respective fields. These public employees enter these fields because of 
their commitment to the lands and resources. Over the years these 
committed public servants have done their best to implement the laws 
and policies of the administration and Congress, yet they are often 
maligned and even physically confronted by those that disagree with 
those laws and policies. We ask that this subcommittee do what it can 
within its powers to support the dedicated employees in the resource 
management agencies.
    Madam Chairman, we appreciate the hard choices that this 
subcommittee has before it. Perhaps the creation of a BLM Foundation 
would help leverage scarce budget dollars. The BLM is the only major 
land management agency without a congressionally chartered foundation 
in place to support its efforts. A BLM Foundation could help bring 
additional resources to key initiatives. We hope that our comments will 
be of help as you work through the fiscal year 2018 budget process.

    [This statement was submitted by Jesse J. Juen, President.]
                                 ______
                                 
         Prepared Statement of the Pueblo of Acoma, New Mexico
Requests:
    1.  Full funding and parity for the IHS through an exemption from 
sequestration and budget cuts.
    2.  Increased funding for preventative health services to reduce 
incident rates of chronic illness.
    3.  $450,000 to maintain and repair 383.8 miles of roads on the BIA 
roads inventory.
    4.  $30 million for the construction, project management, and 
inspection of the Mesa Hill Bridge.
    5.  Increased Federal funding to maintain and construct Acoma 
Pueblo's irrigation infrastructure.
    6.  $8 million for the construction of a 35,000 square-foot 
innovative learning facility.
    7.  Maintain the $1 million set-aside for NAGPRA-related law 
enforcement going forward.
    Introduction. Thank you Chairman Murkowski, Ranking Member Udall, 
and members of the subcommittee for the opportunity to submit outside 
witness testimony on the critical funding needs of American Indian and 
Alaska Native programs under the fiscal year 2018 Federal budget. Thank 
you for your hard work and for the dedicated efforts of your staff in 
advancing the interests of Indian Country within the Federal 
Government.
    My name is Kurt Riley and I am the Governor of the Pueblo of Acoma, 
located in north-central New Mexico. Our Pueblo has maintained 
independent political relationships with foreign governments since at 
least the 16th century, when we treated with the Spanish conquistadores 
during their early explorations of the southwest. The Spanish Crown and 
the United States each recognized the Pueblos' right to self-rule and 
declared that all Pueblos be presided over by Tribal Governors with 
full ownership of their land. In the spirit of this intimate and time-
honored connection to our lands, I invite you to join me on a guided 
tour through Acoma Pueblo as I offer the following budget 
recommendations for fiscal year 2018.
    After following Interstate 40 an hour west of Albuquerque, we take 
Exit 100 and enter the sovereign territory of the Pueblo of Acoma. It 
is a land of turquoise skies, sunlit earth, and resilient people. The 
quiet of the plateau settles around you as we navigate down Veterans 
Boulevard to the Acoma-Canoncito-Laguna Indian Health Services Facility 
(ACL Hospital). Though we had to drive just a few miles from I-40 to 
reach the hospital, many Native patients must travel substantial 
distances to access an Indian Health Service (IHS) facility. It is our 
sense that the IHS has made a calculation that it is more economically 
efficient to fund a handful of centralized facilities than to maintain 
higher healthcare services and programs at the smaller facilities 
located in Native communities. Although that might be economical in the 
short-term, it comes at the long-term price of providing accessible 
quality care, thus creating one more hurdle on the path to wellness.
    The ACL Hospital provides critical healthcare services to the I-40 
corridor and surrounding Native communities; however, the quality and 
quantity of services being offered here has declined in recent years. 
The ability of Acoma Pueblo and our Federal partners to address the 
critical needs of the Acoma people is severely hindered by the lack of 
full funding for IHS programs. In 2015, for example, IHS spending for 
medical care per user was only $3,136, while the national average 
spending per user was $8,517--an astonishing 63 percent difference. 
Indian health programs also suffer from the cumulative effects of 
sequestration under the Budget Control Act of 2011 (Public Law 112-25). 
The disruption and ongoing unmet needs correlates directly with the 
staggeringly high rates of diabetes, chronic illness, and premature 
deaths that haunt our communities. We request that Congress exempt the 
IHS from sequestration and provide full funding for the IHS in fiscal 
year 2018 to provide an expanded range of health services in Native and 
rural communities.
    As we walk through the corridors of the hospital, I welcome you to 
look inside the rooms. Each patient is a testament to the resiliency of 
the Native spirit. They draw on their identity as Pueblo people for 
strength in overcoming the generations of hardship that manifests 
itself today in the adverse health outcomes currently plaguing Indian 
Country, particularly in regards to behavioral and mental health. Acoma 
Pueblo strives to promote the physical, mental, and spiritual well-
being of our people. To achieve this end, additional funding for 
preventative health services is needed to reduce future incident rates 
of serious illness in Native communities. It is our hope that the next 
time you visit ACL Hospital, these rooms will be empty thanks to the 
combined effect of improved access to quality care and preventative 
health services in Indian Country provided for in the fiscal year 2018 
budget.
    Before we leave the hospital grounds, I would like to direct you to 
Mockingbird Drive. This area contains additional treatment centers as 
well as a residential area for the medical professionals and 
administrative staff serving our people. The name of the road is all 
too appropriate, as we are unable to meet the housing needs of these 
individuals and their families. Only 40 housing units are available; 
the majority of the staff must struggle to find alternative local 
housing, which is further complicated by the critical housing shortages 
at Acoma Pueblo. Limited or non-existent housing opportunities impair 
our ability to recruit and retain qualified medical professionals. We 
urge Congress to provide sufficient funding for the renovation and 
construction of adequate housing units at IHS facilities.
    Take a right down Pueblo Road--one of our main thoroughfares--and 
we will make our way south, deeper into Acoma territory. Do you feel 
the bumps and buckling asphalt beneath your tires? The slight vibration 
in the steering wheel as we hit another divot in the road? Acoma Pueblo 
has approximately 662 miles of roadways within its exterior boundaries; 
however, only 363.8 miles are included on the BIA roads inventory. This 
means that almost half of our Tribal roads do not receive inventory-
related funded from the BIA. Of those that do, the amount is 
insufficient to support the roads' maintenance needs. For fiscal year 
2016, we received $70,000 in BIA Tribal Program Allocation Funds (TAP) 
to maintain roads on the inventory, which translates into roughly $192 
per mile. An annual funding allocation of at least $450,000 is needed 
to maintain the entire 363.8 miles of Federal and Tribal roads included 
on the BIA inventory.
    Stop! With only minimal safety features in place, it is easy to see 
how you almost missed the level railroad crossing that bisects our 
Pueblo. While the endless sky of New Mexico makes for wonderful vistas 
from the mesas, down on the ground it poses significant threats to our 
Tribal members' safety. The flat terrain, misjudgments on the speed and 
distance of trains, and the lack of fixed schedules for freight trains 
all contribute to unsafe railroad crossings. Nonetheless, our people 
must face the daily challenge of traversing the tracks because our 
hospitals and business centers are located on the north side of the 
tracks while our community service facilities are located in the south. 
Despite the significant threat to public safety posed by this 
situation, we have been repeatedly denied funding to construct the 
proposed Mesa Hill Bridge across the tracks. This is a shovel-ready 
project for which we request $30 million to cover the costs of 
construction, project management, and inspection.
    As we cross the tracks--safely this time--the rich lands of our 
Pueblo unfold. We strive to maintain our traditional lifestyle while 
also incorporating innovative practices that benefit our community. 
Alongside the road, for example, you will see traditional dirt 
irrigation ditches. Hundreds of years ago, our ancestors engineered 
complex irrigation systems to support the permanent settlement of 
communities in an otherwise arid landscape. These remarkable networks 
have sustained local water delivery and agriculture for generations. 
However, the effects of time, human activity, and changes in the 
natural environment have resulted in the need for extensive repairs and 
new construction. Congress enacted the Pueblo Irrigation Infrastructure 
Act as Section 9106 of the Omnibus Public Land Management Act of 2009 
to support the irrigation infrastructure of the Rio Grande Pueblos, 
including Acoma Pueblo. With funding through the Bureau of Reclamation 
under this Act, Acoma has completed a survey of all irrigation ditches 
and farming lands in our community. The estimated cost to line eight 
miles of traditional dirt irrigation ditches with concrete is 
$2,500,000. Substantial Federal funding is also needed to repair, 
construct, and restore an additional 36 miles of irrigation 
infrastructure at Acoma Pueblo.
    Acoma Pueblo is a rural, isolated community facing significant 
challenges stemming from the lack of economic development and a 
woefully inadequate municipal infrastructure. As we drive down 
Pinsbarri Drive (Indian Service Route 32), you will see the Acoma 
Community Center, Haaku Learning Center, and Sky City Community School 
where we strive to provide our Tribal members with the tools to 
overcome these tremendous barriers. Technological advances and the 
expansion of broadband connections are rapidly changing the educational 
landscape in rural communities. Acoma Pueblo, like much of Indian 
Country, lacks access to a reliable broadband network to take advantage 
of these life-changing opportunities. We request funding to support the 
design and construction of an Acoma Library and Tribal Education Center 
with the broadband infrastructure and on-site resources to connect our 
Tribal members with previously unheard-of access to continuing 
education in their home community. $8 million is needed for the 
construction of a 35,000 square-foot facility to include a library, 
state-of-the-art interactive learning center and outdoor learning 
facilities.
    Unlike our broadband network, the connection to our culture and 
identity as Acoma people is strong and unbroken. Along this journey, 
you have seen it in the ceremonial features of the land, heard it in 
the wisdom of our Tribal leaders, and felt it in the resonant power of 
our items of cultural patrimony. At the junction of Kaatsiima Drive and 
Indian Service Route 38 is the Haaku Museum. This 40,000 square-foot 
facility focuses on the preservation of Acoma history and cultural 
expression. The items on display transmit our worldviews and values 
from generation to generation. When these items are removed from the 
community through illegal trafficking or theft, an irreplaceable aspect 
of our cultural identity is lost as well.
    While you contemplate the profound beauty and complexity of the 
items on display, I would like to take this opportunity to thank you 
for providing expanded funding for NAGPRA-related law enforcement 
activities in the 2017 Omnibus. Because of the dedicated efforts of 
this subcommittee and other champions of Indian Country, we have made 
significant progress in protecting our cultural patrimony. BIA and 
Tribal officials will now have an enhanced capacity to combat and deter 
the trafficking of Tribal cultural patrimony. Acoma Pueblo is confident 
that the movement to protect cultural heritage that began with the 
PROTECT Patrimony Resolution will only continue to grow stronger going 
forward. We strongly encourage Congress to maintain the $1 million 
allocation for NAGPRA-related law enforcement activities in fiscal year 
2018 and beyond and to continue to support programs that protect and 
repatriate items of Tribal cultural patrimony.
    To complete our tour of Acoma Pueblo you will need to strap on your 
hiking boots. We will be climbing 365 feet up into the New Mexico 
firmament to visit Acoma Sky City, our ancestral home. The Acoma people 
have lived at this mesa-top settlement for at least 1000 years. It is 
the heart of our community--preserving and enriching our religious, 
cultural, and social life. As we climb the natural stairs to the top, I 
encourage you to feel the smooth, warm sandstone of the mesa beneath 
your hands; countless generations of Acoma people have worn handholds 
into the rock to stabilize and guide those that follow. With each step 
you take, you are shaping that same path today. While the climb is 
steep and challenging, together we can make it and the view from the 
top is an unforgettable reward.
    Thank you for the opportunity to submit written testimony on these 
important considerations for the fiscal year 2018 budget. We look 
forward to working with you, and we hope to have the opportunity to 
show you first-hand the magnificence of our lands as well as the 
challenges facing our community during a future visit to the Pueblo of 
Acoma. Da'wa'eh; thank you.
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians
    The Puyallup Tribe appreciates the opportunity to provide written 
testimony concerning the fiscal year 2018 appropriations for American 
Indian and Alaskan Native programs. The Puyallup Tribe is an 
independent sovereign nation having historically negotiated with 
several foreign nations including the United States in the Medicine 
Creek Treaty of 1854. This relationship is rooted in Article I, Section 
8, of the United States Constitution, Federal laws and numerous 
Executive Orders. The governing body of the Puyallup Tribe of Indians 
is the Puyallup Tribal Council which upholds the Tribe's sovereign 
responsibility of self-determination and self-governance for the 
benefit of the 5,006 Puyallup Tribal members and the 25,000 plus 
members from approximately 355 federally recognized Tribes who utilize 
our services. The Puyallup Reservation is located in the urbanized 
Seattle-Tacoma area of the State of Washington. The 18,061acre 
reservation is a ``checkerboard'' of Tribal lands, Indian-owned fee 
land and non-Indian owned fee land. Our reservation land includes parts 
of six different municipalities (Tacoma, Fife, Milton, Puyallup, 
Edgewood and Federal Way).
            department of interior--bureau of indian affairs
    Public Safety & Justice: The Tribe's top priority remains public 
safety and justice programs. Funding for detention facilities is of 
great importance to the Puyallup Tribe. In fiscal year 2009, the 
Puyallup Tribe received a Department of Justice grant, in the amount of 
$7.9 million to construct a 28 bed adult corrections facility. 
Construction on the facility was completed in February 2014 and came 
online in May 2014. Over the past years the Puyallup Tribe has worked 
closely with the BIA-Office of Justice Services to identify the 
operating and staffing costs associated this facility. The agreed upon 
estimated cost of operating the facility was set at $2.6 million 
annually. The BIA base funding offered to the Tribe $704,198 or 27 
percent of actual need, with no increases to base funding in fiscal 
year 2016 or 2017. We are request support from the subcommittee to 
include committee report language that would direct Office of Justice 
Services to submit a plan for funding the staffing and operations of 
the detention facilities in Indian country. In light of glaring funding 
shortfalls, we are shocked the administration seeks to cut Public 
Safety funds.
    In addition, we operate a Tribal Court program through a Public Law 
93-638 contract with the B.I.A. In fiscal year 2015, our base funding 
was increased from $45,000 to $194,996 and remains this amount for 
fiscal year 2017. While this increase to our Tribal Court Base funding 
is appreciated, it does not equal the amount of Tribal funds necessary 
to fully operate the Tribal Court program. In fiscal year 2016, the 
Tribe has allocated $1.172 million of Tribal funds for the Tribal Court 
budget. The Puyallup Tribe greatly supports the $10 million in funding 
support for Tribal Courts in Public Law 280 States that Congress 
provided in fiscal year 2017. This funding will assist with the 
implementation of the Tribal Law and Order Act and the Violence Against 
Women Act for Tribes like Puyallup. We request similar funding for 
fiscal year 2018 and therefore oppose the administration's proposal to 
eliminate Tribal Court funds for Tribes in Public Law 280 States.
    Natural Resources Management: The Puyallup Tribe has treaty and 
governmental obligations and responsibilities to manage its natural 
resources for uses beneficial to the Tribal membership and the regional 
communities. Despite our diligent program efforts, the fisheries 
resource is degrading and economic losses are incurred by Native and 
Non-native fishermen and surrounding communities. Our resource 
management responsibilities cover thousands of square miles in the 
Puget Sound region of the State of Washington.
    For fiscal year 2018, a minimum funding level of $8.5 million is 
necessary for the Rights Protection Implementation--BIA Western 
Washington (Bolt) Fisheries Management program. However, we agree with 
the Northwest Indian Fisheries Commission and the National Congress of 
American Indians that an overall $52 million increase for the Rights 
Protection Implementation funding is necessary to ensure compliance 
with Federal court orders through effective Tribal self-regulatory and 
co-management systems. This increase in funding would provide new 
monies for harvest management, habitat protection, stock enhancement, 
shellfish, enforcement, wildlife and other natural resource management 
needs. As the aboriginal owners and guardians of our lands and waters 
it is essential that adequate funding is provided to allow Tribes to 
carry-out our inherent stewardship of these resources. The 
administration's 30 percent cut is unjustified.
    The Puyallup Tribe continues to operate a number of salmon 
hatcheries that benefit Indian and non-Indian commercial and sport 
fisheries in the Pacific Northwest/Puget Sound. We work cooperatively 
with the Northwest Indian Fisheries Commission, neighboring Tribes, 
Federal agencies and State fishery managers to insure the success and 
sustainability of our hatchery programs. The Tribe supports the 
Congress past funding of for Fish Hatcheries Operations and Fish 
Hatchery Maintenance, including the recent $1 million increase for fish 
hatchery operations.
    The Timber, Fish and Wildlife (TFW) Supplemental and U.S./Canada 
Pacific Salmon Treaty programs has allowed for the expansion of Tribal 
participation in the State forest practice rules and regulations and 
participation in inter-tribal organizations to address specific 
treaties and legal cases which relate to multi-national fishing rights, 
harvest allocations and resource management practices. We request that 
the subcommittee support the funding recommendations of the NWIFC for 
the fiscal year 2018 TFW Supplemental program and the U.S./Canada 
Pacific Salmon Treaty program.
    The Puyallup Wildlife Management program has been the lead agency 
in management activities to benefit the South Rainier elk herd since 
2004. The South Rainier elk herd is the primary stock of elk harvested 
by the Puyallup Tribe. The Tribe has not only established more reliable 
methods for population monitoring, but has also been proactive in 
initiating habitat enhancement projects, research and land acquisition 
to ensure sustainable populations of elk for future generations. Funds 
that are available to the Tribe have been on a very competitive basis 
with a limited amount per program via USFWS Tribal Wildlife grants and 
the B.I.A. Unresolved Hunting and Fishing Rights grant program. We 
request subcommittee support to provide base funding to the Tribes' 
Wildlife Management Program in the amount of $150,000 through the 
B.I.A. Unresolved Hunting and Fishing Rights program in fiscal year 
2018 appropriations.
    Education: The Puyallup Tribe operates the pre-K to 12 Chief Leschi 
Schools which included a School student enrollment of approximately 910 
students, including ECEAP and FACE programs. With an increasing number 
of pre-kindergarten enrollment, Chief Leschi Schools will exceed design 
capacity in the near future. Additional education facility space will 
be necessary to provide quality educational services to the students 
and Tribal community. Additionally, the cost of operation and 
maintenance of the Chief Leschi School facilities continues to increase 
in the areas of supplies, energy and student transportation costs.
    We greatly appreciate the $39 million increase for Bureau of Indian 
Education (BIE) that Congress was able to provide in fiscal year 2017, 
but more is needed. The Tribe will continue to work with Congress, BIE 
and the National Congress of American Indians to increase funding in 
fiscal year 2018, including; Tribal Grant Support Cost for Tribally 
Operated Schools--$78 million; Student Transportation--$73 million; 
School Facilities Accounts--$109 million in facilities operations and 
$109 million in facilities maintenance, Indian School Equalization 
Program (ISEP)--$431 million and Construction/Repair of BIE Schools- 
$263.4 million. The administration's proposed cuts to BIE funding of 
$105 million for fiscal year 2018 are most unwise and will further 
exacerbate the education disparities faced by Native American children.
    Operations of Indian Programs & Tribal Priority Allocations: Again, 
the Puyallup Tribe greatly appreciates Congress increases for B.I.A. 
Operations of Indian Programs. Within the Operations of Indian Programs 
is the Tribal Priority Allocations (TPA). The TPA budget functions 
include the majority of funding used to support on-going services at 
the ``local tribal'' level, including; natural resources management, 
child welfare, other education, housing and other Tribal government 
services. Nevertheless, these functions have not received adequate and 
consistent funding to allow Tribes the resources to fully exercise 
self-determination and self-governance. Further, the small increases 
``TPA'' has received over the past few years has not been adequate to 
keep pace with inflation. We therefore oppose the administration's ill-
conceived proposed reductions to OIP programs.
     department of health and human services--indian health service
    The inadequate funding of the Indian Health Service is the most 
substantial impediment to the current Indian Health system. The 
Puyallup Tribe has been operating healthcare programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) operates a comprehensive 
ambulatory care program to the Native American population in Pierce 
County, Washington. The current patient load exceeds 9,000, of which 
approximately 1,700 are Tribal members. For that reason, we cannot 
understand the administration's proposed reductions to IHS funding of 
$107 million for fiscal year 2018.
    There are no Indian Health Service hospitals in the Portland Area 
so all specialties and hospital care have been paid for out of our 
contract care allocation. The Purchased/Referred Care (PRC) allocation 
to PTHA remains inadequate to meet the actual need. In fiscal year 
2004, the Puyallup Tribe subsidized PRC with a $2.8 million-dollar 
contribution. Today, the Tribal PRC subsidy has grown to in excess of 
$6 million. Given that the PTHA service population is only comprised of 
17 percent Puyallup Tribal members, Tribal budget priorities in fiscal 
year 2011 thru 2016 has made continued subsidies to the PTHA 
financially difficult for the Puyallup Tribe. The Tribe greatly 
supports the $3.694 billion funded for IHS Indian health services in 
fiscal year 2017, including the $928 million for Purchased/Referred 
Care, a $14 million increase. Without similar funding increases for 
fiscal year 2018, we cannot see how our Tribe will meet increasing 
healthcare costs and expand healthcare services and programs for a 
growing population.
    As the first ISDA contracted health clinic in the country, we 
greatly appreciate Congress' strong support for fully funding Contract 
Support Costs at $800 million. The Puyallup Tribe fully supports 
funding increases for existing IHS programs and will work with Congress 
to continue efforts to increase funding for IHS and the critical 
programs administered by this Agency.
    For all of the above reasons, we urge the subcommittee to reject 
the administration's unwise proposed reductions to fiscal year 2018 
appropriations for Tribal programs and continue its bipartisan 
tradition to make informed decisions about Tribal needs based on well 
documented information.
                                 ______
                                 
       Prepared Statement of the Ramah Navajo School Board, Inc.
    Honorable Chairman and Committee members. I am Marlene Martinez, 
the President of the Ramah Navajo School Board, Inc. (RNSB). Ahe hee'. 
Thank you for the opportunity to provide oral testimony for the 
consideration of the Congress. We have a relationship that extends back 
to 1970 (over 47 years) when the Founders of Ramah Navajo School Board, 
Inc. (``RNSB'') came before you to request your help to establish the 
first tribally controlled and operated school in the Nation. We are 
proud to inform you this day that the RNSB still operates and manages 
the Pine Hill Schools under the Indian Self-Determination and Education 
Assistance Act.
    Our purpose here today is to report to you the dire condition of 
our school buildings that is nearing the end of its useful life. After 
nearly half a century, the BIA School facilities at the Pine Hill 
Schools (1) are aging and showing significant wear and tear; (2) have 
deteriorated beyond repair; (3) have inoperable and failed heating 
systems; (4) have dilapidated and unsafe water systems; and (5) are 
unusable because of dangerous mold conditions due to leaking roofs.
    In just the past 5 years, it has gotten to the point where the 
students have been sent home early during schools hours due to cold 
classrooms or a water line break on campus that causes no water or low 
water pressure situations. The lack of water or low water pressure is 
due to a dilapidated water system; it is corroded and near a total 
collapse. All the while the students are also exposed to a dangerous 
environment due to mold, cold classrooms, and leaking roofs in certain 
classrooms, or playing on a wet basketball court in the gymnasium, and 
walking on crumbling sidewalks. See Tab-1 ``Office of Inspector General 
Report of Findings''. The conditions at the Pine Hill Schools have been 
detrimental to student learning, scholastic achievement, and 
environmental safety. Valuable time for student instruction has been 
interrupted and lost, and those conditions are directly attributable to 
the underachievement for many of the students.
    An investigative report conducted in 2014 by an Albuquerque news 
channel, through Larry Barker, labeled the Pine Hill Schools as See 
Tab-2 ``The most dangerous school in America?'' This is absolutely 
unacceptable and contrary to congressional intent. That labeling came 
as result of an investigative report by the Office of the Inspector 
General (OIG) that cited the Pine Hill Schools with numerous facility 
violations, which if not corrected could have resulted in penalties 
against the RNSB or even the shutdown of the school. See Tab-
1A"Corrective Action to OIG Findings Report''. Of the approximately 30 
findings RNSB has corrected and resolved 24 of them. Those that remain 
unresolved are the Library, Kindergarten, and Gymnasium buildings; and 
they require major work.
    RNSB established a priority projects list with a set timeline of 1 
year to resolve the leaking roofs and mold in the Library, 
Kindergarten, and Gymnasium buildings. This includes the installation 
of a new heating system in the High School building and an upgrade of 
the dilapidated water system.
    The estimated cost of conducting the improvements and repairs 
SeeTab-3 MAXIMO Priority Listing:

 
                   Priority Projects                     Estimated Cost
 
1. Library Building Repair
 
   Mold abatement and Leaking Roof....................          $823,478
 
2. Kindergarten Building Repair
 
   Mold Remediation, Leaking Roof, Replacements of              $298,407
 Windows, Bathrooms, Carpets, HVAC....................
 
3. Gymnasium Building
 
   Mold Remediation, Repair of Leaking Roof,                  $1,230,901
 Replacement of Old Insulation, Floor, Showers, and
 Lockers..............................................
 
4. Heating System in the High School Building.........          $450,000
 
   In September 2016 BIA committed to designing and
 installing a heating system at the Pine Hill High
 School by mid-December 2016 so that the students
 could enjoy warm classrooms for once. But that did
 not happen, and that makes it six (6) years in a row
 the heating system has been inoperable. Instead, the
 project was still in the design stage as of April
 2017; so very likely the construction may not be
 completed until late summer of 2017.
                                                       -----------------
Total Buildings and Heating System....................        $2,802,786
 
5. Water System Upgrade (Wells, Pumps, Waterlines,
 Tanks, Water Treatment) See Tab-4 ``Existing water
 system layout-blue line''
 
Pre-Engineering Report................................         $ 150,000
Design and Engineering................................           500,000
Construction--Upgrade of Water System.................         3,500,000
                                                       -----------------
Total Water System Upgrade............................        $4,150,000
                                                       =================
Total Medium Term Funding Requested...................        $6,952,786
 
6. New School 186,500 SF..............................       $40,012,500
 
Tab-5 ``Conceptual Site Plan-New Building Layout &
 Cost"
 
There is also the question of maintaining obsolete
 facilities that have surpassed its useful life.
 Therefore the reason and justification to build a new
 school is to re-invest in the long-term future of the
 children and youth of the Ramah Navajo Community.
 

Long Term Solution
    The above first five (5) items are considered medium-term 
solutions. Whereas, the long-term solution (Item No. 6) that RNSB seeks 
is Congressional appropriation for a whole new replacement school. A 
modern up to date new educational facility that meets the standards 
that permits a high-quality educational and living environment where 
RNSB students can thrive and prepare themselves for a promising future. 
Considering all costs for planning, designing and engineering the cost 
for a whole new replacement school is estimated at $40,012,500.
    It is obvious and evident that RNSB cannot rely on BIA to perform 
any required repair and maintenance, nor live up to its Trust 
responsibility. Therefore, RNSB requests the commitment of the Congress 
once again through the BIA and BIE: (1) to correct the above mentioned 
deficiencies; and (2) initiate new congressional appropriations for the 
planning, design, and construction of new educational facilities as 
soon as possible.
Summary
    RNSB request the US Congress to direct the BIA and BIE to complete 
repairs and mold remediation to the Library, Kindergarten, and 
Gymnasium buildings, the installation of a heating system for the High 
School, and the upgrade of the water delivery system at the Pine Hill 
Schools. Furthermore, RNSB request the Congress to appropriate 
sufficient funds for planning, design and construction of a new school 
at Ramah Navajo. Thank you for your time and RNSB looks forward to the 
Congress favorable consideration.
Ahe hee'
    We look forward to working with the subcommittee on furthering the 
important work of our school and enriching our students. Thank you for 
the opportunity to submit testimony. Please contact me at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3ded2c1dfd6ddd6f3c1ddc0d19dd882819dddde9dc6c0">[email&#160;protected]</a> if you have any questions.
                                 ______
                                 
              Prepared Statement of the Recording Academy
    My name is Neil Portnow, I am the President/CEO of the Recording 
Academy, an organization that represents 23,000 individual music 
creators and professionals--songwriters, performers, studio 
professionals, and others creatively involved in making music. I 
appreciate the opportunity to submit this written testimony to the 
Senate Committee on Appropriations Subcommittee on Interior, 
Environment, and Related Agencies. The Recording Academy requests that 
the subcommittee funds the National Endowment for the Arts (NEA) for 
fiscal year 2018 at no less than $155 million.
    The NEA has been invaluable to the development of music creators 
across the country, while helping preserve America's rich music 
culture. Since 1966, the NEA has provided $423.8 million in funding to 
domestic music programs--from teaching kids how to play an instrument 
to supporting festivals of international acclaim. The NEA is an 
essential part of the American music culture, and it must be funded to 
ensure that all Americans, from inner cities to rural counties, can 
continue to enjoy and participate in our rich music heritage.
    As you consider funding levels for fiscal year 2018, I encourage 
you to first reflect on what music means to our Nation. From folks 
songs of centuries past, to the iconic American Jazz scene, to today's 
global pop stars, music is woven throughout our cultural tapestry. It 
binds us together as one Nation with the power to bridge racial, 
religious, and regional divides. Music represents our shared history, 
our common values, and our dedication to build for ourselves a more 
perfect union. In times of triumph and tragedy, we turn to the abiding 
power of music to lift our spirits, soothe our souls, and remind us 
that everything will be okay.
    Music and the arts give value to us as a Nation beyond defined 
borders, ensuring that America continues to be a beacon of innovation 
and hope for people here and all around the world. President John F. 
Kennedy summed it up best, ``The life of the arts is very close to the 
center of a Nation's purpose, and is a test of the quality of a 
Nation's civilization.'' His words remain true today; and for less than 
$1 per person, the NEA helps foster all of this and so much more.
    I understand that you are tasked with a difficult and important 
responsibility; but as you finalize government spending for the next 
year, please remember why the arts must be protected today, tomorrow, 
and in the future. American culture makes America strong. Music and the 
arts further the very priorities the budget seeks to enhance. Our 
creative economy, with a $26 billion trade surplus, serves as a 
powerful ambassador abroad; it teaches our shared values and history in 
compelling ways, and it connects us as a people and as a world.
    At a SXSW panel sponsored by the Recording Academy in 2014, 
Homeland Security Committee Chairman Michael McCaul noted:

        ``Music can really make a difference in changing the attitudes 
        and governance of some of these countries and really have a 
        positive impact. While [drones] have been successful with high-
        value targets, they are not alone going to kill an ideology. . 
        . . Music has a very strong role to play in diplomacy and in 
        that soft power to try and change the world to make it a better 
        place.''

    When we're talking about ``hard power'' as opposed to ``soft 
power,'' what we're really talking about is the difference between 
coercion and control versus persuasion and influence. That is where 
American culture and creativity excel. American music, art, theater, 
and dance liberate us, teach us to think and be strong, and are great 
ambassadors around the word.
    Simply put, we didn't win the Cold War with just missiles; we also 
won the Cold War with Elvis, tailfins, and Death of a Salesman. Earlier 
I quoted President Kennedy, whose leadership proved critical to the 
U.S. and the world during that divisive period in our history. In a 
speech just a month before his death, Kennedy said, ``I see little of 
more importance to the future of our country and our civilization than 
full recognition of the place of the artist.''
    That is why I implore you and your colleagues in Congress to fully 
fund the National Endowment for the Arts at a level of no less than 
$155 million for fiscal year 18. Help protect and renew America's 
commitment to the arts and to music. It's our collective responsibility 
to preserve what binds us and to ensure that the whole world continues 
to benefit from one of our most unique and economically and spiritually 
important assets--and exports: American music.
    It is an investment worth making.
                                 ______
                                 
      Prepared Statement of the Red Lake Band of Chippewa Indians
    Chairman Murkowski and Ranking Member Udall, thank you and the 
other distinguished Members of the subcommittee for this opportunity to 
provide testimony on behalf of the Red Lake Band of Chippewa Indians 
(``Red Lake''). Red Lake is a large Tribe with 12,000 members. Our 
840,000-acre Reservation is held in trust by the United States. While 
it has been diminished in size over time, our Reservation was never 
broken apart or allotted, nor subjected to the criminal or civil 
jurisdiction of the State of Minnesota. Thus, we are responsible for a 
large land area over which we exercise full governmental authority and 
control, in conjunction with the United States. Due in part to our 
remote location, there are few job opportunities available for Tribal 
members. While unemployment in Minnesota is only 3.9 percent, ours 
remains close to 50 percent. The lack of good roads, reliable 
communications systems, and other necessary infrastructure continues to 
impede economic development and job creation at Red Lake. The budget 
appropriation process is a major avenue through which the United States 
fulfills its trust responsibility and honors its obligations to Indian 
Tribes. To that end, we request that your subcommittee provide $6.7 
million in additional fiscal year 2018 funding for Red Lake programs as 
described below.
Protect and Restore BIA and IHS Funding From Sequestration
    Sequestration has undermined specific Red Lake treaties that the 
United States Constitution considers the ``supreme law of the land.'' 
Our Tribal government delivers core government services that were 
previously administered by Federal agencies, based on Federal treaty 
and trust responsibilities owed to Red Lake. Because it would be 
unthinkable for the United States to fail to fully comply with 
contractual obligations to other treaty parties without consequence, 
the United States must likewise fully honor its obligations to Indian 
nations, like Red Lake.
    In fiscal year 2013-2017, sequestration cut Red Lake's BIA annual 
funding levels by more than $900,000 each year forcing Red Lake's 
already underfunded BIA programs to suffer from huge reductions. The 
BIA is obligated to provide adequate funding to meet basic public 
safety needs on our Reservation, but the BIA has repeatedly failed to 
do so. Each of our public safety programs is understaffed and 
undersupplied relative to the BIA's own safety standards. In order to 
provide minimal public safety in fiscal year 2016, Red Lake had to 
spend $2.9 million more than BIA provided. To cover this shortfall, we 
had to shift funds from other critical BIA programs, which were also 
impacted by sequestration, cutback on staff, and reduce hours for law 
enforcement and other public safety services. This resulted in 
noticeable and dramatic cuts in service delivery.
    Sequestration has additionally taken over $750,000 each year from 
IHS-funded medical services at Red Lake. This has cost the Tribe 
several medical positions, made patients wait even longer for 
treatment, delayed patient follow-up care, reduced medical 
transportation, diminished supply stocks, and delayed replacement of 
outdated equipment.
    For Tribes like Red Lake who must rely on Federal funding for 
essential government services, sequestration has been a nightmare. 
Funding taken away by the draconian sequestration cuts of recent years 
should be restored in fiscal year 2018. We specifically ask for an 
addition of $1,650,000 to Red Lake's BIA and IHS base program funding 
in fiscal year 2018 to restore funds taken away by previous 
sequestration cuts, and we ask for another $2,957,850 to be added to 
our BIA law enforcement budget to help Red Lake finally meet our BIA 
public safety shortfall.
Protect Indian Country Funding from Proposed 13 Percent Cut
    The President's fiscal year 2018 budget is simply terrible for 
Tribes. For at least a decade, BIA has fared poorly when Interior has 
internally allocated its budgeted funds among various agencies.
    Tribes have suffered terrible funding cuts to most government 
service programs. The cuts have caused a crisis for many Tribes. The 
cuts include a crippling 16 percent to Tribal Government Funding 
(formerly referred to as ``Tribal Priority Allocations'' or ``TPA'') in 
1996, most Tribes' base programs other than law enforcement have not 
increased in 20 years, Tribal programs were cut an additional 8 percent 
from the 14 separate, permanent rescissions enacted since 2000 to fund 
Federal deficit reduction, tax cuts, wars, and hurricanes. Tribal 
employee pay costs were only partially funded most of those years. As a 
result, Tribes' core service funding is far less, in real terms, than 
20 years ago. This has undermined the ability of Tribes to provide 
safety and security for people who struggle to survive under some of 
the worst living standards in America.
    Red Lake's critical government services programs are dangerously 
underfunded, and the BIA through which we receive our funding continues 
to be impacted by sequestration, rescissions, and inflation, despite 
the able work of this subcommittee to provide BIA funding increases in 
fiscal year 2014-2017 after 3 years of significant decreases in fiscal 
year 2011-2013.
Fully Fund Pay Costs and Fixed Costs in fiscal year 2018 and Beyond
    Pay costs represent the only increase most Tribal programs receive. 
Since fiscal year 2001, the Interior Department, BIA, and Tribes, lost 
more than $800 million from the partial funding of Pay Costs and other 
Fixed Costs. This has resulted in the loss of thousands of jobs. The 
fiscal year 2017 budget request included $5.3 million for BIA Fixed 
Costs and Pay Costs--the lowest request in history (in fiscal year 2008 
BIA Fixed Costs were $41.3 million). Red Lake requests that you provide 
$8 million specifically for Tribes' Pay Costs in fiscal year 2018, and 
that you continue to tell OMB that Pay Costs must be fully funded in 
all future budget requests. We also ask that you fund $2.1 million in 
fiscal year 2018, the total cumulative amount Red Lake has been shorted 
from the failure to fully fund Pay Costs since fiscal year 2001.
Protect and Fully Fund Tiwahe and Recidivism Reduction Initiatives 
        (RRI)
    Tiwahe and RRI are positively impacting Tribes. The Tiwahe 
Initiative provides resources to assist Tribes in addressing the inter-
related problems of poverty, violence, substance abuse, and associated 
outcomes like youth suicide. Tiwahe encompasses several BIA programs 
including Social Services, ICWA, Courts, Job Placement and Training, 
and Housing. These programs historically have seen few funding 
increases. The RRI is a BIA Public Safety and Justice program within 
its Law Enforcement Special Initiatives line, and which is now part of 
the broader Tiwahe Initiative. Through Tiwahe and RRI, Red Lake was 
able to finally open a juvenile facility that sat vacant for a decade 
due to lack of funding. We are now providing vital services to youth 
who truly need them. Troubled youth are screened for a variety of 
issues including mental health, substance abuse, domestic abuse, crime, 
and recidivism. A host of services are provided including mental 
health, trauma, and substance abuse treatment. We have recently 
established a juvenile healing to wellness court, and in conjunction 
with Red Lake Schools, we established a ``last chance'' school for 
youth who are on the verge of expulsion because of societal problems 
affecting them. Additionally, Our Tribal Health Wellness Program works 
in concert with IHS Behavioral Health staff and the schools. To date, 
they have provided over 8,631 inpatient visits. Because of these 
initiatives, we are proud to report that, in the last 16 months, for 
the first time in years, we have had zero youth suicides. This is an 
outcome we want to maintain.
    We've now confirmed our worst fears--the President wants to 
eliminate Tiwahe and RRI, just as we are beginning to make a difference 
in peoples' lives. Tiwahe actually impacts 61 Tribes in its current 
pilot phase (56 in Alaska), and it will eventually expand to positively 
impact all Tribes. On top of that, an additional $24 million in Tiwahe 
Social Services and IWCA funds were distributed to Tribes across the 
country. Red Lake has made real progress to address the needs of our 
youth and families, thanks to Tiwahe and RRI. We greatly appreciated 
your support for these initiatives in fiscal year 2015 and 2016, and 
for the additional $16 million you provided in fiscal year 2017. You 
are helping our children and families to have better lives and safer 
communities. We ask that you continue to fully fund and consider 
increases for Tiwahe and RRI in fiscal year 2018.
BIA Justice Services Programs: Law Enforcement, Courts, and Community 
        Fire Protection
    The Tribal Law and Order Act (``TLOA'') was intended to empower 
Tribal law enforcement with resources needed to combat crime. However 
since TLOA's implementation, BIA funding for Tribal law enforcement has 
decreased thus hindering the ability of Tribal law enforcement to 
reduce crime and protect Tribal members. Recent administration budget 
requests have furthermore failed to include any increases for Tribal 
law enforcement operations. We thank you for providing an additional 
$5.6 million for Tribal law enforcement in fiscal year 2017, this 
increase is sorely needed. We request an additional $10 million in 
fiscal year 2018 for Tribal law enforcement operations. Funding for 
Tribal Courts is grossly inadequate and remains a top priority of 
Tribes. We thank you for providing an additional $2.6 million in fiscal 
year 2017 for Tribal Courts in support of the Tiwahe Initiative, and we 
ask that you provide an additional $10 million in fiscal year 2018 for 
Tribal Courts. Community Fire Protection has also been neglected for 
decades. We are responsible for fighting fires on our Reservation and 
protecting peoples' lives, on a yearly BIA-funded budget of $42,500. We 
ask that you provide an additional $10 million for Community Fire 
Protection in fiscal year 2017.
Housing Improvement Program
    The Housing Improvement Program (``HIP'') has provided Red Lake 
with many successes. Recently, we were able to build 8 new HIP homes 
for our poorest elderly and disabled members who were ineligible for 
assistance from other Federal agencies. HIP funding was cut from $19 
million to $8 million in recent years. The President's proposal to 
eliminate the Housing program is unacceptable. We thank you for 
providing a $1.7 million increase in fiscal year 2017 for Housing under 
the Tiwahe Initiative. To continue funding our initiatives, we request 
an additional investment of $10 million in fiscal year 2018.
Trust Natural Resources--Additional $5 Million
    Thank you for providing an additional $9 million for Trust Natural 
Resources programs in fiscal year 2017. Many natural resources 
recurring base programs, which fund Tribes' day-to-day conservation 
responsibilities, have not been increased for years. As a result, 
Tribes have been unable to adequately manage their resources. On our 
Reservation, most resource management activities are funded under the 
BIA budget categories of Tribal Management Development, Natural 
Resources TPA, Wildlife and Parks TPA, and Forestry TPA. We urge you to 
increase funding for each of these programs by at least $5 million 
above the fiscal year 2017 enacted levels.
Indian Health Service (IHS)--$7.1 Billion
    Thank you for providing $5.040 billion in fiscal year 2017 for IHS, 
an increase of $232.3 million over fiscal year 2016. There is a 
tremendous unmet need for IHS and Tribal health programs, stemming from 
years of chronic under funding. IHS mandatory increases for inflation, 
population growth, pay costs, and CSC surpass the requested increase. 
Per capita expenditures for IHS in 2015 were only $3,688 person, 
compared to $9,523 for the general population, a great disparity. For 
fiscal year 2018, the IHS Tribal Budget Formulation Workgroup requested 
$7.1 billion for IHS, and we ask that you provide this amount.
EPA Programs
    As Red Lake is home to the 6th largest natural, freshwater lake in 
the United States and approximately 60 percent of the Indian trust land 
in EPA Region 5, spanning a geographic area the size of West Virginia, 
water, wetlands, animals, and plants are vital to our Tribe. While we 
utilize various vital EPA programs, including: General Assistance 
(``GAP''), Clean Water Act Sections 106 Pollution Control and 319 
Nonpoint Source, Brownfields, and Clean Air Act Section 105, Red Lake 
only has funding to support 50 percent of the staff needed. To better 
support our environmental needs, Red Lake requests increases in funding 
for these programs. If funding is not at least maintained at current 
levels we will be forced to let staff go and the vital natural resource 
protection programs they manage will be eliminated.
Dissuade the President's Signing Statement
    With respect to President Trump's signing statement, the language 
suggests the Trump administration is improperly applying an Equal 
Protection Clause analysis to funds for Native American housing and 
perhaps other funds. Tribes have a government-to-government 
relationship with the United States and, in the context of the Federal 
trust responsibility, the Federal courts have declared that Tribes are 
to be treated as a political class, not as a racial class, thus 
precluding any Equal Protection Clause analysis. Red Lake asks that 
this subcommittee help Indian Country dissuade the administration from 
its errant views on this issue.
    Thank you for allowing me to present, for the record, some of the 
most immediate needs of the Red Lake in fiscal year 2018, and for your 
consideration of these needs.

    [This statement was submitted by Honorable Darrell G. Seki Sr., 
Chairman.]
                                 
                                 ______
                                 
                            Reeck Matt deg.
                    Prepared Statement of Matt Reeck
Dear Senate Appropriations Committee,

    I am writing to you today to ask you to continue to support the 
NEA. Along with the NEH, the total amount of discretionary spending 
would amount to $300 million of the $1.1 trillion documented in the 
proposed 2018 budget.
    I would like to tell you how important translation and art remain 
for us today, and to share how important the NEA has been for me 
personally.
    I won the award to translate an Urdu novel by the Indian writer 
Paigham Afaqui. The award allowed me the degree of financial security 
needed to dedicate the large amounts of time needed for this work. 
Translation as a whole is an essential part of understanding other 
cultures, and while the United States dedicates just a fraction (3 
percent) of its total number of published books to translation, it is 
inconceivable to imagine growing up in an America without translation.
    If we think about the significant books that shaped our lives, and 
that shape the lives of hundreds of millions of fellow Americans, books 
translated into English will be at the top of the list. The New York 
Times bestseller list routinely has foreign works translated into 
English. Even The Bible is available to us only through translation. 
More broadly, translation is part of the vital creative history of 
human societies. This is made clear by the fact that when we travel 
abroad, we visit cultural places and we are interested in learning 
about the cultural histories that the creative arts produce.
    Translation is vital to us. Without it, we would not know the world 
as well as we do. Translation of creative works allows us to see past 
stereotypes that our ignorance creates. With translation of creative 
works, we appreciate the human dimensions of life that are shared 
across all geographic, linguistic, religious, or political divides. 
Translation represents one of the best ways to bridge the divides that 
continually risk separating humans. Translation effects considerable 
positive change in a world that needs more understanding, compassion, 
and sympathy.
    The NEA's historical role in supporting translation and the 
creative arts is a proud part of our American legacy. It recognizes 
that valuable human labor comes in many forms: not just in the 
corporate boardroom, in the factory, and in the fields, but translation 
and the creative arts are legitimate and important forms of 
intellectual and imaginative labor. People all over the world look up 
to America because of its creativity and intellectual vigor. Clearly 
the NEA plays a large role in supporting the arts and intellectual life 
that has historically marked America as being in a class apart and 
ahead of other nations.
    Personally, the grant I received has been a significant part of my 
life. My career as a translator was strengthened by the prestige that 
the award conferred upon me. Respected and dedicated men and women from 
across America choose the award's winners, and the award means instant 
recognition. It is a major award, and a major part of the professional 
pedigree that is essential for translators and creative artists. To 
take it away would mean decimating an important, historical profession.
    I am proud to be American. I am proud of our history of creativity 
in thinking and the arts. I am proud of our openness toward other 
societies and their ways of thinking and self-expression. The NEA 
safeguards these values as much as any organization I can think of.
    Please maintain funding for the NEA, a vital part of our American 
dream.

            Sincerely yours,

            Matt Reeck.
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries
    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to restore and protect estuaries as 
essential resources for our Nation. Restore America's Estuaries is an 
alliance of community-based coastal conservation organizations across 
the Nation that protect and restore coastal and estuarine habitat. Our 
member organizations include: American Littoral Society, Chesapeake Bay 
Foundation, Coalition to Restore Coastal Louisiana, Save the Sound--a 
program of the Connecticut Fund for the Environment, Galveston Bay 
Foundation, North Carolina Coastal Federation, EarthCorps, Save The 
Bay--San Francisco, Save the Bay--Narragansett Bay, and Tampa Bay 
Watch. Collectively, we represent over 250,000 members nationwide.
    As you develop the fiscal year 2018 Interior, Environment and 
Related Agencies appropriations bill, Restore America's Estuaries and 
our members encourage you to provide the following funding levels 
within the Department of Interior, U.S. Fish and Wildlife Service 
(USFWS) and the U.S. Environmental Protection Agency (USEPA) for core 
programs that significantly support coastal community and ecosystem 
resilience and local economies:

  --$15 million for USFWS Coastal Program
    (Interior: USFWS: Resource Management: Habitat Conservation: 
        Coastal Program)
  --$26.723 million for USEPA National Estuary Program
    (USEPA: Water: Ecosystems: National Estuary Program/Coastal 
        Waterways)

    These non-regulatory investments strengthen and revitalize 
America's coastal communities by protecting and restoring habitat, 
improving local water quality, and enhancing resilience. Healthy 
coastlines protect communities from flood damage and extreme weather, 
improve commercial fisheries, safeguard vital infrastructure, and 
support tourism and recreational opportunities.
                         usfws coastal program
    The Coastal Program (CP) is a voluntary, incentive-based program 
that provides technical and financial assistance to coastal communities 
and landowners to protect and restore fish and wildlife habitat on 
public and private lands in 24 priority coastal ecosystems throughout 
the United States, including the Great Lakes. The Coastal Program works 
collaboratively within the USFWS to coordinate strategic priorities and 
make landscape-scale progress with other Federal, State, local, and 
non-governmental partners and private landowners. Since 1985, the 
Coastal Program has:

  --Partnered with more than 5,000 Federal, Tribal, State, and local 
        agencies, non-governmental organizations, corporations, and 
        private landowners.
  --Restored 557,790 acres of wetland and upland habitat and 2,625 
        miles of stream habitat.
  --Protected more than 2.1 million acres of coastal habitat.
  --Provided technical assistance to a diverse range of conservation 
        partners.

    Our coastal communities and ecosystems are on the front lines of 
changing coastal conditions and increasing extreme weather. Support for 
the USFWS Coastal Program helps interested communities and partners 
address the new set of challenges facing coastal communities. The 
Coastal Program is the USFWS's key conservation tool delivering on-the-
ground habitat restoration and technical assistance. Despite the 
Program's relatively small cost, it has a tremendous impact. In 2015 
alone, the Coastal Program, along with 455 local partners, completed 
266 projects restoring or protecting more than 90,000 acres of wetlands 
and uplands and 194 miles of stream habitat. A recent estimate by USFWS 
Coastal Program staff shows that the program leverages, on average, $8 
non-Federal dollars for every Federal dollar spent. This makes the 
Coastal Program one of the most cost-effective habitat restoration 
programs within the U.S. Fish and Wildlife Service.
    The Coastal Program stimulates local economies by supporting jobs 
necessary to deliver habitat conservation projects, including 
environmental consultants, engineers, construction workers, surveyors, 
assessors, and nursery and landscape workers. These jobs generate 
indirect economic activities that benefit local hotels, restaurants, 
stores, and gas stations. In total, the Coastal Program estimates that 
the average project supports 60 jobs and stimulates 40 businesses 
resulting in nearly thirteen dollars in economic returns for each 
dollar of Federal investment. Additionally, restoration jobs cannot be 
outsourced and $0.90 of every dollar spent on restoration stays within 
the State.
    In Puget Sound, Washington, the Coastal Program invested $20,000 to 
support a project to clean up and remove old and abandoned fishing gear 
from the water, resulting in a direct economic impact to the local 
economy of $51,000. Lost and abandoned fishing gear like nets, lines, 
crab and shrimp traps pose many problems for people, fish and marine 
animals. Each year, derelict crab pots are estimated to trap and kill 
372,000 Dungeness crabs, resulting in losses to the fishery of $1.2 
million--30-40 percent of the value of the annual commercial catch of 
Dungeness crab in Puget Sound. This project removed 84 gillnets--
preventing the loss of approximately 370,000 crabs and returning an 
estimated value of well over $1.5 million to the crab fishery alone.
    In San Diego Bay, California, the Coastal Program provided funding 
and technical assistance to project partners to restore 300 acres of 
wetland, mudflat, and upland habitat to benefit more than 90 species of 
resident and migratory birds. Project partners transformed highly 
degraded salt ponds into lush habitat by breaching levees, regrading 
soils, and planting native vegetation. Just days after the completion 
of the project, tens of thousands of birds descended on the newly-
restored habitat to rest, roost, and feed. Not only did this project 
restore a ``Globally Important Bird Area,'' as designated by the 
American Bird Conservancy, but it also created 130 jobs and generated 
$13.4 million for the local economy.
    At recent funding levels of approximately $13.4 million, the 
Coastal Program is able to provide technical assistance and support to 
partners, but can only provide limited project dollars. A modest 
increase over the amount included in the fiscal year 2017 Omnibus would 
help the Coastal Program increase their capacity to leverage willing 
and interested partners to deliver highly-effective and site specific 
habitat conservation and restoration programs that prevent Federal 
listing of species, promote species recovery, enhance coastal 
resilience, and boost local economies.

Restore America's Estuaries urges your continued support and funding 
for the USFWS Coastal Program and asks that you provide $15 million for 
fiscal year 2018.

                     usepa national estuary program
    The National Estuary Program (NEP) is a non-regulatory network of 
voluntary community-based programs that safeguards the health of 
important coastal ecosystems across the country. The program utilizes a 
consensus-building process to identify goals, objectives, and actions 
that reflect local environmental and economic priorities.
    Currently there are 28 estuaries located along the Atlantic, Gulf, 
and Pacific coasts and in Puerto Rico that have been designated as 
estuaries of national significance. Each National Estuary Program 
demonstrates real environmental results through on-the-ground habitat 
restoration and protection and their efforts are tailored to the 
specific local environmental and economic realities. Collectively, NEPs 
have restored more than 1.5 million acres of land since 2000.
    NEPs work to ensure that Federal agencies work together with State, 
regional, NGO, and private partners to better manage ocean and coastal 
resources for the benefit of the Nation. Community partners are 
involved throughout the decisionmaking process to reduce conflicts, 
redundancies, and inefficiencies that waste time and money, and to 
ensure that restoration and conservation efforts are stakeholder-
driven. NEPs play a key role in implementing national policies that 
result in better, more cost-effective coastal management that benefits 
States and local communities.

Restore America's Estuaries urges your continued support of the 
National Estuary Program and asks that you provide $26.723 million for 
USEPA National Estuary Program/Coastal Waterways. Within this amount 
for fiscal year 2018, no less than $600,000 should be directed to each 
of the 28 NEPs in the field.

                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
Subcommittee has provided in the past for these important programs. 
These programs effectively accomplish on-the-ground restoration work 
which results in major benefits:

    1.  Economic Growth and Jobs.--Coastal habitat restoration creates 
between 17 and 33 direct jobs for each million dollars invested, 
depending on the type of restoration. That is more than twice as many 
jobs as the oil and gas sector and road construction industries 
combined. The restored area supports increased tourism and valuable 
ecosystem services, including flood mitigation, shoreline protection, 
and enhanced fisheries, among others.
    2.  Leveraging Private Funding.--In 2015, Federal investment in the 
USFWS Coastal Program leveraged non-Federal dollars at a ratio of 34 to 
1. The NEPs leveraged non-Federal dollars at a ratio of 15 to 1. In a 
time of shrinking resources, these are rates of return we cannot afford 
to ignore.
    3.  Resiliency.--Restoring coastal wetlands knocks down storm waves 
and reduces devastating storm surges before they reach the shore, 
protecting lives, property, and vital infrastructure for the nearly 40 
percent of Americans that live in coastal communities.

    We greatly appreciate you taking our requests into consideration as 
you move forward in the fiscal year 2018 appropriations process. We 
stand ready to work with you and your staff to ensure the health of our 
Nation's estuaries and coasts.

    [This statement was submitted by Jeffrey R. Benoit, President and 
CEO.]
                                 ______
                                 
 Prepared Statement of Riverside-San Bernardino County Indian Health, 
                                  Inc.
    Riverside-San Bernardino County Indian Health, Inc., located in 
Southern California, appreciates the opportunity to submit written 
testimony concerning the 2018 appropriations for the Indian Health 
Service.
    Riverside-San Bernardino County Indian Health, Inc. is a consortium 
of nine California Tribes located in Riverside and San Bernardino 
counties. Our member Tribes are the Pechanga Band of Luiseno Indians, 
the Cahuilla Band of Indians, the Santa Rosa Band of Cahuilla Indians, 
the Ramona Band of Cahuilla Indians, the Soboba Band of Luiseno 
Indians, the Torres-Martinez Desert Cahuilla Indians, the Agua-Caliente 
Band of Cahuilla Indians, the Morongo Band of Mission Indians, and the 
San Manuel Band of Mission Indians. We also serve members of three 
other local Tribes: the Twenty-Nine Palms Band of Mission Indians, the 
Cabazon Band of Mission Indians, and the Augustine Band of Cahuilla 
Indians.
    Nearly two-thirds of our patient population is comprised of members 
from these local Tribes or other non-consortium Tribes who live in our 
two-county service area. Overall, we serve over 15,000 Native Americans 
and 3,000 related family members, and experience over 100,000 patient 
visits each year.
    Our consortium operates 7 health clinics at different locations 
under a self-governance compact with the Indian Health Service. We are 
proud to offer a broad range of services at our clinics, including 
medical, dental, optical, behavioral health, pharmacy, laboratory, 
environmental health, community health representative, outreach and 
health education services.
    We are thankful for the support of Congress and the funding 
provided to improve the health status of our people. We are especially 
thankful for your invitation to submit written testimony. In doing so 
you honor the Nation-to-Nation relationship between the Federal 
government and Indian Tribes. Thank you for taking so seriously IHS's 
mission to honor the government's trust responsibility to provide 
culturally-competent and high-quality healthcare for all Native 
Americans.
             ensuring funds for tribally-operated programs
    This subcommittee has been a steady supporter of tribally-operated 
healthcare programs because tribally-driven healthcare works. The 
success of the IHS self-governance and self-determination contracting 
programs shows the monumental impacts Tribes have when they are able to 
take control of the healthcare system serving their members. Indeed, 
the programs that struggle the most in the IHS system are, 
unfortunately, those that are still operated by IHS.
    Despite the advances achieved through Tribal self-determination, 
history teaches that when budgets stay flat or drop, healthcare 
suffers--as occurred with the 2013 sequester. The same can happen when 
budget increases go to bureaucratic oversight or special IHS projects 
that never filter down to Tribes. This is the case with the Joint 
Venture Construction Program, which provides a boon for a few 
individual sites but provides no benefit to other Tribes. For example, 
California Tribes have submitted 50 applications to the Program over 
the past 10 years, but only 1 has been granted. In addition, there are 
no Capital Projects for any of the California Tribes on the National 
IHS Capital Project List. While we do not doubt that these projects are 
highly deserving, we ask the subcommittee to ensure that general 
healthcare increases are not ignored.
    Budgetary instability, coupled with excessive bureaucracy, is also 
a problem when IHS chooses to classify funds as ``non-recurring,'' 
including such funds as ``grant'' funds. This designation forces Tribes 
to compete with one another and injects budgetary uncertainty from year 
to year. Worse yet, the unnecessary designation of funds as ``grants'' 
forces us to follow an entirely separate award process and reporting 
mechanism whose only purpose seems to be to keep grant administrators 
employed.
    As this subcommittee knows, the Methamphetamine and Suicide 
Prevention Initiative (now called the ``Substance Abuse and Suicide 
Prevention program'') and Domestic Violence Prevention Initiative funds 
used to flow easily through our Self-Governance Compact. But 4 years 
ago former IHS Director Yvette Roubideaux unilaterally changed that 
nicely-working process, without any consultation and over Tribal 
objections. Now we work under extremely burdensome reporting 
conditions, IHS carves aside funds for bureaucratic oversight, and we 
too are forced to carve out funds to meet new administrative burdens 
instead of serving our community. Even desperately needed Special 
Diabetes funds are set aside to fund Area diabetes coordinators who do 
nothing to enhance our programs on the ground.
    We have seen a pattern in recent years where IHS reclassifies funds 
previously considered to be annually ``recurring'' monies, into the 
``non-recurring'' categories. At first, IHS claimed this was necessary 
to provide full contract support cost funding in 2014 and 2015, which 
made no sense. But even long after Congress eased the burden on program 
funding by moving contract support costs into a separate appropriation, 
the agency continues its practice. The result is IHS seizes greater 
discretion over how it spends these funds to the detriment of the 
Tribes. As a result, Tribal budgets cannot grow to meet the increased 
needs of our members or even to keep pace with our expanding 
population. Worse yet, IHS denies us the contract support costs to 
which we are entitled to administer these funds, forcing us to divert 
more program dollars away from services.
    We ask this subcommittee to instruct IHS (1) to restore funds moved 
from the recurring to non-recurring category, (2) to direct that these 
and new funds shall be distributed as ``tribal shares'' through self-
governance compacts and self-determination contracts (and not through 
grants or other non-recurring funding mechanisms), and (3) to direct 
IHS to pay contract support costs on these funds. This is especially 
important given Congress's removal this year of the ``notwithstanding'' 
clause IHS had relied upon to argue that these funds were not subject 
to the requirements of the Indian Self-Determination and Education 
Assistance Act (ISDA). The ISDA works; much of IHS's bureaucracy does 
not. IHS should not be permitted to undermine the ISDA--the best thing 
Congress ever did to improve the state of Indian health.
         prc funding formulas that account for geographic need
    We are grateful that Congress has recognized that ``IHS does not 
provide the same health services in each area'' and that ``[h]ealth 
services provided to a community depend upon the facilities and 
services available in the local area. . . .'' House Committee Report on 
Dep't of the Interior, Environment and Related Agencies Appropriations 
Act, 2017, H.R. REP. NO. , Division G, at *54, available at https://
rules.house.gov/sites/republicans.rules.house.gov/files/115/OMNI/
DIVISION%20G
%20-%20INT%20SOM%20FY17%20OCR.pdf. We in California have never had 
access to a Tribal hospital and we lack access to the specialty 
services that come when such facilities are available in other IHS 
Areas. As a result, we spend far more dollars than we receive for 
Purchased/Referred Care (PRC) because we must refer our patients to a 
private provider for specialty care instead of, for example, sending 
them to an IHS-funded facility as exists in Phoenix or Anchorage.
    The IHS PRC distribution formula needs to be adjusted to address 
this location factor, so it favors Areas where Tribal and IHS specialty 
providers and hospitals simply do not exist. Today IHS uses a 3-tier 
system: Tier 1 is base PRC funding based on the prior year's 
allocation, and Tier 2 is for medical inflation and population growth. 
Although Tier 3 is for Areas lacking hospitals and for cost of living 
adjustments, in 7 of the last 15 years Tier 3 was never reached.
    We ask that the ``no access to hospitals'' factor be moved to the 
Tier 2 allocation category so that programs lacking access are not 
disproportionately impacted by PRC shortages. Two GAO reports have also 
recommended similar changes to make the formula more equitable.
            exempt ihs funds from any block grant proposals
    We understand that many health reform proposals being considered in 
Congress would transform the Medicare and Medicaid payments for Tribal 
health providers, or turn these programs and Federal grant programs 
into block grants to be provided to individual States. Our Tribes are 
sovereign and have a Nation-to-Nation relationship with the Federal 
government. No State should be placed in the middle of that 
relationship. Health reform funds for Tribal programs must be exempt 
from any block grants made to States.
          reauthorize the special diabetes program for indians
    Our patient population has a high incidence of diabetes and the 
Special Diabetes Program for Indians has been a great success for our 
organization. That said, this funding has consistently been in jeopardy 
due to the need for annual or bi-annual reauthorizations and separate 
appropriations. The Special Diabetes initiative has been one of the 
most successful of all Indian health programs. We therefore ask 
Congress to make the next reauthorization permanent and to increase the 
annual amount to $200 million.
    We thank the subcommittee for providing Riverside-San Bernardino 
County Indian Health, Inc. the opportunity to submit written testimony 
regarding fiscal year 2018 funding needs. The needs of the Indian 
health system are great, but Tribes have proven they can efficiently 
maximize the resources provided. We ask that you continue to increase 
funds for the IHS budget for fiscal year 2018, and reject the 
administration's proposed reductions to IHS appropriations, so that 
Native Americans one day will receive the same quality healthcare 
afforded to all other Americans.
                                 
                                 ______
                                 
                          Russell Lauren deg.
                  Prepared Statement of Lauren Russell
    I am writing in support of fully funding the National Endowment for 
the Arts (NEA) at the fiscal year 2017 level of $150 million. This year 
I was one of 37 poets awarded an NEA Creative Writing Fellowship. This 
was both a huge honor and an important charge. While providing some 
financial cushion that will allow me more freedom to write over the 
next couple years, the fellowship is also a big reminder that 
literature, and the people who make it, matter.
    In this same grant cycle, the NEA donated to small presses and 
community arts organizations all over the country. Though less than a 
drop in the bucket for the Federal Government, a grant of $10,000 or 
$15,000 can keep a small press or community theater going. These small, 
community-based organizations are essential to keeping art alive. As a 
poet, I feel this impact acutely. American poetry depends on the NEA's 
investment in small presses and nonprofit journals, since many 
mainstream publishers are unlikely to take a risk on publishing 
``unmarketable'' contemporary poets. A threat to the NEA is truly a 
threat to poetry in America.
    The NEA is ensuring that people from diverse backgrounds have 
access to the arts. In fiscal year 2016, the NEA recommended more than 
2,400 grants in nearly 16,000 communities in every congressional 
district in the country. Forty percent of the NEA's grant making budget 
is awarded directly to the States through their State and regional arts 
agencies. The NEA designates that a portion of every State and regional 
partnership grant be allocated to serving underserved communities. The 
remaining 60 percent are awards made directly to organizations and 
individuals that apply through the NEA's funding categories. Forty 
percent of NEA-supported activities take place in high-poverty areas. 
Thirty-six percent of NEA grants go to organizations that reach 
underserved populations, including people with disabilities, people in 
institutions, and veterans. Thirty-three percent of NEA grants serve 
low-income audiences. Though the NEA's fiscal year 2016 appropriation 
of $147.9 million dollars made up only about .004 percent of the 
Federal budget, it has a huge impact on communities and individuals 
across the country. Please fund it fully.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation
    On behalf of the Sac and Fox Nation thank you for the opportunity 
to present our requests for the fiscal year 2018 Budgets for the Bureau 
of Indian Affairs (BIA), the Indian Health Service (IHS), and for 
Tribal Environmental Funding (EPA). The Sac and Fox Nation is home of 
Jim Thorpe, one of the most versatile athletes of modern sports who 
earned Olympic gold medals for the1912 pentathlon and decathlon.
    As a Self-Governance Tribe, the Sac and Fox Nation has been 
impacted by the Federal Government's refusal to pay full contract 
support costs (CSC) for contracted and compacted programs since the 
statue was enacted. In 2014 and 2015, the Supreme Court determined that 
Tribes were entitled to CSC. Under the new budget structure, CSC 
accounts for BIA and IHS were created in the appropriations bill 
specifically for 2016 and 2017 as well as language establishing an 
indefinite appropriation for CSC in both agencies. So far, the full CSC 
that Tribes are entitled is being paid and other programs will not be 
reduced if payments are underestimated in the President's budget. 
Tribes agree that this structure achieves the Nation's legal obligation 
to fully pay CSC without imposing any corresponding reduction in direct 
services to any Tribe. We continue to request full funding for CSC on a 
mandatory basis in fiscal year 2018-2021 and make it a permanent, 
indefinite appropriation.
    In general, all Tribal programs including BIA and IHS line items 
should be exempt from any budget recessions, sequestrations and 
unilateral budget reductions that are not equally assessed to other 
funding beneficiaries.

1. TRIBAL SPECIFIC REQUESTS

    A. $20,000 Tribal General Assistance Program (GAP)--EPA.--
Historically, EPA has not provided a nationally consistent approach for 
building Tribal environmental protection program capacity under General 
Assistance Program (GAP) or a mechanism to measure the progress Tribes 
are making toward their defined program development goals. The EPA has 
decided to enforce a new interpretation of the GAP which prohibits 
Tribal Nations from using any GAP money for labor, handling, sorting, 
weighting and transportation of waste and recyclables. This means that 
the Tribal Nations recycling programs are in jeopardy because there 
will no longer be funds to carry out these functions. This program 
benefits the Tribal Complexes but also provides for drop off points for 
members and the community along with special community outreach events 
dealing with waste and other recyclables. Specifically, we would like 
to ask for a reversal of this interpretation or a line item dedicated 
to funding recycling departments work to allow these programs to 
continue. For Sac and Fox, $20,000 would be sufficient to perform these 
services for our Tribal citizens.
    B. $4.95 million to Fully Fund Operations and Maintenance of the 
Sac and Fox Nation Juvenile Detention Center (SFNJDC)--Bureau of Indian 
Affairs--Public Safety and Justice--Office of Justice Services--
Detention/Corrections Facility Operations and Maintenance Account.--The 
Tribal Law and Order Act (TLOA) requires the Department of the Interior 
(DOI) Indian Affairs (IA) to develop guidelines for approving 
correction centers for long term incarceration, as well as work with 
the Department of Justice on a long-term plan for Tribal detention 
centers. In the absence of appropriations to fully fund and fully 
implement the Tribal Law and Order Act (TLOA), the intent of Congress 
and the effectiveness and benefits of TLOA to Tribal courts, law 
enforcement and detention programs in Indian Country are less of a 
reality and more of what Tribes have experienced in the past--an 
unfulfilled trust obligation.
    In 1996, the Sac and Fox Nation Juvenile Detention Center (SFNJDC) 
opened its doors as the first regional juvenile facility specifically 
designed for American Indians/Alaska Natives (AI/AN), as well as the 
first juvenile facility developed under Public Law 100-472, the Self-
Governance Demonstration Project Act.
    At that time, the Bureau of Indian Affairs made a commitment to 
fully fund the SFNJDC operations; however this commitment was never 
fulfilled. Even though the Nation continues to receive and use Federal 
dollars to address the issue of juvenile delinquency and detention for 
Tribes in the Southern Plains Region and Eastern Oklahoma Region, it 
has never received sufficient funds to operate the facility at its 
fullest potential.
    Full funding would allow the Nation to provide full operations 
including (but not limited to):
  --Juvenile detention services to the 46 Tribes in Oklahoma, Kansas 
        and Texas;
  --Rescue more of our at-risk youth and unserved youth in need of a 
        facility like the SFNJDC;
  --Re-establish programs we have lost due to inadequate funding such 
        as: On-site Mental Health Counseling; Transitional Living, 
        Vocational Training, Horticulture, Life Skills, Arts and 
        Crafts, Cultural Education and Activities, Spiritual Growth and 
        Learning;
  --Offer job opportunities in an area that is economically depressed; 
        and,
  --Fully staff and expand staff training to address high volume of 
        staff turnover which will allow for continuity in operations 
        and service delivery.
    The current funding level represents only approximately 10 percent 
of what is needed to fully fund the SFNJDC operations and maintenance. 
Additional funding in the amount of $4.95 million, over what Sac and 
Fox already receives in base funding ($508,000), would fully fund the 
facility at a level to address the need of juvenile delinquency in the 
tristate area and create opportunities for employment for more Tribal 
members.
    The SFNJDC is a 50,000+ square foot, full service, 24 hour, 60 bed 
(expandable to 120 beds) juvenile detention facility that provides 
basic detention services to all residents utilizing a classification 
system based on behavioral needs to include special management, medium 
and minimal security.
    Through a partnership with the local High School, students are 
afforded an education at the public school level, including a 
graduation ceremony and issuance of a certificate upon successfully 
achieving the State requirements. Additionally, the Sac and Fox Nation 
has an on-site Justice Center providing Law Enforcement and Tribal 
Court services and the Nation also operates an on-site health clinic 
which provides outstanding medical services that include contract 
service capabilities for optometry, dental and other health-related 
services.
    The lack of adequate funding from the BIA and decreases in base 
funding have mushroomed into underutilization and erosion of the 
programs our facility was built to offer. The SFNJDC has the facility, 
staffing, ability, commitment and capacity to provide superior 
detention and rehabilitation services to Native American youth, as well 
as any youth in the tristate area in need of our services. We do not 
understand the Federal Government's desire to fund the construction of 
more detention facilities while our beds remain empty.

2. NATIONAL REQUESTS--BUREAU OF INDIAN AFFAIRS

    A. Fully fund all provisions of the Tribal Law and Order Act that 
authorizes additional funding for law and order programs that affect 
Tribal nations
    B. Extend the Bureau of Prisons Pilot Project for Violent Offenders
    C. Public Safety and Justice
        a.  +$83 million to increases base funding for Tribal Courts 
        including courts in Public Law 280 jurisdictions, and to 
        incrementally move towards fully meeting the need for Tribal 
        court funding;
        b.  +$200 million BIA law enforcement and detention including 
        an increase in funds for officer recruitment and training and 
        for Tribal detention facilities operations and maintenance.
    D. $620,000 Juvenile Detention Education these critical funds were 
reinstated in fiscal year 2016 at $500,000, reflecting the bipartisan 
support for funding to address juvenile justice issues. Funding the 
program at $620,000 level is essential funding that will be used to 
provide educational services to detained and incarcerated youth at BIA-
funded juvenile detention facilities. One of the best methods to 
rehabilitate is through education, and eliminating this program creates 
additional costs by increasing the rate of criminal recidivism.
    E. Fully Fund Fixed Costs and Tribal Pay Costs.--Partially funding 
or failing to fund Pay Costs for Tribes has devastated Tribal 
communities by causing critical job losses. Over 900 Tribal jobs have 
been lost and an estimated 300 more jobs will be permanently lost on an 
annual basis if 100 percent Pay Costs is not provided. The Tribal 
losses are being further exacerbated by recent projections of costs 
that have been significantly underestimated.
    F. Increase Tribal Base Funding (instead of through grants).--
Provide increases via Tribal base funding instead of through grants to 
Tribal governments. Grant funding, particularly inside the BIA, is not 
consistent with the intent of Tribal self-determination. Tribal leaders 
have grown increasingly frustrated by the increase in Indian Affairs 
funding offer through grants. Allocating new funds via grants 
marginalizes and impedes the Tribal Self-Determination and Self-
Governance.
    G. Office of Self-Governance (OSG).--Provide increased funding to 
the OSG to fully staff the office for the increase in the number of 
Tribes entering Self-Governance.

3. NATIONAL REQUESTS--INDIAN HEALTH SERVICE

    A. +$314.9 million Mandatory Funding (maintain current services).--
Provide an increase of $314.9 million over the fiscal year 2017 budget 
request. Current services calculate mandatory cost increases are 
necessary to maintain those services at current levels. These 
``mandatories'' are unavoidable and include medical and general 
inflation, pay costs, contract support costs, phasing in staff for 
recently constructed facilities, and population growth.
    B. +$474.4 million Purchased and Referred Care (PRC).--Provide an 
increase of $474.4 million pays for urgent and emergent and other 
critical services that are not directly available through IHS and 
Tribally-operated health programs when: no IHS direct care facility 
exists, or the direct care facility cannot provide the required 
emergency or specialty care, or the facility has more demand for 
services than it can currently meet.
    C. +$6 million to restore funding for OTSG to implement the Self-
Governance statute in IHS.--As of 2017, there are 354 Self-Governance 
(SG) Tribes. This represents slightly over 62 percent of all federally-
recognized Tribes. The Self-Governance process serves as a model 
program for Federal Government outsourcing, which builds Tribal 
infrastructure and provides quality services to Indian people.
    Thank you for allowing me to submit these requests on these fiscal 
year 2018 Budgets.

    [This statement was submitted by Principal Chief Kay Rhoads, Second 
Chief Jacklyn K. King, Secretary Mary F. McCormick, Treasurer Jared A. 
King, and Committee Member Robert E. Williamson.]
                                 ______
                                 
              Prepared Statement of the Santa Clara Pueblo
    Introduction. Thank you Chairman Murkowski, Ranking Member Udall, 
and Members of the subcommittee for the opportunity to offer outside 
witness testimony on the critically important topic of Federal funding 
for American Indian and Alaska Native programs in the Department of the 
Interior, National Forest Service, Indian Health Service, Bureau of 
Indian Affairs, and the Environmental Protection Agency. Indian country 
is appreciative of your hard work and the tremendous support you have 
provided for Native programs. My name is J. Michael Chavarria and I am 
the Governor of the Pueblo of Santa Clara, located in north-central New 
Mexico. As a Tribal leader, I have developed a deep understanding of 
our community's pressing needs, as well as of the immense potential of 
the Santa Clara People to succeed if given the appropriate level of 
resources and support. To further these twin objectives of progress and 
achievement, I offer the following fiscal year 2018 budget 
recommendations for the subcommittee.
    Federal Trust Responsibility and Tribal Consultation. The Federal 
budgeting process plays an essential role in fulfilling the Federal 
Government's trust responsibility to Indian Tribes by ensuring that 
critical programs and services receive adequate funding. A critical 
component of the Federal trust responsibility is the mandate to consult 
with Tribes whenever a Federal action may impact our communities. 
Indeed, as you well know, the programs we are gathered to discuss today 
are premised on the government-to-government relationship that exists 
between the Federal Government and Tribes, and are not based on the 
racial status of Indian nations and peoples.\1\
---------------------------------------------------------------------------
    \1\ As the late Justice Antonin Scalia once wrote in an opinion he 
authored while serving on the United States Court of Appeals for the 
District of Columbia: ``As the Supreme Court has said in rejecting 
equal protection challenges to legislation affecting a group which . . 
. might otherwise qualify as a `suspect class': [T]he Constitution 
itself provides support for legislation directed specifically at the 
Indian Tribes . . . [T]he Constitution therefore `singles Indians out 
as a proper subject for separate legislation.' '' United States v. 
Antelope, 430 U.S. 641, 649 n. 11 (quoting Morton v. Mancari, 417 U.S. 
535, 552 (1974)) (emphasis added).
---------------------------------------------------------------------------
                  i. public safety and law enforcement
    Closure of the Turning Points Rehabilitation Program in Yuma, 
Arizona. The Pueblo of Santa Clara is deeply alarmed by the overnight 
shutdown of the Emerald Corporation's Turning Point Program in Yuma, 
Arizona, on April 7, 2017. Our Pueblo--as well as other District III 
and District IV Tribes under the BIA Office of Justice Services--has 
seen many positive benefits from the program, including a 
rehabilitation rate of 76 percent for substance abusers participating 
in the program and a reduced crime rate of approximately 50 percent 
over the past 4 years. Yet, we received no advance notice of the 
shutdown. The unannounced closure has resulted in an immediate increase 
in detention costs and left our law enforcement officials and Tribal 
Court scrambling to find appropriate placements. Santa Clara requests 
sufficient funding to implement a similar rehabilitation program at an 
alternative center so these essential services can continue to be 
provided to our Tribal members. We also request greater Tribal 
involvement in the Office of Justice Services' budgeting process as it 
relates to incarceration and rehabilitation services.
    Dedicated Funding for the DOJ Tribal Access Program. The Tribal 
Access Program (TAP) administered by the U.S. Department of Justice 
provides Tribes with access to critical information systems and 
training for law enforcement purposes. Launched in August 2015, the 
program uses a collaborative partnership approach to enable Tribes to 
identify and share best practices regarding the use of national crime 
information databases to strengthen public safety. Over 50 Tribal 
governments have submitted letters of interest in joining the TAP; 
however, due to funding restrictions only 11 Tribes were able to 
participate in the initial phase of the program. We request a dedicated 
funding stream of $6 million in fiscal year 2018 to provide for the 
wider rollout and long-term viability of the Tribal Access Program to 
support Tribes in their public safety efforts.
                    ii. natural resources management
    Increased Support for the Tribal Forest Protection Act (TFPA). 
Effective natural resources management is key to both the economic 
well-being of Pueblo people and to their cultural survival. We are 
pleased to see that the fiscal year 2017 Omnibus provides increased 
funding for wildfire suppression and prevention, including full funding 
of the Interior and Forest Service's 10-year average for wildfire 
suppression costs. We believe that collaborative and effective forest 
management techniques are essential in preventing catastrophic fires 
and floods on Pueblo lands. The Tribal Forest Protection Act (Public 
Law 108-278) empowers Tribal governments to act as caretakers of both 
Tribal lands and adjacent Federal lands, and it advances Tribal and 
Federal interests in the development of land resource and management 
plans. We encourage increased Federal support for the TFPA to advance 
efficient and effective natural resources management.
    Self-Governance Compacting of National Park Service Functions. 
Santa Clara is a self-governance Tribe, meaning that we have assumed 
control of Federal programs and funds for many functions at our 
reservation. As a self-governance Tribe, we can similarly assume 
functions at National Park Service units. With the transfer of the 
Valles Caldera, which is adjacent to our reservation and holds many 
sites sacred to us, to the National Park Service we are interested in 
assuming certain National Park Service functions. Santa Clara urges the 
subcommittee to continue funding for compacting Tribal self-governance 
programs.
    Catastrophic Fire and Flood Mitigation Efforts. The stewardship of 
land, minerals, water and other natural resources is key to both the 
economic well-being of Pueblo people and to their cultural survival. As 
Tribal leaders, we strive to balance these interests through beneficial 
partnerships and the effective management of our natural resources. 
Nature, however, chooses her own course. In the summer of 2011, the 
Pueblo of Santa Clara was devastated by the Las Conchas Fire, at that 
time the largest wildfire in New Mexico history. When combined with the 
destructive effects of the Oso Complex Fire of 1998 and the Cerro 
Grande Fire of 2000, we have lost more than 80 percent of our 
forestlands and an immeasurable part of our heritage to the flames. The 
Bureau of Indian Affairs (along with numerous additional Federal 
agencies outside of this subcommittee's purview) played an essential 
role in coordinating the Pueblo's disaster mitigation efforts. We urge 
Congress to continue to support the Bureau of Indian Affairs programs 
that work with Tribes on disaster prevention and recovery efforts.
    Indian Environmental General Assistance Program at the EPA. EPA 
funding and grants enable the Pueblo of Santa Clara to administer or 
support an array of projects that improve the quality of life in our 
community and safeguard the natural resources that provide us with 
physical and spiritual sustenance. Without these funds our Pueblo would 
face tremendous hurdles in delivering essential services such as clean 
drinking water and hazardous waste management to our people. Among the 
most widely utilized EPA sources of funding is the Indian Environmental 
General Assistance Program (GAP), which assists Tribes in developing 
the capacity to manage their own environmental protection programs. 
Cuts to the GAP will directly impact front-line environmental staff 
working for Tribal governments and place our natural and cultural 
resources in unacceptable risk. We support the GAP's spirit of greater 
local control, cooperative Federalism, and exercise of Tribal self-
determination in allowing Tribes to manage their resources. We strongly 
urge Congress to provide full-funding for the Indian Environmental GAP 
to assist Tribes in the development and implementation of sustainable 
environmental protection measures in Indian Country.
  iii. protection for tribal cultural patrimony ? thank you for your 
             support for cultural property law enforcement!
    Bureau of Indian Affairs Cultural Items Unit. Items of cultural 
patrimony are not simple tangible objects or works of art. They are 
living vessels of our cultural heritage, carrying the ceremonies and 
traditions of our people down through the generations. Trafficking in 
sacred cultural items removes those items from our communities and 
causes irreparable harm to our way of life. Led by the New Mexico 
Congressional Delegation, Congress adopted the PROTECT Patrimony 
Resolution on December 1, 2016, supporting efforts to stop the illegal 
trafficking of our cultural heritage. In the fiscal year 2017 
appropriations bill, and again in the fiscal year 2017 omnibus, this 
Committee successfully supported $1 million for Bureau of Indian 
Affairs law enforcement to address implementation of the Native 
American Graves Protection and Repatriation Act (NAGPRA) and halt the 
illegal trafficking in sensitive cultural materials. This will make a 
huge difference in Tribal efforts to stop the looting and marketing of 
items of tremendous cultural importance that are not properly for sale, 
but rather our community property that needs to remain within a Tribe. 
We urge Congress to continue to support programs that protect our 
communities and work to bring these sacred items home and to maintain 
the $1 million funding for fiscal year 2018 and beyond.
    Historic Preservation. As Pueblo People, we are our culture. Tribal 
sacred sites are important to us as a people and as a nation. In recent 
years, an increasing number of Tribes have chosen to establish Tribal 
Historic Preservation Offices (THPOs) to protect these sites for future 
generations. Federal funding for these programs has remained flat and 
tied to the on-reservation status of sacred sites, meaning that the 
same amount of funds is now spread thinly across far more recipients. 
As a result, it is difficult for THPOs to perform key duties and 
preservation compliance responsibilities. Tribes need funding to 
establish or expand THPOs equivalent to State programs under the 
National Historic Preservation Act. We request an increase in funding 
for the Tribal historic preservation programs and for protection of 
cultural sites in the Interior budget.
               iv. healthcare and related infrastructure
    Like the veins and arteries of a human being that carry life-giving 
oxygen throughout the body, the healthcare facilities and related 
municipal infrastructure of a Tribe form the core of any vibrant and 
economically productive community. Yet, despite its major contributions 
to local and regional economies and cultures, Indian Country remains 
plagued by limited access to quality healthcare and antiquated 
infrastructure systems. Insufficient roads, eroding water supply 
systems, critical housing shortages, and facilities marred by 
environmental health hazards inhibit the ability of Tribal governments 
function properly and obstruct the provision of essential services to 
their people. We request that specific set-asides and increased support 
for Indian Country infrastructure development under the fiscal year 
2018 budget to strengthen our communities and build towards a more 
promising future.
    Adverse Health Outcomes Associated with Inadequate Housing. Access 
to affordable, structurally sound housing provides shelter from the 
proverbial storm and supports the physical and mental health of 
individuals and families. Reliable affordable housing reduces certain 
stressors that have been proven to contribute to negative health 
outcomes for low-income families by freeing up family resources for 
essential needs like education, food, and healthcare, as well as 
alleviating stressors associated with overcrowding--an endemic problem 
throughout Indian Country. Many of these languishing housing-related 
issues could be addressed by the reauthorization of the Native American 
Housing and Self-Determination Act (NAHASDA); however, the legislation 
has been unjustly obstructed for over 5 years, despite wide 
Congressional support. Santa Clara requests that Congress provide 
increased funding to the Indian Health Service (IHS) to address the 
adverse health outcomes associated with critical housing shortages in 
Indian Country.
    Full Funding for the IHS. Indian health programs have suffered from 
annual budget cuts due to sequestration under the Budget Control Act of 
2011 (Public Law 112-25). While other critical healthcare agencies such 
as the VA were exempt from Federal sequestration in 2013, the IHS was 
not. The disruption in Federal funding resulted in a loss of over $219 
million from the IHS budget, which translates into immediate and long-
lasting negative health impacts through lost resources for primary and 
preventative healthcare services, staff recruitment and training, and 
other programs serving Indian Country. These losses are exacerbated 
every year due to the lack of full funding for the IHS. We urge 
Congress to provide the IHS with full funding and parity with other 
healthcare agencies through an exemption from sequestration, as well as 
any other reductions or cuts to the Federal budget.
    Increased Support for Preventative Healthcare Services. Our 
Pueblo's healthcare infrastructure faces an array of challenges that 
pose significant threats to the safety and well-being our people: 
facilities are in critical need of maintenance and repair, equipment is 
outdated, access to telehealth services is severely limited, and 
professional medical staff are difficult to recruit and retain. We also 
face disproportionately high rates of chronic illness that are 
compounded by the limited access to care in our home communities. 
Concerted efforts are needed to address the root of our Tribal health 
problems by expanding the availability and delivery of preventative 
services in Indian Country, particularly in the fields of behavioral 
and mental health. Preventative care reduces future incident rates of 
chronic illness and promotes the long-term vitality of our people.
    We urge Congress to provide additional funding and support for 
expanded access to preventative care as a wise policy choice for Indian 
Country and for America.
    Thank you for the opportunity to submit written testimony. The 
Pueblo of Santa Clara looks forward to working with you on addressing 
these complex, multi-faceted needs going forward.
                                 ______
                                 
         Prepared Statement of the Seattle Indian Health Board
    Chairman Murkowski, Ranking Member Udall, Members of the Senate 
Appropriations Committee's Subcommittee on Interior, Environment, and 
Related Agencies, my name is Esther Lucero. I am the Chief Executive 
Officer for the Seattle Indian Health Board (SIHB). I am of Navajo and 
Latina descent. I strongly identify as an urban Indian, as I am the 
third generation in my family to live outside of our reservation. I 
appreciate the opportunity to present testimony today.
    The Seattle Indian Health Board is a contractor and grantee as an 
Urban Indian Health Program (UIHP) with the Indian Health Service (IHS) 
under authority of the Indian Health Care Improvement Act (IHCIA) as 
well as a HRSA 330 funded federally Qualified Health Center (FQHC). Our 
goal is to improve the health of American Indians and Alaska Natives 
(AI/ANs) living in cities through the provision of culturally relevant 
health and human services. The Health Board has been in continuous 
operation since 1970. We offer a comprehensive array of primary 
healthcare services including medical, dental, mental health, substance 
abuse, nutrition, pharmacy, and traditional health services to more 
than 4,000 AI/AN people annually who represent more than 250 different 
Indian Tribes. We operate the Thunderbird Treatment Center, a 65-bed 
residential treatment center, one of the largest in Washington State.
    Beyond our clinical services, the Health Board operates an AI/AN, 
ACGME accredited family medicine physician residency training program. 
We also manage the Urban Indian Health Institute (UIHI), one of the 
IHS' 12 Tribal epidemiology centers (TECs), and the only one with a 
focus on the health of urban Indians providing services to UIHPs across 
the Nation.
    I would like to thank the subcommittee for maintaining your 
commitment to receiving written testimony, particularly given the time 
constraints in expediting the fiscal year 2018 budget request. This 
opportunity to provide testimony regarding UIHPs is never taken for 
granted.
    I am acutely aware of the subcommittee's demonstrated commitment to 
improving the health and wellness of American Indian and Alaska Native 
(AI/AN) people. Last year was my introduction to this committee. I was 
taken aback by how you intently listened to some of the key issues in 
our community including; the 40 percent homelessness experienced by 
members of our elder program, and how the Opioid addiction crisis 
impacts Urban AI/AN communities in Seattle. I would especially like to 
thank you for the $232 million increase to the IHS budget, and for the 
$3 million increase for the UIHPs in fiscal year 2017. These increases 
will be beneficial in increasing the impact of IHS Hospitals, Tribal 
638 Clinics, and the Urban Indian Health Programs, which, together make 
up the I/T/U system of care for AI/AN people.
    Thank you for ensuring the completion of the Report to Congress 
entitled: New Needs Assessment of the Urban Indian Health Program and 
the Communities It Serves. Some of the highlights of this report 
include the suggestion that the percentage AI/AN living in urban 
environments is increasing beyond the 71 percent I cited in my 
testimony last year. It gives examples of increased collaborations 
between UIHPs and Tribal Communities, clearly an effort to bridge past 
resource allocation hardships, maximize current resources and leverage 
services to best meet the needs of AI/AN people. It also identified the 
need for expansion of the UIHP to meet the ever-growing urban AI/AN 
population. Still, this report would have been more impactful if it 
moved beyond demographics, health disparities, and program assessments 
to define clear recommendations and follow-up measures to be monitored 
by this committee to ensure that not only are we assessing UIHPs, but 
also taking clear steps to build upon their successes and minimize 
their struggles to reach and better the health outcomes of our AI/AN 
community.
    Despite the subcommittee's continued commitment to improve the I/T/
U system of care, I am here today seeking your support for increased 
funding for the Urban Indian Health Program and the entire I/T/U, 
because even with the increases we have received over the last 3 years, 
the UIHP line-item is still less than one-percent of the overall IHS 
budget. We have an increasing need for services, and we are still 
trying to address a lifetime of a grossly underfunded system. This is 
of concern given the movement to repeal and replace the Affordable Care 
Act (ACA), which currently houses the IHCIA and the permanent 
reauthorization for UIHP funding, and names Tribal Epicenters as Public 
Health Authorities. The threats to our culturally relevant system of 
care grow exponentially with the targeted effort to reduce/eliminate 
funding for Medicaid and Medicaid Expansion, two resources that have 
provided supplemental revenue for UIHPs that are lucky enough to also 
be FQHCs. For us, Medicaid dollars allowed us to launch a pilot Opioid 
Addiction program that includes 5 waivered primary care providers to 
prescribe Suboxone, mental health professionals to conduct group mental 
health visits, provide increased access to outpatient chemical 
dependency treatment, and offer access to traditional health services. 
A $10 million increase in fiscal year 2018 would bring us to a place 
where $5 million would bring us closer to meeting the growing need for 
services and another $5 million to meet capacity and infrastructure 
demands to meet that need. This increase, coupled with protections from 
sequestration, might provide UIHPs with some sense of stability. In 
addition, if Medicaid and Medicaid Expansion were preserved and UIHPs 
became eligible for 100 percent FMAP, then we are looking at expanded 
and impressive programs to support a population that historically has 
provided significant returns on investment.
    In conclusion, we thank the subcommittee for recognizing that there 
is a funding disparity in the IHS budget to address the health needs of 
AI/ANs living in urban areas. We would like to reconcile the 
discrepancy between $8,517 average spent per capita for healthcare per 
American citizen versus the $3,136 spend on AI/ANs in the IHS system of 
care. As UIHPs, we are a vital component to the I/T/U system of care, 
it is very important that we are given the opportunity to work with our 
Tribal communities to best meet the needs of all AI/AN people, 
particularly when they migrate or relocate to urban environments. We 
ask that the budget formulation process better reflect the healthcare 
needs of the urban AI/AN community and that a feasible budget is 
established to adequately combat the health disparities experienced by 
our AI/AN population regardless of where they reside.
    Thank you for your consideration of these requests.

    [This statement was submitted by Esther Lucero, Chief Executive 
Officer.]
                                 ______
                                 
             Prepared Statement of the Shoalwater Bay Tribe
    The requests of the Shoalwater Bay Indian Tribe (Tribe) for the 
fiscal year 2018 Interior, Environment, and Related Agencies budget are 
as follows:
  --Appropriate $480,000 through the Tribe's self-government agreement 
        with the BIA to address initial planning efforts in the first 
        phase of a necessary Tribal relocation.
  --Move forward with full and mandatory funding for Contract Support 
        Costs (CSC).
  --Funding for Tribal courts in Public Law 83-280 States.
  --Shield IHS funding from sequestration.
                               background
    Good afternoon Chairman Calvert and members of the Sub-Committee. 
Thank you for inviting the Shoalwater Bay Indian Tribe to provide 
testimony at this hearing on fiscal year 2018 funding for programs 
affecting Indian Tribes which are funded through your Subcommittee. My 
name is Charlene Nelson, and I am the Chairwoman of the Shoalwater Bay 
Indian Tribe which is located 2,800 miles west by northwest of where we 
are meeting today on the beautiful north shore of Willapa Bay, facing 
out to the Pacific Ocean.
    My own personal history matches closely with many of you serving on 
this Subcommittee, as I understand you consistently are tasked with 
determining how to fund and shape Federal programs that positively 
impact the health, environment, and learning of American people. I 
worked for decades in the field of education. As a former commercial 
fisherman in Alaska, I came to understand the economic potential of a 
healthy environment. Prior to my service on Tribal Council, I worked in 
the Tribe's Health and Women's Wellness Program, learning firsthand 
that vibrant and successful Indian communities are not possible without 
first attending to human health.
                         relocation assistance
    I am here today to talk to you about survival. In this case, the 
survival of our Tribe, its lands, homes, businesses, and its people. 
This is my second stint as Chairwoman of the Shoalwater Bay Tribe. 
During my prior period chairing the Tribe, I spent the vast majority of 
those 10 years spearheading an effort to help the Tribe and surrounding 
area survive the threat of coastal erosion. As a result of those 
efforts, the Army Corps of Engineers worked with the Tribe to construct 
an erosion control embankment south and west of the Reservation. The 
embankment went into service 4 years ago and this winter it took a 
beating and is now a new concern of the Tribe and the Corps. The 
embankment has temporarily halted the erosion that directly threatened 
the Reservation and State Highway 105, which connects the surrounding 
Tokeland community to schools, grocery stores, healthcare, banks, and 
housing.
    But through the process of fighting for the Tribe's survival from 
coastal erosion, we learned a great deal. We learned, among many other 
things, that essentially the entire Reservation, with one small 
exception on Eagle Hill, is no higher than 6 feet above the ordinary 
high water mark of the Willapa Bay tides. The low elevation of the 
entire reservation puts it squarely within a tsunami zone that ensures, 
in the case of a tsunami event, that the Reservation would be wiped 
out. Think about that for a moment--an entire Tribe wiped out in an 
instant.
    Attached to this testimony is a map entitled Exhibit A that lays 
out the Tribe's intentions: to begin the preliminary engineering, 
planning and initial funding to construct a road to an upland 
elevation, out of the tsunami zone, to begin the relocation process of 
the Tribe. The cost to carry out this initial phase of work is 
$480,000, and the Tribe is seeking this Subcommittee's support in 
developing a funding vehicle to support these efforts through the 
Tribe's existing BIA self-governance compact.
    Exhibit A shows a part of the Reservation at the bottom left 
intersection, as well as Highway 105 in yellow. The new road, to the 
north east of the main reservation, will provide access to a higher 
elevation land base that the Tribe owns that is safe from the threats 
of coastal erosion and tsunami.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This relocation project will require a number of partners, the 
Tribe, State, Interior Corps of Engineers. While our request today is 
for planning money for the Tribe from the BIA., other, temporary 
efforts are under serious consideration. For instance, realizing how 
dire she situation is, the State and Corps of Engineers have under 
serious and immediate consideration a joint project for a dynamic 
revetment to help protect the berm which is endangered because the wave 
action is now split where it hits the shore and part goes north and 
part comes toward the berm. We appreciate these efforts but the Tribe 
also needs the resources to be actively involved in what ultimately is 
our own relocation.
                      contract support costs (csc)
    Our great thanks for this Subcommittee's leadership in making 
funding of IHS and BIA contract support costs (CSC) for fiscal year 
2016, and now fiscal year 2017, an indefinite amount and also making 
made it a separate account in the IHS and BIA budgets. This shift makes 
an enormous difference in helping ensure that the Indian Self-
Determination and Education Assistance Act (ISDEAA) is fully funded and 
implemented as Congress intended in these two agencies. It also 
significantly enhances the Federal-Tribal government-to-government 
relationship. For IHS, the fiscal year 2017 estimate for contract 
support costs is $800 million, and for the BIA it is $278 million.
    Thank you also for listening to Tribes who explained why the 
problematic IHS-supported fiscal year 2016 enacted bill proviso which 
effectively denied the CSC carryover authority granted by the ISDEAA. 
We appreciate that this proviso is absent from the Consolidated 
Appropriations Act for Fiscal Year 2017.
    Our objective, though, continues to be the indefinite appropriation 
of CSC funding as mandatory and permanent. Full payment of CSC is not 
discretionary; it is a legal obligation under the ISDEAA, affirmed by 
the U.S. Supreme Court. Funding of CSC on a discretionary basis has in 
the very recent past placed the House and Senate Appropriations 
Committees, in their own words, in the ``untenable position of 
appropriating discretionary funds for the payment of any legally 
obligated contract support costs.'' We remain committed to working with 
the appropriate Congressional committees to determine how best to 
achieve this objective.
    tribal court assistance for tribes subject to public law 83-280
    We appreciate the much-needed support in the fiscal year 2017 
appropriations bill for Tribes who are affected by Public Law 83-280 
and who are striving to serve their communities with competent and 
appropriate judiciary systems.
    The fiscal year 2017 Explanatory Language accompanying the 
Consolidated Appropriations Act, fiscal year 2017 would increase BIA 
Tribal Justice Support funding for Tribes affected by Public Law 83-280 
(first enacted during the early 1950s termination era) who are working 
to exercise their rightful jurisdiction on domestic violence and other 
matters, and to increase available remedies and services for crime 
victims. It is very important for the future of Tribal nations affected 
by Public Law 83-280 to continue development of robust criminal 
jurisdiction systems. We quote below the fiscal year 2017 language:

        ``Funding for Tribal justice support is restored to 
        $17,250,000, of which not less than $10,000.000 is to address 
        the needs of Tribes affected by Public Law 83-280. The 
        Committees remain concerned about Tribal court needs as 
        identified in the Indian Law and Order Commission's November 
        2013 report, which notes Federal investment in Tribal justice 
        in ``Public Law 280'' States has been more limited than 
        elsewhere in Indian Country. The Committees expect the Bureau 
        to work with Tribes and Tribal organizations in these States to 
        fund plans that design, promote, sustain, or pilot courts 
        systems subject to jurisdiction under Public Law 83-280. The 
        Bureau is also directed to formally consult and maintain open 
        communication throughout the process with Tribes and Tribal 
        organizations on how this funding supports the technical 
        infrastructure and future Tribal court needs for these 
        jurisdictions.''
                 shield ihs funding from sequestration
    We have requested in our previous years' testimony that the IHS 
budget be protected from sequestration. We again ask this 
Subcommittee's support of an amendment to the Balanced Budget and 
Emergency Deficit Control Act to exempt the IHS from sequestration of 
funds, just as Congress has done for the Veterans Health 
Administration's health programs. We are very concerned that the 
current fiscal year 2018 funding cap for non-defense discretionary 
spending is lower than the fiscal year 2017 spending cap, and when 
considered along with the President's ``skinny'' fiscal year 2018 
budget outline proposal, which significantly lowers non-defense 
discretionary spending, we fear a significant sequestration of funds in 
fiscal year 2018. IHS funding for healthcare services should be made 
exempt from sequestration.
                                 ______
                                 
  Prepared Statement of the Shoshone-Paiute Tribes of the Duck Valley 
                           Indian Reservation
    The Shoshone-Paiute Tribes of the Duck Valley Indian Reservation 
appreciate the opportunity to submit written testimony concerning the 
fiscal year 2018 Budget for the BIA, BLM and IHS. The Shoshone-Paiute 
Tribes are grateful for this subcommittee's long standing support of 
Indian Tribes and for sharing its understanding of Indian country with 
your Senate colleagues.
    The Duck Valley Reservation is a large, rural and very remote 
reservation comprising 450 square miles adjacent to Nevada and Idaho. 
The Reservation is 140 miles from Boise, Idaho, and 100 miles from 
Elko, Nevada. Many of our 2,000 Tribal members make their living as 
farmers and ranchers, though a number of them are employed by the 
Tribes. We assume most duties of the BIA and IHS under self-governance 
compacts, although the BIA continues to provide law enforcement and 
detention services on our Reservation.
    In too many instances, however, our success in these areas is 
largely dependent on Federal appropriations which, in turn, determine 
whether economic and social conditions on the Duck Valley Indian 
Reservation improve or worsen. While we contribute Tribal resources to 
these endeavors as best we can, we look to our Federal partner for 
support. If we fall short in available funding, our Tribal citizens 
suffer. Without sustained growth in these Federal programs, we cannot 
meet the needs of our Reservation.
    As Congress has done for fiscal year 2017, we ask that the 
subcommittee reject the Administration's ill-conceived fiscal year 2018 
budget, which calls for unwarranted reductions in non-defense agency 
appropriations, including an unwarranted $12.6 billion cut to the 
Department of Health and Human Services and $1.5 billion cut to the 
Department of the Interior. If enacted the budget would cause great 
harm to the Duck Valley Indian Reservation and to most Native Americans 
who, more than most Americans, rely heavily on Federal appropriations 
across multiple Federal agencies, not just Interior and DHHS.
    We encourage this subcommittee to build on the increases in the 
fiscal year 2017 appropriation for these essential Tribal programs.

    Our priorities for fiscal year 2018 include:

    1. Increase BIA Road Maintenance Program funds (Eastern Nevada BIA 
Roads Program of the Western Regional Office). We respectfully ask for 
at least a $10 million increase in the BIA Road Maintenance Program to 
the Indian Affairs budget so that the BIA Eastern Nevada Agency Roads 
Department can purchase a road grader, backhoe, a front-end loader, a 
D7 Caterpillar dozer and a ten-wheel dump truck. We appreciate the 
fiscal year 2017 increase, but it alone will not provide sufficient 
funds to replace heavy road maintenance equipment. The 1980's blade 
road grader has broken down again and needs replacing. Likewise, the 
1980's backhoe is also outdated, and parts are a challenge to find. The 
employees are embarrassed to haul the backhoe in for repairs when 
needed because it is so old and worn (40 years old--like the grader). 
The dozer is a 1960's model, and the front-end loader and backhoe are 
from the 1970's. They need a dump truck because they do not have one. A 
modern ten-wheel dump truck is needed. Our Region has the largest 
percentage of BIA-owned roads at 21 percent. The requested increase we 
request will help our Region tremendously. It has been over 25 years 
since BIA sought supplemental funds for heavy equipment.
    The BIA Eastern Nevada Agency covers the roads maintenance need for 
the 600 miles of public roads on the Duck Valley Reservation and the 
road maintenance needs on five other reservations which are hundreds of 
mile apart throughout northeastern Nevada. The approximately $70,000 
received annually to maintain all of these roads is woefully 
inadequate. Increased Road Maintenance funding will improve road 
safety.

    2. Increase funding for the BIA Public Safety and Special 
Initiatives Program. The BIA struggles to provide adequate law 
enforcement on our Reservation. For that reason, we applaud the final 
fiscal year 2017 enacted appropriations levels for Public Safety and 
Justice totaling $385.735 million, and urge the Committee to continue 
support modest increases for the next year. We reject the 
Administration's unwise cuts to BIA Public Safety funding. We are one 
of three Tribes in a pilot program funded under the BIA's ``Law 
Enforcement Special Initiatives'' program. Under this program, we 
receive $250,000 in additional recurring funding to reduce recidivism 
on the Duck Valley Reservation. The Special Initiatives program is 
essentially funded at the same level for fiscal year 2017 as it was for 
fiscal year 2016.
    We request an increase of funding to the Special Initiatives 
Program to assist the Tribes with the cost of placing and providing 
utilities to a number of buildings that the Tribes received from FEMA 
that will be used to support the Tribes' recidivism pilot program. The 
buildings will be used for education, support of family members 
visiting and supporting incarcerated youth, year-round equine 
activities (which are integral to Native American culture) and 
emergency medical services, all of which are important components of 
the Tribes' recidivism pilot program. The cost for the facilities 
infrastructure work is approximately $2.5 million.
    We further urge the subcommittee to include statutory language to 
make clear that ``Law Enforcement Special Initiatives'' funds may be 
used for the purchase or lease of temporary trailers or modular units 
to house personnel associated with law enforcement, corrections, 
probation, Tribal courts and other professionals serving Tribal 
offenders. For rural communities like Duck Valley, housing is often the 
linchpin to program success. This request will give us the flexibility 
we need to use Special Initiatives funding for housing law enforcement 
personnel.

    3. Fund the Owyhee Initiative within the Bureau of Land Management 
(BLM). The Owyhee Initiative is a joint effort by ranchers, 
recreationalists, county and State officials, and the Shoshone-Paiute 
Tribes to protect what the Tribes know as sacred lands, and to manage 
and appropriately use public lands in the tri-state area of Nevada, 
Oregon and Idaho. In 2009, Congress passed the Omnibus Public Land 
Management Act, Public Law 111-1. Since 2010, we have worked jointly 
with BLM to protect cultural resources and increase public 
understanding and appreciation of these resources as a part of the 
Cultural Resources Protection Plan authorized in the legislation 
referred to as the Owyhee Initiative. Increased recreational use and 
encroachment by visitors within the Owyhee River Wilderness Area and 
other Federal lands, however, threaten important cultural resources. 
The BLM's Boise District manages 3 million acres of land in this rough 
remote area and they have 3-4 Rangers in their entire district. Let us 
help understaffed BLM officials perform their duties and help us put 
our members to work.
    One-time BLM funding a number of years ago allowed us to purchase 
two Cessna planes and ATV equipment and hire one Chief Ranger to patrol 
public lands and report violations of cultural and religious sites to 
BLM officials. Our Chairman also flies patrols. We work closely with 
BLM and Owyhee County officials to coordinate compatible recreation use 
within BLM lands in Owyhee County, especially within the wilderness 
areas where we seek to protect cultural resource sites important to our 
Tribes. The Ranger and our Chairman also spot and report wildfires to 
BLM officials before the fires can do great damage to sensitive, remote 
public lands.
    We seek recurring BLM funds to continue this important work to 
protect cultural sites and establish a Reserve Ranger Program to engage 
Tribal youth in cultural and related activities during the summer. The 
Chief Ranger is near retirement. It is essential that we hire and train 
replacement staff, including a pilot, to continue this important work. 
We need funds to hire an Assistant Director, one adult Tribal Ranger 
and two part-time Youth Rangers, train a qualified applicant as an 
additional pilot, purchase two more ATVs and two camp trailers to 
permit Tribal personnel to remain in the field and overhaul the two 
Cessna planes per FAA regulations. We hope to construct a hanger at the 
Owyhee Airport to centralize our operation and increase surveillance 
flights. We contribute nearly 50 percent of the required budget but 
cannot sustain this important program without Federal support. Our plan 
requires $600,000 to fully fund the above activities. Modest Federal 
appropriations can go a long way at Duck Valley.
    We also support the additional funding for BLM Cultural Resources 
Management and other BLM accounts used to manage and protect 
archaeological and historic properties on public lands. BLM lands 
contain the remnants of campsites, villages, hunting blinds and rock 
inscriptions that tell the story of the Shoshone-Paiute and other 
Tribes. After speaking with Shoshone-Bannock Tribal officials, together 
with northern tier Nevada Tribes (including the Te-Moak, Battle 
Mountain, South Fork and Goshute Tribes), we seek BLM funds to form a 
Tribal work group to spread best practices for cultural resources 
management and protection that we have learned over the last 20 years. 
We would be a good candidate for a BLM grant. It would be a wise 
investment to fund a multi-Tribal task force to propose and design 
strategies for on the ground protection of Native American cultural 
resources for the Upper Great Basin and High Plateau of the tri-state 
area of Nevada, Oregon and Idaho.

    4. Telecommunications (fiber optics). The Tribes continue to need 
fiber infrastructure over five miles for connectivity among Fish, 
Wildlife & Parks, Tribal Headquarters, Detention Center, Fire Station 
and the Owyhee Community Health Facility. The health center serves as 
the Wide Area Network (WAN) hub for the Tribes' and health center's 
computer network. Connectivity among these facilities and programs 
would alleviate the long-term monthly recurring cost we pay to an 
Ethernet Circuit provider ($96,000 annually). We require $500,000 in 
Federal funding to construct new fiber networks and cover construction 
inspection fees. We urge the subcommittee to increase appropriations 
within the BIA and IHS budgets so that Duck Valley can improve our 
telecommunications networks. Education IT is not the only program in 
need of an upgrade.

    5. East Fork Owyhee Salmon Steelhead Recovery and Reintroduction 
Project. We return Chinook salmon and steelhead trout to Duck Valley 
through an innovative ``trap-and-haul'' program. Dam construction along 
the Columbia and Snake Rivers eliminated salmon from our Reservation 
for 87 years. Duck Valley is unique in that it supports two major 
tributaries to the Snake River. In 2014, we financed a pilot study that 
found that habitat in the East Fork of the Owyhee River supports a 
summer rearing capacity of between 3,300 and 43,000 juvenile steelhead 
trout and from 3,600 to 41,000 Chinook salmon. In 2015 and 2016 we 
returned nearly 200 Chinook salmon each summer to Duck Valley and spear 
fished nearly all of them. It is a joyous event to have salmon return 
to the Reservation. With $210,000 in funding for the next 3 years we 
can complete our habitat surveys of the East Fork Owyhee River, 
including obtaining data on non-summer river conditions, as well as an 
assessment of the Bruneau River habitat. We propose to transport adult 
fish from Lower Granite Dam or Hells Canyon Dam and release the fish 
above China Dam into the East Fort Owyhee River to spawn. Emigrating 
juvenile fish would later be captured and released downstream from 
passage carriers on the Snake River to complete their migration to the 
Pacific Ocean. Adult salmon originating from the East Fork Owyhee River 
would later be captured in the lower Snake River and transported 
upstream. These programs are also jobs programs for our members and we 
value this work.
    In fiscal year 2017, Congress appropriated $200.9 million for the 
BIA's Trust-Natural Resources Management programs, a $9.1 million 
increase from fiscal year 2016. We urge the subcommittee to support an 
increase in fiscal year 2018 to the BIA's Trust-Natural Resources 
Management program budget, including the Tribal Management/Development 
Program and Fish, Wildlife & Parks program. Tribes contract a 
significant part of the Natural Resources Management funds. An increase 
to the BIA's budget can help us with this innovative project to return 
salmon and steelhead trout to the Duck Valley Reservation.

    6. Native Plant Program/Greenhouse. In cooperation with BLM, the 
Tribes gather, propagate and make available seed and other native plant 
materials that are indigenous to the region. Through a series of 
assistance agreements with BLM, we built three greenhouses and are 
growing seedlings (including sagebrush and bitterbrush seedlings) for 
planting on adjacent public lands. This program assists BLM and other 
agencies in their efforts to restore lands damaged by wildfires and 
helps employ Tribal members. The Tribes plan to have 80,000 
containerized grasses and shrub seedlings available for sale, together 
with willow and other riparian plant cuttings and local vegetables for 
sale and distribution through our ``Honor Our Elders'' program. The 
Tribes have already sold plants to a mining company and gifted plants 
to BLM for reclamation work. We seek Interior Department appropriations 
of $450,000 in fiscal year 2018 to build additional greenhouses and a 
facility to house equipment to dry, clean and store seed and to hire 
part-time greenhouse staff for marketing and finances. The Tribes 
request $200,000 in each of fiscal year 2019 and fiscal year 2020 for 
staff and operations to expand our program and be a reliable supplier 
of native plants and seedlings on BLM-managed public lands.

    7. IHS. The Tribe appreciates the $232 million increase Congress 
provided for fiscal year 2017 for the Indian Health Service (IHS), and 
we request an increase in, especially in the area of clinical services, 
including Purchased/Referred Care, Contract Support Costs (CSC) and 
facilities construction. The Tribes continue to support full funding of 
CSC for IHS and BIA, and thank this subcommittee for its work to date 
to fully fund contract support costs without jeopardizing program 
funding. We respectfully urge the subcommittee to continue with its 
current approach of employing a separate and indefinite appropriation.

    We urge the Committee to build on the fiscal year 2017 budget to 
meet Tribal health and safety needs that strengthen our community in 
fiscal year 2018 and beyond. The Shoshone-Paiute Tribes of Duck Valley 
Indian Reservation thank you again for this opportunity to submit 
written testimony.
                                 ______
                                 
        Prepared Statement of the Society of American Foresters
    The Society of American Foresters (SAF), with 12,000 forestry and 
natural resources professionals, promotes science-based, sustainable 
management and stewardship of the Nation's public and private forests. 
SAF appreciates this opportunity to submit written public testimony on 
fiscal year 2018 appropriations because sufficient funding for the USDA 
Forest Service (USFS) and the Department of the Interior (DOI) is vital 
to conserving and improving the health and productivity of our Nation's 
forests.
    The American public relies on the 751 million acres of public and 
private forests in the United States to provide clean and abundant air 
and water, forest products, fish and wildlife habitat, recreational 
opportunities, forage and range resources, energy, and scenic beauty. 
Managing these natural assets for multiple uses is increasingly 
difficult with the unprecedented threats posed by wildfire, drought, 
insects, disease, and invasive species. Maintaining a balance demands 
that land managers and partner organizations work together to identify 
innovative ways to work across boundaries, maximize values, and improve 
the health of our forests nationwide.
    SAF's priorities in the fiscal year 2018 budget process include a 
range of programs within USFS and DOI. Recognizing fiscal constraints, 
these requests will assist forest managers and scientists in sustaining 
our Nation's forests and providing a multitude of benefits for 
generations to come.
            saf top federal priorities for fiscal year 2018
    1.  Adopt a long-term solution to wildfire suppression funding 
that: (1) allows access to disaster funding; (2) minimizes budget 
transfers; and (3) addresses the compounding erosion of agency budgets 
over time, with the goal of reinvesting in key programs that would 
restore forests to healthier conditions.
    2.  Increase funding levels for USFS Forest and Rangeland Research 
to no less than $303 million, with no less than $83 million for the 
Forest Inventory and Analysis Program.
    3.  Support Bureau of Land Management Public Domain Forestry and 
Oregon & California Railroad Grant Lands funding levels at no less than 
$10 million and $113.7 million, respectively.

    SAF is the premier national scientific and educational organization 
representing forestry and related natural resources professionals in 
the United States. Founded in 1900 by Gifford Pinchot, our members 
include public and private sector natural resource professionals, 
researchers, CEOs, administrators, investment advisors, educators, and 
students. Just as forests are fundamental to our Nation, so too are the 
professionals who study, manage, and protect these precious resources. 
SAF is eager to work with Congress, Federal agencies, and partners to 
identify reasonable solutions to increase the pace and scale of 
management on Federal lands, find new ways to work with private 
landowners, keep forests as forests, provide incentives for active 
management, and deliver practical innovations to meet future challenges 
and market demands.
    SAF is pleased with the continued commitment to increasing the pace 
and scale of management on Federal lands with the USFS harvest target 
of 3.2 billion board feet, up from 2.7 billion board feet in recent 
years. With up to 82 million acres in the National Forest System (NFS) 
still in need of restoration, SAF urges this subcommittee to encourage 
the agency to use all available tools to increase restoration levels by 
implementing more projects on Federal lands. USFS should expand 
collaboration with rural communities, partners, and industry to meet 
and exceed management goals outlined in forest plans. Authorizations in 
the 2014 Farm Bill facilitate quicker responses to areas devastated by 
insects and disease, expand the use of Stewardship Contracting, and 
take advantage of Good Neighbor Authority and other mechanisms that 
work across boundaries to achieve shared objectives. Investments in NFS 
Forest Products and Integrated Resource Restoration Pilots also help to 
improve forest and community resilience. However, decreases in Capital 
Improvement and Maintenance and the Administration's proposed 
elimination of the Collaborative Forest Landscape Restoration Program 
could impede fulfillment of targets critical to economic sustainability 
and growth of local communities.
    Likewise, SAF encourages this subcommittee to recognize the 
importance of USFS State and Private Forestry (S&PF) programs. The 
Urban and Community Forestry, Landscape Scale Restoration, Forest 
Stewardship, and Forest Health Management programs provide important 
technical and financial assistance to private landowners and the 
resource managers responsible for managing more than 60 percent of 
America's forests. Investments in these programs are leveraged by 
landowners, State and local agencies, and a variety of non-governmental 
organizations to help to build healthy and thriving forest resources 
that benefit all citizens. Eliminating, consolidating, or drastically 
cutting funding for these programs would have profound adverse impacts 
on people and communities across the country--particularly in rural 
communities--and will jeopardize the essential benefits all citizens 
rely on forests to provide.
    Wildfire Funding.--While wildfires predominantly threaten western 
landscapes and communities, recent destructive fires in the east remind 
us that wildfire is a serious threat throughout the country. Regardless 
of fire location, the financial impacts weigh heavily on every citizen.
    All agencies and programs funded through the Interior 
Appropriations Bill suffer as wildfire suppression costs continue to 
rise under the current funding model. The rolling 10-year average has 
not met annual suppression cost needs since before fiscal year 2002, 
and the resulting shortfalls--both anticipated and actual--
significantly disrupt important forest management projects across the 
country. Funds for management are then diverted into suppression, 
exacerbating an already serious issue. We thank the subcommittee for 
fully funding the 10-year average and providing supplemental funds, if 
necessary, in fiscal year 2017. However, agencies and first responders 
need a long-term solution that results in stable and predictable 
budgets.

        SAF respectfully requests a solution that: (1) allows access to 
        disaster funding; (2) minimizes transfers; and (3) addresses 
        the compounding erosion of agency budgets over time, with the 
        goal of reinvesting in key programs that would restore forests 
        to healthier conditions.

    Hazardous Fuels.--A comprehensive approach to averting wildfire 
threats and improving forest resilience is imperative. The Hazardous 
Fuels and Fire Risk Management line items in the USFS and DOI budgets 
are integral to restoring forest health and reducing the costs of 
wildfire suppression. Through restoring and maintaining fire-resilient 
landscapes and communities, these programs support the goals of the 
National Cohesive Wildland Fire Management Strategy. SAF appreciates 
this subcommittee's consistent support for wildfire management and 
encourages it to allocate funds to address wildfire risks inside and 
outside the wildland-urban interface. In addition to preventing and 
mitigating wildfire risks, these programs serve as an important source 
of jobs, maintain critical forest products processing capability, 
especially in rural communities, and expand markets for the use of 
biomass residuals as renewable energy through efforts like the USFS 
Woody Innovations Grant Program.

        SAF supports funding the USFS Hazardous Fuels Program at $479 
        million and DOI Hazardous Fuels and Resilient Landscapes at 
        $178 million. We also ask that the subcommittee include report 
        language encouraging Federal agencies to coordinate their fuels 
        plans with other planning efforts such as State forestry and 
        conservation plans to facilitate cross-boundary activities and 
        increase the effectiveness of this program.

    Forestry Research.--Investments in forestry research are essential 
for the future health and sustainability of the Nation's forests, which 
include 11 million private forest landowners. Although this testimony 
focuses on USFS Forest and Rangeland Research programs, SAF also 
recognizes and supports the full array of forestry research efforts led 
by the Bureau of Land Management, US Fish and Wildlife Service, US 
Geologic Survey, and others including land-grant institutions and other 
universities. USFS Research and Development (USFS R&D) research 
conducted at the five USFS research stations, the International 
Institute of Tropical Forestry, and in the Forest Products Laboratory 
is crucial. Federal forestry research develops new products and 
practical innovation; identifies forest ecosystem disturbance response 
and forest resilience; helps responses to shifting social demands and 
demographic changes; and quantifies the contributions of forests to air 
and water quality. Without USFS leadership, investigation of these 
critical research needs would largely be left unfulfilled. Clear and 
relevant research helps eliminate uncertainties and builds consensus on 
management actions potentially avoiding litigation and enabling more 
projects to move forward.
    If forest research capacity in the US continues to decline, forest 
managers will not be able to meet current and future challenges with 
existing science and technical information. Continuing the trend of 
reductions in the USFS R&D budget will result in significant gaps in 
knowledge and in poor management of resources at a time of 
unprecedented threats posed by wildfire, drought, insects, disease, and 
invasive species.

        SAF supports a funding level of $303 million for USFS R&D, with 
        particular emphasis on prioritization of research projects 
        uniquely suited to R&D expertise furthering agency and partner 
        objectives.

    FIA Funding.--SAF strongly supports the funding increases for the 
USFS R&D Forest Inventory and Analysis (FIA) program in the fiscal year 
2017 Omnibus Bill and in the Administration's fiscal year 2018 Budget. 
FIA is the backbone of US forestry--providing the only national census 
of forests across all ownerships. Through FIA, USFS, with State 
forestry agency, university, and private sector partners, collects and 
analyzes forest data to assess trends on issues such as forest health 
and management, fragmentation and parcelization, and forest carbon 
sequestration. The data and information collected by FIA serve as the 
basis for identifying trends in forest ownership; assessing fish and 
wildlife habitat; evaluating wildfire, insect, and disease risk; 
predicting the spread of invasive species; determining capital 
investment in existing forest products facilities and selecting 
locations for new forest product facilities; and identifying and 
responding to priorities identified in State Forest Action Plans. The 
critical need for current information about the condition of our 
forests, with greater emphasis on the role of forests in maintaining 
and improving air quality, underlies the need for FIA program capacity 
to be increased in fiscal year 2018 and beyond.

        SAF requests additional investment in FIA with a funding level 
        of at least $83 million. We urge the subcommittee to ensure 
        that this increase does not come at the expense of other 
        research programs, and provide direction for future increases 
        to allow the program to keep pace with ever-growing and diverse 
        information needs.

    Fire Science Program.--SAF has concerns with the reduction in 
funding in the fiscal year 2017 Omnibus Bill and the proposed 
elimination of the Joint Fire Science Program (JFSP) in the 
Administration's fiscal year 2018 Budget. Transfer of the JFSP from the 
Wildland Fire Management Budget to the USFS R&D may create 
efficiencies, but the reduction from $6.9 million to $3 million in the 
fiscal year 2017 bill or integrating those functions in the National 
Fire Plan Research and Development (NFP R&D) will negatively impact the 
joint research program with over 200 Federal agency, university, and 
nongovernmental partners. Including funding for JFSP activities within 
NFP R&D in the USFS R&D budget with a reduction in funding for all will 
reduce JFSP effectiveness and hinder exploration of fire research 
questions important to the USDA and DOI.

        SAF urges the subcommittee to restore the JFSP funding level to 
        $6.9 million and maintain the Wildland Fire Management budget 
        line.

    Public Domain Program.--Finally, SAF is encouraged by the 
recognition of the important work of the BLM Public Domain Forestry 
(PD) program. SAF asks this committee to consider amending the 
extension of the Forest Ecosystem Health and Recovery Fund 
authorization in the 2015 Omnibus Bill to beyond 2020. SAF is concerned 
with the proposed funding reduction for the Oregon & California 
Railroad Grant Lands (O&C) in the President's proposed budget. While 
funding for the O&C timber program is important, SAF urges this 
subcommittee to provide the needed funds to support efficient, 
effective implementation and monitoring to achieve all of the 
objectives outlined in plans, including necessary forest health and 
fuels treatments.

        SAF supports the funding level of $10 million for the PD 
        program and $113.7 million for the O&C program. We also urge 
        this subcommittee to extend authorization of the Forest 
        Ecosystem Health and Recovery Fund beyond 2020.

    Thank you for your consideration of these important requests. SAF 
and its extensive network of forestry and natural resources 
professionals stand ready to assist with further development and 
implementation of these efforts and ideas.

    [This statement was submitted by Frederick Cubbage, President.]
                                 ______
                                 
           Prepared Statement of the Southcentral Foundation
    My name is Katherine Gottlieb and I am the President and Chief 
Executive Officer of Southcentral Foundation (SCF). SCF is the Alaska 
Native Tribal health organization designated by Cook Inlet Region, Inc. 
and eleven federally-Recognized Tribes--the Aleut Community of St. Paul 
Island, lgiugig, lliamna, Kokhanok, McGrath, Newhalen, Nikolai, 
Nondalton, Pedro Bay, Telida, and Takotna--to provide healthcare 
services to beneficiaries of the Indian Health Service (IHS) pursuant 
to a contract with United States Government under the authority of the 
Indian Self Determination and Education Assistance Act (ISDEAA) Public 
Law 93-638.
    SCF provides a variety of medical services, including dental, 
optometry, behavioral health and substance abuse treatment to over 
65,000 Alaska Native and American Indian people. This includes 52,000 
people living in the Municipality of Anchorage, the Matanuska-Susitna 
Borough to the north, and 13,000 residents of 55 rural Alaska villages. 
Our services cover an area exceeding 100,000 square miles. SCF employs 
nearly 2,000 people to administer and deliver these critical healthcare 
services.
    SCF is a member of the Alaska Tribal Health System (ATHS) which is 
comprised of 229 federally Recognized Alaska Tribes and Tribal 
organizations who have all contracted with the IHS to carry out the 
management and administration of Federal Indian programs. Collectively, 
the Tribes and Tribal organizations form an integrated statewide 
network with more than 7,000 employees providing services to over 
150,000 Alaska Native and American Indian people. Additionally, the 
ATHS is a critical component of the Alaska Public Health System serving 
thousands of non-Native people in rural Alaska. We believe Alaska is 
the only State where all Tribes have assumed such broad responsibility 
to own and manage our healthcare system and is shining example of how 
true Indian self-determination can work.
    Thank you for the opportunity to submit written testify on behalf 
of the SCF and the 150,000 Alaska Native and American Indian people we 
serve.
    SCF requests that in fiscal year 2018 Congress: (1) focus on 
general IHS program increases, especially related to population growth 
and inflation; (2) support increases in behavioral health funding; (3) 
exempt IHS from any across-the board reductions; (4) support increases 
for Indian Self-Determination Act section 105(l) lease payments; and 
(5) exempt Tribal programs from any healthcare reform efforts that 
would exacerbate already grave funding deficiencies.
               1. focus on general ihs program increases
    We thank this subcommittee for the increases enacted for the IHS 
budget in fiscal year 2017. However, we ask that in fiscal year 2018, 
the subcommittee focus on general program increases, which are shared 
equally by all Tribal programs, rather than increases for targeted 
programs--such as for leases, accreditation, or health professions--
that may only go to a few Tribes and/or may come with funding 
restrictions that limit our ability to target them where needed most. 
Of the approximate $128 million in fiscal year 2017, only $51 million 
can be attributed to the IHS general services account. If all of that 
were used for inflation and pay cost increases (a result that is 
entirely up to the agency and far from certain), each program would 
receive approximately a 1.5 percent increase in funding. Although that 
falls behind the actual inflation rate and does not take into account 
population growth, that increase is much appreciated and provides huge 
benefits to our programs. We ask this subcommittee continue to consider 
these general needs going forward.
    We also continue to support increases targeted at Purchased and 
Referred Care (PRC). For many years, PRC funding has not kept pace with 
the rising cost of healthcare, meaning these dollars provide fewer and 
fewer services each year and we must sometimes deny care. We also ask 
this subcommittee to continue to support PRC increases that also 
support increased services for our growing population.
                 2. increase behavioral health funding
    This subcommittee is likely already aware of two problems that 
disproportionately affect our population: substance abuse, especially 
opioid addiction, and suicide. For this reason, SCF maintains its 
support for the Substance Use and Suicide Prevention Program (a 
combination of the Methamphetamine and Suicide Prevention Initiative 
and Domestic Violence Prevention Initiative). We implemented these 
programs through our Behavioral Health Services and our Family Wellness 
Warriors Initiative--program that aims to address the spiritual, 
emotional, mental and physical effects of domestic violence, and abuse 
and neglect, and to break the cycle of addiction. Funding for this 
program and prior behavioral health initiatives has been very 
instrumental in this effort.
    We also thank this subcommittee for eliminating in fiscal year 2017 
the ``notwithstanding'' clause that had been included in prior 
appropriations measures. With that done, we ask the subcommittee to 
direct IHS to now treat these funds just like other IHS program funds 
operated under the Indian Self-Determination Act instead of as grant 
funding--these dollars will go much further once funding isn't taken 
off the top for IHS's administrative overhead and once we are no longer 
forced to use a portion to comply with unnecessary and onerous grant 
requirements.
    That said, we must emphasize that behavioral health funding is 
critical for our most vulnerable population--our youth. At SCF, we run 
several programs that provide mental healthcare for Alaska Native 
youth, and that focus on building academic, vocational, and leadership 
skills through culturally-appropriate methods. These programs not only 
address past trauma, but ensure our youth stay on the path towards 
becoming tomorrow's future leaders instead of falling prey to 
addiction. We ask this subcommittee to continue supporting these 
measures.
             3. exempt ihs from across-the-board reductions
    As this subcommittee is well aware, across-the-board reductions 
have devastating impacts on Tribal programs. Since 2013, Tribes have 
testified about the long-lasting consequences of sequestration and the 
fact that it took years for the IHS budget--and funding for Tribal 
programs--to recover to pre-sequestration levels. This reduction had 
real-world consequences, resulting in reduced programming, cuts to 
patient care, and stagnation of services at a time of growing need. The 
administration has proposed a similar across-the-board reduction in 
fiscal year 2018--requesting a 16 percent cut overall for the 
Department of Health & Human Services (DHHS). We ask that IHS be exempt 
from any such cuts--it is already the smallest part of the DHHS budget 
and is only funded at approximately 1/5 of the total Tribal needs 
budget of $30.1 billion. Any further funding reduction would only serve 
to ensure Tribal health funding falls even farther behind that provided 
for the general population.
 4. support increases for indian self-determination act section 105(l) 
                             lease payments
    A number of Tribes and Tribal organizations have approached IHS to 
negotiate leases under section 105(l) of the Indian Self-Determination 
Act (ISDEAA) for the use of tribally owned or leased buildings where 
IHS programs are carried out. But, IHS correctly points out that there 
is no budget line from which to pay such leases. We appreciate the $11 
million provided for tribally-leased facilities in fiscal year 2017 
(which includes $2 million from Direct Operations), but we understand 
these funds were intended to bring up the Village Built Clinic (VBC) 
lease amounts closer to the actual cost of operating those facilities. 
Thus, any 105(l) leases funded out of this increase in fiscal years 
2017 and 2018 will only serves to keep VBC lease payments deficient. 
Since agency 105(l) lease payments should also not come out of program 
funds, SCF requests that the subcommittee create within the Direct 
Operations account a new subaccount to pay required 105(l) Tribal lease 
payments.
    In the face of two court rulings addressing IHS's legal obligations 
to fund ISDEAA 105(l) leases, the President's Budget asks Congress to 
legislatively override section 105(l) by inserting a 
``notwithstanding'' clause which would make all lease payments entirely 
discretionary with IHS. In this manner, IHS would secure to itself the 
right to use Tribal facilities to run IHS programs without any 
requirement to pay for those facilities. It is also legally 
questionable because without paying for these facilities, IHS would 
essentially be augmenting the appropriation though volunteered 
services, bypassing the Appropriations Clause. We respectfully urge the 
subcommittee to reject IHS's effort to repeal a key provision of the 
ISDEAA. If amendments are to be considered to the ISDEAA, it is the 
role and jurisdiction of the authorizing committees to consider the 
matter in the ordinary course.
 5. preserve funding for tribal programs in health care reform efforts
    We know that health reform legislation is a Congressional priority 
and we too know the current system still leaves many underserved. 
However, we must stress that the answer is not to cut funding from 
Tribal programs, but rather to focus on expanding coverage. In Alaska, 
expanded coverage has helped to alleviate some of the stress on Tribal 
programs that serve these individuals free of charge whether they have 
insurance or not. We find the repeal of the essential health benefit 
requirements to be especially harmful as our patients with private 
insurance may be denied necessary life-saving care, especially if our 
PRC funds are insufficient to pick up the charges that the private 
insurers refuse to cover. As a result, our costs of providing care 
would drastically increase for all of our patients, from babies born 
early or with complications to our elderly. We ask Congress to consider 
these implications before advancing this bill or similar legislation 
forward.
    We strongly recommend that any legislation that would change how 
Tribal providers receive payment from Medicare and Medicaid or that 
further restrict eligibility rules be carefully reviewed--again, 
changes that would only serve to decrease the care provided to patients 
and at higher cost. We serve the entire State population, yet the 
healthcare reform proposal would eliminate the three-month retroactive 
payment option which would be a disadvantage to our rural residents who 
often do not have the means to register for these programs until they 
come to Anchorage and are receiving care. Proposals to block grant the 
Medicare and Medicaid programs or to increase individual co-pays would 
only shift the burden from these Federal programs back to an already-
overtaxed IHS budget and to Tribal health providers. Any reduction in 
our third-party revenues--revenues which support roughly half of the 
healthcare services we provide--would ensure that Alaska Natives 
continue to receive the lowest per-capita healthcare funding in the 
country and exacerbate deficiencies in health status, contrary to 
decades of Federal policy. We ask that this subcommittee exempt Tribal 
programs from any changes to these programs, and to look for ways to 
expand coverage, rather than focusing on cutting costs by simply 
reducing the number of beneficiaries.
    Thank you again for the opportunity to provide testimony on behalf 
of Southcentral Foundation and the 150,000 people we serve.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe
    On behalf of the Squaxin Island Tribal Leadership and citizens, it 
is an honor to provide our funding priorities and recommendations for 
the fiscal year 2018 Budgets for the Bureau of Indian Affairs (BIA) and 
Indian Health Service (IHS). Squaxin Island Tribe requests that Tribal 
program funding throughout the Federal Government be exempt from future 
sequestrations, rescissions and disproportionate cuts.
    We applaud the subcommittee for its foresight, leadership and 
creativity in seeking a long-term resolution to fully fund Contract 
Support Cost (CSC) in the BIA and IHS. Although full funding in 2014 
and 2015 was risky and did impact some other Tribal funding, in the 
fiscal year 2016 enacted spending bill you included an estimated amount 
to fully fund the CSC needs in 2016 and 2017. Under the new budget 
structure, going forward the full CSC that Tribes are entitled to will 
be paid and other programs will not be reduced if payments are 
underestimated in the President's budget. The Squaxin Island Tribe 
agrees that maintaining this structure achieves the Nation's legal 
obligation to fully pay CSC and those payments should not be achieved 
by reducing direct services to any Tribe.

THE FISCAL YEAR 2018 SQUAXIN ISLAND TRIBAL SPECIFIC REQUESTS:

    1.  $500,000 Shellfish Management Program--BIA
    2.  $2.5 Million to Build and Operate an Oyster and Clam Nursery 
for Southern Puget Sound--BIA
    3.  $2.5 Million Increase for Northwest Indian Treatment Center 
(NWITC) Residential Program in IHS

REGIONAL REQUESTS:

    1.  Fully support the budget requests from the Affiliated Tribes of 
Northwest Washington (ATNI) and the Northwest Portland Area Indian 
Health Board (NPAIHB) and the Northwest Indian Fisheries Commission

NATIONAL REQUESTS AND RECOMMENDATIONS--BUREAU OF INDIAN AFFAIRS:

    1.  Continue to fully fund Contract Support Costs for BIA and 
authorize reclassification of BIA CSC to Mandatory [Permanent] Funding 
beginning in fiscal year 2018
    2.  BIA Rights Protection--Increase funding to $56.5 million for 
the BIA Rights Protection Implementation.
    3.  Fully Fund Fixed Costs and Tribal Pay Costs.
    4.  Increase Tribal Base Funding (instead of through grants)
    5.  Fully fund all the provisions of the Tribal Law and Order Act 
of 2010 and the Violence Against Women Act

NATIONAL REQUESTS AND RECOMMENDATIONS--INDIAN HEALTH SERVICE:

    1.  Continue to fully fund Contract Support Costs for IHS
    2.  Authorize reclassification of IHS CSC to Mandatory [Permanent] 
Funding

    Squaxin Island Tribes supports the Regional Budget Priorities of 
the Northwest Indian Fisheries Commission, the Affiliated Tribes of 
Northwest Indians and the Northwest Portland Area Indian Health Board.
    Squaxin Island Tribe supports the National Budget Priorities of the 
National Congress of American Indians and the National Indian Health 
Board.

SQUAXIN ISLAND TRIBE BACKGROUND

    We are Native People of South Puget Sound and descendants of the 
maritime people who lived and prospered along these shores for untold 
centuries. We are known as the People of the Water because of our 
strong cultural connection to the natural beauty and bounty of Puget 
Sound going back hundreds of years. The Squaxin Island Indian 
Reservation is located in southeastern Mason County, Washington and the 
Tribe is a signatory to the 1854 Medicine Creek Treaty. We were one of 
the first 30 federally-recognized Tribes to enter into a Compact of 
Self-Governance with the United States.
    Our treaty-designated reservation, Squaxin Island, is approximately 
2.2 square miles of uninhabited forested land, surrounded by the bays 
and inlets of southern Puget Sound. Because the Island lacks fresh 
water, the Tribe has built its community on roughly 26 acres at 
Kamilche, Washington purchased and placed into trust. The Tribe also 
owns 6 acres across Pickering Passage from Squaxin Island and a plot of 
36 acres on Harstine Island, across Peale Passage. The total land area 
including off-reservation trust lands is 1,715.46 acres. In addition, 
the Tribe manages roughly 500 acres of Puget Sound tidelands.
    The Tribal government and our economic enterprises constitute the 
largest employer in Mason County with over 1,250 employees. The Tribe 
has a current enrollment of 1,040 and an on-reservation population of 
426 living in 141 homes. Squaxin has an estimated service area 
population of 2,747; a growth rate of about 10 percent, and an 
unemployment rate of about 30 percent (according to the BIA Labor Force 
Report).

TRIBAL SPECIFIC REQUESTS/JUSTIFICATIONS:

  1.  $500,000--Shellfish Management--BIA

    The Squaxin Island Tribe faces an ongoing budget deficit to 
maintain and operate the shellfish program at its current level of 
operation--a level that leaves 20 percent of treaty-designated State 
lands and 80-90 percent of private tidelands unharvested due to lack of 
funding. To address this shortfall and enable effective growth and 
development of the program, an annual minimum increase of $500,000 is 
requested. Shellfish have been a mainstay for the Squaxin Island people 
for thousands of years and are important today for subsistence, 
economic and ceremonial purposes. The Tribe's right to harvest 
shellfish is guaranteed by the 1854 Medicine Creek Treaty. Today, we 
are unable to fully exercise our treaty rights due to lack of Federal 
support for our shellfish management program.
  2.  $2.5 Million--Build and Operate an Oyster and Clam Nursery for 
        Southern Puget Sound--BIA

    A shellfish nursery is a capital project that is both proven and a 
cost effective technology that takes small oyster and clam seeds and 
provides a safe and controlled environment for the seeds to grow to a 
size that can survive integration onto a regular beach placement. 
Aquaculture is expected to provide almost two-thirds of the fish 
intended for global consumption by 2030. Aquaculture involves the 
breeding, rearing, and harvesting of freshwater and marine species of 
fish, shellfish, and aquatic plants. Producers farm in all types of 
water environments including ponds, rivers, lakes, oceans, and land-
based, closed recirculating-water systems. The Squaxin Island Tribe is 
uniquely positioned to meet the demand for increased seed production in 
the shellfish industry. Ocean conditions are affecting the shellfish 
industry as a whole; ranking ocean acidification as the top concern. 
Ocean acidification is making it hard for the tiny organisms to make it 
through the most important stage of their life. They may eat as much 
algae as they can, but with current ocean conditions, such as the 
decreasing pH of the water, they cannot eat enough to get the energy 
they need to grow their shell and increase body mass. In addition, due 
to weather and/or other environmental factors, the regional shellfish 
growers in southern Puget Sound continue to face a shortage of viable 
seed for their shellfish farms.
    Our original treaty-designated reservation, Squaxin Island, is a 
restricted-access area, and therefore an ideal location for such a 
nursery because it will not be disturbed by residents or recreational 
boaters. This project would be a capital cost of approximately $2.5 
million. The Tribal in-kind contribution to the effort would include 
land and shoreline and operating costs. Comparable land and shoreline, 
if privately owned, would be easily valued in the higher millions. The 
Squaxin southern Puget Sound oyster and clam nursery will be an 
extension of another project that was created through a U.S. Department 
of Agriculture appropriation two decades ago for the Lummi Tribe, which 
created an oyster and clam hatchery in Northern Puget Sound.
  3.  $2.5 Million Increase for Northwest Indian Treatment Center 
        (NWITC) Residential Program--IHS ``D3WXbi Palil'' meaning 
        ``Returning from the Dark, Deep Waters to the Light"

    The Squaxin Island Tribe has been operating the Northwest Indian 
Treatment Center (NWITC) since 1994. The Center, given the spiritual 
name ``D3WXbi Palil'' meaning ``Returning from the Dark, Deep Waters to 
the Light'', is a residential chemical dependency treatment facility 
designed to serve Native American who have chronic relapse patterns 
related to unresolved grief and trauma. NWITC serves adult clients from 
Tribes located in Oregon, Washington and Idaho. Since the original 
Congressional set-aside in the IHS budget for alcohol and substance 
abuse treatment for residential facilities and placement contracts with 
third-party agencies in 1993, NWITC has not received an adequate 
increase in the base IHS budget. With the well-documented nation-wide 
rise in prescription opioid and heroin abuse, it is more critical than 
ever to increase the NWITC's annual base in order to sustain the 
current services to the Tribes of the Northwest. An increase of $2.5 
million would restore lost purchasing power, ensure adequate baseline 
operating funds and allow NWITC to continue to meet the needs of Native 
Americans and their communities.

REGIONAL Requests:

  1.  Fully support the budget requests from the Affiliated Tribes of 
        Northwest Washington (ATNI) and the Northwest Portland Area 
        Indian Health Board (NPAIHB) and the Northwest Indian Fisheries 
        Commission (NWIFC)

NATIONAL REQUESTS and Recommendations--Bureau of Indian Affairs:

    1.  Continue to fully fund Contract Support Costs for BIA and 
authorize reclassification of BIA CSC to Mandatory [Permanent) Funding 
beginning in fiscal year 2018
    2.  +$4.5 million increase for Rights Protection Implementation to 
increase funding to $56.5 million This Subactivity Account has a clear 
and direct relationship with the Federal trust obligation to Tribes. 
This program ensures compliance with Federal court orders by 
implementing effective Tribal self-regulatory and co-management 
systems. Contract agreements are designed to assure proper regulation 
and management of off-reservation fish, wildlife, shellfish, and plant 
gathering activities, provide conservation enforcement, and perform the 
necessary assessment and habitat protection activities that help ensure 
abundant and healthy populations of ceded territory resources. The 
benefits of these programs accrue not only to Tribes, but to the larger 
communities as well, because protection and enhancement of ceded 
territory natural resources and their habitats benefit all users of 
those resources.
    3.  Fully Fund Fixed Costs and Tribal Pay Costs--Partial funding or 
failing to fund Pay Costs for Tribes has devastated Tribal communities 
by causing critical job losses. Over 900 Tribal jobs have been lost and 
an estimated 300 more jobs will be permanently lost on an annual basis 
if 100 percent Pay Costs are not provided. The Tribal losses are being 
further exacerbated by recent projections of costs that have been 
significantly underestimated. We strongly urge full funding of fixed 
costs and Tribal pay costs.
    4.  Increase Tribal Base Funding (instead of through grants)--Grant 
funding, particularly inside the BIA, is not consistent with the intent 
of Tribal self-determination. Tribal leaders have grown increasingly 
frustrated by the increase in Indian Affairs funding offer through 
grants. Allocating new funds via grants marginalizes and impedes Tribal 
Self-Determination and Self-Governance. Provide increases via Tribal 
base funding instead of through grants to Tribal governments.
    5.  Fully fund all the provisions of the Tribal Law and Order Act 
of 2010 and the Violence Against Women Act

NATIONAL Requests and Recommendations--Indian Health Service:

    1.  Continue to fully fund Contract Support Costs for IHS and 
authorize reclassification of IHS CSC to Mandatory [Permanent] Funding 
beginning in fiscal year 2018
    2.  IHS mandatory funding (maintaining current services)--Provide 
an increase of $314.9 million over the fiscal year 2017 budget request. 
If these mandatory requirements are not funded, Tribes have no choice 
but to cut health services, which further reduces the quantity and 
quality of healthcare services available to American Indian/Alaskan 
Native (AI/AN) people.
    3.  Purchased and Referred Care (PRC)--Provide an increase of 
$474.4 million. The Purchased/Referred Care program pays for urgent and 
emergent and other critical services that are not directly available 
through IHS and Tribally-operated health programs when no IHS direct 
care facility exists, or the direct care facility cannot provide the 
required emergency or specialty care, or the facility has more demand 
for services than it can currently meet.

    Squaxin Island Tribe supports the National Budget Priorities of the 
National Congress of American Indians (NCAI) and the National Indian 
Health Board (NIHB).

    Thank you for inviting the Squaxin Island Tribe to testify on these 
fiscal year 2018 budgets.
                                 ______
                                 
          Prepared Statement of the Standing Rock Sioux Tribe
    The Standing Rock Sioux Tribe appreciates the opportunity to submit 
written testimony concerning the President's fiscal year 2018 budget 
for the Indian programs within the Department of the Interior and the 
Indian Health Service. We would like to express our appreciation to 
this subcommittee for its support of Indian Tribes. Our testimony will 
focus on law enforcement, education, and healthcare.
    The Standing Rock Sioux Tribe has a government to government 
relationship with the United States of America, reflected in our 
Treaties which were signed in 1851 and 1868. These Treaties underscore 
the ongoing promises and obligations of the United States to the Tribe, 
and our testimony today is submitted with those promises and 
obligations in mind.
    The Standing Rock Sioux Reservation encompasses 2.3 million acres 
in North and South Dakota. The Reservation's population--approximately 
8,500 Tribal members and 2,000 non-members--reside in eight districts, 
and in smaller communities. The Tribe's primary industries are cattle 
ranching and farming. The Tribe struggles to provide essential 
governmental services to our members. The Tribe's desire is to provide 
jobs and improve the economic standard of living on our Reservation. We 
operate two modest Tribal casinos, and a small number of additional 
Tribal businesses, including Standing Rock Propane and Standing Rock 
Telecommunications, which provide needed services on the Reservation. 
Casino revenue is used to help the Tribe supplement services and 
programs for our members, but those revenues are modest and our 
challenges and needs are far greater than our resources.
    Despite the Tribe's best efforts, our unemployment rate remains 
above 50 percent. In fact, over 40 percent of Indian families on our 
Reservation live in poverty--more than triple the average U.S. poverty 
rate. The disparity is worse for children, as 52 percent of the 
Reservation population under age 18 lives below poverty, compared to 16 
percent and 19 percent in North and South Dakota, respectively. The 
Federal programs established and promised by treaty to aid Tribes and 
their members are essential. We ask the government to honor its 
commitments by adequately funding these Federal programs enacted for 
our benefit, so that our members may enjoy a standard of living 
comparable to that enjoyed by the rest of the Nation.

    Our specific requests are as follows:

    BIA--Public Safety and Justice. Public safety is a priority for the 
Tribe. We applaud the final fiscal year 2017 enacted appropriations 
levels for Public Safety and Justice totaling $385.735 million, and 
urge the subcommittee to reject the Administration's unwarranted 
reductions and continue to support increases for next year. As you 
know, funding is essential for public safety in Indian Country.

          Law Enforcement: The Tribe has seen firsthand that adequate 
        law enforcement funding was key to reducing crime. A number of 
        years ago, the Standing Rock Sioux Tribe was selected to 
        participate in the High Priority Program Goals initiative, 
        which dramatically increased law enforcement positions on our 
        Reservation. This had a significant positive impact in reducing 
        crime. Increased numbers of police officers allowed pro-active 
        policing rather than reactive policing. This initiative enabled 
        officers to be assigned within each Reservation community, 
        which meant quicker response time to calls and more positive 
        relationships between law enforcement officers and the 
        communities they served. The increased law enforcement presence 
        and patrols has deterred crime and resulted in our members 
        feeling safer. The data confirms this. When compared to the 
        number of violent crimes (homicide, rape, robbery, assault) 
        that occurred between 2007 and 2009, the additional staffing 
        reduced such crimes by approximately: 7 percent in 2010, 11 
        percent in 2011, and 15-19 percent in 2012. The initiative 
        demonstrated the critical importance that adequate law 
        enforcement staffing can have in our community.
          HPPG ended after fiscal year 2013 and the Tribe's law 
        enforcement personnel were reduced from the numbers that served 
        us so well. We strongly support an increase in funding for 
        fiscal year 2018 for BIA law enforcement personnel. It makes no 
        sense that these programs would not be funded in perpetuity 
        since they have been demonstrated to work to reduce crime in 
        Indian country.

          Youth Corrections: In December 2010, the Tribe successfully 
        completed construction of a secure 18-bed juvenile detention 
        facility so that Tribal youth offenders may remain on the 
        Reservation and receive culturally appropriate services if they 
        must be incarcerated. After more than 5 years after the 
        completion of construction, the detention center has finally 
        opened. This facility is called the ``Youth Services Center''. 
        With limited funds, only the secure portion of the plan was 
        completed so the facility is not being utilized as we 
        envisioned for our youth. The Tribe contributed $2 million of 
        Tribal funds to supplement $5 million in Justice Department 
        funds to build this facility. Over time this Tribally-owned 
        facility will save the BIA a great deal of money that now pays 
        other contract facilities to house our youth offenders. Now 
        that the Tribe is operating the detention center, our law 
        enforcement can avoid taking youth offenders hundreds of miles 
        to off-reservation facilities, and depriving our communities of 
        law enforcement officers. We strongly suggest the BIA allow 
        greater flexibility for Tribes to use these facilities in 
        innovative ways by supplementing detention with alternatives to 
        incarceration, such as probation with mandatory counseling and 
        substance abuse counseling and treatment. The fiscal year 2017 
        enacted budget included $96.507 million for the BIA Detention 
        and Corrections. We request that you provide for at least this 
        amount, and include an increase in fiscal year 2018 to keep 
        pace with inflation and cost of living increases for staff.

          Adult Corrections: The BIA Office of Justice Services 
        operates an antiquated 48-bed adult detention center for male 
        and female inmates in Fort Yates on our Reservation. The 
        detention center is a linear style facility which, because of 
        its design, is very staff intensive. The jail was built in the 
        1960's and has long outlived its utility. Renovated in the 
        1980's and again in the 1990's, the jail fails to comply with 
        most contemporary detention standards. The jail population is 
        frequently two to three times above the rated bed capacity. To 
        alleviate jail crowding, BIA OJS contracts bed space for long 
        term adult inmates in a facility that is a 772-mile round trip 
        from the reservation. Our Tribal Court is forced to release 
        prisoners early to alleviate jail crowding just to make room 
        for more prisoners. This sends the wrong message to criminals. 
        We request that the committee consider modernizing our 
        detention center and provide for adequate Operation and 
        Maintenance funding which is wholly inadequate and contributes 
        to the premature deterioration of Tribally-owned and BIA-owned 
        facilities.

          Tribal Courts: We support an increase to the modest funding 
        appropriated for the Tribal Courts Program. The Standing Rock 
        Tribal Court is an independent branch of government consisting 
        of a Supreme Court, Civil Court, Criminal Court, and Children's 
        Court. Key positions in the Tribal Court require licensed 
        attorneys: the Chief Judge, Associate Chief Judge, Chief 
        Prosecutor, and Public Defender. The Supreme Court consists of 
        three Justices, two of whom must be a licensed attorney. Our 
        Tribe cannot effectively support these courts with our small 
        BIA allocation, even when heavily subsidized by the Tribe. And 
        yet in order to use our Tribe's authorities provided under the 
        Violence Against Women Act of 2013, Sex Offender Registration 
        and Offender Act, and the Tribal Law and Order Act, we must 
        continue to meet appropriate standards. Our Tribal courts are 
        also crowded, even when spread across three separate buildings. 
        The main courthouse outgrew its ability to meet our needs years 
        ago and the lack of space severely limits our ability to 
        adequately handle the Tribal Court case load of 2,000 to 3,000 
        cases per year. Funding is critical to providing a safe and 
        secure center to house justice programs. We request funding to 
        adequately fund the judicial services needed for our Tribal 
        citizens and also additional resources to begin planning for an 
        adequate facility to operate our judicial branch.

    Bureau of Indian Education (BIE). We support an increase in fiscal 
year 2018 funding for BIE programs. Standing Rock relies on BIE funding 
for three Tribal grant schools--the Standing Rock Community School (K-
12), Sitting Bull School (K-8), and Rock Creek School (K-8). The 
Standing Rock Community School is operated through a Joint Powers 
Agreement between the Standing Rock Tribal Grant School and the Fort 
Yates Public School District. The Fort Yates Public School District, 
like other public schools on the Reservation (Cannonball, Selfridge, 
McLaughlin, McIntosh, and Wakpala), depends on Federal impact aid to 
cover the costs of the public school's share of the school operations. 
The children in the schools on the Reservation are among the most at-
risk students in the Nation. At seven out of eight Public and Tribal 
Grant Schools on our Reservation, 100 percent of the students are 
eligible for the Free or Reduced Lunch Program. At the remaining 
school, 90 percent of students are eligible for the Free or Reduced 
Lunch Program. The high rate of our student eligibility for the Free or 
Reduced Lunch Program documents that the majority of our families live 
at or below poverty level.
    A critical source of funds for the operation of our Tribal grant 
schools are the Indian School Equalization Program (ISEP) Formula 
funds. The funds cover the costs of the schools' instructional 
programs, including salaries for teachers, teacher aides, school 
administrative staff and other operational costs. ISEP has not seen any 
meaningful increase in years, and as a result, there has been a 
significant negative impact on the effectiveness of the schools' 
instructional programs. Academic programs are marginal at best and 
provide limited services to the students. It has become more difficult 
to attract and retain qualified staff. If the schools serving Indian 
children are to be effective and if our students are to succeed, and be 
college and career ready, ISEP funding must be increased.
    The Administration's near flat line funding for virtually all 
aspects of BIE programs does not account for population growth, 
increased costs, or inflation. Student Transportation funding, intended 
to cover the costs of buses, fuel, maintenance, vehicle replacements, 
and drivers, has remained at the same level for years. Proposed cuts to 
BIE funding are unjustified. The substantial increases in fuel costs 
alone make it impossible to cover such costs. For Standing Rock, funds 
are further strained because we are a rural community, where bus runs 
for many of our students may take 1= to 2 hours each way and can 
include travel on unimproved roads. These factors result in higher 
maintenance costs and shorter vehicle life. A substantial increase in 
funds for Student Transportation is long overdue.
    The same is true for School Facility Operations and Maintenance 
which is drastically under-funded. In fact, O&M budgets are currently 
constrained at 40 percent of need. This also holds true for School 
Improvement and Repair. We urge this subcommittee to strongly support 
an increase, not only for Facility Operations and Maintenance and 
School Improvement and Repair, but for School Construction as well. 
Indeed, one of our Tribal grant schools, the Rock Creek School, is more 
than 100 years old and badly needs to be replaced. Federal funds to 
replace ancient schools--like Rock Creek--are essential. Funding for 
School Facility Operations and Maintenance and School Improvement and 
Repair, as well as School Construction should be substantially 
increased. We are also very concerned about the list of new schools 
which have been slated to be constructed. Not a single school from the 
Great Plains made that list, although schools from our region comprise 
one-third of all BIE schools. It is clear that the Bureau of Indian 
Education has discretion to select these schools, and they have used 
that discretion to effectively shut out schools in our region for the 
next decade. We ask the subcommittee to investigate and reconsider the 
existing process which we see as unfair and unlikely to serve our 
children for decades.
    We also urge the subcommittee to support an increase in funding for 
Scholarships. Because of the unmet need, the Tribe spends $1 million in 
Tribal funds annually to supplement this program and gives grants of 
$3,000-$3,500 to aid our students attending colleges and vocational 
schools. But even with this, the majority of our scholarship recipients 
have unmet financial need varying from $100 to $17,000.

    Indian Health Service. We greatly appreciate the $232 million 
increase Congress provided in IHS funding for fiscal year 2017.We 
depend on IHS to care for our 16,000 enrolled Tribal members, many of 
whom suffer from diabetes, heart disease and hypertension. We are 
especially concerned about our region. Although we are not at risk of 
losing certification under the Center for Medicaid Services, we hope 
the IHS can continue to provide quality support and timely processing 
of the basics such as Human Resources, Budget responses, and 
Procurement. We also fully support increased funding for behavioral 
health, especially the youth focused programming.
    We recommend that Congress prioritize the IHS preventive healthcare 
service programs, such as the diabetes grant program, and increase 
funding for these programs above the modest increase provided for 
fiscal year 2017, while supporting and protecting the Administration's 
other IHS funding priorities, especially funding for healthcare 
personnel. In many instances, if additional funding for clinical 
services and preventive health programs can be made available, 
illnesses and injuries could be treated at their initial stages, or 
prevented altogether. This is especially important at Standing Rock, 
where many of our members' health problems could be addressed if timely 
preventive care were available. We also support fiscal year 2018 
increases in Dental Health, Mental Health and Purchased/Referred Care 
which has been historically underfunded.

    Tribal Historic Preservation Offices. We strongly support an 
addition of at least $2 million for Tribal Historic Preservation 
Offices out of the National Park Service. This modest increase will 
help us to protect historic and culturally significant resources 
throughout the region. Like so many other programs funded under this 
budget, these programs provide jobs to Tribal members.
                                 ______
                                 
      Prepared Statement of the Sustainable Urban Forest Coalition
Dear Chairman Murkowski and Ranking Member Udall, and Honorable 
Subcommittee Members:

    The Sustainable Urban Forests Coalition (SUFC) is comprised of more 
than 30 national organizations and corporations representing hundreds 
of thousands of professionals and millions of supporters who care and 
support sustainable trees and green infrastructure where people live. 
Collectively, we are asking for your support for several programs under 
the Interior subcommittee's jurisdiction that support urban and 
community forests and green infrastructure.
    Our Nation's 138 million acres of urban and community forest lands 
affect over 80 percent of the U.S. population and are vital to creating 
and maintaining healthy, livable communities of all sizes by providing 
many scientifically proven social, economic, and environmental benefits 
to people. The ability to mitigate air pollution, reduce energy 
consumption, mitigate the heat island effect, improve human health, and 
reduce storm water runoff have directly or indirectly reduced costs in 
communities by millions of dollars. The collective value and benefits 
of community trees equals over $10 billion nationwide. With a projected 
90 percent of Americans living in urbanized areas by 2050, investing in 
trees to create livable communities needs to happen now.
    A key goal in the 10-year National Urban and Community Forestry 
Action Plan (facilitated and stewarded by the National Urban and 
Community Forestry Advisory Council) is to improve the Nation's urban 
and community forest management, maintenance, and stewardship. The 
green jobs related to trees and landscapes is a $9 billion-dollar 
industry and is poised to grow and create local jobs that cannot be 
outsourced.
    SUFC is conscious of the Federal budget challenges, and greatly 
appreciates the fiscal year 2017 funding levels provided by this 
subcommittee. Respectfully, we ask you to reject the drastic cuts 
proposed in the President's fiscal year 2018 budget. We are deeply 
concerned by the zeroing out of important and effective programs like 
Urban and Community Forestry, Landscape Scale Restoration, and 
Community Forests and Open Space Conservation. Defunding or severely 
cutting these programs will have profound and lasting repercussions on 
people and communities across the country--particularly those in rural 
areas where these funds are essential.
            usda forest service: state and private forestry
Urban and Community Forestry Program (U&CF)
    U&CF directly assists State government, nonprofit organizations and 
partners that manage and steward our Nation's urban and community 
forests. Working with the State forestry agencies, the program provides 
technical, financial, research, and educational support and services to 
local government, nonprofit organizations, community groups, 
educational institutions, and Tribal governments.
    U&CF helps cities and towns across the Nation prepare for storms 
and other disturbance events, contain threats from native and invasive 
pests, and improve tree infrastructure and forest cover. Properly 
managed community forests offer towns and municipalities a cost-
effective way to manage stormwater runoff, reduce heating and cooling 
costs, and attract more tourists and consumers. They help communities 
avoid storm and disaster costs through preparedness and training, and 
maximize the economic, social, and ecological benefits of their tree 
resources.
    In fiscal year 2016, U&CF reached over 7,800 communities and 200+ 
million people in all 50 States, the District of Columbia, US 
Territories, and affiliated Pacific Island Nations. U&CF is a high-
impact program and a smart investment as Federal support is often 
leveraged 2:1 (or in many cases significantly more) by States and 
partner organizations. U&CF engages citizens in cities and towns, 
brings together diverse partners, public and private resources, and 
demonstrates that Federal investment can have huge and lasting impacts 
on communities of all sizes.
    SUFC is deeply concerned by the President's proposal to defund the 
U&CF program in fiscal year 2018. The 50 percent funding decrease 
originally proposed in the President's fiscal year 2017 budget would 
have had severe negative impacts in States and territories across the 
country. But now, zeroing out this important program would completely 
erode the capacity that has been developed in cities and towns of all 
sizes and jeopardize many local public and private partnerships and 
collaborative projects in which Federal assistance is essential.

-- SUFC recommends the Urban and Community Forestry Program be funded 
at $31.3 million in fiscal year 2018.
Landscape Scale Restoration (LSR)
    The LSR program strategically prioritizes resources by 
competitively allocating Cooperative Forestry Assistance Act funds. It 
focuses on targeting Federal investments--leveraged by State and local 
resources--to areas of greatest need, highest value, or strongest 
innovation potential, as stipulated in each State Forest Action Plan. 
Urban and community forestry projects have been supported by LSR in the 
past. However, we want to ensure that LSR is not a substitute to the 
Urban and Community Forestry program, but a supplement.

-- SUFC recommends funding the Landscape Scale Restoration program at 
$23.5 million in fiscal year 2018.
Community Forests and Open Space Conservation Program (CFP)
    CFP has made substantial progress in preserving forests by 
increasing opportunities for Americans to connect with forests in their 
own communities and fostering new public-private partnerships. CFP has 
supported nearly three dozen community forest projects in cities and 
towns across 17 States and territories. In the latest round of CFP 
grants, project partners leveraged $10.6 million in Federal funds to 
secure $34.5 million in non-Federal funding, resulting in more than 
15,000 acres of community forests. This impressive leveraging ratio 
demonstrates the willingness of local entities to match Federal funding 
with significant commitments of funding and other resources.

-- SUFC recommends an increase in funds to $5 million in fiscal year 
2018.
Forest Health Management
    Forests across the country are threatened by insects and disease 
pathogens introduced from abroad as an unwanted side effect of 
international trade. The damage usually starts in urban forests because 
most imported goods enter this country through urban ports. As a 
result, municipal governments across the country are spending an 
estimated $3 billion each year to remove trees on city property killed 
by non-native pests. Homeowners are spending an additional $1 billion 
to remove and replace trees on their properties and are absorbing an 
additional $1.5 billion in reduced property values. The pests do not 
stay in the cities, however. They spread to the rural and wildland 
forests and threaten their many values. While preventing introductions 
are the desired approach, it is essential that the U.S. Forest Service 
initiate programs countering these pests as soon as they are detected. 
Only such prompt and aggressive actions can protect urban, rural, and 
wildland forests from massive pest spread and tree devastation. This 
program provides essential expertise and assistance to State and 
municipal agencies and private landowners working to prevent these 
pests' spread and to develop effective strategies to minimize the 
damage they cause.

-- SUFC recommends $48 million for cooperative lands programs under the 
Forest Health Management program.

           usda forest service: forest and rangeland research
-- SUFC urges the subcommittee to provide $303 million for the overall 
R&D program.
Urban and Community Forestry Research
    The Forest Service Research and Development (R&D) program provides 
critical financial support for urban forestry research activities to 
develop information and tools for understanding conditions and trends 
in our Nation's urban and community forests. U.S. Forest Service 
researchers have made huge strides in recent years through 
collaborative efforts to develop new tools, such as i-Tree, for mapping 
current tree cover, assessing trends, developing local strategies, and 
building greater understanding of the environmental, economic, and 
social services that trees and forests provide to communities.

-- We urge the subcommittee to continue including language in Interior 
Appropriations reports encouraging the Forest Service to maintain a 
strong and vibrant urban forest research program.
Non-native Insects and Diseases Research
    Among the major research challenges facing R&D is the destruction 
of our Nation's urban forests caused by non-native insects and 
diseases. People who value urban forests join supporters of rural and 
wildland forests in depending on Forest Service R&D to develop better 
tools for pest detection and protective strategies including chemical 
and biological controls and breeding of trees resistant to pests. 
Currently, however, R&D provides only about $5 million for research on 
non-native insects and diseases--less than 2 percent of its total 
budget.

-- In the absence of a budget line item for invasive species research, 
we urge the subcommittee to include language in its Interior 
Appropriations report encouraging the Forest Service to increase 
funding for research targeting non-native insects and pathogens.

Urban Forests in Forest Inventory and Analysis (FIA)
    The collaborative efforts between SUFC and the U.S. Forest Service 
brought urban forest data into the mainstream of the agency's national 
data-collection program. FIA has long provided the Nation's forest 
census, but it had not historically included urban areas because of its 
definition of forests.

-- We ask the subcommittee to encourage the Forest Service to continue 
and strengthen its efforts to integrate urban forest data into FIA so 
that its critical data-collection efforts address all of our Nation's 
forests, including our current and expanding 138 million acres of urban 
forest.
                    environmental protection agency
Clean Water State Revolving Funds (CWSRF)
    Green infrastructure, including urban forests, can be a cost-
effective and resilient approach to managing stormwater. The use of 
green infrastructure for stormwater control also provides many 
community co-benefits enumerated above. SUFC is pleased that EPA 
supports the use of green infrastructure for stormwater management and 
that green infrastructure is an eligible use under the CWSRF--a 
critical financing program for local communities investing in water 
infrastructure. CWSRF funding was maintained in the President's 
Preliminary fiscal year 2018 Budget proposal at the fiscal year 2017 
level of $1.394 billion.

-- SUFC supports robust funding for CWSRF along with efforts to expand 
the use of green infrastructure to 20 percent to meet Clean Water Act 
goals.
                       the national park service
Outdoor Recreation Legacy Partnership Program (ORLPP)
    The State and Local Assistance Program provides matching grants to 
States and localities for protection and development of parks and 
recreation resources and is the primary Federal investment tool to 
ensure that families have easy access to urban forests in parks and 
open space, and neighborhood recreation resources. This nationally 
competitive program complements the existing State and local assistance 
program by creating opportunities for outdoor play as well as 
developing or enhancing outdoor recreation partnerships in cities.

-- SUFC requests $110 million for the State and local assistance 
program, which includes $12 million for ORLPP. 

            Sincerely,
                              sufc members
Alliance for Community Trees
American Forests
American Planning Association
American Rivers
American Society of Consulting Arborists
American Society of Landscape Architects
Arbor Day Foundation
Center for Invasive Species Prevention
The Davey Foundation
International Society of Arboriculture
Keep America Beautiful
National Association of Clean Water Agencies
National Association of Conservation Districts
National Association of State Foresters
National Recreation and Parks Association
The Nature Conservancy
Society of American Foresters
Society of Municipal Arborists
Tree Care Industry Association
TREE Fund
The Trust for Public Land
Water Environment Federation
Wildlife Habitat Council
                               supporters
Alleghany Society of American Foresters
California ReLeaf
California Urban Forests Council
Canopy
Casey Trees
Center for Climate Change and Health
City of Seattle's Office of Sustainability and Environment
Colorado Tree Coalition
Community Services Employment Training
Fathers and Families of San Joaquin
Friends of Carmel Forest
Friends of the Urban Forest
From Lot to Spot
Greenspace--The Cambria Land Trust
Huntington Beach Tree Society
Industrial District Green
Just One Tree
Leibman Associates, Inc.
Los Angeles Beautification Team
Our City Forest
Parent Pioneers
Pinchot Institute for Conservation
Richmond Trees
Sacramento Tree Foundation
Save Our Forest/Fallbrook Land Conservancy
Solano Advocates Green Environments
Sonoma Ecology Center
The Tree Foundation of Kern
Tree Fresno
Tree San Diego
Victoria Avenue Forever
West Coast Arborists
Western Chapter-International Society of Arboriculture
Woodland Tree Foundation
Woodstock Tree Board
Your Children's Trees
                      
                                 ______
                                 
           Prepared Statement of the Tanana Chiefs Conference
    The Tanana Chiefs Conference (TCC) appreciates the opportunity to 
submit written testimony to the subcommittee regarding our priorities 
for fiscal year 2018 concerning appropriations for the Bureau of Indian 
Affairs (BIA) and Indian Health Service (IHS). We are grateful for this 
subcommittee's bipartisanship--reflected as recently as the final 
fiscal year 2017 appropriations measure--and for the positive results 
the subcommittee has made possible in Alaska Native villages and 
throughout Indian country.
    TCC is a non-profit intertribal consortium of 39 federally-
recognized Indian Tribes and 41 communities located across Alaska's 
interior. TCC serves approximately 13,000 Alaska Natives in Fairbanks 
where TCC headquarters is located and in the rural villages in Alaska's 
vast interior, strung along the 1,400 mile Yukon River and its 
tributaries. Our service area encompasses 235,000 square miles, about 
the size of Texas. Our most eastern village is Eagle, about four miles 
from the Canadian border. Our most western village is Anvik, about 60 
miles from the Bering Sea. Our 41 constituent villages are remote and 
they must overcome many challenges to build and sustain healthy 
communities. This subcommittee understands the critical element 
necessary to promote healthy communities and sustainable economies; 
community stability. With community stability, good results follow, 
like reduced crime, healthier families, better educated children, 
infrastructure and economic opportunity.
    Our written testimony focuses on the following four areas important 
to the Tribal leadership and the Tribal communities TCC serves: (1) 
improve Tribal healthcare quality and access; (2) expand public safety, 
Tribal court and realty services; (3) help Alaska Natives carry out 
sustainable fish management practices; and (4) promote economic 
development and job creation in rural Alaska villages.
    While TCC appreciates President Trump's recognition of the opioid 
epidemic and the need for public safety in his fiscal year 2018 
``America First'' Budget Blueprint, we cannot agree with his request to 
reduce spending for non-defense programs, including harmful and 
unwarranted cuts of 12 percent for the Department of the Interior and 
16 percent for the Department of Health and Human Services, including 
hundreds of millions of dollars in cuts to vital Tribal programs.
    This subcommittee has worked diligently, year after year, to 
increase funding in such critical areas as Tribal health, public 
safety, Contract Support Costs, education and construction in 
recognition of unmet Tribal needs and the resulting challenges Tribal 
communities face. We are very concerned that cuts to these programs may 
be combined with the loss of tens of millions in grants and awards to 
Tribes from HUD, USDA, DOJ and Education; grants that help us carry out 
our BIA- and IHS-funded programs. For rural interior Alaska Native 
communities, facing a State budget deficit for fiscal year 2018, 
Federal appropriations often make the difference between the success 
and failure of our efforts and, in turn, the wellness of our Tribal 
members.
         1. improve tribal health care quality and access (ihs)
    Increase IHS Services Budget. TCC greatly appreciates the $232 
million increase Congress included in the fiscal year 2017 budget for 
the Indian Health Service, especially the increases of $78 million for 
Hospitals and Clinics programs, $14 million for Purchased/Referred Care 
(P/RC), $13 million for Alcohol and Substance Abuse, $12 million for 
Mental Health, full reimbursement of Contract Support Costs (adding $80 
million), and $22 million increase for IHS Facilities needs for a 
combined appropriation of $5.04 billion for fiscal year 2017. 
Purchased/Referred Care (P/RC) funds are especially critical to us. We 
seek a significant increase in P/RC funds for fiscal year 2018. TCC is 
one of the only Tribal health entities in Alaska that does not have a 
regional hospital. Therefore, we rely heavily on P/RC funds to ensure 
that our patients receive comprehensive health services when we refer 
them to third-party service providers paid for with P/RC funds. For 
fiscal year 2018, we also request significant increases for Mental 
Health, Alcohol and Substance Abuse and Dental Health above the fiscal 
year 2017 enacted levels if we are to meet existing service 
requirements and expand patient health services to meet increasing 
healthcare needs.
    TCC remains deeply appreciative of the subcommittee's creative 
solution to the contract support cost problem to achieve full funding 
without jeopardizing program funding. We respectfully urge the 
subcommittee to continue with its current approach of employing a 
separate and indefinite appropriation. At the same time, we believe 
each agency should add two FTEs to manage the CSC account, engage with 
Tribes and provide robust analysis. IHS's error in estimating 2016 and 
2017 CSC requirements must not be repeated. Errors of that magnitude 
have direct consequences on the subcommittee's ability to appropriate 
funds that IHS, Tribes and Tribal organizations, such as TCC, require 
for the delivery of healthcare services.
    Increase Budget for the Small Ambulatory Program (SAP) and IHS' 
105(l) Leasing Program. We appreciate the appropriation of $5 million 
for the Small Ambulatory Program (SAP) for fiscal year 2017. We ask the 
subcommittee to at least double this figure for fiscal year 2018 so 
that an additional 5-8 Tribes can construct small ambulatory health 
clinics in their communities. For our remote Native villages, a hub 
clinic is sometimes hundreds of miles away from a patient. Too often, 
patients must be transported by medivac at great cost. Village clinics 
play an integral role in providing routine healthcare as well as live 
saving emergency services. In addition, we request the subcommittee to 
direct the IHS, in report language, to explore whether a small clinic 
should be built in one of our Native villages.
    We appreciate the $11 million provided for tribally-leased 
facilities in fiscal year 2017 (which includes $2 million from Direct 
Operations), but we understand these funds were intended to bring up 
the Village Built Clinic (VBC) lease amounts closer to the actual cost 
of operating those facilities. Thus, any 105(l) leases funded out of 
this increase in fiscal years 2017 and 2018 will only serves to keep 
VBC lease payments deficient. Since agency 105(l) lease payments should 
also not come out of program funds, TCC requests that the subcommittee 
create within the Direct Operations account a new subaccount to pay 
required 105(l) Tribal lease payments. The President's Budget asks 
Congress to legislatively override section 105(l) by inserting a 
``notwithstanding'' clause which would make all lease payments entirely 
discretionary with IHS. We urge the subcommittee to reject IHS's effort 
to repeal a key provision of the ISDEAA. If amendments are to be 
considered to the ISDEAA, it is the role and jurisdiction of the 
authorizing committees to consider the matter in the ordinary course.
    Increase funding for the IHS Domestic Violence Prevention Program 
(DVPP). We greatly appreciate Congress including a $4 million increase 
for the Domestic Violence Prevention Program (DVPP) for fiscal year 
2017. This increase will fund an additional 30 IHS, Tribal and urban 
Indian organizations (averaging $133,000/award). As the CDC has noted, 
one out of every two AI/AN woman will experience domestic violence and 
one out of every three AI/AN women will be sexually assaulted in her 
lifetime. The DVPP provides culturally appropriate domestic violence 
and sexual assault prevention and intervention resources to Tribal 
communities. It is well documented that women in Alaska's rural 
villages report rates of domestic violence that are 10 times higher 
than the rest of the country. We urge the subcommittee to support and 
significantly expand this successful and needed program in 2018.
 2. expand public safety, tribal court and realty services in interior 
                                 alaska
    TCC cannot stress enough the importance our Native village leaders 
place on providing their communities with the resources they require to 
supplement limited public safety services. As a Public Law 280 State, 
the State of Alaska has jurisdiction over crimes in Native American 
communities. The BIA, with limited law enforcement funds, prioritizes 
public safety funds in non Public Law 280 States in the incorrect 
assumption that Public Law 280 States are investing the resources and 
personnel required to ensure public safety and law enforcement in 
Native and rural communities. This is not the case. The Alaska 
Department of Public Safety is stretched thin and too few State 
troopers make routine patrols in Native communities. TCC has limited 
recurring funds to pay for our Village Public Safety Officer (VPSO) 
program which works in conjunction with Alaska State Troopers. Our 
VPSOs are the ``First Responders in the Last Frontier'' and they 
respond to emergency calls, fire, EMS and search and rescue.
    Due to limited BIA public safety funds, the role of Tribal Courts 
in Alaska Native villages is critical. It allows our villages to 
address public safety concerns at the community level--in a culturally 
appropriate way--that is more responsive to, and respectful of, local 
Tribal concerns. It seeks to heal and end criminal activity through a 
holistic approach, rather than through arrest, prosecution and 
incarceration, which perpetuates criminal and anti-social behavior and 
recidivism among Alaska Natives. We urge the subcommittee to reject the 
Administration's proposal to cut Tribal Court funding for Public Law 
280 States like Alaska and include an additional $10 million in fiscal 
year 2018, within BIA's Public Safety and Justice account for Tribal 
Courts (TPA) funding, and include report language that the increase 
should be used by BIA in Public Law 280 States, like Alaska.
    We adamantly oppose any cuts to BIA Real Estate and Trust Services 
Funding as unfortunately proposed by the Administration. The money used 
to compact real estate services with Tanana Chiefs and other Tribal 
providers of real estate and trust services is administered with an 
efficiency that could never be matched. We have a realty and probate 
staff of only five people who manage a land area larger than most of 
the States. They serve nearly 7,000 landowning clients, many thousands 
of acres, and oversee a long list of services from Federal probate to 
transactional real estate to trespass investigation. This week we have 
one staff member more than one hundred miles from the nearest 
community, traveling a dozen of these miles on foot, investigating the 
ongoing theft of resources from a 160 acre Native Allotment, another 
employee supplying landowner information to the Bureau of Land 
Management as a wildfire spreads, and yet another taking a witness 
statement from a 96 year old client in the hospital. That is the 
snapshot of a moment in this department where virtually all services 
related to land ownership, transfer, development, and protection are 
overseen by a handful of dedicated professionals with limited funding. 
We currently have a backlog of over 300 cases and as the original 
Tribal landowners age and pass away, they leave in their wake a rapidly 
increasing client base adding to the growing pile. Continued 
fractionation of land ownership means that the number of people 
dependent on our services increases with each passing year. Meanwhile, 
the funding stays stagnant. We have responded to growing numbers by 
taking on incredible workloads. These programs cannot withstand funding 
cuts, and in fact, funding should reflect the increasing population of 
clients. Please add at least $8 million to this account in fiscal year 
2018.
 3. help alaska natives carry out sustainable fish management practices
    It is the priority of every Alaska Native to continue traditional 
hunting and fishing practices which promote the social, cultural and 
spiritual wellness of our people. We want to share a success story that 
was borne out of Tribal sacrifice to illustrate why increased funding 
for the Tribal Management/Development Program is warranted in fiscal 
year 2018. It concerns Chinook Salmon (King Salmon) management along 
the Yukon River and tributaries where our Native villages are located. 
During the 1990s, the average run of King Salmon in the Yukon River was 
just below 300,000 fish. Runs began to decline in the 2000s. In 2013, 
the run plummeted to a record low 60,000 fish. The Native Alaska 
villages along the Yukon knew that it would fall to them to make 
sacrifices. In 2014, the Native villages of the Yukon River came 
together in St. Mary's, Alaska and for future generations imposed a 
fish moratorium on King Salmon. In 2015, the villages agreed to further 
conservation efforts and continued the moratorium. The villages also 
formed the Yukon River Inter-Tribal Fish Commission (YRITFC), which TCC 
supports.
    The self-imposed moratorium left Tribal members with little to no 
traditional King Salmon harvest. Due to their sacrifice, for the first 
time in over a decade, the United States met its escapement goal to 
Canada for King Salmon in 2014, and then exceeded their escapement goal 
in 2015, all to ensure the continued existence of the King Salmon in 
the Yukon River. In 2015, the run had rebounded to about 150,000 King 
Salmon. The sacrifice hurt Tribal members who depend on King Salmon for 
their subsistence. Forgoing fish camps in 2014 and 2015 was extremely 
difficult and a financial hardship on our members. It also harmed us 
culturally, for it is in fish camps that Alaska Native youth learn 
math, science, spirituality and how to fish from their elders. We 
cannot express how difficult a sacrifice this was for our members.
    On July 17, 2016, Alaska Lt. Governor Byron Mallott, Alaska Fish & 
Game Commissioner, Sam Cotton, and Rural Affairs Director, Albert 
Kookesh, joined TCC officials and myself on a four-day trip to tour 
interior villages on the Yukon River and listen to community members to 
get a better understanding of how to improve the management of the 
Chinook run. We noted to the Alaska State officials who accompanied us 
on our tour to fish camps and the villages of Tanana, Rampart, Stevens 
Village, Beaver, Fort Yukon, Circle and Eagle, that the Tribal members 
always fed us fish. Even though they had little to share, they gave us 
their best. Now, we ask you to do your best; honor the Commission--and 
the Alaska Native stakeholders--in their efforts to save Yukon's King 
Salmon by increasing BIA's Tribal Management/Development Program in 
fiscal year 2018 to $14.266 million, a modest increase of $3 million, 
and direct that half the increase address subsistence management in 
Alaska by Tribal entities like the Yukon River Inter-Tribal Fish 
Commission. Please sustain this effort annually so that the Commission 
can ensure the viability of King Salmon in the Yukon River and our 
traditional subsistence practices. Alaska's interior, like the coast, 
is under environmental threat from floods, bank erosion and wildfires. 
The Commission has demonstrated that it stands shoulder to shoulder 
with State and Federal fish management officials as a capable steward.
   4. promote economic development and job creation in rural alaska 
                                villages
    In 2016, through various support programs, we assisted nearly 200 
Tribal members in Fairbanks and in our Native villages with CDL 
classes, employment training in facility maintenance, flooring and 
cabinet installation, plumbing, plastic and cooper pipe fitting, 
wildland firefighting training, and cooking. We provided over 2,000 bus 
token to nearly 750 interior Tribal members in the city of Fairbanks 
who were searching for work, and gave nearly 2,000 free computer lab 
sessions to employment seekers. These are small, but helpful measures, 
and we ask this subcommittee to increase resources for BIA job training 
and retraining programs, and adult education programs in fiscal year 
2018. There is great dignity in learning a trade and providing for your 
family. Such investments yield tremendous returns by allowing our 
members to compete more effectively for jobs. Please provide meaningful 
increases to the BIA budget to help promote job creation in our rural 
Native villages, where work is seasonal and unemployment remains high. 
Our current resources are simply inadequate to the task at hand.
    Thank you for permitting TCC the opportunity to submit written 
testimony.
                                 
                                 ______
                                 
                         Teague Alexandra deg.
Prepared Statement of Alexandra Teague, Associate Professor, University 
                                of Idaho
Dear Senate Subcommittee on Interior, Environment, and Related 
Agencies:

    As a 2011 recipient of an NEA fellowship for poetry, I am writing 
to attest that this fellowship--which represents a miniscule fraction 
of the Federal Government's budget--was life-changing for me and for 
the many students whom I have subsequently taught. After many years as 
an adjunct community college instructor, who struggled financially and 
to find time for my own writing, receiving an NEA fellowship allowed me 
to focus on writing my second book of poetry, The Wise and Foolish 
Builders, and to secure a tenure-track position at University of Idaho, 
a land-grant institution that serves many first-generation college 
students.
    At University of Idaho, I have spent the past 6 years teaching a 
range of creative writing and literature classes that not only help 
build specialized creative writing skills, but as importantly, help 
students understand a wide range of others' stories and perspectives, 
and to express their own thoughts and experiences. I regularly hear in 
my student evaluations that the critical thinking and communication 
skills that my students gain in these courses helps them more 
compassionately and complexly understand the world in which they live--
and they apply these communication skills and perspectives to a wide 
range of future careers including high school and college teaching and 
law. Many of my students also go on to become published writers, whose 
stories of cancer survival, domestic abuse, and so many other subjects 
are vital for others to hear.
    Literature literally saves lives: I cannot count the number of 
students in my 20-year teaching career who have told me about hearing 
someone else's story through a literature or creative writing class 
that helped them understand some traumatic experience of their own and/
or gave them a reason to keep going and overcoming the challenges they 
faced (whether mental health or financial or of many other sorts). In 
my career, I have taught formerly (and currently) homeless students; 
students whose children had tragically died; students who were the 
first in their family to even finish high school, much less college; 
students who were living in neighborhoods where drive-by shootings were 
a daily occurrence. If we care about this country and its people (which 
frankly I worry the Federal Government has ceased to), then we should 
care that we know how to communicate across difference and hear one 
another and give one another hope.
    And that is what the NEA helps to support in so many ways, and at 
such a small financial cost in comparison to the vast social benefit. 
Please, from the bottom of my heart and my students', if you have ever 
read a story that mattered to you--if you care at all about the written 
word or self expression--do not cut these vital fellowships.
                                 ______
                                 
         Prepared Statement of the Theatre Communications Group
    Mr. Chairman and distinguished Members of the subcommittee, Theatre 
Communications Group--the national service organization for the 
American theatre--is grateful for this opportunity to submit testimony 
on behalf of our 521 not-for-profit member theatres across the country 
and the nearly 30 million audience members that the theatre community 
serves.

-- We urge you to support funding at $155 million for the National 
Endowment for the Arts for fiscal year 18.

    The entire not-for-profit arts industry stimulates the economy, 
creates jobs, and attracts tourism dollars. The not-for-profit arts 
generate $135.2 billion annually in economic activity, support 4.13 
million jobs, and return $22.3 billion in government revenue. Art 
museums, exhibits, and festivals combine with performances of theatre, 
dance, opera, and music to draw tourists and their consumer dollars to 
communities nationwide. Federal funding for the arts creates a 
significant return, generating nine dollars in matching funds for each 
Federal dollar awarded, and is clearly an investment in the economic 
health of America. In an economy where corporate donations and 
foundation grants to the arts are diminished and increased ticket 
prices would undermine efforts to broaden and diversify audiences, 
these Federal funds simply cannot be replaced. Maintaining the strength 
of the not-for-profit sector, along with the commercial sector, is 
vital to supporting the economic health of our Nation.
    Our country's not-for-profit theatres present new works and serve 
as catalysts for economic growth in their local communities. These 
theatres also nurture and provide artistic homes for the development of 
the current generation of acclaimed writers, actors, directors, and 
designers working in regional theatre, on Broadway, and in the film and 
television industries. Our theatres develop innovative educational 
activities and outreach programs, providing millions of young people, 
including ``at-risk'' youth, with important skills for the future by 
expanding their creativity and developing problem-solving, reasoning, 
and communication abilities--preparing today's students to become 
tomorrow's citizens. At the same time, theatres have become 
increasingly responsive to their communities, serving as healing forces 
in difficult times and producing work that reflects and celebrates the 
strength of our Nation's diversity.

    Here are some recent examples of NEA grants and their community 
impact:

    The NEA has awarded a $15,000 grant to Touchstone Theatre in 
Bethlehem, Pennsylvania to support its Young Playwrights' Lab, bringing 
an eight-week playwriting residency to students in 3rd--12th grade. 
Through this grant, Touchstone partnered with 10 public schools in 
Allentown, Bethlehem, and Easton to offer an afterschool residency, 
reaching approximately 150 students. Twice a week for eight weeks 
during 90-minute sessions, two professional teaching artists guide 
students through theatre, journaling exercises, and workshops. Students 
learn to create dialogue, refine plot, and enhance their editing 
ability. The supportive workshop environment helps students improve 
communication and literacy skills, build self-esteem, and develop 
creative voices. At the end of the Lab, a handful of student-written 
plays are selected and professionally produced in the annual Young 
Playwrights' Festival. All Young Playwrights' Lab student participants 
receive complimentary tickets to attend the Young Playwrights' 
Festival.
    The Coterie Theatre in Kansas City, Missouri received a $10,000 Art 
Works grant to support the development and production of Imaginary 
Friends by Laurie Brooks. The theatre commissioned Brooks to write a 
play for teens and families that is adapted from a short story by her 
brother, award-winning fantasy author Terry Brooks. The story centers 
on a young teen with a serious illness who must face a demon alone. In 
the play, playwright Brooks will further develop these themes and add a 
new work of fantasy to the canon of dramatic literature aimed at teens 
and pre-teens. Imaginary Friends will open on January 26, 2018 for 28 
performances and is expected to reach over 5,800 students and educators 
as well as families and individuals. The Coterie has an established, 
diverse audience drawn from all demographic areas in a city that sits 
on the State line between Missouri and Kansas, with 50 percent of its 
audiences drawn from each side. As the theatre is centrally located, 
the play will reach urban, suburban, and rural communities alike. 
Approximately 200 in-school residencies will occur to prepare students 
for the play's topics. Interactive forums after each performance will 
further explore the play's themes
    With a $10,000 Art Works grant from the NEA, Idaho Shakespeare 
Festival was able to grow its Access Program and open the door to enjoy 
the professional theatre arts for over 30,000 people ages 5 to 100, 
many of whom would otherwise not have been able to attend. The program 
includes a tour--with over 100 performances for elementary students 
across the State of Idaho--that features an engaging new script, full 
set, costumes, and sound. Additionally, the program creates access for 
students of all ages, the deaf and hard-of-hearing, elderly on fixed 
income, at-risk youth, refugees, wounded veterans (as well as their 
families), and volunteer service providers to attend the Festival's 
mainstage season. By integrating those with special needs into its 
audience, Idaho Shakespeare Festival's Access Program has significantly 
broadened the demographic makeup and interest of those able to 
experience performances.
    Perseverance Theatre, which produces theatre by and for the people 
of Alaska, received a $10,000 Art Works grant from the NEA for the 
world premiere of They Don't Talk Back, by Frank Katasse of the Alaskan 
Tlingit Tribe, directed by Randy Reinholz of the Choctaw Tribe. The 
NEA's funding helps local communities across Alaska connect with their 
past and with one another. The play explores issues of family, coming 
of age, and honoring one's culture in the face of change as a young 
Tlingit man from Juneau returns to his family's village. Contemporary 
characters are paired with traditional Tlingit music and storytelling. 
The themes of the play are lifelong love, the impact of military 
service on veterans and their families, and the challenges of keeping 
family ties strong in the modern world. They Don't Talk Back will have 
19 performances in Juneau and will have 9 more in Anchorage, reaching 
approximately 5,000 audience members across Alaska. Outreach activities 
will include four pay-what-you-can performances; a performance in honor 
of Alaska Legislative Appreciation Night; and discounted tickets for 
seniors, students, and military personnel.
    These are only a few examples of the kinds of extraordinary 
programs supported by the National Endowment for the Arts. Indeed, the 
Endowment's Theatre Program is able to fund only 60 percent of the 
applications it receives, so 40 percent of applying theatres are turned 
away--in part because available funds are insufficient. Theatre 
Communications Group urges you to support a funding level of $155 
million for fiscal year 18 for the NEA; to maintain citizen access to 
the cultural, educational, and economic benefits of the arts; and to 
advance creativity and innovation in communities across the United 
States.
    The arts infrastructure of the United States is critical to the 
Nation's well-being and economic vitality. It is supported by a 
remarkable combination of government, business, foundation, and 
individual donors and represents a striking example of Federal/State/
private partnership. Federal support for the arts provides a measure of 
stability for arts programs nationwide and is critical at a time when 
other sources of funding are diminished. Further, the American public 
favors spending Federal tax dollars in support of the arts.
    The NEA is currently funded at $150 million in the fiscal year 17 
budget, and despite the President's proposal for a mid-year cut, the 
subcommittee and Congress approved a $2 million increase. We thank the 
subcommittee for its leadership in supporting the work of the NEA. 
Please stand firm against the President's proposal to eliminate the 
NEA. We urge the subcommittee to fund the NEA at a level of $155 
million to preserve the important cultural programs reaching Americans 
across the country.
    Thank you for considering this request.

    [This statement was submitted by Laurie Baskin, Director of 
Research, Policy & Collective Action.]
                                 
                                 ______
                                 
                           Thomas Sarah deg.
                   Prepared Statement of Sarah Thomas
    To the Senate Subcommittee on Interior, Environment, and Related 
Agencies:

    I write to express my deep concern and outrage at the proposed 
budget cuts to the National Endowment for the Arts and the National 
Endowment for the Humanities, and to urge that you do not allow these 
cuts to decimate two institutions that are fundamental to our Nation's 
cultural enrichment, heritage, and status as a leader in the world.
    George Washington knew the importance of the arts among other 
fields of knowledge, not just for personal growth but indeed for 
fostering national and universal understanding, transformation, and 
justice. He wrote that ``the Arts and Sciences, essential to the 
prosperity of the State and to the ornament of human life, have a 
primary claim to the encouragement of every lover of his country and 
mankind.''
    When President Lyndon B. Johnson signed into existence the National 
Endowment for the Arts, he signaled their vital importance, saying: 
``Art is a nation's most precious heritage. For it is in our works of 
art that we reveal to ourselves and to others the inner vision which 
guides us as a nation. And where there is no vision, the people 
perish.''
    While our current President seems to think that the Nation can do 
without the arts, literature, and the humanities, his predecessors saw 
their importance to create a vibrant, just society aware of its 
heritage and inspired about its future. These funds contribute to 
educational and cultural institutions, individual artists, writers, and 
creators, without all of which our Nation would be impoverished and 
slide further away from the ideals on which it was founded.
    I urge you to reconsider these unnecessary cuts (with a fraction of 
the profit made in a recent arms deal with Saudi Arabia, these 
institutions could be protected almost in perpetuity) and acknowledge 
the importance of the arts and humanities to our Nation's future. If 
you choose to eliminate them, you do so to the detriment of the Nation 
at large.

            Sincerely yours,
                                              Sarah Thomas,
         Assistant Professor of Hispanic Studies, Brown University.
                                 ______
                                 
       Prepared Statement of the Tribal Law and Policy Institute
    On behalf of the Tribal Law and Policy Institute (TLPI), this 
testimony addresses important programs in the Department of Interior, 
Indian Health Service, Bureau of Indian Affairs, and Environmental 
Protection Agency as they concern Tribal justice system funding. 
Specifically, TLPI joins the National Congress of American Indians 
(NCAI) in requesting:

------------------------------------------------------------------------
               Program                   NCAI Fiscal Year 2018 Request
------------------------------------------------------------------------
DOI: Bureau of Indian Affairs         Provide increases via Tribal base
                                       funding instead of through grants
DOI: Bureau of Indian Affairs         $82 million in additional funding
                                       for base funding for Tribal
                                       courts
------------------------------------------------------------------------

    TLPI is a 100 percent Native American operated non-profit 
corporation organized to design and deliver education, research, 
training, and technical assistance programs which promote the 
enhancement of justice in Indian country and the health, well-being, 
and culture of Native peoples.
    Native American and Alaska Native Nations constitute a third 
sovereign within the American system of justice. The vast majority of 
the more than 350 current Tribal justice systems function in isolated 
rural communities. Tribal justice systems face complex jurisdictional 
limits over individuals in its territory, complex relationships with 
Federal and State criminal justice systems, inadequate law enforcement, 
lack of detention staff and facilities, lack of sentencing or 
disposition alternatives, lack of access to advanced technology, and 
lack of substance abuse testing and treatment options. Yet ``the 
effective operation of Tribal courts is essential to promote the 
sovereignty and self-governance of the Indian Tribes.'' \1\ As the 
Supreme Court has recognized, ``[T]ribal courts play a vital role in 
Tribal self-government, and the Federal Government has consistently 
encouraged their development.'' \2\
---------------------------------------------------------------------------
    \1\ Sandra Day O'Connor, Lessons from the Third Sovereign: Indian 
Tribal Courts, 33 TULSA L.J. 1, 2 (1997).
    \2\ See Iowa Mut. Ins. Co. v. LaPlante, 480 U.S. 9, 14-15 (1987).
---------------------------------------------------------------------------
    Part of the Federal trust responsibility to Indian Tribes includes 
basic governmental services in Indian Country, funding for which is 
appropriated in the discretionary portion of the Federal budget. Tribal 
governments exist to protect and preserve their unique cultures, 
identities, and natural environments for posterity. As governments, 
Tribes must deliver a wide range of critical services, such as 
education, workforce development, and first-responder and public safety 
services, to their citizens. The Federal budget for Tribal governmental 
services reflects the extent to which the United States honors its 
promises to Indian people.
    Yet Tribal justice systems historically have been under-funded and 
continue to be under-funded in most Tribal communities. In 1991, the 
United States Civil Rights Commission found that ``the failure of the 
United States Government to provide proper funding for the operation of 
Tribal judicial systems . . . has continued for more than 20 years.'' 
\3\ The Commission also noted that ``[f]unding for Tribal judicial 
systems may be further hampered in some instances by the pressures of 
competing priorities within a Tribe.'' \4\ Moreover, they opined that 
``[i]f the United States Government is to live up to its trust 
obligations, it must assist Tribal governments in their development. . 
. .'' \5\ The Commission ``strongly support[ed] the pending and 
proposed congressional initiatives to authorize funding of Tribal 
courts in an amount equal to that of an equivalent State court'' and 
was ``hopeful that this increased funding [would] allow for much needed 
increases in salaries for judges, the retention of law clerks for 
Tribal judges, the funding of public defenders/defense counsel, and 
increased access to legal authorities.'' \6\ The Indian Law and Order 
Commission (ILOC) noted that in addition to funding shortfalls, short-
term, competitive funding approach is deficient because it reflects 
Federal priorities rather than Tribal ones, favors hired grant-writers, 
requires Tribes to compete against each other, and offers only three-
year programs that often leave Tribes with staff turnover and short-
term programs.\7\
---------------------------------------------------------------------------
    \3\ United States Commission on Civil Rights, The Indian Civil 
Rights Act: A Report of the United States Commission on Civil Rights 71 
(June 1991).
    \4\ Id.
    \5\ Id.
    \6\ Id.
    \7\ Indian Law and Order Commission, A Roadmap for Making Native 
America Safer: Report to the President & Congress of the United States 
83 (2013) [hereinafter ILOC Report].
---------------------------------------------------------------------------
Allocate $82 Million for Tribal Base Funding
    In September 2015, the Bureau of Indian Affairs submitted a report 
to Congress that revealed that the BIA is funding most Tribal courts at 
a dismal 6 percent of estimated need.\8\ The BIA estimates that full 
funding for Tribal courts would cost over $860 million. For Tribal 
courts operating in Public Law 280 jurisdictions, funding has been even 
lower. BIA estimates that it would cost an additional $16.9 million for 
Tribes in mandatory Public Law 280 jurisdictions to be funded at 6 
percent of need noting that ``while $16.9 million would not be widely 
viewed as robust or perhaps even adequate, it would match existing 
levels of funding in non-Public Law 280 States, which reflect a 
constrained fiscal environment.''
---------------------------------------------------------------------------
    \8\ ``Report to the Congress on The Budgetary Cost Estimates of 
Tribal Courts in Public Law 83-280 States,'' Bureau of Indian Affairs, 
Office of Justice Services (Sept. 16, 2015).
---------------------------------------------------------------------------
    The critical financial need of Tribal courts ultimately led to the 
passage of the Indian Tribal Justice Act (the ``Act'').\9\ Congress 
found that ``[t]ribal justice systems are an essential part of Tribal 
governments and serve as important forums for ensuring public health, 
safety and the political integrity of Tribal governments.'' \10\ 
Affirming the findings of the Civil Rights Commission, Congress further 
found that ``Tribal justice systems are inadequately funded, and the 
lack of adequate funding impairs their operation.'' \11\ In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for Tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000.\12\
---------------------------------------------------------------------------
    \9\ Public Law No. 103-176 (codified at 25 U.S.C. Sec. 3601 et 
seq.)
    \10\ 25 U.S.C. Sec. 3601(5).
    \11\ 25 U.S.C. Sec. 3601(8).
    \12\ 25 U.S.C. Sec. 3621(b).
---------------------------------------------------------------------------
    To carry out the provisions of the Indian Tribal Justice Act, 
Congress authorized annual appropriations of over $58 million annually 
for each of the fiscal years 1994-1999 with $50 million annually for 
base support funding for Tribal justice systems. In today's dollars 
this would be $82 million per year, which would be less than 10 percent 
of the overall need estimated by BIA. Unfortunately, a total of only $5 
million of the more than $58 million per year appropriated was actually 
appropriated through 1999.\13\ Since Congress enacted the Indian Tribal 
Justice Act in 1993, the needs of Tribal court systems have continued 
to increase, but there has been no corresponding increase in funding 
for Tribal court systems.\14\
---------------------------------------------------------------------------
    \13\ United States Commission on Civil Rights, A Quiet Crisis: 
Federal Funding and Unmet Needs in Indian Country 79 (2003) 
*hereinafter ``A Quiet Crisis''+.
    \14\ In 2000, Congress reaffirmed the Congressional commitment to 
provide this increased funding for Tribal justice systems when it 
reauthorized the Act for seven more years of funding at the same level 
of more than $58 million per year through the Indian Tribal Justice 
Technical and Legal Assistance Act. See Pub. L. No. 106-559 Sec. 202.
---------------------------------------------------------------------------
    Despite numerous congressional reauthorizations of the Act over the 
past couple of decades--most recently in the Tribal Law and Order Act 
(TLOA)\15\--funds have never been appropriated to implement the Act. 
The Act does not differentiate between Tribes subject to Public Law 280 
jurisdiction or not. The promise of this much-needed base funding must 
be fulfilled. We ask Congress to commit to fully funding Tribal courts 
within the next 5 years by incrementally increasing funding each year.
---------------------------------------------------------------------------
    \15\ Tribal Law and Order Act, Public Law 111-211, Sec. 242 (2010).
---------------------------------------------------------------------------
                               conclusion
    Thank you for your consideration of this testimony. For more 
information, please contact Lauren van Schilfgaarde, Tribal Law 
Specialist, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d717c686f78735d69716d7433726f7a33">[email&#160;protected]</a>
                                 ______
                                 
            Prepared Statement of the Trust for Public Land
    Chairwoman Murkowski, Ranking Member Udall, and distinguished 
members of the Interior subcommittee:

    Thank you very much for the opportunity to submit testimony on 
behalf of The Trust for Public Land in support of programs under your 
jurisdiction for the fiscal year 2018 appropriations process. The Trust 
for Public Land (TPL) is a national nonprofit land conservation 
organization working to protect land for people in communities across 
the Nation. We are extremely grateful for the support members of this 
subcommittee and other conservation leaders in Congress have shown for 
Federal conservation programs during these challenging fiscal times.
    We recognize that the subcommittee will again face enormous 
challenges in meeting the broad range of priority needs in the Interior 
and Environment bill this year. The President's Budget request for 
fiscal year 2018 has proposed drastic program reductions and has 
eliminated core Federal conservation programs that have long had an 
impact in communities across the country. Our work in many of your 
districts and elsewhere shows that there is tremendous support for 
conservation and access to recreation at the local, State and Federal 
level, and the programs under your jurisdiction play a critical role in 
bringing those community visions to reality.
    Federal funding is an absolutely critical part of the conservation 
toolbox and provides manifold benefits to the American people. Given 
the limited public conservation funding at all levels of government, 
TPL works to leverage Federal conservation dollars, bringing to bear 
private philanthropic support as well as State and local funding to 
forge solutions to sometimes complex conservation funding challenges. 
Aware of these realities, many of our recommendations are for programs 
to remain at the enacted level of fiscal year 2017. The major programs 
under your jurisdiction that we count on year in and year out are the 
entire suite of Land and Water Conservation Fund (LWCF) programs--
including BLM, FWS, NPS and USFS acquisitions, NPS State and local 
grants, the Forest Legacy Program, Cooperative Endangered Species 
Conservation Fund, and American Battlefield Protection Program--as well 
as the USFWS North American Wetlands Conservation Act, USFS Community 
Forest Program, and National Endowment for the Arts.
    Land and Water Conservation Fund.--After celebrating its 50th 
anniversary in 2014, Congress reauthorized LWCF in a bipartisan manner 
for three additional years until September 30, 2018. In the recent 
fiscal year 2017 appropriations bill, Congress furnished the program 
with $400 million. The appropriations committees also included 
important conference report language that instructed the Federal land 
management agencies to continue ranking projects for fiscal year 2018 
and to have those lists available to Congress upon request. We are 
extremely grateful to the members of the subcommittee for their 
critical role in all of these efforts, which have resulted in important 
conservation and outdoor recreation investments at the local, State and 
Federal levels. Investments in conservation and outdoor recreation make 
sound economic sense. The Outdoor Industry Association estimated this 
year that active outdoor recreation contributes $887 billion annually 
to the U.S. economy, supports nearly 7.6 million jobs across the 
country, and generates $65.3 billion in annual Federal tax revenue.
    Most urgently, we urge you to reject the fiscal year 2018 
President's Budget request for LWCF. The Budget reduces LWCF from the 
enacted level of $400 million (itself a cut of $50 million from enacted 
fiscal year 2016) to $64 million. This is an 84 percent cut from the 
enacted level. It eliminates funding for the Forest Legacy Program, the 
Cooperative Endangered Species Conservation Fund, and the Highlands 
Conservation Act. It includes no funding for acquisition projects 
anywhere in the country, denying ongoing land protection efforts in 
Alaska, New Mexico, Montana, California, Mississippi, and many other 
States.
    We urge the subcommittee to continue to invest in LWCF as it did in 
fiscal year 2017 and provide at least the enacted $400 million for the 
entire program. Continued annual investment in the entire suite of LWCF 
programs as Congress provided in fiscal year 2017 is essential and we 
are ready to work with the subcommittee to ensure that dollars invested 
are well spent on our Nation's most urgent needs. We greatly appreciate 
the key role your subcommittee plays in ensuring that program dollars 
are used for high-priority strategic investments and appreciate that in 
challenging budgetary times you have maintained a commitment to this 
bipartisan program.
    LWCF's programs bring specific and complementary conservation 
benefits to the American public. These key programs are:
    BLM/FWS/NPS/USFS Land Acquisitions.--Every year tens of millions of 
Americans, as well as visitors to our country, enjoy our Federal public 
lands--national parks, forests, wildlife refuges and BLM conservation 
lands. Recent data shows that National Park Service units were visited 
by larger numbers than in the past 20 years. Strategic inholding and 
other acquisitions in these Federal areas through LWCF ensure 
recreation access and nature education; foster vital economic growth; 
protect clean water and other community resources; enhance the 
incomparable natural and scenic treasures that belong to all Americans; 
and frequently resolve complex land-use conflicts and produce 
management savings. Without adequate funding, the unfortunate 
alternative often is an irretrievable loss of public use and enjoyment 
of these areas and irreversible damage to the resources we all care 
about. We strenuously oppose the budget proposal eliminating all funds 
for land protection projects.
    We applaud the inclusion of recreational access line items in the 
fiscal year 2016 and fiscal year 2017 omnibus appropriations bills for 
each of the four land management agencies--with particular emphasis on 
BLM and USFS--and support similarly focused funding in the fiscal year 
2018 bill to address opening up and improving public access to the 
outdoors. The President's Budget eliminated recreational access funding 
for all four land management agencies. We urge you to restore it.
    USFS: Forest Legacy Program.--For over 25 years, the Forest Legacy 
Program has been an extraordinarily effective program, providing 
assistance to States and localities seeking to preserve important 
working forests. It has protected over 2.5 million acres of forestland 
and has leveraged more than the required 25 percent match. Forest 
Legacy projects provide multiple public benefits through forest 
protection--clean water, wildlife protection, climate change adaptation 
and mitigation, public access to recreation, economic development and 
sustainable forestry. Working with States, landowners and other 
partners, we have worked to submit a number of projects to protect 
recreation access for snowmobilers and hikers, ensure jobs in the 
woods, buffer important Federal and State conservation areas and 
provide strategic land conservation that fits a larger goal. Among 
these are projects to protect the recreational access and critical 
wildlife habitat in Montana and New Mexico, working forests along Hood 
Canal and Puget Sound in Washington, and forests along the Pascagoula 
River in Mississippi. We strongly oppose the administration's 
elimination of this program and instead urge your continued support for 
sustained investment in this strategic and successful program.
    USFWS: Cooperative Endangered Species Conservation Fund.--We are 
grateful for the subcommittee's historic support for the Cooperative 
Endangered Species Conservation Fund (CESCF), which leverages State and 
private funds to protect threatened and endangered species habitat 
across the Nation. Two components of this program are funded via LWCF: 
the Habitat Conservation Plan (HCP) Land Acquisition program and the 
Recovery Land Acquisition (RLA) program. The CESCF has been critical to 
communities in Montana, Hawaii, and California where landowners and 
public wildlife managers are working together through integrated 
planning to foster species recovery and appropriate economic 
development. The land acquisition portion of this program was 
eliminated in the President's Budget. We support at least the enacted 
fiscal year 2017 level of $30.8 million for the HCP and RLA land 
acquisition programs in fiscal year 2018.
    NPS: State and Local Assistance grants.--Since 1965, the State and 
local assistance grant program has provided over $4 billion in Federal 
funds for more than 42,000 projects in States and local communities for 
park protection and development of recreation facilities. This program 
reaches deep into communities across our Nation, supporting citizen-led 
efforts to conserve places of local importance and opportunities for 
close-to-home recreation. Through our Parks for People Program, The 
Trust for Public Land works with local communities to create, build, 
design, fund and care for parks, trails and playgrounds. As we continue 
our work with many of these communities to meet these needs, we hope 
the subcommittee will continue to provide funding to this important 
program. We also strongly support the allocation of a portion of LWCF 
State and local assistance funds to the nationwide competitive program, 
the Outdoor Recreation Legacy Program, which has now been included in 
four consecutive appropriations bills. Last year Congress demonstrated 
its commitment to this program by keeping the funding level at $12 
million, for which we are extremely grateful. We support an allocation 
of $12 million for ORLP in fiscal year 2018.
    NPS: American Battlefield Protection Program.--We applaud the 
subcommittee for its longstanding commitment to this important program, 
which complements acquisitions of threatened Civil War, Revolutionary 
War, and War of 1812 properties in national park units with non-Federal 
land protection of key battlefield sites. We hope that Congress can 
fully fund the program again at the enacted $10 million level in fiscal 
year 2018.
    Beyond LWCF, we urge the subcommittee to provide adequate funding 
to other conservation programs including:
    USFWS: North American Wetlands Conservation Act.--We respectfully 
request your support for program funding at the enacted level of 
$38.145 million in fiscal year 2018. The North American Wetlands 
Conservation Act (NAWCA) provides much-needed matching grants to carry 
out wetlands conservation, restoration and enhancement projects. NAWCA 
is a highly-leveraged program with a substantial record of success and 
is another important Federal conservation tool to support critical 
wetland habitat.
    USFS: Community Forest Program.--Contrary to the President's 
Budget, which eliminates the program, we urge your continued support 
for the Community Forest Program (CFP), which complements existing 
conservation programs by helping communities and Tribes identify, 
purchase, and manage locally important forestlands that are threatened 
with development. These community forests can be tailored to local 
needs, from timber revenue for municipal or county budgets to 
recreation access and outdoor education. Every Federal dollar from CFP 
is at least evenly matched by funding from State, local, and private 
sources. The Forest Service has now approved 35 grants in 17 States and 
territories--including Vermont, New Hampshire, Maine, Kentucky, 
Montana, California, Oregon, and Washington--for innovative local and 
Tribal projects, and the program has generated significant interest 
from local entities concerned about the future of their close-to-home 
forests. Given the strong interest in community forests from coast to 
coast, we urge you to include $5 million in the fiscal year 2018 bill 
for this innovative conservation tool.
    Wildfire Disaster Funding Act.--We also support efforts to improve 
budgeting for forest fire management that will provide Federal agencies 
the means to fight fires without raiding other important Federal 
programs, like LWCF. America's forests and forest-dependent communities 
are at risk from outbreaks of pests and pathogens, persistent drought, 
and the buildup of hazardous fuels. Urbanization and development 
patterns are placing more homes and communities near fire-prone 
landscapes, leading to more destructive and costly wildfires. The 
current wildfire suppression funding model and cycle of transfers and 
repayments has negatively impacted the ability to implement forest 
management, among many other activities. We strongly support the 
bipartisan Wildfire Disaster Funding Act, which addresses Federal fire 
funding challenges. It would provide a fire funding solution that would 
1) access disaster funding, 2) minimize transfers, and 3) address the 
continued erosion of agency budgets over time, with the goal of 
reinvesting in key programs that would restore forests to healthier 
conditions.
    National Endowment for the Arts.--Since its establishment by 
Congress in 1965, the National Endowment for the Arts (NEA) has 
provided strategic leadership and investment in the arts. Through 
partnerships with State arts agencies, local leaders, other Federal 
agencies, and the philanthropic sector, the NEA supports arts learning, 
affirms and celebrates America's rich and diverse cultural heritage, 
and extends its work to promote equal access to the arts in every 
community across America. NEA provides not only critical funding and 
resources to the arts community but also significant investments in 
parks and community development through its Art Works and Our Town 
grants. According to analysis by Americans for the Arts, every $1 of 
NEA funding leverages $9 in private and public dollars and fuels a 
dynamic cultural economy and generates millions of American jobs. 
Should NEA and its funds be cut or eliminated, the impact will be 
devastating to the arts community and to local park departments and 
community development organizations. We strongly urge the inclusion of 
$155 million for the agency in fiscal year 2018 in order to preserve 
access to the cultural, educational, and economic benefits of the arts.
    The programs highlighted here are critical to the future of 
conservation at the local, State and Federal levels; reflect the 
continued demand on the part of the American people for access to 
outdoor recreation; and help sustain our economy and reflect the true 
partnership that exists in Federal conservation efforts. As ever, we 
are deeply thankful for the subcommittee's recognition of the 
importance of these programs and urge you to maintain robust funding 
for them in the fiscal year 2018 Interior, Environment and Related 
Agencies bill. Thank you for your help and support, and for your 
consideration of our requests.

    [This statement was submitted by Kathy DeCoster, Vice President and 
Director of Federal Affairs.]
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission
    Mr. Chairman, and Honorable Members of the subcommittee, I am Ron 
Allen, the Alternate Tribal Commissioner and Chair of the Finance and 
Administration Committee for the U.S. Section of the Pacific Salmon 
Commission (PSC). The U.S. Section prepares an annual budget for 
implementation of the Pacific Salmon Treaty. The integrated budget 
details program needs and costs for Tribal, Federal, and State agencies 
involved in the Treaty. Tribal participation in the Treaty process is 
funded in the Bureau of Indian Affairs budget.
    In order meet the increased obligations under the 2009-2018 Pacific 
Salmon Treaty Agreement the 25 affected Tribes identified costs at 
$4,800,000 for Tribal research projects and participation in the U.S.-
Canada Pacific Salmon Treaty process, an increase of $470,000 over 
fiscal year 2016 enacted level. The funding for Tribal participation in 
the Pacific Salmon Treaty is a line item in the BIA's budget under 
Rights Protection Implementation.
    Under U.S. Fish and Wildlife Service programs, the U.S. Section 
identified needs as follows:
    USFWS participation in the Treaty process is funded at $372,362 for 
fiscal year 2016. The Pacific States Marine Fisheries Commission's 
Regional Mark Center (PSMFC) receives support from the USFWS to provide 
data services to the PSC process at a level of $236,189 for fiscal year 
2016. The total for the two programs is $608,551. This represents a 
decrease from fiscal year 2010 levels, which were $417,673 for USFWS 
and $315,000 for PSMFC, for a grand total of $732,673. The US Section 
recommends increasing the fiscal year 2018 funding for these programs 
by $50,000, which partially restores both programs to previous funding 
levels.
    This base funding for the U.S. Fish and Wildlife Service supports 
critically important on-going work. The funding for Pacific States 
Marine Fisheries Commission's Regional Mark Center is utilized to meet 
Treaty requirements concerning data exchange with Canada. These program 
recommendations are integrated with those of the State and Federal 
agencies to avoid duplication of effort and provide for the most 
efficient expenditure of scarce funds.
    Funding to support activities under the Pacific Salmon Commission 
comes from the Departments of Interior, State, and Commerce. The U.S. 
Section can provide a cross-cut budget summary to the subcommittee. 
Adequate funding from all three Departments is necessary for the U.S. 
to meet its treaty obligations. All of the funds are needed for 
critical data collection and research activities directly related to 
the implementation and are used in cooperative programs involving 
Federal, State, and Tribal fishery agencies and the Department of 
Fisheries in Canada. The commitment of the United States is matched by 
the commitment of the Government of Canada.
    The U.S. Section of the PSC is recommending an adjustment to 
support the work carried out by the twenty-four treaty Tribes' 
participating in implementation of the Treaty. Programs carried out by 
the Tribes are closely coordinated with those of the States and Federal 
agencies. Tribal programs are essential for the United States to meet 
its international obligations. Tribal programs have taken on additional 
management responsibilities due to funding issues with State agencies. 
All participating agencies need to be adequately supported to achieve a 
comprehensive US effort to implement the Treaty.
    The U.S. Fish and Wildlife Service activities are necessary so the 
U.S. can maintain the critical database to implement the Treaty. The 
work of the Regional Mark Processing Center includes maintaining and 
updating a coastwide computerized information management system for 
salmon harvest data as required by the Treaty. This work has become 
even more important to monitor the success of management actions at 
reducing impacts on ESA-listed salmon populations. Canada has a 
counterpart database. The U.S. database will continue to be housed at 
the Pacific States Marine Fisheries Commission.
    Mr. Chairman, the United States and Canada established the Pacific 
Salmon Commission, under the Pacific Salmon Treaty of 1985, to conserve 
salmon stocks, provide for optimum production of salmon, and to control 
salmon interceptions. After thirty years, the work of the Pacific 
Salmon Commission continues to be essential for the wise management of 
salmon in the Northwest, British Columbia, and Alaska. For example, 
upriver bright fall Chinook salmon from the Hanford Reach of the 
Columbia River are caught in large numbers in Alaskan and Canadian 
waters. Tribal and non-Tribal fishermen harvest sockeye salmon from 
Canada's Fraser River in the Strait of Juan de Fuca and in Puget Sound. 
Canadian trollers off of the west coast of Vancouver Island catch 
Washington coastal Coho salmon and Puget Sound Chinook salmon. In the 
Northern Boundary area between Canada and Alaska, fish from both 
countries are intercepted by the other country in large numbers. The 
Commission provides a forum to ensure cooperative management of salmon 
populations. The agreements in the current Annex Chapters for 
management of chinook, coho, chum, and transboundary populations expire 
at the end of 2018. The Annex Chapter for management of Fraser River 
sockeye and pink chapter expires at the end of 2019. The U.S. and 
Canada are negotiating revisions to the current agreements. Based on 
past experience, the negotiation process will require additional 
meetings to reach a successful conclusion. It is important to have 
adequate resources for U.S. participants to negotiate the best outcome.
    Before the Treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the Treaty was signed, 
Chinook salmon were in a severely depressed State as a result of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the Treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance based approach to harvest 
management. Under this approach, harvest management will complement 
habitat conservation and restoration activities being undertaken by the 
States, Tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The 2008 Chinook agreement continued these commitments. 
The combination of these efforts is integral to achieving success in 
rebuilding and restoring healthy, sustainable salmon populations.
    Finally, you should take into account the fact that the value of 
the commercial harvest of salmon subject to the Treaty, managed at 
productive levels under the Treaty, supports the infrastructure of many 
coastal and inland communities. The value of the recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is also immense. The value 
of these fish to the 24 treaty Tribes in Washington, Oregon, and Idaho 
goes far beyond their monetary value, to the cultural and religious 
lives of Indian people. A significant monetary investment is focused on 
salmon as a result of listings of Pacific Northwest salmon populations 
under the Endangered Species Act. Given the resources, we can continue 
to use the Pacific Salmon Commission to develop recommendations that 
help to ensure solutions that minimize impacts on listed stocks, 
especially if we are allowed to work towards the true intent of the 
Treaty: mutually beneficial enhancement of the shared resource.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your subcommittee. I want to thank the subcommittee 
for the support that it has given the U.S. Section in the past. Please 
feel free to contact me, or other members of the U.S. Section to answer 
any questions you or subcommittee Members may have regarding the U.S. 
Section of the Pacific Salmon Commission budget.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    United Tribes Technical College (UTTC) has for 48 years, and with 
the most basic of funding, provided postsecondary career and technical 
education and family services to some of the most impoverished high 
risk Indian students from throughout the Nation. Despite such 
challenges we have consistently had excellent retention and placement 
rates and are fully accredited by the Higher Learning Commission. We 
are proud of our role in helping to break generational poverty and in 
helping to build a strong Indian Country middle class by training the 
next generation of law enforcement officers, educators, medical 
providers, and administrators; however, there is a long way to go and 
we need to expand our efforts. We are governed by the five Tribes 
located wholly or in part in North Dakota. We are not part of the North 
Dakota University System an do not have a tax base or State-
appropriated funds on which to rely.
    The funding requests of the UTTC Board for fiscal year 2018 Bureau 
of Indian Education (BIE)/Bureau of Indian Affairs (BIA) are:
  --$11 million for the line item, Tribal Technical Colleges, which is 
        $3.1 million over the fiscal year 2017 enacted level. Of this 
        amount, $6.8 million is BIE funding for our Indian Self-
        Determination Act contract.
  --Continue fully funding Contract Supports Costs with establishment 
        of permanent, full, mandatory-funding.
  --Continue full funding for Tribal Grant Support Costs for tribally-
        operated elementary/secondary schools.
  --Establishment of a tribally-administered Northern Plains law 
        enforcement training center at UTTC.
    First of all, thank you for the $500,000 fiscal year 2017 increase 
for the BIE line item of Tribal technical colleges as requested by the 
Obama Administration. Secondly, thank you again for placing the Tribal 
Technical Colleges account that provides core operational funds to our 
institution and Navajo Technical University (NTU) on a forward funded 
basis as of fiscal year 2016.
    We are pleased that as of fiscal year 2017 Congress will be 
providing forward funding for the Institute of American Indian Arts and 
that the explanatory language for the appropriations bill indicates 
that you are interested in providing in fiscal year 2018 for the 
remaining two colleges who are not yet forward funded--Southwestern 
Indian Polytechnic Institute, and the Haskell Indian Nations 
University.
    The extended length of time to achieve forward funding for UTTC and 
NTU and the fact that several other Indian higher education 
institutions were/are still not forward funded highlights the 
carefulness with which Tribal college references need to be made. We 
are authorized under differing titles of the Tribally Controlled 
Colleges and Universities Act and then there are other statutory 
authorities for the three institutions administered through the Bureau 
of Indian Education.
    Base Funding.--UTTC administers our BIE funding under an Indian 
Self-Determination and Education Assistance Act agreement, and has done 
so for 40 years. The UTTC portion of the Tribal Technical Colleges line 
item should be $6.8 million based on an $11 million appropriation. We 
will want to communicate again with this subcommittee when we know what 
the Trump administration has requested in the Indian Affairs budget.
    Acquisition of additional base funding is critical. We struggle to 
maintain course offerings and services to adequately provide 
educational services at the same level as our State counterparts. BIE 
funds are central to the viability of our core postsecondary education 
programs. Very little of the other funds we receive may be used for 
core career and technical educational programs; they are competitive, 
often one-time targeted supplemental funds. Our BIE funding provides a 
base level of support while allowing the college to compete for 
desperately needed discretionary funds.
    We highlight several recent updates of our curricula to meet job 
market needs. First, at the certificate level, UTTC recognized the need 
for more certified welders and heavy equipment operators in relation to 
the oil boom and expanded these programs in response to the workforce 
need. UTTC is now the only welding test site in a multi-State region 
approved by the American Welding Society, and while the North Dakota 
Bakken oil boom has diminished, these professions remain in demand. The 
hospital facilities in the regions were unable to hire certified 
Medical Coding & Billing personnel so we developed and currently offer 
this certificate as one of our online offerings. We are now able to 
train students for good paying in-demand employment with a focus on 
career rather than just a job. Finally, upon receiving approval by the 
Higher Learning Commission to offer a Bachelor's Degree in 
Environmental Science, we began this four-year program in the Fall of 
2016, thus providing experiential research opportunities for our 
students.
    Funding for United Tribes Technical College is a good investment. 
We have:
  --Renewed unrestricted accreditation from the Higher Learning 
        Commission through 2021. We offer 1 diploma, 4 certificates, 14 
        Associate degrees, and 4 Bachelor degree programs of study 
        (Criminal Justice; Elementary Education; Business 
        Administration; Environmental Science and Research). Business 
        Management, Criminal Justice, Medical Coding and General 
        Studies are fully available and offered online. UTTC continues 
        to be the only TCU in the country approved by the Higher 
        Learning Commission to offer full programs online.
  --Services including a Child Development Center, family literacy 
        program, wellness center, area transportation, K-7 BIE-funded 
        elementary school, tutoring, counseling, family and single 
        student housing, and campus security.
  --A projected return on Federal investment of 20-1 (2005 study).
  --From 2015-2016, UTTC had a fall to fall retention rate of 38 
        percent and a 2016 fall semester persistence rate of 84 percent 
        for the fall of 2016. Of the 87 graduates in 2016, 53 students 
        were employed, for a placement rate of 61 percent. 
        Additionally, 19 of those graduates continued their education.
  --Students from 69 Tribes represented at UTTC during the 2015--2016 
        academic year.
  --Our students are very low income, and 70.4 percent of our 
        undergraduate students receive Pell Grants.
  --An unduplicated count of 524 undergraduate degree-seeking students 
        and 4 non-degree seeking students; 1,037 continuing education 
        students; and 29 dual credit enrollment high school students 
        for a total of 1,594 students for 2016-2017.
  --A critical role in the regional economy. Our presence brings at 
        least $34 million annually to the economy of the Bismarck 
        region. A North Dakota State University study reports that the 
        five Tribal colleges in North Dakota made a direct and 
        secondary economic contribution to the State of $192,911,000 in 
        2016.
    Contract Support Costs.--As mentioned above, we administer our BIE 
funding through an Indian Self-Determination and Education Assistance 
Act contract, and thus Contract Support Costs (CSC) are vital to us. We 
thank this subcommittee for the recognition of the legal obligation the 
Federal government has to pay Tribal contractors their full CSC. This 
has been an enormously important development for Indian Tribes. We 
appreciate that the fiscal years 2016 and 2017 appropriations acts 
place Contract Support Costs for the BIA and the Indian Health Service 
(IHS) in their own accounts and is funded at an indefinite amount, thus 
assuring full funding. Given that this funding status for CSC is year 
to year, we join with others in Indian Country in supporting a long-
term legislative solution that will provide full and permanent funding 
for Contact Support Costs. Placing CSC funding on a mandatory basis is 
the logical resolution to a long-term solution for CSC that will also 
protect the programs funded on a discretionary basis in the BIA and IHS 
budgets.
    Tribal Grant Support Costs for K-12 Tribally-Operated Schools.--We 
have a BIE-funded elementary school on our campus, the Theodore 
Jamerson Elementary School, and thus many of our college students and 
their children attend school on the same campus. For these elementary 
schools, Tribal Grant Support Costs are the equivalent of Contract 
Support Costs for Tribes although authorized under different statutory 
authorities. We thank you for providing what is estimated to be full 
funding for Tribal Grant Support Costs in fiscal year 2017 ($80 
million).
    A Northern Plains Indian Law Enforcement Academy.--We again ask 
Congress to seriously look at the problem of addressing crime in Indian 
Country with an eye toward the establishment of a campus-based academy 
for training of law enforcement officers at UTTC. We ask that you 
direct the Secretary of Interior and the Bureau of Indian Affairs to 
work with the Northern Plains Tribes and others on the timely 
development of a plan for the establishment of an academy to better 
serve the Tribes residing in the Northern tier of the United States.
    Establishment of such an academy at UTTC continues to be strongly 
supported by the Great Plains Tribal Chairman's Association (GPTCA) via 
Resolution 5-1-20-16. The Resolution requests that the Secretary of 
Interior and the BIA consult with the Tribes on the details of a plan 
for establishment of the Academy. Cultural and legal differences 
further support why such training should be tribally-directed in order 
to be appropriate for the realities of Tribal communities within 
different parts of the Indian Country. The need is critical and 
continues to grow with the methamphetamine, opioid and heroin crises 
and the resulting social ills from these epidemics. North Dakota and 
other northern border regions have special problems relating to drug 
and human trafficking. Additionally, the expanded Tribal authorities 
under the Tribal Law and Order Act and the Violence Against Women Act 
only further the importance of trained law enforcement officers within 
our Tribal communities. State and national training resources would 
have an important role in this new endeavor.
    The UTTC Criminal Justice program currently offers two- and four-
year degrees, and prepares graduates for employment as Federal, State 
or Tribal law enforcement, correction, parole and probation, and 
transportation safety officers; victim advocates; U.S. Customs, 
Homeland Security, and Military Investigative services; and private 
security agents. A pre-law program is currently in development to 
address the shortage of law trained personnel within Tribal judicial 
systems. We want to expand our endeavors to help meet law enforcement 
needs in Indian Country. Given our Criminal Justice program, our 
location and our campus resources, we propose the establishment of a 
Northern Plains Indian Law Enforcement Academy.
    Basic law enforcement training is currently provided through the 
BIA's Indian Police Academy in Artesia, New Mexico, which often has 
waiting lists. The BIA is depending on the basic training provided by 
State academies to supplement what is provided at Artesia. UTTC is well 
positioned with regard to providing both basic and supplemental law 
enforcement training. An academy at UTTC would allow Tribal people in 
the Great Plains and other nearby regions a more affordable choice for 
training locations while minimizing the distance and long separation of 
trainees from their families.
    The fiscal year 2017 Indian Affairs budget (p. IA-PSJ-12) notes 
that training initiatives for the Indian Police Academy include 
developing a pre-Academy training program for candidates; developing a 
mid-level manager training program; and establishing an on-line 
distance learning program for recertification, among other things. 
These are things that we could do as part of an academy at UTTC or in 
partnership with the Indian Police Academy.
    In short, the BIA should be utilizing and enhancing the resources 
of UTTC to make a real difference in the law enforcement capability in 
Indian Country. We can offer college credit to trainees, and our 
facilities include the use of a state-of-the-art crime scene simulator. 
Maintaining safe communities is a critical component of economic 
development for our Tribal Nations, and local control of law 
enforcement training resources is a key part of that effort.
    We know members of this subcommittee have made a point to visit 
places in Indian Country and we would love to be able to arrange for 
you to visit United Tribes Technical College. Thank you for your 
consideration of our requests. Mitakuye Owasin (All my relatives)

    [This statement was submitted by Leander ``Russ'' McDonald, PhD, 
President.]
                                 ______
                                 
                Prepared Statement of the USGS Coalition
    The USGS Coalition appreciates the opportunity to provide testimony 
about fiscal year 2018 appropriations for the United States Geological 
Survey (USGS). The USGS Coalition requests Congress to fund the USGS at 
$1.2 billion in fiscal year 2018. The requested funding would allow the 
agency to sustain current efforts in scientific discovery and 
innovation and to make strategic investments that will produce the 
impartial knowledge and decision support tools needed by decision-
makers across the country.
    Few modern problems can be addressed by a single scientific 
discipline. The USGS is uniquely positioned to provide information and 
inform responses to many of the Nation's greatest challenges. The USGS 
is an agency that has a distinctive capacity to deploy truly 
interdisciplinary teams of experts to gather data, conduct research, 
and develop integrated decision support tools that improve ecosystem 
management, ensure accurate assessments of our water quality and 
quantity, reduce risks from natural and human-induced hazards, deliver 
timely assessments of mineral and energy resources, and provide 
emergency responders with accurate geospatial data and maps.

The USGS Coalition is an alliance of more than 75 organizations united 
by a commitment to the continued vitality of the United States 
Geological Survey to provide critical data and services. Coalition 
members include scientific organizations, universities, businesses, and 
natural resource managers.
                   essential services for the nation
    The USGS plays a unique role within the Department of the Interior, 
conducting research across a broad array of scientific disciplines and 
providing data that informs responses to many of the Nation's greatest 
challenges. To highlight just a few examples, USGS scientists:
  --Reduce risks from natural hazards--including earthquakes, 
        landslides, volcanic eruptions, flooding, drought, and 
        wildfires--that jeopardize human lives and result in billions 
        of dollars in damages annually.
  --Inform management of freshwater resources--both above and below the 
        land surface--for drinking water, agriculture, and commercial, 
        industrial, recreational, and ecological purposes.
  --Inform sound management of natural resources on Federal and State 
        lands, including control of invasive species and wildlife 
        diseases that cause billions of dollars in economic losses. 
        This information is shared with other Interior bureaus and 
        State agencies to allow for adequate monitoring and management.
  --Help predict the impacts of land use and climatic conditions on the 
        availability of water resources and the frequency of wildfires. 
        The Landsat satellites have collected the largest archive of 
        remotely sensed land data in the world, which informs 
        agriculture production and our Nation's response to and 
        mitigation of natural hazards.
  --Provide vital geospatial and geologic mapping data used in economic 
        development, environmental management, infrastructure projects, 
        and scientific applications by States, Federal agencies, and 
        the private sector.
  --Help make decisions about the Nation's energy future by assessing 
        mineral and energy resources--including rare earth elements, 
        coal, oil, unconventional natural gas, and geothermal. The USGS 
        is the sole Federal source of information on mineral potential, 
        production, and consumption.
                                funding
    Over the years, Congress has worked in a bipartisan fashion to 
provide essential funding to the USGS. These efforts have paid 
dividends and helped the USGS provide answers to the challenging 
questions facing decision-makers across the country.
    The USGS Coalition opposes the proposed cuts outlined in the fiscal 
year 2018 President's budget request of 15 percent for the USGS.
    The proposed funding level for USGS is very troubling, as the 
agency has made numerous economies in recent years. Any cuts in fiscal 
year 2018 or beyond would come at the expense of scientific programs. 
As a science agency, much of the USGS budget is dedicated to staff as 
well as equipment and facilities that must be maintained and updated to 
ensure the continuity of data acquisition and that the data gathered 
are reliable and available for future scientific investigations. We 
believe that the leadership of the USGS is doing all they can, and has 
been for a number of years, to contain costs while continuing to 
deliver high quality science.
    One strength of the USGS has been its partnerships with many other 
Federal agencies, States, local governments, and private entities. 
These relationships, however, should not be mistaken as a means to 
transfer Federal activities to other entities. The work of the USGS is 
uniquely tied to the agency, as shown in the following examples.
  --A potash mineral deposit worth $65 billion was identified in 
        Michigan as a result of the National Geological and Geophysical 
        Data Preservation Program. The initiative catalogs and archives 
        geological samples acquired during oil, gas, and mineral 
        exploration. The program is run by the USGS and helps States to 
        preserve and inventory their geological samples and data. The 
        rock samples from Michigan were entered into a national 
        database, where mining companies discovered their existence and 
        are now assessing the potential for mining potash in Michigan. 
        Without USGS funding, these mineral samples and their potential 
        for new revenue and jobs would likely not have been discovered.
  --A major geomagnetic storm has the potential to cause a continent-
        wide loss of electricity and substantial damage to power-grid 
        infrastructure. Although these events are rare, they do occur, 
        such as the 1989 geomagnetic storm that disrupted power to the 
        entire Canadian province of Quebec. The USGS monitors Earth's 
        magnetic field at 14 ground stations across the U.S. This 
        information is critical for utility companies, who use the 
        resulting geoelectric hazard maps to assess the vulnerability 
        of their systems and to mitigate the predicted damages, thereby 
        preventing costly power outages.
  --Nearly half of America's drinking water comes from underground 
        aquifers. The large size of some aquifers, which can span the 
        boundaries of multiple States, puts them beyond the scope of 
        local water authorities. The USGS is evaluating water quality 
        in 20 principal aquifers as part of the National Water-Quality 
        Assessment Project. The program is testing for contaminants, 
        such as pesticides, pharmaceuticals, and other pollutants that 
        threaten human health.
  --Precise elevation data is needed for a variety of applications, 
        including farming, infrastructure construction, flood 
        mitigation, and aviation safety. The U.S., however, does not 
        yet have national coverage of high-quality topographic data. 
        Given its expertise in mapping, the USGS is the lead entity for 
        the 3D Elevation Program, which will acquire precise national 
        elevation data coverage within 8 years. The program is 
        estimated to provide benefits worth $1.1 billion a year to 
        government and private entities.
  --Recent research by the USGS identified the potential for avian flu 
        to move between Europe and North America when migratory birds 
        congregate in Iceland during their migration. Wildlife diseases 
        threaten not only the ecosystem and economic values of wild 
        animals, but can also jeopardize human health. The USGS has 
        unique technical expertise for surveillance and diagnosis of 
        wildlife disease, such as identifying a potential transmission 
        route of a deadly disease.
  --Expected losses from natural hazards in the U.S. exceed $3 billion 
        per year. These losses can be significantly reduced through 
        informed decisions guided by the most current and thoroughly-
        researched understanding of the hazards, risks, and cost of 
        mitigation. The USGS Science Application for Risk Reduction 
        Project was created to innovate the application of hazard 
        science for the safety, security, and economic well-being of 
        the Nation by directing new and existing scientific research 
        toward addressing gaps in vulnerability to help communities 
        build resilience to natural hazards.

    Many USGS programs are highly leveraged by outside funding sources. 
For instance, 69 percent of funding for the National Streamflow Network 
(aka streamgages) comes from States, localities, Tribes, other Federal 
agencies, private industry, and non-governmental organizations. For 
each Federal dollar invested in the Cooperative Research Units Program, 
States and universities invest more than three dollars. Interior's 
Climate Science Centers have also seen investments from partner 
universities into education and research totaling more than $8.2 
million since the program began in 2009. In total, more than $100 
million in contributions were made in 2016 by USGS partners.
                               conclusion
    We recognize the financial challenges facing the Nation, but losing 
irreplaceable data can increase costs to society today and in the 
future. Data not collected and analyzed today is data lost forever. 
This is particularly significant for environmental monitoring systems, 
where the loss of a year's data can limit the scope and reliability of 
long-term dataset analysis. Moreover, the United States Geological 
Survey has a national mission that extends beyond the boundaries of the 
Nation's public lands to positively impact the lives of all Americans. 
For these reasons, the USGS Coalition requests that Congress work to 
provide $1.2 billion for USGS in fiscal year 2018.
    The USGS Coalition appreciates the subcommittee's past leadership 
in strengthening the United States Geological Survey. Thank you for 
your thoughtful consideration of this request.

    [This statement was submitted by Elizabeth Duffy, Co-Chair, and 
Julie Palakovich Carr, Co-Chair.]
                                 ______
                                 
        Prepared Statement of the Western Governors' Association
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, the Western Governors' Association (WGA) appreciates the 
opportunity to provide written testimony on the appropriations and 
activities of the Bureau of Land Management (BLM), U.S. Fish and 
Wildlife Service (FWS), National Park Service (NPS), U.S. Forest 
Service (USFS) and Environmental Protection Agency (EPA). My name is 
James D. Ogsbury and I am the Association's Executive Director. WGA is 
an independent and bipartisan organization representing the Governors 
of 19 Western States and 3 U.S.-flag islands.
    The agencies within the subcommittee's jurisdiction wield 
significant influence over vast areas of the American West. 94 percent 
of all Federal lands are situated in the western States and the Federal 
Government owns over 46 percent of the land within active WGA States. 
The work of this subcommittee is of vital importance to Western 
Governors, as it helps establish how these lands are managed and how 
Federal agencies interact with other levels of government and the 
public.
    Western Governors recognize that there is a certain tension between 
State and Federal Governments, one that is embedded in the very fabric 
of our Constitution. It is equally clear that these different layers of 
government must have a close and productive working relationship to 
increase efficiencies and maximize returns on taxpayer investments. The 
promotion of a greater partnership between States and the Federal 
Government is central to the mission of WGA and is reflected in our 
Policy Resolution 2017-01, Building a Stronger State-Federal 
Relationship, which I commend to your attention.
    The promotion of greater partnership between States and the Federal 
Government is central to the mission of WGA. This is a key theme of two 
ongoing WGA projects: the National Forest and Rangeland Management 
Initiative and the Species Conservation and Endangered Species Act 
Initiative. Responsible forest and rangeland management can only take 
place when Federal, State, and local stakeholders are working 
collaboratively to increase the health and resilience of our lands. 
Likewise, fish and wildlife conservation, essential to preserving the 
heritage of the West, is only possible through the cooperative efforts 
of State and Federal officials across multiple disciplines.
    Through the National Forest and Rangeland Management Initiative, 
Governors have acknowledged progress to address past frustration with 
how western forests and rangelands are managed and have developed 
strategies to overcome barriers and build on progress for the future. 
Congress has taken steps (notably in the 2014 Farm Bill) to increase 
the pace, scale and quality of land restoration activities, and States 
have responded by implementing Good Neighbor Authority, Stewardship 
Contracting, and Insect and Disease designation authorities. WGA will 
release a report in June including several recommendations to further 
improve the health and resiliency of western forests and rangelands. I 
hope you will find these useful as you examine process reforms and 
spending priorities in the coming months.
    Western Governors believe that States should be full partners in 
the implementation of the Endangered Species Act (ESA) and should have 
the opportunity to participate in listing decisions, critical habitat 
designations, recovery planning and delisting decisions. The Act is 
premised on a strong State-Federal partnership. Section 6(a) of the ESA 
States that, ``In carrying out the program authorized by the Act, the 
Secretary shall cooperate to the maximum extent practicable with the 
States.'' WGA submits that such cooperation should involve meaningful 
consultation opportunities for States to comment, participate, or 
undertake proactive measures before the Federal Government takes action 
under the ESA.
    ESA listing decisions can have dramatic impacts on vital State 
interests. States possess primary authority to manage most fish and 
wildlife within their borders, and they are the principal recipients of 
economic benefits associated with healthy species and ecosystems. At 
the same time, species listings and their associated prohibitions and 
consultations can affect western States' abilities to promote economic 
development, accommodate population growth, and maintain and expand 
infrastructure. Consequently, States should have the right to intervene 
in judicial and administrative proceedings regarding the ESA. Western 
Governors urge the subcommittee to support the legal standing of States 
to participate in administrative and judicial actions involving ESA 
that, by their nature, implicate State authority and resources.
    For the past 4 years, the subcommittee has adopted report language 
directing Federal land managers to use State fish and wildlife data and 
analyses as principal sources to inform land use, land planning and 
related natural resource decisions. Western Governors are deeply 
appreciative of your commitment to encouraging a positive relationship 
between the States and the Federal Government in the use of wildlife 
data. Federal managers need data-driven science, mapping and analyses 
to effectively manage wildlife species and habitat, and in many cases 
States generate the best available wildlife science.
    With respect to funding levels of appropriated programs, WGA 
recommends the enactment and full funding of a permanent and stable 
funding mechanism for the Payment in Lieu of Taxes (PILT) program 
administered by the Department of the Interior (DOI). PILT funding does 
not represent a gift to local jurisdictions; rather it represents 
important compensation for the disproportionate acreage of non-taxable 
Federal lands in the West. Similarly, payments under the Secure Rural 
Schools and Community Self-Determination Act (SRS) are critical to 
compensating communities whose timber industries have been negatively 
impacted by actions and acquisitions of the Federal Government. Western 
Governors hope that you will appropriate full funding for both PILT and 
SRS payments in fiscal year 2018.
    The subcommittee is familiar with the pressing problem of ``fire 
borrowing,'' by which funding for routine U.S. Forest Service 
management activities is transferred to firefighting activities. By 
diverting funding from activities that reduce wildfire threats, this 
practice increases the overall fire risk and all but ensures that 
future wildfires will be more damaging and costly. The rising cost of 
the 10-year average of fire suppression has forced USFS to shift 
resources from non-fire to fire accounts over time. WGA strongly 
supports efforts to solve the issue of fire borrowing, and has 
advocated the adoption of a funding structure similar to that used by 
the Federal Emergency Management Agency (FEMA) in its response to 
natural disasters to address the long term erosion of capacity 
associated with the current budget approach.
    The 2014 Farm Bill accorded Governors the opportunity to request 
that National Forest System lands within their States be considered for 
insect and disease (I&D) designation, and the Forest Service responded 
by designating 46.7 million acres of land for expedited treatment. The 
Farm Bill authorized the appropriation of $200 million to accomplish 
the work required under the statute. This work will reduce the threat 
of wildfires in areas of high risk, and WGA requests that funding be 
appropriated at a reasonable and sustainable level for I&D designation 
projects.
    Data for water management and drought response planning is critical 
to western States. Western Governors request adequate funding levels 
for the Cooperative Water Program and National Streamflow Information 
Program, both administered by the DOI's U.S. Geological Survey. This 
data is integral to the water supply management decisions of States, 
utilities, reservoir operators and farmers. They are also used for 
flood forecasts, making them essential for risk assessment as well as 
water management. These two programs are important elements of a robust 
water data management framework in the western States, and provide 
needed support for drought mitigation efforts throughout the West.
    Infrastructure management is another crucial element of drought 
response. The Environmental Protection Agency's (EPA) Clean Water and 
Drinking Water State Revolving Funds (SRFs) provide necessary support 
for communities to maintain and enhance their water infrastructure. 
Western Governors' Policy Resolution 2017-04, Water Quality in the 
West, encourages adequate funding for SRFs.
    The following recommendations are intended to help ensure that 
taxpayers realize a healthy return on the investment of limited 
discretionary resources. This goal will be more readily achieved to the 
extent that Federal agencies better leverage State authority, resources 
and expertise.
    Western Governors continue to be concerned about the number of wild 
horses and burros on BLM lands. This number is presently estimated to 
be almost double the current Appropriate Management Level (AML). 
Overpopulation can degrade rangeland, causing harmful effects on 
wildlife and domestic livestock and threatened and endangered species 
habitat. WGA supports a process to establish, monitor and adjust AMLs 
for wild horses and burros that is transparent to stakeholders, 
supported by scientific information (including State data), and 
amenable to adaptation with new information and environmental and 
social change.
    Western Governors previously expressed concern regarding the 
development of the EPA and U.S. Army Corps of Engineers' (USACE) 2015 
Clean Water Rule, as States were not adequately consulted by the 
agencies during the process. That Rule is now being reconsidered by the 
current Administration and is stayed in the U.S. Court of Appeals for 
the Sixth Circuit. EPA and USACE have recently begun efforts to 
promulgate new language to clarify the jurisdictional boundaries of the 
Clean Water Act and have taken positive steps to engage WGA and 
individual States in the rulemaking process. Western Governors look 
forward to working with the agencies to develop a new rule that 
reflects the viewpoints of the Western Governors and adequately 
protects States' primary authority over the management and allocation 
of water resources.
    States have exclusive authority over the allocation and 
administration of rights to groundwater located within their borders 
and are primarily responsible for protecting, managing, and otherwise 
controlling the resource. The regulatory reach of the Federal 
Government was not intended to, and should not, be applied to the 
management and protection of groundwater resources. WGA encourages 
Congress to include express and unambiguous language protecting States' 
authority over groundwater resources in any water-related legislation, 
as well as clear direction to administrative agencies to respect such 
authority. Federal agencies should work through existing State 
authorities to address their groundwater-related needs and concerns. 
Such collaborative efforts will help ensure that Federal efforts 
involving groundwater recognize and respect State primacy and comply 
with all statutory authorities.
    States also possess delegated authority from EPA to manage air 
quality within their borders. Last year the EPA tightened the National 
Ambient Air Quality Standard (NAAQS) for ozone to .070 parts-per-
million, a level equal to background ozone levels in much of the West. 
Attaining the revised ozone standard will present significant 
challenges for many western States--challenges exacerbated by factors 
such as wildfire, transported ozone, and background ozone. For decades, 
eastern States have enjoyed the benefit of financial and technical 
support from EPA for ozone research and mitigation. Given the unique 
character of the West and the region's attainment challenges, funding 
should be appropriated for EPA to assist western States in discharging 
their ozone responsibilities and in developing cooperative agreements 
with EPA. In addition, WGA urges Federal agencies to engage States as 
co-regulators in any rulemaking that results from a review of 
regulations under Executive Order No. 13783.
    Improving electricity transmission and distribution siting and 
permitting is also a priority of Western Governors. WGA encourages 
congressional direction to Federal departments and agencies to work 
with States on identifying infrastructure locations and expediting 
permitting for facilities that improve the reliability and resilency of 
electricity in the western States.
    Western Governors and Federal land management agencies deal with a 
complex web of interrelated natural resource issues. It is an enormous 
challenge to judiciously balance competing needs in this environment, 
and Western Governors appreciate the difficulty of the decisions this 
subcommittee must make. The foregoing recommendations are offered in a 
spirit of cooperation and respect, and WGA is prepared to assist you as 
you discharge these critical and challenging responsibilities.
    Again, thank you for the opportunity to provide written testimony. 
Please feel free to contact WGA if you have any questions about the 
content of these remarks.

    [This statement was submitted by James D. Ogsbury, Executive 
Director.]
                                 ______
                                 
            Prepared Statement of the Wilderness Land Trust
    Chairman Murkowski, Ranking Member Udall and Members of the 
subcommittee, my name is Brad Borst and I am the President of The 
Wilderness Land Trust, a small, focused national nonprofit that 
facilitates the transfer of lands owned by willing sellers to the 
United States to unify ownership within designated and proposed 
wilderness. This work secures already conserved lands, access to and 
through them and creates management efficiencies.
    Thank you for the opportunity to submit testimony. My testimony 
focuses on a very small portion of the Land and Water Conservation Fund 
(LWCF): funding for the Inholding Acquisition Accounts in the four land 
management agencies.
    Access and management efficiencies are vital goals for the 
investment of limited Federal funds. Acquisitions made through the 
inholding accounts have demonstrated success over their 52-year 
history. Congress created these accounts when it created the National 
Wilderness Preservation System (NWPS) to complete and secure its 
commitment to that system. Continued modest funding--between $3 and $5 
million--in each of the Inholding Accounts is vital to the success of 
securing and preserving Wilderness designated by Congress while fairly 
treating private landowners.
    When the Trust began 25 years ago, there were approximately 400,000 
acres of private land within designated wilderness in the lower 48 
States. Today, nearly half of the inholdings have been acquired, with 
approximately 175,000 acres of private lands still remaining in more 
than 2,800 parcels in the lower 48 States. (In addition, there are 
440,000 acres of State owned lands within designated wilderness. Alaska 
is home to 47 percent of the total nonFederal lands--predominately 
Native corporation lands stemming from ANCSA comprising 693,641 acres 
in 686 parcels.)
    Large appropriations for the Inholding Accounts did not accomplish 
this success. Rather, it is reliable, modest funding so that lands can 
be purchased when landowners want to sell. This is the level of funding 
we urge continue.
    Thank you for funding the Inholdings Accounts in fiscal year 2017 
and I ask for your continued support in 2018. An appropriation of 
between $3 and 5 million to each of the land management agencies--the 
Forest Service, the Bureau of Land Management, the Fish and Wildlife 
Service and the National Park Service--is sufficient to enable the 
agencies to acquire high priority inholdings from willing sellers.
    Our work, along with that of many other organizations and 
facilitated by funding of the Inholding Accounts, aims to give the 
Federal Government less work. Examples of the benefits resulting from 
the elimination of private inholdings within designated wilderness 
include:
  --Creates recreational access and economic development opportunities;
  --Saves Federal dollars by solving management problems and 
        inefficiencies that frequently exceed the cost of acquisition;
  --Helps private landowners
  creating recreational access and economic development opportunities
    All agencies prioritize securing access when ranking acquisition 
projects. In determining where to place its efforts, The Trust follows 
a ranking system developed, in cooperation with the Federal land 
management agencies and Colorado State University. Prioritizing the 
Acquisition of Wilderness Inholdings is a rational basis for 
acquisition now widely accepted and used across the country. Of the 17 
separate factors in three clustered areas, the prioritization 
specifically calls out: enhancement of wilderness visitor experience 
such as obtaining legal public access or eliminating a safety hazard.
    In just this past year, the Trust worked on a project that will 
create access to the only landlocked wilderness in the Wilderness 
Preservation System (NWPS), the Sabinoso Wilderness (NM), acquired 
lands in the Rocky Mountain National Park (CO) that will secure access 
to a prominent overlook in the Wild Basin portion of the Park (we hope 
this to be developed as accessible wilderness access) and secured 
recreational access in the Garcia and Elkhorn Ridge Wildernesses (CA). 
Several other projects are in the works, all of which are dependent on 
continued modest funding of the inholding accounts for success.
    A review of the work completed by the Trust in the last 5 years and 
transferred to Federal ownership shows that 60 percent of the projects 
created or secured public access to conserved wilderness land. Recent 
purchases funded from the Inholding Accounts have secured access to the 
east side of the Ventana Wilderness (CA), secured trails through the 
Wabayuma Peak Wilderness (AZ) and the Glacier Peak Wilderness (WA) and 
created access to a recently designated wilderness in Idaho. More are 
on the way.
    Additionally, on the east side of the Castle Crags Wilderness (CA) 
is a wall of private land that blocks access from Interstate 5. The 
nearby communities of Dunsmuir and Mt. Shasta are wholly supportive of 
transferring these lands to Federal ownership and opening up the Crags 
to visitation. The towns anticipate visitors that will come to the 
community, and its climbing, biking and skiing shops it is hoped will 
grow. Dunsmuir has suffered under an unemployment rate of 18 percent 
and looks forward to having the recreational asset of the Crags' world 
class climbing just outside their community. Rather than a seven mile 
hike around the private lands that now block access, climbers will soon 
access the area only one mile off of Interstate 5.
                         saving federal dollars
    A specific criterion within the above mentioned ranking system used 
by the Trust and its Federal partners is: improvement of wilderness 
manageability by acquiring a parcel that substantially burdens land 
managers.
    The management of human development activities in wilderness is 
expensive for the agencies. The potential resource damage to the 
protected lands and waters is enormous. While steady progress has been 
made reducing private inholdings in wilderness areas in the lower 48 
States, our wilderness areas remain riddled with private inholdings 
that greatly threaten the wilderness that surrounds them and creates a 
``Swiss cheese'' effect.
    While The Wilderness Act defines Wilderness as places where ``where 
man himself is a visitor who does not remain,'' private landowners 
retain their rights to build roads, homes and other buildings, extend 
utilities, extract minerals and timber, and block public access. There 
are numerous cases where such inholdings have been developed in ways 
that seriously degrade wilderness values on the adjacent public lands. 
All of these activities pose challenges for Federal managers of the 
lands surrounding private inholdings and create significant and costly 
management inefficiencies.
    By contrast, the cost of acquiring these properties when they are 
offered for sale is relatively small. That is why continued modest 
appropriations for the inholding acquisition program are important. 
About one third of all designated wilderness include remaining private 
lands. There is much work left to be done.
    In the last 5 years, 100 percent of our completed projects included 
resolving one or more land management issues, ranging from the 
potential development of resources that would damage and are 
inconsistent with the surrounding wilderness, to long-standing 
conflicts and the potential rebuilding on isolated parcels already 
consumed by wildfire. For example, we just acquired the largest 
inholding in the Chuck River Wilderness (AK), a now defunct gold mine 
and source of repeated redevelopment speculation that was a consistent 
management issue for the Forest Service.
    The costs associated with firefighting on public lands are 
significant. The Western Forestry Leadership Coalition, a State and 
Federal Government partnership, published a report: ``The True Cost of 
Wildfire in the Western U.S.'' in April 2009. Among the case studies 
reviewed, the lowest total firefighting cost per acre was the Canyon 
Fire Complex (MT) (2000). The total cost was $411 per acre. There were 
only six structures involved. The highest cost per acre was the 2000 
Cerro Grande fire (NM). It cost $22,634 per acre. There were 260 
residences involved. This is strong evidence that the presence of 
private lands and structures within public landscapes exponentially 
increases firefighting costs.
    The Wilderness Land Trust may be the only landowner within 
designated wilderness that can say it has experienced both sides of 
firefighting costs. A property the Trust owned in the Yolla Bolly 
Wilderness (CA) burned while under our ownership. Significant resources 
were spent to protect the structures on it. On the other hand, because 
the Trust's Hells Canyon Wilderness property (ID) had transferred one 
week before a fire, firefighting efforts rightly concentrated at the 
edges of the wildland-urban interface.
                solves management and resource problems
    The Inholding Accounts have been used to acquire defunct mines from 
private owners, private retreats, and various properties that include 
the spectrum of non--wilderness uses. We are currently ready for 
transfer to Federal ownership a former mine in the Frank Church River 
of No Return Wilderness. We've closed the former un-reclaimed mine on 
the banks of the Wild and Scenic Salmon River. The transfer will remove 
a private home and no trespassing signs on one of the few flat spots on 
that stretch of river. It will be returned to the public, who can enjoy 
being able to stop and learn about past mining days, camp or fish from 
land on which the abandoned and open mine is now reclaimed and closed--
no longer a threat to the public, or to the Wild and Scenic River from 
its open shafts deep into the alluvium of the river.
                        helps private landowners
    Landowners who are ready to sell deserve to have their properties 
purchased. Their isolated properties are primarily the result of 19th 
century Congressional policy when homesteads, mining operations and 
timber production were encouraged without the balance of conservation. 
Thus, wilderness areas now designated by Congress are pockmarked with 
islands of private ownership that compromise the wilderness resource, 
become expensive management issues for the agencies and often befuddle 
landowners who wish to sell these properties for the benefit of their 
companies or families.
    If the opportunity to acquire these when offered is lost, the 
management issues and inefficiencies that result from private lands 
remaining within designated wilderness continue. This is why consistent 
funding for the Inholding Accounts is vital. It has been our experience 
that these critical inholdings come on the market at a steady rate as 
owners make decisions based on their family or business needs. Without 
consistent funding, numerous opportunities to acquire these private 
parcels will be lost. Not for a year, but often for a generation.
    Finally, it is also important to recognize that wilderness 
inholdings come in many shapes, sizes and prices depending on the real 
estate market in a particular area. A number of projects that fall in 
the agency project lists are inholdings. Thus, we ask that you give the 
highest level of support possible for Federal LWCF acquisitions.
    In summary, continued consistent funding of the Inholding Accounts 
is vital. Without such funding, significant opportunities to acquire 
private parcels within our designated wilderness areas will be lost for 
at least another generation. We urge your support of continued funding 
for these accounts and as much support for Federal LWCF acquisitions as 
possible.
    Thank you for the opportunity to testify. We greatly appreciate 
your work, consideration and the support of the Subcommittee in 
securing these appropriations.

    [This statement was submitted by Mr. Brad Borst, President.]
                                 ______
                                 
              Prepared Statement of the Wilderness Society
    The Wilderness Society (TWS) represents more than 1 million members 
and supporters who share our mission to protect wilderness and inspire 
Americans to care for our wild places. When deciding on funding that 
affects hundreds of millions of Americans, we urge you to take into 
account the full economic, social, environmental and cultural value of 
the many programs overseen by our land management agencies.
    Additionally, we urge that in crafting the Interior and Environment 
Appropriation bill you avoid harmful policy riders that damage our 
land, air, water and wildlife. Must-pass appropriations legislation is 
not the appropriate venue for unpopular policy provisions which 
undermine bedrock environmental laws like the Wilderness Act, 
Antiquities Act and Land and Water Conservation Fund Act. In 
particular, we strongly oppose riders which would authorize a road 
through the Izembek Wilderness Area or prevent the Bureau of Land 
Management from implementing the collaboratively developed sage-grouse 
conservation strategy.
    The laudable goal of returning to regular order on appropriations 
must not continue to be undermined by the attempted inclusion of 
harmful policy riders which would damage the environmental protections 
all Americans value. Their inclusion only serves to further compromise 
an already challenging appropriations process.
    Prudent investments in critical conservation programs will provide 
jobs and protect the health and economic wellbeing of local 
communities. We urge bold action in support of conservation funding for 
fiscal year 2018. Specifically, TWS recommends:
                       recreation & public lands
Land and Water Conservation Fund
    Now in its second half-century, the Land and Water Conservation 
Fund (LWCF) remains the premier Federal program to conserve our 
Nation's land, water, historic, and recreation heritage. It is a 
critical tool to protect national parks, national wildlife refuges, 
national forests, Bureau of Land Management (BLM) lands, and other 
Federal areas. The companion LWCF State grants program provides crucial 
support for State and local parks, recreational facilities, and trails. 
Full funding for LWCF will allow land management agencies to manage our 
public lands more efficiently and cost-effectively. This is in part 
achieved through strategic inholdings acquisition which reduces 
internal boundary line surveying, right-of-way conflicts and special 
use permits.
    LWCF also funds two other important State grant programs--the 
Forest Legacy Program and Cooperative Endangered Species programs--that 
ensure permanent conservation of important forest lands and threatened 
and endangered species' habitat, as well as important wildlife and 
recreational habitat and ensures that public lands stay public for 
hunters, anglers, and other outdoor recreationists for generations to 
come.

    -- TWS strongly supports fully funding LWCF at the authorized level 
of $900 million, with a discretionary funding level of $475 million.
BLM National Landscape Conservation System
    The National Landscape Conservation System (Conservation Lands), 
overseen by the BLM, comprises over 30 million acres of congressionally 
and presidentially designated lands and waters, including National 
Monuments, National Conservation Areas, Wilderness Areas and other 
designations. Stewardship of the Conservation Lands provides jobs for 
thousands of Americans while supporting vibrant and sustainable 
economies in surrounding communities. The Conservation Lands provide 
immeasurable public values from modest investments: outstanding 
recreational opportunities, wildlife habitat, clean water, wilderness, 
and open space near cities.

    -- TWS strongly supports $83.122 million in fiscal year 2018 
funding for the National Conservation Lands. This is a small increase, 
but a strong funding proposal for the Conservation Lands, and will help 
promote the natural, cultural, and historical resource protection 
provided by the Conservation Lands for the American public.
BLM Wilderness Management
    We want to call specific attention to the Wilderness Management 
program, housed within BLM's National Landscape Conservation System. 
The Wilderness program plays a critical role in supporting the agency's 
multiple use and sustained yield mission, emphasizing continued 
collaboration, public involvement and youth engagement. As part of the 
Department of Interior (DOI) Engaging the Next Generation Initiative, 
the Wilderness Management program connects communities with their 
public lands, providing opportunities for outdoor recreation, 
scientific research, education, volunteer and full time employment.

    -- TWS strongly supports restoring BLM Wilderness funding to the 
fiscal year 2011 level of $19.663 million. The enacted level for BLM 
wilderness management is a step in the right direction, but still 7 
percent lower than the fiscal year 2011 enacted level in raw dollars. 
To just keep the fiscal year 2011 level on pace with inflation the 
fiscal year 2018 request would need to be $21.036 million.
U.S. Forest Service Recreation, Heritage, and Wilderness
    The Recreation, Heritage and Wilderness program provides critical 
funding to improve recreational access to our national forests, give 
training and employment opportunities for youth and veterans, modernize 
and improve the recreational permitting process, and protect our 
cultural heritage. We recommend that funding for the Recreation, 
Heritage and Wilderness program be restored to support much needed 
trails maintenance, update signage, fight invasive species, restore 
watersheds, and monitor effects of climate change, among other critical 
needs.

    -- We urge Congress to support wilderness and recreation by 
restoring funding to the fiscal year 2010 level of $285.1 million for 
the Recreation, Heritage and Wilderness Program. Recreation is the most 
ubiquitous use of our forest lands, and accounts for more than half of 
all job and income effects attributable to Forest Service programs 
(over 190,000 jobs and $11 billion in spending effects by visitors).
BLM Recreation Resources Management
    The Recreation Resources Management program provides critical 
funding to improve recreation access for all visitors to BLM lands, 
engage youth, promote public health, protect visitor safety and 
strengthen rural economies. Investments in the Recreation program will 
support increased access for all types of recreation by maintaining 
trails and roads, increased access for hunters and anglers to world 
class fish and game habitat, and small businesses, guides and 
outfitters through processing commercial recreation permits.

    -- TWS strongly supports funding the Recreation Resources 
Management program at $53.5 million in fiscal year 2018. This is a 
small increase over the currently enacted levels, and would support 3 
additional FTEs to ensure efficient processing of recreations permits, 
oversight, and visitor safety.
U.S. Forest Service Legacy Roads and Trails
    The Legacy Roads and Trails (LRT) program provides essential 
funding to improve recreational access, advance collaborative watershed 
restoration projects, provide clean drinking water, and protect aquatic 
species. LRT funding was slashed 50 percent in fiscal year 2011 and 22 
percent in fiscal year 2014. Given the recent evaluation of the 
Integrated Resource Restoration (IRR) program we recommend that LRT be 
removed from IRR to enable it to operate as a complementary program to 
IRR, similar to Collaborative Forest Landscape Restoration. We also do 
not recommend that the IRR pilot program be expanded until the test 
regions have proven that IRR can improve restoration without a loss of 
transparency and accountability. Specifically, TWS recommends:

    -- Funding Legacy Roads and Trails at $50 million, distinct from 
IRR. The highest appropriation for LRT was in 2010 at $90 million, and 
even then the need far surpassed the program's capacity. LRT provides 
tremendous returns, through leveraging other public and private 
funding, reducing future maintenance costs, and creating jobs and 
contributing to local economies. 
                                 energy
Bureau of Land Management Oil and Gas Policy
    TWS believes that our public lands should be treasured and 
maintained for the benefit of all Americans. As we continue to extract 
publicly owned resources--nearly 200 million acres of our public lands 
are currently available for leasing--BLM must do so with full funding 
for programs that support operational safety, inspections, and both 
environmental and fiscal stewardship. BLM funding should encourage 
balanced oil and gas development on public lands with natural resource 
benefits and recreation uses, and ensure that public resource are fully 
and fairly valued for the American people.

    -- TWS strongly supports restoring the BLM funding level to $38,630 
million, including increasing Oil and Gas Inspections to $48.4 million, 
and increasing Resource Management Planning to $48.1 million.
Sage Grouse Conservation Plans
    Ranchers and other Americans benefit from Federal assistance in 
managing sagebrush across the western United States. Congress should 
fully fund the sage-grouse conservation strategy, which helped to 
prevent a listing under the Endangered Species Act. Full funding for 
implementation is important for the recovery of this critical western 
game species and those who rely on its habitat for their livelihood.

    -- TWS strongly supports a funding level of $89.7 million in fiscal 
year 2018 to conserve and restore sage steppe habitat through the 
Bureau of Land Management.
Renewable Energy
    TWS is a strong proponent of transitioning our country to a clean 
energy economy by developing our renewable energy resources 
responsibly. We believe renewable energy is an appropriate and 
necessary use of public lands when properly sited in areas that avoid 
habitat, resource, and cultural conflicts. Identifying and avoiding 
conflicts early helps ensure projects are permitted more efficiently 
with limited impact on wildlands. TWS hopes the Department will 
continue to support a program that ensures our public lands play an 
important role in supporting renewable energy infrastructure through 
environmental review, suitability screening, and identification of low-
conflict designated leasing areas where wind and solar projects are 
likely to succeed--an approach which cut permitting times in half in 
the Dry Lake solar zone outside of Las Vegas.

    -- TWS strongly supports increasing funding for renewable energy 
programs across the Department of Interior to $110.4 million in fiscal 
year 2018. This increase would enhance training opportunities for staff 
to fully implement the wind and solar leasing rule, mitigation 
strategies, the Western Solar Plan and the Desert Renewable Energy 
Conservation Plan. Implementation of these programs will facilitate 
efficient permitting for projects in designated leasing areas and 
identification of new designated leasing areas in regions with strong 
development demand. Finally, this funding should support the ongoing 
review of the West-Wide Energy Corridors to facilitate more efficient 
and appropriate siting and permitting for transmission lines to ensure 
greater access for clean energy development.

    [This statement was submitted by Drew McConville, Senior Managing 
Director of Government Relations.]
                                 ______
                                 
        Prepared Statement of the Wildlife Conservation Society
    The Wildlife Conservation Society (WCS) would like to thank 
Chairwoman Murkowski, Ranking Member Udall and the members of the 
subcommittee for providing this opportunity to provide public testimony 
in support of sufficient funding in the fiscal year 2018 Interior, 
Environment and Related Agencies (Interior) Appropriations Act for the 
Multinational Species Conservation Fund (MSCF), Office of International 
Affairs (IA), Office of Law Enforcement (OLE), and Cooperative 
Landscape Conservation Program (CLCP) accounts at the U.S. Fish and 
Wildlife Service's (FWS), the International Forestry program at the 
U.S. Forest Service (FS-IF), and on the final 4(d) rule revision on the 
African elephant. WCS is deeply concerned by the President's budget 
proposal, which retreats from many of the important investments this 
subcommittee has made in domestic and international conservation under 
the Chairwoman's leadership. We strongly urge you to maintain funding 
for these programs at fiscal year 2017 levels.
    WCS was founded with the help of Theodore Roosevelt in 1895 with 
the mission of saving wildlife and wild places worldwide. Today, WCS 
manages the largest network of urban wildlife parks in the United 
States led by our flagship, the Bronx Zoo. Globally, our goal is to 
conserve the world's largest wild places in 16 priority regions, home 
to more than 50 percent of the world's biodiversity. We manage more 
than 200 million acres of protected lands around the world, employing 
more than 4,000 staff including 200 Ph.D. scientists and 100 
veterinarians.
    The American conservation tradition is based on promoting 
sustainable use of our natural resources in order to preserve the 
world's species and environment for future generations. In recognition 
of the current fiscal constraints, it is important to note that 
effective natural resources management and conservation has indirect 
economic benefits, including contributing to local economies through 
tourism and other means. Internationally, by supporting conservation, 
the US is increasing capacity and governance in developing nations and 
improving our own national security as a result.
    FWS--Multinational Species Conservation Fund--$11.1 Million: Global 
priority species, such as tigers, rhinos, African and Asian elephants, 
great apes, and marine turtles, face constant danger from poaching, 
habitat loss and other serious concerns. MSCF programs have helped to 
sustain wildlife populations by controlling poaching, reducing human-
wildlife conflict and protecting essential habitat--all while promoting 
US economic and security interests in far reaching parts of the world. 
These programs are highly efficient, granting them an outsized impact 
because they consistently leverage two to four times as much in 
matching funds.
    WCS has had great success on projects using funds from the MSCF. 
One grant awarded to WCS in fiscal year 2016 through the African 
Elephant Conservation Fund will provide initial funding for rugged 
technology and training and equipping park rangers in Yankari Game 
Reserve to defend one of the last populations of elephants in Nigeria. 
WCS is grateful that the Committee appropriated $11.1 million for the 
program in fiscal year 2017 and support an appropriation of the same 
amount in fiscal year 2018.
    FWS--International Affairs--$15.8 Million: The FWS International 
Affairs (IA) program supports efforts to conserve our planet's rich 
wildlife diversity by protecting habitat and species, combating illegal 
wildlife trade, and building capacity for landscape-level wildlife 
conservation. The program provides oversight of domestic laws and 
international treaties that promote the long-term conservation of plant 
and animal species by ensuring that international trade and other 
activities do not threaten their survival in the wild. Within IA, the 
Wildlife Without Borders program seeks to address grassroots wildlife 
conservation problems from a broad, landscape perspective, building 
regional expertise and capacity while strengthening local institutions. 
WCS asks that the subcommittee maintains support for $15.8 million, 
equal to the fiscal year 2017 appropriation.
    FWS--Office of Law Enforcement--$75.1 Million: The US remains one 
of the world's largest markets for wildlife and wildlife products, both 
legal and illegal. A small group of dedicated officers at the OLE are 
tasked with protecting fish, wildlife, and plant resources by 
investigating wildlife crimes--including commercial exploitation, 
habitat destruction, and industrial hazards--and monitoring the 
Nation's wildlife trade to intercept smuggling and facilitate legal 
commerce. Many of the new responsibilities placed on the FWS by the 
National Strategy to Combat Wildlife Trafficking are enforced by the 
OLE, and WCS supports continuing to fund the agency at $75.1 million. 
Additional funding for the program will support their efforts to 
maximize the scope and effectiveness of FWS' response to the 
international wildlife trafficking crisis by strengthening forensic 
capabilities and expanding the capacity of their Special Investigations 
Unit. It will also ensure OLE has an adequate number of law enforcement 
agents deployed to enforce laws against wildlife trafficking in the 
U.S. effectively and allow the agency to continue to support 
coordinated law enforcement actions against wildlife trafficking 
overseas through the deployment of FWS attaches in targeted U.S. 
embassies.
    FWS--Cooperative Landscape Conservation--$13 Million: Many of the 
domestic conservation programs in this bill provide funding to States 
to implement their conservation goals. But wildlife does not recognize 
political boundaries, and scarce conservation dollars can best be spent 
when effective planning and coordination takes place across entire 
ecosystems. The CLCP funds a network of 22 Landscape Conservation 
Cooperatives in the US and Canada, which use a collaborative approach 
between Federal, State, Tribal and local partners to identify landscape 
scale conservation solutions and work collaboratively to meet unfilled 
conservation needs, develop decision support tools, share data and 
knowledge, and facilitate and foster conservation partnerships. Funding 
will support landscape planning and design that will improve the 
condition of wildlife habitat and improve resilience of U.S. 
communities. WCS encourages the Committee to appropriate $13 million 
for this program.
    USFS--International Forestry--$8 Million: The US economy has lost 
approximately $1 billion per year and over 200,000 jobs due to illegal 
logging, which is responsible for 15-30 percent of all timber by 
volume. The FS-IF program works to level the playing field by reducing 
illegal logging and improving the sustainability and legality of timber 
management overseas, translating to less underpriced timber 
undercutting US producers. Through partnerships with USAID and the 
Department of State, FSIP helps to improve the resource management in 
countries of strategic importance to US security.
    With technical and financial support from FS-IP, WCS has been 
working to conserve a biologically rich temperate forest zone called 
the Primorye in the Russian Far East. The region hosts over a hundred 
endangered species as well as numerous threatened species, including 
the Far Eastern leopard and Amur tiger. FS-IP works with us to exchange 
information and methodologies with Russian scientists, managers, and 
students on a variety of wildlife-related topics to support 
conservation and capacity building efforts and ensure the sustainable 
management of forests and wildlife habitat. WCS supports an 
appropriation of $8 million for fiscal year 2018, equal to the amount 
appropriated the last several fiscal years.
    No Harmful Rider on Ivory: On the ground in Africa and elsewhere, 
WCS scientists are seeing, first-hand, the devastating impact poaching 
is having on elephants, rhinos, tigers, and other iconic species. A 
study published by WCS found that in 2012 alone, 35,000 African 
elephants were killed for their ivory--that is an average of 96 
elephants per day or one killed every 15 minutes. This finding is 
supported by a subsequent study which also found that 100,000 elephants 
were poached between 2011 and 2013. Both studies show that conditions 
are dire for the subspecies of African forest elephants, which has 
declined by about two-thirds in a little more than a decade. Continued 
poaching at these rates may mean the extinction of forest elephants in 
the wild within the next 10 years and the potential loss of all African 
elephant species in the wild in our lifetimes. Action must be taken now 
to prevent this catastrophe from occurring.
    There is broad consensus that the stunning increase in poaching is 
due to one factor--the illegal sale of poached ivory in commercial 
markets around the world. The illegal trade in elephant ivory and other 
products, like rhino horns and tiger skins, is worth at least an 
estimated $8 to $10 billion annually, and because of the lucrative 
nature of this industry, evidence is showing increasingly that 
transnational criminal organizations and terrorist groups that are 
involved in other major trafficking operations--drugs, humans and 
weapons--are engaged in wildlife trafficking as well.
    There is no question that China is the largest market for illegal 
ivory. However, the United States is also one of the larger 
destinations, both for domestic consumption and as a transshipment hub 
for Asia. As part of Operation Crash, the US Fish and Wildlife Service 
and Department of Justice have successfully arrested criminals and 
prosecuted cases in several States over the last few years involving 
millions of dollars of illegal ivory and rhino horn. These busts, 
although few in number, are strong evidence that there is a domestic 
problem with illegal ivory, all of which is smuggled in from overseas 
and which frequently crosses State lines, placing it firmly under 
Federal jurisdiction.
    In 2016, the FWS began enforcing a rule to close loopholes in the 
existing ban on commercial ivory sales that have allowed illegal ivory 
to be sold in the U.S. for decades. The rule requires sellers to 
demonstrate that ivory items qualify for an exemption from the law so 
consumers may be assured they are purchasing a legal product. It also 
tightens the existing, Congressionally-mandated ban on the import of 
most ivory, with some narrow exceptions, including ones for sport-
hunted trophies and musicians travelling with instruments that contain 
ivory. The rule continues to allow the domestic sale of items such as 
bona fide antiques and, to accommodate the concerns voiced by many 
stakeholders, also allows the sale of items like firearms, knives, 
instruments and artworks that contain only a small amount of ivory. It 
is also important to note that nothing in the rule makes the possession 
of ivory illegal, and that States maintain the right to regulate 
commercial sales occurring entirely within their borders.
    Past Interior bills in the House contained a provision that would 
have blocked FWS from proceeding on this rule, forcing the continuation 
of a system that we know does not work and has been a contributing 
factor in the poaching of 100,000 elephants over the past 3 years. WCS 
is grateful that the Senate has not included a similar provision in its 
corresponding bills. Given that there have been few complaints from any 
parties in the rule's first year of implementation, WCS encourages the 
subcommittee not to include the same or a similar rider in the fiscal 
year 2018 bill.
    We appreciate the opportunity to share WCS's perspectives and make 
a case for increased investment in conservation in the fiscal year 2018 
Interior, the Environment and Related Agencies Appropriations Act. 
Conservation of public lands is an American tradition and, as far back 
as 1909, Theodore Roosevelt recognized that the management of our 
natural resources requires coordination between all nations. Continued 
investment in conservation will reaffirm our global position as a 
conservation leader, while improving our national security and building 
capacity and good governance in developing countries.
                                 ______
                                 
               Prepared Statement of the Wildlife Society
    The Wildlife Society (TWS) appreciates the opportunity to provide 
testimony concerning the fiscal year 2018 budgets for the U.S. Fish and 
Wildlife Service (FWS), Bureau of Land Management (BLM), U.S. 
Geological Survey (USGS), and U.S. Forest Service (USFS). Founded in 
1937, TWS inspires, empowers, and enables wildlife professionals to 
sustain wildlife populations and their habitat through science-based 
management and conservation. Appropriations for the following programs 
within the jurisdiction of the Subcommittee on Interior, Environment, 
and Related Agencies will affect the current and future status of 
wildlife and wildlife professionals in North America. To empower and 
enable the appropriate use of science within these programs and beyond, 
TWS respectfully requests the following programmatic funding in fiscal 
year 2018.

 FISCAL YEAR 2018 INTERIOR APPROPRIATION REQUESTS--THE WILDLIFE SOCIETY
------------------------------------------------------------------------
                                   Fiscal year 2017    Fiscal year 2018
  Agency          Program              enacted                TWS
------------------------------------------------------------------------
            State & Tribal       63M................  70M
             Wildlife Grants.    484M...............  586M
            National Wildlife    240M...............  253M
FWS          Refuge System.      38M................  38M
            Ecological Services  4M.................  6.5M
            NAWCA..............  52M................  54M
            NMBCA..............  48M................  50M
            Partners for Fish    13M................  19M
             and Wildlife.
            Migratory Bird
             Management.
            Migratory Bird
             Joint Ventures.
------------------------------------------------------------------------
            Wildlife &           103M...............  121M
BLM          Fisheries           22M................  48M
             Management.         81M................  81M*
            T&E Species
             Management.
            Wild Horse & Burro
             Management.
------------------------------------------------------------------------
USGS        Ecosystems Mission   160M...............  174M
             Area.               17M................  22M
            Cooperative
             Research Units.
------------------------------------------------------------------------
USFS        Wildlife and         140M...............  140M
             Fisheries Habitat.  289M...............  303M
            Forest and
             Rangelands
             Research.
------------------------------------------------------------------------
* BLM Wild Horse & Burro Management funding request accompanies request
  to remove an associated policy rider.
NOTE: In addition to these fiscal year 2018 requests, TWS urges Congress
  to ensure the independent science-advising role of Federal advisory
  committees is protected during the administration's recent actions to
  suspend and review these bodies.

                     u.s. fish and wildlife service
    The State and Tribal Wildlife Grants Program (STWG) is the Nation's 
only program that directly supports development and implementation of 
State Wildlife Action Plans (SWAPs), thereby assisting States in 
preventing classification of more wildlife as threatened or endangered. 
Collectively, STWG funds support strong partnerships between Federal, 
State, Tribal, private, and nonprofit entities that enable wildlife 
professionals to implement on-the-ground conservation activities that 
benefit over 12,000 at-risk species. Between fiscal year 2002 and 
fiscal year 2010, appropriations for STWG were greater than $70 million 
per year. Subsequent budget reductions in STWG, however, have not 
allowed this highly successful program to make adequate progress. TWS 
requests Congress empower the front lines of conservation with at least 
$70 million for STWG.
    As a member of the Cooperative Alliance for Refuge Enhancement 
(CARE), TWS requests at least $586 million for the National Wildlife 
Refuge System's operations and maintenance accounts in fiscal year 
2018. CARE estimates that the Refuge System needs at least $900 million 
in annual operations and maintenance funding to properly administer its 
566 refuge units, 38 wetland management districts, and 5 marine 
national monuments spanning over 850 million acres of land and water. 
Without adequate funding, habitat restoration is limited, invasive 
species are left unchecked, poaching and other illegal activities 
occur, and our Nation's wildlife heritage declines. Furthermore, the 
Refuge System generates approximately $4.87 in economic activity for 
every $1 appropriated by Congress. By providing $586 million in fiscal 
year 2018, Congress will bring us much closer to achieving the 
necessary $900 million by fiscal year 2021.
    The North American Wetlands Conservation Act is a cooperative, non-
regulatory, incentive-based program that has shown unprecedented 
success in maintaining and restoring wetlands, waterfowl, and other 
migratory bird populations. This program, however, has remained 
drastically underfunded despite its demonstrated effectiveness. We 
greatly appreciate the $3 million increase in fiscal year 2017 and ask 
that Congress again provide at least $38 million for NAWCA in fiscal 
year 2018.
    Since 2002, the Neotropical Migratory Bird Conservation Act (NMBCA) 
has provided more than $58.5 million in grants to support 510 projects 
in 36 countries that enable wildlife professionals to conserve 386 bird 
species on 4.2 million acres of habitats in the United States, Mexico, 
Central America, South America, and the Caribbean. Moreover, NMBCA has 
achieved a partner match ratio of nearly 4:1 despite requiring only a 
3:1 match. TWS recommends Congress increase funding to at least $6.5 
million in fiscal year 2018 to achieve greater conservation results 
under the program.
    Through the Ecological Services Program, FWS works with diverse 
public and private partners to help identify species facing extinction 
and reduce threats to their populations so that the requirement of 
Federal protection can be removed. Wildlife professionals in FWS are 
working on new strategies to increase the efficiency and effectiveness 
of the Ecological Services Program and reduce regulatory burdens on 
private partners. To support these actions--and the increased emphasis 
on consultation and recovery--we recommend Congress provide at least 
$106 million for Planning and Consultation, $35 million for 
Conservation and Restoration, $23 million for Listing, and $89 million 
for Recovery in fiscal year 2018.
    TWS regularly expresses the importance of wildlife habitat on a 
mosaic of public and private lands. The Partners for Fish and Wildlife 
Program (PFW) allows voluntary habitat restoration goals on private 
lands to be achieved through cost-efficient financial and technical 
assistance from wildlife professionals in FWS. For the role this 
program plays in improving private lands wildlife stewardship while 
working to preempt ESA listings through projects like the Monarch 
Butterfly Conservation Initiative, TWS requests at least $54 million 
for PFW in fiscal year 2018.
    The Migratory Bird Joint Ventures, part of FWS' Migratory Bird 
Management program, are locally-directed partnerships that develop and 
implement science-based habitat conservation strategies for all species 
of birds across North America. These partnerships have leveraged 
Federal funds at 32:1 to enhance and protect over 26 million acres of 
habitats. TWS supports $50 million for Migratory Bird Management, 
including $19 million for Joint Ventures.
                       bureau of land management
    The Wildlife and Fisheries Management (WFM) program maintains and 
restores fish, wildlife, and their habitats across a large portion of 
America's western landscapes. This includes projects to mitigate the 
effects of public land use on wildlife species and their habitat. With 
the anticipated expansion of energy development on BLM lands--and the 
associated mitigation challenges--we recommend that Congress support 
WFM professionals with at least $121 million in fiscal year 2018. We 
also appreciate the increase of $9 million in directed funds for 
greater sage-grouse conservation in fiscal year 2017 and request 
continuation of this funding in fiscal year 2018.
    The Threatened and Endangered Species Management Program (TESM) 
allows wildlife professionals at BLM to meet the agency's 
responsibilities in recovering the over 420 ESA listed species that 
occur on BLM managed lands. In a March 2001 Report to Congress, BLM 
called for a doubling of the TESM budget to $48 million over 5 years to 
meet the needs of the program. Now, over 15 years later, this goal has 
yet to be met. In light of this, we strongly encourage Congress to 
increase overall funding for TESM to $48 million in fiscal year 2018.
    TWS, co-chair of the National Horse and Burro Rangeland Management 
Coalition, recognizes horses and burros in the U.S. as ecologically 
invasive, feral species. Horse and burro populations on the range 
reached >72,000 individuals in March 2017, exceeding BLM's estimated 
threshold for ecological sustainability by >45,000 animals. In fiscal 
year 2018 the on-range population is expected to grow beyond 85,000 
animals. To achieve ecologically sustainable levels of horses and 
burros on BLM rangelands without substantial budget increases the 
current appropriations language limiting the sale and/or destruction of 
unwanted or unadoptable wild horses and burros must be removed from the 
Interior Appropriations bill. We support the President's fiscal year 
2018 request to remove this language as a way to increase program 
flexibility and enable effective implementation of the Wild Free-
Roaming Horses and Burros Act, as amended. Until Congress enables BLM 
to responsibly manage wild horses and burros by removing this text from 
the appropriations bill, Federal funds will continue to be wasted 
warehousing nearly 50,000 animals, rather than spent on productive 
rangeland management activities. Congress must enable effective 
management of wild horses and burros and our Nation's rangelands by 
empowering BLM to remove excess horses and burros from the range at a 
meaningful rate and focus resources on rangeland habitat restoration. 
Removal of this appropriations rider, as requested by the 
administration, will allow this program's budget to eventually be 
reduced, and put Federal funds toward more effective rangeland and 
wildlife management activities. TWS recommends a flat budget of $81 
million for Wild Horse and Burro Management and the removal of the 
appropriations language. We also request Congress direct BLM to 
increase gather and removal of animals from the range to meet 
ecologically sustainable populations.
                         u.s. geological survey
    As a member of the USGS Coalition, TWS supports the critical and 
unique mission of USGS to provide the country with objective scientific 
research and data collection on the complex environmental issues facing 
our Nation. TWS specifically requests at least $174 million for the 
Ecosystems Mission Area, which contains programmatic resources for 
fisheries, wildlife, environments, invasive species, and Cooperative 
Research Units (CRU).
    Within the Ecosystems Mission Area, we support at least $22 million 
for the CRU program. CRUs foster Federal, State, non-governmental 
organizations, and academic partnerships to provide actionable science 
tailored to the needs of wildlife managers on the front lines, and 
helps develop the next generation of wildlife professionals. These 
partnerships leverage more than three dollars in outside funds for 
every Federal dollar invested into the program. An increase in funding 
would allow CRUs to continue to leverage outside sources and fill 
critical vacancies within their program to serve State cooperator 
interests across the U.S.
    Climate Sciences Centers (CSC), a DOI program administered by the 
Climate and Land Use Change Mission Area, work with cooperators 
throughout their 8 regions to provide actionable climate science 
research. Following a similar model as CRUs, CSCs carry out dual roles 
by providing usable climate science research while also training the 
next generation of natural sciences professionals at host universities. 
These university partnerships have provided more than $8.2 million in 
leveraged funds to CSCs since the program's inception 7 years ago.
                          u.s. forest service
    The traditional 10-year moving average for forecasting fire 
suppression costs for the upcoming fiscal year have not met USFS 
suppression needs since fiscal year 2002. This results in funding 
transfers and shortfalls that negatively affect the ability of staff at 
USFS to implement proactive forest research and management projects. 
DOI and USFS need a long-term fire funding solution that will result in 
stable and predictable budgets. As a result, TWS supports bipartisan 
congressional efforts to address Federal fire funding challenges, 
minimize fund transfers, and address the continued erosion of agency 
budgets over time, with the goal of reinvesting in key programs that 
will restore forests to healthier more resilient conditions.
    Improving the future health and sustainability of the Nation's 
forests and grasslands requires a strong investment in USFS Research 
and Development (R&D). Through long-term monitoring and collaborative 
research efforts with States and other partners, USFS R&D generates 
broad environmental and societal benefits, including an understanding 
of wildlife-habitat relationships for multiple species and communities 
that enables informed land management decisions. TWS encourages 
Congress to increase funding for all Forest Service R&D to a minimum of 
$303 million in fiscal year 2018, including at least $220 million 
directed to Forest and Rangeland Research program areas exclusive of 
Forest Inventory and Analysis. Furthermore, TWS appreciates the $140 
million Congress provided for the applied Wildlife and Fisheries 
Habitat Management program in fiscal year 2017 and we encourage 
Congress to continue--and consider increasing--this funding in fiscal 
year 2018.

    [This statement was submitted by Bruce Thompson, President, The 
Wildlife Society.]
                                 ______
                                 
            Prepared Statement of the Yakutat Tlingit Tribe
    The requests of the Yakutat Tlingit Tribe (hereinafter ``YTT'' or 
``Tribe'') for the fiscal year 2018 Indian Health Service and 
Environmental Protection Agency appropriations are as follows:
  --Continue funding for the IHS Joint Venture Program and ensure that 
        funds for staffing packages for completed programs is made 
        available in a timely manner.
  --Fully Fund Contract Support Costs.
  --Increase the IHS services appropriation for Purchased/Referred Care 
        and the IHS facilities appropriation for Maintenance and 
        Improvement funding for healthcare facilities.
  --Permanently reauthorize the Special Diabetes Program for Indians.
  --Support the Environmental Protection Agency's Indian Environmental 
        General Assistance Program, which is needed for building 
        capacity and administering Tribal environmental programs that 
        directly affect human health.
    The Yakutat Tlingit Tribe is a federally recognized Indian Tribe 
located on the eastern shores of the Gulf of Alaska in the City and 
Borough of Yakutat, Alaska. It is only accessible by air or boat, is 
225 miles northwest of Juneau and 220 miles southeast of Cordova, 
Alaska. Due to the geographic isolation, it is imperative that the 
Tribe offer high quality services on site in Yakutat. We thus provide a 
substantial and growing array of community healthcare services and 
counseling and prevention services at the Yakutat Community Health 
Center (YCHC), through funding from the IHS as a co-signer to the 
Alaska Tribal Health Compact under the Indian Self-Determination and 
Education Assistance Act, through a community health center grant from 
the Health Resources and Services Administration, State of Alaska 
awards, and third-party collections. While the City and Borough of 
Yakutat operates a volunteer Emergency Medical Services squad, the YCHC 
is the only provider of healthcare in the community. The Yakutat 
Borough is in a Medically Underserved Area and is designated as a 
Health Professional Shortage Area for medical, dental and mental 
health.
                 funding the ihs joint venture program
    Under Section 818(e) of the Indian Health Care Improvement Act, the 
IHS is authorized to establish a Joint Venture Construction Program for 
projects in which Tribes and Tribal organizations construct, acquire or 
renovate a Tribal healthcare facility, and the IHS commits to funding 
the initial equipment and a staffing package for operation and 
maintenance of the new facility. The program is competitive, and 
priority is given to Tribes and Tribal organizations who agree to also 
fund the equipment portion of the project. Proposals are also evaluated 
on the need for space at the specific location, among other criteria.
    The Yakutat Tlingit Tribe was selected from a competitive pool of 
Tribes and Tribal organizations to participate in the IHS Joint Venture 
program, through which the Tribe commits to building a new healthcare 
facility and providing equipment funding, and IHS commits to providing 
recurring funding for staffing on completion of the construction 
project. The Tribe will be constructing a new healthcare facility in 
Yakutat, Alaska on land owned by the Tribe. The facility is expected to 
encompass just over 11,000 building gross square feet. The new facility 
will provide improved and increased health service delivery in our 
remote area, so that the Tribe can expand primary care services and 
dental care, as well as make space available for visiting specialty 
providers, health aides, preventive care, behavioral health, and the 
Tribe's administration staff.
    The Tribe believes that it is critically important for Congress to 
continue to commit to funding staffing packages and equipment related 
to the IHS joint venture program. Tribes like YTT must commit far in 
advance to construction costs and are reliant on the funding for 
staffing being available to them as quickly as possible on completion 
of the project (or even as the project is being finished). It can 
otherwise be impossible to plan for and operate a new healthcare 
facility without the security of knowing that the funding for staffing 
will be made available in a timely manner, to allow for the 
advertisement for and selection of healthcare professionals and other 
staff, and to allow time for people to relocate to Yakutat and begin 
their work.
    The Tribe thus asks this subcommittee to support the continued 
funding for the IHS Joint Venture Program and ensure that Joint Venture 
participants received their staffing funds timely.
                fully fund contract support costs (csc)
    The YTT wishes to thank Congress for fully funding CSC in fiscal 
years 2016 and 2017, and for making it an indefinite amount that is in 
a separate account in both the IHS and BIA budgets. For IHS, we 
understand the fiscal year 2017 estimate for CSC is $800 million, and 
for the BIA it is $278 million. This funding helps us to meet our own 
responsibilities under the Indian Self-Determination and Education 
Assistance Act (ISDEAA), and significantly enhances the Federal-Tribal 
government-to-government relationship. We also wish to thank the 
subcommittee for listening to Tribal comments about how the bill 
proviso in the fiscal year 2016 enacted bill effectively denied the CSC 
carryover authority authorized by the ISDEAA, and appreciate that the 
proviso was absent from the Consolidated Appropriations Act for fiscal 
year 2017.
    We ask this subcommittee to support the continued full funding of 
CSC in fiscal year 2018. However, our long-term goal is to ensure the 
indefinite appropriation of CSC funding--that it be made mandatory and 
permanent. Under the ISDEAA, the full payment of CSC is not 
discretionary, but is a legal obligation that has been affirmed by the 
United States Supreme Court.
              increase ihs services and facilities funding
    We ask that the subcommittee support an increase in funding for the 
IHS's Purchased/Referred Care (PRC) program. The Indian health system 
relies heavily on PRC funding to pay for specialty or emergency 
healthcare from outside providers. This is especially true in Alaska, 
given the remote locations and the distance required whenever a patient 
has to travel vast distances to receive care in a facility in 
Anchorage, for example, to address an emergency or see a specialist. 
While there have been increases in funding that IHS receives for PRC is 
not at all keeping up with the medical rate of inflation, and thus PRC 
funding has to be stretched further and further to provide needed care 
to patients.
    We also request your support for an increase in the IHS's 
maintenance and improvement funding (M&I) for healthcare facilities, a 
need the Tribal Budget Formulation Workgroup deems ``critical.'' The 
current IHS estimate of the backlog of essential maintenance, 
alternation and repair is $473 million. M&I funding is important to 
federally-owned and tribally-owned buildings used to provide healthcare 
services, for functions such as routine maintenance, such as emergency 
repairs, preventive maintenance activities, and maintenance supplies 
and materials; environmental compliance; and improvements, such as 
those needed for new patient care equipment or new treatment 
methodologies. This funding thus greatly supports and enhances the 
delivery of healthcare and preventive services.
    The Yakutat Tlingit Tribe doesn't qualify for M&I funding today as 
we do not currently own our facility we are currently in. However in 
fiscal year 2019, when our new clinic is open for business, we will get 
a line item budget from the YTT JVCP and we will receive funding for: 
Maintenance & Improvement (M&I), Facility Support Account (FSA), and 
Biomedical Equipment. It is a huge undertaking to build our own 
building but will need M&I funding to properly maintain the building.
                  special diabetes program for indians
    The Special Diabetes Program for Indians (SDPI) provides crucial 
funding for diabetes treatment and prevention programs for Alaska 
Natives and American Indians, among whom diabetes continues to be an 
epidemic. For YTT, we have seen significant outcomes in terms of 
dramatically increased access to treatment and prevention services. The 
SDPI has been funded at $150 million for many years, but oftentimes it 
is very close to expiring before it is reauthorized for an extended 
period of time. It is set to expire again on September 30, 2017.
    We join with others in Indian Country in recommending the permanent 
reauthorization and increased funding for the SDPI program. A permanent 
reauthorization with annual funding of $200 million would provide 
stability for our diabetes programs, which will greatly help us to plan 
the programs and to recruit and retain personnel. While we understand 
the SDPI reauthorization bill is not under purview of this 
subcommittee, the SDPI definitely affects the healthcare services we 
provide and for which this subcommittee appropriates funding. We 
request and would appreciate any assistance the subcommittee members 
could provide with your colleagues on this issue.
    Additionally, as a co-signer to the Alaska Tribal Health Compact 
(ATHC), we request an amendment to the SDPI that would simplify the 
process for us to receive our diabetes funding. The current process 
requires that the co-signers receive SDPI awards via the DHHS grants 
office and then follow Secretarial regulations before the funds are 
added to our ISDEAA funding agreements. The grant applications, 
monitoring and reporting requirements are not only burdensome, but also 
inefficient. Tribal programs should be authorized to administer SDPI 
funds as part of their ISDEAA funding agreements and have their funds 
added directly to their funding agreements without having to go through 
a grants process. The ATHC's letter and paper dated April 27, 2017, 
which was sent to the Congressional Diabetes Caucus Co-Chairs DeGette 
and Reed, provide more detail on our request.
                                  usac
    We bring to your attention a potentially devastating development 
and that is the proposal by the FCC to pro-rate by 7.5 percent the 
subsidies for Internet service. We currently have a subsidy from USAC 
that pays for our Internet so we can connect thru satellite. It is at 
$20k a month. Our portion is $500 after the subsidy. If we don't have 
that it will sink us. There is no way we can afford an additional 
$19,500 per month for connectivity. This will affect not only us but 
all Tribal health organizations in the State. Connectivity is the 
lifeline for the provision of health services in Alaska. This is 
obviously a case to be made to the FCC, but we would want this 
subcommittee and others to be aware of this issue.
        support funding the environmental protection agency igap
    Any cuts that may be made to EPA program funding will have real-
world human costs. For example, the EPA's Indian Environmental General 
Assistance Program (IGAP) funding helps Tribes to build capacity to 
administer Tribal environmental protection programs that relate 
directly to human healthcare and safety. The IGAP include a focus on 
solid waste management, such as solid waste planning, solid waste/
recycling collection and disposal services, as well as hazardous waste 
management. The program also allows us to address other environmental 
issues, such as water quality monitoring, recycling programs, and 
renewable energy, to name a few. Having these resources is essential 
for Tribes to be able to address long-standing environmental and human 
health challenges, and to recruit and retain professionals to develop 
and carry out our environmental regulatory programs, which can be very 
difficult in a remote area like Yakutat. Yakutat has been receiving 
their IGAP funds since fiscal year 1998. The funding has allowed for 
through assessments to be completed. Along with remediation of WWII 
clean up. Has provided for Wetland protection. Yakutat is resource rich 
with the Situk River that has all species of Salmon and Steelhead that 
run. This funding has allowed for baseline water quality monitoring for 
the forelands to begin. Our concerns are what is coming from up the 
River down to our foreland in Canada and Alsek. More studies need to be 
completed in this area. Yakutat truly needs a Science Center to study 
all that is happening at our doorstep.
    The Tribe is greatly concerned about the current administration's 
proposals to cut EPA funding. If EPA Tribal programs are not funded, 
that could result in catastrophic harm to the Tribe and its ability to 
address environmental concerns, and to the health and well-being of our 
Tribal members. President's Trump's preliminary budget proposal (the 
``skinny'' budget) proposes specifically to eliminate EPA's 
infrastructure assistance program for Alaska Native Villages. We are 
facing many vulnerabilities due to the changing climate in Alaska, 
including rising sea levels and degradation of our lands and food 
sources. Global warming has produced havoc in all issues. It has 
brought invasive plant species that choke out the native plants that 
Yakutat citizens rely on for Subsistence foods. Moreover, the area in 
which Yakutat is located is pristine and needs to be protected. The 
Tribe thus requests that the subcommittee support continued and 
increased funding for the EPA IGAP program and that it give full and 
open consideration to the human impacts that any reduction in the EPA 
budget may cause.
    Thank you for your consideration of the concerns and requests of 
the Yakutat Tlingit Tribe.

    [This statement was submitted by Victoria Demmert, President.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
